                        C
                   INSPE TOR GEN
              AL                E
           CI




                                           RA
       E
     SP




                                               L
                                               M
    TRO




                                           RA
          LE
      UB




                                      OG

               DA                          R
                    S S E T R E LI E F P




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement



                                                                     Quarterly Report to Congress
                                                                                    July 24, 2013
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
Message from the Special Inspector General

I am pleased to present the July 2013 Quarterly Report to Congress of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”). Congress created SIGTARP to combat white collar crime
committed by those who view Troubled Asset Relief Program (“TARP”) bailout funds as an opportunity for
fraud and other illicit activity. Congress authorized SIGTARP to investigate, search, seize, and arrest. SIGTARP
investigations have already resulted in 51 defendants sentenced to prison for their TARP-related crime.

It is morally reprehensible that anyone would commit crimes related to the TARP bailout. All TARP-related
crime equates to crime against the American taxpayers. SIGTARP generated safeguards to prevent TARP-related
fraud and developed tools to detect and stop ongoing fraud. The fraudulent schemes we have uncovered have
been creative, complex, and covert. In our 4½ years, SIGTARP investigations with its law enforcement partners
have resulted in 144 defendants being criminally charged, including 92 senior executives. Already 107 of these
defendants have been convicted, while others await trial. In addition to the 51 defendants already sentenced to
prison, 9 defendants were sentenced to probation, and 47 additional convicted defendants await sentencing. Our
investigations have resulted in court orders for $4.3 billion in assets to be returned to victims or the Government.
This includes forfeiture to the Government of 38 vehicles, 25 properties, 20 bank accounts, bags of silver, U.S.
currency, antique and collector coins, artwork, and antique furniture.

The average prison sentence for TARP-related crime investigated by SIGTARP is 68 months, nearly double the
national average length of prison sentences involving white collar crime. Ten defendants investigated by SIGTARP
were sentenced to 10 years or more in Federal prison. Many of the criminal schemes uncovered by SIGTARP had
been ongoing for years, involve millions of dollars, and complicated conspiracies with multiple co-conspirators.

In this report, we summarize several SIGTARP investigations that resulted in prison sentences including Lee
Farkas, the former chairman of Taylor, Bean, and Whitaker, who is serving a 30 year prison sentence for a nearly
10-year, $2.9 billion bank fraud scheme involving TBW and Colonial Bank, and former senior vice president of
Colonial Bank Catherine Kissick who is serving an 8 year sentence. We also discuss several bankers who have
been sentenced to prison resulting from a SIGTARP investigation including the former president of Orion Bank
Jerry Williams (sentenced to 6 years), former senior vice president of Appalachian Community Bank Adam Teague
(sentenced to 5 years), former president, CEO and chairman of FirstCity Bank Mark Conner (sentenced to 12
years), former vice president of FirstCity Clayton Coe (sentenced to 87 months), and former President and CEO
of First Community Bank Reginald Harper. We describe how the former CEO of a mortgage originator Scott
Powers and the vice president David McMaster were sentenced to 8 years and 15 years resulting from a SIGTARP
investigation for their fraud that caused $28 million in losses to TARP bank BNC National Bank, who was then
unable to pay millions of dollars in TARP dividend payments. We describe how our investigation led to Howard R.
Shmuckler being sentenced to 7½ years imprisonment for a $2.8 million scam that preyed on 865 homeowners by
making empty money-back guarantees that they would get their mortgage modified under HAMP if they paid him
a fee.

In Section 3 of this report, we examine Treasury’s data that shows that the longer homeowners remain in HAMP,
the greater the chance that they will redefault out of the program. Homeowners with HAMP modifications from
2009 are redefaulting at an alarming rate of 46%, 38% for 2010 modifications. SIGTARP made 4 recommendations
to Treasury designed to curb HAMP redefaults. I hope you find this report useful.

                                                 Respectfully yours,




                                                 CHRISTY L. ROMERO
                                                 Special Inspector General
Contents

Executive Summary	                                                       3
  Report Organization	                                                   17

Section 1
The Office of the Special Inspector General for the
Troubled Asset Relief Program	                                          19
  SIGTARP Creation and Statutory Authority	                             21
  SIGTARP Oversight Activities Since the April 2013 Quarterly Report	   21
  The SIGTARP Organization	                                             37


Section 2
tarp overview	                                                           39
  TARP Funds Update	                                                     41
  Financial Overview of TARP	                                            45
  Housing Support Programs	                                              55
  Financial Institution Support Programs	                                82
  Asset Support Programs	                                               135
  Automotive Industry Support Programs	                                 149


Section 3
Rising Redefaults of HAMP Mortgage Modifications Hurt
Homeowners, Communities, and Taxpayers	               159
  Introduction	161
  TARP and Loan Modifications	                        162
  Redefault: Impact on States and Communities	        165
  Redefault: Impact on Taxpayers Funding TARP	        170
  Redefaults Hurt Homeowners	                         171
  Why Homeowners Redefault	                           177
  SIGTARP Recommendations on HAMP Redefaults 	        183


Section 4
TARP Operations and Administration	                                     185
  TARP Administrative and Program Operating Expenditures	               187
  Financial Agents	                                                     188


Section 5
SIGTARP Recommendations	                                                199
  Update on Recommendation Regarding AIG	                               201
  Update on Recommendations Regarding Redefaults of Mortgages
  Modified Under HAMP 	                                                 203

  Endnotes	225
Appendices
A.	Glossary	                                                            248
B.	 Acronyms and Abbreviations	                                         252
C.	 Reporting Requirements	                                             254
D.	 Transaction Detail	                                                 258
E.	 Debt Agreements, Equity Agreements, and Dividend/Interest Payments	 363
F.	 HAMP Modification Statistics	                                       367
G.	 Cross-Reference of Report to the Inspector General Act of 1978	     389
H.	 Public Announcements of Audits	                                     390
I.	 Key Oversight Reports and Testimony	                                391
J.	Correspondence	                                                      393
K.	 Peer Review Results	                                                399
L.	 Organizational Chart 	                                              400
Executive Summary
4   special inspector general I troubled asset relief program
                                                                                                                                   quarterly report to congress I July 24, 2013   5




Congress created SIGTARP to combat white collar crime committed by those who
view Troubled Asset Relief Program (“TARP”) bailout funds as an opportunity for
fraud and other illicit activity. As described by Senator Max Baucus, who proposed
the creation of SIGTARP, “My concern here is, with such massive amounts of
dollars dedicated so quickly, there is bound to be considerable fraud and misuse of
funds. There are just so many dollars allocated in such a short period of time. …
the Special IG stands as the sole TARP oversight body charged with criminal law
enforcement authority. The Special IG is literally the cop on the beat.” Congress
authorized SIGTARP to investigate, search, seize, and arrest. This authority is
critical because, as Senator Chuck Grassley emphasized in November 2008, “The
stronger the watchdog, the better, given the enormous stakes for the taxpayers
with this bailout package.” To date, SIGTARP investigations have resulted in 51
defendants being sentenced to prison to pay for their TARP-related crimes.
     It is morally reprehensible that anyone would commit crimes related to the
TARP bailout. In June 2009, FBI Director Robert Mueller described how the FBI
and SIGTARP work together and accurately predicted that fraud related to TARP
would potentially be the “next wave” of cases. Director Mueller explained that
TARP funds “are inherently vulnerable to bribery, fraud, conflicts of interest, and
collusion.” Facing such a challenge, SIGTARP generated safeguards to prevent
TARP-related fraud and developed tools to detect and stop ongoing fraud. Along
with its law enforcement partners including the FBI, SIGTARP uses these tools to
root out criminals, take them out of their executive offices and off the streets, and
put them behind prison bars.
     SIGTARP’s role in combating white collar crime related to the financial crisis
is focused on only those cases related to the TARP bailout. These cases involve
either a TARP program or TARP company (as either the perpetrator or victim of
illegal activity). All TARP-related crime equates to crime against the American
taxpayers who funded the bailout. In our 4½ years, SIGTARP’s investigations with
our law enforcement partners have led to criminal charges against 144 defendants,
including 92 senior executives. Already 107 of these defendants have been
convicted, while others await trial.
     Although it takes time from the point of criminal charges to the time of
sentencing, as of July 11, 2013, 51 of these convicted defendants have already been
sentenced to prison, and others await sentencing.i In addition to these sentences,
as a result of our investigations, Federal and state courts have ordered that $4.3
billion in assets be returned to victims or the Government for TARP-related crimes.
     The consequences for TARP-related crime are severe. The average prison
sentence imposed by courts for TARP-related crime investigated by SIGTARP is
68 months, which nearly doubles the national average length of prison sentences
involving white collar fraud of 35 months.ii Ten defendants investigated by
SIGTARP were sentenced to 10 years or more in Federal prison, including Lee

i	As of July 11, 2013, a total of 60 defendants have been sentenced for their TARP related crimes investigated by SIGTARP, with
    51 receiving prison terms and 9 receiving probation instead of jail. A total of 47 defendants convicted as a result of a SIGTARP
    investigation await sentencing. Those who serve jail time are also bound to an average of 3.6 years of supervised release after their
    discharge from prison.
ii	See the U.S. Sentencing Commission’s 2012 Sourcebook of Federal Sentencing Statistics for additional information.
6                special inspector general I troubled asset relief program




                                                                        Farkas, former chairman of mortgage company Taylor, Bean and Whitaker, who
                                                                        is serving a 30-year prison sentence. Many of the criminal schemes uncovered by
                                                                        SIGTARP had been ongoing for years, involve millions of dollars, and complicated
                                                                        conspiracies with multiple co-conspirators. On average, as a result of SIGTARP
                                                                        investigations, criminals convicted of crimes related to TARP’s banking programs
                                                                        have been sentenced to serve 66 months in prison. Criminals convicted for
                                                                        mortgage modification fraud schemes or other mortgage fraud investigated by
                                                                        SIGTARP were sentenced to serve an average of 55 months in prison. Criminals
                                                                        investigated by SIGTARP and convicted of investment schemes such as Ponzi
                                                                        schemes and sales of fake TARP-backed securities were sentenced to serve an
                                                                        average of 120 months in prison.

                                                                        Sentences Resulting from TARP-Related Crimes
                                                                        Of the 107 defendants convicted as a result of a SIGTARP investigation, the
                                                                        following 51 defendants have already been sentenced to prison for TARP-related
                                                                        crimes, nine were sentenced to probation, and the remainder await sentencing.
                                                                        Figure ES.1 shows the people sentenced, the sentences they received, and their
                                                                        affiliations.

    Figure ES.1




     Lee Bentley Farkas           David McMaster               Mark Anthony McBride           Delroy Davy                  George Hranowskyj            Mark A. Conner               Eric Menden
     360 months                   188 months                   170 months                     168 months                   168 months                   144 months                   138 months
     3 years supervised release   5 years supervised release   5 years supervised release     5 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release
     Chairman                     Vice President                                                                           Owner/Operator               President                    Owner/Operator
     Taylor, Bean & Whitaker      American Mortgage                                                                        345 Granby, LLC              FirstCity Bank               345 Granby, LLC
                                  Specialists Inc.




     Robert Egan                  John Farahi                  Gordon Grigg                   Scott Powers                 Robin Bruhjell Brass         Catherine Kissick            Howard Shmuckler
     132 months                   120 months                   120 months                     96 months                    96 months                    96 months                    90 months
     3 years supervised release   3 years supervised release   3 years supervised release     5 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release
     President                    Investment Fund Manager      Financial Advisor and Owner    CEO                          Owner/Operator               Senior Vice President        Owner/Operator
     Mount Vernon Money Center    and Operator                 ProTrust Management, Inc.      American Mortgage            BBR Group, LLC               Colonial Bank                The Shmuckler Group, LLC
                                  New Point Financial                                         Specialists Inc.
                                  Services, Inc.




     Clayton A. Coe               Lori Macakanja               Jerry J. Williams              Desiree Brown                Adam Teague                  Francesco Mileto             Glenn Steven Rosofsky
     87 months                    72 months                    72 months                      72 months                    70 months                    65 months                    [deceased]
     5 years supervised release   3 years supervised release   3 years supervised release     3 years supervised release   5 years supervised release   5 years supervised release   63 months
     Vice President               Housing Counselor            President, CEO, and Chairman   Treasurer                    Vice President                                            3 years supervised release
     Senior Commercial Loan       Home Front, Inc.             Orion Bank                     Taylor, Bean & Whitaker      Appalachian Community Bank                                Owner
     Officer                      (a HUD-approved company)                                                                                                                           Nations Housing Modification
     FirstCity Bank                                                                                                                                                                  Center
                                                                                                                                                                                     Federal Housing Modification
                                                                                                                                                                                     Department
                                                                                                                                       quarterly report to congress I July 24, 2013                                    7




Frederic Gladle                 William Cody                    Delton de Armas                  Jeffrey Levine               Bernard McGarry                Richard Pinto [deceased]     Julius Blackwelder
61 months                       60 months                       60 months                        60 months                    60 months                      60 months                    46 months
3 years supervised release      5 years supervised release      3 years supervised release       5 years supervised release   3 years supervised release     5 years supervised release   no supervised release
Operator                        Owner/Operator                  CFO                              Executive Vice President     COO                            Chairman                     Manager
Timelender                      C&C Holdings, LLC               Taylor, Bean & Whitaker          Omni National Bank           Mount Vernon Money Center      Oxford Collection Agency     Friends Investment Group




Paul Allen                      Brent Merriell                  Robert E. Maloney, Jr.           Cheri Fu                     Roger Jones                    Raymond Bowman               Thomas Hebble
40 months                       39 months                       39 months                        36 months                    33 months                      30 months                    30 months
2 years supervised release      5 years supervised release      3 years supervised release       5 years supervised release   3 years supervised release     2 years supervised release   3 years supervised release
CEO                                                             In-house Counsel                 Owner/President              Nations Housing Modification   President                    Executive Vice President
Taylor, Bean & Whitaker                                         FirstCity Bank                   Galleria USA, Inc.           Center                         Taylor, Bean & Whitaker      Orion Bank
                                                                                                                              Federal Housing Modification
                                                                                                                              Department




Michael Trap                    Angel Guerzon                   Reginald Harper                  Thomas Fu                    Karim Lawrence                 Ziad Nabil Mohammed          Troy A. Fouquet
30 months                       24 months                       24 months                        21 months                    21 months                      Al Saffar                    18 months
3 years supervised release      3 years supervised release      3 years supervised release       5 years supervised release   5 years supervised release     21 months                    3 years supervised release
Owner                           Senior Vice President           President and CEO                Owner/CFO                    Loan Officer                   3 years supervised release   Owner
Nations Housing Modification    Orion Bank                      First Community Bank             Galleria USA, Inc.           Omni National Bank             Operator                     Team Management, LLC
Center                                                                                                                                                       Compliance Audit             TRISA, LLC
Federal Housing Modification                                                                                                                                 Solutions, Inc.
Department                                                                                                                                                   CAS Group, Inc.




Lynn Nunes                      Carlos Peralta                  Andrew Phalen                    Sara Beth Bushore            Daniel Al Saffar               Teresa Kelly                 Sean Ragland
12 months                       12 months                       12 months                        Rosengrant                   6 months                       3 months                     3 months
5 years supervised release      3 years supervised release      5 years supervised release       12 months                    3 years supervised release     3 years supervised release   2 years supervised release
Owner                                                           Operator                         3 years supervised release   Sales Representative           Operations Supervisor        Senior Financial Analyst
Network Funding                                                 Mortgage Solutions Specialists   Operator                     Compliance Audit               Colonial Bank                Taylor, Bean & Whitaker
                                                                                                 Compliance Audit             Solutions, Inc.
                                                                                                 Solutions, Inc.              CAS Group, Inc.
                                                                                                 CAS Group, Inc.




Mark Shoemaker                  Michael Bradley Bowen
1 day                           1 day
(with credit for time served)   (with credit for time served)
5 years supervised release      5 years supervised release
8   special inspector general I troubled asset relief program




                                           TARP-Related Schemes and Criminals
                                           The fraudulent schemes SIGTARP has uncovered have been creative, complex,
                                           and covert. With each investigation, SIGTARP achieves greater knowledge
                                           and efficiency to detect and unravel TARP-related schemes, and we share that
                                           knowledge with our law enforcement partners. As the co-chair of the President’s
                                           Financial Fraud Enforcement Task Force Rescue Fraud Working Group, SIGTARP
                                           leverages the resources of partner agencies across the nation.
                                               We have developed invaluable analytical expertise in proactively collecting
                                           and analyzing complex financial information on institutions, corporate insiders,
                                           and affiliated parties. This expertise has allowed SIGTARP to identify ongoing
                                           and historical complex fraud schemes within institutions when no whistleblower
                                           complaints have been lodged. We established a team of computer forensic
                                           agents capable of obtaining electronic materials and evidence, and processing
                                           the materials exceptionally fast, thereby allowing investigations to proceed at
                                           an accelerated pace in unraveling these complex financial schemes. These
                                           investigative tools and expertise have allowed SIGTARP to combat white collar
                                           crime that had been undetected for years until a bank applied for TARP funds
                                           and came under the scrutiny of SIGTARP. For example:

                                           Corrupt Former Chairman of Mortgage Lender Sentenced to 30
                                           Years in Federal Prison and Former Senior Vice President of Bank
                                           Sentenced to Eight Years for $2.9 Billion Bank Fraud Scheme, One
                                           of the Largest and Longest-Running Ever, Which SIGTARP Stopped
                                           Before Taxpayers Would Have Lost More Than $550 Million in
                                           TARP Funds
                                           On June 30, 2011, Lee Bentley Farkas, the former chairman of Taylor, Bean, and
                                           Whitaker (“TBW”), based in Ocala, Florida, was sentenced to 30 years in Federal
                                           prison, to be followed by three years of supervised release, and ordered to forfeit
                                           more than $38.5 million in fraudulently-acquired gains. Previously, after a 10-day
                                           trial, a Federal jury found Farkas guilty of six counts of bank fraud, four counts
                                           of wire fraud, and three counts of securities fraud, in addition to other criminal
                                           offenses.
                                               Farkas was the mastermind behind a nearly 10-year, $2.9 billion bank fraud
                                           scheme, one of the largest and longest-running in the United States. At one time,
                                           TBW was one of the largest privately held mortgage lending companies in the
                                           United States. Beginning in 2002, Farkas and his co-conspirators at TBW and
                                           Colonial Bank—one of the 25 largest banks in the U.S. at the time—started a
                                           scheme to steal billions of dollars from the bank to hide TBW’s steep operating
                                           losses. The scheme soon escalated to selling and pledging billions in fake mortgage
                                           assets to plug holes in the company’s balance sheets, and to cover their tracks.
                                               Farkas’s scam began to collapse when SIGTARP investigators initially identified
                                           suspicious activity in connection with Colonial BancGroup’s (Colonial Bank’s
                                           parent) $570 million TARP application, which contained false and misleading
                                           information provided by Farkas and his co-conspirators to deceive the Government.
                                           SIGTARP and our law enforcement partners then quickly unraveled this massive
                                                                                 quarterly report to congress I July 24, 2013   9




fraud. SIGTARP promptly alerted Treasury, thereby stopping Colonial BancGroup
from receiving $553 million in TARP funds that Treasury had already approved.
Farkas’s massive fraud ultimately led to the failure of both TBW and Colonial.
     Before the collapse of both TBW and Colonial, Farkas personally stole more
than $38 million from TBW and Colonial Bank, using the money to finance his
extravagant lifestyle, including buying a private jet, a sea plane, a large collection
of expensive antique cars such as a 1963 Rolls Royce, vacation homes, and
restaurants. SIGTARP has assisted in the seizure of Farkas’s assets.
     On June 17, 2011, one of Farkas’s co-conspirators, Catherine Kissick, a former
senior vice president at Colonial Bank, was sentenced to eight years in Federal
prison on one count of conspiracy to commit bank, wire, and securities fraud,
after pleading guilty to her crimes. Although Kissick had a fiduciary duty as a
senior officer of the bank and the ability to blow the whistle on Farkas’s fraud in
its infancy, she instead played an active role in perpetrating and concealing the
massive scheme. At sentencing, U.S. District Judge Leonie Brinkema characterized
the lengths of Kissick’s deception, “Seven years this was going on…at any point
you could have gone to the auditors.” Five of Farkas’s other co-conspirators were
also sentenced to Federal prison for their roles in his fraud, including, TBW’s
former treasurer, (Desiree Brown – six years; three years of supervised release),
TBW’s former chief financial officer (Delton de Armas – five years; three years of
supervised release), TBW’s former chief executive officer (Paul Allen – 40 months;
two years of supervised release), TBW’s former president (Raymond Bowman –
30 months; two years of supervised release), and a former operations supervisor
for Colonial Bank’s Mortgage Warehouse Lending Division (Teresa Kelly – three
months; three years of supervised release).

Former Senior Bank Officer Sentenced to Five Years in Federal Prison
for Bank Fraud Conspiracy in Which He Abused His Position to Hide
Past-Due Bank Loans, Unjustly Enriching Himself in the Process
On April 5, 2013, Adam Teague, a former senior vice president and senior loan
officer of Appalachian Community Bank (of Ellijay, Georgia), was sentenced to
five years, 10 months in Federal prison, to be followed by five years of supervised
release, and ordered to forfeit $5.8 million, an amount equal to the illegal proceeds
he obtained as a result of his conspiracy. Teague previously pled guilty to conspiring
to defraud the bank. Teague was banned from working in the banking industry.
    Driven by greed and risky behavior, Teague engaged in an “extend and
pretend” scheme using the proceeds of new bank loans to hide past-due loans and
fraudulently mask Appalachian’s true financial condition. Teague took advantage
of his position, abused his power, and deceived the bank, fraudulently causing
Appalachian to extend loans to shell companies Teague and his co-conspirators
created. For example, Teague hid the bank’s growing inventory of foreclosed
property by directing the bank to finance sales of the properties to buyers including
two Teague-controlled shell companies, GPH (“God Please Help”) Investments and
PHL (“Please Help Lord”) Investments. To execute his crime, Teague also altered
bank records and caused an Appalachian bank account his private company held
10   special inspector general I troubled asset relief program




                                            to be overdrawn, exceeding his lending authority at the bank in the process. Teague
                                            created sham real estate transactions with a co-conspirator and caused the bank to
                                            make nearly $7 million in fraudulent loans to prevent the FDIC from discovering
                                            past-due loans on Appalachian’s books.
                                                In addition, Teague and a co-conspirator caused Appalachian to finance their
                                            purchase of two condominiums through the shell companies they established.
                                            Approximately two months later, Teague and the co-conspirator refinanced
                                            these mortgages, pocketing more than $875,000, and used the funds to pay off
                                            personal debts, make monthly loan payments on the refinanced mortgages, pay
                                            condominium fees, and purchase new furniture for the properties.
                                                During the course of Teague’s scheme, in October 2008, Appalachian applied
                                            for, but did not receive, $27 million in TARP funding. Teague’s actions and his
                                            fraudulent scheme ultimately contributed to the failure of the bank in 2010.

                                            Former President of Orion Bank Sentenced to Six Years in Federal
                                            Prison for Conspiracy to Commit Bank Fraud and for Deceiving
                                            Regulators by Concealing the Bank’s Worsening Condition
                                            On June 13, 2012, Jerry J. Williams, president, chief executive officer, and
                                            chairman of Orion Bank (of Naples, Florida), was sentenced to six years in Federal
                                            prison, to be followed by three years of supervised release, for conspiracy to
                                            misapply funds by a bank officer; to make false entries in the books and records of
                                            Orion Bank; to commit bank fraud and to obstruct a bank examination, as well as
                                            for making false statements to bank examiners, after previously pleading guilty to
                                            his crimes. Williams was banned from working in the banking industry.
                                                Like thousands of banks during the financial crisis, Orion faced mounting
                                            past-due loans and low capital. However, while other bankers told the truth about
                                            past-due loans and losses, Williams orchestrated a complex conspiracy to mislead
                                            state and Federal regulators as to the bank’s true financial condition. Williams
                                            directed his co-conspirators to engage in a roundtrip transaction to give the
                                            appearance that they were raising $15 million in legitimate capital for the bank,
                                            when it was in reality the bank’s own money, despite knowing that this type of
                                            transaction violated banking laws and regulations. Williams falsified bank records
                                            in order to create the illusion that non-performing loans were in fact performing.
                                            Williams caused an Orion senior executive to present loan packages for approval
                                            to the Board Loan Committee that Williams knew contained materially false and
                                            misleading information. Williams then lied to regulators about the source of the
                                            funds and provided false documentation to examiners to mislead their efforts.
                                            Orion Bancorp, Inc., the parent company of Orion Bank, unsuccessfully sought
                                            $64 million in TARP support.
                                                On October 25, 2011, Williams’s co-conspirators were sentenced for their
                                            participation in this conspiracy, including Orion’s former executive vice president
                                            (Thomas Hebble – 30 months; three years of supervised release), its former senior
                                            vice president (Angel Guerzon – 24 months; three years of supervised release), and
                                            fraudulent investor Francesco “Frank” Mileto (65 months; five years of supervised
                                            release).
                                                                                quarterly report to congress I July 24, 2013   11




Former President, Chief Executive Officer, and Chairman of FirstCity
Bank Sentenced to 12 Years and Former Vice President Sentenced to
Seven Years and Three Months for Fraudulently Deceiving the Bank
into Granting Loans that Personally Benefitted Them
On August 9, 2012, Mark A. Conner, the former president, chief executive officer,
and chairman of FirstCity Bank (of Stockbridge, Georgia), was sentenced to serve
12 years in Federal prison, to be followed by five years of supervised release, after
pleading guilty to bank fraud conspiracy and perjury for his role in a multi-million
dollar scheme. On May 7, 2013, his co-conspirator, Clayton A. Coe, a former vice
president and former senior commercial loan officer at FirstCity, was sentenced to
87 months in Federal prison, to be followed by five years of supervised release, for
bank fraud and for filing a false Federal income tax return. Both previously pled
guilty for their crimes.
    As part of their fraudulent scheme, Conner and Coe presented false and
misleading information to FirstCity’s loan committee and Board of Directors
to secure multiple multi-million dollar commercial loans for borrowers. The
conspirators, however, hid from the loan committee the true purpose and terms
of the loans, which in fact, were designed and used to purchase property owned
by Conner or Coe personally. Conner alone reaped $7 million in proceeds from
the loans. Separately, Conner, Coe, and their co-conspirators then caused at least
10 other Federally insured banks to invest in, or “participate in” the fraudulent
loans based on these and other fraudulent misrepresentations, shifting all or part
of the risk of default to the other banks. Connor moved foreclosed properties off
the bank’s books by sales to straw buyers, disguising that the bank actually funded
the purchases. Coe also defrauded FirstCity by tricking the bank’s loan committee
into approving an $800,000 real estate loan from which he personally benefitted.
Although unsuccessful, Conner also attempted to steal more than $6 million in
TARP funds for FirstCity to plug the hole caused by the scheme.
    In addition to their jail sentences, Conner and Coe were ordered to pay, joint
and severally, restitution in the amount of $19.5 million to the FDIC and victim
banks. Conner also consented to forfeit $7 million, including $1.7 million in
cash and interests in multiple pieces of property in Georgia and Virginia. Coe
was separately ordered to pay $122,285 in restitution to the IRS for back taxes
owed. On March 1, 2013, FirstCity’s former in-house counsel, Robert E. Maloney,
was sentenced to 39 months in Federal prison, to be followed by three years of
supervised release, and ordered to pay $10.5 million in restitution for his role in
aiding the scheme to defraud the bank. Conner, Coe, and Maloney were all banned
from working in the banking industry for life.

Former Bank President and Real Estate Developer Sentenced to
Federal Prison for Their Fraudulent Conspiracy to Hide Loans They
Arranged That Became Delinquent as the Real Estate Market Dried Up
On April 4, 2013, Reginald A. Harper, the former president and chief executive
officer of First Community Bank (of Hammond, Louisiana) was sentenced to 24
months in Federal prison, to be followed by three years of supervised release. The
12   special inspector general I troubled asset relief program




                                            court also sentenced Harper’s co-conspirator, Troy A. Fouquet, a local real estate
                                            developer and customer of the bank, to 18 months in Federal prison, followed by
                                            three years of supervised release. Both previously pled guilty to their bank fraud
                                            conspiracy.
                                                Before their fraud began, Harper, on behalf of First Community, loaned
                                            Fouquet and his companies over $2 million to develop houses on newly developed
                                            real estate. Although Harper and Fouquet planned to pay off the loans and provide
                                            Fouquet with money from mortgages to be obtained by prospective homeowners,
                                            this never happened, and Fouquet failed to repay the loans.
                                                But, rather than recognizing their losses, Harper and Fouquet devised various
                                            schemes to avoid reporting the delinquent loans. For example, to cover-up the bad
                                            debts, Harper gave money in the form of “loans” to the prospective home buyers,
                                            apparently boosting their wealth, to deceive the mortgage lender. Harper authorized
                                            new First Community Bank loans for “straw” borrowers to generate proceeds to
                                            pay off the original loans made to Fouquet and/or his companies. Fouquet also gave
                                            Harper checks that were not backed up with sufficient funds. Harper nonetheless
                                            used the checks to credit the loan payment in First Community Bank’s books and
                                            records.
                                                Harper and Fouquet’s fraud eventually impacted the bank’s application for
                                            TARP funds. Although Treasury approved $3.3 million in TARP funds, the bank
                                            later withdrew its application. The fraudulent scheme caused significant losses to
                                            First Community Bank and endangered the bank’s ability to serve its community.
                                            Harper and Fouquet were also ordered to pay over $570,000 in restitution to the
                                            victim of their crime, First Community Bank. Harper was also ordered to pay a
                                            $25,000 fine and was banned from working in the banking industry.

                                            A Convicted Felon, and Disbarred Attorney, Was Sentenced to 7½
                                            Years in Federal Prison for an Elaborate Mortgage Modification Scam
                                            That Preyed on Desperate Clients, Allowing Him to Pocket Their
                                            Money While Steering Them Headfirst into Foreclosure
                                            On June 26, 2012, Howard R. Shmuckler, a convicted felon and disbarred
                                            attorney, who owned and operated a mortgage-rescue business in a Virginia suburb
                                            just outside of Washington DC, was sentenced to 7½ years in Federal prison,
                                            to be followed by three years of supervised release, for a fraudulent mortgage
                                            modification scheme. Previously, Shmuckler pled guilty to six counts of wire fraud.
                                                Shmuckler’s mortgage modification scheme was abhorrent. Preying on
                                            struggling homeowners who were desperate for any kind of help, he stole from
                                            those who could least afford it. Making empty promises that upfront payments
                                            by the victims would turn into reduced mortgage payments, he convinced 865
                                            homeowners to spend their last pennies not on food, utilities, or staying current on
                                            their mortgage, but to line his own pockets. He exploited homeowners desperately
                                            seeking support through Federal housing programs, including HAMP, TARP’s
                                            signature housing program, by making empty money-back guarantees that the
                                            homeowners would get their mortgage modified in exchange for an upfront fee.
                                                                                  quarterly report to congress I July 24, 2013   13




    From June 2008 through March 2009, Shmuckler’s operation took in nearly
$2.8 million from approximately 865 clients who paid anywhere from $2,500
to $25,000. To lure in his clients, Shmuckler misrepresented that “97% of our
qualified homeowners get a modified loan.” Shmuckler instructed his clients to not
talk to their lender and to stop paying their mortgage. Shmuckler performed little,
if any service for these homeowners, often doing nothing to facilitate a mortgage
modification. Many of his victims lost their homes to foreclosure.

Former Chief Executive Officer and Vice President of a Residential
Mortgage Loan Originator Sentenced to Eight Years and 15 Years,
Separately, for Their Scheme to Defraud a TARP-Recipient Bank by
Fraudulently Inflating Their Books to Cover Losses from the Downturn
in the Housing Market
On June 28, 2013, Scott N. Powers, the former chief executive officer of Arizona-
based residential mortgage loan originator American Mortgage Specialists Inc.
(“AMS”), and David E. McMaster, an AMS vice president, were sentenced to serve
96 months in prison, to be followed by five years of supervised release, and 188
months in prison, to be followed by five years of supervised release, respectively, for
their roles in a $28 million scheme to defraud North Dakota-based BNC National
Bank (“BNC”), a TARP recipient. In addition to their prison terms, Powers and
McMaster were ordered to pay approximately $28 million in restitution and
forfeiture.
     AMS was in the business of originating residential real estate mortgage loans
to borrowers and then selling the loans to institutional investors. In 2006, AMS
entered into a loan agreement with BNC whereby BNC funded the loans issued
by AMS. BNC was supposed to be repaid when AMS sold the loans; however,
AMS had a giant, multi-million dollar hole on its books. AMS looked to BNC to
fill that hole with more and more money by lying to BNC about the sale of loans.
This scheme left TARP-recipient BNC with $28 million in losses and expenses and
unable to repay TARP or make its TARP dividend payments for three years.
      Powers and McMaster deliberately misled BNC by providing false financial
information about AMS, which threatened the viability of BNC and put its
employees, customers, and taxpayers’ TARP investment at risk. American taxpayers
invested $20 million of TARP funds in BNC to stabilize the bank, not to provide
an opportunity to fund crime. Powers and McMaster used BNC as their personal
piggy bank, and the bank was unable to pay millions of dollars in TARP dividend
payments owed to American taxpayers.

TARP-Related Criminal and Civil Charges
SIGTARP’s investigations concern a wide range of possible wrong-doing, including:
bank fraud, accounting fraud, securities fraud, insider trading, mortgage fraud,
mortgage-servicer misconduct, fraudulent advance-fee schemes, public corruption,
false statements (including to SIGTARP agents), obstruction of justice, theft of
14                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         trade secrets, money laundering, bankruptcy fraud, and tax-related matters, among
                                                         others.iii
     FIGURE ES.2                                             Common criminal charges resulting from SIGTARP investigations included
     CRIMINAL CHARGES FROM                               bank fraud, conspiracy to commit fraud or to defraud the United States, wire fraud,
     SIGTARP INVESTIGATIONS                              mail fraud, making false statements to the Government, securities fraud, money
     RESULTING IN PRISON
     SENTENCES
                                                         laundering, and bankruptcy fraud. Figure ES.2 represents a breakdown of criminal
                                                         charges from SIGTARP investigations resulting in prison sentences.
      3%
                                                             Although SIGTARP is a criminal law enforcement agency, SIGTARP also works
     3%
                  13%                                    with civil authorities to bring civil actions for violations of the law. These civil
     5%
                             32%                         actions may follow criminal charges, or in some cases there may be civil charges
            6%                                           but not criminal charges.
               15%
                        23%
                                                             SIGTARP investigations have resulted in 102 civil charges and other actions
                                                         against 58 individuals (including 44 senior executives) and 47 corporate entities.
                                                         These charges have resulted in 55 settlements yielding over $282 million in civil
          Conspiracy to Commit Fraud
                                                         penalties and other actions.
          Bank Fraud

          Wire Fraud
                                                         Location of TARP-Related Crimes
          Mail Fraud
                                                         SIGTARP has found, investigated, and supported the prosecution of TARP-related
          False Statements
                                                         crime throughout the nation. Our investigations have led to criminal charges by
          Securities Fraud

          Money Laundering
                                                         prosecutors against 144 defendants (107 of which have been convicted to date
          Other (e.g. bankruptcy fraud, aggravated
                                                         while others await trial).iv Many of these defendants committed their alleged crimes
          identity theft, false tax returns)             against victims in multiple states. These defendants were charged in courts in 17
                                                         states plus the District of Columbia. Figure ES.3 shows locations of U.S. Attorney’s
                                                         offices where criminal charges were filed as a result of SIGTARP investigations.v




                                                         iii	 The prosecutors partnered with SIGTARP ultimately decide which criminal charges to bring resulting from SIGTARP’s investigations.
                                                         iv	Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
                                                         v	The prosecutors partnered with SIGTARP ultimately decide the venue in which to bring criminal charges resulting from SIGTARP’s
                                                              investigations.
                                                                                                                   quarterly report to congress I July 24, 2013   15




FIGURE ES.3

LOCATIONS WHERE CRIMINAL CHARGES WERE FILED AS A RESULT OF
SIGTARP INVESTIGATIONS



                                            Fargo
                                                                                                                Concord
                                                                                                                  Boston
                                                                                     Buffalo      Brooklyn
                                                                                                New York       New Haven
                                                                                                             Newark
 Sacramento                                                              Chicago
                                                                                             Wilmington
                                                                               District of Columbia    Upper Marlboro
    San Francisco                                                                                    Alexandria
                                                                      Springfield
                                                        Kansas City
                                                                                                        Norfolk
        Las Vegas
                                                                               Nashville
Los Angeles
               Riverside
              San Diego                                                              Atlanta
                                                                                       Macon


                                                                                      Tallahassee
                                                                      New Orleans
                                                                                               Tampa




Los Angeles, California           Tallahassee, Florida                          Las Vegas, Nevada
California Central District       Northern District of Florida                  District of Nevada
Sacramento, California            Macon, Georgia                                Concord, New Hampshire
California Eastern District       Middle District of Georgia                    District of New Hampshire
Sacramento, California            Atlanta, Georgia                              Newark, New Jersey
Superior Court of California      Northern District of Georgia                  District of New Jersey
San Francisco, California         Springfield, Illinois                         Brooklyn, New York
California Northern District      Central District of Illinois                  Eastern District of New York
San Diego, California             Chicago, Illinois                             Buffalo, New York
Southern District of California   Northern District of Illinois                 Western District of New York
New Haven, Connecticut            New Orleans, Louisiana                        New York, New York
District of Connecticut           Eastern District of Louisiana                 Southern District of New York
Wilmington, Delaware              Upper Marlboro, Maryland                      Alexandria, Virginia
District of Delaware              Prince George’s District Court                Eastern District of Virginia
District of Columbia              Boston, Massachusetts                         Nashville, Tennessee
U.S. Department of Justice        District of Massachusetts                     Middle District of Tennessee
Tampa, Florida                    Kansas City, Missouri                         Fargo, North Dakota
Middle District of Florida        Western District of Missouri                  District of North Dakota



Restitution and Forfeiture from TARP-Related Crimes
Investigations conducted by SIGTARP have resulted in more than $4.3 billion in
court orders for the return of money to victims or the Government. This includes
orders of restitution to victims and forfeiture to the Government of numerous
assets, including 38 vehicles, 25 properties (including businesses and water-front
homes), 20 bank accounts (including a bank account located in the Cayman
Islands), bags of silver, U.S. currency, antique and collector coins (including gold,
silver, and copper coins), artwork, and antique style furniture (including 19th
century European oil paintings, Remington recast bronze sculptures, and a pair
of bronze candelabra with green malachite columns), Civil War memorabilia,
16   special inspector general I troubled asset relief program




                                            NetSpend Visa and CashPass MasterCard debit cards, Western Union money
                                            orders with the “Pay To” line blank, and the entry of 15 money judgments by courts
                                            against various defendants to repay victims’ losses. Additionally, one of SIGTARP’s
                                            investigations revealed alleged bribes made to an executive of a TARP-recipient
                                            bank in the form of monthly cash payments up to $5,000 hidden in cigar boxes.
                                            Of the 38 vehicles ordered to be forfeited (including automobiles, water craft,
                                            recreational and commercial vehicles) several are antique and expensive cars,
                                            including a 1969 Shelby Mustang, a 1932 Ford Model A, a 1954 Cadillac Eldorado
                                            convertible, a 1963 Rolls Royce, and a 1965 Shelby Cobra.
                                                Some examples of assets seized by the Government in SIGTARP investigations
                                            are included in Figure ES.4:

                                            Figure ES.4




                                            2005 Hummer H2. Estimated value in 2013:        2010 Mercedes-Benz GLK 350 4Matic.
                                            $24,000. (Source Kelley Blue Book)              Estimated value in 2013: $29,000. (Source
                                                                                            Kelley Blue Book)




                                            1958 Mercedes-Benz Cabriolet 220. Estimated     Property located in Norfolk, Virginia. (Photo
                                            value in 2013: $185,000. (Source Hagerty.com)   courtesy of Bill Tiernan, The Virginian-Pilot)




                                                                                            19th century English painting of
                                                                                            “Royal Family,” oil on canvas.
                                                                                            Estimated appraised value:
                                                                                            $6,000.
                                                                                               quarterly report to congress I July 24, 2013   17




Property located in Chesapeake, Virginia. (Photo   French-style gilt, bronze, and green malachite
courtesy of Bill Tiernan, The Virginian-Pilot)     columnar 16-light torchères with bronze
                                                   candelabra arms. Estimated appraised value:
                                                   $8,000.


    SIGTARP currently has more than 150 ongoing investigations. We will
continue to exercise our expertise in rooting out and stopping TARP-related
crime and will work swiftly, in partnership with our law enforcement partners,
to investigate and bring to justice unscrupulous bankers, business owners, and
individuals — including those in positions of power and responsibility — who
defraud investors, victimize homeowners, and seek to benefit themselves or their
companies from TARP at taxpayers’ expense. Importantly, SIGTARP will stay “on
watch” for years to come. For crimes related to TARP, be they past, present, or
future, whether the company remains an active TARP participant or has exited
the program, any and all guilty parties should expect to be held accountable for
their crime.




Report Organization
The report is organized as follows:

•	 Section 1 discusses SIGTARP’s actions to fulfill its mission of advancing
   economic stability through transparency, coordinated oversight, and robust
   enforcement.
•	 Section 2 details how Treasury has spent TARP funds and contains an
   explanation or update of each program.
•	 Section 3 discusses how rising redefaults of HAMP mortgage modifications hurt
   homeowners, communities, and taxpayers.
•	 Section 4 describes the operations and administration of the Office of Financial
   Stability, the office within Treasury that manages TARP.
•	 Section 5 discusses SIGTARP’s recommendations.

    The report also includes numerous appendices containing, among other things,
figures and tables detailing all TARP investments through June 30, 2013, except
where otherwise noted.
18   special inspector general I troubled asset relief program
              The Office of the Special
Sect io n 1   Inspector General for the
              Troubled Asset Relief Program
20   special inspector general I troubled asset relief program
                                                                                                                  quarterly report to congress I July 24, 2013   21




SIGTARP Creation and Statutory Authority
The Office of the Special Inspector General for the Troubled Asset Relief
Program (“SIGTARP”) was created by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) as amended by the Special Inspector General
for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA
and the SIGTARP Act, SIGTARP has the responsibility, among other things, to
conduct, supervise, and coordinate audits and investigations of the purchase,
management, and sale of assets under the Troubled Asset Relief Program (“TARP”)
or as deemed appropriate by the Special Inspector General. SIGTARP is required
to report quarterly to Congress to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP Oversight Activities Since the April
2013 Quarterly Report
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 21 published audits and evaluations, and 121 recommendations as of June
30, 2013, and promoting transparency in TARP and the Government’s response to
the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of July 11, 2013, SIGTARP
had more than 150 ongoing criminal and civil investigations, many in partnership
with other agencies in order to leverage resources. SIGTARP takes its law
enforcement mandate seriously, working hard to deliver the accountability the
American people demand and deserve. SIGTARP’s investigations have delivered
substantial results, including:

•	 criminal chargesi against 144 individuals, including 92 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations

i Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
22   special inspector general I troubled asset relief program




                                            •	 criminal convictions of 107 defendants
                                            •	 prison sentences for 51 defendants (others are awaiting sentencing)
                                            •	 civil cases and other actions against 58 individuals (including 44 senior officers)
                                               and 47 entities (in some instances an individual will face both criminal and civil
                                               charges)
                                            •	 orders temporarily suspending or permanently banning 37 individuals from
                                               working in the banking or financial industry, working as a contractor with the
                                               Federal Government, or working as a licensed attorney
                                            •	 orders of restitution and forfeiture and civil judgments entered for $4.3 billion.
                                               This includes restitution orders entered for $3.8 billion, forfeiture orders
                                               entered for $215 million, and civil judgments and other orders entered for
                                               $282 million. Although the ultimate recovery of these amounts is not known,
                                               SIGTARP has already assisted in the recovery of $161.9 million. These orders
                                               only happen after conviction and sentencing or civil resolution and many
                                               SIGTARP cases have not yet reached that stage; accordingly, any recoveries that
                                               may come in these cases would serve to increase the $161.9 million
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                               the now-failed Colonial Bank

                                                SIGTARP investigates white-collar fraud related to TARP. These investigations
                                            include, for example, accounting fraud, securities fraud, insider trading, bank
                                            fraud, mortgage fraud, mortgage modification fraud, false statements, obstruction
                                            of justice, money laundering, and tax crimes. Although the majority of SIGTARP’s
                                            investigative activity remains confidential, over the past quarter there have been
                                            significant public developments in several SIGTARP investigations.

                                            Chief Executive Officer, Senior Executives, and Borrower Convicted in
                                            Massive Fraud Scheme that Led to Collapse of TARP Applicant Bank –
                                            The Bank of the Commonwealth
                                            On May 24, 2013, three top executives at The Bank of the Commonwealth
                                            (“BOC”) and a favored borrower were convicted in a jury trial in Federal court in
                                            Norfolk, Virginia, on charges relating to their roles in a $41 million bank fraud
                                            scheme that masked non-performing assets at the bank for their own personal
                                            benefit and contributed to the failure of BOC in 2011.
                                                Edward J. Woodard, the bank’s former chief executive officer, president,
                                            and chairman of the board, was convicted of conspiracy to commit bank fraud,
                                            substantive bank fraud, false entry in a bank record, unlawful participation in a
                                            loan, and false statement to a financial institution. Stephen G. Fields, the bank’s
                                            former executive vice president and commercial loan officer, was convicted of
                                            conspiracy to commit bank fraud, false entry in a bank record, false statement to a
                                            financial institution, and misapplication of bank funds. Troy Brandon Woodard, the
                                            son of Edward Woodard and the former vice president and mortgage loan specialist
                                            at a subsidiary of BOC, was convicted of conspiracy to commit bank fraud and
                                            unlawful participation in a loan. Dwight A. Etheridge, a favored BOC borrower
                                            who owned and operated a residential and commercial development company, was
                                                                                quarterly report to congress I July 24, 2013   23




convicted of conspiracy to commit bank fraud, misapplication of bank funds, and
false statement to a financial institution. All four defendants are scheduled to be
sentenced in September 2013.
    BOC was a community bank headquartered in Norfolk, Virginia, that failed
in September 2011. It was the eighth largest bank failure in the country that year
and the largest bank failure in Virginia since 2008. The Federal Deposit Insurance
Corporation (“FDIC”) estimates that BOC’s failure will cost the deposit insurance
fund more than $268 million. In November 2008, BOC sought $28 million in
TARP funds. Subsequently, BOC’s Federal banking regulator asked the bank to
withdraw the TARP application, which BOC did.
    From 2005 to 2009, BOC more than doubled its assets, largely through
brokered deposits, a financial tool that allows investors to pool their money and
receive higher rates of returns. Because of the high volatility of these deposits, an
institution must remain well-capitalized to accept and renew brokered deposits.
BOC funded and administered many loans during this period without following
industry standards or the bank’s own internal controls, and by 2008, the volume
of the bank’s troubled loans and foreclosed real estate soared. From 2008 to
2011, BOC executives used various methods to fraudulently mask the bank’s true
financial condition out of fear that the bank’s declining health would negatively
impact investor and customer confidence and affect the bank’s ability to accept and
renew brokered deposits.
    To fraudulently hide BOC’s troubled assets, the bank insiders overdrew demand
deposit accounts to make loan payments, extended new loans or additional
principal on existing loans to cover payment shortfalls, changed the terms of loan
agreements to make loans appear current, and used funds from related entities
(sometimes without authorization from the borrower) to make loan payments.
In addition, the BOC executives hid millions of dollars of non-performing loans
from the bank’s board of directors. The BOC executives also provided preferential
treatment to troubled borrowers, including Etheridge and others, to purchase
defaulted property. The borrowers were already having difficulty making payments
on their existing loans and the financing allowed the borrowers to convert these
non-earning assets into earning assets. In some instances, these new loans
exceeded the purchase price of the property, which resulted in the borrowers
obtaining cash at closing that they used to make payments on their other loans
at the bank and for their own personal purposes. In addition, BOC executives
caused the bank to fund loans to troubled borrowers to purchase or attempt to
purchase properties owned by Edward Woodard and Troy Brandon Woodard. BOC
subsequently charged off $9 million of these loans as a loss. In addition, Edward
Woodard and Troy Brandon Woodard caused BOC to pay fraudulent invoices
for construction costs for a bank branch when the true costs were incurred for
renovations to Troy Brandon Woodard’s personal residence.
    Seven other individuals have been charged (six of whom pled guilty) in
connection with the investigation:
24   special inspector general I troubled asset relief program




                                            •	 On September 26, 2012, and October 15, 2012, business partners Eric H.
                                               Menden and George P. Hranowskyj, respectively, were sentenced to prison for
                                               their roles in the bank fraud scheme. Menden was sentenced to 11.5 years in
                                               Federal prison followed by three years of supervised release. Hranowskyj was
                                               sentenced to 14 years in Federal prison followed by three years of supervised
                                               release. Menden and Hranowskyj were ordered to pay $32.8 million in
                                               restitution and to forfeit $43.5 million. On January 25, 2012, Natallia Green,
                                               a former employee of Menden and Hranowskyj, was sentenced to five years’
                                               probation and was ordered to pay $106,519 in restitution after pleading guilty
                                               to making a false statement to BOC in a loan application. On August 10, 2011,
                                               Maria Pukhova, another former employee of Menden and Hranowskyj, was
                                               charged with making a false statement on a loan application to BOC in April
                                               2010. Pukhova’s case is pending.
                                            •	 On August 24, 2012, Thomas E. Arney, a BOC customer, pled guilty to
                                               conspiracy to commit bank fraud, unlawful monetary transactions, and making
                                               false statements to a financial institution. Arney was a real estate developer
                                               and businessman in Norfolk, Virginia. Arney admitted performing favors for
                                               BOC insiders in exchange for preferential treatment that harmed the bank.
                                               Arney also admitted to helping these BOC insiders fraudulently conceal the
                                               extent of BOC’s non-performing assets by purchasing BOC-owned properties.
                                               Specifically, despite Arney having difficulty staying current on $7 million
                                               in loans he guaranteed at BOC, BOC insiders arranged for BOC to fund
                                               additional loans to Arney (sometimes through nominee borrowers for Arney),
                                               the proceeds of which Arney used to make payments on past-due loans at BOC
                                               and for his personal and business expenses. In addition, Arney further admitted
                                               that he purchased a condominium owned by Edward Woodard with a BOC
                                               loan arranged by BOC executive vice president and commercial loan officer
                                               Stephen G. Fields. Arney admitted to purchasing the condominium as a favor to
                                               Woodard and in return for preferential treatment on his BOC loans. Arney faces
                                               a maximum penalty of 20 years in prison when he is sentenced on
                                               July 22, 2013.
                                            •	 On May 9, 2012, Jeremy C. Churchill, a BOC vice president and commercial
                                               loan officer, pled guilty to conspiracy to commit bank fraud. Churchill admitted
                                               that he submitted loan requests to the bank to provide more than $1 million
                                               to companies owned by Etheridge. BOC subsequently fully charged off these
                                               $1 million in loans as a loss. Churchill also admitted to requesting that BOC
                                               provide a $4.1 million loan to Etheridge’s company to be used to purchase
                                               an incomplete condominium project in Virginia Beach from the owners who
                                               were delinquent on their loan at the bank. Churchill admitted that he and
                                               co-conspirator Fields used approximately half the loan proceeds to pay down
                                               the underlying loan on the property. Churchill faces a maximum penalty of five
                                               years in prison when he is sentenced on November 1, 2013.
                                            •	 On July 11, 2013, Recardo S. Lewis, a former vice president of Etheridge’s
                                               construction company, was sentenced to six months home detention and five
                                               years of probation for his role in the fraud scheme. Lewis was also ordered to
                                                                                quarterly report to congress I July 24, 2013   25




   pay $855,962 in restitution as well as $2,036,000 in forfeiture, both jointly
   with any other co-defendants who are ordered to pay restitution or forfeiture for
   the same losses. Lewis previously pled guilty to conspiracy to defraud BOC by
   submitting fraudulent draws on the incomplete condominium project in Virginia
   Beach. Lewis admitted that he submitted eight draw requests to the bank on
   construction loans that fraudulently inflated the amounts owed to contractors
   and included costs for work that was not completed.

    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Virginia, the Federal Bureau of Investigation,(“FBI”) Internal
Revenue Service Criminal Investigation Division (“IRS-CI”), the Securities and
Exchange Commission (“SEC”), the Federal Deposit Insurance Corporation Office
of Inspector General (“FDIC OIG”) and the Office of the Inspector General-Board
of Governors of the Federal Reserve System (“FRB OIG”).

Former President of Failed TARP Bank Pleads Guilty to Bank Fraud –
Tifton Banking Company
On June 20, 2013, Gary Patton Hall, Jr., the former president and chief executive
officer of Tifton Banking Company (“Tifton”), pled guilty to conspiracy to commit
bank fraud in Federal court in Macon, Georgia, for his role in a fraud scheme that
caused losses to Tifton as well as the U.S. Small Business Administration (“SBA”).
On November 12, 2010, the bank was closed by state and Federal regulators and
taken into receivership by the FDIC, causing a complete loss of $3.8 million in
TARP funds received in April 2009. Hall continued his illegal activities even during
the time that Tifton applied for and received the TARP funds.
    Hall admitted that, from August 2005 to June 2010, he and his co-conspirators
made materially misleading representations in order to obtain money, funds,
credits, assets, securities, and other property owned by Tifton for their own
personal gain. Hall admitted his part in replacing many past-due, non-performing
loans with new ones to make the bank look financially sound. Hall had personal
business relationships with his co-conspirators and approved loans to them and
their affiliates in excess of his lending authority and in violation of Tifton rules.
In one instance, Hall renewed a loan without disclosing to the loan committee
that his co-conspirator had failed to deliver the collateral to secure the loan. Hall
also approved loans to his co-conspirators without disclosing to the Tifton loan
committee that he had a personal interest in the transactions. In another instance,
Hall assisted in the submission of a fraudulent application to the SBA for a loan
guarantee for a $1.5 million loan controlled by a co-conspirator. The application
contained false and misleading statements and material omissions concerning the
working capital, the business plan, and the appraisal of the property.
    At sentencing on September 30, 2013, Hall faces up to 30 years in Federal
prison and a fine of up to $1 million. The plea agreement entered into between
Hall and the United States Attorney calls for a sentence of 65 months in Federal
prison; the decision as to whether or not to accept the recommendation will be
made by the court at the time of sentencing.
26   special inspector general I troubled asset relief program




                                               This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Middle District of Georgia, the FBI, FDIC, SBA, and the Tift County Sheriff’s
                                            Office.

                                            Senior Officer Sentenced to Federal Prison for Role in Scheme to
                                            Defraud Failed TARP Applicant Bank - FirstCity Bank
                                            On May 7, 2013, Clayton A. Coe, former vice president and senior commercial
                                            loan officer at FirstCity Bank (“FirstCity”), was sentenced to 87 months in Federal
                                            prison followed by five years of supervised release, and ordered to pay $19.5 million
                                            in restitution, jointly with co-defendants, Mark A. Conner, former president, chief
                                            executive officer and chairman of FirstCity, and Robert E. Maloney, Jr., former
                                            in-house counsel. Coe was also ordered to pay separately $122,285 in restitution to
                                            the IRS. In February 2009, FirstCity unsuccessfully sought $6.1 million in Federal
                                            Government assistance through TARP. FirstCity failed and was seized by Federal
                                            and state authorities on March 20, 2009.
                                                Coe previously pled guilty in Federal court in Atlanta, Georgia, to bank fraud
                                            and to making a false statement on his tax return. As the senior commercial loan
                                            officer at FirstCity, Coe was primarily responsible for recommending to FirstCity’s
                                            loan committee whether to approve commercial loans to real estate developers. Coe
                                            admitted to defrauding FirstCity by causing FirstCity’s loan committee to approve
                                            an $800,000 loan to a borrower in connection with a real estate development
                                            transaction that provided a personal financial benefit to Coe. Coe concealed from
                                            FirstCity’s loan committee that the borrower used the loan proceeds to purchase
                                            land lots from a company owned by Coe and his wife and that the Coes had
                                            purchased these lots from the owner at a lower sales price on the same day the
                                            loan to the borrower closed. Coe also admitted to failing to report $476,000 in
                                            commissions to the Internal Revenue Service that he earned for loans he originated
                                            as FirstCity’s senior commercial loan officer.
                                                As previously reported, Conner and Maloney have each been sentenced, after
                                            pleading guilty, for their roles in the scheme to defraud FirstCity. Conner was
                                            sentenced to 12 years in Federal prison followed by five years of supervised release,
                                            banned for life from the banking industry, agreed to forfeit $7 million, and ordered
                                            to pay more than $19.5 million in restitution after pleading guilty to conspiracy to
                                            commit bank fraud and perjury for his role in the scheme. Conner admitted to de-
                                            frauding FirstCity’s loan committee and board of directors into approving multiple
                                            multi-million-dollar commercial loans to borrowers who were actually purchas-
                                            ing property owned by Conner or his co-conspirators. Maloney was sentenced
                                            to 39 months in Federal prison followed by three years of supervised release and
                                            ordered to pay $10.5 million in restitution. Maloney also agreed to a lifetime ban
                                            from working in the banking industry. Maloney admitted to disguising the personal
                                            financial interests of Conner in a July 2007 real estate loan. Maloney admitted to
                                            receiving approximately $483,000 of those loan proceeds into his attorney escrow
                                            account that was maintained at FirstCity and using those funds to make payments
                                            and transfers to and for Conner’s benefit.
                                                                                 quarterly report to congress I July 24, 2013   27




  The case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of Georgia, the FBI, IRS-CI, and FDIC OIG.

Officers of Arizona Mortgage Originator Sentenced to Federal Prison
for $28 Million Fraud Conspiracy Against TARP Bank - American
Mortgage Specialists
Two former officers at American Mortgage Specialists (“AMS”) were sentenced
to Federal prison for their roles in a fraud scheme that defrauded TARP-recipient
BNC National Bank (“BNC”) of approximately $28 million. On July 1, 2013, David
E. McMaster, vice president of lending operations of AMS, was sentenced to 188
months in Federal prison followed by five years of supervised release. On June 28,
2013, Scott N. Powers, the former chief executive officer and president of AMS,
was sentenced to 96 months in Federal prison followed by five years of supervised
release. Restitution and forfeiture in the amount of $28.6 million was ordered
against McMaster and Powers. McMaster was also ordered to forfeit his interest
in several automobiles, including a 2010 Mercedes-Benz and a 2005 Hummer
H2 SUV, and the proceeds held in two personal bank accounts. On May 6, 2013,
Lauretta Horton, the former director of accounting for AMS, and David Kaufman,
an outside auditor, were also sentenced to 24 months probation each.
    McMaster and Powers each pled guilty in October 2012 to conspiracy to
commit bank fraud and wire fraud. In November 2012, Horton pled guilty to
conspiracy to commit bank fraud and wire fraud and Kaufman pled guilty to
obstructing the Government’s investigation into the fraud perpetrated against BNC.
    AMS was an Arizona company that originated residential mortgage loans and
sold the loans to institutional investors. AMS obtained funding for these loans by
selling participation interests in the loans to financial institutions, including BNC.
BNC’s holding company received approximately $20 million in TARP funds in
January 2009, and the holding company subsequently injected $18 million of the
TARP funds into BNC. BNC incurred approximately $28 million in losses as a
result of the fraud, which exceeded the amount of TARP funds received by BNC.
In addition, BNC has failed to make any of its required TARP dividend payments to
the U.S. Department of Treasury (“Treasury”).
    BNC entered into a loan participation agreement with AMS in 2006 to provide
funding for loans originated by AMS. Under the agreement, when AMS loans were
subsequently sold to investors, AMS was required to send “pay down” emails to
BNC notifying the bank of the sales and to repay BNC for the funds the bank pro-
vided for the loans sold. BNC used the “pay down” information to monitor which
loans had and had not been sold to investors. AMS was also required to repurchase
any loans funded by BNC if the loans were not sold by the loan maturity date.
    McMaster and Powers admitted to devising and executing a scheme to defraud
BNC of the funds provided to AMS for loan origination purposes. AMS began to
experience cash shortages in October 2007. Powers and McMaster admitted that
without additional funding from BNC, AMS would have been forced to terminate
its operations. To enable AMS to continue receiving funding from BNC, Powers
and McMaster submitted false loan “pay down” information to BNC. In particular,
28   special inspector general I troubled asset relief program




                                            Powers and McMaster orchestrated a “lapping” scheme by causing employees to
                                            delay notification to BNC of loan sales in order to use funding provided by BNC
                                            for new loans to repay BNC for loans sold earlier. In addition, Powers, McMaster,
                                            and Horton provided BNC materially false information about AMS’s operations
                                            and financial condition, including failing to disclose that AMS was suffering a cash
                                            shortage and was making payments to the IRS for back payroll taxes. As part of the
                                            scheme, McMaster and Horton submitted false financial statements that disguised
                                            the IRS payments under “marketing” and “advertising” expenses as well as inflating
                                            current cash amounts. Powers and McMaster also used BNC funds to (i) pay for
                                            the operations of AMS, (ii) provide hundreds of thousands of dollars in personal
                                            benefits to themselves in the form of salary, bonuses, and payment of personal
                                            expenses, and (iii) make hundreds of thousands of dollars of personal loans to
                                            themselves that were paid off using additional funds diverted from BNC.
                                                Kaufman, a certified public accountant, falsified AMS’s audited financial state-
                                            ments to prevent BNC from discovering the true extent of AMS’s tax liabilities
                                            and terminating its relationship with AMS. Kaufman also lied to Federal agents of
                                            SIGTARP and the Federal Housing Finance Agency Office of Inspector General
                                            (“FHFA OIG”) and to Federal prosecutors regarding his falsification of AMS’s
                                            financial statements.
                                                The case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of North Dakota, and FHFA OIG.

                                            Former Senior Officer at TARP Bank Pleads Guilty to Bank Fraud
                                            Conspiracy – Wilmington Trust Company
                                            On May 8, 2013, Joseph Terranova, a former senior official at Delaware-based
                                            Wilmington Trust Company (“Wilmington Trust”), pled guilty to conspiracy to
                                            commit bank fraud for his role in a fraud scheme that concealed the true financial
                                            condition of Wilmington Trust, a TARP-recipient bank, by engaging in extend and
                                            pretend schemes to keep loans current and to hide past-due loans from regulators
                                            and investors. Wilmington Trust received $330 million in TARP funds in December
                                            2008. Sentencing is scheduled for September 9, 2013. Terranova faces a maximum
                                            penalty of five years in Federal prison and a fine of up to $250,000.
                                                Terranova was employed by Wilmington Trust as vice president and division
                                            manager of a commercial real estate division. Terranova admitted that he conspired
                                            with other bank employees to extend credit to bank customers with loan terms
                                            that were inconsistent with those approved by the Loan Committee. Terranova
                                            also admitted to taking part in a scheme that concealed Wilmington Trust’s true
                                            financial condition by misrepresenting over $883 million in loans that were past
                                            due in 2009. Terranova also took part in a mass extension of expired and matured
                                            loan commitments that resulted in a failure to report over $373 million in past due
                                            loans. Finally, Terranova admitted to entering into a Construction Loan Agreement
                                            with Delaware real estate developer Michael A. Zimmerman that was inconsistent
                                            with a budget originally approved by the Loan Committee. Terranova admitted to
                                            facilitating Zimmerman’s receipt of over $2 million in proceeds that he was not
                                            entitled to under the terms of the agreement.
                                                                              quarterly report to congress I July 24, 2013   29




    As previously reported, Zimmerman, who was arrested on January 24, 2013, by
SIGTARP agents and its law enforcement partners, has been charged in a separate
indictment with conspiracy to commit bank fraud, eight counts of making a false
statement to a financial institution, and two counts of money laundering and is
currently awaiting trial.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Delaware, the FBI, IRS-CI, and FRB OIG.

Illinois Businessman Indicted for Defrauding TARP Bank - Steven J.
Moorhouse
On May 7, 2013, Steven J. Moorhouse was charged in Federal court in Rockford,
Illinois, with four counts of bank fraud and two counts of making a false
statement to a financial institution. Moorhouse, the former president and majority
shareholder of Jefsco Manufacturing Co., Inc. (“Jefsco”), allegedly overstated the
value of collateral he used to secure loans from Old Second National Bank (“Old
Second”). Old Second Bancorp, Inc., the parent company of Old Second, received
$73 million in TARP funds in January 2009.
     According to the charges, in 2009, Old Second required Moorhouse to submit
certain financial information in order to obtain two loans. Old Second granted
Moorhouse a $1 million loan with the condition that Jefsco pledge its accounts
receivable as collateral for the loan. Old Second also required that Jefsco open a
deposit account at Old Second and deposit all accounts receivable payments into
the account. One of the loans provided by Old Second allowed Moorhouse to
borrow a percentage of Jefsco’s inventory and account receivables in the form of
cash advances. It is alleged that Moorhouse submitted false financial statements to
Old Second in order to obtain the loans and that he then knowingly misrepresented
the value of Jefsco’s accounts receivable in order to maintain the loans. Also,
instead of depositing customer payments to an account at Old Second as promised,
Moorhouse allegedly fraudulently transferred the payments to other people and to
another bank.
     This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of Illinois, and the FBI.

Borrowers Sentenced for Defrauding Failed TARP Bank – William B.
Cody, Mark W. Shoemaker, and Michael B. Bowen
Three former GulfSouth Private Bank (“GulfSouth”) borrowers have been
sentenced for their roles in a loan scheme that defrauded the bank. GulfSouth, a
Florida bank whose deposits were insured by FDIC, applied for and received $7.5
million in TARP funds in September 2009. The bank failed on October 19, 2012,
and FDIC was named receiver. When GulfSouth was closed, GulfSouth had failed
to repay the Treasury the $7.5 million in outstanding TARP funds. The FDIC
estimates that the cost to the deposit insurance fund will be $36.1 million.
    On May 17, 2013, William B. Cody was sentenced to five years of probation
and ordered to pay $2.2 million in restitution to the FDIC, of which $804,000 is
to be paid jointly with co-defendant Michael B. Bowen. On June 6, 2013, Mark W.
30   special inspector general I troubled asset relief program




                                            Shoemaker was sentenced to one day in Federal prison with credit for time served
                                            followed by five years of supervised release, ordered to pay $486,863 in restitution
                                            to the FDIC, and ordered to forfeit a parcel of real property. The next day, Bowen
                                            was also sentenced to one day in Federal prison with credit for time served followed
                                            by five years of supervised release and ordered to pay $804,000 in restitution to
                                            the FDIC.
                                                As previously reported, all three defendants pled guilty for their roles in the
                                            fraud scheme. Cody and Bowen had previously pled guilty in February and March,
                                            respectively, to conspiracy to commit bank fraud and bank fraud. On March 22,
                                            2013, Shoemaker pled guilty to bank fraud, conspiracy to commit bank fraud, and
                                            making a false statement to a Federally insured institution.
                                                According to court documents, two former senior GulfSouth bank officers
                                            recruited straw borrowers to purchase condominium properties from GulfSouth
                                            borrowers that were already in default. Approximately $3 million in mortgage
                                            loans were originated in this scheme, which was orchestrated in order to keep
                                            the bank from having to write off the original loans. Cody, Shoemaker, and
                                            Bowen all admitted that they were approached by GulfSouth bank officers to
                                            purchase the properties. Bank officers also allegedly authorized GulfSouth loans
                                            to the defendants for more than the outstanding loans on the properties. The
                                            defendants obtained the loans from GulfSouth in their own names, falsified closing
                                            documents, and then either the borrowers defaulted on their loans or the loans
                                            were falsely acknowledged by the bank officers as being paid in full.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of Florida, and FDIC OIG.

                                            Perpetrator of Mortgage Modification Scheme Pleads Guilty to $3
                                            Million Fraud Scheme - Home Owners Protection Economics, Inc.
                                            On May 2, 2013, Brian M. Kelly pled guilty in Federal court in Boston,
                                            Massachusetts, to one count of conspiracy, nine counts of wire fraud, and nine
                                            counts of mail fraud. Kelly faces a maximum sentence of up to 25 years in Federal
                                            prison to be followed by a period of supervised release, a fine of up to $500,000,
                                            and restitution.
                                                 Kelly admitted his participation in a fraudulent home loan modification scam
                                            through a company named Home Owners Protection Economics, Inc. (“HOPE”).
                                            Kelly admitted that, through a series of misrepresentations, HOPE induced
                                            thousands of financially distressed homeowners to pay a $400-$900 up-front fee
                                            in exchange for home loan modifications, modification services, and “software
                                            licenses.” In exchange for the fee, HOPE sent homeowners a “do-it-yourself”
                                            application package that was nearly identical to the application provided free
                                            of charge by the U.S. Government through the Home Affordable Modification
                                            Program (“HAMP”), which is a Federally-funded mortgage assistance program
                                            implemented under TARP. HOPE falsely misrepresented to homeowners that,
                                            with HOPE’s assistance, the homeowners were virtually guaranteed to receive
                                            a loan modification under HAMP. HOPE lulled the distressed homeowners by
                                            telling them that HOPE had an almost perfect record of obtaining home loan
                                                                                 quarterly report to congress I July 24, 2013   31




modifications. Kelly admitted that, through these misrepresentations, HOPE was
able to persuade thousands of homeowners collectively to pay more than $3 million
in fees to HOPE.
    On August 9, 2011, SIGTARP agents, with its law enforcement partners,
arrested Kelly along with Christopher S. Godfrey, Dennis Fischer, and Vernell
Burris, Jr., for their roles in the mortgage modification fraud scheme. On
November 28, 2012, Burris pled guilty to conspiracy and wire fraud for his role in
the fraud. Godfrey and Fischer are scheduled for trial on November 4, 2013.
    This case is being investigated by SIGTARP, the FBI, the U.S. Attorney’s Office
for the District of Massachusetts, and the Computer Crime and Intellectual
PropertySection of the Department of Justice’s Criminal Division.

Two Plead Guilty in Nationwide Foreclosure Rescue Scam – Home
Advocate Trustees
On May 10, 2013, Mark S. Farhood and Jason S. Sant pled guilty in Federal court
in Alexandria, Virginia, to conspiracy to commit mail fraud, wire fraud, and bank
fraud for their roles in perpetrating a nationwide online foreclosure rescue scam
through their company, Home Advocate Trustees (“HAT”). Each faces a maximum
of 30 years in Federal prison, restitution, and forfeiture at sentencing, scheduled
for August 2, 2013, and August 9, 2013, respectively.
     Farhood and Sant, co-owners and operators of HAT, admitted that they and
their co-conspirators used their website, www.walkawaytoday.org, to fraudulently
represent to hundreds of distressed homeowners that they could walk away from
their homes and their mortgages without negative effect to their credit by selling
their homes to HAT for a nominal fee. Farhood and Sant further admitted that, in
order to obtain possession of the distressed homes, they executed quitclaim deeds
in favor of HAT and sent the distressed homeowners fraudulent closing documents.
The homeowners then stopped paying their mortgages and left their homes in the
mistaken belief that they had sold their homes to HAT. Once HAT took possession
of the homes, Farhood and Sant admitted to leasing the properties and collecting
all rent and security deposit payments for their own personal use. When lend-
ers began foreclosure proceedings on the distressed properties, Farhood and Sant
delayed the foreclosure process by submitting to the lenders fraudulent HAMP
applications. Through these misrepresentations, HAT fraudulently obtained more
than $3 million.
     This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Virginia, and the FBI.

Four Plead Guilty to Running HAMP Mortgage Modification Scam -
CFSA Home Solutions
On May 8, 2013, Jacob J. Cunningham, Justine D. Koelle, John D. Silva, and
Dominic A. Nolan pled guilty to charges that stemmed from their roles in operating
a mortgage modification scheme that defrauded hundreds of victims. All four
defendants were arrested in March 2012 and charged with multiple felony counts
of violating California state law, including conspiracy to charge illegal upfront fees
32   special inspector general I troubled asset relief program




                                            for mortgage modifications, conspiracy to commit forgery, grand theft by false
                                            pretenses, theft from an elder, and money laundering. Cunningham, Koelle, Silva,
                                            and Nolan are all scheduled to be sentenced on July 29, 2013.
                                                Previously, Andrew M. Phalen pled guilty in May 2012 to felony charges for his
                                            role in the fraud scheme. On June 6, 2012, Phalen was sentenced to one year in
                                            prison and five years of supervised probation.
                                                Between January 2009 and March 2012, the defendants admitted to enticing
                                            homeowners to participate in a fraudulent loan modification program by mak-
                                            ing numerous false misrepresentations to homeowners through advertisements,
                                            websites, promotional letters, and direct conversations. The misrepresentations
                                            included: (i) Treasury’s HAMP would apply to homeowners’ circumstances, (ii)
                                            the defendants had a 100% success rate in obtaining mortgage modifications for
                                            homeowners, and (iii) that homeowners would be refunded their paid fees if the
                                            defendants could not modify a homeowner’s loan. The defendants admitted that
                                            they never submitted any loan applications to banks on behalf of any of the home-
                                            owners who paid this fee. To evade detection by law enforcement, the defendants
                                            are accused of changing the names, phone numbers, and addresses of the sham
                                            companies they operated, including CSFA Home Solutions, Mortgage Solution
                                            Specialists, Inc., CS & Associates, and National Mortgage Relief Center.
                                                The case is being investigated by SIGTARP, Orange County, California,
                                            District Attorney’s Office, U.S. Secret Service (“Secret Service”), Huntington
                                            Beach Police Department, California Department of Real Estate, Orange County
                                            Probation Department, Orange County Sheriff’s Department, Costa Mesa Police
                                            Department, Irvine Police Department, and Santa Ana Police Department.

                                            Three Plead Guilty in Federal Court to Fraud Charges and Finance
                                            Company Pays $8 Million Penalty For Misrepresentations on Life
                                            Insurance Applications – Premium Finance Group and Imperial
                                            Holdings, Inc.
                                            Robert Wertheim, Maurice Kirschenbaum, and Abraham Kirschenbaum each pled
                                            guilty in Federal court in New Hampshire for their participation through Premium
                                            Finance Group (“Premium”) in an insurance fraud scheme. On February 26,
                                            2013, Wertheim pled guilty to conspiracy to commit mail fraud and wire fraud.
                                            Maurice Kirschenbaum and Abraham Kirschenbaum also pled guilty to conspiracy
                                            to commit mail fraud and wire fraud on March 7, 2013. At sentencing, each
                                            defendant faces up to five years in Federal prison and a fine of up to $250,000.
                                                In 2006, Wertheim and a co-conspirator formed Premium through which
                                            they could target older individuals and then obtain policies on behalf of those
                                            individuals funded by Imperial Finance (“Imperial”). From December 2006
                                            through January 2009, Wertheim and the Kirschenbaums submitted numerous
                                            falsified life insurance applications to Imperial. The Kirschenbaums used their
                                            connections in the greater New York area to provide Wertheim and his co-
                                            conspirators with potential applicants.
                                                 Once a potential applicant was found, Wertheim, the Kirschenbaums, and
                                            their co-conspirators would materially alter the life insurance applications, usually
                                                                                quarterly report to congress I July 24, 2013   33




inflating the net worth of the potential applicant so that Imperial would issue the
highest valued policy. Other times, they would conceal the person’s intent to pay
for the insurance with a loan, knowing that such a disclosure would likely prevent
the insurance company from issuing the policy. Imperial would then issue loans for
the life insurance policies submitted by the alleged qualified individuals. Premium
would also profit from the commissions paid by insurance companies on the poli-
cies that it shared with Imperial. For each policy obtained by an insured, all three
defendants admitted that they received a portion of the commission received by
Premium.
    After about two years, the policies would go into default when payments had
not been made. Imperial would then market the defaulted policies to a third party
in order to recoup the financed amount along with the associated interest and
fees. TARP recipient American International Group, Inc. (“AIG”) and Lexington
Insurance Company (“Lexington”), a subsidiary of AIG, provided lender protection
insurance to Imperial. Once the policies started to default, Imperial turned to AIG
and Lexington for payment.
    Imperial was also held accountable for its conduct. On April 30, 2012, Imperial
entered into an agreement with the U. S. Attorney’s Office for the District of New
Hampshire which required Imperial to make certain changes within the company
and required Imperial to pay $8 million to resolve allegations relating to Imperial’s
fraudulent misrepresentations on applications that concealed the individuals’ intent
to seek financing to pay for insurance policies. The corporate changes include
terminating that business from which the fraud occurred, accepting the resignation
of a senior officer, and terminating the senior sales staff involved in the fraud.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of New Hampshire, the FBI, Secret Service, U.S. Postal Inspection Service
(“USPIS”), and SEC.

Executive at Debt Collection Agency Pleads Guilty to Bribing Bank
Official - Oxford Collection Agency
On June 17, 2013, Patrick Pinto, a former vice president and son of the former
chairman of Oxford Collection Agency, Inc. (“Oxford”), pled guilty in Federal court
in Bridgeport, Connecticut, to conspiracy to commit bank bribery for his role in a
$12 million scheme to defraud business clients and TARP recipient Webster Bank.
At sentencing on September 9, 2013, Pinto faces a maximum penalty of five years
in Federal prison to be followed by a period of supervised release, a $250,000 fine,
and restitution. Patrick Pinto admitted that, from August 2008 through October
2010, he and other Oxford executives engaged in a multi-year scheme to defraud
its lender, TARP recipient Webster Bank, as well as its investors, clients and
commercial debtors from which Oxford collected. As part of the scheme, Patrick
Pinto and other Oxford executives made monthly cash payments to continue
receiving debt collection business from TARP recipient U.S. Bank.
     Previously, on February 27, 2013, Wilbur Tate III was arrested by SIGTARP
agents and its law enforcement partners and charged with taking bribes from
Oxford executives while he was an assistant vice president at U.S. Bank. On
34   special inspector general I troubled asset relief program




                                            January 30, 2013, Richard Pinto, the now deceased former chairman of Oxford,
                                            was sentenced to 60 months in Federal prison and was ordered to pay $12.3
                                            million in restitution. Richard and his son, Peter Pinto, each pled guilty to using
                                            Oxford to perpetrate the multi-million dollar fraud scheme. Peter Pinto served as
                                            Oxford’s chief executive officer. In December 2012, three more former Oxford
                                            senior executives were charged and pled guilty for their roles in the scheme:
                                            Randall Silver, chief financial officer; Charles Harris, executive vice president; and
                                            Carlos Novelli, chief operations officer. At sentencing on September 20, 2013,
                                            Peter Pinto faces a maximum of 35 years in prison and a fine up to $20 million. At
                                            sentencing, Silver faces up to 25 years in prison and a $500,000 fine; Harris and
                                            Novelli each face up to five years in prison and a $250,000 fine.
                                                From January 2007 through March 2011, Oxford had agreements with
                                            business clients to collect debts from debtors, to report such collections to the
                                            clients, and to remit the collected payments back to the clients. The clients would
                                            pay Oxford a portion of the monies collected by Oxford as a fee. As assistant vice
                                            president at U.S. Bank, Tate was responsible for outsourcing debt collection
                                            accounts to collection agencies, including Oxford. Silver, Harris, and Novelli
                                            admitted to conspiring with Richard Pinto and Peter Pinto to execute a fraud
                                            scheme in which they (i) collected funds from debtors on behalf of clients but
                                            did not remit those funds to the clients and (ii) created false documents and used
                                            other deceptive means to cover up their failure to remit collected funds to clients
                                            and their improper use of the funds. Richard Pinto and Peter Pinto also admitted
                                            to causing Oxford to secure a line of credit from TARP recipient Webster Bank
                                            without disclosing to the bank that Oxford was defrauding its clients and had
                                            significant outstanding payroll taxes. Silver also helped Richard Pinto and Peter
                                            Pinto defraud Webster Bank by inducing the bank to increase the line of credit to
                                            $6 million by withholding Oxford’s true financial condition and submitting falsified
                                            financial records to the bank. Richard Pinto, Peter Pinto, and Silver also admitted
                                            to laundering funds from the line of credit by providing those funds to clients
                                            to maintain the clients’ business, which continued the scheme. The fraudulent
                                            scheme led victims to lose more than $12 million.
                                                The case is being investigated by SIGTARP, the U.S. Attorney’s Office for
                                            the District of Connecticut, the U.S. Attorney’s Office for the Northern District
                                            of Georgia, IRS-CI, the FBI, and the Connecticut Securities, Commodities and
                                            Investor Fraud Task Force.

                                            Former Bishop Sentenced to Federal Prison for Fraud and Laundering
                                            Proceeds Through TARP Bank – Julius C. Blackwelder
                                            On June 28, 2013, Julius C. Blackwelder, the former Bishop of the Church of
                                            Jesus Christ of Latter-Day Saints congregation in Trumbull, Connecticut, was
                                            sentenced to 46 months in Federal prison followed by three years of supervised
                                            release for his role in a Ponzi scheme that defrauded investors. Blackwelder had
                                            previously pled guilty to wire fraud and money laundering for his role in the fraud
                                            scheme. Beginning in 2005, Blackwelder solicited victim-investors, including
                                            members of his congregation, to invest money with him by misrepresenting himself
                                                                                 quarterly report to congress I July 24, 2013   35




as an experienced and successful investor and falsely assuring them that their
funds would be invested in safe investments. In some instances, Blackwelder
also guaranteed the victim-investors their principal and a specific return on their
investment. Blackwelder used investor money to pay earlier investors in the
scheme, to build a 7,000 square-foot waterfront home for himself, and to repay
personal bank loans, including a line of credit from TARP-recipient Bank of
America. Blackwelder admitted that he failed to invest victim funds as represented
and lied to reassure a victim about the safety of his investment and to delay
repaying the victim. Through this scheme, Blackwelder defrauded investors of
nearly $500,000.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Connecticut, USPIS, IRS-CI, and the State of Connecticut Department
of Banking.

New York Mortgage Broker Sentenced to Federal Prison for Role in
Bank Fraud Scheme - Lynn Nunes
On May 3, 2013, Lynn Nunes, a New York mortgage broker, was sentenced to 12
months in Federal prison followed by five years of supervised release for his role in
a scheme to defraud mortgage lenders, including subsidiaries of TARP recipient
banks Wells Fargo & Company, SunTrust Banks, Inc., and JPMorgan Chase & Co.
Nunes was also ordered to pay $580,500 in restitution and to forfeit $40,000.
    On April 24, 2012, Nunes pled guilty in Federal court in Brooklyn, New York,
to conspiracy to commit bank and wire fraud against the mortgage lenders. From
January 2005 through October 2010, Nunes and others recruited people inter-
ested in purchasing property but who had insufficient assets and income to secure
a mortgage. Nunes prepared fraudulent mortgage applications for the potential
purchasers by falsely inflating their bank account balances and income to make
the applicants appear more creditworthy. Nunes submitted these falsified loan ap-
plications to the mortgage lenders, which issued mortgage loans in reliance on the
false applications. The lenders suffered losses on the properties when many of the
purchasers subsequently defaulted on the mortgage loans.
    The case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of New York, and the FBI.

SIGTARP Audit Activity
SIGTARP has initiated 30 audits and six evaluations since its inception. As of
June 30, 2013, SIGTARP has issued 21 reports on audits and evaluations. Among
the ongoing audits and evaluations in process are reviews of: (i) Treasury’s role in
General Motors’ decision to top up the pension plan for hourly workers of Delphi
Corporation; (ii) Treasury’s decision to waive Internal Revenue Code Section 382
for Treasury’s sales of securities in TARP institutions; and (iii) Treasury’s and
the state housing finance agencies’ implementation and execution of the Hardest
Hit Fund.
36            special inspector general I troubled asset relief program




                                                     Recent Audits/Evaluations Released
                                                     On April 9, 2013, SIGTARP released the report, “Banks that Used the Small
                                                     Business Lending Fund to Exit TARP.” Details were discussed in SIGTARP’s
                                                     Quarterly Report to Congress dated April 24, 2013.

                                                     SIGTARP Hotline
                                                     One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                                     Hotline and provide a simple, accessible way for the American public to report
                                                     concerns, allegations, information, and evidence of violations of criminal and
                                                     civil laws in connection with TARP. The SIGTARP Hotline has received and
                                                     analyzed more than 32,699 Hotline contacts. These contacts run the gamut
                                                     from expressions of concern over the economy to serious allegations of fraud
                                                     involving TARP, and a number of SIGTARP’s investigations were generated in
                                                     connection with Hotline tips. The SIGTARP Hotline can receive information
     SIGTARP’s Consumer Fraud Alert and              anonymously. SIGTARP honors all applicable whistleblower protections and will
     its Armed Services Mortgage Fraud Alert         provide confidentiality to the fullest extent possible. SIGTARP urges anyone aware
     are reproduced inside the back cover of         of fraud, waste, or abuse involving TARP programs or funds, whether it involves
     this report.                                    the Federal Government, state and local entities, private firms, or individuals, to
                                                     contact its representatives at 877-SIG-2009 or www.sigtarp.gov.

                                                     Communications with Congress
                                                     One of the primary functions of SIGTARP is to ensure that members of Congress
                                                     remain adequately and promptly informed of developments in TARP initiatives
                                                     and of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector
                                                     General and her staff meet regularly with and brief members of Congress and
                                                     Congressional staff.

                                                     •	 On April 24, 2013, the Special Inspector General, Christy Romero, testified on
                                                        SIGTARP’s April 9, 2013, audit entitled “Banks that Used the Small Business
                                                        Lending Fund to Exit TARP” before the U.S. House Oversight and Government
                                                        Reform Committee.
                                                     •	 On April 22, 2013, and April 23, 2013, SIGTARP’s Deputy Special Inspector
                                                        General, Peggy Ellen, and Deputy Special Inspector General for Reporting,
                                                        Mia Levine, presented briefings open to all House and Senate staff respectively
                                                        on SIGTARP’s April 24, 2013, Quarterly Report. Additionally, Bruce Gimbel,
                                                        SIGTARP’s Acting Assistant Deputy Special Inspector General for Audit and
                                                        Evaluation, presented briefings on SIGTARP’s April 9, 2013, audit entitled
                                                        “Banks that Used the Small Business Lending Fund to Exit TARP.”

                                                         Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
                                                     testimony.aspx.
                                                                                                                                  quarterly report to congress I July 24, 2013                 37




The SIGTARP Organization                                                                                                                      FIGURE 1.1

SIGTARP leverages the resources of other agencies, and, where appropriate and                                                                 SIGTARP FY 2013
cost-effective, obtains services through SIGTARP’s authority to contract.                                                                     OPERATING PLAN
                                                                                                                                              ($ MILLIONS, PERCENTAGE OF $41.8 MILLION)

Staffing and Infrastructure
                                                                                                                                                             Other Services
SIGTARP’s headquarters are in Washington, DC, with regional offices in New York                                                                                    $2.2, 5%
City, Los Angeles, San Francisco, and Atlanta. As of June 30, 2013, SIGTARP had
                                                                                                                                                Advisory Services
171 employees, plus one detailee from FHFA OIG. The SIGTARP organization                                                                                    $3.4
chart as of July 8, 2013, can be found in Appendix L, “Organizational Chart.”                                                                                        8%
SIGTARP posts all of its reports, testimony, audits, and contracts on its website,
                                                                                                                                              Interagency
www.sigtarp.gov.                                                                                                                              Agreements
                                                                                                                                                               20%                  Salaries
                                                                                                                                                                              64%   and
   From its inception through September 30, 2012, SIGTARP’s website has had                                                                         $8.1
more than 61.1 million web “hits,” and there have been more than 5.4 million                                                                                                        $26.9

downloads of SIGTARP’s quarterly reports. The site was redesigned in May 2012.                                                                           Travel
From May 10, 2012, through June 30, 2013, there have been 122,493 page views.ii                                                                       $1.2, 3%
From July 1, 2012, through June 30, 2013, there have been 8,942 downloads of
SIGTARP’s quarterly reports.iii
                                                                                                                                              FIGURE 1.2

Budget                                                                                                                                        SIGTARP FY 2014
Figure 1.1 provides a detailed breakdown of SIGTARP’s fiscal year 2013 budget,                                                                PROPOSED BUDGET
                                                                                                                                              ($ MILLIONS, PERCENTAGE OF $45.3 MILLION)
which reflects a total operating plan of $41.8 million. The Consolidated and
Further Continuing Appropriations Act, 2013 (P.L. 113-6) provides $41.7 million
in annual appropriations. The operating plan includes $41.7 million in annual                                                                         Other Services
                                                                                                                                                            $2.4, 5%
appropriations and portions of SIGTARP’s initial funding.
    Figure 1.2 provides a detailed breakdown of SIGTARP’s fiscal year 2014                                                                    Advisory Services
                                                                                                                                                          $3.0
budget, which reflects a total operating plan of $45.3 million. This would include
                                                                                                                                                                  7%
$34.9 million in requested annual appropriations and portions of SIGTARP’s initial
                                                                                                                                               Interagency                          Salaries
funding.                                                                                                                                       Agreements       18%                 and
                                                                                                                                                                              68%
                                                                                                                                                     $8.2
                                                                                                                                                                                    $30.6

                                                                                                                                                         Travel
                                                                                                                                                      $1.1, 2%




ii In October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
 system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

 • Numbers reported to SIGTARP as of September 30, 2009
 • Archived numbers provided by Treasury for the period of October through December 2009
 • Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

 tarting April 1, 2012, another tracking system has been introduced that tracks a different metric, “page views,” which are different
S
than “hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.

iii M
     easurement of quarterly report downloads from SIGTARP’s redesigned website did not begin until July 1, 2012.
38   special inspector general I troubled asset relief program
Sect io n 2   tarp overview
40   special inspector general I troubled asset relief program
                                                                                quarterly report to congress I July 24, 2013           41




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP Funds Update
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,                 Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.         that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced                 Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds, reducing obligations to $456.6 billion as of June 30, 2013.6          Deobligations: An agency’s cancellation
Of that amount, $420.3 billion had been spent.7 Taxpayers are owed $57.6 billion             or downward adjustment of previously
as of June 30, 2013. According to Treasury, as of June 30, 2013, it had realized             incurred obligations.
or written off losses of $29.1 billion that taxpayers will never get back (although
taxpayers may profit on other TARP investments), leaving $28.6 billion in TARP
funds outstanding.8 These amounts do not include $8.6 billion in TARP funds
spent on housing support programs, which are designed as a Government subsidy,
with no repayments to taxpayers expected.9 In the quarter ended June 30, 2013,
funds that were obligated but unspent remained available to be spent on only
TARP’s housing support programs. According to Treasury, in the quarter ended
June 30, 2013, $1.3 billion of TARP funds were spent on housing programs,
leaving $29.9 billion obligated and available to be spent.10
     Table 2.1 provides a breakdown of program obligations, changes in obligations,
expenditures, principal repaid, principal refinanced, amounts still owed to taxpayers
under TARP, and obligations available to be spent as of June 30, 2013. Table 2.1
lists 10 TARP sub-programs, instead of all 13, because it excludes the Capital
Assistance Program (“CAP”), which was never funded, and summarizes three
programs under “Automotive Industry Support Programs.” Table 2.2 details write-
offs and realized losses in TARP as of June 30, 2013.
 42                 special inspector general I troubled asset relief program




Table 2.1
 OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, Principal Refinanced, AMOUNTS STILL OWED TO TAXPAYERS, AND
 OBLIGATIONS AVAILABLE TO BE SPENT ($ BILLIONS)
                                            Obligation                                                                                                    Principal             Still Owed to
                                           After Dodd-                    Current                                                Principal              Refinanced                Taxpayers                    Available
                                                 Frank                  Obligation              Expenditure                        Repaid                into SBLF               under TARP                 to Be Spent
 Program                               (As of 10/3/2010)          (As of 6/30/2013)          (As of 6/30/2013)           (As of 6/30/2013)         (As of 6/30/2013)         (As of 6/30/2013)a          (As of 6/30/2013)

 Housing Support
                                                    $45.6                     $38.5c                       $8.6                         NA                      $0.0                         NA                      $29.9
 Programsb
 Capital Purchase
                                                    204.9                     204.9                      204.9                    $193.8d                         2.2                      $8.9                          0.0
 Program
 Community
 Development Capital                                    0.6                       0.6                        0.2                        0.1                       0.0                        0.5                         0.0
 Initiativee
 Systemically Significant
                                                      69.8                      67.8f                      67.8                       54.4                        0.0                      13.5                          0.0
 Failing Institutions
 Targeted Investment
                                                      40.0                      40.0                       40.0                       40.0                        0.0                        0.0                         0.0
 Program
 Asset Guarantee
                                                        5.0                       5.0                        0.0                        0.0                       0.0                        0.0                         0.0
 Program
 Term Asset-Backed
                                                        4.3                       0.1g                       0.1                        0.1                       0.0                        0.0                         0.0
 Securities Loan Facility
 Public-Private
                                                      22.4                      19.6                       18.6                       18.6h                       0.0                        0.0                         0.0i
 Investment Program
 Unlocking Credit for
                                                        0.4                       0.4                        0.4                        0.4                       0.0                        0.0                         0.0
 Small Businesses
 Automotive Industry
                                                      81.8j                     79.7k                      79.7                       44.9                        0.0                      34.8                          0.0
 Support Programs
 Total                                           $474.8                    $456.6                     $420.3l                    $351.9                         $2.2                     $57.6                       $29.9
 Notes: Numbers may not total due to rounding. NA=Not applicable.
 a
        Amount taxpayers still owed includes amounts disbursed and still outstanding, plus write-offs and realized losses totaling $29.1 billion. It does not include $8.6 billion in TARP dollars spent on housing programs.
         These programs are designed as Government subsidies, with no repayments to taxpayers expected.
 b
           Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 c
         On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
 d
          Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $351.9 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include $2.2
           billion refinanced from CPP into the Small Business Lending Fund.
 e
          CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was
          expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants. Of the total
          obligation, only $106 million went to non-CPP institutions.
 f
      Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 g
            On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to $0.1
             billion.
 h
       On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That $958
        million is included in this repayment total.
 i
   PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6 billion for
    PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of $19.6 billion results
    because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn equity was not as of June 30,
   2013, except for Invesco.
 j
    Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 k
      Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 l
     The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Daily TARP Update, 7/1/2013; Treasury, response to SIGTARP data call, 7/5/2013.
                                                                                                                                    quarterly report to congress I July 24, 2013                        43




Table 2.2
 TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 6/30/2013                                                                                   ($ MILLIONS)

 TARP                                                                  TARP          Realized Loss
 Program         Institution                                     Investment           or Write-Offa                       Date      Description
 Realized Losses
                                                                                                                                    Sold 98,461 shares and equity stake in the UAW
 Autos           Chrysler                                              $1,888                   $1,328           4/30/2010
                                                                                                                                    Retiree trust for $560,000,000
                                                                                                                                    Sold 358,546,795 common shares at a loss in
                                                                                                  3,771        11/18/2010
                                                                                                                                    Initial Public Offering (IPO)
                                                                                                                                    Sold 53,782,019 common shares at a loss in
                                                                                                     566       11/26/2010
                                                                                                                                    IPO overallotment
                                                                                                                                    Sold 200,000,000 common shares to GM at a
                                                                                                  3,203        12/19/2012
                                                                                                                                    loss
 Autos           GMb                                                   49,500                                  1/18/2013 –          Sold 58,392,078 common shares at a loss in
                                                                                                     903
                                                                                                                4/17/2013           first pre-arranged trading plan
                                                                                                                                    Sold 30,000,000 common shares at a loss in
                                                                                                     273         6/12/2013
                                                                                                                                    public offering
                                                                                                                           Losses from undisclosed number of common
                                                                                                                5/6/2013 –
                                                                                                     477                   shares sold in May and June in second pre-
                                                                                                                6/30/2013
                                                                                                                           arranged trading plan
 CDCI            Premier Bancorp, Inc.c                                      6.8                        7        1/29/2013          Liquidation of failed bank
 CPP             145 CPP Banks                                           2,979                       860                            Sales, exchanges, and failed banks
                                                                                                  1,918          5/24/2011
                                                                                                  1,984          3/13/2012
                                                                                                  1,621          5/10/2012
 SSFI            AIGd                                                  67,835                                                       Sale of common stock at a loss
                                                                                                  1,621            8/8/2012
                                                                                                  4,636          9/14/2012
                                                                                                  1,705        12/14/2012
 Total Realized Losses                                                                       $24,873
 Write-Offs
                                                                                                                                    Accepted $1.9 billion as full repayment for the
 Autos           Chrysler                                              $3,500                   $1,600           7/23/2009
                                                                                                                                    debt of $3.5 billion
 CPP             CIT Group Inc.                                          2,330                    2,330        12/10/2009 Bankruptcy
 CPP             Pacific Coast National Bancorp                                 4                       4        2/11/2010          Bankruptcy
 CPP             South Financial Group, Inc.e                               347                      217         9/30/2010          Sale of preferred stock at a loss
 CPP             TIB Financial Corpe                                          37                       25        9/30/2010          Sale of preferred stock at a loss
 Total Write-Offs                                                                              $4,176
 Total of Realized Losses and Write-Offs                                                     $29,049
 Notes: Numbers may not total due to rounding.
 a
   Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer included in calculating realized losses.
 b
       Since the company remains in TARP, a final determination of realized loss incurred on Treasury’s investment cannot be calculated until the investments have been fully divested. About $470
        million in GM share losses during the second quarter came from Treasury’s pre-arranged stock trading plan, which ends on September 13, 2013.
 c
    On January 29, 2013, Treasury received $79,900 representing the total amount of distribution paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
 d
      Treasury has sold a total of 1.66 billion AIG common shares at a weighted average price of $31.18 per share, consisting of 1,092,169,866 TARP shares and 562,868,096 non-TARP shares
       based upon the Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve Bank of New York for the benefit of the
       Treasury. Receipts for non-TARP common stock totaled $17.55 billion and are not included in TARP collections. The realized loss reflects the price at which Treasury sold common shares in
       AIG and TARP’s cost basis of $43.53 per common share.
 e
     According to Treasury, in the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as realized
      losses.

 Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Section 105(a) Report, 7/10/2013; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler
 Group LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 7/3/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Daily TARP
 Update, 6/3/2013, 6/13/2013, and 7/1/2013.
44   special inspector general I troubled asset relief program




                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Congressional Budget Office (“CBO”), the
                                            Office of Management and Budget (“OMB”), and Treasury, whose estimated costs
                                            are audited each year by the Government Accountability Office (“GAO”). Cost
                                            estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
                                            loss and OMB’s August 2009 cost estimate of a $341 billion loss.11
                                                 On May 23, 2013, CBO issued a TARP cost estimate based on its evaluation
                                            of data as of April 17, 2013. CBO estimated the ultimate cost of TARP would be
                                            $21 billion, down $3 billion from its estimate of $24 billion in October 2012.12
                                            According to CBO, the decrease stems primarily from an increase in the market
                                            value of the Government’s investment in General Motors shares and sales of a
                                            portion of those investments at prices that were higher than the market price at the
                                            time of CBO’s last report. CBO still estimates that TARP’s largest loss will come
                                            from automotive assistance programs. CBO estimated that only $16 billion of
                                            obligated funds for housing will be spent.
                                                 On April 10, 2013, OMB issued the Administration’s fiscal year 2014 budget,
                                            which included a TARP lifetime cost estimate of $47.5 billion, based largely on
                                            figures from December 31, 2012.13 This was a decrease from its estimate of $63.5
                                            billion based on May 31, 2012, data.14 According to OMB, this decrease “was due
                                            in large part [to] improved market conditions and significant progress winding
                                            down TARP investments over the past year, most notably the higher valuations
                                            of AIG common stock and realized sale proceeds, and higher valuation of GM
                                            common stock.”15 Additionally, this estimate assumes $37.6 billion of funds
                                            obligated to housing support programs will be spent, versus earlier estimates that
                                            $45.6 billion would be spent. The estimate also assumes that PPIP will make a
                                            profit of $1.8 billion and that CPP will make a profit of $7.7 billion, including
                                            principal repayments and revenue from dividends, warrants, interest, and fees.
                                                 On November 9, 2012, Treasury issued its September 30, 2012, fiscal year
                                            audited agency financial statements for TARP, which contained a cost estimate
                                            of $59.7 billion.16 This estimate is a decrease from Treasury’s estimate of a $70.2
                                            billion loss as of September 30, 2011. According to Treasury, “These costs fluctuate
                                            in large part due to changes in the market prices of common stock for AIG and
                                            General Motors and the estimated value of the Ally Financial stock.”17 According
                                            to Treasury, the largest losses from TARP are expected to come from housing
                                            programs and from assistance to AIG and the automotive industry.18
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.3.
                                                                                                                                  quarterly report to congress I July 24, 2013             45




Table 2.3
 Cost (gain) of TARP Programs                               ($ Billions)

                                                                                                         Treasury Estimate,
                                                                                                       TARP Audited Agency
 Program Name                                   CBO Estimate                  OMB Estimate              Financial Statement
     Report issued:                                5/23/2013                     4/10/2013                          11/10/2012
     Data as of:                                   4/17/2013                    12/31/2012                           9/30/2012
 Housing Support Programs                                      $16                         $37.6                               $45.6
 Capital Purchase Program                                      (17)                          (7.7)                             (14.9)
 Systemically Significant
 Failing Institutions                                            15                          18.1                                15.3
 Targeted Investment Program
 and Asset Guarantee Program                                     (8)                         (7.4)                               (7.9)
 Term Asset-Backed Securities
 Loan Facility                                                     0                         (0.5)                               (0.5)
 Public-Private Investment
 Program                                                         (2)                         (1.8)                               (2.4)
 Automotive Industry Support
                                                                 17                             23                               24.3
 Programsa
 Otherb                                                            *                              *                                   *
 Total                                                        $21   c
                                                                                          $61.5                               $59.7d
 Interest on Reestimatese                                                                  (13.9)                                      
 Adjusted Total                                                                          $47.5d                                        
 Notes: Numbers may not total due to rounding.
 a
   Includes AIFP, ASSP, and AWCP.
 b
   Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
 c
   The estimate is before administrative costs and interest effects.
 d
   The estimate includes interest on reestimates but excludes administrative costs.
 e
   Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
   estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.
                                                                                                                                               Common Stock: Equity ownership
                                                                                                                                               entitling an individual to share in
 Sources: OMB Estimate — OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013,
 www.whitehouse.gov/sites/default/files/omb/budget/fy2014/assets/econ_analyses.pdf, accessed 7/2/2013; CBO Estimate                            corporate earnings and voting rights.
 — CBO, “Report on the Troubled Asset Relief Program — March 2012,” 3/28/2012, www.cbo.gov/sites/default/files/cbofiles/
 attachments/03-28-2012TARP.pdf, accessed 7/2/2013; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset
 Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-
 room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 7/2/2013.                                                           Preferred Stock: Equity ownership that
                                                                                                                                               usually pays a fixed dividend before
                                                                                                                                               distributions for common stock owners
                                                                                                                                               but only after payments due to debt
Financial Overview of TARP                                                                                                                     holders. It typically confers no voting
                                                                                                                                               rights. Preferred stock also has priority
As of June 30, 2013, 270 institutions remain in TARP: 142 banks with remaining                                                                 over common stock in the distribution
CPP principal investments; 53 CPP banks for which Treasury now holds only                                                                      of assets when a bankrupt company is
warrants to purchase stock; 73 banks and credit unions in CDCI; and GM and Ally                                                                liquidated.
Financial.19 Treasury does not consider the 53 former CPP institutions in which it
holds only warrants to be in TARP.20 Treasury (and therefore the taxpayer) remains                                                             Senior Subordinated Debentures:
a shareholder in companies that have not repaid the Government. Treasury’s equity                                                              Debt instrument ranking below senior
ownership is largely in two forms — common and preferred stock — although it                                                                   debt but above equity with regard to
also has received debt in the form of senior subordinated debentures.                                                                          investors’ claims on company assets
    According to Treasury, as of June 30, 2013, 236 TARP recipients (including                                                                 or earnings.
224 banks and credit unions, two auto companies, nine PPIP managers, and AIG)
46                special inspector general I troubled asset relief program




     FIGURE 2.1                                                     had paid back all of their principal or repurchased shares, although Chrysler and
     CURRENT TARP EXPENDITURES,                                     AIG did so at a loss to Treasury. Another 137 CPP banks refinanced into the Small
     REPAYMENTS, AND AMOUNT                                         Business Lending Fund (“SBLF”). In addition, 12 TARP recipients (including
     OWED ($ BILLIONS)                                              10 banks and credit unions, GM, and Ally Financial) had partially repaid their
     $500                                                           principal or repurchased their shares but remained in TARP.21 According to
                                                                    Treasury, as of June 30, 2013, 176 banks and credit unions have exited CPP or
      400      $420.3                                               CDCI with less than a full repayment, including institutions whose shares have
      300                       $351.9                              been sold for less than par value, or at a loss at auction (150), and institutions
                                                                    that are in various stages of bankruptcy or receivership (26).22 Seven banks have
      200                                                           been sold at a profit at auction.23 According to Treasury, $351.9 billion in principal
      100
                                                                    has been repaid.24 Additionally, 137 banks refinanced into SBLF, a non-TARP
                                                                    Government program, for $2.2 billion. Taxpayers are still owed $57.6 billion under
                                                   $57.6
         0                                                          TARP as of June 30, 2013. According to Treasury, it has incurred write-offs of $4.2
             TARP             TARP              Amount
             Expenditures     Repayments a      Owedb               billion and realized losses of $24.9 billion as of June 30, 2013, which taxpayers
                                                                    will never get back, leaving $28.6 billion in TARP funds outstanding (not including
                                                                    $8.6 billion in TARP funds spent as a subsidy for TARP housing programs).25
      Notes: As of 6/30/2013. Numbers may not total due
      to rounding.                                                  Figure 2.1 provides a snapshot of the cumulative expenditures, repayments,
      a
        Repayments include $193.8 billion for CPP, $40 billion
        for TIP, $44.9 billion for Auto Programs, $18.6 billion     and amount owed as of June 30, 2013. Taxpayers also are entitled to dividend
        for PPIP, $54.4 billion for SSFI, and $0.4 billion for
        UCSB. The $193.8 billion for CPP repayments includes
                                                                    payments, interest, and warrants for taking on the risk of TARP investments.
        $363.3 million in non-cash conversion from CPP to           According to Treasury, as of June 30, 2013, Treasury had collected $46.4 billion in
        CDCI, which is not included in the $351.9 billion in TARP
        repayments because it is still owed to TARP from CDCI.      interest, dividends, and other income, including $9.4 billion in proceeds from the
        Additionally, $2.2 billion was refinanced into SBLF.
      b
        Amount includes $29.1 billion that Treasury has written     sale of warrants and stock received as a result of exercised warrants.26
        off or realized losses, but does not include $8.6 billion
        spent for housing programs, which were designed as a             As of June 30, 2013, obligated funds totaling $29.9 billion were still available to
        Government subsidy, with no repayment to taxpayers
        expected.
                                                                    be drawn down under TARP’s housing support programs.27
                                                                         Some TARP programs are scheduled to last as late as 2021. Table 2.4 provides
      Sources: Treasury, Transactions Report, 6/28/2013;
      Treasury, Daily TARP Update, 7/1/2013.                        details of those exit dates.

                                                                    Table 2.4
                                                                     TARP Program SCHEDULE
                                                                     TARP Program                                 Scheduled Program Dates
                                                                     Term Asset-Backed Securities Loan Facility   2015 maturity of last loan
                                                                     Home Affordable Modification Program         2021 to pay incentives on modifications
                                                                     Hardest Hit Fund                             2017 for states to use TARP funds
                                                                     FHA Short Refinance Program                  2020 for TARP-funded letter of credit


                                                                         Other TARP programs have no scheduled ending date; TARP money will
                                                                    remain invested until recipients pay Treasury back or until Treasury is able to sell
                                                                    its investments in the companies. Table 2.5 provides details on the status of the
                                                                    remaining Treasury investments under those programs.
                                                                                                             quarterly report to congress I July 24, 2013   47




Table 2.5

 TARP INVESTMENTS IN FINANCIAL INSTITUTIONS
 TARP Program                                                    Remaining Treasury Investment
                                                                 Preferred stock in 142 banks; warrants for stock
 Capital Purchase Program
                                                                 in an additional 53 banks
 Community Development Capital Initiative                        Preferred stock in 73 banks/credit unions
                                                                 14% stake in GM
 Automotive Industry Financing Program
                                                                 74% stake in Ally
 Notes: Treasury held a 14% stake in GM as of June 6, 2013.

 Sources: Treasury, Transactions Report, 6/28/2013; Treasury, response to SIGTARP data call, 7/7/2013.



Housing Support Programs
The stated purpose of TARP’s housing support programs is to help homeowners
and financial institutions that hold troubled housing-related assets. Although
Treasury originally committed to use $50 billion in TARP funds for these programs,
it subsequently obligated only $45.6 billion, then in March 2013, reduced its
obligation to $38.5 billion.28 As of June 30, 2013, $8.6 billion (22% of obligated
funds) has been expended.29 However, some of these expended funds remain
as cash on hand or for administrative expenses with the state Housing Finance
Agencies participating in the Hardest Hit Fund program.

•	 Making Home Affordable (“MHA”) Program — According to Treasury, this
   umbrella program for Treasury’s foreclosure mitigation efforts is intended to
   “help bring relief to responsible homeowners struggling to make their mortgage
   payments, while preventing neighborhoods and communities from suffering
   the negative spillover effects of foreclosure, such as lower housing prices,
   increased crime, and higher taxes.”30 MHA, for which Treasury has obligated
   $29.9 billion of TARP funds, consists of the Home Affordable Modification
   Program (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which
   both modify first-lien mortgages to reduce payments; the Federal Housing
   Administration (“FHA”) HAMP loan modification option for FHA-insured
   mortgages (“Treasury/FHA-HAMP”); the U.S. Department of Agriculture Office
   of Rural Development (“RD”) HAMP (“RD-HAMP”); the Home Affordable
   Foreclosure Alternatives (“HAFA”) program; and the Second Lien Modification
   Program (“2MP”).31 HAMP in turn encompasses various initiatives in addition
   to the modification of first-lien mortgages, including Home Price Decline
   Protection (“HPDP”), the Principal Reduction Alternative (“PRA”), and the
   Home Affordable Unemployment Program (“UP”).32 Additionally, the overall
   MHA obligation of $29.9 billion includes $2.7 billion to support the Treasury/
   FHA Second-Lien Program (“FHA2LP”), which complements the FHA
   Short Refinance program (discussed later) and is intended to support the
   extinguishment of second-lien loans.33
       As of June 30, 2013, MHA had expended $5.8 billion of TARP money
   (20% of $29.9 billion).34 Of that amount, $4.8 billion was expended on HAMP,
48             special inspector general I troubled asset relief program




                                                         $586.5 million on HAFA, and $411 million on 2MP.35 As of June 30, 2013,
                                                         there were 455,815 active permanent first-lien modifications under the TARP-
                                                         funded portion of HAMP (Tier 1 and Tier 2), an increase of 23,581 active
                                                         permanent modifications over the past quarter.36 As of June 30, 2013, there
                                                         were 446,327 Tier 1 active permanent modifications, an increase of 17,892 over
                                                         the previous quarter.37 There were 9,488 Tier 2 active permanent modifications,
                                                         an increase of 5,689 over the previous quarter.38 For more detailed information,
                                                         including participation numbers for each of the MHA programs and
                                                         subprograms, see the “Housing Support Programs” discussion in this section.
                                                      •	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
                                                         purpose of this program is to provide TARP funding for “innovative measures
                                                         to help families in the states that have been hit the hardest by the aftermath of
                                                         the housing bubble.”39 Treasury obligated $7.6 billion for this program.40 As of
                                                         June 30, 2013, $2.7 billion had been drawn down by the states from HHF.41
                                                         However, as of March 31, 2013, the latest data available, only $1.32 billion had
                                                         been spent assisting 109,874 homeowners, with the remaining funds used for
                                                         administrative expenses and cash-on-hand.42 For more detailed information, see
                                                         the “Housing Support Programs” discussion in this section.
                                                      •	 FHA Short Refinance Program — Treasury has provided a TARP-funded
                                                         letter of credit for up to $1 billion in loss protection on refinanced first liens.43
                                                         As of June 30, 2013, there have been 3,136 refinancings under the FHA Short
                                                         Refinance program, an increase of 446 refinancings during the past quarter.44
                                                         For more detailed information, see the “Housing Support Programs” discussion
                                                         in this section.

                                                      Financial Institution Support Programs
                                                      Treasury primarily invested capital directly into financial institutions including
                                                      banks, bank holding companies, and, if deemed by Treasury critical to the financial
     Systemically Significant Institutions:           system, some systemically significant institutions.45
     Term referring to any financial
     institution whose failure would impose           •	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly
     significant losses on creditors and                 purchased preferred stock or subordinated debentures in qualifying financial
     counterparties, call into question the              institutions.46 CPP was intended to provide funds to “stabilize and strengthen
     financial strength of similar institutions,         the U.S. financial system by increasing the capital base of an array of healthy,
     disrupt financial markets, raise                    viable institutions, enabling them [to] lend to consumers and business[es].”47
     borrowing costs for households and                  Treasury invested $204.9 billion in 707 institutions through CPP, which closed
     businesses, and reduce household                    to new funding on December 29, 2009.48 As of June 30, 2013, 195 of those
     wealth.                                             institutions remained in TARP; in 53 of them, Treasury holds only warrants to
                                                         purchase stock. Treasury does not consider these 53 institutions to be in TARP.
                                                         As of June 30, 2013, 142 of the 195 institutions had outstanding CPP principal
                                                         investments.49 Of the 707 banks that received CPP investments, 565 banks no
                                                         longer have outstanding principal investments in CPP. Nearly a quarter of the
                                                         707 banks, or 165, refinanced into other Government programs — 28 of them
                                                         into TARP’s CDCI and 137 into SBLF, a non-TARP program.50 Only 214 of
                                                         the banks that exited, or 30% of the original 707, fully repaid CPP otherwise.51
                                                                                quarterly report to congress I July 24, 2013              49




   Of the other banks that have exited CPP, four CPP banks merged with other
   CPP banks, Treasury sold its investments in 23 banks for less than par and its
   investments in 134 banks at auction (127 of those investments sold at a loss),
   and 25 institutions or their subsidiary banks failed, meaning Treasury lost its
   entire investment in those banks.52 As of June 30, 2013, taxpayers were still
   owed $8.9 billion related to CPP. According to Treasury, it had write-offs and
   realized losses of $3.4 billion in the program, leaving $5.5 billion in TARP funds
   outstanding.53 According to Treasury, $193.8 billion of the CPP principal (or
   95%) had been repaid as of June 30, 2013. The repayment amount includes
   $363.3 million in preferred stock that was converted from CPP investments
   into CDCI and therefore still represents outstanding obligations to TARP.
   Additionally, $2.2 billion was refinanced in 2011 into SBLF, a non-TARP
   Government program.54 Additionally, 23 CPP banks, or their subsidiary banks,
   with total CPP investments of $750.3 million, are currently in the process of
   bankruptcy, and while Treasury has not yet realized the loss, it expects that all
   of its investments in the banks will be lost.55 Treasury continues to manage
   its portfolio of CPP investments, including, for certain struggling institutions,
   converting its preferred equity ownership into a more junior form of equity
   ownership, often at a discount to par value (which may result in a loss) in an
   attempt to preserve some value that might be lost if these institutions were
   to fail. As of June 30, 2013, Treasury has held 17 sets of auctions to sell its
   preferred stock investments in 134 banks, selling all but seven investments at a
   discounted price resulting in a loss to Treasury.56 For more detailed information,
   see the “Capital Purchase Program” discussion in this section.
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
   Treasury used TARP money to buy preferred stock in or subordinated debt from
   Community Development Financial Institutions (“CDFIs”). Treasury intended                 Community Development Financial
   for CDCI to “improve access to credit for small businesses in the country’s               Institutions (“CDFIs”): Financial
   hardest-hit communities.”57 Under CDCI, TARP made capital investments                     institutions eligible for Treasury funding
   in the preferred stock or subordinated debt of eligible banks, bank holding               to serve urban and rural low-income
   companies, thrifts, and credit unions.58 Eighty-four institutions received $570.1         communities through the CDFI Fund.
   million in funding under CDCI.59 However, 28 of these institutions converted              CDFIs were created in 1994 by the
   their existing CPP investment into CDCI ($363.3 million of the $570.1 million)            Riegle Community Development and
   and 10 of those that converted received combined additional funding of $100.7             Regulatory Improvement Act.
   million under CDCI.60 Only $106 million of CDCI money went to institutions
   that were not already TARP recipients. As of June 30, 2013, 73 institutions
   remained in CDCI.61
•	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
   enabled Treasury to invest in systemically significant institutions to prevent
   them from failing.62 Only one firm received SSFI assistance: American
   International Group, Inc. (“AIG”). The Government’s rescue of AIG involved
   several different funding facilities provided by the Federal Reserve Bank of New
   York (“FRBNY”) and Treasury, with various changes to the transactions over
   time. Combined, Treasury and FRBNY committed $182 billion to bail out AIG,
   of which $161 billion was disbursed.63
50            special inspector general I troubled asset relief program




                                                             There were two TARP investments in AIG. On November 25, 2008,
                                                        Treasury bought $40 billion of AIG’s preferred stock, the proceeds of which
                                                        were used to repay a portion of AIG’s debt to FRBNY. Then, on April 17, 2009,
                                                        Treasury obligated approximately $29.8 billion to an equity capital facility that
                                                        AIG was allowed to draw on as needed.64
                                                             On January 14, 2011, AIG executed a Recapitalization Plan under which
                                                        AIG fully repaid FRBNY’s revolving credit facility, AIG purchased the remainder
                                                        of FRBNY’s preferred equity interests in two AIG subsidiaries (which it then
                                                        transferred to Treasury), AIG drew down $20.3 billion in TARP funds, and
                                                        Treasury converted its preferred stock holdings (along with the preferred stock
                                                        holdings held by the AIG Trust) into an approximately 92.1% common equity
                                                        ownership stake in AIG.65
                                                             Through two payments in February 2011 and March 2011, AIG fully repaid
                                                        the Government’s preferred interests in the American Life Insurance Company
     Special Purpose Vehicle (“SPV”):                   (“ALICO”) special purpose vehicle (“SPV”). Through a series of repayments be-
     A legal entity, often off-balance-                 tween February 2011 and March 2012, AIG fully repaid the Government’s pre-
     sheet, that holds transferred assets               ferred interests in the American International Assurance Co., Ltd. (“AIA”) SPV.
     presumptively beyond the reach of the              From May 2011 through December 2012, Treasury sold all 1.66 billion shares
     entities providing the assets, and that            of AIG’s common stock that it controlled, which at one point was 92% of AIG’s
     is legally isolated from its sponsor or            common stock. Treasury’s investment in AIG ended on March 1, 2013, when
     parent company.                                    Treasury sold its remaining investment, 2.7 million warrants for the right to
                                                        purchase AIG common shares.66 AIG bought the warrants from the Government
                                                        for $25.2 million, or about $9.35 per share.67
                                                             As of June 30, 2013, as reflected on Treasury’s books and records, taxpayers
                                                        had recouped $54.4 billion of the $67.8 billion in TARP funds and had realized
                                                        losses from an accounting standpoint of $13.5 billion on Treasury’s sale of AIG
                                                        stock.68 Due to the January 2011 restructuring of the FRBNY and Treasury in-
                                                        vestments, Treasury held common stock from the TARP and FRBNY assistance,
                                                        and, according to Treasury, the Government overall has made a $4.1 billion
                                                        gain on the stock sales, and $956 million has been paid in dividends and other
                                                        income.69 These amounts do not include any payments made to FRBNY prior to
                                                        the restructuring measures completed in January 2011.
                                                             On July 9, 2013, the Financial Stability Oversight Council (“FSOC”)
                                                        announced that it had designated AIG as a systemically important nonbank
                                                        financial company under Dodd-Frank, thereby subjecting AIG to consolidated
                                                        supervision by the Board of Governors of the Federal Reserve System (“Federal
                                                        Reserve”) and to enhanced prudential standards.70
                                                             For more detailed information, see the “Systemically Significant Failing
                                                        Institutions Program” discussion in this section.
                                                     •	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
     Senior Preferred Stock: Shares that                financial institutions it deemed critical to the financial system.71 There were two
     give the stockholder priority dividend             expenditures under this program, totaling $40 billion — the purchases of $20
     and liquidation claims over junior                 billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
     preferred and common stockholders.                 of America Corp. (“Bank of America”).72 Treasury also accepted common stock
                                                        warrants from each, as required by EESA. Both banks fully repaid Treasury
                                                                               quarterly report to congress I July 24, 2013               51




   for its TIP investments.73 Treasury auctioned its Bank of America warrants on
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.74
   For more information on these two transactions, see the “Targeted Investment
   Program and Asset Guarantee Program” discussion in this section.
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
   insurance-like protection for a select pool of mortgage-related or similar assets
   held by participants whose portfolios of distressed or illiquid assets threatened        Illiquid Assets: Assets that cannot be
   market confidence.75 Treasury, the Federal Deposit Insurance Corporation                 quickly converted to cash.
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection
   with $301 billion in troubled Citigroup assets.76 In exchange for providing              Trust Preferred Securities (“TRUPS”):
   the loss protection, Treasury received $4 billion of preferred stock that was            Securities that have both equity and
   later converted to trust preferred securities (“TRUPS”), and FDIC received               debt characteristics, created by
   $3 billion.77 On December 23, 2009, in connection with Citigroup’s TIP                   establishing a trust and issuing debt
   repayment, Citigroup and the Government terminated the AGP agreement and                 to it.
   the Government suffered no loss. On December 28, 2012, FDIC transferred
   $800 million of Citigroup TRUPS to Treasury, as a result of Citigroup’s
   participation in FDIC’s Temporary Liquidity Guarantee Program having closed
   without a loss.78 Treasury converted the TRUPS it received from FDIC into
   Citigroup subordinated notes and subsequently sold them for $894 million.79
   For more information on this program, including more detailed information
   on the agreements between Treasury, Citigroup, and FDIC regarding these
   TRUPS, see the “Targeted Investment Program and Asset Guarantee Program”
   discussion in this section.

Asset Support Programs
The stated purpose of these programs was to support the liquidity and market value
of assets owned by financial institutions. These assets included various classes of
asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support        Asset-Backed Securities (“ABS”): Bonds
programs sought to bolster the balance sheets of financial firms and help free              backed by a portfolio of consumer
capital so that these firms could extend more credit to support the economy.                or corporate loans (e.g., credit card,
                                                                                            auto, or small-business loans). Financial
•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was                           companies typically issue ABS backed
   originally designed to increase credit availability for consumers and small              by existing loans in order to fund new
   businesses through a $200 billion Federal Reserve loan program. TALF provided            loans for their customers.
   investors with non-recourse loans secured by certain types of ABS, including
   credit card receivables, auto loans, equipment loans, student loans, floor               Commercial Mortgage-Backed
   plan loans, insurance-premium finance loans, loans guaranteed by the Small               Securities (“CMBS”): Bonds backed by
   Business Administration (“SBA”), residential mortgage servicing advances, and            one or more mortgages on commercial
   commercial mortgage-backed securities (“CMBS”).80 TALF closed to new loans               real estate (e.g., office buildings, rental
   in June 2010.81 TALF ultimately provided $71.1 billion in Federal Reserve                apartments, hotels).
   financing. Of that amount, $257.9 million remained outstanding as of June
   30, 2013.82 FRBNY made 13 rounds of TALF loans with non-mortgage-related
   ABS as collateral, totaling approximately $59 billion, with $135.5 million
   of TALF borrowings outstanding as of June 30, 2013, all in student loans.83
   FRBNY also made 13 rounds of TALF loans with CMBS as collateral, totaling
52             special inspector general I troubled asset relief program




                                                         $12.1 billion, with $122.4 million in loans outstanding as of June 30, 2013.84
                                                         Treasury originally obligated $20 billion of TARP funds to support this program
                                                         by providing loss protection to the loans extended by FRBNY in the event that a
                                                         borrower surrendered the ABS collateral and walked away from the loan.85 On
                                                         January 15, 2013, Treasury announced that the TARP-funded credit protection
                                                         was no longer needed because the TALF program had collected fees totaling
                                                         more than the amount of loans still outstanding.86 As of June 30, 2013, there
                                                         had been no surrender of collateral.87 For more information on these activities,
                                                         see the “TALF” discussion in this section.
                                                      •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
                                                         credit markets by using a combination of private equity, matching Government
     Legacy Securities: Real estate-related              equity, and Government debt to purchase legacy securities, i.e., CMBS and
     securities originally issued before                 non-agency residential mortgage-backed securities (“non-agency RMBS”).88
     2009 that remained on the balance                   Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
     sheets of financial institutions because            by private asset managers invested in non-agency RMBS and CMBS. Treasury
     of pricing difficulties that resulted from          originally obligated $22.4 billion in TARP funds to the program and reduced the
     market disruption.                                  amount over time to $19.6 billion as of June 30, 2013. Together, all nine PPIFs
                                                         drew down $18.6 billion in debt and equity financing from Treasury funding
     Non-Agency Residential Mortgage-                    out of the total obligation, and repaid all of it.89 The remaining three fund
     Backed Securities (“non-agency                      managers in the program liquidated their investments in legacy securities during
     RMBS”): Financial instrument backed                 the quarter ended June 30, 2013.90 For details about the program structure and
     by a group of residential real estate               fund-manager terms, see the “Public-Private Investment Program” discussion in
     mortgages (i.e., home mortgages for                 this section.
     residences with up to four dwelling              •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
     units) not guaranteed or owned by                   Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
     a Government-sponsored enterprise                   officials announced that Treasury would buy up to $15 billion in securities
     (“GSE”) or a Government agency.                     backed by SBA loans under UCSB.91 Treasury obligated a total of $400 million
                                                         for UCSB and made purchases of $368.1 million in 31 securities under the
                                                         program. Treasury sold the last of its UCSB securities on January 24, 2012,
                                                         ending the program with a net investment gain of about $9 million.92 For more
                                                         information on the program, see the discussion of “Unlocking Credit for Small
                                                         Businesses/Small Business Administration Loan Support” in this section.

                                                      Automotive Industry Financing Program (“AIFP”)
                                                      TARP’s automotive industry support through AIFP aimed to “prevent a significant
                                                      disruption of the American automotive industry, which would pose a systemic
                                                      risk to financial market stability and have a negative effect on the economy of the
                                                      United States.”93 As of June 30, 2013, General Motors Company (“GM”) and Ally
                                                      Financial Inc. (“Ally Financial”), formerly GMAC Inc., remain in TARP. Taxpayers
                                                      are still owed $34.8 billion. This includes about $17.2 billion for the TARP
                                                      investment in GM and $14.6 billion for the TARP investment in Ally Financial, for
                                                      which Treasury holds common stock in GM and common stock and mandatorily
                                                      convertible preferred shares (“MCP”) in Ally Financial. This amount also includes
                                                      a $2.9 billion loss taxpayers suffered on the principal TARP investment in Chrysler.
                                                      Chrysler Financial fully repaid its TARP investment.94
                                                                                quarterly report to congress I July 24, 2013   53




     Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
(“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”),
and GM. Additionally, Treasury bought senior preferred stock from Ally Financial
and assisted Chrysler and GM during their bankruptcy restructurings. As of June
30, 2013, $79.7 billion had been disbursed through AIFP and its subprograms,
and Treasury had received $44.9 billion in principal repayments, preferred stock
redemption proceeds, and stock sale proceeds. As of June 30, 2013, Treasury had
received approximately $32.9 billion related to its GM investment, $2.5 billion
related to its Ally Financial/GMAC investment, $8 billion related to its Chrysler
investment, and $1.5 billion related to its Chrysler Financial investment.95 As of
June 30, 2013, Treasury had also received approximately $5.4 billion in dividends
and interest under AIFP and its two subprograms, ASSP and AWCP.96
     In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
in preferred stock and a 61% common equity stake.97 On December 2, 2010,
GM closed an initial public offering (“IPO”) in which Treasury sold a portion of
its ownership stake for $18.1 billion in gross proceeds, reducing its ownership
percentage to 33%.98 On December 15, 2010, GM repurchased the $2.1 billion
in preferred stock from Treasury. On January 31, 2011, Treasury’s ownership in
GM was diluted from 33% to 32% as a result of GM contributing 61 million of
its common shares to fund GM’s hourly and salaried pension plans.99 Treasury
sold 200 million shares of GM common stock to GM in December 2012 and
announced it would sell all remaining shares by early 2014.100 In a series of smaller
sales under a pre-arranged trading plan from January 18, 2013, through April
11, 2013, Treasury sold 58.4 million shares.101 Treasury continued selling GM
shares under a second pre-arranged trading plan that began on May 6, 2013, and
is scheduled to end on September 13, 2013.102 On June 6, 2013, Treasury sold
30 million GM shares in a public equity offering.103 As of June 6, 2013, Treasury
owned 14% of common stock outstanding in GM. However, that ownership stake
does not reflect GM shares sold in May and June under Treasury’s latest pre-
arranged trading plan.104
     Treasury invested a total of $17.2 billion in Ally Financial, and $14.6 billion
of that is still outstanding. On December 30, 2010, Treasury’s investment was
restructured to provide for a 74% common equity stake, $2.7 billion in TRUPS
(including amounts received in warrants that were immediately converted into
additional securities), and $5.9 billion in mandatorily convertible preferred
shares.105 Treasury sold the $2.7 billion in TRUPS on March 2, 2011.106 On March
31, 2011, Ally Financial announced that it had filed a registration statement with
the Securities and Exchange Commission (“SEC”) for a proposed IPO of common
stock owned by Treasury. On May 14, 2012, Ally Financial announced that its
mortgage subsidiary, Residential Capital, LLC, and certain of its subsidiary, filed
for bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code.107 A
bankruptcy court on June 26, 2013, approved Ally Financial’s proposed $2.1 billion
settlement with ResCap which gave Ally Financial broad releases from certain
mortgage claims and liabilities.108
54   special inspector general I troubled asset relief program




                                                 Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
                                            of which $2.1 billion was never drawn down.109 On July 21, 2011, Treasury sold to
                                            Fiat for $500 million Treasury’s remaining equity ownership interest in Chrysler.110
                                            Treasury also sold to Fiat for $60 million Treasury’s rights to receive proceeds under
                                            an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
                                            trust’s shares in Chrysler on a fully diluted basis.111 Treasury’s books reflect a $2.9
                                            billion loss to taxpayers on their principal investment in Chrysler.112
                                                 Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
                                            repaid with interest in July 2009.113
                                                 For details on assistance to these companies, see the “Automotive Industry
                                            Support Programs” discussion in this section.
                                                 AIFP also included two subprograms:

                                            •	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
                                               program was intended to provide auto suppliers “with the confidence they need
                                               to continue shipping their parts and the support they need to help access loans
                                               to pay their employees and continue their operations.”114 Under the program,
                                               which ended in April 2010, Treasury made loans for GM ($290 million) and
                                               Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
                                               fees and other income.115 For more information, see the “Auto Supplier Support
                                               Program” discussion in this section.
                                            •	 Auto Warranty Commitment Program (“AWCP”) — This program was
                                               designed to bolster consumer confidence by guaranteeing Chrysler and GM
                                               vehicle warranties during the companies’ restructuring through bankruptcy. It
                                               ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
                                               with interest and GM repaid just the principal — $360.6 million — of its
                                               loan.116 For more information, see the “Auto Warranty Commitment Program”
                                               discussion in this section.
                                                                                 quarterly report to congress I July 24, 2013            55




Housing Support Programs
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella
program for the Administration’s homeowner assistance and foreclosure prevention
efforts.117 MHA initially consisted of the Home Affordable Modification Program
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for
mortgage servicers to modify eligible first-lien mortgages, and two initiatives at
the Government-sponsored enterprises (“GSEs”) that use non-TARP funds.118                     Government-Sponsored Enterprises
HAMP was originally intended “to help as many as three to four million financially            (“GSEs”): Private corporations created
struggling homeowners avoid foreclosure by modifying loans to a level that is                 and chartered by the Government to
affordable for borrowers now and sustainable over the long term.”119 On June 1,               reduce borrowing costs and provide
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted                liquidity in the market, the liabilities
through the launch of HAMP Tier 2; however, Treasury has not estimated the                    of which are not officially considered
number of homeowners that HAMP Tier 2 is intended to assist.120 On June 13,                   direct taxpayer obligations. On
2013, Treasury generally extended MHA programs for an additional two years,                   September 7, 2008, the two largest
from December 31, 2013, to December 31, 2015.121                                              GSEs, the Federal National Mortgage
     Treasury over time expanded MHA to include sub-programs. Treasury also allo-             Association (“Fannie Mae”) and
cated TARP funds to support two additional housing support efforts: TARP funding              the Federal Home Loan Mortgage
for 19 state housing finance agencies, called the Housing Finance Agency Hardest              Corporation (“Freddie Mac”), were
Hit Fund (“Hardest Hit Fund” or “HHF”) and a Federal Housing Administration                   placed into Federal conservatorship.
(“FHA”) refinancing program. The HHF program is scheduled to expire on                        They are currently being financially
December 31, 2017. The FHA refinancing program, it is currently scheduled to                  supported by the Government.
expire on December 31, 2014.122
     Not all housing support programs are funded, or completely funded, by TARP.
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be
funded by TARP, with the remainder funded by the GSEs.123 Although Treasury
originally committed to use $50 billion in TARP funds for these programs, it sub-
sequently obligated only $45.6 billion, and in March 2013, reduced its obligation
to $38.5 billion, which includes $29.9 billion for MHA incentive payments, $7.6
billion for the Hardest Hit Fund, and $1 billion for FHA Short Refinance.124
     Under EESA and the SIGTARP Act, SIGTARP is required to report quarterly to
Congress to provide certain information about TARP over that preceding quarter.
This quarter, for the fourth quarter in a row, Treasury failed to provide certain end-
of-quarter data on two MHA programs, Principal Reduction Alternative and Home
Affordable Foreclosure Alternatives. This quarter, for the second quarter in a row,
Treasury also failed to provide certain end-of-quarter data on three other MHA
programs, the Second-Lien Modification Program, FHA-HAMP, and RD-HAMP.
Accordingly, SIGTARP is unable to provide or analyze end-of-quarter data as noted
below and thus is not able to fully report on the status of these programs. Instead,
this report contains the most recent data provided by Treasury, and it is noted as
such in the relevant sections.
56            special inspector general I troubled asset relief program




                                                         Housing support programs include the following initiatives:

                                                     •	 Home Affordable Modification Program (“HAMP”) — HAMP is intended
                                                        to use incentive payments to encourage loan servicers (“servicers”) and
     Loan Servicers: Companies that
                                                        investors to modify eligible first-lien mortgages so that the monthly payments
     perform administrative tasks on
                                                        of homeowners who are currently in default or generally at imminent risk
     monthly mortgage payments until the
                                                        of default will be reduced to affordable and sustainable levels.125 Incentive
     loan is repaid. These tasks include
                                                        payments for modifications to loans owned or guaranteed by the GSEs are
     billing, tracking, and collecting monthly
                                                        paid by the GSEs, not TARP.126 As of June 30, 2013, there were 878,555 active
     payments; maintaining records of
                                                        permanent HAMP Tier 1 modifications, 446,327 of which were under TARP,
     payments and balances; allocating
                                                        with the remainder under the GSE portion of the program.127 While HAMP
     and distributing payment collections
                                                        generally refers to the first-lien mortgage modification program, it also includes
     to investors in accordance with
                                                        the following subprograms:
     each mortgage loan’s governing
                                                        çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
     documentation; following up
                                                            encourage additional investor participation and HAMP modifications in
     on delinquencies; and initiating
                                                            areas with recent price declines by providing TARP-funded incentives to
     foreclosures.
                                                            offset potential losses in home values.128 As of June 30, 2013, there were
                                                            195,288 (Tier 1 and Tier 2) loan modifications under HPDP.129
     Investors: Owners of mortgage loans
                                                        çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
     or bonds backed by mortgage loans
                                                            the use of principal reduction in modifications for eligible borrowers whose
     who receive interest and principal
                                                            homes are worth significantly less than the remaining outstanding balances
     payments from monthly mortgage
                                                            of their first-lien mortgage loans. It provides TARP-funded incentives
     payments. Servicers manage the
                                                            to offset a portion of the principal reduction provided by the investor.130
     cash flow from borrowers’ monthly
                                                            Treasury failed to provide end-of-quarter data on several aspects of PRA to
     payments and distribute them to
                                                            SIGTARP before publication. As of May 31, 2013, the latest data provided
     investors according to Pooling and
                                                            by Treasury, there were 91,037 (Tier 1 and Tier 2) active permanent
     Servicing Agreements (“PSAs”).
                                                            modifications through PRA.131
                                                        çç Home Affordable Unemployment Program (“UP”) — UP is intended to
     Short Sale: Sale of a home for less
                                                            offer assistance to unemployed homeowners through temporary forbearance
     than the unpaid mortgage balance.
                                                            of all or a portion of their payments.132 As of May 31, 2013, which according
     A borrower sells the home and the
                                                            to Treasury is the most recent data available, 6,538 borrowers were actively
     investor accepts the proceeds as full
                                                            participating in UP.133
     or partial satisfaction of the unpaid
                                                     •	 Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
     mortgage balance, thus avoiding the
                                                        Tier 2 is an expansion of HAMP to permit HAMP modifications on non-owner-
     foreclosure process.
                                                        occupied “rental” properties, and to allow borrowers with a wider range of debt-
                                                        to-income ratios to receive modifications.134 As of June 30, 2013, 9,714 HAMP
     Deed-in-Lieu of Foreclosure: Instead
                                                        Tier 2 modifications had become permanent, of which 9,488 remained active.135
     of going through foreclosure, the
                                                        Of Tier 2 modifications started, 1,911 were previously HAMP Tier 1 permanent
     borrower voluntarily surrenders the
                                                        modifications.
     deed to the home to the investor, as
                                                     •	 Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     satisfaction of the unpaid mortgage
                                                        to provide incentives to servicers, investors, and borrowers to pursue short sales
     balance.
                                                        and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
                                                        is unable or unwilling to enter or sustain a modification. Under this program,
                                                        the servicer releases the lien against the property and the investor waives all
                                                        rights to seek a deficiency judgment against a borrower who uses a short sale
                                                                                   quarterly report to congress I July 24, 2013          57




     or deed-in-lieu when the property is worth less than the outstanding amount of
     the mortgage.136 Treasury failed to provide end-of-quarter data on the number
     of short sales and deeds-in-lieu under HAFA to SIGTARP before publication. As
     of May 31, 2013, the latest data provided by Treasury, there were 117,341 short
     sales or deeds-in-lieu under HAFA.137
•	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     second-lien mortgages when a corresponding first lien is modified under HAMP
     by a participating servicer.138 As of June 30, 2013, 16 servicers are participating
     in 2MP.139 These servicers represent approximately 55–60% of the second-lien
     servicing market.140 As of May 31, 2013, the latest data provided by Treasury,
     there were 72,337 active permanently modified second liens in 2MP.141
•	   Agency-Insured Programs — These programs are similar in structure to
     HAMP, but apply to eligible first-lien mortgages insured by FHA or guaranteed
     by the Department of Agriculture’s Office of Rural Development (“RD”) and
     the Department of Veterans Affairs (“VA”).142 Treasury provides TARP-funded
     incentives to encourage modifications under the FHA and RD modification
     programs. As of May 31, 2013, the latest data provided by Treasury, there were
     31 RD-HAMP active permanent modifications and 11,370 FHA-HAMP active
     permanent modifications.143
•	   Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
     uses TARP funds to provide incentives to servicers and investors who agree to
     principal reduction or extinguishment of second liens associated with an FHA
     refinance.144 As of June 30, 2013, no second liens had been partially written
     down or extinguished under the program.145
•	   Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
     program, HHF is intended to fund foreclosure prevention programs run by state
     housing finance agencies in states hit hardest by the decrease in home prices
     and in states with high unemployment rates. Eighteen states and Washington,
     DC, received approval for aid through the program.146 As of March 31, 2013,
     the latest data available, 109,874 borrowers had received assistance under
     HHF.147
•	   FHA Short Refinance Program — This program, which is partially supported
     by TARP funds, is intended to provide borrowers who are current on their                   Underwater Mortgage: Mortgage loan
     mortgage an opportunity to refinance existing underwater mortgage loans that               on which a homeowner owes more
     are not currently insured by FHA into FHA-insured mortgages with lower                     than the home is worth, typically as
     principal balances. Treasury has provided a TARP-funded letter of credit for up            a result of a decline in the home’s
     to $1 billion in loss coverage on these newly originated FHA loans.148 As of June          value. Underwater mortgages also are
     30, 2013, 3,136 loans had been refinanced under FHA Short Refinance.149                    referred to as having negative equity.


Status of TARP Funds Obligated to Housing Support
Programs
Treasury initially obligated $45.6 billion to housing support programs, which was
reduced to $38.5 billion, of which $8.6 billion, or 22%, has been expended as of
June 30, 2013.150 Of that, $1.3 billion was expended in the quarter ended June 30,
2013. However, some of the expended funds remain as cash on hand or paid for
58   special inspector general I troubled asset relief program




                                            administrative expenses at state housing finance agencies (“HFAs”) participating
                                            in the Hardest Hit Fund program. Treasury has capped the aggregate amount
                                            available to pay servicer, borrower, and investor incentives under MHA programs at
                                            $29.9 billion, of which $5.8 billion (20%), has been spent as of June 30, 2013.151
                                            Treasury allocated $7.6 billion to the Hardest Hit Fund. As of March 31, 2013,
                                            the latest data available, only $1.32 billion (17%) of those funds have gone to help
                                            109,874 homeowners.152 HFAs have drawn down approximately $2.7 billion, as
                                            of June 30, 2013, but not all of that has gone to assist homeowners.153 Treasury
                                            originally allocated $8.1 billion for FHA Short Refinance, but de-obligated $7.1
                                            billion in March 2013.154 Of the $1 billion currently allocated for FHA Short
                                            Refinance, $8.8 million has been spent on administrative expenses.155
                                                 Table 2.6 shows the breakdown in expenditures and estimated funding
                                            allocations for these housing support programs. Figure 2.2 also shows these
                                            expenditures, as a percentage of allocations.

                                            TABLE 2.6
                                             TARP Allocations and Expenditures by housing Support programs,
                                             AS OF 6/30/2013 ($ BILLIONS)
                                                                                                                        ALLOCATIONS                            EXPENDITURES
                                                                                           MHA
                                                 HAMP     a


                                                      First Lien Modification                                           $19.1                                     $4.2
                                                      PRA Modification                                                      2.0                                     0.3
                                                      HPDP                                                                  1.6                                     0.3
                                                      UP                                                                      —   b
                                                                                                                                                                      —
                                                                                 HAMP Total                             $22.7                                     $4.8
                                                      HAFA                                                                      4.2                                    0.6
                                                      2MP                                                                       0.1                                    0.4
                                                      Treasury FHA-HAMP                                                         0.2                                       —c
                                                      RD-HAMP                                                                     —d                                      —
                                                      FHA2LP                                                                    2.7                                       —
                                                                                   MHA Total                                          $29.9                                    $5.8
                                                        HHF (Drawdown by States)e                                                      $7.6                                    $2.7
                                                                  FHA Short Refinance                                                  $1.0 f
                                                                                                                                                                               $0.1
                                                                                           Total                                      $38.5                                    $8.6
                                             Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                             a
                                               Includes HAMP Tier 1 and HAMP Tier 2.
                                             b
                                                Treasury does not allocate TARP funds to UP.
                                             c
                                               Treasury has expended $0.03 billion for the Treasury FHA-HAMP program.
                                             d
                                                Treasury has allocated $0.02 billion to the RD-HAMP program. As of June 30, 2013, $42,924 has been expended for RD-HAMP.
                                             e
                                               Not all of the funds drawn down by HFAs have been used to assist homeowners. As of March 31, 2013, the latest data available,
                                                only $1.32 billion was spent to assist homeowners.
                                             f
                                               This amount includes up to $25 million in fees Treasury will incur for the availability and usage of the $1 billion letter of credit.

                                             Sources: Treasury, responses to SIGTARP data call, 7/5/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013.
                                                                                                             quarterly report to congress I July 24, 2013   59




Figure 2.2
                        TARP HOUSING SUPPORT FUNDS ALLOCATED AND SPENT,
                        AS OF 6/30/2013 ($ BILLIONS)
              HAMP                                                                                   21% spent
        $22.7 billion                                                                                ($4.8 billion)

   Hardest Hit Fund                                        35% spent
        $7.6 billion                                       ($2.7 billion)

              HAFA                            14% spent
         $4.2 billion                         ($0.6 billion)
                                                                                          Funds Allocated
            FHA2LP                                                                        Funds Spent
                                      None spent
         $2.7 billion

FHA Short Refinance            6% spent
          $1 billion           ($0.1 billion)

Treasury FHA–HAMP           14% spent
         $0.2 billion       ($0.03 billion)

                        0                  $5                    $10             $15       $20               $25
                                          billion               billion         billion   billion           billion

                        Notes: Numbers may not total due to rounding.

                        Sources: Treasury, responses to SIGTARP data call, 7/5/2013.


     As of June 30, 2013, Treasury had active agreements with 93 servicers. That
compares with 145 servicers that had agreed to participate in MHA as of October
3, 2010.156 According to Treasury, of the $29.9 billion obligated to participating
servicers under their Servicer Participation Agreements (“SPAs”), as of June 30,
2013, only $5.8 billion (20%) has been spent, broken down as follows: $4.8 billion
had been spent on completing permanent modifications of first liens, including
PRA and HPDP, (446,327 of which remain active); $411 million under 2MP; and
$586.5 million on incentives for short sales or deeds-in-lieu of foreclosure under
HAFA.157 Of the combined amount of incentive payments, according to Treasury,
approximately $2.8 billion went to pay investor or lender incentives, $1.8 billion
went to pay servicer incentives, and $1.2 billion went to pay borrower incentives.158
As of June 30, 2013, Treasury had disbursed approximately $2.7 billion of the $7.6
billion allocated to HFAs participating in HHF.159 According to the most recent
data, as of March 31, 2013, 36% of HHF funding disbursed to HFAs is held as
cash on hand with HFAs or is used for administrative expenses.160 The remaining
$1 billion has been obligated under FHA Short Refinance to purchase a letter of
credit to provide up to $1 billion in first loss coverage and to pay $25 million in
fees for the letter of credit.161 According to Treasury, it has paid only one claim for
one default on the 3,136 loans refinanced under the program. However, Treasury
has pre-funded a reserve account with $50 million to pay future claims and spent
$8.8 million on administrative expenses.162 The breakdown of TARP-funded
expenditures related to housing support programs (not including the GSE-funded
portion of HAMP) are shown in Table 2.7.
60   special inspector general I troubled asset relief program




                                            TABLE 2.7
                                             Breakdown of TARP Expenditures, As of 6/30/2013                                                ($ MILLIONs)
                                             MHA                                                                             TARP Expenditures
                                                 HAMP
                                                      HAMP First Lien Modification Incentives
                                                         Servicer Incentive Payment                                            $612.9
                                                         Servicer Current Borrower Incentive Payment                             $16.6
                                                         Annual Servicer Incentive Payment                                     $908.2
                                                         Investor Current Borrower Incentive Payment                             $62.3
                                                         Investor Monthly Reduction Cost Share                               $1,760.0
                                                         Annual Borrower Incentive Payment                                     $837.6
                                                         Tier 2 Incentive Payments                                                 $9.6
                                                      HAMP First Lien Modification Incentives Total                                    $4,207.1
                                                      PRA                                                                                 $295.1
                                                      HPDP                                                                                $314.4
                                                      UP                                                                                          $—a
                                                      HAMP Program Incentives Total                                                                  $4,816.6
                                                 HAFA Incentives
                                                    Servicer Incentive Payment                                                                   $175.3
                                                    Investor Reimbursement                                                                         $88.3
                                                    Borrower Relocation                                                                          $323.0
                                                HAFA Incentives Total                                                                                  $586.5
                                                Second-Lien Modification Program Incentives
                                                    2MP Servicer Incentive Payment                                                                 $54.8
                                                    2MP Annual Servicer Incentive Payment                                                          $20.7
                                                    2MP Annual Borrower Incentive Payment                                                          $19.1
                                                    2MP Investor Cost Share                                                                      $113.7
                                                    2MP Investor Incentive                                                                       $202.7
                                                Second-Lien Modification Program Incentives Total                                                      $411.0
                                                Treasury/FHA-HAMP Incentives
                                                    Annual Servicer Incentive Payment                                                              $14.3
                                                    Annual Borrower Incentive Payment                                                              $13.0
                                                Treasury/FHA-HAMP Incentives Total                                                                       $27.4
                                                RD-HAMP                                                                                                        $—b
                                                FHA2LP                                                                                                         $—
                                             MHA Incentives Total                                                                                             $5,841.6
                                             HHF Disbursements (Drawdowns by State HFAs)                                                                      $2,678.3
                                             FHA Short Refinance (Loss-Coverage)                                                                                  $58.8
                                             Total Expenditures                                                                                               $8,578.7
                                             Notes: Numbers may not total due to rounding.
                                             a
                                               TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
                                                payment.
                                             b
                                                RD-HAMP expenditures equal $42,924 as of June 30, 2013.

                                             Sources: Treasury, responses to SIGTARP data call, 7/5/2013.
                                                                                                                         quarterly report to congress I July 24, 2013         61




HAMP
According to Treasury, HAMP was intended “to help as many as three to four
million financially struggling homeowners avoid foreclosure by modifying loans to
a level that is affordable for borrowers now and sustainable over the long term.”163
Although HAMP contains several subprograms, the term “HAMP” is most often
used to refer to the HAMP First-Lien Modification Program, described below.

HAMP First-Lien Modification Program
The HAMP First-Lien Modification Program, which went into effect on April
6, 2009, modifies the terms of first-lien mortgages to provide borrowers with
lower monthly payments. A HAMP modification consists of two phases: a trial                                                           Trial Modification: Under HAMP, a
modification that was originally designed to last three months, followed by a                                                         period of at least three months in
permanent modification. Treasury continues to pay incentives for five years.164 In                                                    which a borrower is given a chance
designing HAMP, the Administration envisioned a “shared partnership” between                                                          to establish that he or she can make
the Government and investors to bring distressed borrowers’ first lien monthly                                                        lower monthly mortgage payments and
payments down to an “affordable and sustainable” level.165 The program description                                                    qualify for a permanent modification.
immediately below refers only to the original HAMP program, which after the
launch of HAMP Tier 2 has been renamed “HAMP Tier 1.”

HAMP Tier 1 Modification Statistics
As of June 30, 2013, a total of 878,555 mortgages were in active permanent
modifications under both TARP (non-GSE) and GSE HAMP. Some 51,098 were
in active trial modifications. Treasury failed to provide end-of-quarter data on the
percentages of permanent modifications that received interest rate reduction, term
extension, or principal forbearance to SIGTARP before publication. As of May
31, 2013, the latest data provided by Treasury, for borrowers receiving permanent
modifications, 96.3% received an interest rate reduction, 62.4% received a term
extension, 32.9% received principal forbearance, and 13.9% received principal
forgiveness.166 HAMP modification activity, broken out by TARP and GSE loans, is
shown in Table 2.8. For more detail on active and cancelled modifications over the
life of HAMP, see Table F.1 in Appendix F.

TABLE 2.8
 Cumulative HAMP TIER 1 modification activity by TARP/GSE, as of
 6/30/2013
                                                                           Trials
                  Trials           Trials               Trials      Converted to         Permanents           Permanents
                Started        Cancelled               Active        Permanent            Cancelleda              Active
 TARP       1,005,121             351,552             31,851              621,718                175,391              446,327
 GSE        1,036,322             425,008             19,247              592,067                159,839              432,228
 Total     2,041,443             776,560             51,098            1,213,785                 335,230              878,555
 Notes:
 a
   Includes 3,911 TARP HAMP modifications paid off and 12,819 GSE HAMP modifications paid off.

 Sources: Treasury, response to SIGTARP data call, 7/19/2013; Fannie Mae, response to SIGTARP data call, 7/19/2013.
62            special inspector general I troubled asset relief program




                                                     Starting a HAMP Tier 1 Modification
                                                     Borrowers may request participation in HAMP.167 Borrowers who have missed two
                                                     or more payments must be solicited for participation by their servicers.168 Before
                                                     offering the borrower a trial modification, also known as a trial period plan (“TPP”),
                                                     the servicer must verify the accuracy of the borrower’s income and other eligibility
                                                     criteria. In order to verify the borrower’s eligibility for a modification under the
                                                     program, borrowers must submit the following documents as part of an “initial
                                                     package.”169

                                                     •	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the
                                                        servicer with the borrower’s financial information, including the cause of the
                                                        borrower’s hardship;
                                                     •	 signed and completed requests for Federal tax return transcripts or the most
                                                        recent Federal income tax return, including all schedules and forms;
                                                     •	 income verification documentation, such as recent pay stubs or evidence of
                                                        other sources of income; and
     For more information on the RMA                 •	 Dodd-Frank certification (either as part of the RMA form or as a standalone
     form and what constitutes hardship,                document) that the borrower has not been convicted in the past 10 years of any
     see SIGTARP’s April 2011 Quarterly
                                                        of the following in connection with a mortgage or real estate transaction: felony
     Report, page 62.
                                                        larceny, theft, fraud, or forgery; money laundering, or tax evasion.
     For more information on the Verification
     Policy, see SIGTARP’s April 2011                    In order for a loan to be eligible for a HAMP modification, the borrower’s initial
     Quarterly Report, page 63.                      package, consisting of the four documents described above, must be submitted by
                                                     the borrower on or before December 31, 2015. Additionally, in order to be eligible
     For more about the HAMP NPV test,               for incentive payments, the permanent modification must be effective on or before
     see the June 18, 2012, SIGTARP audit            September, 2016.170
     report “The NPV Test’s Impact on                    Participating servicers verify monthly gross income for the borrower and the
     HAMP.”                                          borrower’s household, as well as other eligibility criteria.171 Then, in the case of
                                                     HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
                                                     by HAMP guidelines to calculate the reduction in the borrower’s monthly mortgage
                                                     payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a payment
                                                     equal to 31% of his or her monthly gross income.172
                                                         In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
                                                     them to the outstanding principal balance). Second, the servicer reduces the inter-
                                                     est rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold still
                                                     has not been reached, in the third step the servicer extends the term of the mort-
                                                     gage to a maximum of 40 years from the modification date. If these steps are still
                                                     insufficient to reach the 31% threshold, the servicer may forbear principal (defer its
                                                     due date), subject to certain limits.173 The forbearance amount is not interest bear-
                                                     ing and results in a lump-sum payment due upon the earliest of the sale date of the
                                                     property, the payoff date of the interest-bearing mortgage balance, or the maturity
                                                     date of the mortgage.174
                                                         Servicers are not required to forgive principal under HAMP. However, servicers
                                                     may forgive principal in order to lower the borrower’s monthly payment to achieve
                                                                                     quarterly report to congress I July 24, 2013           63




the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any point in the
HAMP waterfall described above, or as part of PRA.175
    After completing these modification calculations, all loans that meet HAMP
eligibility criteria and are either deemed generally to be in imminent default or
delinquent by two or more payments must be evaluated using a standardized net
                                                                                                  Net Present Value (“NPV”) Test:
present value (“NPV”) test that compares the NPV result for a modification to
                                                                                                  Compares the money generated by
the NPV result for no modification.176 The NPV test compares the expected cash
                                                                                                  modifying the terms of the mortgage
flow from a modified loan with the expected cash flow from the same loan with
                                                                                                  with the amount an investor can
no modifications to determine which option will be more valuable to the mortgage
                                                                                                  reasonably expect to recover in a
investor. A positive NPV test result indicates that a modified loan is more valuable
                                                                                                  foreclosure sale.
to the investor than the existing loan. In that case, under HAMP rules, the servicer
must offer the borrower a mortgage modification. If the test generates a negative
                                                                                                  Loan-to-Value (“LTV”) Ratio: Lending
result, modification is optional.177 Servicers cannot refuse to evaluate a borrower
                                                                                                  risk assessment ratio that mortgage
for a modification simply because the outstanding loan currently has a low loan-to-
                                                                                                  lenders examine before approving a
value (“LTV”) ratio, meaning the borrower owes less than the value of the home.
                                                                                                  mortgage; calculated by dividing the
The lower the LTV ratio is, the higher the probability that a foreclosure will be
                                                                                                  outstanding amount of the loan by
more profitable to an investor than a modification.
                                                                                                  the value of the collateral backing the
    Since September 1, 2011, most of the largest mortgage servicers participat-
                                                                                                  loan. Loans with high LTV ratios are
ing in MHA have been required to assign a single point of contact to borrowers
                                                                                                  generally seen as higher risk because
potentially eligible for evaluation under HAMP, HAFA, or UP.178 The single point of
                                                                                                  the borrower has less of an equity
contact has the primary responsibility for communicating with the borrower about
                                                                                                  stake in the property.
options to avoid foreclosure, his/her status in the process, coordination of receipt of
documents, and coordination with other servicer personnel to promote compliance
with MHA timelines and requirements throughout the entire delinquency, immi-
nent default resolution process, or foreclosure.179

How HAMP Tier 1 First-Lien Modifications Work
Treasury originally intended that HAMP trial modifications would last three
months. Historically, many trial modifications have lasted longer. According to
Treasury, as of June 30, 2013, of a combined total of 51,098 active trials under
both GSE and TARP (non-GSE) HAMP, 8,627 (17%) had lasted more than six
months.180
    Borrowers in trial modifications may qualify for conversion to a permanent
modification as long as they make the required modified payments on time and
provide proper documentation, including a signed modification agreement.181 The
terms of permanent modifications under HAMP Tier 1 remain fixed for at least five
years.182 After five years, the loan’s interest rate can increase if the modified interest
rate had been reduced below the 30-year conforming fixed interest rate on the date
of the initial modification. The interest rate can rise incrementally by up to 1%
per year until it reaches that rate.183 Otherwise, the modified interest rate remains
permanent.
    If the borrower misses a payment during the trial or is denied a permanent
modification for any other reason, the borrower is, in effect, left with the original
terms of the mortgage. The borrower is responsible for the difference between
the original mortgage payment amount and the reduced trial payments that were
64            special inspector general I troubled asset relief program




                                                     made during the trial. In addition, the borrower may be liable for late fees that were
                                                     generated during the trial. In other words, a borrower can be assessed late fees
                                                     for failing to make the original pre-modification scheduled payments during the
                                                     trial period, even though under the trial modification the borrower is not required
                                                     to make these payments. Late fees are waived only for borrowers who receive a
                                                     permanent modification.184

                                                     What Happens When a HAMP Modification Is Denied: Servicer Obligations and
                                                     Borrower Rights
                                                     Treasury has issued guidance governing both the obligations of servicers and the
                                                     rights of borrowers in connection with the denial of loan modification requests.
                                                     Borrowers must receive a Non-Approval Notice if they are rejected for a HAMP
                                                     modification. A borrower who is not approved for HAMP Tier 1 is automatically
                                                     considered for HAMP Tier 2. If the servicer offers the borrower a HAMP Tier 2
                                                     trial, no Non-Approval Notice would be issued on the HAMP Tier 1. The Non-
                                                     Approval Notice is sent only if the HAMP Tier 2 is not offered. Borrowers can
                                                     request reconsideration or re-evaluation if they believe one or more NPV analysis
                                                     inputs is incorrect or if they experience a change in circumstance. Servicers are
                                                     obligated to have written procedures and personnel in place to respond to borrower
                                                     inquiries and disputes that constitute “escalated cases” in a timely manner.185
                                                         Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be
     For more information on HAMP                    used by borrowers prior to applying for a HAMP modification or after a denial
     servicer obligations and borrower rights,       of a HAMP modification. Borrowers can enter the NPV input values listed in
     see SIGTARP’s April 2011 Quarterly              the HAMP Non-Approval Notice received from their servicer, or substitute with
     Report, pages 67-76.                            estimated NPV input values, to compare the estimated outcome provided by
                                                     CheckMyNPV.com against that on the Non-Approval Notice.

                                                     Modification Incentives
                                                     For new HAMP trials on or after October 1, 2011, Treasury changed the one-
                                                     time flat $1,000 incentive payment to a sliding scale based on the length of time
                                                     the loan was delinquent as of the effective date of the TPP. For loans less than or
                                                     equal to 120 days delinquent, servicers receive $1,600.186 For loans 121-210 days
                                                     delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
                                                     servicers receive only $400. For borrowers whose monthly mortgage payment was
                                                     reduced through HAMP by 6% or more, servicers also receive incentive payments
                                                     of up to $1,000 annually for three years if the borrower remains in good standing
                                                     (defined as less than three full monthly payments delinquent).187
                                                         For HAMP Tier 1, borrowers whose monthly mortgage payment is reduced
                                                     through HAMP by 6% or more and who make monthly payments on time earn
                                                     an annual principal reduction of up to $1,000.188 The principal reduction accrues
                                                     monthly and is payable for each of the first five years as long as the borrower re-
                                                     mains in good standing.189 Under both HAMP Tier 1 and HAMP Tier 2, the inves-
                                                     tor is entitled to five years of incentives that make up part of the difference between
                                                     the borrower’s new monthly payment and the old one.
                                                                                                                          quarterly report to congress I July 24, 2013          65




    As of June 30, 2013, of the $29.9 billion in TARP funds allocated to the 93
servicers participating in MHA, approximately 91% was allocated to the 10 largest
servicers.190 Table 2.9 shows incentive payments made to these servicers.

TABLE 2.9
 TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 6/30/2013
                                                                                    Incentive                    Incentive                    Incentive
                                                                                   Payments                     Payments                     Payments         Total Incentive
                                                 SPA Cap Limit                  to Borrowers                  to Investors                 to Servicers            Payments
 Ocwen Loan Servicing, LLCa                     $5,673,042,295                 $212,524,461                 $576,929,623                $366,954,224          $1,156,408,307
 JPMorgan Chase Bank, NA          b
                                                 3,761,610,227                   247,716,840                 551,138,981                  353,364,614          1,152,220,435
 Bank of America, N.A.c                          7,771,165,394                   257,675,099                 528,390,555                  332,717,235          1,118,782,889
 Wells Fargo Bank, N.A.      d
                                                 5,104,406,217                   180,959,940                 426,136,502                  276,948,880           884,045,322
 CitiMortgage Inc                                   985,997,438                   57,557,194                 191,002,036                    98,861,710          347,420,939
 OneWest Bank                                    1,836,132,621                    52,060,053                 164,279,147                    75,560,054          291,899,254
 Select Portfolio Servicing, Inc.                1,042,624,125                    59,544,585                 117,598,859                    88,261,516          265,404,960
 Nationstar Mortgage LLC                            694,174,618                   30,707,283                   60,345,965                   43,663,671          134,716,920
 Saxon Mortgage Services Inc                        100,807,086                   19,655,075                   41,738,413                   39,413,598          100,807,086
 Aurora Loan Services LLC                           109,043,110                   15,997,418                   41,236,850                   28,629,251           85,863,519
 Total                                      $27,079,003,130                $1,134,397,948              $2,698,796,931               $1,704,374,753           $5,537,569,632
 Notes: Includes HAMP Tier 1 and Tier 2.
 a
   Ocwen Loan Servicing includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
 b
   JPMorgan Chase includes EMC Mortgage Corporation.
 c
   Bank of America includes the former Countrywide Home Loans Servicing, BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.
 d
   Wells Fargo includes Wachovia Bank, NA and Wachovia Mortgage, FSB.

 Source: Treasury, Transactions Report-Housing Programs, 6/27/2013.
66   special inspector general I troubled asset relief program




                                            MHA Outreach and Borrower Intake Project
                                            On February 14, 2013, Treasury entered into an agreement with the
                                            Neighborhood Reinvestment Corporation, also called NeighborWorks America
                                            (“NeighborWorks”), to launch a nationwide MHA initiative with housing
                                            counselors “in an effort to increase the number of homeowners that successfully
                                            request assistance under MHA.”191 NeighborWorks is a Congressionally chartered
                                            corporation that through a national network of non-profit organizations administers
                                            housing programs, including housing counseling.192 The initiative, called the MHA
                                            Outreach and Borrower Intake Project, will pay housing counseling agencies to
                                            work with borrowers to submit complete applications for HAMP to servicers.193
                                            Participating counseling agencies will conduct borrower outreach, assess borrowers
                                            for HAMP eligibility, help homeowners prepare complete MHA application initial
                                            packages, described in detail above, and electronically deliver those packages
                                            to MHA servicers.194 Treasury has allocated funding sufficient for 20,000
                                            applications.195 Treasury allocated $18.3 million in TARP funds for the project.196
                                            NeighborWorks and eligible counseling agencies may use TARP funds for borrower
                                            outreach and project oversight, which includes training.197 Agencies are eligible to
                                            receive $450 per completed borrower initial application package that is submitted
                                            to an MHA servicer and accepted by that MHA servicer, whether or not the
                                            borrower eventually receives a mortgage modification.198 Treasury may withhold,
                                            from NeighborWorks and participating agencies, funds for adverse behavior, such
                                            as “sustained poor performance,” and recapture funds, such as those that are
                                            unspent.199
                                                As of June 30, 2013, housing counselors have initiated HAMP application work
                                            for 662 homeowners, of whom 186 have had their completed applications accepted
                                            by their servicers. According to Treasury, housing counseling agencies are due
                                            $83,700 for those accepted applications. Neighborworks has, as of June 30, 2013,
                                            requested $1.3 million in total funds, mostly for outreach, oversight, and adminis-
                                            tration, as well as for the counseling agency payments.200

                                            HAMP Tier 2
                                            Effective June 1, 2012, HAMP Tier 2 expanded HAMP.201 As in HAMP Tier 1,
                                            HAMP Tier 2 permits HAMP modifications on mortgages of owner-occupied
                                            properties, but unlike HAMP Tier 1, HAMP Tier 2 also permits HAMP
                                            modifications on mortgages of non-owner-occupied “rental” properties that are
                                            tenant-occupied or vacant.202 Under the original HAMP (now HAMP Tier 1),
                                            mortgage modifications for “rental” properties had been expressly excluded; HAMP
                                            Tier 2 also allows borrowers with a wider range of debt-to-income situations to
                                            receive modifications.203 Treasury’s stated policy objectives for HAMP Tier 2
                                            are that it “will provide critical relief to both renters and those who rent their
                                            homes, while further stabilizing communities from the blight of vacant and
                                            foreclosed properties.”204 A borrower may have up to five loans with HAMP Tier 2
                                            modifications, as well as a single HAMP Tier 1 modification on the mortgage for
                                            his or her primary residence.205 If a borrower loses “good standing” on a HAMP
                                            Tier 1 modification and it has either been at least one year since the effective date
                                                                                                     quarterly report to congress I July 24, 2013      67




of that modification or there has been a “change in circumstance,” he or she is
eligible for a HAMP Tier 2 remodification.206 Approximately 1,911 of HAMP Tier 2
modifications started were previously HAMP Tier 1 permanent modifications.207
    According to Treasury, as of June 30, 2013, a total of 62 of the 93 servicers
with active MHA servicer agreements had fully implemented HAMP Tier 2.208 The
remaining 31 of those servicers will not implement HAMP Tier 2 because they are                                   For SIGTARP’s recommendations for
in the process of terminating their servicer participation agreement, they have gone                              the improvement of HAMP Tier 2,
out of business, their servicer participation agreement was signed to participate                                 see SIGTARP’s April 2012 Quarterly
only in FHA-HAMP, RD-HAMP, or FHA-2LP, or they are winding down their non-                                        Report, pages 185-189.
GSE servicing operations.209 All 10 of the largest servicers have reported that they
had implemented HAMP Tier 2.210 According to Treasury, as of June 30, 2013, it
had paid $9.6 million in incentives in connection with 9,488 active HAMP Tier 2
permanent modifications.211
    According to Treasury, as of June 30, 2013, of the 25,847 HAMP Tier 2 trial
mortgage modifications started, 23,804 (92%), were for owner-occupied properties;
1,681 (7%), were for tenant-occupied properties, and 362 (1%) were for vacant
properties.212 Of owner-occupied properties that received a HAMP Tier 2 trial
modification, 14,251 trial modifications (60%) were active and 8,777 (37%) were
converted to permanent modifications, of which 8,568 (98%) were active.213 Of
owner-occupied properties that received a HAMP Tier 2 trial modification, 776
(3%) were cancelled, and of those that received a permanent modification, 403
(5%) were cancelled.214 Nearly all tenant-occupied properties that received either
a trial or permanent HAMP Tier 2 mortgage modification have remained active,
as of June 30, 2013.215 Of vacant properties that received a HAMP Tier 2 trial
modification, 180 (50%) were in active trial modifications, 164 (45%) were in active
permanent modifications, and 15 (4%) had their trial modifications cancelled.216
HAMP Tier 2 mortgage modification activity and property occupancy status is
shown in Table 2.10.217

Table 2.10
 HAMP TIER 2 FIRST LIEN MODIFICATION ACTIVITY AND OCCUPANCY STATUS,
 AS OF 6/30/2013
                                                                         Trials
                              Trials    Trials             Trials Converted to    Permanent    Permanent
 Property Type              Started Cancelled             Active   Permanent      Cancelleda       Active
Owner Occupied               23,804             776      14,251          8,777          403        8,568
Tenant Occupied                1,681             40            871         770           25          756
Vacant                            362            15            180         167            6          164
Total                       25,847             831      15,302           9,714          434        9,488
 Notes:
 a
   Includes 18 modifications paid off.

 Source: Treasury, response to SIGTARP data call, 7/19/2013.
68   special inspector general I troubled asset relief program




                                            HAMP Tier 2 Eligibility
                                            HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-income
                                            ratio and also allows modifications on loans secured by “rental” properties. Owner-
                                            occupied loans that are ineligible for a HAMP Tier 1 modification due to excessive
                                            forbearance or negative NPV are also eligible for Tier 2. Vacant rental properties
                                            are permitted in the program, as are those occupied by legal dependents, parents,
                                            or grandparents, even if no rent is charged. The program is not, however, according
                                            to Treasury, intended for vacation homes, second homes, or properties that are
                                            rented only seasonally. Additionally, loans on rental properties must be at least two
                                            payments delinquent – those in imminent default are not eligible.218
                                                However, Treasury does not require that the property be rented. Treasury
                                            requires only that a borrower certify intent to rent the property to a tenant on a
                                            year-round basis for at least five years, or make “reasonable efforts” to do so; and
                                            does not intend to use the property as a second residence for at least five years.219
                                            According to Treasury, servicers are not typically required to obtain third-party veri-
                                            fications of the borrower’s rental property certification when evaluating a borrower
                                            for HAMP.220
                                                To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
                                            requirements: the loan origination date must be on or before January 1, 2009;
                                            the borrower must have a documented hardship; the property must conform to
                                            the MHA definition of a “single-family residence” (1-4 dwelling units, including
                                            condominiums, co-ops, and manufactured housing); the property must not be
                                            condemned; and the loan must fall within HAMP’s unpaid principal balance limita-
                                            tions.221 If a borrower satisfies these requirements, and in addition, the loan has
                                            never been previously modified under HAMP (except for the exceptions discussed
                                            above), the servicer is required to solicit the borrower for HAMP Tier 2. In certain
                                            other cases, the borrower may still be eligible for HAMP Tier 2, but the servicer is
                                            not required to solicit the borrower.222

                                            How HAMP Tier 2 Modifications Work
                                            As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
                                            considers the value of the loan to the investor before and after a modification.
                                            Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
                                            single process. If a borrower is eligible for both modifications, he or she will receive
                                            a HAMP Tier 1 modification.223
                                                As discussed above, HAMP Tier 1 modifications are structured using a waterfall
                                            of incremental steps that may stop as soon as the 31% post-modification DTI ratio
                                            target is reached. In HAMP Tier 2, the proposed permanent modification must
                                            meet two affordability requirements: (1) a post-modification DTI ratio of not less
                                            than 25% or greater than 42% and (2) a reduction of the monthly principal and
                                            interest payment by at least 10%. The post-modification DTI ratio range increased
                                            in February 2013 to not less than 10% or greater than 55%. If the borrower was
                                            previously in a HAMP Tier 1 modification (either trial or permanent), then the new
                                            payment must be at least 10% below the previously modified payment. Because
                                            HAMP Tier 2 does not target a specific DTI ratio, the HAMP Tier 2 waterfall is not
                                                                                   quarterly report to congress I July 24, 2013   69




a series of incremental steps, but a consistent set of actions that are applied to the
loan. After these actions are applied, if the result of the NPV test is positive and the
modification also achieves the DTI and payment reduction goals, the servicer must
offer the borrower a HAMP Tier 2 modification. If the result of the HAMP Tier 2
NPV test is negative, modification is optional.224
     As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
modification is to capitalize any unpaid interest and fees. The second step changes
the interest rate to the “Tier 2 rate,” which is the current Freddie Mac Primary
Mortgage Market Survey rate plus a 0.5% risk adjustment. The third step extends
the term of the loan by up to 40 years from the modification effective date. Finally,
if the loan’s pre-modification mark-to-market LTV ratio is greater than 115%, the
servicer forbears principal in an amount equal to the lesser of (1) an amount that
would create a post-modification LTV ratio of 115%, or (2) an amount equal to
30% of the post-modification principal balance. Unlike HAMP Tier 1, there is no
excessive forbearance limit in HAMP Tier 2. The HAMP Tier 2 guidelines also in-
clude several exceptions to this waterfall to allow for investor restrictions on certain
types of modifications.225
     The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
modification waterfall” in addition to the one described here. This waterfall uses
principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
reduction is optional. Servicers may also reduce principal on HAMP Tier 2 modifi-
cations using PRA.226
     HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
exceptions, notably that HAMP Tier 2 modifications do not pay annual borrower or
servicer incentives.227

Home Price Decline Protection (“HPDP”)
HPDP provides investors with incentives for modifications of loans on properties
located in areas where home prices have recently declined and where investors are
concerned that price declines may persist. HPDP incentive payments are linked
to the rate of recent home price decline in a local housing market, as well as the
unpaid principal balance and mark-to-market LTV ratio of the mortgage loan.228
    HPDP is intended to address the fears of investors who may withhold their
consent to loan modifications because of potential future declines in the value of
the homes that secure the mortgages, should the modification fail and the loan go
into foreclosure.229
    Under HPDP, Treasury has published a standard formula, based on the princi-
pal balance of the mortgage, the recent decline in area home prices during the six
months before the start of the HAMP modification, and the LTV ratio, that will
determine the size of the incentive payment.230 The HPDP incentive payments ac-
crue monthly over a 24-month period and are paid annually on the first and second
anniversaries of the initial HAMP trial period. Accruals are discontinued if the bor-
rower loses good standing under HAMP because he or she is delinquent by three
mortgage payments. As of June 30, 2013, according to Treasury, approximately
70   special inspector general I troubled asset relief program




                                            $314.4 million in TARP funds had been paid for incentives on 195,288 (Tier 1 and
                                            Tier 2) loan modifications under HPDP.231

                                            Principal Reduction Alternative (“PRA”)
                                            PRA is intended to encourage principal reduction in HAMP loan modifications for
                                            underwater borrowers by providing mortgage investors with incentive payments
                                            in exchange for lowering the borrower’s principal balance. PRA is an alternative
                                            method to the standard HAMP modification waterfall for structuring a HAMP
                                            modification. Although servicers are required to evaluate every non-GSE HAMP-
                                            eligible borrower with an LTV of 115% or greater for PRA, whether to actually offer
                                            principal reduction or not is up to the servicer.232
                                                Because the GSEs, Fannie Mae and Freddie Mac, have refused to participate
                                            in PRA, the program applies only to loans modified under TARP-funded HAMP.233
                                            On January 27, 2012, Treasury offered to pay PRA incentives for the GSEs from
                                            TARP by tripling the incentives it pays to investors, subsidizing up to 63% of princi-
                                            pal reductions.234
                                                For the fourth quarter in a row, Treasury failed to provide end-of-quarter data
                                            on the PRA program to SIGTARP before publication; therefore, SIGTARP is not
                                            able to fully report on the status of the PRA program. Specifically, Treasury failed
                                            to provide the number of active permanent modifications in PRA, the percentage
                                            of borrowers who received PRA modifications that were seriously delinquent or in
                                            imminent default on their mortgages at the start of the trial modification, pre-
                                            modification and post-modification median LTV ratios, and the amount by which
                                            principal balances under PRA were reduced.235
                                                As of May 31, 2013, the latest data provided by Treasury, there were 91,037
                                            active permanent modifications in PRA.236 According to Treasury, 86% of borrowers
                                            who received PRA modifications were seriously delinquent on their mortgages at
                                            the start of the trial modification.237
                                                As of May 31, 2013, the latest data provided by Treasury, PRA borrowers had a
                                            pre-modification median LTV ratio of 154%.238 After modification, however, PRA
                                            borrowers lowered their LTVs to a median ratio of 115%. As of May 31, 2013, the
                                            latest data provided by Treasury, PRA modifications reduced principal balances by a
                                            median amount of $73,063 or 32%, thereby lowering the LTV ratio.239
                                                As of May 31, 2013, the latest data provided by Treasury, servicers had started
                                            133,393 PRA trial modifications, of which 15,986 were still active trials, 106,579
                                            had converted to permanent modifications, and 10,828 (or 8%) were subsequently
                                            cancelled or disqualified from the program.240 Of the PRA trials that converted to
                                            permanent modifications, 91,037 were still active as of May 31, 2013, the latest
                                            data provided by Treasury, and 15,542 (or 15%) were cancelled.241

                                            Who Is Eligible
                                            Borrowers who meet all HAMP eligibility requirements and who owe more than
                                            115% of their home’s market value (LTV >115%) are eligible for PRA.242 The
                                            principal balance used in this LTV calculation includes any amounts that would
                                            be capitalized under a HAMP modification.243 Eligible borrowers are evaluated by
                                                                                quarterly report to congress I July 24, 2013                                 71




running NPV tests. There are standard and alternative NPV tests for HAMP Tier
1 and HAMP Tier 2. If the standard waterfall produces a positive NPV result, the
servicer must offer a HAMP modification (with or without principal reduction).
If the PRA waterfall using principal reduction produces a positive NPV result,
the servicer may, but is not required to, offer a modification using principal
reduction.244

How PRA Works
For HAMP Tier 1, the PRA waterfall uses principal forbearance (which later
becomes principal reduction) prior to interest rate reduction as the second step
in structuring the modification. Under PRA, the servicer determines the modified
mortgage payment by first capitalizing unpaid interest and fees as in a standard
HAMP modification. After capitalization, the servicer reduces the loan balance
through principal forbearance until either a DTI ratio of 31% or an LTV ratio of
115% is achieved. No interest will be collected on the forborne amount. If an LTV
ratio of 105% to 115% is achieved first, the servicer then applies the remaining
HAMP waterfall steps (interest rate reduction, term extension, forbearance) until
the 31% DTI ratio is reached. If the principal balance has been reduced by more            TABLE 2.11
than 5%, the servicer is allowed additional flexibility in implementing the remaining
                                                                                            PRA incentives to investors per
waterfall steps. Principal reduction is not immediate; it is earned over three years.       dollar of First Lien principal
On each of the first three anniversaries of the modification, one-third of the              reduced
PRA forborne principal is forgiven. Therefore, after three years the borrower’s             Mark-to-Market
                                                                                                                         105%          115%
principal balance is permanently reduced by the amount that was placed in PRA               Loan-to-Value
                                                                                                                         to            to           > 140%
                                                                                            Ratio (“LTV”)
forbearance.245                                                                             Rangea
                                                                                                                         115%          140%

                                                                                            Incentive
Who Gets Paid                                                                               Amounts                       $0.63        $0.45          $0.30
For PRA trials effective on or after March 1, 2012, the mortgage investors earn             Notes: This incentive structure applies to loans less than or
                                                                                            equal to six months past due. For loans that were more than
an incentive of $0.18 to $0.63 per dollar of principal reduced, depending on                six months delinquent within the previous year, investors
delinquency status of the loan and the level to which the outstanding LTV ratio was         receive $0.18 per dollar of principal reduced in compensation,
                                                                                            regardless of the LTV ratio. These incentives are effective for
reduced.246 For loans that are more than six months delinquent, investors receive           trials beginning on or after 3/1/2012.
                                                                                            a
                                                                                              The mark-to-market LTV is based on the pre-modified principal
only $0.18 per dollar of principal reduction, regardless of LTV.247 The incentive              balance of the first-lien mortgage plus capitalized interest and
                                                                                               fees divided by the market value of the property.
schedule in Table 2.11 applies only to loans that have been six months delinquent
                                                                                            Source: Treasury, “Supplemental Directive 12-01: Making
or less within the previous year.                                                           Home Affordable Program – Principal Reduction Alternative and
    Under certain conditions an investor may enter into an agreement with the bor-          Second Lien Modification Program Investor Incentives Update,”
                                                                                            2/16/2012, www.hmpadmin.com/portal/news/docs/2012/
rower to share any future increase in the value of the property.248                         hampupdate021612.pdf, accessed 7/1/2013.

    According to Treasury, as of June 30, 2013, Treasury had paid a total of $295.1
million in PRA incentives.249

Home Affordable Unemployment Program (“UP”)
UP, which was announced on March 26, 2010, provides temporary assistance to
unemployed borrowers.250 Under the program, unemployed borrowers who meet
certain qualifications can receive forbearance for a portion of their mortgage
payments. Originally, the forbearance period was a minimum of three months,
unless the borrower found work during this time. However, on July 7, 2011, after a
SIGTARP recommendation to extend the term, Treasury announced that it would
72            special inspector general I troubled asset relief program




                                                     increase the minimum UP forbearance period from three months to 12 months.
                                                     As of May 31, 2013, which according to Treasury is the latest data available, 6,538
                                                     borrowers were actively participating in UP.251

                                                     Who Is Eligible
                                                     Borrowers who are approved to receive unemployment benefits and who also
                                                     request assistance under HAMP must be evaluated by servicers for an UP
                                                     forbearance plan and, if eligible, offered one. As of June 1, 2012, a servicer may
                                                     consider a borrower for UP whose loan is secured by a vacant or tenant-occupied
                                                     property and still must consider owner-occupied properties. The servicer must
                                                     consider a borrower for UP regardless of the borrower’s monthly mortgage payment
                                                     ratio and regardless of whether the borrower had a payment default on a HAMP
                                                     trial plan or lost good standing under a permanent HAMP modification. Servicers
                                                     are not required to offer an UP forbearance plan to borrowers who are more than
                                                     12 months delinquent at the time of the UP request.252 Alternatively, the servicers
                                                     may evaluate unemployed borrowers for HAMP and offer a HAMP trial period plan
                                                     instead of an UP forbearance plan if, in the servicer’s business judgment, HAMP is
                                                     the better loss mitigation option. If an unemployed borrower is offered a trial period
                                                     plan but requests UP forbearance instead, the servicer may then offer UP, but is
                                                     not required to do so.253
                                                         Eligible borrowers may request a HAMP trial period plan after the UP forbear-
                                                     ance plan is completed. If an unemployed borrower in bankruptcy proceedings
                                                     requests consideration for HAMP, the servicer must first evaluate the borrower
                                                     for UP, subject to any required bankruptcy court approvals.254 A borrower who has
                                                     been determined to be ineligible for HAMP may request assessment for an UP
     For more information on additional UP           forbearance plan if he or she meets all the eligibility criteria.255 If a borrower who
     eligibility criteria, see SIGTARP’s April       is eligible for UP declines an offer for an UP forbearance plan, the servicer is not
     2011 Quarterly Report, pages 80-81.             required to offer the borrower a modification under HAMP or 2MP while the bor-
                                                     rower remains eligible for an UP forbearance plan.256

                                                     How UP Works
                                                     For qualifying homeowners, the mortgage payments during the forbearance
                                                     period are lowered to no more than 31% of monthly gross income, which includes
                                                     unemployment benefits.257 If the borrower regains employment, but because of
                                                     reduced income still has a hardship, the borrower must be considered for HAMP.
                                                     If the borrower is eligible, any payments missed prior to and during the period of
                                                     the UP forbearance plan are capitalized as part of the normal HAMP modification
                                                     process.258 If the UP forbearance period expires and the borrower is ineligible for
                                                     HAMP, the borrower may be eligible for MHA foreclosure alternatives, such as
                                                     HAFA.259

                                                     Home Affordable Foreclosure Alternatives (“HAFA”)
                                                     HAFA provides $4.2 billion in incentives to servicers, borrowers, and subordinate
                                                     lien holders to encourage a short sale or deed-in-lieu of foreclosure as an
                                                     alternative to foreclosure.260 Under HAFA, the servicer forfeits the ability to pursue
                                                                                 quarterly report to congress I July 24, 2013           73




a deficiency judgment against a borrower when the proceeds from the short sale
or deed-in-lieu are less than the outstanding amount on the mortgage.261 HAFA                 Deficiency Judgment: Court order
incentives include a $3,000 relocation incentive payment to borrowers or tenants,             authorizing a lender to collect all or
a $1,500 incentive payment to servicers, and incentive payments to subordinate                part of an unpaid and outstanding debt
mortgage lien holders of up to $2,000 in exchange for a release of the lien and the           resulting from the borrower’s default
borrower’s liability.262 The program was announced on November 30, 2009.263                   on the mortgage note securing a debt.
    Treasury allows each servicer participating in HAFA to determine its own poli-            A deficiency judgment is rendered
cies for borrower eligibility and many other aspects of how it operates the program,          after the foreclosed or repossessed
but requires the servicers to post criteria and program rules on their websites.              property is sold when the proceeds are
According to Treasury, as of June 30, 2013, all but three have complied with                  insufficient to repay the full mortgage
this requirement.264 Servicers must notify eligible borrowers in writing about the            debt.
availability of the HAFA program and allow the borrower a minimum of 14 calen-
dar days to apply.265 Servicers are not required by Treasury to verify a borrower’s
financial information or determine whether the borrower’s total monthly payment
exceeds 31% of his or her monthly gross income.266
    Effective March 9, 2012, Treasury no longer required properties in HAFA to
be occupied, allowing vacant properties to enter the program. However, relocation
incentives will be paid only on occupied properties.267
    As of June 30, 2013, approximately $586.5 million from TARP had been paid
to investors, borrowers, and servicers under HAFA.268 For the fourth quarter in a
row, Treasury failed to provide end-of-quarter data on the number of short sales or
deeds-in-lieu completed under HAFA to SIGTARP before publication; therefore,
SIGTARP is not able to fully report on the status of HAFA. As of May 31, 2013, the
latest data provided by Treasury, 117,341 short sales or deeds-in-lieu of foreclosure
transfers were completed under HAFA.269 As of May 31, 2013, the latest data
provided by Treasury, Treasury reported that the eight largest servicers alone had            For more information about relocation
completed 298,210 short sales and deeds-in-lieu outside HAMP for borrowers                    incentives and borrower requirements
whose HAMP trial modifications had failed, borrowers who had chosen not to                    related to primary residences in HAFA,
participate, or were ineligible for the program.270 The greater volume of activity            see SIGTARP’s January 2012 Quarterly
outside HAFA may be explained, in part, by the fees and deficiency judgments that             Report, pages 70-71.
servicers are able to collect from the borrower in non-HAFA transactions, which
are not available within HAFA.

Second-Lien Modification Program (“2MP”)
According to Treasury, 2MP, which was announced on August 13, 2009, is
designed to provide modifications to the loans of borrowers with second mortgages
of at least $5,000 with monthly payments of at least $100 that are serviced by
a participating 2MP servicer, or full extinguishment of second mortgages below
those thresholds. When a borrower’s first lien is modified under HAMP and the
servicer of the second lien is a 2MP participant, that servicer must offer to modify
or may extinguish the borrower’s second lien. Treasury pays the servicer a lump
sum for full extinguishment of the second-lien principal or in exchange for a partial
extinguishment (principal reduction) and modification of the remainder of the
second lien.271 Second-lien servicers are not required to verify any of the borrower’s
financial information and do not perform a separate NPV analysis.272
74                 special inspector general I troubled asset relief program




                                                                       There is no minimum principal balance for a full extinguishment of a second
     Servicing Advances: If borrowers’                            lien under 2MP. For a second-lien modification under 2MP, the servicer first
     payments are not made promptly                               capitalizes any accrued interest and servicing advances, then reduces the interest
     and in full, servicers are contractually                     rate to 1% to 2% for the first five years. After the five-year period, the rate increases
     obligated to advance the required                            to match the rate on the HAMP-modified first lien. When modifying the second
     monthly payment amount in full to the                        lien, the servicer must, at a minimum, extend the term to match the term of the
     investor. Once a borrower becomes                            first lien, but can also extend the term up to a maximum of 40 years. To the extent
     current or the property is sold or                           that there is forbearance or principal reduction for the modified first lien, the
     acquired through foreclosure, the                            second-lien holder must forbear or forgive at least the same percentage on the
     servicer is repaid all advanced funds.                       second lien.273
                                                                       According to Treasury, as of June 30, 2013, 141,349 HAMP modifications
                                                                  had second liens that were eligible for 2MP.274 As of May 31, 2013, the latest data
                                                                  provided by Treasury, there were 72,337 active permanent modifications of second
                                                                  liens.275 New 2MP modifications sharply peaked in March 2011 and have been
                                                                  generally declining since then. Most of the activity under the program has been
                                                                  modifications to the terms of the second liens. As of May 31, 2013, the latest data
                                                                  provided by Treasury, median principal reduction was $9,703 for partial extinguish-
                                                                  ments of second liens and $61,214 for full extinguishments of second liens.276
                                                                  According to Treasury, as of June 30, 2013, approximately $391.9 million in TARP
TABLE 2.12                                                        funds had been paid to servicers and investors under 2MP.277 As of May 31, 2013,
 2mp compensation per dollar of                                   the latest data provided by Treasury, there were 149,051 second-lien full and partial
 Second-Lien principal Reduced                                    extinguishments and modifications under 2MP.278
 (for 2MP modifications with                                           The servicer receives a $500 incentive payment upon modification of a second
 an effective date on or after
 6/1/2012)                                                        lien and is eligible for further incentives if certain conditions are met. The borrower
                                                                  is eligible for an annual principal reduction payment of up to $250 per year for up
 Combined Loan-                           115%
 to-Value (“CLTV”)          < 115%        to          > 140%      to five years.279 Investors receive modification incentive payments equal to an annu-
 Ratio Rangea                             140%                    alized amount of 1.6% of the unmodified principal balance, paid on a monthly basis
 Incentive                                                        for up to five years.280 In addition, investors also receive incentives for fully or par-
 Amounts                      $0.42       $0.30         $0.20     tially extinguishing the second lien on 2MP modifications. The current incentive
 Notes: This incentive structure applies to loans less than or
 equal to six months past due. For loans that were more than
                                                                  schedule for loans six months delinquent or less is shown in Table 2.12. For loans
 six months delinquent within the previous year, investors
 receive $0.12 per dollar of principal reduced in compensation,
                                                                  that have been more than six months delinquent within the previous 12 months,
 regardless of the CLTV ratio.                                    investors are paid $0.12 for each dollar of principal reduced.281
 a
   Combined Loan-to-Value is the ratio of the sum of the
   outstanding principal balance of the HAMP-modified first
   lien and the outstanding principal balance of the unmodified
   second lien divided by the property value determined in        Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP, and
   connection with the permanent HAMP modification.
                                                                  VA-HAMP)
 Source: Treasury, “Supplemental Directive 12-03: Making Home
 Affordable Program – Handbook Mapping for MHA Extension          Some mortgage loans insured or guaranteed by the Federal Housing Administration
 and Expansion and Administrative Clarifications on Tier 2,”
 4/17/2012, www.hmpadmin.com//portal/programs/docs/
                                                                  (“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
 hamp_servicer/sd1203.pdf, accessed 7/1/2013.                     Agriculture Rural Development (“RD”) are eligible for modification under programs
                                                                  similar to HAMP Tier 1 that reduce borrowers’ monthly mortgage payments to 31%
                                                                  of their monthly gross income. Borrowers are eligible to receive a maximum $1,000
                                                                  annual incentive for five years and servicers are eligible to receive a maximum
                                                                  $1,000 annual incentive from Treasury for three years on mortgages in which the
                                                                  monthly payment was reduced by at least 6%.282 As of June 30, 2013, according to
                                                                  Treasury, approximately $27.4 million in TARP funds had been paid to servicers
                                                                               quarterly report to congress I July 24, 2013           75




and borrowers in connection with FHA-HAMP modifications.283 According to
Treasury, only $42,924 of TARP funds has been spent on the modifications under
RD-HAMP.284 As of May 31, 2013, the latest data provided by Treasury, there
were 11,370 active permanent Treasury/FHA-HAMP modifications and 31 active
permanent modifications under RD-HAMP.285 Treasury does not provide incentive
compensation related to VA-HAMP.286

Treasury/FHA Second-Lien Program (“FHA2LP”)
FHA2LP, which was launched on September 27, 2010, provides incentives for
partial or full extinguishment of non-GSE second liens of at least $2,500 originated
on or before January 1, 2009, associated with an FHA refinance.287 Borrowers
must also meet the eligibility requirements of FHA Short Refinance. According
to Treasury, as of June 30, 2013, it had not made any incentive payments under
FHA2LP, and no second liens had been partially written down or extinguished.288
TARP has allocated $2.7 billion for incentive payments to (1) investors ranging
from $0.10 to $0.21 based on the LTV of pre-existing second-lien balances that are
partially or fully extinguished under FHA2LP, or they may negotiate with the first-         For more information concerning
lien holder for a portion of the new loan, and (2) servicers, in the amount of $500         FHA2LP eligibility, see SIGTARP’s April
for each second-lien mortgage in the program.289                                            2011 Quarterly Report, pages 85-87.


Housing Finance Agency Hardest Hit Fund (“HHF”)
On February 19, 2010, the Administration announced a housing support program
known as the Hardest Hit Fund. Under HHF, TARP dollars would fund “innovative
measures” developed by 19 state housing finance agencies (“HFAs”) and approved
by Treasury to help families in housing markets hit the hardest by the housing
crisis.290 The first round of HHF allocated $1.5 billion of the amount initially
allocated for MHA initiatives. According to Treasury, these funds were designated
for five states where the average home price had decreased more than 20% from its
peak. The five states were Arizona, California, Florida, Michigan, and Nevada.291
Plans to use these funds were approved by Treasury on June 23, 2010.292
     On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
these states were selected because of their high concentrations of people living in
economically distressed areas, defined as counties in which the unemployment rate
exceeded 12%, on average, in 2009.293 Plans to use these funds were approved by
Treasury on August 3, 2010.294
     On August 11, 2010, Treasury pledged a third round of HHF funding of $2
billion to states with unemployment rates at or above the national average.295
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
Washington, DC.296 Treasury approved third round proposals on September 23,
76   special inspector general I troubled asset relief program




                                            2010.297 On September 29, 2010, a fourth round of HHF funding of an additional
                                            $3.5 billion was made available to existing HHF participants.298
                                                Treasury approved state programs and allocated the $7.6 billion in TARP funds
                                            in five categories of assistance:299

                                            •	   $4.4 billion for unemployment assistance
                                            •	   $1.4 billion for principal reduction
                                            •	   $817 million for reinstatement of past-due amounts
                                            •	   $83 million for second-lien reduction
                                            •	   $45 million for transition assistance, including short sales and deed-in-lieu of
                                                 foreclosure

                                                Each state’s HFA reports program results (i.e., number of applications approved
                                            or denied and assistance provided) on a quarterly basis on its own state website.
                                            Treasury indicated that states can reallocate funds between programs and modify
                                            existing programs as needed, with Treasury approval, until funds are expended or
                                            returned to Treasury after December 31, 2017. According to Treasury, since March
                                            31, 2013, five states have reallocated funds, modified or eliminated existing pro-
                                            grams, or established new HHF programs with Treasury approval, bringing the total
                                            number of HHF programs in 18 states and Washington, DC, as of June 30, 2013,
                                            to 63.300
                                                On June 6, 2013, Treasury approved Michigan’s use of $100 million of HHF
                                            funds to demolish vacant blighted properties in five cities (Detroit, Flint, Grand
                                            Rapids, Pontiac, and Saginaw). The first program of this type, according to
                                            Treasury, it will focus on decreasing foreclosures and stabilizing neighborhoods
                                            through demolition of vacant residential structures.301
                                                Table 2.13 shows the obligation of funds and funds drawn for states
                                            participating in the four rounds of HHF as of June 30, 2013. As of that date,
                                            according to Treasury, the states had drawn down $2.7 billion under the
                                            program.302 According to Treasury, the states had spent only a limited portion of the
                                            amount drawn on assisting borrowers; see Table 2.14. According to the most recent
                                            data available, as of March 31, 2013, 36% of the amount drawn is held as unspent
                                            cash-on-hand with HFAs or is used for administrative expenses.303
                                                                                                                            quarterly report to congress I July 24, 2013   77




TABLE 2.13
 HHF Funding Obligated and drawdowns by State, as of 6/30/2013
 Recipient                                                                 Amount Obligated                Amount Drawn*
 Alabama                                                                          $162,521,345                  $28,000,000
 Arizona                                                                           267,766,006                   91,802,019
 California                                                                      1,975,334,096                  717,490,000
 Florida                                                                         1,057,839,136                  231,250,000
 Georgia                                                                           339,255,819                   77,508,000
 Illinois                                                                          445,603,557                  210,000,000
 Indiana                                                                           221,694,139                   66,338,828
 Kentucky                                                                          148,901,875                   64,000,000
 Michigan                                                                          498,605,738                  109,806,018
 Mississippi                                                                       101,888,323                   28,338,832
 Nevada                                                                            194,026,240                   98,842,000
 New Jersey                                                                        300,548,144                  133,513,704
 North Carolina                                                                    482,781,786                  222,400,000
 Ohio                                                                              570,395,099                  208,100,000
 Oregon                                                                            220,042,786                  155,000,000
 Rhode Island                                                                        79,351,573                  54,500,000
 South Carolina                                                                    295,431,547                   90,000,000
 Tennessee                                                                         217,315,593                   77,315,593
 Washington, DC                                                                      20,697,198                  14,134,860
 Total                                                                       $7,600,000,000               $2,678,339,854
 Notes: Numbers may not total due to rounding.

 *Amount drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses, and cash-on-hand.

 Sources: Treasury, Transactions Report-Housing Programs, 6/27/2013; Treasury, response to SIGTARP data call, 7/5/2013.
78            special inspector general I troubled asset relief program




                                                         As of March 31, 2013, the latest data available, HHF had provided $1.32 bil-
                                                     lion in assistance to 109,874 homeowners.304 This is an increase of $300.2 million
                                                     in assistance to an additional 15,838 homeowners as reported by Treasury since
     For more information on HHF, see                December 31, 2012. Each state estimates the number of borrowers to be helped
     SIGTARP’s April 12, 2012, audit report,         in its programs. Treasury allows the HFAs to change this estimate, which was as
     “Factors Affecting Implementation of the
                                                     high as 500,000 in aggregate in March 2011.305 The aggregate of these estimated
     Hardest Hit Fund Program.”
                                                     ranges has decreased in the last two years. This is true even from last quarter. In
                                                     SIGTARP’s April 2013 Quarterly Report, SIGTARP reported that as of December
                                                     31, 2012, the 19 HFAs collectively estimated helping between 372,319 and
                                                     378,899 homeowners over the life of the program. By March 31, 2013, the collec-
                                                     tive estimate had decreased by approximately 5,000 homeowners, or 1.3%, bring-
                                                     ing to between 366,315 and 374,895 the estimated number of homeowners to be
                                                     helped over the life of the program.306 Data provided by the states shows that they
                                                     have helped just 109,874 homeowners as of March 31, 2013.307
                                                         Table 2.14 provides each state’s estimate of the number of borrowers it projects
                                                     it will help and the actual number of borrowers helped as of March 31, 2013.
                                                                                                                              quarterly report to congress I July 24, 2013   79




TABLE 2.14
 HHF Estimated and Actual Number of Borrowers Assisted and
 assistance provided, by state, as of 3/31/2013
                              Estimated Number
                                 of Participating
                                   Households to                  Actual Borrowers
                                  be Assisted by            Receiving Assistance as                  Assistance Provided
 Recipient                        12/31/2017*                      of 3/31/2013**                    as of 3/31/2013**
 Alabama                                        5,800                                  2,492                    $18,946,905
 Arizona                                        6,770                                  1,550                     18,800,286
 California                                    77,670                                23,120                     310,997,065
 Florida                                       90,000                                  8,592                    108,869,189
 Georgia                                       18,300                                  2,887                     31,711,052
 Illinois                        11,500 to 14,500                                      7,181                    101,732,528
 Indiana                                       10,150                                  1,541                     14,533,304
 Kentucky                                        5,960                                 3,547                     34,904,713
 Michigan                                      15,063                                10,739                      65,760,374
 Mississippi                                     3,800                                 1,237                     12,944,397
 Nevada                                          7,866                                 3,761                     51,160,194
 New Jersey                                      6,900                                 2,610                     46,215,069
 North Carolina                                22,290                                11,134                     142,115,700
 Ohio                                          38,215                                10,115                     120,908,627
 Oregon                                        13,680                                  7,787                     92,942,793
 Rhode Island                                    3,331                                 2,697                     37,055,068
 South Carolina                  17,200 to 22,400                                      5,133                     59,310,191
 Tennessee                                     11,300                                  3,258                     39,639,017
 Washington, DC                           520 to 900                                     493                       8,537,089
 Total                     366,315 to 374,895                                     109,874                 $1,317,083,561
 *Source: Estimates are from the latest HFA Participation Agreements as of 3/31/2013. Later amendments are not included for
 consistency with Quarterly Performance reporting.

 States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
 the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
 translate into the number of unique households that the states expect to assist because some households may participate in more
 than one HHF program.

 **Sources: First Quarter 2013 HFA Performance Data quarterly reports and First Quarter 2013 HFA Aggregate Quarterly Report.
 Both sources are as of 3/31/2013.



    As of March 31, 2013, 89.7% of the HHF assistance received by homeowners
was for unemployment assistance, which includes reinstatement of past due
amounts. The remaining assistance can be broken down to 9.7% for modification,
including principal reduction, 0.4% for second-lien reduction, and 0.2% for
transition assistance.308
80            special inspector general I troubled asset relief program




                                                     FHA Short Refinance Program
                                                     On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
                                                     program, which gives borrowers the option of refinancing an underwater, non-
                                                     FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
                                                     value. At that time, Treasury had allocated $8.1 billion to the program, but in
                                                     March 2013, because of what it characterized as low participation rates, Treasury
                                                     reduced TARP funds allocated for the FHA Short Refinance program to $1 billion
                                                     to provide loss protection to FHA through a letter of credit, plus up to $25 million
                                                     in fees for the letter of credit.309 FHA Short Refinance is voluntary for servicers.
                                                     Therefore, not all underwater borrowers who qualify may be able to participate
                                                     in the program.310 As of June 30, 2013, according to Treasury, 3,136 loans had
                                                     been refinanced under the program.311 As of June 30, 2013, Treasury has paid
                                                     $47,840 on one claim for one default under the program. According to Treasury,
                                                     only one FHA Short Refinance loan has defaulted; however, it is possible that more
                                                     loans have defaulted but FHA has not yet evaluated the claims.312 Treasury has
                                                     deposited $50 million into a reserve account for future claims.313 It has also spent
                                                     approximately $8.8 million on administrative expenses associated with the letter
                                                     of credit.314

                                                     Who Is Eligible
                                                     To be eligible for FHA Short Refinance, a homeowner must be current on the
     For more information concerning                 existing first-lien mortgage or have made three successful trial period payments; be
     FHA Short Refinance eligibility, see            in a negative equity position; occupy the home as a primary residence; qualify for
     SIGTARP’s April 2011 Quarterly                  the new loan under standard FHA underwriting and credit score requirements; and
     Report, pages 85-87.                            have an existing loan that is not insured by FHA.315 According to the Department
                                                     of Housing and Urban Development (“HUD”), it evaluates the credit risk of the
                                                     loans.316

                                                     How FHA Short Refinance Works
                                                     Servicers must first determine the current value of the home using a third-party
                                                     appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
                                                     risk and, if necessary, referred for a review to confirm that the borrower’s total
                                                     monthly mortgage payments on all liens after the refinance is not greater than
                                                     31% of the borrower’s monthly gross income and the borrower’s total household
                                                     debt is not greater than 50%.317 Next, the lien holders must forgive principal that is
                                                     more than 115% of the value of the home. In addition, the original first-lien lender
                                                     must forgive at least 10% of the unpaid principal balance of the first-lien loan,
                                                     in exchange for a cash payment for 97.75% of the current home value from the
                                                     proceeds of the refinance. The lender may maintain a subordinate second lien for
                                                     up to 17.25% of that value (for a total balance of 115% of the home’s value).318
                                                         If a borrower defaults, the letter of credit purchased by Treasury compensates
                                                     the investor for a first percentage of losses, up to specified amounts.319 For mort-
                                                     gages originated between October 1, 2012, and June 30, 2013, the letter of credit
                                                     would cover approximately 4.4-18.9% of the unpaid principal balance at default.320
                                                     FHA is responsible for the remaining losses on each mortgage. Funds may be paid
                                                                                  quarterly report to congress I July 24, 2013   81




from the FHA Short Refinance letter of credit until the earlier of either (1) the time
that the $1 billion letter of credit is exhausted, or (2) 10 years from the issuance of
the letter of credit (October 2020), at which point FHA will bear all of the remain-
ing losses.321 Treasury’s letter of credit ended on June 1, 2013. This leaves FHA
solely responsible for covering any losses for mortgages originated on or after June
1, 2013, through September 30, 2014. According to Treasury, Treasury and FHA
are in discussions about Treasury’s letter of credit covering losses from September
30, 2014, through December 30, 2014.322
82            special inspector general I troubled asset relief program




                                                     Financial Institution Support Programs
                                                     Treasury created six TARP programs through which it made capital investments
                                                     or asset guarantees in exchange for equity in participating financial institutions.
                                                     Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                     Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                     (“CAP”), were open to all qualifying financial institutions. The other three, the
                                                     Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
     Mandatorily Convertible Preferred               Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
     Stock (“MCP”): A type of preferred              available on a case-by-case basis to institutions that needed assistance beyond that
     share (ownership in a company that              available through CPP. With the expiration of TARP funding authorization, no new
     generally entitles the owner of the             investments can be made through these six programs.
     shares to collect dividend payments)                To help improve the capital structure of some struggling TARP recipients,
     that can be converted to common                 Treasury has agreed to modify its investment in certain cases by converting the
     stock under certain parameters at the           preferred stock it originally received into other forms of equity, such as common
     discretion of the company – and must            stock or mandatorily convertible preferred stock (“MCP”).323
     be converted to common stock by a
     certain time.                                   Capital Purchase Program
                                                     Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
     Subordinated Debentures: Form of                way to promote financial stability, maintain confidence in the financial system, and
     debt security that ranks below other            enable lenders to meet the nation’s credit needs.324 CPP was a voluntary program
     loans or securities with regard to              open by application to qualifying financial institutions, including U.S.-controlled
     claims on assets or earnings.                   banks, savings associations, and certain bank and savings and loan holding
                                                     companies.325
                                                         Under CPP, Treasury used TARP funds predominantly to purchase preferred
                                                     equity interests in the financial institutions. The institutions issued Treasury senior
                                                     preferred shares that pay a 5% annual dividend for the first five years and a 9%
                                                     annual dividend thereafter. More than half, or 56%, of the banks with remaining
     For discussion of SIGTARP’s                     principal investments in CPP, as of June 30, 2013, will experience the rate hike
     recommendations on TARP exit paths              to 9% between November 2013 and February 2014; the remaining banks will
     for community banks, see SIGTARP’s
                                                     see their rates increase by the end of 2014.326 In addition to the senior preferred
     October 2011 Quarterly Report, pages
                                                     shares, publicly traded institutions issued Treasury warrants to purchase common
     167-169.
                                                     stock with an aggregate market price equal to 15% of the senior preferred share
     For discussion of SIGTARP’s                     investment.327 Privately held institutions issued Treasury warrants to purchase
     recommendations issued on October 9,            additional senior preferred stock worth 5% of Treasury’s initial preferred stock
     2012, regarding CPP preferred stock             investment.328 In total, Treasury invested $204.9 billion of TARP funds in 707
     auctions, see SIGTARP’s October 2012            institutions through CPP.329 According to Treasury, through CPP, in total Treasury
     Quarterly Report, pages 180-183.                purchased $204.9 billion in preferred stock and subordinated debentures from 707
                                                     institutions in 48 states, the District of Columbia, and Puerto Rico.

                                                     Status of Funds
                                                     As of June 30, 2013, 195 of those 707 institutions remained in CPP; in 53
                                                     of them, Treasury holds only warrants to purchase stock. Treasury does not
                                                     consider these 53 institutions to be in TARP. As of June 30, 2013, 142 of the 195
                                                     institutions had outstanding principal investments. Taxpayers were still owed $8.9
                                                                                   quarterly report to congress I July 24, 2013                     83




billion.330 According to Treasury, it had write-offs and realized losses of $3.4 billion        FIGURE 2.3
in the program, leaving $5.5 billion in TARP funds outstanding. Additionally,                   STATUS OF CPP RECIPIENTS,
23 CPP banks, or their subsidiary banks, with total CPP investments of $750.3                   AS OF 6/30/2013
million, are currently in the process of bankruptcy, and while Treasury has not                          25, 4%          4, 1%
yet realized the losses, it expects that all of its investments in the banks will be                 23, 3%
                                                                                                  28, 4%                          127
lost.331 As of June 30, 2013, $193.8 billion of the CPP principal (or 95%) had                                             18%
been repaid.332 The repayment tally includes $363.3 million in preferred stock that                                                     7, 1%
                                                                                                  137     19%
was converted from CPP investments into CDCI and therefore still represents
outstanding obligations to TARP. Additionally $2.2 billion was refinanced in 2011
                                                                                                                             30%      214
into SBLF, a non-TARP Government program.333 As of June 30, 2013, Treasury                                   20%
                                                                                                      142
had received approximately $12 billion in interest and dividends from CPP
recipients. Treasury also had received $7.9 billion through the sale of CPP warrants                Fully Repaid Principal (214)
that were obtained from TARP recipients.334 For a complete list of CPP share                        Remaining Principal Investment in CPP (142)
                                                                                                    Refinanced into SBLF (137)
repurchases, see Appendix D: “Transaction Detail.”
                                                                                                    Refinanced into CDCI (28)
     Of the 707 banks that received CPP investments, 565 banks no longer have                       Sold for less than par (23)
outstanding principal investments in CPP. Nearly a quarter of the 707 banks, or                     Failed/subsidiary failed (25)
165, refinanced into other government programs — 28 of them into TARP’s CDCI                        Merged (4)
and 137 into the Small Business Lending Fund (“SBLF”), a non-TARP program.335                       Auction: Sold at loss (127)
                                                                                                    Auction: Sold at profit (7)
Only 214 of the 707 banks, or 30%, fully repaid CPP principal otherwise.336 Of the
other banks that no longer have outstanding principal investments, four CPP banks               Note: 53 banks exited CPP but remain in TARP with
                                                                                                Treasury holding only warrants.
merged with other CPP banks; Treasury sold its investments in 23 banks for less
                                                                                                Source: Treasury, response to SIGTARP data call,
than par and its investments in 134 banks at auction (127 of these investments sold             7/5/2013.
at a loss); and 25 institutions or their subsidiary banks failed, meaning Treasury has
lost or expects to lose its entire investment in those banks.337 Figure 2.3 shows the
status of the 707 CPP recipients as of June 30, 2013.
     Although the 10 largest investments accounted for $142.6 billion of the
program, CPP made many smaller investments: 311 of the 707 recipients received
less than $10 million.338 None of the banks that received investments greater
than $1 billion remain in CPP. All but seven of the recipients with remaining
principal investments have outstanding investments of less than $100 million,
with more than half of the banks with remaining principal investments, or 58%,
having outstanding investments of less than $10 million.339 Table 2.15 shows the
distribution of investments by amount.
84   special inspector general I troubled asset relief program




                                            TABLE 2.15
                                             CPP INVESTMENT SIZE BY INSTITUTION, AS OF 6/30/2013
                                                                                                                                           Principal                Outstanding
                                                                                                                             
                                                                                                                                        Investmenta                   Principalb
                                             $10 billion or more                                                                                        6                           0
                                             $1 billion to $10 billion                                                                                19                            0
                                             $100 million to $1 billion                                                                               57                            7
                                             $10 million to $100 million                                                                            314                           53
                                             Less than $10 million                                                                                  311                           82
                                             Total                                                                                                  707                         142
                                             Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
                                             transactions through CPP.
                                             a
                                               These numbers are based on total Treasury CPP investment since 10/28/2008.
                                             b
                                                Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
                                                 CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
                                                 protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
                                                 banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
                                                 investment. Amount does not include the 137 banks that refinanced under SBLF. Amount does not include 53 institutions that have
                                                 repaid their CPP principal but still have warrants outstanding.

                                             Source: Treasury, response to SIGTARP data call, 7/5/2013.



                                                As of June 30, 2013, of the 142 banks with remaining principal investments in
                                            CPP, 31 were in the Midwest region, 38 were in the Southeast region, 25 were in
                                            the Mid-Atlantic/Northeast region, 18 were in the Southwest/South Central region,
                                            17 were in the West region, and 13 were in the Mountain West/Plains region. In
                                            addition to having the largest number of banks with remaining principal invest-
                                            ments, the Southeast region and the Midwest region also had the largest total
                                            remaining CPP investments; $2.7 billion and $777.7 million, respectively. These
                                            regions were followed in remaining CPP investments by the MidAtlantic/Northeast
                                            region ($616.8 million), the West region ($248.8 million), the Southwest/South
                                            Central region ($214.7 million), and the Mountain West/Plains region ($135.6
                                            million). Table 2.16 and Figure 2.4 show the geographical distribution of the banks
                                            that remain in CPP as of June 30, 2013, by region. Tables 2.17–2.22 show the
                                            distribution by state.
                                                                                                                               quarterly report to congress I July 24, 2013   85




Table 2.16
 BAnks with CPP Principal remaining, by Region, As of 6/30/2013
                                                                                           Number of Banks
                                    Banks with                       Principal                   with Missed            Value of Missed
                                    Remaining                      Investment              Dividend/Interest           Dividend/Interest
                                     Principal                      Remaining                     Payments                    Payments
 West                                              17         $248,813,000                                       13           $14,609,229
 Mountain West/Plains                              13             135,646,000                                      8           10,914,467
 Southwest/South Central                           18             214,713,500                                    13            25,379,218
 Midwest                                           31             777,710,788                                    21           138,730,697
 Mid-Atlantic/Northeast                            25             616,778,000                                    16            29,603,467
 Southeast                                         38        2,712,357,320                                       25            37,563,493
 Total                                        142       $4,706,018,608                                           96         $256,800,571



Figure 2.4
AMOUNT OF CPP PRINCIPAL INVESTMENT REMAINING, BY REGION,
AS OF 6/30/2013

    AK
                                    MOUNTAIN WEST/
                                        PLAINS
                                     $136 MILLION                                     MIDWEST                       MID-ATLANTIC/
                        WA                                                          $778 MILLION                     NORTHEAST
                                         MT                                                                   VT ME $617 MILLION
                                                        ND
                   OR                                              MN                                                 NH
                                                                               WI                           NY
   WEST                        ID                       SD                                                             MA
                                                                                       MI
$249 MILLION
                                         WY
                                                                     IA                                              CT RI
                                                                                            OH         PA           NJ
                                                        NE
                          NV                                                    IL    IN                          DE
                   CA               UT                                                               WV VA
                                              CO                     MO                                          MD
                                                             KS                            KY
                                                                                                      NC
                                                                                      TN
           HI                  AZ                             OK        AR                            SC
                                              NM
                                                                                    MS AL       GA           SOUTHEAST
                                                         TX               LA                                 $2.7 BILLION

                                                                                                      FL                 PR
                                SOUTHWEST/
                               SOUTH CENTRAL
                                $215 MILLION

                WEST                                                           MIDWEST
                MOUNTAIN WEST/PLAINS                                           MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                        SOUTHEAST
86   special inspector general I troubled asset relief program




       West
       Table 2.17
        Banks with CPP Principal Remaining, By State, as of 6/30/2013
                                                                                                    Number of Banks
                                                                      Banks with        Principal         with Missed  Value of Missed
                                              WA                      Remaining       Investment    Dividend/Interest Dividend/Interest
                                                                       Principal       Remaining           Payments          Payments
                AK
                                         OR                   AK              0               $0                   0                $0
                                                              CA             16     245,597,000                   13        14,609,229
                                                              HI              0                0                   0                 0
                                                              OR              1        3,216,000                   0                 0
                                         CA                   WA              0                0                   0                 0
                                                              Total          17    $248,813,000                   13      $14,609,229
                          HI

            WEST                         >$100 million
            Principal investment         $21-$100 million
            remaining in CPP banks       $1-$20 million
                                         $0




       Mountain West/Plains
       Table 2.18
        Banks with CPP Principal Remaining, By State, as of 6/30/2013
                                                                                                    Number of Banks
                                                                      Banks with        Principal         with Missed  Value of Missed
                                                                      Remaining       Investment    Dividend/Interest Dividend/Interest
                               MT             ND                       Principal       Remaining           Payments          Payments
                                                              CO              4     $28,531,000                    3        $2,329,707
                    ID                        SD
                                WY                            ID              3      41,900,000                    2         3,139,200

                                              NE              KS              3      39,350,000                    2         5,117,825
             NV
                         UT                                   MT              0                0                   0                 0
                                    CO
                                                   KS         ND              1      20,093,000                    0                 0
                                                              NE              0                0                   0                 0
         MOUNTAIN WEST/                    >$100 million      NV              1        2,672,000                   1           327,735
                                           $21-$100 million
         PLAINS                            $1-$20 million     SD              0                0                   0                 0
         Principal investment
                                           $0
         remaining in CPP banks                               UT              0                0                   0                 0
                                                              WY              1        3,100,000                   0                 0
                                                              Total          13    $135,646,000                    8      $10,914,467
                                                                                              quarterly report to congress I July 24, 2013   87




Southwest/South Central
Table 2.19
 Banks with CPP Principal Remaining, By State, as of 6/30/2013
                                                                                                  Number of Banks
                                                                    Banks with        Principal         with Missed  Value of Missed
                                                                    Remaining       Investment    Dividend/Interest Dividend/Interest
     AZ                                 OK                           Principal       Remaining           Payments          Payments
                  NM                             AR
                                                            AR              6     $92,742,000                    5       $10,030,851
                                                 LA         AZ              2        6,440,000                   1            454,740
                                   TX
                                                            LA              1        2,400,000                   1            697,400
                                                            NM              1        1,579,000                   0                   0
                                                            OK              1      30,000,000                    1          4,496,250
   SOUTHWEST/                            >$100 million      TX              7      81,552,500                    5          9,699,977
                                         $21-$100 million
   SOUTH CENTRAL                         $1-$20 million     Total          18    $214,713,500                   13      $25,379,218
   Principal investment                  $0
   remaining in CPP banks




Midwest
Table 2.20
 Banks with CPP Principal Remaining, By State, as of 6/30/2013
                                                                                                  Number of Banks
                                                                    Banks with        Principal         with Missed  Value of Missed
                                                                    Remaining       Investment    Dividend/Interest Dividend/Interest
          MN                                                         Principal       Remaining           Payments          Payments
                    WI                                      IA              1      $6,349,000                    1         $1,597,857
                               MI
             IA                                             IL              7      88,251,000                    4         13,187,577

                         IL   IN    OH                      IN              2      16,557,000                    1          1,229,924
               MO                                           KY              5      51,935,788                    3          4,947,120
                                   KY
                                                            MI              2      81,211,000                    2         12,651,046
                                                            MN              6      45,732,000                    4          4,270,091
     MIDWEST                        >$100 million
     Principal investment           $21-$100 million        MO              6     372,575,000                    4         76,409,065
     remaining in CPP               $1-$20 million
     banks                          $0                      OH              0                0                   0                   0
                                                            WI              2     115,100,000                    2         24,438,017
                                                            Total          31    $777,710,788                   21     $138,730,697
88   special inspector general I troubled asset relief program




       Mid-Atlantic/Northeast
       Table 2.21
        Banks with CPP Principal Remaining, By State, as of 6/30/2013
                                                                                                           Number of Banks
                                                                           Banks with          Principal         with Missed  Value of Missed
                                   VT    ME                                Remaining         Investment    Dividend/Interest Dividend/Interest
                                                                            Principal         Remaining           Payments          Payments
                                              NH                   CT              0                 $0                   0                $0
                              NY               MA
                                                    RI             DE              0                  0                   0                 0
                                           CT
                         PA                NJ                      MA              2        17,063,000                    1         2,563,388
                                         DE
                WV VA                   MD                         MD              7        85,436,000                    7        11,008,118
                WV
                                                                   ME              0                  0                   0                 0
                                                                   NH              0                  0                   0                 0
           MID-ATLANTIC/                        >$100 million      NJ              3        25,740,000                    2         1,888,008
                                                $21-$100 million
           NORTHEAST                            $1-$20 million     NY              2       274,774,000                    1         1,226,250
           Principal investment                 $0
           remaining in CPP banks                                  PA              2        42,942,000                    1         6,081,400
                                                                   RI              1          1,065,000                   0                 0
                                                                   VA              8       169,758,000                    4         6,836,303
                                                                   VT              0                  0                   0                 0
                                                                   WV              0                  0                   0                 0
                                                                   Total          25     $616,778,000                    16      $29,603,467




       Southeast
       Table 2.22
        Banks with CPP Principal Remaining, By State, as of 6/30/2013
                                                                                                           Number of Banks
                                                                           Banks with          Principal         with Missed  Value of Missed
                                        NC                                 Remaining         Investment    Dividend/Interest Dividend/Interest
                    TN
                                    SC                                      Principal         Remaining           Payments          Payments

              MS              GA                                   AL              3        $7,716,000                    2          $434,768
                    AL
                                                    PR             FL              7       101,292,000                    7        16,759,350
                                                                   GA              9      1,028,195,000                   6         6,500,635
                                        FL
                                                                   MS              3        10,124,320                    0                 0
                                                                   NC              7       135,884,000                    4         5,090,495
             SOUTHEAST                        >$100 million
                                                                   PR              2      1,359,174,000                   0                 0
             Principal investment             $21-$100 million
             remaining in CPP                 $1-20 million        SC              5        48,602,000                    5         6,594,845
             banks                            $0
                                                                   TN              2        21,370,000                    1         2,183,400
                                                                   Total          38    $2,712,357,320                   25      $37,563,493
                                                                                 quarterly report to congress I July 24, 2013                                  89




Program Administration                                                                      TABLE 2.23
Although Treasury’s investment authority for CPP has ended, Treasury still has               MISSED DIVIDEND/INTEREST
significant responsibilities for managing the existing CPP portfolio, including the          PAYMENTS BY INSTITUTIONS,
following:                                                                                   9/30/2009 TO 6/30/2013
                                                                                             ($ MILLIONS)

                                                                                                                                           Value of
•	 collecting dividends and interest payments on outstanding investments                     Quarter               Number of                Unpaid
•	 monitoring the performance of outstanding investments                                     End                   Institutions          Amountsa,b,c
•	 disposing of warrants as investments are repaid                                           9/30/2009                           38                $75.7
•	 selling or restructuring Treasury’s investments in some troubled financial                12/31/2009                          43                137.4
   institutions                                                                              3/31/2010                           67                182.0
•	 selecting observers for recipients that have missed five quarterly dividend               6/30/2010       d
                                                                                                                               109                 209.7
   payments                                                                                  9/30/2010                         137                 211.3
•	 potentially selecting directors for recipients that have missed six or more
                                                                                             12/31/2010                        155                 276.4
   quarterly dividend payments
                                                                                             3/31/2011                         173                 277.3
                                                                                             6/30/2011                         188                 320.8
Dividends and Interest
As of June 30, 2013, Treasury had received $12 billion in dividends on its CPP               9/30/2011                         193                 356.9

investments.340 However, as of that date, missed dividend and interest payments              12/31/2011                        197                 377.0
by 188 institutions, including banks with missed payments that no longer have                3/31/2012                         200                 416.0
outstanding CPP principal investments, totaled approximately $494.9 million, a               6/30/2012                         203                 455.0
decrease from last quarter’s $529 million in missed payments from 192 institutions.          9/30/2012                         199                 480.1
Approximately $28.5 million of the unpaid amounts are non-cumulative, meaning                12/31/2012                        195                 506.2
that the institution has no legal obligation to pay Treasury unless the institution          3/31/2013                         192                 529.0
declares a dividend.341
                                                                                             6/30/2013                         188                 494.9
    More than two-thirds, or 96 of the 142 banks that had remaining CPP principal            Notes:
investments as of June 30, 2013, were not current on their dividend and interest             a
                                                                                               Includes unpaid cumulative dividends, non-cumulative
                                                                                                dividends, and Subchapter S interest payments but
payments to Treasury.342 The 96 banks were behind by as many as 18 payments                     does not include interest accrued on unpaid cumulative
                                                                                                dividends.
and in total were overdue in payments to Treasury of $256.3 million.343 As of June           b
                                                                                                  Excludes institutions that missed payments but (i) had
                                                                                                   fully caught up on missed payments at the end of the
30, 2013, 92 of the banks with remaining principal investments were overdue by                     quarter reported in column 1 or (ii) had repaid their
at least three payments, including 85 banks that were overdue by at least six pay-           c
                                                                                                   investment amounts.
                                                                                                Includes institutions that missed payments and (i)
ments.344 Of the banks with remaining principal investments that are not current                 entered into a recapitalization or restructuring with
                                                                                                 Treasury, (ii) for which Treasury sold the CPP investment
on payments, 75 have unpaid dividend and interest payments that are cumulative,                  to a third party or otherwise disposed of the investment
                                                                                                 to facilitate the sale of the institution to a third party
and 21 have unpaid dividend payments that are non-cumulative.                                    without receiving full repayment of unpaid dividends,
                                                                                                 (iii) filed for bankruptcy relief, or (iv) had a subsidiary
    Table 2.23 shows the number of institutions and total unpaid amount of                       bank fail.
dividend and interest payments by quarter from September 30, 2009, to June 30,               d
                                                                                                 Includes four institutions and their missed payments
                                                                                                  not reported in Treasury’s Capital Purchase Program
2013. Tables 2.17–2.22 show the distribution of missed payments and value of                      Missed Dividends and Interest Payments Report as of
                                                                                                  6/30/2010 but reported in Treasury’s Dividends and
those payments by state.                                                                          Interest Report as of the same date. The four institutions
                                                                                                  are CIT, Pacific Coast National Bancorp, UCBH Holdings,
                                                                                                  Inc., and Midwest Banc Holdings, Inc.
Treasury’s Policy on Missed Dividend and Interest Payments                                   Sources: Treasury, Dividends and Interest Report,
According to Treasury, it “evaluates its CPP investments on an ongoing basis with            7/10/2013; Treasury, responses to SIGTARP data calls,
                                                                                             10/7/2009, 1/12/2010, 4/8/2010, 6/30/2010,
the help of outside advisors, including external asset managers. The external asset          10/11/2011,1/5/2012, 4/5/2012, 7/10/2012,
                                                                                             10/10/2012, 1/10/2013, 4/4/2013, and 7/5/2013;
managers provide a valuation for each CPP investment” that results in Treasury               SIGTARP Quarterly Report to Congress, 1/30/2010,
                                                                                             4/20/2010, 7/21/2010, and 10/26/2010.
assigning the institution a credit score.345 For those that have unfavorable credit
scores, including any institution that has missed more than three dividend (or
interest) payments, Treasury has stated that the “asset manager dedicates more
90   special inspector general I troubled asset relief program




                                            resources to monitoring the institution and may talk to the institution on a more
                                            frequent basis.”346
                                                Under the terms of the preferred shares or subordinated debentures held by
                                            Treasury as a result of its CPP investments, in certain circumstances, such as when
                                            a participant misses six dividend (or interest) payments, Treasury has the right to
                                            appoint up to two additional members to the institution’s board of directors.347 As
                                            of June 30, 2013, of the 142 CPP banks with remaining principal investments, 85
                                            had missed at least six payments.348 Treasury has stated that it will prioritize the
                                            institutions for which it appoints directors based on “the size of its investment,
                                            Treasury’s assessment of the extent to which new directors may make a contribu-
                                            tion and Treasury’s ability to find appropriate directors for a given institution.”349
                                            These directors will not represent Treasury, but rather will have the same fiduciary
                                            duties to shareholders as all other directors. They will be compensated by the insti-
                                            tution in a manner similar to other directors.350
                                                According to Treasury, it continues to prioritize institutions for nominating
                                            directors in part based on whether its investment exceeds $25 million.351 When
                                            Treasury’s right to nominate a new board member becomes effective, it evaluates
                                            the institution’s condition and health and the functioning of its board to determine
                                            whether additional directors are necessary.352 As of June 30, 2013, Treasury had
                                            made director appointments to the boards of directors of 15 CPP banks, as noted
                                            in Table 2.25.353 Treasury has not made a director appointment since December
                                            14, 2012.354
                                                For institutions that miss five or more dividend (or interest) payments, Treasury
                                            has stated that it would seek consent from such institutions to send observers to
                                            the institutions’ board meetings.355 As of June 30, 2013, of the 142 CPP banks with
                                            remaining principal investments, 88 had missed at least five payments.356 According
                                            to Treasury, the observers would be selected from its Office of Financial Stability
                                            (“OFS”) and assigned to “gain a better understanding of the institution’s condition
                                            and challenges and to observe how the board is addressing the situation.”357 Their
                                            participation would be “limited to inquiring about distributed materials, presenta-
                                            tions, and actions proposed or taken during the meetings, as well as addressing any
                                            questions concerning” their role.358 The findings of the observers are taken into
                                            account when Treasury evaluates whether to appoint individuals to an institution’s
                                            board of directors.359 As of June 30, 2013, Treasury had assigned observers to 33
                                            current CPP recipients, as noted in Table 2.25.360
                                                Twelve banks have rejected Treasury’s requests to send an observer to the
                                            institutions’ board meetings.361 The banks had initial CPP investments of as much
                                            as $27 million, have missed as many as 18 quarterly dividend payments to Treasury,
                                            and have been overdue in dividend payments by as much as $4.1 million.362 Two of
                                            these banks have since been sold at a loss to Treasury at auction.363 Nine of these
                                            banks have remaining CPP principal investments, seven of which continue to have
                                            missed payments.364 Saigon National Bank of Westminster, California, has more
                                            missed payments than any TARP bank.365 Table 2.24 lists the banks that rejected
                                            Treasury observers.
                                                                                                                                  quarterly report to congress I July 24, 2013                                   91




TABLE 2.24
 CPP BANKS THAT REJECTED TREASURY OBSERVERS
                                                                    CPP Principal                 Number of                 Value of Missed              Date of Treasury                           Date
 Institution                                                          Investment            Missed Payments                       Payments                        Request                    of Rejection
 Intermountain Community Bancorp                                      $27,000,000                                 —a                           $—                 3/11/2011                    4/12/2011
 Community Bankers Trust Corporation                                    17,680,000                                —   b
                                                                                                                                                 —              10/18/2011                   11/23/2011
 White River Bancshares Company                                         16,800,000                                 10                2,289,000                    3/28/2012                    4/27/2012
 Timberland Bancorp, Inc.         c
                                                                        16,641,000                                —   d
                                                                                                                                                 —                6/27/2011                    8/18/2011
 Alliance Financial Services Inc.c                                      12,000,000                                12e                3,020,400                    3/10/2011                      5/6/2011
 Central Virginia Bankshares, Inc.          f
                                                                        11,385,000                                 14                1,992,375                      3/9/2011                   5/18/2012
 Commonwealth Business Bank                                               7,701,000                                10                1,049,250                    8/13/2010                    9/20/2010
 Pacific International Bancorpg                                           6,500,000                               —h                             —                9/23/2010                  11/17/2010
 Rising Sun Bancorp                                                       5,983,000                                15                1,222,725                    12/3/2010                    2/28/2011
 Omega Capital Corp.                                                      2,816,000                                15                   575,588                   12/3/2010                    1/13/2011
 Citizens Bank & Trust Company                                            2,400,000                                 5                   163,500                   9/23/2010                  11/17/2010
 Saigon National Bank                                                     1,549,000                                18                   370,803                   8/13/2010                    9/20/2010
 Notes: Numbers may not total due to rounding.
 a
    Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Intermountain Community Bancorp had 12 missed payments totaling
     $4.1 million.
 b
        Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Community Bankers had seven missed payments totaling $1.5 million.
 c
     Bank was sold at a loss at auction.
 d
       Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Timberland had eight missed payments totaling $1.7 million.
 e
      Alliance Financial Services Inc. was sold at a loss at auction and its missed payments to Treasury were not repaid.
 f
         Bank accepted and then declined Treasury’s request to have a Treasury observer attend board of directors meetings.
 g
          Bank has exited the Capital Purchase Program.
 h
   Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Pacific International Bancorp had 10 missed payments totaling
    $0.8 million.

 Source: Treasury, Dividends and Interest Report, 7/10/2013.




    SIGTARP and Treasury do not use the same methodology to report unpaid divi-
dend and interest payments. For example, Treasury generally excludes institutions
from its “non-current” reporting: (i) that have completed a recapitalization, restruc-
turing, or exchange with Treasury (though Treasury does report such institutions as
non-current during the pendency of negotiations); (ii) for which Treasury sold the
CPP investment to a third party, or otherwise disposed of the investment to facili-
tate the sale of the institution to a third party; (iii) that filed for bankruptcy relief;
or (iv) that had a subsidiary bank fail.366 SIGTARP generally includes such activity
in Table 2.25 under “Value of Unpaid Amounts” with the value set as of the date
of the bankruptcy, restructuring, or other event that relieves the institution of the
legal obligation to continue to make dividend and interest payments. If a completed
transaction resulted in payment to Treasury for all unpaid dividends and interest,
SIGTARP does not include the institution’s obligations under unpaid amounts. As
of June 30, 2013, for all CPP banks, including those that were missing payments
when they exited, 88 banks had missed at least ten dividend (or interest) payments
and 144 banks had missed five dividend (or interest) payments totaling $407.2 mil-
lion.367 Table 2.25 lists CPP recipients that had unpaid dividend (or interest) pay-
ments as of June 30, 2013. For a complete list of CPP recipients and institutions
making dividend or interest payments, see Appendix D: “Transaction Detail.”
92             special inspector general I troubled asset relief program




     TABLE 2.25
      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2013
                                                                                        Observers
                                                                            Number       Assigned
                                               Dividend or                 of Missed   to Board of   Value of Missed        Value of Unpaid
      Company                                  Payment type                Payments     Directors1        Payments2             Amounts2,3,4
      Saigon National Bank                     Non-Cumulative                    18                        $370,803                $370,803
      Anchor BanCorp Wisconsin, Inc.           Cumulative                        17          n           23,604,167              23,604,167
      Blue Valley Ban Corp                     Cumulative                        17          n            4,621,875               4,621,875
      Lone Star Bank                           Non-Cumulative                    17                        715,892                 715,892
      OneUnited Bank                           Non-Cumulative                    17                      2,563,388               2,563,388
      United American Bank                     Non-Cumulative                    17                       2,008,552               2,008,552
      Centrue Financial Corporation            Cumulative                        16          n            6,533,600               6,533,600
      First Banks, Inc.                        Cumulative                        16          n           64,397,200              64,397,200
      Grand Mountain Bancshares, Inc.          Cumulative                        16                        664,120                 664,120
      Idaho Bancorp                            Cumulative                        16                      1,504,200               1,504,200
      Pacific City Financial Corporation       Cumulative                        16                       3,531,600               3,531,600
      Royal Bancshares of Pennsylvania, Inc.   Cumulative                        16          n            6,081,400               6,081,400
      Georgia Primary Bank                     Non-Cumulative                    16                        990,538                 990,538
      Premier Service Bank                     Non-Cumulative                    16                        868,972                 868,972
      Citizens Commerce Bancshares, Inc.       Cumulative                        15                       1,287,563               1,287,563
      Northern States Financial Corporation    Cumulative                        15          n            3,227,063               3,227,063
      Omega Capital Corp.                      Cumulative                        15                         575,588                 575,588
      Rising Sun Bancorp                       Cumulative                        15                       1,222,725               1,222,725
      Rogers Bancshares, Inc.                  Cumulative                        15          n            5,109,375               5,109,375
      Syringa Bancorp                          Cumulative                        15                      1,635,000               1,635,000
      Cecil Bancorp, Inc.                      Cumulative                        14                      2,023,000               2,023,000
      Central Virginia Bankshares, Inc.        Cumulative                        14                       1,992,375               1,992,375
      City National Bancshares Corporation     Cumulative                        14                       1,651,825               1,651,825
      Fidelity Federal Bancorp                 Cumulative                        14                       1,229,924               1,229,924
      Monarch Community Bancorp, Inc.          Cumulative                        14                       1,187,375               1,187,375
      U.S. Century Bank                        Non-Cumulative                    14                      9,582,580               9,582,580
      Bridgeview Bancorp, Inc.                 Cumulative                        13          n            6,730,750               6,730,750
      Independent Bank Corporation             Cumulative                        13                     13,263,671              11,463,671
      Madison Financial Corporation            Cumulative                        13                         597,058                 597,058
      Patapsco Bancorp, Inc.                   Cumulative                        13                       1,062,750               1,062,750
      Prairie Star Bancshares, Inc.            Cumulative                        13                         495,950                 495,950
      TCB Holding Company                      Cumulative                        13                      2,077,823               2,077,823
      Goldwater Bank, N.A.**                   Non-Cumulative                    13                         454,740                 454,740
      Midtown Bank & Trust Company**           Non-Cumulative                    13                         924,918                 924,918
      1st FS Corporation                       Cumulative                        12                      2,455,350               2,455,350
      BNB Financial Services Corporation       Cumulative                        12                       1,226,250               1,226,250
                                                                                                                       Continued on next page
                                                                             quarterly report to congress I July 24, 2013               93




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2013                  (CONTINUED)

                                                                       Observers
                                                           Number       Assigned
                                         Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                  Payment type     Payments     Directors1               Payments2               Amounts2,3,4
Broadway Financial Corporation           Cumulative             12                               $2,250,000             $2,250,000
Capital Commerce Bancorp, Inc.           Cumulative             12                                  833,850                 833,850
Harbor Bankshares Corporation    **
                                         Cumulative             12                                 1,190,000              1,020,000
Market Bancorporation, Inc.              Cumulative             12                                  336,810                 336,810
Pinnacle Bank Holding Company            Cumulative             12                                  717,480                 717,480
Provident Community Bancshares, Inc.     Cumulative             12                                 1,389,900              1,389,900
Western Community Bancshares, Inc.       Cumulative             12                                 1,192,050              1,192,050
Premier Financial Corp  *,**
                                         Interest               12                                 1,597,857              1,597,857
CalWest Bancorp                          Cumulative             11                                  697,868                 697,868
CSRA Bank Corp.                          Cumulative             11                                  359,700                 359,700
First United Corporation                 Cumulative             11                                4,125,000              4,125,000
Florida Bank Group, Inc.                 Cumulative             11                                3,068,203              3,068,203
Liberty Shares, Inc.                     Cumulative             11                                2,589,840              2,589,840
Private Bancorporation, Inc.             Cumulative             11                                 1,191,905              1,191,905
Regent Bancorp, Inc**                    Cumulative             11                                 1,496,028              1,496,028
Spirit BankCorp, Inc.                    Cumulative             11                                4,496,250              4,496,250
Tidelands Bancshares, Inc                Cumulative             11                                 1,986,600              1,986,600
Marine Bank & Trust Company              Non-Cumulative         11                                  449,625                 449,625
Pacific Commerce Bank    **
                                         Non-Cumulative         11                                  640,454                 585,136
Great River Holding Company*,**          Interest               11                                 1,938,090              1,938,090
Bank of the Carolinas Corporation        Cumulative             10                                1,647,375              1,647,375
Eastern Virginia Bankshares, Inc.        Cumulative             10                                3,000,000              3,000,000
Greer Bancshares Incorporated            Cumulative             10                                 1,361,625              1,361,625
HCSB Financial Corporation               Cumulative             10                                1,611,875              1,611,875
Highlands Independent Bancshares,
                                         Cumulative             10                                  912,875                 912,875
Inc.
Patriot Bancshares, Inc.                 Cumulative             10                                3,547,700              3,547,700
Reliance Bancshares, Inc.                Cumulative             10                                5,450,000              5,450,000
White River Bancshares Company           Cumulative             10                                 2,289,000              2,289,000
Commonwealth Business Bank               Non-Cumulative         10                                 1,049,250              1,049,250
AB&T Financial Corporation               Cumulative              9                                  393,750                 393,750
Atlantic Bancshares, Inc.                Cumulative              9                                  244,845                 244,845
BCB Holding Company, Inc.                Cumulative              9                                  209,138                 209,138
Central Bancorp, Inc.                    Cumulative              9                                2,759,063              2,759,063
Community First, Inc.                    Cumulative              9                                2,183,400              2,183,400
Village Bank and Trust Financial Corp.   Cumulative              9                                1,658,025              1,658,025
Bank of George                           Non-Cumulative          9                                  327,735                 327,735
                                                                                                               Continued on next page
94            special inspector general I troubled asset relief program




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2013                             (CONTINUED)

                                                                                       Observers
                                                                           Number       Assigned
                                                     Dividend or          of Missed   to Board of          Value of Missed          Value of Unpaid
     Company                                         Payment type         Payments     Directors1               Payments2               Amounts2,3,4
     Valley Community Bank                           Non-Cumulative              9                                 $674,438                $674,438
     Community Pride Bank Corporation*,**            Interest                    9                                  803,286                 803,286
     Suburban Illinois Bancorp, Inc.          *,**
                                                     Interest                    9                                2,831,625              2,831,625
     Allied First Bancorp, Inc.                      Cumulative                  8                                  398,140                 398,140
     Coloeast Bankshares, Inc.                       Cumulative                  8                                1,090,000              1,090,000
     NCAL Bancorp                                    Cumulative                  8                                1,090,000              1,090,000
     RCB Financial Corporation                       Cumulative                  8                                  938,240                 938,240
     First Intercontinental Bank                     Non-Cumulative              8                                  697,400                 697,400
     Porter Bancorp, Inc.                            Cumulative                  7                                3,062,500              3,062,500
     Randolph Bank & Trust Company                   Non-Cumulative              7                                  594,020                 594,020
     Alarion Financial Services, Inc.                Cumulative                  6                                  532,560                 532,560
     SouthFirst Bancshares, Inc.                     Cumulative                  6                                  225,630                 225,630
     US Metro Bank**                                 Non-Cumulative              6                                  233,880                 233,880
     OneFinancial Corporation     *,**
                                                     Interest                    5                                 1,754,998              1,754,998
     Severn Bancorp, Inc.                            Cumulative                  5                                 1,462,063              1,462,063
     Citizens Bank & Trust Company                   Non-Cumulative              5                                  163,500                 163,500
     Farmers & Merchants Bancshares,
                                                     Cumulative                  4                                  749,375                 599,500
     Inc.**
     Maryland Financial Bank                         Non-Cumulative              4                                   92,650                  92,650
     IA Bancorp, Inc.**
                                                     Cumulative                  3                                  314,910                 236,183
     Virginia Company Bank                           Non-Cumulative              3                                  185,903                 185,903
     Calvert Financial Corporation                   Cumulative                  2                                   28,265                  28,265
     Riverside Bancshares, Inc.       *,**
                                                     Interest                    2                                   46,145                  46,145
     Ojai Community Bank                             Non-Cumulative              2                                   56,680                  56,680
     Chambers Bancshares, Inc.         *,**
                                                     Interest                    2                                  831,334                 831,334
     Exchanges, Sales,
     Recapitalizations, and Failed                                                                                                                  
     Banks with Missing Payments
     Pathway Bancorp*****                            Cumulative                 15                                  761,588                 761,588
     Dickinson Financial Corporation II*****         Cumulative                 14                                27,859,720             27,859,720
     FC Holdings, Inc.*****                          Cumulative                 14                                 4,013,730              4,013,730
     Ridgestone Financial Services, Inc.*****        Cumulative                 14                                 2,079,175              2,079,175
     Intervest Bancshares Corporation*****           Cumulative                 14          n                      4,375,000              4,375,000
     Premierwest Bancorp      *****
                                                     Cumulative                 14          n                      7,245,000              7,245,000
     First Southwest Bancorporation,
                                                     Cumulative                 13                                  974,188                 974,188
     Inc.*****
     Tennessee Valley Financial Holdings,
                                                     Cumulative                 13                                  531,375                 531,375
     Inc.*****
                                                                                                                               Continued on next page
                                                                                     quarterly report to congress I July 24, 2013               95




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2013                          (CONTINUED)

                                                                               Observers
                                                                   Number       Assigned
                                                 Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                          Payment type     Payments     Directors1               Payments2               Amounts2,3,4
First Sound Bank*****                            Non-Cumulative         13                                $1,202,500             $1,202,500
Stonebridge Financial Corp.*****                 Cumulative             12                                1,794,180              1,794,180
Citizens Bancshares Co. (MO)       ****
                                                 Cumulative             12                                 4,086,000              4,086,000
Northwest Bancorporation, Inc.*****              Cumulative             12                                 1,716,750              1,716,750
Plumas Bancorp*****                              Cumulative             12                                1,792,350              1,792,350
Gold Canyon Bank****                             Non-Cumulative         12                                  254,010                 254,010
Santa Clara Valley Bank, N.A.     *****
                                                 Non-Cumulative         12                                  474,150                 474,150
Alliance Financial Services, Inc.    *,*****
                                                 Interest               12                                 3,020,400              3,020,400
First Trust Corporation*,*****                   Interest               12                                 4,522,611              4,522,611
The Queensborough Company           *****
                                                 Cumulative             11                                 1,798,500              1,798,500
Boscobel Bancorp, Inc*,*****                     Interest               11                                 1,288,716              1,288,716
Investors Financial Corporation of
                                                 Interest               11                                  922,900                 922,900
Pettis County, Inc.*
First Financial Service Corporation*****         Cumulative             10                                2,500,000              2,500,000
Old Second Bancorp, Inc.*****                    Cumulative             10          n                      9,125,000              9,125,000
Security State Bank Holding-
                                                 Interest               10                                2,931,481              2,254,985
Company*,**,*****
Gregg Bancshares, Inc.****                       Cumulative              9                                  101,115                 101,115
Metropolitan Bank Group, Inc. / NC
                                                 Cumulative              9                               12,716,368              9,511,543
Bancorp, Inc.***
National Bancshares, Inc.*****                   Cumulative              9                                 3,024,383              3,024,383
SouthCrest Financial Group, Inc.         *****
                                                 Cumulative              9                                 1,581,863              1,581,863
Citizens Bancorp****                             Cumulative              9                                 1,275,300              1,275,300
Premier Bank Holding Company             ****
                                                 Cumulative              9                                 1,164,938              1,164,938
Central Federal Corporation      *****
                                                 Cumulative              8                                  722,500                 722,500
CoastalSouth Bancshares, Inc.*****               Cumulative              8                                 1,687,900              1,687,900
HMN Financial, Inc.*****                         Cumulative              8                                 2,600,000              2,600,000
One Georgia Bank****                             Non-Cumulative          8                                  605,328                 605,328
Cascade Financial Corporation       *****
                                                 Cumulative              7                                 3,409,875              3,409,875
Integra Bank Corporation****                     Cumulative              7                                 7,313,775              7,313,775
Princeton National Bancorp, Inc.         ****
                                                 Cumulative              7                                 2,194,763              2,194,763
Brogan Bankshares, Inc.*                         Interest                7                                  352,380                 352,380
Central Pacific Financial Corp.    ***,9
                                                 Cumulative              6                                10,125,000                      —
Coastal Banking Company, Inc.        *****
                                                 Cumulative              6                                  995,000                 995,000
First Reliance Bancshares, Inc.*****             Cumulative              6                                 1,254,720              1,254,720
FNB United Corp.***                              Cumulative              6                                 3,862,500                      —
FPB Bancorp, Inc. (FL)****                       Cumulative              6                                  435,000                 435,000
                                                                                                                       Continued on next page
96             special inspector general I troubled asset relief program




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2013                              (CONTINUED)

                                                                                        Observers
                                                                            Number       Assigned
                                                        Dividend or        of Missed   to Board of          Value of Missed          Value of Unpaid
     Company                                            Payment type       Payments     Directors1               Payments2               Amounts2,3,4
     Indiana Bank Corp.****                             Cumulative                6                                 $107,310                $107,310
     Naples Bancorp, Inc.*****                          Cumulative                6                                  327,000                 327,000
     First Place Financial Corp.                        Cumulative                6                                 5,469,525              5,469,525
     Worthington Financial Holdings, Inc.*****          Cumulative                6                                  222,360                 222,360
     Fort Lee Federal Savings Bank               ****
                                                        Non-Cumulative            6                                  106,275                 106,275
     Community Financial Shares, Inc.***                Cumulative                5                                  759,820                 759,820
     Delmar Bancorp    *****
                                                        Cumulative                5                                  613,125                 613,125
     First BanCorp (PR)   ***
                                                        Cumulative                5                               42,681,526                      —
     First Federal Bancshares of Arkansas,
                                                        Cumulative                5                                 1,031,250              1,031,250
     Inc.*****
     Flagstar Bancorp, Inc.*****                        Cumulative                5                                16,666,063             16,666,063
     Midwest Banc Holdings, Inc.           5
                                                        Cumulative                5                                 4,239,200              4,239,200
     Pacific Capital Bancorp***,9                       Cumulative                5                                13,547,550                      —
     GulfSouth Private Bank       ****
                                                        Non-Cumulative            5                                  494,063                 494,063
     Northwest Commercial Bank****                      Non-Cumulative            5                                  135,750                 135,750
     CB Holding Corp.   ****
                                                        Cumulative                4                                  224,240                 224,240
     Colony Bankcorp, Inc.*****                         Cumulative                4                                 1,400,000              1,400,000
     First Community Bank Corporation of
                                                        Cumulative                4                                  534,250                 534,250
     America*****
     Green Bankshares, Inc.*****                        Cumulative                4                                 3,613,900              3,613,900
     Hampton Roads Bankshares, Inc.***,9                Cumulative                4                                 4,017,350              4,017,350
     Pierce County Bancorp        ****
                                                        Cumulative                4                                  370,600                 370,600
     Santa Lucia Bancorp        *****
                                                        Cumulative                4                                  200,000                 200,000
     Sterling Financial Corporation (WA)***,9           Cumulative                4                                18,937,500             18,937,500
     TIB Financial Corp***** ,7                         Cumulative                4                                 1,850,000              1,850,000
     Community Bank of the Bay6                         Non-Cumulative            4                                   72,549                  72,549
     The Bank of Currituck       *****
                                                        Non-Cumulative            4                                  219,140                 219,140
     The Connecticut Bank and Trust
                                                        Non-Cumulative            4                                  246,673                 246,673
     Company*****
     Plato Holdings Inc.*,*****                         Interest                  4                                  207,266                 207,266
     Blue River Bancshares, Inc.          ****
                                                        Cumulative                3                                  204,375                 204,375
     Community West Bancshares*****                     Cumulative                3                                  585,000                 585,000
     Legacy Bancorp, Inc.****                           Cumulative                3                                  206,175                 206,175
     Sonoma Valley Bancorp         ****
                                                        Cumulative                3                                  353,715                 353,715
     Superior Bancorp Inc.****                          Cumulative                3                                 2,587,500              2,587,500
     Tennessee Commerce Bancorp, Inc.****               Cumulative                3                                 1,125,000              1,125,000
     The South Financial Group, Inc.***** ,7            Cumulative                3                                13,012,500             13,012,500
                                                                                                                                Continued on next page
                                                                                                                                  quarterly report to congress I July 24, 2013                                     97




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2013                                                                       (CONTINUED)

                                                                                                                       Observers
                                                                                                    Number              Assigned
                                                        Dividend or                                of Missed          to Board of                   Value of Missed                      Value of Unpaid
Company                                                 Payment type                               Payments            Directors1                        Payments2                           Amounts2,3,4
Treaty Oak Bancorp, Inc.*****                           Cumulative                                              3                                             $133,553                            $133,553
Bank of Commerce*****                                   Non-Cumulative                                          3                                              122,625                              122,625
Carolina Trust Bank        *****
                                                        Non-Cumulative                                          3                                              150,000                              150,000
Commerce National Bank                                  Non-Cumulative                                          3                                              150,000                              150,000
Cadence Financial Corporation             *****
                                                        Cumulative                                              2                                              550,000                              550,000
First Alliance Bancshares, Inc.*****                    Cumulative                                              2                                                93,245                               93,245
Pacific Coast National Bancorp            ****
                                                        Cumulative                                              2                                              112,270                              112,270
The Baraboo Bancorporation, Inc.              *****
                                                        Cumulative                                              2                                              565,390                              565,390
Colonial American Bank*****                             Non-Cumulative                                          2                                                15,655                               15,655
Fresno First Bank       ***
                                                        Non-Cumulative                                          2                                                33,357                               33,357
FBHC Holding Company*,*****                             Interest                                                2                                              123,127                              123,127
Gateway Bancshares, Inc.                                Cumulative                                              2                                              163,500                              163,500
CIT Group Inc.****,8                                    Cumulative                                              2                                          29,125,000                          29,125,000
UCBH Holdings, Inc.****                                 Cumulative                                              1                                            3,734,213                           3,734,213
Exchange Bank*****                                      Non-Cumulative                                          1                                              585,875                              585,875
Tifton Banking Company             ****
                                                        Non-Cumulative                                          1                                                51,775                               51,775
Total                                                                                                                                                $571,290,821                         $494,939,005
Notes: Numbers may not total due to rounding. Approximately $28.5 million of the $494.9 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
dividends that are non-cumulative.

* Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
** Partial payments made after the due date.
*** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
**** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

n   Treasury has appointed one or more directors to the Board of Directors.

1
  F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to assign
   an observer to the board of directors.
2
   Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
3
    Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
  Program.
4
     Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
      investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
5
      For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
       amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
6
       Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
7
        For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
8
         For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
          amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
9
          Completed exchanges:
          - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
          amounts reflect the figures Treasury reported prior to the exchange.
          - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
          amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

Sources: Treasury, Dividends and Interest Report, 7/10/2013; Treasury, responses to SIGTARP data calls, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
10/4/2012, 1/10/2013, 4/4/2013, 7/5/2013.
98   special inspector general I troubled asset relief program




                                            CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                            Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
                                            institutions,” as of June 30, 2013, 25 CPP participants had gone bankrupt or had
                                            a subsidiary bank fail, as indicated in Table 2.26.368 As of June 30, 2013, 23 of
                                            those banks, with total CPP investments of $750.3 million, were in the process of
                                            bankruptcy, and while Treasury has not yet realized the loss, it expects that all of its
                                            investments in the banks will be lost.369

                                            Closure of Gold Canyon Bank
                                            On June 26, 2009, Treasury invested $1.6 million in Gold Canyon Bank, Gold
                                            Canyon, Arizona, (“Gold Canyon”) through CPP in return for preferred stock and
                                            warrants.370 On April 5, 2013, the Arizona Department of Financial Institutions
                                            closed Gold Canyon and named the Federal Deposit Insurance Corporation
                                            (“FDIC”) as receiver.371 FDIC entered into a purchase and assumption agreement
                                            with First Scottsdale Bank, National Association, Scottsdale, Arizona, to assume all
                                            of Gold Canyon’s deposits.372 FDIC estimates that the cost of Gold Canyon’s failure
                                            to the deposit insurance fund will be $11.2 million.373 All of Treasury’s investment
                                            in Gold Canyon is expected to be lost.374

                                            Bankruptcy of Indiana Bank Corp.
                                            On April 24, 2009, Treasury invested $1.3 million in Indiana Bank Corp., Dana,
                                            Indiana, (“Indiana Bank Corp.”) through CPP in return for preferred stock and
                                            warrants.375 On April 9, 2013, Indiana Bank Corp. filed for Chapter 11 bankruptcy
                                            in the United States Bankruptcy Court, Southern District of Indiana.376 According
                                            to Treasury, while it will continue to monitor the matter while the bankruptcy is
                                            open, it expects that there are not sufficient funds in the estate to repay Treasury’s
                                            investment.377
                                                                                    quarterly report to congress I July 24, 2013   99




TABLE 2.26
 CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 6/30/2013                        ($ MILLIONS)

                                        Initial
                                     Invested     Investment                      Bankruptcy/
 Company                              Amount            Date           Status     Failure Datea            Subsidiary Bank
                                                                    Bankruptcy
                                                                  proceedings
                                                               completed with
                                                                   no recovery                                     CIT Bank,
 CIT Group Inc., New York, NY        $2,330.0     12/31/2008                        11/1/2009
                                                                  of Treasury’s                            Salt Lake City, UT
                                                                   investment;
                                                               subsidiary bank
                                                                remains active
                                                                In bankruptcy;
 UCBH Holdings Inc.,                                                                               United Commercial Bank,
                                        298.7     11/14/2008   subsidiary bank      11/6/2009
 San Francisco, CA                                                                                        San Francisco, CA
                                                                         failed
                                                                    Bankruptcy
                                                                  proceedings
                                                               completed with
 Pacific Coast National Bancorp,                                  no recovery                         Pacific Coast National
                                           4.1     1/16/2009                       11/13/2009
 San Clemente, CA                                                of Treasury’s                      Bank, San Clemente, CA
                                                                   investment;
                                                               subsidiary bank
                                                                         failed
                                                                In bankruptcy;                      Midwest Bank and Trust
 Midwest Banc Holdings, Inc.,
                                        89.4b      12/5/2008   subsidiary bank      5/14/2010                   Company,
 Melrose Park, IL
                                                                         failed                          Elmwood Park, IL
 Sonoma Valley Bancorp, Sonoma,                                Subsidiary bank                         Sonoma Valley Bank,
                                           8.7     2/20/2009                        8/20/2010
 CA                                                                      failed                              Sonoma, CA
 Pierce County Bancorp, Tacoma,                                Subsidiary bank                     Pierce Commercial Bank,
                                           6.8     1/23/2009                        11/5/2010
 WA                                                                      failed                               Tacoma, WA
 Tifton Banking Company, Tifton,
                                           3.8     4/17/2009             Failed    11/12/2010                            N/A
 GA
 Legacy Bancorp, Inc., Milwaukee,                              Subsidiary bank                     Legacy Bank, Milwaukee,
                                           5.5     1/30/2009                        3/11/2011
 WI                                                                      failed                                         WI
 Superior Bancorp, Inc.,                                       Subsidiary bank                                Superior Bank,
                                         69.0      12/5/2008                        4/15/2011
 Birmingham, AL                                                          failed                              Birmingham, AL
 Integra Bank Corporation,                                     Subsidiary bank                      Integra Bank, Evansville,
                                         83.6      2/27/2009                        7/29/2011
 Evansville, IN                                                          failed                                            IN
 One Georgia Bank, Atlanta, GA             5.5      5/8/2009             Failed     7/15/2011                            N/A
                                                               Subsidiary bank                           First Peoples Bank,
 FPB Bancorp, Port Saint Lucie, FL         5.8     12/5/2008                        7/15/2011
                                                                         failed                          Port Saint Lucie, FL
                                                                                                   Citizens Bank of Northern
                                                               Subsidiary bank
 Citizens Bancorp, Nevada City, CA       10.4     12/23/2008                        9/23/2011         California, Nevada City,
                                                                         failed
                                                                                                                          CA
                                                               Subsidiary bank
 CB Holding Corp., Aledo, IL               4.1     5/29/2009                       10/14/2011        Country Bank, Aledo, IL
                                                                         failed
 Tennessee Commerce Bancorp,                                   Subsidiary bank                        Tennessee Commerce
                                         30.0     12/19/2008                        1/27/2012
 Inc., Franklin, TN                                                      failed                           Bank, Franklin, TN
                                                                                                     Continued on next page
100   special inspector general I troubled asset relief program




             CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 6/30/2013                                                                    ($ MILLIONS) (CONTINUED)

                                                                    Initial
                                                                 Invested          Investment                                        Bankruptcy/
             Company                                              Amount                 Date                         Status         Failure Datea                   Subsidiary Bank
             Blue River Bancshares, Inc.,                                                                 Subsidiary bank                                                   SCB Bank,
                                                                       $5.0          3/6/2009                                            2/10/2012
             Shelbyville, IN                                                                                        failed                                                Shelbyville, IN
             Fort Lee Federal Savings Bank                               1.3       5/22/2009                           Failed            4/20/2012                                     N/A
                                                                                                          Subsidiary bank                                     Glasgow Savings Bank,
             Gregg Bancshares, Inc.                                      0.9       2/13/2009                                             7/13/2012
                                                                                                                    failed                                             Glasgow, MO
             Premier Bank Holding Company                                9.5       3/20/2009                 In bankruptcy               8/14/2012                                     N/A
             GulfSouth Private Bank                                      7.5       9/25/2009                           Failed          10/19/2012                                      N/A
             Investors Financial Corporation of                                                                                                                              Excel Bank,
                                                                         4.0         5/8/2009                          Failed          10/19/2012
             Pettis County, Inc.                                                                                                                                             Sedalia, MO
                                                                                                                                                            First Place Bank, Warren,
             First Place Financial Corporation                         72.9        3/13/2009                 In bankruptcy             10/29/2012
                                                                                                                                                                                  OH
                                                                                                          Subsidiary bank                                       Citizens First National
             Princeton National Bancorp                                25.1        1/23/2009                                             11/2/2012
                                                                                                                    failed                                         Bank, Princeton, IL
             Gold Canyon Bank                                            1.6       6/26/2009                           Failed             4/5/2013                                     N/A
             Indiana Bank Corp.                                          1.3       4/24/2009                 In bankruptcy                4/9/2013                                     N/A
             Total                                               $3,084.5                                                                                                                  
             Notes: Numbers may not total due to rounding.
             a
               Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
             b
                The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc.
                 (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.

             Source: Treasury, Transactions Report, 6/28/2013.



                                                         Realized Losses and Write-offs of CPP Investments
                                                         When a CPP investment is sold at a loss, or an institution that Treasury invested
                                                         in finalizes bankruptcy, Treasury records the loss as a realized loss or a write-off.
                                                         For these recorded losses, Treasury has no expectation of regaining any portion
                                                         of the lost investment. According to Treasury, as of June 30, 2013, Treasury had
                                                         realized or written-off losses of $3.4 billion on its CPP investments, including $80
                                                         million this quarter. Table 2.27 shows all realized losses and write-offs recorded by
                                                         Treasury on CPP investments through June 30, 2013.
                                                                                    quarterly report to congress I July 24, 2013   101




TABLE 2.27
 REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2013              ($ MILLIONS)

                                                     Realized
                                              TARP    Loss or
 Institution                            Investment   Write-Off          Date   Description
                                                                               Sale of subordinated
FBHC Holding Company                           $3          $2      3/9/2010
                                                                               debentures at a loss
First Federal Bancshares of Arkansas,
                                               17          11      5/3/2010 Sale of preferred stock at a loss
Inc.
The Bank of Currituck                           4           2     12/3/2010 Sale of preferred stock at a loss
Treaty Oak Bancorp, Inc.                        3           3     2/15/2011 Sale of preferred stock at a loss
Cadence Financial Corporation                  44           6      3/4/2011 Sale of preferred stock at a loss
First Community Bank Corporation of
                                               11           3     5/31/2011 Sale of preferred stock at a loss
America
Cascade Financial Corporation                  39          23     6/30/2011 Sale of preferred stock at a loss
Green Bankshares, Inc.                         72           4      9/7/2011 Sale of preferred stock at a loss
Santa Lucia Bancorp                             4           1    10/21/2011 Sale of preferred stock at a loss
Banner Corporation/Banner Bank                124          14      4/3/2012 Sale of preferred stock at a loss 
First Financial Holdings Inc.                  65           8      4/3/2012 Sale of preferred stock at a loss 
MainSource Financial Group, Inc.               57           4      4/3/2012 Sale of preferred stock at a loss
Seacoast Banking Corporation of
                                               50           9      4/3/2012 Sale of preferred stock at a loss
Florida
Wilshire Bancorp, Inc.                         62           4      4/3/2012 Sale of preferred stock at a loss
WSFS Financial Corporation                     53           4      4/3/2012 Sale of preferred stock at a loss
Central Pacific Financial Corp.               135          62      4/4/2012    Sale of common stock at a loss
Ameris Bancorp                                 52           4     6/19/2012 Sale of preferred stock at a loss
Farmers Capital Corporation                    30           8     6/19/2012 Sale of preferred stock at a loss
First Capital Bancorp, Inc.                    11           1     6/19/2012 Sale of preferred stock at a loss
First Defiance Financial Corp.                 37           1     6/19/2012 Sale of preferred stock at a loss
LNB Bancorp, Inc.                              25           3     6/19/2012 Sale of preferred stock at a loss
Taylor Capital Group, Inc.                    105          11     6/19/2012    Sale of preferred stock at a loss
United Bancorp, Inc.                           21           4     6/19/2012 Sale of preferred stock at a loss
Fidelity Southern Corporation                  48           5      7/3/2012 Sale of preferred stock at a loss
First Citizens Banc Corp                       21           2      7/3/2012 Sale of preferred stock at a loss
Firstbank Corporation                          33           2      7/3/2012 Sale of preferred stock at a loss
Metrocorp Bancshares, Inc.                     45           1      7/3/2012 Sale of preferred stock at a loss
Peoples Bancorp Of North Carolina,
                                               25           2      7/3/2012 Sale of preferred stock at a loss
Inc.
Pulaski Financial Corp.                        33           4      7/3/2012 Sale of preferred stock at a loss
Southern First Bancshares, Inc.                17           2      7/3/2012 Sale of preferred stock at a loss
Naples Bancorp, Inc.                            4           3     7/12/2012 Sale of preferred stock at a loss
Commonwealth Bancshares, Inc.                  20           5      8/9/2012 Sale of preferred stock at a loss
                                                                                       Continued on next page
102   special inspector general I troubled asset relief program




                         REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2013                  ($ MILLIONS) (CONTINUED)

                                                                                 Realized
                                                                          TARP    Loss or
                         Institution                                Investment   Write-Off          Date   Description
                         Diamond Bancorp, Inc.                            $20          $6      8/9/2012    Sale of preferred stock at a loss
                         Fidelity Financial Corporation                    36           4      8/9/2012    Sale of preferred stock at a loss
                         Market Street Bancshares, Inc.                    20           2      8/9/2012    Sale of preferred stock at a loss
                         CBS Banc-Corp.                                    24           2     8/10/2012 Sale of preferred stock at a loss
                         Marquette National Corporation                    36          10     8/10/2012 Sale of preferred stock at a loss
                         Park Bancorporation, Inc.                         23           6     8/10/2012 Sale of preferred stock at a loss
                         Premier Financial Bancorp, Inc.                    7           2     8/10/2012 Sale of preferred stock at a loss
                         Trinity Capital Corporation                       36           9     8/10/2012 Sale of preferred stock at a loss
                         Exchange Bank                                     43           5     8/13/2012 Sale of preferred stock at a loss
                         Millennium Bancorp, Inc.                           7           4     8/14/2012 Sale of preferred stock at a loss
                         Sterling Financial Corporation                   303         188     8/20/2012    Sale of preferred stock at a loss
                         BNC Bancorp                                       31           2     8/29/2012 Sale of preferred stock at a loss
                         First Community Corporation                       11         0.2     8/29/2012 Sale of preferred stock at a loss
                         First National Corporation                        14           2     8/29/2012 Sale of preferred stock at a loss
                         Mackinac Financial Corporation                    11         0.5     8/29/2012 Sale of preferred stock at a loss
                         Yadkin Valley Financial Corporation               13           5     9/18/2012 Sale of preferred stock at a loss
                         Alpine Banks Of Colorado                          70          13     9/20/2012 Sale of preferred stock at a loss
                         F & M Financial Corporation (NC)                  17           1     9/20/2012 Sale of preferred stock at a loss
                         F&M Financial Corporation (TN)                    17           4     9/21/2012 Sale of preferred stock at a loss
                         First Community Financial Partners, Inc.          22           8     9/21/2012 Sale of preferred stock at a loss
                         Central Federal Corporation                        7           4     9/26/2012 Sale of preferred stock at a loss
                         Congaree Bancshares, Inc.                          3         0.6    10/31/2012    Sale of preferred stock at a loss
                         Metro City Bank                                    8         0.8    10/31/2012    Sale of preferred stock at a loss
                         Blue Ridge Bancshares, Inc.                       12           3    10/31/2012 Sale of preferred stock at a loss
                         Germantown Capital Corporation                     5         0.4    10/31/2012    Sale of preferred stock at a loss
                         First Gothenburg Bancshares, Inc.                  8         0.7    10/31/2012    Sale of preferred stock at a loss
                         Blackhawk Bancorp, Inc.                           10         0.9    10/31/2012    Sale of preferred stock at a loss
                         Centerbank                                         2         0.4    10/31/2012    Sale of preferred stock at a loss
                         The Little Bank, Incorporated                      8         0.1    10/31/2012    Sale of preferred stock at a loss
                         Oak Ridge Financial Services, Inc.                 8         0.6    10/31/2012    Sale of preferred stock at a loss
                         Peoples Bancshares Of TN, Inc.                     4           1    10/31/2012 Sale of preferred stock at a loss
                         Hometown Bankshares Corporation                   10         0.8    10/31/2012    Sale of preferred stock at a loss
                         Western Illinois Bancshares, Inc.                 11         0.7     11/9/2012 Sale of preferred stock at a loss
                         Capital Pacific Bancorp                            4         0.2     11/9/2012 Sale of preferred stock at a loss
                         Three Shores Bancorporation, Inc.                  6         0.6     11/9/2012 Sale of preferred stock at a loss
                         Regional Bankshares, Inc.                          2         0.1     11/9/2012 Sale of preferred stock at a loss
                                                                                                                   Continued on next page
                                                                                     quarterly report to congress I July 24, 2013   103




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2013                ($ MILLIONS) (CONTINUED)

                                                      Realized
                                               TARP    Loss or
Institution                              Investment   Write-Off          Date   Description
Timberland Bancorp, Inc.                       $17          $2     11/9/2012 Sale of preferred stock at a loss
First Freedom Bancshares, Inc.                   9         0.7     11/9/2012 Sale of preferred stock at a loss
Bankgreenville Financial Corporation             1         0.1     11/9/2012 Sale of preferred stock at a loss
                                                                                Sale of subordinated
F&C Bancorp. Inc.                                3         0.1    11/13/2012
                                                                                debentures at a loss
                                                                                Sale of subordinated
Farmers Enterprises, Inc.                       12         0.4    11/13/2012
                                                                                debentures at a loss
Franklin Bancorp, Inc.                           5           2    11/13/2012 Sale of preferred stock at a loss
Sound Banking Company                            3         0.2    11/13/2012    Sale of preferred stock at a loss
Parke Bancorp, Inc.                             16           5    11/29/2012 Sale of preferred stock at a loss
Country Bank Shares, Inc.                        8         0.6    11/29/2012    Sale of preferred stock at a loss
Clover Community Bankshares, Inc.                3         0.4    11/29/2012 Sale of preferred stock at a loss
CBB Bancorp                                      4         0.3    11/29/2012 Sale of preferred stock at a loss
Alaska Pacific Bancshares, Inc.                  5         0.5    11/29/2012 Sale of preferred stock at a loss
Trisummit Bank                                   7           2    11/29/2012 Sale of preferred stock at a loss
Layton Park Financial Group, Inc.                3         0.6    11/29/2012    Sale of preferred stock at a loss
Community Bancshares of Mississippi,
Inc. (Community Holding Company of               1         0.1    11/30/2012 Sale of preferred stock at a loss
Florida, Inc.)
FFW Corporation                                  7         0.7    11/30/2012 Sale of preferred stock at a loss
Hometown Bancshares, Inc.                        2         0.1    11/30/2012 Sale of preferred stock at a loss
Bank Of Commerce                                 3         0.5    11/30/2012 Sale of preferred stock at a loss
Corning Savings And Loan Association            0.6        0.1    11/30/2012 Sale of preferred stock at a loss
Carolina Trust Bank                              4         0.6    11/30/2012    Sale of preferred stock at a loss
Community Business Bank                          4         0.3    11/30/2012 Sale of preferred stock at a loss
KS Bancorp, Inc                                  4         0.7    11/30/2012 Sale of preferred stock at a loss
Pacific Capital Bancorp                        195          15    11/30/2012    Sale of common stock at a loss
Community West Bancshares                       16           4    12/11/2012 Sale of preferred stock at a loss
Presidio Bank                                   11           2    12/11/2012    Sale of preferred stock at a loss
The Baraboo Bancorporation, Inc.                21           7    12/11/2012 Sale of preferred stock at a loss
Security Bancshares Of Pulaski County,
                                                 2         0.7    12/11/2012    Sale of preferred stock at a loss
Inc.
Central Community Corporation                   22           2    12/11/2012 Sale of preferred stock at a loss
                                                                                Sale of subordinated
Manhattan Bancshares, Inc.                       3         0.1    12/11/2012
                                                                                debentures at a loss
First Advantage Bancshares, Inc.                 1         0.1    12/11/2012 Sale of preferred stock at a loss
Community Investors Bancorp, Inc.                3         0.1    12/20/2012 Sale of preferred stock at a loss
                                                                                        Continued on next page
104   special inspector general I troubled asset relief program




                         REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2013                ($ MILLIONS) (CONTINUED)

                                                                               Realized
                                                                        TARP    Loss or
                         Institution                              Investment   Write-Off          Date   Description
                         First Business Bank, National
                                                                         $4        $0.4    12/20/2012    Sale of preferred stock at a loss
                         Association
                         Bank Financial Services, Inc.                    1         0.1    12/20/2012 Sale of preferred stock at a loss
                                                                                                         Sale of subordinated
                         Century Financial Services Corporation          10         0.2    12/20/2012
                                                                                                         debentures at a loss
                         Hyperion Bank                                    2         0.5    12/21/2012 Sale of preferred stock at a loss
                         First Independence Corporation                   3         0.9    12/21/2012 Sale of preferred stock at a loss
                         First Alliance Bancshares, Inc.                  3           1    12/21/2012    Sale of preferred stock at a loss
                         Community Financial Shares, Inc.                 7           4    12/21/2012 Sale of preferred stock at a loss
                         Alliance Financial Services, Inc.               12           3      2/7/2013 Sale of preferred stock at a loss
                                                                                                         Sale of subordinated
                         Biscayne Bancshares, Inc.                        6         0.2      2/8/2013
                                                                                                         debentures at a loss
                         Citizens Bancshares Co.                         25          12      2/8/2013 Sale of preferred stock at a loss
                         Colony Bankcorp, Inc.                           28           6      2/8/2013 Sale of preferred stock at a loss
                         Delmar Bancorp                                   9           3      2/8/2013 Sale of preferred stock at a loss
                         Dickinson Financial Corporation II             146          65      2/8/2013    Sale of preferred stock at a loss
                         F & M Bancshares, Inc.                           4         0.5      2/8/2013 Sale of preferred stock at a loss
                         First Priority Financial Corp.                   5           1      2/8/2013 Sale of preferred stock at a loss
                         HMN Financial, Inc.                             26           7      2/8/2013 Sale of preferred stock at a loss
                         Waukesha Bankshares, Inc.                        6         0.4      2/8/2013 Sale of preferred stock at a loss
                         FC Holdings, Inc.                               21           2     2/20/2013 Sale of preferred stock at a loss
                         First Sound Bank                                 7           4     2/20/2013 Sale of preferred stock at a loss
                                                                                                         Sale of subordinated
                         First Trust Corporation                         18           4     2/20/2013
                                                                                                         debentures at a loss
                         National Bancshares, Inc.                       25           6     2/20/2013 Sale of preferred stock at a loss
                         Ridgestone Financial Services, Inc.             11           2     2/20/2013 Sale of preferred stock at a loss
                         Carolina Bank Holdings, Inc.                    16           1     2/21/2013 Sale of preferred stock at a loss
                         Santa Clara Valley Bank, N.A.                    3         0.4      3/8/2013 Sale of preferred stock at a loss
                         Coastal Banking Company, Inc.                   10         0.4     3/11/2013 Sale of preferred stock at a loss
                         CoastalSouth Bancshares, Inc.                   16           3     3/11/2013 Sale of preferred stock at a loss
                         First Reliance Bancshares, Inc.                 15           5     3/11/2013 Sale of preferred stock at a loss
                         Southcrest Financial Group, Inc.                13           1     3/11/2013 Sale of preferred stock at a loss
                         The Queensborough Company                       12         0.3     3/11/2013 Sale of preferred stock at a loss
                         Old Second Bancorp, Inc.                        73          47     3/27/2013 Sale of preferred stock at a loss
                         Stonebridge Financial Corp.                     11           9     3/27/2013 Sale of preferred stock at a loss
                         Alliance Bancshares, Inc.                        3         0.1     3/28/2013 Sale of preferred stock at a loss
                                                                                                         Sale of subordinated
                         Amfirst Financial Services, Inc                  5         0.2     3/28/2013
                                                                                                         debentures at a loss
                                                                                                                 Continued on next page
                                                                                                                                   quarterly report to congress I July 24, 2013   105




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 6/30/2013                                                        ($ MILLIONS) (CONTINUED)

                                                                                    Realized
                                                                 TARP                Loss or
Institution                                                Investment               Write-Off                     Date      Description
First Southwest Bancorporation, Inc.                                    $6                 $0.5          3/28/2013          Sale of preferred stock at a loss
Flagstar Bancorp, Inc.                                                267                     24         3/28/2013          Sale of preferred stock at a loss
United Community Banks, Inc.                                          180                       7        3/28/2013          Sale of preferred stock at a loss
                                                                                                                            Exchange of preferred stock at
First Security Group, Inc.                                              33                    18         4/11/2013
                                                                                                                            a loss
BancStar, Inc.                                                            9                  0.1         4/26/2013 Sale of preferred stock at a loss
NewBridge Bancorp                                                       52                      1        4/29/2013 Sale of preferred stock at a loss
First Financial Service Corporation                                     20                      9        4/29/2013 Sale of preferred stock at a loss
Guaranty Federal Bancshares, Inc.                                       17                   0.4         4/29/2013 Sale of preferred stock at a loss
Intervest Bancshares Corporation                                        25                      1        6/24/2013 Sale of preferred stock at a loss
First Western Financial, Inc.                                           20                      3        6/24/2013 Sale of preferred stock at a loss
Worthington Financial Holdings, Inc.                                      3                  0.4         6/24/2013 Sale of preferred stock at a loss
Farmers & Merchants Financial
                                                                       0.4                   0.1         6/24/2013 Sale of preferred stock at a loss
Corporation
Metropolitan Bank Group, Inc.                                           82                    49         6/28/2013 Sale of preferred stock at a loss
Total CPP Realized Losses                                                                 $860                                                                        
Write-Offs                                                                                                                   
CIT Group Inc.                                                    $2,330               $2,330          12/10/2009 Bankruptcy
Pacific Coast National Bancorp                                            4                     4        2/11/2010          Bankruptcy
South Financial Group, Inc.a                                          347                   217          9/30/2010          Sale of preferred stock at a loss
TIB Financial Corp      a
                                                                        37                    25         9/30/2010          Sale of preferred stock at a loss
Total CPP Write-Offs                                                                   $2,576                                
Total of CPP Realized Losses and
                                                                                       $3,436                                
Write-Offs
Notes: Numbers may not total due to rounding.
a
  In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
   realized losses.

Sources: Treasury, Transactions Report, 6/28/2013; Treasury, response to SIGTARP data call, 7/5/2013.
106            special inspector general I troubled asset relief program




                                                      Restructurings, Recapitalizations, Exchanges, and Sales of CPP
                                                      Investments
                                                      Certain CPP institutions continue to experience high losses and financial
                                                      difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
                                                      improve the quality of their capital, these institutions may ask Treasury to convert
                                                      its CPP preferred shares into a more junior form of equity or to accept a lower
                                                      valuation, resulting in Treasury taking a discount or loss. If a CPP institution
                                                      is undercapitalized and/or in danger of becoming insolvent, it may propose to
                                                      Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
                                                      private capital) and to “attempt to preserve value” for Treasury’s investment.378
                                                      Treasury may also sell its investment in a troubled institution to a third party at
      Undercapitalized: Condition in which a
                                                      a discount in order to facilitate that party’s acquisition of a troubled institution.
      financial institution does not meet its
                                                      According to Treasury, although it may incur partial losses on its investment in the
      regulator’s requirements for sufficient
                                                      course of these transactions, such an outcome may be deemed necessary to avoid
      capital to operate under a defined level
                                                      the total loss of Treasury’s investment that would occur if the institution failed.379
      of adverse conditions.
                                                          Under these circumstances, the CPP participant asks Treasury for a formal re-
                                                      view of its proposal. The proposal details the institution’s recapitalization plan and
      Due Diligence: Appropriate level of
                                                      may estimate how much capital the institution plans to raise from private investors
      attention or care a reasonable person
                                                      and whether Treasury and other preferred shareholders will convert their preferred
      should take before entering into an
      agreement or a transaction with
                                                      stock to common stock. The proposal may also involve a proposed discount on the
      another party. In finance, it often refers
                                                      conversion to common stock, although Treasury would not realize any loss until it
      to the process of conducting an audit
                                                      disposes of the stock.380 In other words, Treasury would not know whether a loss
      or review of the institution before
                                                      will occur, or the extent of such a loss, until it sells the common stock it receives as
      initiating a transaction.
                                                      part of such an exchange. According to Treasury, when it receives such a request, it
                                                      asks one of the external asset managers that it has hired to analyze the proposal and
                                                      perform due diligence on the institution.381 The external asset manager interviews
                                                      the institution’s managers, gathers non-public information, and conducts loan-loss
                                                      estimates and capital structure analysis. The manager submits its evaluation to
                                                      Treasury, which then decides whether to restructure its CPP investment.382
                                                          Table 2.28 shows all restructurings, recapitalizations, exchanges, and sales of
                                                      CPP investments through June 30, 2013.

                                                      Recent Exchanges and Sales
                                                      ECB Bancorp, Inc. and Crescent Financial Bancshares, Inc.
                                                      On January 16, 2009, Treasury invested $17.9 million in ECB Bancorp, Inc.,
                                                      Raleigh, North Carolina, (“ECB”) through CPP in return for preferred stock and
                                                      warrants.383 On January 9, 2009, Treasury invested $24.9 million in Crescent
                                                      Financial Bancshares, Inc., Raleigh, North Carolina, (“Crescent”) through CPP
                                                      in return for preferred stock and warrants.384 As a result of the acquisition of ECB
                                                      by Crescent, and pursuant to an agreement entered into with Treasury on April 1,
                                                      2013, the preferred stock and warrants issued by ECB were exchanged for a like
                                                      amount of stock and warrants in Crescent.385
                                                                                quarterly report to congress I July 24, 2013   107




Metropolitan Bank Group, Inc.
On June 26, 2009, Treasury invested $71.5 million in Metropolitan Bank Group,
Inc., Chicago, Illinois, (“Metropolitan”) and $6.9 million in NC Bancorp, Inc.,
Chicago, Illinois, (“NC Bancorp”), through CPP in return for preferred stock and
warrants.386 On March 30, 2011, concurrent with the acquisition of NC Bancorp
by Metropolitan, Treasury exchanged its preferred stock in the two institutions
and the right to $3.5 million of unpaid dividends for $81.9 million of a new series
of preferred stock in Metropolitan.387 Then, on June 29, 2013, pursuant to an
agreement entered into on June 26, 2013, between Treasury and MBG Investors
I, L.P., (“MBG”), Treasury sold the entirety of its preferred stock (including the
preferred stock received upon the exercise of warrants) issued by Metropolitan, to
MBG for $26 million.388 The sale resulted in a loss to Treasury of $52.4 million, in
addition to Treasury abandoning $9.5 million in missed dividend payments.

Annapolis Bancorp, Inc.
On January 30, 2009, Treasury invested $8.2 million in Annapolis Bancorp, Inc.,
Annapolis, Maryland, (“Annapolis”), which Annapolis repaid at par on March 6,
2013.389 On April 6, 2013, in connection with a merger between Annapolis and
F.N.B. Corporation, Hermitage, Pennsylvania, (“F.N.B.”), the remaining Annapolis
warrants held by Treasury were exchanged for a like amount of warrants in
F.N.B.390
108          special inspector general I troubled asset relief program




      TABLE 2.28
       TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2013                                 ($ MILLIONS)

                                            Investment       Original      Combined
       Company                                    Date   Investments     Investments                                             Investment Status
       Citigroup Inc.                       10/28/2008       $2,500.0                               Exchanged for common stock/warrants and sold
       Provident Bankshares                 11/14/2008          151.5
                                                                                             Provident preferred stock exchanged for new M&T Bank
       M&T Bank Corporation                 12/23/2008          600.0      $1,081.5a    Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                           redeemed by M&T Bank Corporation; Sold
       Wilmington Trust Corporation         12/12/2008          330.0
       Popular, Inc.                         12/5/2008          935.0                                        Exchanged for trust preferred securities
       First BanCorp                          1/6/2009          400.0                          Exchanged for mandatorily convertible preferred stock
       South Financial Group, Inc.           12/5/2008          347.0                                                                            Sold
       Sterling Financial Corporation        12/5/2008          303.0                                            Exchanged for common stock, Sold
       Whitney Holding Corporation          12/19/2008          300.0                                                                            Sold
       Flagstar Bancorp Inc.                 1/30/2009          267.0                                                          Sold at loss in auction
       Pacific Capital Bancorp              11/21/2008          195.0                                                  Exchanged for common stock
       United Community Banks, Inc.          12/5/2008          180.0                                                          Sold at loss in auction
       Dickinson Financial Corporation II    1/16/2009          146.0                                                          Sold at loss in auction
       Central Pacific Financial Corp.        1/9/2009          135.0                                                  Exchanged for common stock
       Banner Corporation                   11/21/2008          124.0                                                          Sold at loss in auction
       BBCN Bancorp, Inc.                   11/21/2008           67.0                                    Exchanged for a like amount of securities of
                                                                              122.0d
       Center Financial Corporation         12/12/2008           55.0                                                           BBCN Bancorp, Inc.

       First Merchants                       2/20/2009          116.0                    Exchanged for trust preferred securities and preferred stock
       Taylor Capital Group                 11/21/2008          104.8                                                          Sold at loss in auction
       Metropolitan Bank Group Inc.          6/26/2009           71.5                        Exchanged for new preferred stock in Metropolitan Bank
                                                                               81.9b 
       NC Bancorp, Inc.                      6/26/2009            6.9                                              Group, Inc. and later sold at loss

       Hampton Roads Bankshares             12/31/2008           80.3                                                  Exchanged for common stock
       Old Second Bancorp, Inc.              1/16/2009           73.0                                                          Sold at loss in auction
       Green Bankshares                     12/23/2008           72.3                                                                            Sold
       Independent Bank Corporation         12/12/2008           72.0                          Exchanged for mandatorily convertible preferred stock
       Alpine Banks of Colorado              3/27/2009           70.0                                                          Sold at loss in auction
       Superior Bancorp, Inc.c               12/5/2008           69.0                                        Exchanged for trust preferred securities
       First Financial Holdings Inc.         12/5/2008           65.0                                                          Sold at loss in auction
       Wilshire Bancorp, Inc.               12/12/2008           62.2                                                          Sold at loss in auction
                                                                                                                   Exchanged for common stock and
       Standard Bancshares Inc.              4/24/2009           60.0               
                                                                                                                     securities purchase agreements
       MainSource Financial Group, Inc.      1/16/2009           57.0                                                          Sold at loss in auction
       WSFS Financial Corporation            1/23/2009           52.6                                                          Sold at loss in auction
       NewBridge Bancorp                    12/12/2008           52.4                                                          Sold at loss in auction
       Ameris Bancorp                       11/21/2008           52.0                                                          Sold at loss in auction
       Seacoast Banking Corporation of
                                            12/19/2008           50.0                                                          Sold at loss in auction
       Florida
       Fidelity Southern Corporation        12/19/2008           48.2                                                          Sold at loss in auction
       MetroCorp Bancshares, Inc.            1/16/2009           45.0                                                          Sold at loss in auction
       Cadence Financial Corporation          1/9/2009           44.0                                                          Sold at loss in auction
       Exchange Bank                        12/19/2008           43.0                                                          Sold at loss in auction
                                                                                                                             Continued on next page
                                                                                quarterly report to congress I July 24, 2013             109




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2013                       ($ MILLIONS) (CONTINUED)

                                      Investment       Original     Combined
Company                                     Date   Investments    Investments                                    Investment Status
Crescent Financial Bancshares, Inc.     1/9/2009         $24.9                           Exchanged for a like amount of securities of
                                                                       $42.8e
ECB Bancorp, Inc.                      1/16/2009          17.9                                  Crescent Financial Bancshares, Inc.

PremierWest Bancorp                    2/13/2009          41.4                                                                   Sold
Capital Bank Corporation              12/12/2008          41.3                                                                   Sold
Cascade Financial Corporation         11/21/2008          39.0                                                 Sold at loss in auction
TIB Financial Corp.                    12/5/2008          37.0                                                                   Sold
First Defiance Financial Corp.         12/5/2008          37.0                                                 Sold at loss in auction
Fidelity Financial Corporation        12/19/2008          36.3                                                 Sold at loss in auction
Marquette National Corporation        12/19/2008          35.5                                                 Sold at loss in auction
Trinity Capital Corporation            3/27/2009          35.5                                                 Sold at loss in auction
Firstbank Corporation                  1/30/2009          33.0                                                 Sold at loss in auction
First Security Group, Inc.              1/9/2009          33.0                                                                   Sold
Pulaski Financial Corp                 1/16/2009          32.5                                                 Sold at loss in auction
BNC Bancorp                            12/5/2008          31.3                                                 Sold at loss in auction
Farmers Capital Bank Corporation        1/9/2009          30.0                                                 Sold at loss in auction
Colony Bankcorp, Inc.                   1/9/2009          28.0                                                 Sold at loss in auction
HMN Financial, Inc                    12/23/2008          26.0                                                 Sold at loss in auction
LNB Bancorp Inc.                      12/12/2008          25.2                                                 Sold at loss in auction
Peoples Bancorp of North
                                      12/23/2008          25.1                                                 Sold at loss in auction
Carolina, Inc.
Citizens Bancshares Co.                5/29/2009          25.0                                                 Sold at loss in auction
Intervest Bancshares Corporation      12/23/2008          25.0                                                 Sold at loss in auction
National Bancshares, Inc.              2/27/2009          24.7                                                 Sold at loss in auction
CBS Banc-Corp                          3/27/2009          24.3                                                 Sold at loss in auction
First Citizens Banc Corp               1/23/2009          23.2                                                 Sold at loss in auction
Park Bancorporation, Inc.               3/6/2009          23.2                                                 Sold at loss in auction
Premier Financial Bancorp, Inc.        10/2/2009          22.3                                                 Sold at loss in auction
Central Community Corporation          2/20/2009          22.0                                                 Sold at loss in auction
First Community Financial
                                      12/11/2009          22.0                                                 Sold at loss in auction
Partners, Inc.
FC Holdings, Inc.                      6/26/2009          21.0                                                 Sold at loss in auction
The Baraboo Bancorporation, Inc.       1/16/2009          20.7                                                 Sold at loss in auction
United Bancorp, Inc.                   1/16/2009          20.6                                                 Sold at loss in auction
Diamond Bancorp, Inc.                  5/22/2009          20.4                                                 Sold at loss in auction
Commonwealth Bancshares, Inc.          5/22/2009          20.4                                                 Sold at loss in auction
First Western Financial, Inc.           2/6/2009          20.4                                                 Sold at loss in auction
Market Street Bancshares, Inc.         5/15/2009          20.3                                                 Sold at loss in auction
First Financial Service Corporation     1/9/2009          20.0                                                 Sold at loss in auction
First Trust Corporation                 6/5/2009          18.0                                                 Sold at loss in auction
Southern First Bancshares, Inc.        2/27/2009          17.3                                                 Sold at loss in auction
F&M Financial Corporation (TN)         2/13/2009          17.2                                                 Sold at loss in auction
                                                                                                             Continued on next page
110         special inspector general I troubled asset relief program




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2013   ($ MILLIONS) (CONTINUED)

                                            Investment       Original     Combined
      Company                                     Date   Investments    Investments               Investment Status
      F & M Financial Corporation (NC)        2/6/2009         $17.0                           Sold at loss in auction
      Guaranty Federal Bancshares, Inc.      1/30/2009          17.0                           Sold at loss in auction
      Timberland Bancorp Inc.               12/23/2008          16.6                           Sold at loss in auction
      First Federal Bankshares of
                                              3/6/2009          16.5                                               Sold
      Arkansas, Inc.
      Parke Bancorp Inc.                     1/30/2009          16.3                           Sold at loss in auction
      Carolina Bank Holdings, Inc.            1/9/2009          16.0                           Sold at loss in auction
      CoastalSouth Bancshares, Inc.          8/28/2009          16.0                           Sold at loss in auction
      Community West Bancshares             12/19/2008          15.6                           Sold at loss in auction
      First Reliance Bancshares, Inc          3/6/2009          15.3                           Sold at loss in auction
      Broadway Financial Corporation        11/14/2008          15.0                    Exchanged for common stock
      First Community Bancshares, Inc        5/15/2009          14.8                                               Sold
      First National Corporation             3/13/2009          13.9                           Sold at loss in auction
      Yadkin Valley Financial Corporation    7/24/2009          13.3                           Sold at loss in auction
      SouthCrest Financial Group, Inc.       7/17/2009          12.9                                                  
      Alliance Financial Services Inc.       6/26/2009          12.0                           Sold at loss in auction
      Farmers Enterprises, Inc.              6/19/2009          12.0                           Sold at loss in auction
      The Queensborough Company               1/9/2009          12.0                           Sold at loss in auction
      Plumas Bancorp                         1/30/2009          11.9                                  Sold at auction
      First Community Corporation           11/21/2008          11.4                           Sold at loss in auction
      Western Illinois Bancshares, Inc.     12/23/2008          11.4                           Sold at loss in auction
      First Capital Bancorp, Inc.             4/3/2009          11.0                           Sold at loss in auction
      Mackinac Financial Corporation         4/24/2009          11.0                           Sold at loss in auction
      Ridgestone Financial Services, Inc.    2/27/2009          11.0                           Sold at loss in auction
      First Community Bank Corporation
                                            12/23/2008          11.0                                               Sold
      of America
      Stonebridge Financial Corp.            1/23/2009          11.0                           Sold at loss in auction
      Security State Bank Holding
                                              5/1/2009          10.8                                  Sold at auction
      Company
      Presidio Bank                         11/20/2009          10.8                           Sold at loss in auction
      Northwest Bancorporation, Inc.         2/13/2009          10.5                                  Sold at auction
      Blackhawk Bancorp, Inc.                3/13/2009          10.0                           Sold at loss in auction
      Century Financial Services
                                             6/19/2009          10.0                           Sold at loss in auction
      Corporation
      HomeTown Bankshares Corporation        9/18/2009          10.0                           Sold at loss in auction
      Coastal Banking Company, Inc.          12/5/2008          10.0                           Sold at loss in auction
      Delmar Bancorp                         12/4/2009           9.0                           Sold at loss in auction
      First Freedom Bancshares, Inc.        12/22/2009           8.7                           Sold at loss in auction
      BancStar, Inc.                          4/3/2009           8.6                           Sold at loss in auction
      First Western Financial, Inc.           2/6/2009           8.6                           Sold at loss in auction
      Metro City Bank                        1/30/2009           7.7                           Sold at loss in auction
                                                                                              Continued on next page
                                                                                 quarterly report to congress I July 24, 2013            111




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2013                        ($ MILLIONS) (CONTINUED)

                                       Investment       Original     Combined
Company                                      Date   Investments    Investments                                   Investment Status
Oak Ridge Financial Services, Inc.      1/30/2009          $7.7                                                Sold at loss in auction
First Gothenburg Bancshares, Inc.       2/27/2009           7.6                                                Sold at loss in auction
Country Bank Shares, Inc.               1/30/2009           7.5                                                Sold at loss in auction
The Little Bank, Incorporated          12/23/2009           7.5                                                Sold at loss in auction
First Sound Bank                       12/23/2008           7.4                                                                   Sold
FFW Corporation                        12/19/2008           7.3                                                Sold at loss in auction
Millennium Bancorp, Inc.                 4/3/2009           7.3                                                                   Sold
Central Federal Corporation             12/5/2008           7.2                                                                   Sold
Community Financial Shares, Inc.        5/15/2009           7.0                                                                   Sold
TriSummit Bank                           4/3/2009           7.0                                                Sold at loss in auction
Biscayne Bancshares, Inc.               6/19/2009           6.4                                                Sold at loss in auction
Three Shores Bancorporation, Inc.       1/23/2009           5.7                                                Sold at loss in auction
Boscobel Bancorp Inc.                   5/15/2009           5.6                                                       Sold at auction
Waukesha Bankshares, Inc.               6/26/2009           5.6                                                Sold at loss in auction
First Southwest Bancorporation, Inc.     3/6/2009           5.5                                                Sold at loss in auction
Franklin Bancorp, Inc.                  5/22/2009           5.1                                                Sold at loss in auction
AmFirst Financial Services, Inc.        8/21/2009           5.0                                                Sold at loss in auction
Germantown Capital Corporation           3/6/2009           5.0                                                Sold at loss in auction
Alaska Pacific Bancshares Inc.           2/6/2009           4.8                                                Sold at loss in auction
First Priority Financial Corp.         12/18/2009           4.6                                                Sold at loss in auction
CBB Bancorp                            12/20/2009           4.4                                                Sold at loss in auction
Pinnacle Bank Holding Company, Inc.      3/6/2009           4.4                                                Sold at loss in auction
Bank of Southern California, N.A.       4/10/2009           4.2                                                Sold at loss in auction
Bank of Currituck                        2/6/2009           4.0                                                                   Sold
Carolina Trust Bank                      2/6/2009           4.0                                                Sold at loss in auction
Santa Lucia Bancorp                    12/19/2008           4.0                                                                   Sold
Capital Pacific Bancorp                12/23/2008           4.0                                                Sold at loss in auction
Community Business Bank                 2/27/2009           4.0                                                Sold at loss in auction
KS Bancorp Inc.                         8/21/2009           4.0                                                Sold at loss in auction
Naples Bancorp, Inc.                    3/27/2009           4.0                                                                   Sold
Peoples of Bancshares of TN, Inc.       3/20/2009           3.9                                                Sold at loss in auction
Pathway Bancorp                         3/27/2009           3.7                                                       Sold at auction
F & M Bancshares, Inc.                  11/6/2009           3.5                                                Sold at loss in auction
First Alliance Bancshares, Inc.         6/26/2009           3.4                                                Sold at loss in auction
Congaree Bancshares, Inc.                1/9/2009           3.3                                                Sold at loss in auction
Treaty Oak Bancorp, Inc.                1/16/2009           3.3                                                                   Sold
First Independence Corporation          8/28/2009           3.2                                                Sold at loss in auction
Sound Banking Co.                        1/9/2009           3.1                                                Sold at loss in auction
Alliance Bancshares, Inc.               6/26/2009           3.0                                                Sold at loss in auction
Bank of Commerce                        1/16/2009           3.0                                                Sold at loss in auction
                                                                                                             Continued on next page
112           special inspector general I troubled asset relief program




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2013                                                                                   ($ MILLIONS) (CONTINUED)

                                                             Investment              Original           Combined
      Company                                                      Date          Investments          Investments                                                                     Investment Status
      Clover Community Bankshares, Inc.                      3/27/2009                      $3.0                                                                                   Sold at loss in auction
      F & C Bancorp. Inc.                                    5/22/2009                        3.0                                                                                  Sold at loss in auction
      FBHC Holding Company                                  12/29/2009                        3.0                                                                                                          Sold
      Fidelity Resources Company                             6/26/2009                        3.0                                               Exchanged for preferred stock in Veritex Holding
      Layton Park Financial Group, Inc.                     12/18/2009                        3.0                                                                                  Sold at loss in auction
      Tennessee Valley Financial Holdings,
                                                            12/23/2008                        3.0                                                                                            Sold at auction
      Inc.
      Berkshire Bancorp                                      6/12/2009                        2.9                                        Exchanged for preferred stock in Customers Bancorp
      Santa Clara Valley Bank, N.A.                          2/13/2009                        2.9                                                                                  Sold at loss in auction
      Worthington Financial Holdings, Inc.                   5/15/2009                        2.7                                                                                  Sold at loss in auction
      Community Investors Bancorp, Inc.                     12/23/2008                        2.6                                                                                  Sold at loss in auction
      Manhattan Bancshares, Inc.                             6/19/2009                        2.6                                                                                  Sold at loss in auction
      Plato Holdings Inc.                                    7/17/2009                        2.5                                                                                  Sold at loss in auction
      Brogan Bankshares, Inc.                                5/15/2009                        2.4                                                                                            Sold at auction
      CenterBank                                               5/1/2009                       2.3                                                                                  Sold at loss in auction
      Security Bancshares of Pulaski
                                                             2/13/2009                        2.2                                                                                  Sold at loss in auction
      County, Inc.
      Hometown Bancshares, Inc.                              2/13/2009                        1.9                                                                                  Sold at loss in auction
      Hyperion Bank                                            2/6/2009                       1.6                                                                                  Sold at loss in auction
      Regional Bankshares Inc.                               2/13/2009                        1.5                                                                                  Sold at loss in auction
      First Advantage Bancshares, Inc.                       5/22/2009                        1.2                                                                                  Sold at loss in auction
      Community Bancshares of MS                               2/6/2009                       1.1                                                                                  Sold at loss in auction
      BankGreenville Financial Corp.                         2/13/2009                        1.0                                                                                  Sold at loss in auction
      Bank Financial Services, Inc.                          8/14/2009                        1.0                                                                                  Sold at loss in auction
      Corning Savings and Loan
                                                             2/13/2009                        0.6                                                                                  Sold at loss in auction
      Association
      Farmers & Merchants Financial
                                                             3/20/2009                        0.4                                                                                  Sold at loss in auction
      Corporation
      Notes: Numbers may be affected due to rounding.
      a
        M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid Treasury’s original
         $600 million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
      b
            The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. of $71.5 million plus the original investment amount in NC Bank Group, Inc. of
             $6.9 million plus unpaid dividends of $3.5 million.
      c
         The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
      d
           The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
            Corporation of $55 million.
      e
          The new investment amount of $42.8 million includes the original investment amount in Crescent Financial Bancshares, Inc. (formely Crescent Financial Corporation) of $24.9 million and the original
           investment of ECB Bancorp, Inc. of $17.9 million.

      Source: Treasury, Transactions Report, 6/28/2013.
                                                                               quarterly report to congress I July 24, 2013        113




Treasury’s Sale of TARP Preferred Stock Investments at Auction
Overview of CPP Preferred Stock Auctions
From March 2012 through June 30, 2013, Treasury has held 17 sets of auctions
in which it has sold all of its preferred stock investments in 134 CPP banks.391 For
publicly traded banks, Treasury auctioned the shares through a placement agent
and the shares were available for purchase by the general public. For private banks,
Treasury auctioned the shares directly and the auctions were accessible only to
qualified purchasers. The preferred stock for all but seven of the banks sold at a
discounted price and resulted in losses to Treasury.392 In the 17 auction sets, the
range of discount on the investments was 1% to 83%.393 Treasury lost a total of
$486.9 million in the auctions.394 More than a quarter of the banks, 36, bought
back some of their shares at the discounted price.395 In two sets of auctions this
quarter, Treasury sold all of its TARP preferred investment in 13 banks and the
remainder of its investment from a previous auction in an additional bank.396
    When Treasury sells all of its preferred shares of a CPP bank, it forfeits the
right to collect missed dividends and interest payments from the bank. Of the               On October 9, 2012, SIGTARP made
134 banks in which Treasury sold its stock through this auction process, 34 were            three recommendations regarding
overdue on payments to Treasury.397 The $97.9 million owed to Treasury for missed           CPP preferred stock auctions, which
payments by these 34 banks will never be recovered.398                                      are discussed in detail in SIGTARP’s
    Table 2.29 shows details for the auctions of preferred stock in CPP banks               October 2012 Quarterly Report, pages
through June 30, 2013.                                                                      180-183.
114              special inspector general I troubled asset relief program




  TABLE 2.29
      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2013
                                                                                                                     Percentage
                                                                                                                       of Shares
                                              Auction                             Net                    Discount   Repurchased           Missed
      Institution                               Date     Investment          Proceeds   Auction Loss   Percentage   by Institution     Dividends
      Stonebridge Financial Corp.           3/15/2013   $10,973,000     $1,879,145       $9,093,855          83%                     $1,794,180
      Old Second Bancorp, Inc.    a
                                             3/1/2013    73,000,000     25,547,320       47,452,680          65%                      9,125,000
      First Priority Financial Corp.        1/29/2013     9,175,000      4,012,094        5,162,906          56%                 
      Citizens Bancshares Co.               1/29/2013    24,990,000     12,679,301       12,310,699          49%                      4,086,000
      First Financial Service
                                            4/29/2013    20,000,000     10,733,778        9,266,222          46%                      2,500,000
      Corporation
      Dickinson Financial Corporation II    1/29/2013   146,053,000     79,903,245       66,149,755          45%                     27,859,720
      Delmar Bancorp                        1/29/2013     9,000,000      5,453,900        3,546,100          39%                        613,125
      Franklin Bancorp, Inc.                11/9/2012     5,097,000      3,191,614        1,905,386          37%
      Hyperion Bank                        12/20/2012     1,552,000           983,800       568,200          37%
      First Community Financial
                                            9/12/2012    22,000,000     14,211,450        7,788,550          35%
      Partners, Inc.b
      The Baraboo Bancorporation,
                                           12/11/2012    20,749,000     13,399,227        7,349,773          35%                        565,390
      Inc.
      First Reliance Bancshares, Inc.        3/1/2013    15,349,000     10,327,021        5,021,979          33%                      1,254,720
      Security Bancshares of Pulaski
                                           12/11/2012     2,152,000      1,475,592          676,408          31%
      County, Inc.
      First Alliance Bancshares, Inc.      12/20/2012     3,422,000      2,370,742        1,051,258          31%                          93,245
      Marquette National Corporation        7/27/2012    35,500,000     25,313,186       10,186,814          29%             31%
      Parke Bancorp, Inc.                  11/30/2012    16,288,000     11,595,735        4,692,265          29%
      First Independence Corporation       12/20/2012     3,223,000      2,286,675          936,325          29%
      HMN Financial, Inc.                   1/29/2013    26,000,000     18,571,410        7,428,590          29%                      2,600,000
      Farmers Capital Bank
                                            6/13/2012    30,000,000     21,594,229        8,405,771          28%
      Corporation
      Park Bancorporation, Inc.             7/27/2012    23,200,000     16,772,382        6,427,618          28%             30%
      Diamond Bancorp, Inc.                 7/27/2012    20,445,000     14,780,662        5,664,338          28%
      Community West Bancshares            12/11/2012    15,600,000     11,181,456        4,418,544          28%                        585,000
      Commonwealth Bancshares, Inc.         7/27/2012    20,400,000     15,147,000        5,253,000          26%             26%
      Trinity Capital Corporation           7/27/2012    35,539,000     26,396,503        9,142,497          26%
      TriSummit Bank                       11/30/2012     7,002,000      5,198,984        1,803,016          26%
      Alliance Financial Services, Inc.     1/29/2013    12,000,000      8,912,495        3,087,505          26%                      3,020,400
      National Bancshares, Inc.              2/7/2013    24,664,000     18,318,148        6,345,852          26%                      3,024,383
      Blue Ridge Bancshares, Inc.          10/31/2012    12,000,000      8,969,400        3,030,600          25%
      Peoples Bancshares of TN, Inc.       10/31/2012     3,900,000      2,919,500          980,500          25%
      First Trust Corporation                2/7/2013    17,969,000     13,612,558        4,356,442          24%                 
      Colony Bankcorp, Inc.                 1/29/2013    28,000,000     21,680,089        6,319,911          23%                      1,400,000
                                                                                                                           Continued on next page
                                                                                  quarterly report to congress I July 24, 2013             115




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2013                   (CONTINUED)

                                                                                                           Percentage
                                                                                                             of Shares
                                       Auction                        Net                     Discount    Repurchased           Missed
Institution                              Date     Investment     Proceeds    Auction Loss   Percentage    by Institution     Dividends
F&M Financial Corporation (TN)       9/12/2012   $17,243,000   $13,443,074    $3,799,926            22%
Layton Park Financial Group, Inc.   11/30/2012     3,000,000     2,345,930       654,070            22%
CoastalSouth Bancshares, Inc.         3/1/2013    16,015,000    12,606,191     3,408,809            21%                     $1,687,900
Seacoast Banking Corporation
                                     3/28/2012    50,000,000    40,404,700     9,595,300            19%
of Florida
United Bancorp, Inc.                 6/13/2012    20,600,000    16,750,221     3,849,780            19%
Alpine Banks of Colorado             9/12/2012    70,000,000    56,430,297    13,569,703            19%
CenterBank                          10/31/2012     2,250,000     1,831,250       418,750            19%
Ridgestone Financial Services,
                                      2/7/2013    10,900,000     8,876,677     2,023,323            19%                      2,079,175
Inc.
Congaree Bancshares Inc.            10/31/2012     3,285,000     2,685,979       599,021            18%            35%
Corning Savings and Loan
                                    11/30/2012      638,000       523,680        114,320            18%
Association
KS Bancorp, Inc.                    11/30/2012     4,000,000     3,283,000       717,000            18%
Bank of Commerce                    11/30/2012     3,000,000     2,477,000       523,000            17%                          122,625
First Western Financial, Inc.c       7/27/2012    20,440,000    17,022,298     3,417,702            17%
Carolina Trust Bank                 11/30/2012     4,000,000     3,362,000       638,000            16%                          150,000
Presidio Bank                       12/11/2012    10,800,000     9,058,369     1,741,631            16%
Santa Clara Valley Bank, N.A.         3/1/2013     2,900,000     2,440,379       459,621            16%                          474,150
Timberland Bancorp, Inc.             11/9/2012    16,641,000    14,209,334     2,431,666            15%
Worthington Financial Holdings,
                                     6/24/2013     2,720,000     2,318,851       401,149            15%                          222,360
Inc.
First Financial Holdings Inc.        3/28/2012    65,000,000    55,926,478     9,073,522            14%
Clover Community Bankshares,
                                    11/30/2012     3,000,000     2,593,700       406,300            14%
Inc.
Banner Corporation                   3/28/2012   124,000,000   108,071,915    15,928,085            13%
LNB Bancorp Inc.                     6/13/2012    25,223,000    21,863,750     3,359,251            13%
Pulaski Financial Corp               6/27/2012    32,538,000    28,460,338     4,077,662            13%
Exchange Bank                        7/27/2012    43,000,000    37,259,393     5,740,608            13%            47%
First National Corporation           8/23/2012    13,900,000    12,082,749     1,817,251            13%
Taylor Capital Group                 6/13/2012   104,823,000    92,254,460    12,568,540            12%
First Western Financial, Inc.        6/24/2013    12,400,000    10,884,298     1,515,702            12%                                
Fidelity Financial Corporation       7/27/2012    36,282,000    32,013,328     4,268,672            12%            58%
Yadkin Valley Financial
                                     9/12/2012    49,312,000    43,486,820     5,825,180            12%
Corporationd
Three Shores Bancorporation,
                                     11/9/2012     5,677,000     4,992,788       684,212            12%
Inc.
Alaska Pacific Bancshares, Inc.     11/30/2012     4,781,000     4,217,568       563,432            12%
                                                                                                                 Continued on next page
116             special inspector general I troubled asset relief program




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2013                       (CONTINUED)

                                                                                                                     Percentage
                                                                                                                       of Shares
                                             Auction                             Net                    Discount    Repurchased           Missed
      Institution                              Date     Investment          Proceeds   Auction Loss   Percentage    by Institution     Dividends
      FC Holdings, Inc.                     2/7/2013   $21,042,000    $18,685,927       $2,356,073            11%                    $4,013,730
      Fidelity Southern Corporation        6/27/2012    48,200,000     42,757,786        5,442,214            11%
      Southern First Bancshares, Inc.      6/27/2012    17,299,000     15,403,722        1,895,278            11%              6%
      First Citizens Banc Corp             6/27/2012    23,184,000     20,689,633        2,494,367            11%
      Market Street Bancshares, Inc.       7/27/2012    20,300,000     18,069,213        2,230,787            11%            89%
      Premier Financial Bancorp, Inc.      7/27/2012    22,252,000     19,849,222        2,402,778            11%            46%
      Metro City Bank                     10/31/2012     7,700,000      6,861,462          838,538            11%            15%
      BankGreenville Financial
                                           11/9/2012     1,000,000           891,000       109,000            11%
      Corporation
      FFW Corporation                     11/30/2012     7,289,000      6,515,426          773,574            11%
      First Advantage Bancshares, Inc.    12/11/2012     1,177,000      1,046,621          130,379            11%
      First Southwest Bancorporation,
                                           3/15/2013     5,500,000      4,900,609          599,391            11%                       974,188
      Inc.
      SouthCrest Financial Group, Inc.      3/1/2013    12,900,000     11,587,256        1,312,744            10%                     1,581,863
      WSFS Financial Corporation           3/28/2012    52,625,000     47,435,299        5,189,701            10%
      CBS Banc-Corp.                       7/27/2012    24,300,000     21,776,396        2,523,604            10%            95%
      First Gothenburg Banschares,
                                          10/31/2012     7,570,000      6,822,136          747,864            10%
      Inc.
      Blackhawk Bancorp Inc.              10/31/2012    10,000,000      9,009,000          991,000            10%
      Bank Financial Services, Inc.       12/20/2012     1,004,000           907,937        96,063            10%
      Flagstar Bancorp, Inc.               3/15/2013   266,657,000   240,627,277        26,029,723            10%                    16,666,063
      First Capital Bancorp, Inc.          6/13/2012    10,958,000      9,931,327        1,026,673            9%             50%
      BNC Bancorp                          8/23/2012    31,260,000     28,365,685        2,894,315            9%
      Germantown Capital Corporation,
                                          10/31/2012     4,967,000      4,495,616          471,384            9%             25%
      Inc.
      Oak Ridge Financial Services,
                                          10/31/2012     7,700,000      7,024,595          675,405            9%
      Inc.
      HomeTown Bankshares
                                          10/31/2012    10,000,000      9,093,150          906,850            9%
      Corporation
      First Freedom Bancshares, Inc.       11/9/2012     8,700,000      7,945,492          754,508            9%             69%
      Sound Banking Company                11/9/2012     3,070,000      2,804,089          265,911            9%
      Country Bank Shares, Inc.           11/30/2012     7,525,000      6,838,126          686,874            9%
      Bank of Southern California, N.A.   12/20/2012     4,243,000      3,850,150          392,850            9%             30%
      Farmers & Merchants Financial
                                           6/24/2013       442,000           400,425        41,575            9%                 
      Corporation
      Waukesha Bankshares, Inc.            1/29/2013     5,625,000      5,161,674          463,326            8%                 
      MainSource Financial Group, Inc.     3/28/2012    57,000,000     52,277,171        4,722,829            8%             37%
      Ameris Bancorp                       6/13/2012    52,000,000     47,665,332        4,334,668            8%
                                                                                                                           Continued on next page
                                                                                  quarterly report to congress I July 24, 2013            117




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2013                   (CONTINUED)

                                                                                                           Percentage
                                                                                                             of Shares
                                       Auction                        Net                     Discount    Repurchased           Missed
Institution                              Date     Investment     Proceeds    Auction Loss   Percentage    by Institution     Dividends
Peoples Bancorp of North
                                     6/27/2012   $25,054,000   $23,033,635    $2,020,365             8%            50%
Carolina, Inc.
Regional Bankshares, Inc.            11/9/2012     1,500,000     1,373,625       126,375             8%            47%
CBB Bancorp                         11/30/2012     4,397,000     4,066,752       330,248             8%            35%
Central Community Corporation       12/11/2012    22,000,000    20,172,636     1,827,364             8%
Carolina Bank Holdings, Inc.          2/7/2013    16,000,000    14,811,984     1,188,016             7%                
Wilshire Bancorp, Inc.               3/28/2012    62,158,000    57,766,994     4,391,006             7%            97%
Firstbank Corporation                6/27/2012    33,000,000    30,587,530     2,412,470             7%            48%
Capital Pacific Bancorp              11/9/2012     4,000,000     3,715,906       284,094             7%
Western Illinois Bancshares, Inc.    11/9/2012    11,422,000    10,616,305       805,695             7%            89%
Community Bancshares of
                                    11/30/2012     1,050,000      977,750         72,250             7%            52%
Mississippi, Inc.
Community Business Bank             11/30/2012     3,976,000     3,692,560       283,440             7%
Hometown Bancshares, Inc.           11/30/2012     1,900,000     1,766,510       133,490             7%            39%
F & M Bancshares, Inc.               1/29/2013     8,144,000     7,598,963       545,037             7%                
Mackinac Financial Corporation       8/23/2012    11,000,000    10,380,905       619,095             6%
F & M Financial Corporation (NC)     9/12/2012    17,000,000    15,988,500     1,011,500             6%            84%
Community Investors Bancorp,
                                    12/20/2012     2,600,000     2,445,000       155,000             6%            54%
Inc.
Coastal Banking Company, Inc.         3/1/2013     9,950,000     9,408,213       541,787             5%                      $746,250
First Defiance Financial Corp.       6/13/2012    37,000,000    35,084,144     1,915,856             5%            45%
F&C Bancorp, Inc.                    11/9/2012     2,993,000     2,840,903       152,097             5%
Farmers Enterprises, Inc.            11/9/2012    12,000,000    11,439,252       560,748             5%            99%
Alliance Bancshares, Inc.            3/15/2013     2,986,000     2,831,437       154,563             5%                
AmFirst Financial Services, Inc.     3/15/2013     5,000,000     4,752,000       248,000             5%                
United Community Banks, Inc.         3/15/2013   180,000,000   171,517,500     8,482,500             5%                
Biscayne Bancshares, Inc.            1/29/2013     6,400,000     6,170,630       229,370             4%            53%
Guaranty Federal Bancshares,
                                     4/29/2013    12,000,000    11,493,900       506,100             4%                               
Inc. e
Intervest Bancshares Corporation     6/24/2013    25,000,000    24,007,500       992,500             4%             25%
NewBridge Bancorp                    4/29/2013    52,372,000    50,837,239     1,534,761             3%                               
BancStar, Inc.                       4/29/2013     8,600,000     8,366,452       233,548             3%             12%               
The Queensborough Company             3/1/2013    12,000,000    11,605,572       394,428             3%                      1,798,500
MetroCorp Bancshares, Inc.           6/27/2012    45,000,000    43,490,360     1,509,640             3%            97%
First Community Corporation          8/23/2012    11,350,000    10,987,794       362,206             3%            33%
The Little Bank, Incorporated       10/31/2012     7,500,000     7,285,410       214,590             3%            63%
Manhattan Bancshares, Inc.          12/11/2012     2,639,000     2,560,541        78,459             3%            96%
                                                                                                                 Continued on next page
118                 special inspector general I troubled asset relief program




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 6/30/2013                                                                          (CONTINUED)

                                                                                                                                                                                   Percentage
                                                                                                                                                                                     of Shares
                                                                Auction                                          Net                                          Discount            Repurchased                      Missed
      Institution                                                 Date            Investment                Proceeds               Auction Loss             Percentage            by Institution                Dividends
      Century Financial Services
                                                          12/20/2012            $10,000,000              $9,751,500                     $248,500                          2%
      Corporation
      Plato Holdings Inc.                                  4/29/2013                2,500,000              2,478,750                        21,250                        1%                                    $207,266
      Tennessee Valley Financial
                                                           4/29/2013                3,000,000              3,041,330                      (41,330)                      (1%)                                      531,375
      Holdings, Inc
      Northwest Bancorporation, Inc.                         3/1/2013             10,500,000             10,728,783                     (228,783)                       (2%)                                   1,716,750
      Brogan Bankshares, Inc.                              4/29/2013                2,400,000              2,495,024                      (95,024)                      (4%)                                      352,380
      Plumas Bancorp                                       4/29/2013              11,949,000             12,907,297                     (958,297)                       (8%)                    59%            1,792,350
      Boscobel Bancorp, Inc.                                 3/1/2013               5,586,000              6,116,943                    (530,943)                     (10%)                                    1,288,716
      Security State Bank Holding
                                                           6/24/2013              10,750,000             12,409,261                   (1,659,261)                     (15%)                                    2,254,985
      Company
      Pathway Bancorp                                      6/24/2013                3,727,000              4,324,446                    (597,446)                     (16%)                                       761,588
      Total Auction Losses                                                                                                      $486,885,440
      Total Missed Dividends                                                                                                                                                                              $97,943,375
      Notes: Numbers may not total due to rounding.
      a
        Treasury sold 70,028 of its shares in Old Second in the 3/1/2013 auction and the remaining 2,972 shares in the 3/15/2013 auction.
      b
           Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the auction that closed on
            9/12/2012, and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
      c
         Treasury sold 8,000 of its shares in First Western Financial, Inc. on 7/27/2012 and the remaining 12,440 in the 6/24/2013 auction.
      d
           This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.
      e
          The original investment in Guaranty Federal Bancshares, Inc. was $17 million. The bank had previously paid down $5 million, leaving a $12 million investment remaining.

      Sources: Treasury, Transactions Report, 6/28/2013; SNL Financial LLC data.
                                                                                 quarterly report to congress I July 24, 2013            119




CPP Banks Refinancing into CDCI and SBLF                                                      For information on TARP banks that
On October 21, 2009, the Administration announced the Community                               refinanced into SBLF, see SIGTARP’s
Development Capital Initiative (“CDCI”) as another TARP-funded program.399                    April 9, 2013, audit report, “Banks that
                                                                                              Used the Small Business Lending Fund
Under CDCI, TARP made $570.1 million in investments in 84 eligible banks and
                                                                                              to Exit TARP.”
credit unions.400 Qualifying CPP banks applied for the new TARP program, and 28
banks were accepted. The 28 banks refinanced $355.7 million in CPP investments
                                                                                              For SIGTARP’s recommendations to
into CDCI.401 For more information on CDCI, see “Community Development                        Treasury about applying SBLF to TARP
Capital Initiative” in this section.                                                          recipients, see SIGTARP’s January 2011
     On September 27, 2010, the President signed into law the Small Business Jobs             Quarterly Report, pages 185-192.
Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury
to make up to $30 billion in capital investments in institutions with less than $10           For a detailed list of CPP banks that
billion in total assets.402 According to Treasury, it received a total of 935 SBLF            refinanced into SBLF, see SIGTARP’s
applications, of which 320 were TARP recipients under CPP (315) or CDCI (5).403               October 2012 Quarterly Report, pages
Treasury accepted 137 CPP participants into SBLF with financing of $2.7 billion.              88-92.
The 137 banks in turn refinanced $2.2 billion of Treasury’s TARP preferred stock
                                                                                              For a discussion of the impact of TARP
with the SBLF investments.404 None of the CDCI recipients were approved for
                                                                                              and SBLF on community banks, see
participation.
                                                                                              SIGTARP’s April 2012 Quarterly report,
                                                                                              pages 145-167.
Warrant Disposition
As required by EESA, Treasury received warrants when it invested in troubled                  For more information on warrant
assets from financial institutions, with an exception for certain small institutions.         disposition, see SIGTARP’s audit report
With respect to financial institutions with publicly traded securities, these warrants        of May 10, 2010, “Assessing Treasury’s
gave Treasury the right, but not the obligation, to purchase a certain number of              Process to Sell Warrants Received from
shares of common stock at a predetermined price.405 Because the warrants rise in              TARP Recipients.”
value as a company’s share price rises, they permit Treasury (and the taxpayer) to
benefit from a firm’s potential recovery.406
    For publicly traded institutions, the warrants received by Treasury under CPP
allowed Treasury to purchase additional shares of common stock in a number
equal to 15% of the value of the original CPP investment at a specified exercise              Exercise Price: Preset price at which
price.407 Treasury’s warrants constitute assets with a fair market value that Treasury        a warrant holder may purchase each
estimates using relevant market quotes, financial models, and/or third-party valua-           share. For warrants in publicly traded
tions.408 As of June 30, 2013, Treasury had not exercised any of these warrants.409           institutions issued through CPP, this
For privately held institutions, Treasury received warrants to purchase additional            was based on the average stock price
preferred stock or debt in an amount equal to 5% of the CPP investment. Treasury              during the 20 days before the date
exercised these warrants immediately.410 Unsold and unexercised warrants expire 10            that Treasury granted preliminary CPP
years from the date of the CPP investment.411                                                 participation approval.

Repurchase of Warrants by Financial Institutions
Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
to buy back its warrants. As of June 30, 2013, 149 publicly traded institutions had
bought back $3.8 billion worth of warrants, of which $21.7 million was purchased
this quarter. As of that same date, 227 privately held institutions, the warrants
of which had been immediately exercised, bought back the resulting additional
preferred shares for a total of $117.1 million, of which $8.5 million was bought
back this quarter.412 Table 2.30 lists publicly traded institutions that repaid TARP
120   special inspector general I troubled asset relief program




                                             and repurchased warrants in the quarter ended June 30, 2013. Table 2.31 lists
                                             privately held institutions that had done so in the same quarter.413

                                             TABLE 2.30
                                              CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER
                                              ENDING 6/30/2013
                                                                                                                                      Number of                  Amount of
                                                                                                                                       Warrants                 Repurchase
                                              Repurchase Date             Company                                                   Repurchased               ($Thousands)
                                              5/15/2013                   NewBridge Bancorp                                              2,567,255             $7,778,782.7
                                              5/29/2013                   Southwest Bancorp, Inc.                                           703,753             2,287,197.0
                                                                          The Bank Of Kentucky Financial
                                              5/29/2013                                                                                     276,078             2,150,648.6
                                                                          Corporation
                                              5/15/2013                   Guaranty Federal Bancshares, Inc.                                 459,459             2,003,250.0
                                              4/19/2013                   Carolina Bank Holdings, Inc.                                      357,675             1,800,000.0
                                              5/15/2013                   TowneBank                                                         554,330             1,500,000.0
                                              4/19/2013                   BCSB Bancorp, Inc.                                                183,465             1,442,000.0
                                              5/22/2013                   First Financial Holdings Inc.                                     241,696             1,400,000.0
                                              6/12/2013                   Hawthorn Bancshares, Inc.                                         287,134                540,000.0
                                              5/22/2013                   Plumas Bancorp                                                    237,712                234,500.0
                                              6/12/2013                   Coastal Banking Company, Inc.                                     145,579                225,647.5
                                              4/19/2013                   Carrollton Bancorp                                                205,379                213,594.2
                                              4/10/2013                   Coastal Banking Company, Inc.                                       60,000                 99,000.0
                                              4/9/2013                    PremierWest Bancorp                                               109,039                            0.0
                                              4/11/2013                   First Security Group, Inc.                                          82,363                           0.0
                                              Total                                                                                     6,470,915          $21,674,619.8
                                              Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly
                                              traded TARP recipients. Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an
                                              individual financial institution.

                                              Sources: Treasury, Transactions Report, 6/28/2013; Treasury, responses to SIGTARP data calls, 1/4/2011, 1/7/2011, 4/6/2011,
                                              7/8/2011, 10/7/2011, 10/11/2011, 1/11/2012, 4/5/2012, 7/9/2012, 10/12/2012, 4/12/2013, and 7/11/2013.
                                                                                                                                   quarterly report to congress I July 24, 2013   121




TABLE 2.31
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER
 ENDING 6/30/2013
                                                                                             Number of                 Amount of
                                                                                              Warrants                Repurchase
 Repurchase Date              Company                                                      Repurchased              ($Thousands)
 6/26/2013                    Metropolitan Bank Group, Inc.                                     4,238,000                   $4,238.0
4/24/2013                     Business Bancshares, Inc.                                           750,000                       750.0
5/15/2013                     River Valley Bancorporation, Inc.a                                  750,000                       750.0
6/24/2013                     Security State Bank Holding-Company                a
                                                                                                  538,000                       538.0
4/26/2013                     Mid-Wisconsin Financial Services, Inc.                              500,000                       500.0
4/29/2013                     BancStar, Inc.                                                      430,000                       430.0
6/24/2013                     Pathway Bancorp                                                     186,000                       186.0
6/5/2013                      Patterson Bancshares, Inc                                           185,000                       185.0
4/29/2013                     Tennessee Valley Financial Holdings, Inc.                           150,000                       150.0
6/24/2013                     Worthington Financial Holdings, Inc.                                136,000                       136.0
4/24/2013                     Green Circle Investments, Inc.                                      120,000                       120.0
4/29/2013                     Brogan Bankshares, Inc.a                                            120,000                       120.0
4/24/2013                     NEMO Bancshares Inc.           a
                                                                                                  117,000                       117.0
6/12/2013                     IBT Bancorp, Inc.                                                   115,000                       115.0
4/29/2013                     Plato Holdings Inc.a                                                107,000                       107.0
                              Farmers & Merchants Financial
6/24/2013                                                                                           22,000                        22.0
                              Corporation
Total                                                                                         8,464,000                    $8,464.0
 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise
 of warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date.
 Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
 a
   S-Corporation Institution: issued subordinated debt instead of preferred stock.

 Sources: Treasury, Transactions Report, 6/28/2013; Treasury, response to SIGTARP data call, 7/11/2013.



Treasury Warrant Auctions
If Treasury and the repaying institution cannot agree upon the price for the
institution to repurchase its warrants, Treasury may conduct a public or private
offering to auction the warrants.414 As of June 30, 2013, the combined proceeds
from Treasury’s public and private warrant auctions totaled $5.5 billion.415

Public Warrant Auctions
In November 2009, Treasury began selling warrants via public auctions.416 Through
June 30, 2013, Treasury had held 26 public auctions for warrants it received under
CPP, TIP, and AGP, raising a total of approximately $5.4 billion.417 Treasury did not
conduct any public warrant auctions this quarter.418 Final closing information for
all public warrant auctions is shown in Table 2.32.
122               special inspector general I troubled asset relief program



      TABLE 2.32
       PUBLIC TREASURY WARRANT AUCTIONS, AS OF 6/30/2013
                                                                                                              Number of               Minimum                Selling      Proceeds to Treasury
       Auction Date                   Company                                                            Warrants Offered             Bid Price               Price                ($ Millions)
                                      Bank of America A Auction (TIP)a                                          150,375,940                $7.00              $8.35                         $1,255.6
       3/3/2010
                                      Bank of America B Auction (CPP)           a
                                                                                                                121,792,790                  1.50               2.55                            310.6
       12/10/2009                     JPMorgan Chase                                                             88,401,697                  8.00             10.75                             950.3
       5/20/2010                      Wells Fargo and Company                                                   110,261,688                  6.50               7.70                            849.0
       9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973                10.50              13.70                             713.7
       4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192                15.00              19.20                             324.2
                                      Citigroup A Auction (TIP & AGP)a                                          255,033,142                  0.60               1.01                            257.6
       1/25/2011
                                      Citigroup B Auction (CPP)a                                                210,084,034                  0.15               0.26                              54.6
       9/16/2010                      Lincoln National Corporation                                               13,049,451                13.50              16.60                             216.6
       5/6/2010                       Comerica Inc.                                                              11,479,592                15.00              16.00                             183.7
       12/3/2009                      Capital One                                                                12,657,960                  7.50             11.75                             148.7
       11/29/2012                     M&T Bank Corporation                                                         1,218,522               23.50                1.35                              32.3
       2/8/2011                       Wintrust Financial Corporation                                               1,643,295               13.50              15.80                               26.0
       6/2/2011                       Webster Financial Corporation                                                3,282,276                 5.50               6.30                              20.4
                                      SunTrust A Auction      b
                                                                                                                   6,008,902                 2.00               2.70                              16.2
       9/22/2011
                                      SunTrust B Auctionb                                                        11,891,280                  1.05               1.20                              14.2
       3/9/2010                       Washington Federal, Inc.                                                     1,707,456                 5.00               5.00                              15.6
       3/10/2010                      Signature Bank                                                                  595,829              16.00              19.00                               11.3
       12/15/2009                     TCF Financial                                                                3,199,988                 1.50               3.00                               9.6
       12/5/2012                      Zions Bancorporation                                                         5,789,909               23.50              26.50                                7.8
       3/11/2010                      Texas Capital Bancshares, Inc.                                                  758,086                6.50               6.50                               6.7
       2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500                 1.40               2.20                               6.4
       5/18/2010                      Valley National Bancorp                                                      2,532,542                 1.70               2.20                               5.6
       11/30/2011                     Associated Banc-Corpc                                                        3,983,308                 0.50               0.90                               3.6
       6/2/2010                       First Financial Bancorp                                                         465,117                4.00               6.70                               3.1
       6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557                 0.85               1.15                               3.0
       Total                                                                                               1,090,695,026                                                                   $5,446.4
       Notes: Numbers may not total due to rounding.
       a
         Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
       b
         Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
       c
         According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

       Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
       7/1/2013; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 7/1/2013; Comerica
       Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 7/1/2013; Wells Fargo and Company, “Definitive
       Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 7/1/2013; First Financial Bancorp, “Prospectus Supplement,”
       6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 7/1/2013; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
       www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 7/1/2013; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
       SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 7/1/2013; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
       3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 7/1/2013; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
       data/70858/000119312510051260/d8k.htm, accessed 7/1/2013; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
       d424b2.htm, accessed 7/1/2013; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
       7/1/2013; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 7/1/2013; JPMorgan
       Chase, “Prospectus Supplement,” 127/1/2013/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 7/1/2013; Capital One Financial, “Prospectus
       Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 7/1/2013; Treasury, Transactions Report, 6/28/2013; Hartford Financial
       Services Group, Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 7/1/2013;
       Treasury, “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/
       tg865.aspx, accessed 7/1/2013; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/
       d424b5.htm, accessed 7/1/2013; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 7/1/2013; Treasury, Section
       105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/
       Pages/tg1033.aspx, accessed 7/1/2013; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/1/2013;
       Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/1/2013; Boston Private Financial Holdings, Inc.,
       Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 7/1/2013; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.
       gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 7/1/2013; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/
       data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 7/1/2013; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to
       Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 7/1/2013; Treasury, Citigroup Preliminary Prospectus – CPP
       Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 7/1/2013; Citigroup, Preliminary Prospectus – TIP & AGP Warrants,
       1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/1/2013; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011,
       10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of Suntrust Banks, Inc.,” 9/21/2011, www.
       treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 7/1/2013; “Treasury Department Announces Public Offering of Warrants to Purchase Common Stock of Associated Banc-Corp,”
       11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 7/1/2013; Treasury, “Treasury Department Announces Public Offering of Warrant to Purchase Common Stock
       of M&T Bank Corporation,” 12/10/2012, www.treasury.gov/press-center/press-releases/Pages/tg1793.aspx, accessed 7/1/2013; Treasury, “Treasury Department Announces Public Offering of Warrants
       to Purchase Common Stock of Zions Bancorporation,” 11/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1782.aspx, accessed 7/1/2013.
                                                                                 quarterly report to congress I July 24, 2013           123




Private Warrant Auctions
On November 17, 2011, Treasury conducted a private auction to sell the warrants               Qualified Institutional Buyers (“QIB”):
of 17 CPP institutions for $12.7 million.419 On June 6, 2013, it conducted a second           Institutions that under U.S. securities
private auction to sell the warrants of 16 banks for $13.9 million.420 Details from           law are permitted to buy securities
both auctions are listed in Table 2.33. Treasury stated that private auctions were            that are exempt from registration
necessary because the warrants did not meet the listing requirements for the major            under investor protection laws and
exchanges, it would be more cost-effective for these smaller institutions, and that           to resell those securities to other
grouping the warrants of several institutions in a single auction would raise investor        QIBs. Generally these institutions own
interest in the warrants.421 The warrants were not registered under the Securities            and invest at least $100 million in
Act of 1933 (the “Act”). As a result, Treasury stated that the warrants were offered          securities, or are registered broker-
only in private transactions to “(1) ‘qualified institutional buyers’ as defined in           dealers that own or invest at least $10
Rule 144A under the Act, (2) the issuer, and (3) a limited number of ‘accredited              million in securities.
investors’ affiliated with the issuer.”422
                                                                                              Accredited Investors: Individuals or
                                                                                              institutions that by law are considered
                                                                                              financially sophisticated enough so
                                                                                              that they can invest in ventures that
                                                                                              are exempt from investor protection
                                                                                              laws. Under U.S. securities laws, these
                                                                                              include many financial companies,
                                                                                              pension plans, wealthy individuals,
                                                                                              and top executives or directors of the
                                                                                              issuing companies.
124   special inspector general I troubled asset relief program




                                             TABLE 2.33
                                              PRIVATE TREASURY WARRANT AUCTIONS AS OF 6/30/2013
                                                                                                                                Number of                   Proceeds to
                                              Date                       Company                                           Warrants Offered                    Treasury
                                              11/17/2011                 Eagle Bancorp, Inc.                                            385,434               $2,794,422
                                              11/17/2011                 Horizon Bancorp                                                212,188                1,750,551
                                              11/17/2011                 Bank of Marin Bancorp                                          154,908                1,703,984
                                              11/17/2011                 First Bancorp (of North Carolina)                              616,308                   924,462
                                              11/17/2011                 Westamerica Bancorporation                                     246,698                   878,256
                                              11/17/2011                 Lakeland Financial Corp                                        198,269                   877,557
                                              11/17/2011                 F.N.B. Corporation                                             651,042                   690,100
                                              11/17/2011                 Encore Bancshares                                              364,026                   637,071
                                              11/17/2011                 LCNB Corporation                                               217,063                   602,557
                                              11/17/2011                 Western Alliance Bancorporation                                787,107                   415,000
                                              11/17/2011                 First Merchants Corporation                                    991,453                   367,500
                                              11/17/2011                 1st Constitution Bancorp                                       231,782                   326,576
                                              11/17/2011                 Middleburg Financial Corporation                               104,101                   301,001
                                              11/17/2011                 MidSouth Bancorp, Inc.                                         104,384                   206,557
                                              11/17/2011                 CoBiz Financial Inc.                                           895,968                   143,677
                                              11/17/2011                 First Busey Corporation                                        573,833                     63,677
                                              11/17/2011                 First Community Bancshares, Inc.                                88,273                     30,600
                                              6/6/2013                   Banner Corporation                                             243,998                   134,201
                                              6/6/2013                   Carolina Trust Bank                                             86,957                     19,132
                                              6/6/2013                   Central Pacific Financial Corp.                                  79,288                  751,888
                                              6/6/2013                   Colony Bankcorp, Inc.                                          500,000                   810,000
                                              6/6/2013                   Community West Bancshares                                      521,158                   698,351
                                              6/6/2013                   Flagstar Bancorp, Inc.                                         645,138                     12,905
                                              6/6/2013                   Heritage Commerce Corp                                         462,963                   140,000
                                                                         International Bancshares
                                              6/6/2013                                                                               1,326,238                 4,018,511
                                                                         Corporation
                                              6/6/2013                   Mainsource Financial Group, Inc.                               571,906                1,512,177
                                              6/6/2013                   Metrocorp Bancshares, Inc.                                     771,429                2,087,368
                                              6/6/2013                   Old Second Bancorp, Inc.                                       815,339                   106,891
                                              6/6/2013                   Parke Bancorp, Inc.                                            438,906                1,650,288
                                              6/6/2013                   S&T Bancorp, Inc.                                              517,012                   527,361
                                              6/6/2013                   Timberland Bancorp, Inc.                                       370,899                1,301,856
                                              6/6/2013                   United Community Banks, Inc.                                   219,908                       6,677
                                              6/6/2013                   Yadkin Financial Corporation                                    91,178                     55,677
                                              6/6/2013                   Yadkin Financial Corporation                                   128,663                     20,000
                                              Total                                                                               14,534,529              $26,566,831
                                              Sources: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-
                                              center/press-releases/Pages/tg1365.aspx, accessed 7/1/2013; “Treasury Completes Auction to Sell Warrants Positions,”
                                              6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx, accessed 6/10/2013.
                                                                               quarterly report to congress I July 24, 2013              125




Community Development Capital Initiative
The Administration announced the Community Development Capital Initiative
(“CDCI”) on October 21, 2009. According to Treasury, it was intended to help
small businesses obtain credit.423 Under CDCI, TARP made $570.1 million in
investments in the preferred stock or subordinated debt of 84 eligible banks, bank
holding companies, thrifts, and credit unions certified as Community Development            Community Development Financial
Financial Institutions (“CDFIs”) by Treasury. According to Treasury, these lower-           Institutions (“CDFIs”): Financial
cost capital investments were intended to strengthen the capital base of CDFIs              institutions eligible for Treasury funding
and enable them to make more loans in low and moderate-income communities.424               to serve urban and rural low-income
CDCI was open to certified, qualifying CDFIs or financial institutions that applied         communities through the CDFI Fund.
for CDFI status by April 30, 2010.425                                                       CDFIs were created in 1994 by the
    According to Treasury, CPP-participating CDFIs that were in good standing               Riegle Community Development and
could exchange their CPP investments for CDCI investments.426 CDCI closed to                Regulatory Improvement Act.
new investments on September 30, 2010.427
    As of June 30, 2013, 73 institutions remained in CDCI. Ten institutions,
including two this quarter, have fully repaid the Government and have exited
CDCI. One institution has partially repaid and remains in the program. One
institution previously had its subsidiary bank fail.428

CDCI Investment Update
Treasury invested $570.1 million in 84 institutions under the program — 36 banks
or bank holding companies and 48 credit unions.429 Of the 36 investments in banks
and bank holding companies, 28 were conversions from CPP (representing $363.3
million of the total $570.1 million); the remaining eight were not CPP participants.
Treasury provided an additional $100.7 million in CDCI funds to 10 of the banks
converting CPP investments. Only $106 million of the total CDCI funds went to
institutions that were not in CPP.
     As of June 30, 2013, 73 institutions remained in CDCI and taxpayers were
still owed $512.3 million related to CDCI.430 According to Treasury, it had realized
losses of $6.7 million in the program that will never be recovered, leaving $505.5
million outstanding.431 According to Treasury, $57.8 million of the CDCI principal
(or 10%) had been repaid as of June 30, 2013.432 As of June 30, 2013, Treasury
had received approximately $31 million in dividends and interest from CDCI
recipients.433 As of June 30, 2013, three institutions (Community Bank of the Bay,
First Vernon Bancshares, Inc., and PGB Holdings, Inc.) had unpaid dividend or               Risk-Weighted Assets: Risk-based
interest payments to Treasury totaling $467,550.434 A list of all CDCI investments          measure of total assets held by
is included in Appendix D: “Transaction Detail.”                                            a financial institution. Assets are
                                                                                            assigned broad risk categories. The
Terms for Senior Securities and Dividends                                                   amount in each risk category is then
An eligible bank, bank holding company, or thrift could apply to receive capital in         multiplied by a risk factor associated
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-          with that category. The sum of the
owned, nonprofit financial institution with a capital and governance structure              resulting weighted values from each of
different from that of for-profit banks) could apply for Government funding of              the risk categories is the bank’s total
up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted              risk-weighted assets.
126            special inspector general I troubled asset relief program




                                                      assets for banks.435 Participating credit unions and Subchapter S corporations
      Subchapter S Corporations (“S                   (“S corporations”) issued subordinated debt to Treasury in lieu of the preferred
      corporations”): Corporate form that             stock issued by other CDFI participants.436 Many CDFI investments have an
      passes corporate income, losses,                initial dividend rate of 2%, which increases to 9% after eight years. Participating
      deductions, and credit through to               S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight
      shareholders for Federal tax purposes.          years.437 A CDFI participating in CPP had the opportunity to request to convert
      Shareholders of S corporations report           those shares into CDCI shares, thereby reducing the annual dividend rate it pays
      the flow-through of income and losses           the Government from 5% to as low as 2%.438 According to Treasury, CDFIs were
      on their personal tax returns and are           not required to issue warrants because of the de minimis exception in EESA, which
      taxed at their individual income tax            grants Treasury the authority to waive the warrant requirement for qualifying
      rates.                                          institutions in which Treasury invested $100 million or less.
                                                          If during the application process a CDFI’s primary regulator deemed it to
                                                      be undercapitalized or to have “quality of capital issues,” the CDFI had the
                                                      opportunity to raise private capital to achieve adequate capital levels. Treasury
                                                      would match the private capital raised on a dollar-for-dollar basis, up to a total of
                                                      5% of the financial institution’s risk-weighted assets. In such cases, private investors
                                                      had to agree to assume any losses before Treasury.439
                                                                                 quarterly report to congress I July 24, 2013           127




Systemically Significant Failing Institutions Program
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
program was established to “provide stability and prevent disruptions to financial
markets from the failure of a systemically significant institution.”440 Through
SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
participant.441 AIG also received bailout funding from the Federal Reserve Bank of
New York (“FRBNY”). Combined, Treasury and FRBNY committed $182 billion to
bail out AIG, of which $161 billion was disbursed.442
    AIG has repaid the amounts owed to both Treasury and FRBNY. Treasury’s
investment in AIG ended on March 1, 2013, with the sale of its AIG stock
warrants.443
    On July 9, 2013, the Financial Stability Oversight Council (“FSOC”)
announced that it had designated AIG as a systemically important nonbank
financial company under Dodd-Frank, thereby subjecting AIG to consolidated
supervision by the Board of Governors of the Federal Reserve System (“Federal
Reserve”) and to enhanced prudential standards.444 Under Dodd-Frank, those
standards will require AIG to, among other things: (i) meet enhanced liquidity and
capital standards; (ii) undergo and report periodic stress tests; (iii) adopt enhanced
risk-management processes; and (iv) submit a “living will” resolution plan to be
used in the event AIG faces material financial distress or fails.
    Prior to the TARP bailout, AIG received bailout funding from FRBNY, which
eventually committed $35 billion in loans in a revolving credit facility; another             Special Purpose Vehicle (“SPV”):
$52.5 billion in loans to create two special purpose vehicles (“SPV”), Maiden                 A legal entity, often off-balance-
Lane II and Maiden Lane III, to take mortgage-backed securities and credit                    sheet, that holds transferred assets
default swaps off AIG’s books; and a $25 billion investment for which FRBNY                   presumptively beyond the reach of the
acquired preferred interests in two other SPVs that housed certain AIG insurance              entities providing the assets, and that
businesses.445 In January 2011, FRBNY and Treasury restructured their agreements              is legally isolated from its sponsor or
with AIG to use additional TARP funds and AIG funds to pay off amounts owed                   parent company.
to FRBNY and transfer FRBNY’s common stock and its interests in the insurance-
related SPVs to Treasury. The Government has since sold its stakes in AIG and
the SPVs.
                                                                                              For more on SIGTARP’s September
    According to Treasury, in addition to recovering the full AIG bailout amount,
                                                                                              2012 recommendation to Treasury and
taxpayers have received $22.7 billion in dividends, interest, gains, and other
                                                                                              the Federal Reserve regarding AIG’s
income.446 This included payment to FRBNY of the full amount owed on the                      designation as a systemically important
revolving credit facility loan, plus interest and fees of $6.8 billion; full repayment        financial institution, see Section 5 of
of the loans to Maiden Lane II and Maiden Lane III, plus $8.2 billion in gains                this report.
from securities cash flows and sales and $1.3 billion in interest; and full payment
of the $25 billion owed on the insurance-business SPVs, plus interest and fees                For more information on AIG and how
of $1.4 billion.447 Treasury’s books and records reflect only the shares of AIG that          the company changed while under
Treasury received in TARP, reflecting that taxpayers have recouped $54.4 billion              TARP, see SIGTARP’s July 2012
of the $67.8 billion in TARP funds spent and realized losses on the sale of TARP              Quarterly Report, pages 151-167.
shares from an accounting standpoint of $13.5 billion.448 However, in the January
2011 restructuring of FRBNY and Treasury investments, TARP funds were used to
pay off AIG’s amounts owed to FRBNY and in return Treasury received FRBNY’s
128            special inspector general I troubled asset relief program




                                                      stock in AIG. According to Treasury, when those shares are combined with TARP
                                                      shares in AIG, Treasury has made a $4.1 billion gain on the sale of the common
                                                      shares and AIG has paid $956 million in dividends, interest, and other income on
                                                      Treasury’s preferred shares.449
                                                          The Government’s rescue of AIG involved several different funding facilities
                                                      provided by FRBNY and Treasury, with various changes to the transactions over
                                                      time. The rescue of AIG was initially led by FRBNY and the Federal Reserve.
                                                      With the passage of EESA on October 3, 2008, Treasury, through SSFI, took on a
                                                      greater role in AIG’s bailout as the Government expanded and later restructured
                                                      its aid.
                                                          The amount and types of Treasury’s outstanding AIG investments changed
                                                      over time as a result of the execution of AIG’s January 2011 Recapitalization Plan,
                                                      preferred equity interest repayments, and Treasury’s sale of common stock. These
                                                      investments, as well as their stages and restructurings, are described below.

                                                      FRBNY Revolving Credit Facility
      Revolving Credit Facility: Line of              In September 2008, FRBNY extended an initial $85 billion revolving credit
      credit for which borrowers pay a                facility to AIG, which was secured by AIG’s assets, in an effort to stabilize the
      commitment fee, allowing them to                company. In return, AIG committed 79.8% of its voting equity to a trust for the
      repeatedly draw down funds up to a              sole benefit of the United States Treasury (the “AIG Trust”).450 While the $85
      guaranteed maximum amount. The                  billion revolving credit facility addressed the company’s severe liquidity shortage
      amount of available credit decreases            resulting from collateral calls related to the company’s credit default swap (“CDS”)
      and increases as funds are borrowed             business and securities lending activities, because the entire facility was drawn
      and then repaid.                                upon, AIG’s leverage ratios increased significantly. The rapid deterioration in AIG’s
                                                      CDS and securities lending businesses, combined with this increased leverage,
      Credit Default Swap (“CDS”): A contract         resulted in downward pressure on its credit rating.451 Federal officials feared that
      where the seller receives payments              future downgrades in AIG’s credit rating could have “catastrophic” effects on the
      from the buyer in return for agreeing to        company, forcing it into bankruptcy.452 FRBNY and Treasury determined that
      pay the buyer when a particular credit          this possibility posed a threat to the nation’s financial system and decided that
      event occurs, such as when the credit           additional transactions were necessary to modify the revolving credit facility.453
      rating on a bond is downgraded or a
      loan goes into default. The buyer does          Restructurings of AIG Assistance
      not need to own the asset covered by            In November 2008 and March 2009, FRBNY and Treasury took several actions to
      the contract, meaning the swap can              stabilize AIG’s operations.454
      serve essentially as a bet against the
      underlying bond or loan.                        •	 Initial TARP Investment: On November 25, 2008, Treasury purchased $40
                                                         billion in AIG preferred shares under TARP, the proceeds of which went directly
      Cumulative Preferred Stock: Stock                  to FRBNY to pay down a portion of the outstanding balance of the existing
      requiring a defined dividend payment. If           revolving credit facility. In return, Treasury received AIG Series D cumulative
      the company does not pay the dividend              preferred stock and warrants to purchase AIG common stock.455 After that
      on schedule, it still owes the missed              payment, the total amount available to AIG under FRBNY’s revolving credit
      dividend to the stock’s owner.                     facility was reduced from $85 billion to $60 billion.
                                                      •	 Creation of Maiden Lane II & III: Also in November 2008, FRBNY created
                                                         Maiden Lane II, an SPV, to take significant mortgage-backed securities off
                                                         AIG’s books. FRBNY lent $19.5 billion (out of $22.5 billion committed) to
                                                                                quarterly report to congress I July 24, 2013           129




   Maiden Lane II to fund the purchase of residential mortgage-backed securities
   (“RMBS”) that were contained in several of AIG’s U.S.-regulated insurance
   subsidiaries’ portfolios. Finally, also in November 2008, FRBNY created Maiden
   Lane III, another SPV, to which FRBNY lent $24.3 billion (out of $30 billion
   committed) to buy from AIG’s counterparties some of the collateralized debt               Collateralized Debt Obligation (“CDO”):
   obligations (“CDOs”) underlying the CDS contracts written by AIG.                         A security that entitles the purchaser
•	 Second TARP Investment: On March 2, 2009, Treasury and FRBNY                              to some part of the cash flows from a
   announced a restructuring of Government assistance to AIG that, according to              portfolio of assets such as mortgage-
   Treasury, was designed to strengthen the company’s capital position.456 These             backed securities, bonds, loans, or
   measures included the conversion of Treasury’s first TARP investment and                  other CDOs.
   Treasury’s commitment to fund a second TARP investment in AIG.
       On April 17, 2009, AIG and Treasury signed an agreement under which                   Non-Cumulative Preferred Stock:
   Treasury exchanged the Series D cumulative preferred stock, which required                Preferred stock with a defined
   AIG to make quarterly dividend and interest payments, for $41.6 billion                   dividend, without the obligation to pay
   (including $1.6 billion in missed dividend payments) of less valuable Series E            missed dividends.
   non-cumulative preferred stock, which required dividend and interest payments
   if AIG’s board of directors declared a dividend. Additionally, on April 17,               Equity Capital Facility: Commitment
   2009, Treasury committed to fund an equity capital facility under which AIG               to invest equity capital in a firm
   could draw down up to $29.8 billion in exchange for Series F non-cumulative               under certain future conditions. An
   preferred stock (that had similar terms to the Series E) and additional warrants,         equity facility when drawn down is
   of which AIG drew down $27.8 billion.457                                                  an investment that increases the
•	 Creation of Additional Special Purpose Vehicles and Sale of Assets Under                  provider’s ownership stake in the
   SPVs: The March 2009 restructuring measures also included an authorization                company. The investor may be able to
   for FRBNY to acquire up to $26 billion of preferred equity interests in two               recover the amount invested by selling
   SPVs, AIA Aurora LLC (“AIA SPV”) and ALICO Holdings LLC (“ALICO                           its ownership stake to other investors
   SPV”). The creation of the SPVs also facilitated the independence of these                at a later date.
   two subsidiaries in anticipation of a sale or initial public offering (“IPO”).458
   Treasury received payments for its interest in the SPVs and no longer holds an
   investment in the two SPVs. In 2009 and 2010, AIG sold the assets of these
   SPVs and paid back Treasury and FRBNY.459
       On December 1, 2009, FRBNY received $16 billion in preferred equity in-
   terests in the AIA SPV and $9 billion in the ALICO SPV.460 AIG later completed
   an IPO of 8.1 billion shares of AIA Group Limited and a sale of 1.72 billion
   shares of AIA and applied the $26.5 billion in total proceeds to amounts owed to
   FRBNY and Treasury.461
       On November 1, 2010, AIG sold ALICO to MetLife, Inc., for $16.2 bil-                  For a more detailed description of the
   lion, $7.2 billion of which was paid in cash and $9 billion in equity interests in        disposition of Treasury’s interest in
   MetLife. These equity interests were initially held in the ALICO SPV and were             the SPVs, see SIGTARP’s April 2012
   sold on March 2, 2011, for $9.6 billion.462                                               Quarterly Report, pages 112-113.


AIG Recapitalization Plan
On January 14, 2011, AIG executed its Recapitalization Plan with the Government,
which extinguished FRBNY’s revolving credit facility, retired FRBNY’s remaining
interests in the SPVs, and transferred those interests to Treasury, increasing
Treasury’s TARP investment in AIG. AIG repaid $20.7 billion owed to FRBNY’s
130           special inspector general I troubled asset relief program




      For a more detailed description of             revolving credit facility with proceeds from the AIA IPO and ALICO sale. AIG
      the AIG Recapitalization Plan, see             drew down $20.3 billion in TARP funds under a Series F equity capital facility
      SIGTARP’s January 2011 Quarterly               to purchase certain of FRBNY’s interests in the ALICO SPV and AIA SPV and
      Report, pages 135-139.                         transferred those interests to Treasury. AIG exchanged all prior outstanding
                                                     preferred shares held by the Government and issued new common stock to
                                                     Treasury representing a 92.1% interest in AIG. Treasury also created a new
                                                     $2 billion Series G equity capital facility, which was never drawn down.463
                                                         For the period November 25, 2008, to January 14, 2011, AIG had failed to pay
                                                     a total of $7.9 billion in dividend payments.464 After the Recapitalization Plan was
                                                     executed, AIG no longer had an obligation to pay dividends.

                                                     Treasury’s Equity Ownership Interest in AIG
                                                     As part of the Recapitalization Plan, AIG extinguished all prior outstanding
                                                     preferred shares held by the Government, comprising $41.6 billion of Series E
                                                     preferred shares and $7.5 billion drawn from the Series F equity capital facility.
                                                     In exchange, it issued 1.655 billion shares of common stock (which included 563
                                                     million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
                                                     representing 92.1% of the common stock of AIG.465 The AIG Trust was then
                                                     terminated. AIG issued 10-year warrants to its existing non-Government common
                                                     shareholders to purchase up to a cumulative total of 75 million shares of common
                                                     stock at a strike price of $45 per share.466
                                                          In a series of six offerings from May 2011 through December 2012, Treasury
                                                     sold its 1.655 billion shares of AIG’s common stock at an average price of $31.18
                                                     per share, for a total of $51.6 billion.467 The last of those sales took place on
                                                     December 11, 2012, when Treasury sold its remaining 234 million shares for
                                                     $32.50 per share.468 As reflected on Treasury’s TARP books and records, taxpayers
                                                     have recouped $54.4 billion of the $67.8 billion in TARP funds invested in AIG
                                                     and realized losses from an accounting standpoint of $13.5 billion on Treasury’s
                                                     sale of AIG stock.469 The shares sold included AIG common stock that Treasury
                                                     obtained from FRBNY after the January 2011 restructuring of the FRBNY and
                                                     Treasury investments. According to Treasury, the Government overall made a
                                                     $4.1 billion gain on the common stock sales, and $956 million has been paid in
                                                     dividends, interest, and other income.470 This does not include payments made to
                                                     FRBNY prior to the restructuring measures completed in January 2011.
                                                          On March 1, 2013, Treasury sold its remaining investment in AIG, which
                                                     consisted of 2.7 million warrants that would have provided Treasury the right to
                                                     purchase AIG common stock at an exercise price of $50 per share.471 AIG bought
                                                     the warrants for $25.2 million, or about $9.35 per share. The same day the transac-
                                                     tion was completed, AIG’s closing stock price was $37.85 per share on the New
                                                     York Stock Exchange.472
                                                          Table 2.34 details Treasury’s sales of AIG common stock and AIG’s buybacks of
                                                     its stock. AIG was required to pay Treasury’s expenses for the registration of shares
                                                     and underwriting fees, up to 1% of the amount offered by Treasury.473
                                                                                                                            quarterly report to congress I July 24, 2013   131




Table 2.34
                                                                                                                   AIG’S BUYBACKS OF
 TREASURY SALES OF AIG COMMON SHARES
                                                                                                                         SHARES
                      # Shares             Share         Proceeds                Remaining              UST          # Shares            Amount
 Date*                (Millions)           Price         (Millions)                 Shares         Equity %          (Millions)         (Millions)
 5/24/2011                 200.0         $29.00              $5,800         1,455,037,962                 77%                  —                 —
 3/8/2012                  206.9         $29.00              $6,000         1,248,141,410                 70%             103.4            $3,000
 5/6 and
                           188.5         $30.50              $5,750         1,059,616,821                 61%               65.6           $2,000
 5/7/2012
 8/3 and
                           188.5         $30.50              $5,750            871,092,231                53%               98.4           $3,000
 8/6/2012
 9/10 and
                           636.9         $32.50            $20,700             234,169,156                16%             153.8            $5,000
 9/11/2012
 12/14/2012                234.2         $32.50              $7,610                          0              0%                  0                $0
 Total                  1,655.0                           $51,610                                                        421.2          $13,000
 Notes: Numbers may be affected by rounding.

 *Sales with two dates means that an overallotment was also sold and is included in data.

 Sources: Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-29-13%20
 Transactions%20Report%20as%20of%203-28-13_INVESTMENT.pdf, accessed 7/15/2013; AIG, Press Release, “AIG Announces the U.S.
 Department of Treasury Completes Offering of AIG Common Stock,” 5/10/2012, http://phx.corporate-ir.net/phoenix.zhtml?c=76115&p=irol-
 newsArticle&ID=1694756&highlight=, accessed 7/1/2013; AIG, Press Release, “AIG Announces Completion of the U.S. Department of the Treasury
 Offering of AIG Common Stock,” 8/8/2012, http://phx.corporate-ir.net/phoenix.zhtml?c=76115&p=irol-newsArticle&ID=1723891&highlight=, accessed
 7/1/2013; AIG, Press Release, “AIG Announces U.S. Department of the Treasury Pricing of Offering to Sell AIG Common Stock,” 9/10/2012, http://
 phx.corporate-ir.net/phoenix.zhtml?c=76115&p=irol-newsArticle&ID=1733749&highlight=, accessed 7/1/2013; AIG, Press Release, “AIG Announces
 Completion of the U.S. Treasury’s $7.6 Billion Offering of AIG Common Stock,” 12/14/2012, http://phx.corporate-ir.net/phoenix.zhtml?c=76115&p=irol-
 newsArticle&ID=1767431&highlight=, accessed 7/1/2013.
132            special inspector general I troubled asset relief program




                                                      FRBNY’s Sales of Maiden Lane II Securities
      CUSIP number (“CUSIP”): Unique                  On February 28, 2012, FRBNY completed a series of 12 sales of securities in
      identifying number assigned to all              the Maiden Lane II portfolio.474 FRBNY sold a total of 773 CUSIP numbers
      registered securities in the United             (“CUSIPs”) from the Maiden Lane II portfolio, with a face amount totaling $29
      States and Canada; the name                     billion.475
      originated with the Committee on                     According to FRBNY, its management of the Maiden Lane II portfolio resulted
      Uniform Securities Identification               in full repayment of its $19.5 billion loan to Maiden Lane II, generating a net
      Procedures.                                     gain of approximately $2.3 billion, plus $580 million in accrued interest on the
                                                      loan.476 According to FRBNY, as of June 30, 2013, a cash balance of about $64
                                                      million remained in Maiden Lane II to pay for final expenses of winding down the
      For a more detailed description of the          portfolio.477
      Maiden Lane II securities sales, see
      SIGTARP’s October 2012 Quarterly                FRBNY’s Sales of Maiden Lane III Securities
      Report, pages 128-129.                          From April to August 2012, FRBNY sold a total of 371 CUSIPs from Maiden Lane
                                                      III, with a face amount of $45.6 billion, of which AIG received $5.6 billion.478
                                                          According to FRBNY, its management of the Maiden Lane III portfolio resulted
                                                      in full repayment of its $24.3 billion loan to Maiden Lane III, generating a net
                                                      gain of approximately $5.9 billion, plus $737 million in accrued interest on the
                                                      loan.479 According to FRBNY, as of June 30, 2013, a cash balance of about $22
                                                      million remained in Maiden Lane III to pay for final expenses of winding down the
                                                      portfolio.480
      For a more detailed description of the
                                                          According to auction details released by FRBNY on November 23, 2012, AIG
      Maiden Lane III securities sales, see
                                                      received $5.6 billion as repayment of its equity contribution to Maiden Lane III,
      SIGTARP’s October 2012 Quarterly
      Report, pages 129-130.
                                                      including interest.481 After FRBNY’s loan to Maiden Lane III and AIG’s equity in-
                                                      terest were repaid with interest, FRBNY and AIG split remaining auction proceeds,
                                                      with FRBNY receiving $5.9 billion and AIG receiving $2.9 billion.482
                                                                               quarterly report to congress I July 24, 2013             133




Targeted Investment Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.483 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement
security [where] the loss of confidence in a financial institution could result in
significant market disruptions that threaten the financial strength of similarly
situated financial institutions.”484 Both banks repaid TIP in December 2009.485 On
March 3, 2010, Treasury auctioned the Bank of America warrants it received under
TIP for $1.24 billion.486 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under TIP for $190.4 million.487

Asset Guarantee Program
Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately $301
billion. In return, as a premium, the Government received warrants to purchase
Citigroup common stock and $7 billion in preferred stock. The preferred stock was
subsequently exchanged for trust preferred securities (“TRUPS”).488                         Trust Preferred Securities (“TRUPS”):
     Treasury received $4 billion of the TRUPS and FDIC received $3 billion.489             Securities that have both equity
Although Treasury’s asset guarantee was not a direct cash investment, it exposed            and debt characteristics created by
taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in con-             establishing a trust and issuing debt
nection with Citigroup’s TIP repayment, Citigroup and Treasury terminated the               to it.
AGP agreement. Although at the time of termination the asset pool suffered a
$10.2 billion loss, this number was below the agreed-upon deductible and the
Government suffered no loss.490
     At that time, Treasury agreed to cancel $1.8 billion of the TRUPS issued by            For a discussion of the basis of the
Citigroup, reducing the premium it received from $4 billion to $2.2 billion, in             decision to provide Federal assistance to
exchange for the early termination of the loss protection. FDIC retained all of its         Citigroup, see SIGTARP’s audit report,
$3 billion in securities.491 Pursuant to that termination agreement, on December            “Extraordinary Financial Assistance
28, 2012, FDIC transferred $800 million of those securities to Treasury because             Provided to Citigroup, Inc.,” dated
Citigroup’s participation in FDIC’s Temporary Liquidity Guarantee Program closed            January 13, 2011.
without a loss.492 On February 4, 2013, Treasury exchanged the $800 million of
securities it received from FDIC into Citigroup subordinated notes, which it then
sold for $894 million.493
     Separately, on September 29, 2010, Treasury entered into an agreement with
Citigroup to exchange the remaining $2.2 billion in Citigroup TRUPS that it then
held under AGP for new TRUPS. Because the interest rate necessary to receive par
value was below the interest rate paid by Citigroup to Treasury, Citigroup increased
the principal amount of the securities sold by Treasury by an additional $12 mil-
lion, thereby enabling Treasury to receive an additional $12 million in proceeds
from the $2.2 billion sale of the Citigroup TRUPS, which occurred on September
134   special inspector general I troubled asset relief program




                                             30, 2010.494 On January 25, 2011, Treasury auctioned the Citigroup warrants it
                                             had received under AGP for $67.2 million.495 In addition to recovering the full
                                             bailout amount, taxpayers have received $13.4 billion over the course of Citigroup’s
                                             participation in AGP, TIP, and CPP, including dividends, other income, and war-
                                             rant sales.496
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.497 Of this $425 million, $276 million was paid to Treasury, $92
                                             million was paid to FDIC, and $57 million was paid to the Federal Reserve.498
                                                                                 quarterly report to congress I July 24, 2013             135




Asset Support Programs
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    TALF was designed to support asset-backed securities (“ABS”) transactions
by providing eligible borrowers $71.1 billion in non-recourse loans through the               Non-Recourse Loan: Secured loan
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed                    in which the borrower is relieved of
ABS and commercial mortgage-backed securities (“CMBS”). Treasury initially                    the obligation to repay the loan upon
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from              surrendering the collateral.
any TALF loans that defaulted.499 On January 15, 2013, Treasury and FRBNY said
the TARP-funded credit protection was no longer needed because lending fees                   Collateral: Asset pledged by a
collected by TALF had exceeded the amount of loans still outstanding.500 All TARP             borrower to a lender until a loan is
funding for TALF has now been either deobligated or repaid.501 Of the $71.1 billion           repaid. Generally, if the borrower
in TALF loans, none have defaulted and $257.9 million remains outstanding as of               defaults on the loan, the lender gains
June 30, 2013.502                                                                             ownership of the pledged asset and
    PPIP used a combination of private equity and Government equity and debt                  may sell it to satisfy the debt. In TALF,
through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)             the ABS or CMBS purchased with
held by financial institutions. In July 2009, Treasury announced the selection of             the TALF loan is the collateral that is
nine Public-Private Investment Fund (“PPIF”) managers. Treasury originally obli-              posted with FRBNY.
gated $22.4 billion in TARP funds to the program, then reduced the obligation over
time when several PPIFs did not use the full amounts available to them. One PPIP
manager, The TCW Group Inc. (“TCW”), withdrew soon after the program began.
A total of $18.6 billion in TARP funding was drawn down and fully repaid by PPIP
fund managers.503 As of June 30, 2013, the entire PPIP portfolio had been liqui-
dated, and two PPIP funds were legally dissolved while the other six were in various
stages of winding down operations.504
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.505 According
to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
the program with a total investment gain of about $9 million for all the securities,
including sale proceeds and payments of principal, interest, and debt.506

TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.507 According to FRBNY, TALF was “designed to increase credit
availability and support economic activity by facilitating renewed issuance of
consumer and business ABS.”508 TALF is divided into two parts:509

•	 a lending program, TALF, in which FRBNY originated and managed non-
   recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
   TALF’s lending program closed in 2010
136            special inspector general I troubled asset relief program




                                                      •	 an asset disposition facility, TALF LLC, that purchases the collateral from
                                                         FRBNY if borrowers choose to surrender it and walk away from their loans or if
                                                         the collateral is seized in the event of default.

                                                          The asset disposition facility, TALF LLC, is managed by FRBNY and remains
                                                      in operation until final TALF loans mature on March 30, 2015.510 TALF loans are
                                                      non-recourse (unless the borrower has made any misrepresentations or breaches
                                                      warranties or covenants), which means that FRBNY cannot hold the borrower
                                                      liable for any losses beyond the surrender of collateral for the TALF loan.511
      For a discussion of the credit rating               TALF LLC’s funding originates from a fee charged to FRBNY for the commit-
      agency industry and an analysis of the          ment to purchase any collateral surrendered by the borrowers. This fee is derived
      impact of NRSROs on TARP and the                from the principal balance of each outstanding TALF program loan.512 As of June
      overall financial market, see SIGTARP’s         30, 2013, $257.9 million in TALF loans was outstanding.513 According to FRBNY,
      October 2009 Quarterly Report, pages            no TALF borrowers have surrendered collateral in lieu of repayment and conse-
      113–148.                                        quently no collateral has been purchased by TALF LLC since its inception.514

                                                      Lending Program
                                                      TALF’s lending program made secured loans to eligible borrowers.515 The loans
      Nationally Recognized Statistical Rating        were issued with terms of three or five years and were available for non-mortgage-
      Organization (“NRSRO”): Credit rating           backed ABS, newly issued CMBS, and legacy CMBS.516 The final maturity date of
      agency registered with the SEC. Credit          loans in the TALF portfolio is March 30, 2015.517
      rating agencies provide their opinion                To qualify as TALF collateral, the non-mortgage-backed ABS had to have un-
      of the creditworthiness of companies            derlying loans for automobile, student, credit card, or equipment debt; insurance
      and the financial obligations issued            premium finance; SBA-guaranteed small business loans; or receivables for residen-
      by companies. The ratings distinguish           tial mortgage servicing advances (“servicing advance receivables”). Collateral was
      between investment grade and non–               also required to hold the highest investment grade credit ratings from at least two
      investment grade equity and debt                nationally recognized statistical rating organizations (“NRSROs”).518
      obligations.                                         To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to
                                                      have been issued by an institution other than a Government-sponsored enterprise
      TALF Agent: Financial institution that          (“GSE”) or an agency or instrumentality of the U.S. Government, offer principal
      is party to the TALF Master Loan                and interest payments, not be junior to other securities with claims on the same
      and Security Agreement and that                 pool of loans, and possess the highest long-term investment grade credit rating
      occasionally acts as an agent for the           from at least two rating agencies.519 Newly issued CMBS had to be issued on or
      borrower. TALF agents include primary           after January 1, 2009, while legacy CMBS were issued before that date.520
      and nonprimary broker-dealers.
                                                      Loan Terms
      Haircut: Difference between the value           TALF participants were required to use a TALF agent to apply for a TALF loan.521
      of the collateral and the value of the          After the collateral (the particular asset-backed security financed by the TALF loan)
      loan (the loan value is less than the           was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,
      collateral value).                              which represents the amount of money put up by the borrower (the borrower’s
                                                      “skin in the game”), was required for each TALF loan.522 Haircuts for non-
      “Skin in the Game”: Equity stake in an          mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
      investment; down payment; the amount            and generally ranged between 5% and 16% for non-mortgage-backed ABS with
      an investor can lose.                           average lives of five years or less.523 The haircut for legacy and newly issued CMBS
                                                                                                                        quarterly report to congress I July 24, 2013         137




was generally 15% but rose above that amount if the average life of the CMBS was
greater than five years.524                                                                                                          Custodian Bank: Bank holding the
    FRBNY lent each borrower the amount of the market price of the pledged col-                                                      collateral and managing accounts for
lateral minus the haircut, subject to certain limitations.525 The borrower delivered                                                 FRBNY; for TALF the custodian is Bank
the collateral to the custodian bank, which collects payments generated by the                                                       of New York Mellon.
collateral and distributes them to FRBNY (representing the borrower’s payment of
interest on the TALF loan).526 Any excess payments from the collateral above the
interest due and payable to FRBNY on the loan go to the TALF borrower.527

TALF Loans
TALF provided $59 billion of loans to purchase non-mortgage-backed ABS during
the lending phase of the program, which ended on March 11, 2010. As of June 30,
2013, $135.5 million was outstanding, all in student loans.528 Table 2.35 lists all
TALF loans collateralized by non-mortgage-backed ABS, by ABS sector.

Table 2.35
 TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
 ($ Billions)

 ABS Sector
 Auto Loans                                                                                                           $12.8
 Credit Card Receivables                                                                                               26.3
 Equipment Loans                                                                                                         1.6
 Floor Plan Loans                                                                                                        3.9
 Premium Finance                                                                                                         2.0
 Servicing Advance Receivables                                                                                           1.3
 Small-Business Loans                                                                                                    2.2
 Student Loans                                                                                                           8.9
 Total                                                                                                               $59.0
 Notes: Numbers may not total due to rounding. Data as of 6/30/2013.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
 html, accessed 7/3/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
 TALF_recent_operations.html, accessed 7/3/2013.



   TALF provided $12.1 billion of loans to purchase CMBS during the lending
phase of the program, which ended on June 28, 2010. Approximately 99% of the
loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.529
As of June 30, 2013, $122.4 million was outstanding.530 Table 2.36 includes all
TALF CMBS loans.
138           special inspector general I troubled asset relief program




                                                     Table 2.36
                                                      TALF LOANS BACKED BY CMBS                         ($ Billions)

                                                      Type of Collateral Assets
                                                      Newly Issued CMBS                                                                                                     $0.1
                                                      Legacy CMBS                                                                                                           12.0
                                                      Total                                                                                                               $12.1
                                                      Notes: Numbers may not total due to rounding. Data as of 6/30/2013.

                                                      Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
                                                      html, accessed 7/3/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
                                                      CMBS_recent_operations.html, accessed 7/3/2013.



                                                         TALF loans were issued with terms of three years or five years. The final ma-
                                                     turity date of the last of the five-year loans is March 30, 2015.531 The outstanding
                                                     TALF loans consist of $122.4 million in loans collateralized by CMBS and $135.5
                                                     million in loans collateralized by student loans. As of June 30, 2013, all of the
                                                     TALF loans have more than a year remaining until maturity.532
                                                         The Federal Reserve posted on its website detailed information on the 177
                                                     TALF borrowers, including the identities of the borrowers, the amounts and rates
                                                     of the loans, and details about the collateral.533
                                                         As of June 30, 2013, $70.8 billion in TALF loans had been repaid. According to
                                                     FRBNY, the outstanding collateral on the remaining $257.9 million in TALF loans
                                                     was performing as expected.534

                                                     Asset Disposition Facility
                                                     When FRBNY created TALF LLC, TARP loaned the facility $100 million.535 As
                                                     of June 30, 2013, the $100 million was repaid in full along with $13 million in
                                                     interest, according to Treasury.536 During the remaining two years of the program,
                                                     any interest, fees, and gains collected above the remaining principal on outstanding
                                                     TALF loans will be shared by Treasury (90%) and FRBNY (10%).537 As of June 30,
                                                     2013, Treasury had received $430.8 million in additional gains and FRBNY had
                                                     received $46.4 million.538

                                                     Current Status
                                                     As of June 30, 2013, TALF LLC had assets of $281 million, which consisted of
                                                     interest and other income and fees earned from permitted investments.539 From
                                                     its February 4, 2009, formation through June 30, 2013, TALF LLC had spent
      Excess Spread: Funds left over
                                                     approximately $2.8 million on administration.540
      after required payments and other
                                                         When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
      contractual obligations have been met.
                                                     the program shifted primarily to portfolio management, which includes maintain-
      In TALF it is the difference between
                                                     ing documentation, overseeing the custodian that is responsible for holding ABS
      the periodic amount of interest paid
                                                     collateral, calculating and collecting principal and interest on TALF loans, disburs-
      out by the collateral and the amount
                                                     ing excess spread to TALF borrowers in accordance with the governing documents,
      of interest charged by FRBNY on the
                                                     monitoring the TALF portfolio, collecting and managing collateral assets if a bor-
      nonrecourse loan provided to the
                                                     rower defaults or surrenders the collateral in lieu of repayment, and paying TALF
      borrower to purchase the collateral.
                                                     LLC interest that borrowers pay FRBNY on TALF loans, in excess of FRBNY’s cost
                                                     of funding.541
                                                                                  quarterly report to congress I July 24, 2013              139




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program                    Legacy Securities: Real estate-related
(“PPIP”) was to purchase legacy securities from banks, insurance companies,                    securities originally issued before
mutual funds, pension funds, and other eligible financial institutions as defined              2009 that remained on the balance
in EESA, through Public-Private Investment Funds (“PPIFs”).542 PPIFs were                      sheets of financial institutions because
partnerships, formed specifically for this program, that invested in mortgage-backed           of pricing difficulties that resulted from
securities using equity capital from private-sector investors combined with TARP               market disruption.
equity and debt. A private-sector fund management firm oversaw each PPIF on
behalf of investors. According to Treasury, the aim of PPIP was to “restart the                Equity: Investment that represents an
market for legacy securities, allowing banks and other financial institutions to free          ownership interest in a business.
up capital and stimulate the extension of new credit.”543 PPIP originally included a
Legacy Loans subprogram that would have involved purchases of troubled legacy
loans with private and Treasury equity capital, as well as an FDIC guarantee for
debt financing. TARP funds were never disbursed for this subprogram.
     Treasury selected nine fund management firms to establish PPIFs. One PPIP
manager, TCW, subsequently withdrew. The other eight funds have fully repaid
Treasury’s debt and equity investments as of June 30, 2013. Three PPIP managers
— AG GECC, Marathon, and Oaktree — liquidated their portfolios in the quarter
ended June 30, 2013.544 Wellington liquidated its investments in February 2013.
AllianceBernstein, BlackRock, Invesco, and RLJ Western liquidated their portfolios             For more information on the selection of
                                                                                               PPIP managers, see SIGTARP’s October
in 2012. Private investors and Treasury co-invested in the PPIFs to purchase legacy
                                                                                               7, 2010, audit report entitled “Selecting
securities from financial institutions. The fund managers raised private-sector capi-
                                                                                               Fund Managers for the Legacy
tal. Treasury matched the private-sector equity dollar-for-dollar and provided debt
                                                                                               Securities Public-Private Investment
financing in the amount of the total combined equity. Each PPIP manager was also               Program.”
required to invest at least $20 million of its own money in the PPIF.545 Each PPIF
was approximately 75% TARP funded. PPIP was initially designed as an eight-year                For more information on the withdrawal
program giving PPIP managers until 2017 to sell the assets in their portfolio, allow-          of TCW as a PPIP manager, see
ing for a two-year extension under certain circumstances.546                                   SIGTARP’s January 2010 Quarterly
     Under the program, Treasury, the PPIP managers, and the private investors                 Report, page 88.
shared PPIF profits and losses on a pro rata basis based on their limited partner-
ship interests. Treasury also received warrants in each PPIF that gave Treasury the
right to receive an extra portion of the fund’s final profits that would otherwise be
distributed to the private investors.547




 Debt: Investment in a business that is      Pro Rata: Refers to dividing something        Limited Partnership: Partnership in which
 required to be paid back to the investor,   among a group of participants according       there is at least one partner whose
 usually with interest.                      to the proportionate share that each          liability is limited to the amount invested
                                             participant holds as a part of the whole.     (limited partner) and at least one partner
                                                                                           whose liability extends beyond monetary
                                                                                           investment (general partner).
140            special inspector general I troubled asset relief program




                                                          The PPIP portfolio consisted of eligible securities and cash assets. The securi-
      Non-Agency Residential Mortgage-                ties eligible for purchase by PPIFs (“eligible assets”) were non-agency residential
      Backed Securities (“non-agency                  mortgage-backed securities (“non-agency RMBS”) and commercial mortgage-
      RMBS”): Financial instrument backed             backed securities (“CMBS”) that met the following criteria:548
      by a group of residential real estate
      mortgages (i.e., home mortgages for             •	 issued before January 1, 2009 (legacy)
      residences with up to four dwelling             •	 rated when issued AAA or equivalent by two or more credit rating agencies
      units) not guaranteed or owned by                  designated as nationally recognized statistical rating organizations (“NRSROs”)
      a Government-sponsored enterprise               •	 secured directly by actual mortgages, leases, or other assets, not other securities
      (“GSE”), or a Government agency.                   (other than certain swap positions, as determined by Treasury)
                                                      •	 located primarily in the United States (the loans and other assets that secure the
                                                         non-agency RMBS and CMBS)
                                                      •	 purchased from financial institutions eligible for TARP participation

                                                      PPIP Process
                                                      Funds chosen to participate in PPIP raised private capital, which was matched up
                                                      to a preset maximum by Treasury. Additionally, each PPIF could borrow from TARP
                                                      an amount up to 100% of the total private and Government equity investment.
                                                      Treasury, which provided about 75% of the program’s equity and debt financing,
                                                      also received warrants from each PPIF so that it could benefit further from funds
                                                      that turned a profit. The PPIP managers were required to provide monthly portfolio
                                                      reports to Treasury and other investors.549
                                                          Obligated funds were not given immediately to PPIP managers during the
                                                      investment period. Instead, PPIP managers sent a notice to Treasury and the
                                                      private investors requesting a “draw down” of portions of obligated contributions in
                                                      order to purchase specific investments or to pay certain expenses and debts of the
                                                      partnerships.550

                                                      PPIF Purchasing Power
                                                      During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                                      of private-sector equity capital, which Treasury matched with a dollar-for-dollar
                                                      obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
                                                      $14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
                                                      power. The fund-raising stage for PPIFs was completed in December 2009. After
                                                      the capital-raising stage, Treasury obligated a total of $22.4 billion in a combination
                                                      of matching equity funds and debt financing for PPIP, which included funds for
                                                      TCW, which subsequently withdrew from the program. Table 2.37 shows equity
                                                      and debt committed by Treasury for the eight PPIFs that actively participated in
                                                      the program.
                                                                                                                              quarterly report to congress I July 24, 2013   141




TABLE 2.37
 Public-private investment program Committed PURCHASING POWER
 ($ Billions)

                                                       Private-                                                          Total
                                                  Sector Equity             Treasury              Treasury         Purchasing
 Manager                                                Capital               Equity                  Debt             Powera
 AG GECC PPIF Master Fund, L.P.                                $1.2                $1.2                 $2.5                 $5.0
 AllianceBernstein Legacy
                                                                 1.2                1.2                   2.3                  4.6
 Securities Master Fund, L.P.
 BlackRock PPIF, L.P.                                            0.7                0.7                   1.4                  2.8
 Invesco Legacy Securities Master
                                                                 0.9                0.9                   1.7                  3.4
 Fund, L.P.
 Marathon Legacy Securities Public-
 Private Investment Partnership,                                 0.5                0.5                   0.9                  1.9
 L.P.
 Oaktree PPIP Fund, L.P.                                         1.2                1.2                   2.3                  4.6
 RLJ Western Asset Public/Private
                                                                 0.6                0.6                   1.2                  2.5
 Master Fund, L.P.
 Wellington Management Legacy
                                                                 1.1                1.1                   2.3                  4.6
 Securities PPIF Master Fund, LP
 Totals for Fundsb                                             $7.4               $7.4               $14.7                 $29.4
 Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Six funds were winding down
 operations and had not been legally dissolved as of June 30, 2013: AllianceBernstein, AG GECC, BlackRock, Marathon, Oaktree, and
 Wellington.
 a
   Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
 b
   TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of
    debt. TCW repaid the total amount committed by Treasury in early 2010. This is not included in the total purchasing power.

 Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP
 data call, 7/15/2013.



    The program gave each PPIP manager up to three years (the “PPIF investment
period”) from closing its first private-sector equity contribution to draw upon the
TARP funds obligated for the PPIF and buy legacy securities on behalf of private
and Government investors.551 During that investment period, the program sought
to maintain “predominantly a long-term buy and hold strategy.”552 The investment
periods for all PPIFs expired in 2012, ending their purchases of legacy securities.553
    At the end of the PPIF investment period, fund managers had up to five years
ending in 2017 to manage and sell off the fund’s investment portfolio and return
proceeds to taxpayers and investors, with the ability to extend that period under
certain circumstances.554

Amounts Drawn Down
The eight PPIP managers drew down a total of approximately $24.4 billion to buy
legacy securities during their investment periods, spending $6.1 billion in private-
sector equity capital and $18.3 billion in TARP equity and debt funding.555 The
last fund’s investment period ended in December 2012.556 Treasury also disbursed
$356.3 million to TCW, which TCW fully repaid in early 2010 when it withdrew
from the program.557
142   special inspector general I troubled asset relief program




                                                               As a group, the funds drew down and spent about 83% of the total money avail-
                                                           able to them to invest in legacy real estate-backed securities.558 Oaktree, the only
                                                           fund limited solely to purchasing CMBS, drew down the smallest amount, 48%,
                                                           of its available capital. All unused TARP debt financing has been deobligated by
                                                           Treasury.559 Unused TARP equity financing is deobligated when each fund is legally
                                                           dissolved. Table 2.38 shows how much each PPIF drew down from the private and
                                                           Government money available to it during the investment period.

         TABLE 2.38
          PPIP CAPITAL DRAWN DOWN During Investment Period                                                   ($ BILLIONS)

                                                                  Total             Private-              Treasury                Treasury
                                                            Purchasing         Sector Equity          Equity Drawn              Debt Drawn            Total Drawn              Purchasing
          Manager                                               Powera          Drawn Down                    Down                    Down                   Down             Power Usedb
          AG GECC PPIF Master Fund, L.P.                              $5.0                  $1.1                   $1.1                   $2.2                   $4.5                      90%
          AllianceBernstein Legacy
                                                                       4.6                    1.1                    1.1                    2.1                    4.3                     92%
          Securities Master Fund, L.P.
          BlackRock PPIF, L.P.                                         2.8                    0.5                    0.5                    1.1                    2.1                     76%
          Invesco Legacy Securities
                                                                       3.4                    0.6                    0.6                    1.2                    2.3                     68%
          Master Fund, L.P.
          Marathon Legacy Securities
          Public-Private Investment                                    1.9                    0.5                    0.5                    0.9                    1.9                   100%
          Partnership, L.P.
          Oaktree PPIP Fund, L.P.                                      4.6                    0.6                    0.6                    1.1                    2.2                     48%
          RLJ Western Asset Public/
                                                                       2.5                    0.6                    0.6                    1.2                    2.5                   100%
          Private Master Fund, L.P.
          Wellington Management Legacy
                                                                       4.6                    1.1                    1.1                    2.3                    4.6                   100%
          Securities PPIF Master Fund, LP
          Totals for All Fundsc                                    $29.4                    $6.1                   $6.1                 $12.2                  $24.4                      83%
          Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Six funds were winding down operations and had not been legally dissolved as of
          June 30, 2013: AllianceBernstein, AG GECC, BlackRock, Marathon, Oaktree, and Wellington.
          a
            Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
          b
             The percent of purchasing power used shows how much of the committed equity and debt was used by each fund.
          c
            TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of debt. TCW repaid the total amount committed by
             Treasury in early 2010. This is not included in the total purchasing power.

          Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 7/15/2013.
                                                                                                                                   quarterly report to congress I July 24, 2013   143




Amounts Paid to Treasury
Throughout the program, PPIP managers were required to make TARP payments
to Treasury for debt principal, debt interest, and equity capital. Under the program,
the PPIP funds also shared profits from the investments with Treasury. All PPIFs
have fully repaid their TARP debt and equity financing, including Oaktree, which
finished repaying Treasury in the quarter ended June 30, 2013.560 The nine PPIFs
together had repaid $12 billion in TARP debt and $6 billion in TARP equity,
including payments by TCW, as of June 30, 2013.
    In addition to repaying Treasury’s $18.6 billion capital investments, PPIP
managers paid a total of $3.4 billion in gross income payments and capital gains
to the Government through June 30, 2013, including $84.7 million in warrant
proceeds.561 Table 2.39 shows each fund’s payments to Treasury through June 30,
2013.
TABLE 2.39
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 6/30/2013                                                         ($ MILLIONS)

                                                                                                                                   Gross
                                                                                                                                 Income
                                                                      Debt                 Debt              Equity           Payments               Equity
                                                                  Principal             Interest            Capital          and Capital            Warrant
 Manager                                                         Payments             Payments           Paymentsa                 Gains          Paymentsb
 AG GECC PPIF Master Fund, L.P.                                      $2,235                    $66             $1,117                 $776                  $19
 AllianceBernstein Legacy Securities
                                                                       2,128                     58              1,064                  481                   12
 Master Fund, L.P.
 BlackRock PPIF, L.P.                                                  1,053                     34                528                  393                   10
 Invesco Legacy Securities Master Fund,
                                                                       1,162                     18                581                  139                     3
 L.P.
 Marathon Legacy Securities Public-Private
                                                                          949                    28                475                  324                     8
 Investment Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                               1,111                     17                556                  191                     5
 RLJ Western Asset Public/Private Master
                                                                       1,241                     37                621                  421                   11
 Fund, L.P.
 UST/TCW Senior Mortgage Securities
                                                                          200                   0.3                156                    20                 0.5
 Fund, L.P.
 Wellington Management Legacy Securities
                                                                       2,299                     61              1,149                  648                   16
 PPIF Master Fund, LP
 Totals for All Funds                                              $12,378                  $320              $6,247               $3,393                   $85
 Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Six funds were winding down operations and had not
 been legally dissolved as of June 30, 2013: AllianceBernstein, AG GECC, BlackRock, Marathon, Oaktree, and Wellington.
 a
   In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
 b
   Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
    the private partners in excess of their contributed capital.

 Sources: Treasury, Transactions Report, 6/28/2013; Treasury, response to SIGTARP data call, 7/15/2013; Treasury, Dividends and Interest Report,
 7/10/2013.
144   special inspector general I troubled asset relief program




                                             PPIP Managers Liquidate Holdings, Dissolve PPIFs

                                             PPIP Manager Oaktree Liquidates Holdings
                                             In June 2013, Oaktree liquidated its remaining PPIP investments.562 According
                                             to Treasury, Oaktree’s PPIF paid Treasury $4.8 million in warrant proceeds and
                                             $190.9 million in gross income payments and capital gains as of June 30, 2013.563
                                             By the time its investment period terminated in December 2012, Oaktree had
                                             drawn down 48% of the Treasury funding available to it, leaving $1.8 billion in
                                             unused funding.564 As required by the program, Oaktree fully repaid Treasury’s
                                             equity investment of $555.9 million and Treasury debt of $1.1 billion, with interest.
                                             As of June 30, 2013, Oaktree’s PPIF still had approximately $22.6 million in cash
                                             to pay for final audits and other wind-down expenses.565

                                             PPIP Manager Marathon Liquidates Holdings
                                             In June 2013, Marathon liquidated its remaining PPIP investments.566 According
                                             to Treasury, Marathon’s PPIF paid Treasury $8.1 million in warrant proceeds and
                                             $324.3 million in gross income payments and capital gains as of June 30, 2013.567
                                             By the time its investment period terminated in November 2012, Marathon had
                                             drawn down 100% of the Treasury funding available to it.568 As required by the
                                             program, Marathon fully repaid Treasury’s equity investment of $474.6 million
                                             and Treasury debt of $949 million, with interest. As of June 30, 2013, Marathon’s
                                             PPIF still had approximately $66.3 million in cash to pay for final audits and other
                                             wind-down expenses.569

                                             PPIP Manager AG GECC Liquidates Holdings
                                             In May 2013, AG GECC liquidated its remaining PPIP investments.570 According
                                             to Treasury, AG GECC’s PPIF paid Treasury $19.4 million in warrant proceeds and
                                             $776 million in gross income payments and capital gains as of June 30, 2013.571
                                             By the time its investment period terminated in October 2012, AG GECC had
                                             drawn down 90% of the Treasury funding available to it, leaving $377.6 million
                                             in unused funding. As required by the program, AG GECC fully repaid Treasury’s
                                             equity investment of $1.1 billion and Treasury debt of $2.2 billion, with interest. As
                                             of June 30, 2013, AG GECC’s PPIF still had approximately $4.1 million in cash to
                                             pay for final audits and other wind-down expenses.572

                                             PPIP Manager Wellington Liquidates Holdings
                                             During February 2013, Wellington liquidated its remaining PPIP investments.573
                                             According to Treasury, Wellington’s PPIF paid Treasury $16.2 million in warrant
                                             proceeds and $647.9 million in gross income payments and capital gains as of
                                             June 30, 2013.574 By the time its investment period terminated in October 2012,
                                             Wellington had drawn down 100% of the Treasury funding available to it.575 As
                                             required by the program, Wellington fully repaid Treasury’s equity investment of
                                             $1.1 billion and Treasury debt of $2.3 billion, with interest. As of June 30, 2013,
                                             Wellington’s PPIF still had approximately $5.6 million in cash to pay for final audits
                                             and other wind-down expenses.576
                                                                                  quarterly report to congress I July 24, 2013   145




PPIP Manager BlackRock Liquidates Holdings
On December 5, 2012, BlackRock announced it had liquidated its remaining PPIP
investments.577 According to Treasury, BlackRock’s PPIF paid Treasury $9.7 million
in warrant proceeds and $393 million in gross income payments and capital gains
as of June 30, 2013.578 By the time its investment period terminated in October
2012, BlackRock had drawn down about 76% of the Treasury funding available to
it, leaving $337 million in unused debt financing.579 As required by the program,
BlackRock fully repaid Treasury’s equity investment of $528.2 million and Treasury
debt of $1.1 billion, with interest.580 As of June 30, 2013, BlackRock’s PPIF still
had approximately $3.2 million in cash to pay for final audits and other wind-down
expenses.581

PPIP Manager AllianceBernstein Liquidates Holdings
On October 9, 2012, AllianceBernstein announced it had liquidated its remaining
PPIP investments.582 According to Treasury, AllianceBernstein paid Treasury
$12 million in warrant proceeds and $481.2 million in gross income payments
and capital gains as of June 30, 2013.583 The PPIF drew down 92% of the funds
available to it, leaving $259.1 million in unused funding. AllianceBernstein fully
repaid Treasury’s equity investment of $1.1 billion and its Treasury debt of $2.1
billion, with interest.584 As of June 30, 2013, AllianceBernstein’s PPIF had no cash
remaining but had not yet been formally dissolved, according to Treasury.585

PPIP Manager RLJ Western Dissolves PPIF
On November 20, 2012, RLJ Western announced it had liquidated its remaining
PPIP investments.586 According to Treasury, RLJ Western paid Treasury $10.5
million in warrant proceeds and $420.9 million in gross income payments and
capital gains as of June 30, 2013.587 When RLJ Western terminated its investment
period in July 2012, it had drawn down virtually 100% of the funds available
to it. RLJ Western fully repaid Treasury’s equity investment of $620.6 million
and Treasury debt of $1.2 billion, with interest.588 On December 31, 2012, RLJ
Western filed a formal certificate with the state of Delaware declaring that its PPIF
had been dissolved.589

PPIP Manager Invesco Dissolves PPIF
Invesco was the first of the PPIP funds to sell its portfolio, announcing the
liquidation on April 3, 2012.590 According to Treasury, Invesco paid Treasury $3.5
million in warrant proceeds and $139.1 million in gross income payments and
capital gains.591 Invesco used 68% of the funding available to it, leaving $825.1
million in unused funding. Invesco fully repaid Treasury’s equity investment of
$581 million and Treasury debt of $1.2 billion, with interest.592 On October 3,
2012, Invesco filed a formal certificate with the state of Delaware declaring that its
PPIF had been dissolved.593
146   special inspector general I troubled asset relief program




                                             Securities Purchased by PPIFs
                                             According to their agreements with Treasury, PPIP managers invested in both
                                             RMBS and CMBS, except for Oaktree, which invested only in CMBS.594 Figure
                                             2.5 shows the collective value of securities held by all PPIFs at the end of each
                                             calendar quarter from the beginning of the funds’ investment period, until all
                                             securities were sold in the quarter ended June 30, 2013, broken down by RMBS
                                             and CMBS.

                                             FIGURE 2.5

                                             INVESTMENTS BY PPIP FUNDS, 2009–2013 ($ BILLIONS)
                                             25



                                             20



                                             15



                                             10



                                              5



                                              0
                                                  Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213


                                                     Commercial Mortgage-Backed Securities Investments
                                                     Residential Mortgage-Backed Securities Investments

                                                  Notes: Numbers may not total due to rounding.

                                                  Sources: Treasury, PPIP Quarterly Reports, December 2009, March 2010, June 2010, September 2010, December 2010,
                                                  March 2011, June 2011, September 2011, December 2011, March 2012, June 2012, September 2012, December 2012,
                                                  March 2013, and June 2013.


                                                 PPIF investments were classified by underlying asset type. All non-agency
                                             RMBS investments were considered residential because the underlying assets were
                                             mortgages for residences with up to four dwelling units. For CMBS, the assets were
                                             commercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
                                             as warehouses), mobile home parks, mixed-use (combination of commercial and/or
                                             residential uses), and self-storage.
                                                 Non-agency RMBS and CMBS were classified by the degree of estimated
                                             default risk (sometimes referred to as “quality”). In general, the highest-quality
                                             rankings went to mortgages with the strictest requirements regarding borrower
                                             credit, completeness of documentation, and underwriting standards. Treasury char-
                                             acterized the investment-quality levels of risk for the types of mortgage loans that
                                             support non-agency RMBS as follows:595

                                             •	 Prime — mortgage loan made to a borrower with good credit that generally met
                                                the lender’s strictest underwriting criteria.
                                                                              quarterly report to congress I July 24, 2013   147




•	 Alt-A — mortgage loan made to a borrower with good credit but with limited
   documentation or other characteristics that do not meet the standards for prime
   loans.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
   gave the borrower choices about how much interest and principal to pay each
   month, which could result in an increasing loan principal balance over time.
•	 Other (RMBS) — RMBS that did not meet the definitions for prime, Alt-A,
   subprime, or option ARM but met the definition of “eligible assets” above.

   Treasury characterized CMBS according to the bond’s degree of “credit en-
hancement,” i.e., the percentage of the underlying mortgage pool by balance that
must be written down before the bond had any losses.596

•	 Super Senior — most senior originally rated AAA bonds in a CMBS
   securitization with the highest level of credit enhancement.
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before
   junior creditors.597
•	 AJ (Junior) — the most junior bond in a CMBS securitization with a AAA rating
   at issuance.
•	 Other (CMBS) — CMBS that did not meet the definitions for super senior,
   AM, or AJ but met the definition of “eligible assets” above.
148            special inspector general I troubled asset relief program




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
      7(a) Loan Program: SBA loan program
                                                      Business Administration (“SBA”) Loan Support Initiative
      guaranteeing a percentage of loans for
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
      small businesses that cannot otherwise
                                                      Businesses (“UCSB”) program, which according to Treasury was designed to
      obtain conventional loans at reasonable
                                                      encourage banks to increase lending to small businesses. Through UCSB, Treasury
      terms.
                                                      purchased $368.1 million in securities backed by pools of loans from the Small
                                                      Business Administration’s (“SBA”) 7(a) Loan Program.598
      Pool Assemblers: Firms authorized
                                                          Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
      to create and market pools of SBA-
                                                      (“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
      guaranteed loans.
                                                      March 2, 2010, and August 27, 2010, respectively.599 Under the governing agree-
                                                      ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
      SBA Pool Certificates: Ownership
                                                      from Coastal Securities and Shay Financial without confirming to the counterpar-
      interest in a bond backed by SBA-
                                                      ties that Treasury was the buyer.600 From March 19, 2010, to September 28, 2010,
      guaranteed loans.
                                                      Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
                                                      Shay Financial for a total of approximately $368.1 million.601
                                                          In a series of sales from June 2011 through January 2012, Treasury sold all its
      For more information on SBA 7(a) Loan           SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.602
      Program mechanics and TARP support              According to Treasury, over the life of the program Treasury also had received
      for the program, see SIGTARP’s April            $29 million and $13.3 million in amortizing principal and interest payments,
      2010 Quarterly Report, pages 105-106.           respectively.603

      For a full listing of the SBA 7(a)
      securities Treasury purchased through
      UCSB, including investment amounts,
      sales proceeds, and other proceeds
      received by Treasury, see SIGTARP’s
      April 2012 Quarterly Report, page 134.
                                                                                quarterly report to congress I July 24, 2013         149




Automotive Industry Support Programs
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent the collapse of the U.S. auto industry, which would have posed a significant
risk to financial market stability, threatened the overall economy, and resulted
in the loss of one million U.S. jobs.”604 As of June 30, 2013, General Motors
Company (“GM”) and GMAC Inc., now Ally Financial Inc. (“Ally Financial”),
remain in TARP, owing $17.2 billion and $14.6 billion, respectively, to taxpayers.605
    Treasury owned 14% of GM’s outstanding common stock as of June 6, 2013,
the most recent date that it disclosed share ownership.606 As of June 30, 2013,
Treasury owned 74% of Ally Financial’s common stock and $5.9 billion of its man-
datorily convertible preferred shares (“MCP”).607 Taxpayers have lost $9.2 billion on
the TARP investment in GM as of June 30, 2013, from selling GM common stock
at prices below the Government’s cost basis, according to Treasury.608 Taxpayers
                                                                                             For more information on GMAC/Ally
also lost $2.9 billion on Treasury’s investment in Chrysler LLC, which exited TARP           Financial, see “Taxpayers Continue to
in 2011. A fourth company, Chrysler Financial Services Americas LLC (“Chrysler               Own 74% of GMAC (Rebranded as
Financial”), repaid all its TARP money in 2009. ASSP was terminated in April 2010            Ally Financial Inc.) from the TARP
and AWCP was terminated in July 2009.                                                        Bailouts,” in SIGTARP’s January 2013
    Treasury initially obligated approximately $84.8 billion in TARP funds through           Quarterly Report, pages 147-164.
the three auto assistance programs to GM, Ally Financial, Chrysler, and Chrysler
Financial.609 Ultimately, Treasury spent $79.7 billion in TARP funds on the auto
bailout after $2.1 billion in loan commitments to Chrysler were never drawn down,
and all available funding for the ASSP program was not used.610 As of June 30,
2013, a total of $34.8 billion spent on the auto assistance programs has not been
repaid to taxpayers.
    Treasury’s investments in AIFP and the two related programs and the compa-
nies’ principal repayments are summarized in Table 2.40.
150   special inspector general I troubled asset relief program




                                             TABLE 2.40
                                              TARP AUTOMOTIVE PROGRAM INVESTMENTS AND PRINCIPAL REPAYMENTS,
                                              AS OF 6/30/2013 ($ BILLIONS)
                                                                                                                  Ally
                                                                                            General          Financial                              Chrysler
                                                                                            Motorsa              Inc.b          Chryslerc           Financial                 Total
                                              Automotive Industry
                                                                                                                                                                                    
                                              Financing Program
                                                 Treasury Investment                           $49.5              $17.2               $10.5                $1.5             $78.6
                                                 Principal Repaid                                32.3                 2.5                7.6                 1.5              43.9
                                              Auto Supplier Support
                                                                                                                                                                                    
                                              Program
                                                 Treasury Investment                               0.3                                   0.1                                    0.4
                                                 Principal Repaid                                  0.3                                   0.1                                    0.4
                                              Auto Warranty
                                                                                                                                                                                    
                                              Commitment Program
                                                 Treasury Investment                               0.4                                   0.3                                    0.6
                                                 Principal Repaid                                  0.4                                   0.3                                    0.6
                                              Total Treasury Investment                       $50.2               $17.2              $10.9                $1.5              $79.7
                                              Total Principal Repaid                          $32.9                 $2.5               $8.0               $1.5              $44.9
                                              Still Owed to Taxpayers                         $17.2               $14.6                $2.9               $0.0              $34.8
                                              Realized Loss on
                                                                                              ($9.2)                                 ($2.9)                     
                                              Investment
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Principal repaid includes a series of debt payments totaling $147.1 million recovered from GM bankruptcy, about $620 million from
                                                 Treasury’s trading plan sales of GM shares in May 2013, and about $960 million from trading plan shares sold in June 2013.
                                              b
                                                  Investment includes $884 million loan to GM, which it invested in GMAC in January 2009.
                                              c
                                                 Principal repaid includes $560 million Fiat paid in July 2011 for Treasury’s remaining equity stake in Chrysler and for Treasury’s
                                                  rights under an agreement with the UAW retirement trust related to Chrysler shares.

                                              Sources: Treasury, Transactions Report, 6/28/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Section 105(a)
                                              Report, 6/10/2013; Treasury, Section 105(a) Report, 7/10/2013; Treasury, Daily TARP Update, 7/1/2013.



                                             Automotive Industry Financing Program
                                             AIFP, the largest of the three auto bailout programs, has not expended any TARP
                                             funds for the automotive industry since December 30, 2009.611 Of AIFP-related
                                             loan principal repayments and share sale proceeds, as of June 30, 2013, Treasury
                                             has received approximately $32.3 billion related to its GM investment, $2.5 billion
                                             related to its Ally Financial/GMAC investment, $7.6 billion related to its Chrysler
                                             investment, and $1.5 billion related to its Chrysler Financial investment.612 In
                                             addition to principal repayments, Treasury had received approximately $5.3 billion
                                             in dividends and interest as of June 30, 2013.613

                                             GM
                                             GM is still in TARP and taxpayers are owed $17.2 billion for the investment in
                                             GM. In return for its investment, Treasury held 14% of GM’s common stock as
                                             of June 6, 2013, the latest date for which share ownership has been disclosed.614
                                             Treasury provided approximately $49.5 billion to GM through AIFP, the largest of
                                             the automotive rescue programs. Of that amount, $19.4 billion was provided before
                                                                                 quarterly report to congress I July 24, 2013    151




bankruptcy and $30.1 billion was provided as financing during bankruptcy. During
bankruptcy proceedings, Treasury’s loans were converted into common or preferred
stock in GM or debt assumed by GM. As a result of GM’s bankruptcy, Treasury’s
investment was converted to a 61% common equity stake in GM, $2.1 billion in
preferred stock in GM, and a $7.1 billion loan to GM ($6.7 billion through AIFP
and $360.6 million through AWCP). As part of a credit agreement with Treasury,
$16.4 billion in TARP funds were placed in an escrow account that GM could
access only with Treasury’s permission.615 Treasury also holds an administrative
claim in the company’s bankruptcy with an outstanding principal amount of
approximately $838.7 million. However, according to Treasury, it does not expect
to recover any significant additional proceeds from this claim.616

Debt Repayments
As of June 30, 2013, GM had made approximately $756.7 million in dividend
and interest payments to Treasury under AIFP.617 GM repaid the $6.7 billion loan
provided through AIFP with interest, using a portion of the escrow account that
had been funded with TARP funds. What remained in escrow was released to GM
with the final debt payment by GM.618

Sale of GM Common Stock and GM’s Repurchase of Preferred Shares
From Treasury
In November and December 2010, GM successfully completed an initial public
offering (“IPO”) in which GM’s shareholders sold 549.7 million shares of common
stock and 100 million shares of Series B mandatorily convertible preferred shares
(“MCP”) for total gross proceeds of $23.1 billion.619 As part of the IPO priced at
$33 per share, Treasury sold 412.3 million common shares for $13.5 billion in net
proceeds (after taking into account underwriting fees associated with the IPO),
reducing its number of common shares to 500.1 million and its ownership in GM
from 61% to 33%.620 On December 15, 2010, GM repurchased Treasury’s Series A
preferred stock (83.9 million shares) for total proceeds of $2.1 billion and a capital
                                                                                              For more on the results of GM’s
gain to Treasury of approximately $41.9 million.621 On January 13, 2011, Treasury’s
                                                                                              November 2010 IPO, see SIGTARP’s
ownership in GM was diluted from 33% to 32% as a result of GM contributing 61
                                                                                              January 2011 Quarterly Report,
million of its common shares to fund GM’s hourly and salaried pension plans.622               page 163.
    On December 21, 2012, Treasury sold 200 million common shares to GM
at $27.50 per share, for total proceeds of $5.5 billion.623 According to Treasury,
the stock sale was the first step in a plan to fully exit its GM investment by early
2014.624 As part of the transaction, Treasury agreed, among other things, to waive
previously required reports from GM on its liquidity and budget and to drop a ban
on GM owning private aircraft for its executives’ use.625 GM said it would take a
charge of approximately $400 million for the share buyback.626 On January 18,
2013, Treasury announced the initiation of its first pre-arranged written trading
plan in conjunction with the divestment of its remaining shares.627 Treasury sold
58.4 million shares under the trading plan which expired on April 17, 2013.628 On
May 6, 2013, Treasury announced a second pre-arranged written trading plan that
will end on September 13, 2013.629 Under the latest trading plan, Treasury said it
152               special inspector general I troubled asset relief program




                                                                          received proceeds of about $620 million and $960 million from shares sold in May
                                                                          and June, respectively, but Treasury did not disclose the number of GM shares
                                                                          it sold.630 On June 6, 2013, Treasury sold 30 million common shares in a public
                                                                          equity offering that raised $1 billion.631 As of June 6, 2013, according to Treasury,
                                                                          it owned 189.2 million common shares of GM, or about 14% of the company’s
                                                                          outstanding stock.632 However, that ownership stake did not reflect Treasury’s sales
                                                                          of GM shares during May and June under its ongoing trading plan.633
                                                                              Taxpayers have realized losses from an accounting standpoint of $9.2 billion on
                                                                          all GM common shares sold from November 2010 through June 30, 2013, accord-
                                                                          ing to Treasury.634 The losses are due to Treasury’s sales of GM common shares at
                                                                          prices below its cost basis of $43.52 per share. Table 2.41 summarizes Treasury’s
                                                                          sales of GM stock.

      TABLE 2.41
       Treasury’s Sales of GM Common Shares
                                                                                            Share               Proceeds                Realized Loss                # Shares               Remaining
       Date                    Description                    # Shares Sold                 Price             ($ Millions)                ($ Millions)              Remaining             Equity Owned
                               During GM’s bankruptcy, Treasury received an equity stake in GM with a cost basis of $43.52
      July 2009                                                                                                                                                  912,394,068                            61%
                               per common share.
                               Initial Public
      11/18/2010                                                358,546,795               $32.75                  $11,743                         $3,771         553,847,273                         36.9%
                               Offering (IPO)
      11/26/2010               IPO Overallotment                  53,782,019              $32.75                      1,761                           566        500,065,254                            32%
                               GM buyback of
      12/21/2012                                                200,000,000               $27.50                      5,500                         3,203        300,065,254                            22%
                               shares
      1/18/2013 –
                               1st trading plan                   58,392,078             $28.04a                      1,638                           903        241,673,176                         17.7%
      4/11/2013
      5/6/2013 –               2nd trading plan –
                                                                 22,478,187b                    NA                     620c                          210c       219,194,989d                                 NA
      5/31/2013                May sales
                               Public equity
      6/12/2013                                                   30,000,000              $34.41                      1,032                           273       189,194,989d                         13.8%
                               offering
      6/1/2013 –               2nd trading plan –
                                                                              NA                NA                     960c                          267c                      NA                            NA
      6/30/2013                June sales
       Total                                                   723,199,079                                       $23,254                         $9,193
       Notes: Numbers may not total due to rounding. “NA” means data not available. In most instances, dates reflect when Treasury received proceeds.
       a
         Weighted average price of shares sold. Treasury’s January 18, 2013, trading plan gave Citigroup and JPMorgan the discretion to sell up to 58,392,078 shares of common stock during a three-month
          period ending on April 17, 2013. Sales were completed on April 11, 2013.
       b
          Estimate based on Treasury’s share ownership disclosed in prospectus filed with the SEC on 6/6/2013.
       c
          Estimate based on changes in Daily TARP Update on 6/3/2013, 6/13/2013, and 7/1/2013.
       d
          General Motors Company prospectus, 6/6/2013.

       Sources: Treasury, Transactions Report, 6/28/2013; Treasury, response to SIGTARP data call, 7/5/2013.
                                                                                 quarterly report to congress I July 24, 2013          153




    The exact number of GM common shares owned by Treasury as of June 30,
2013, has not been disclosed.635 However, based on the most recent disclosure that
Treasury owned 189.2 million GM shares after the public equity offering held on
June 6, 2013, in order to recoup its total investment in GM, Treasury will need
to recover an additional $18.8 billion in proceeds from future stock sales.636 This
translates to an average of $99.51 per share on its remaining common shares in
GM at that point in time, not taking into account dividend and interest payments
received from GM.637 The break-even price — $99.51 per share — is calculated by
dividing the $18.8 billion (the amount that remained outstanding to Treasury as of
June 6, 2013) by the 189.2 million remaining common shares owned by Treasury
on that date. If the $756.7 million in dividends and interest received by Treasury as
of June 6, 2013, is included in this computation, then Treasury will need to recover
$18.1 billion in proceeds, which translates into a break-even price of $95.51 per
share, not taking into account other fees or costs associated with selling the shares.

Ally Financial, formerly known as GMAC
Ally Financial is still in TARP and taxpayers are owed $14.6 billion for the TARP
investment in it. In return for its investment, as of June 30, 2013, Treasury holds
approximately 74% of Ally Financial’s common stock and $5.9 billion worth of
mandatorily convertible preferred shares (“MCP”). As of June 30, 2013, Ally
Financial had made one principal payment of $2.5 billion to Treasury since                    For a discussion of the history and
receiving bailout assistance four and a half years ago. The company also has paid             financial condition of Ally Financial,
a total of $3.4 billion in quarterly dividends to Treasury through June 30, 2013, as          see SIGTARP’s January 2013 Quarterly
required by the terms of the preferred stock that Ally Financial issued                       Report, pages 147-164.
to Treasury.638
     Ally Financial received $17.2 billion in three separate injections of TARP funds.
On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
from GMAC and received an additional $250 million in preferred shares through
warrants that Treasury exercised immediately at a cost of $2,500.639 In January
2009, Treasury loaned GM $884 million to invest in GMAC.640 In May 2009,
Treasury exchanged this $884 million debt for a 35% common equity ownership in
GMAC.641 On May 21, 2009, Treasury made an additional investment in GMAC
when it purchased $7.5 billion of MCP and received warrants that Treasury im-
mediately exercised for an additional $375 million in MCP at an additional cost of
approximately $75,000.642 On December 30, 2009, Treasury invested another $3.8
billion in GMAC, and Treasury received $2.5 billion in trust preferred securities
(“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants, which were
immediately exercised, to purchase an additional $127 million in TRUPS and
$62.5 million in MCP at an additional cost of approximately $1,270 and $12,500,
respectively.643 Additionally, Treasury converted $3 billion of its MCP into GMAC
common stock, increasing its common equity ownership from 35% to 56%.644 On
May 10, 2010, GMAC changed its name to Ally Financial Inc.645
     On December 30, 2010, Treasury announced the conversion of $5.5 billion
of its MCP in Ally Financial to common equity, increasing Treasury’s ownership
154              special inspector general I troubled asset relief program




                                                                 stake in Ally Financial’s common equity from 56% to 74%.646 On March 7, 2011,
                                                                 Treasury sold its $2.7 billion in TRUPS in Ally Financial in a public offering, result-
                                                                 ing in a $2.5 billion principal repayment to Treasury.647 As of June 30, 2013, no
 Figure 2.6                                                      other principal repayments have been made.
 OWNERSHIP IN ALLY FINANCIAL/GMAC                                    As a result of its conversion of MCP to common stock in Ally Financial, and
                                                                 for as long as Treasury maintains common equity ownership at or above 70.8%,
               GM Trust                                          Treasury can appoint six of the 11 directors on Ally Financial’s board.648 Treasury
 Third-Party
                        10%
                                                                 completed the initial round of appointments to its six new board seats in August
 Investors
                  8%                                             2012. On April 25, 2013, Treasury appointed Matthew Pendo to Ally Financial’s
 Cerberus 9%                                     United States
                                                                 board of directors.649 Pendo, who served as Treasury’s Chief Investment Officer
                                        74%      Department      for TARP until March 2013, replaced Kim S. Fennebresque, who was previously
                                                 of the
                                                 Treasury        appointed by Treasury in 2009.650 Fennebresque remained on the Ally Financial
                                                                 board as a non-Treasury representative and replaced John J. Stack, who did not
                                                                 stand for re-election to the board.651 On May 30, 2013, Treasury appointed Brian
                                                                 P. MacDonald, former Sunoco, Inc. Chief Executive Officer, to Ally Financial’s
Notes: Ownership as of March 31, 2013. Numbers may be            board.652
affected by rounding.
                                                                     The conversion of $5.5 billion of Treasury’s MCP diluted the shares of other
Source: Ally Financial, Inc., Amendment No. 8 to Form S-1,
www.sec.gov/Archives/edgar/data/40729/
                                                                 existing shareholders in Ally Financial. Following the conversion, the private equity
000119312513285728/d388008ds1a.htm, accessed                     firm Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%, third-party inves-
7/10/2013.
                                                                 tors collectively held 7.6%, an independently managed trust owned by GM held
                                                                 5.9%, and GM directly held a 4% stake in Ally Financial’s common equity.653 GM’s
                                                                 interests have since been consolidated in the trust. Figure 2.6 shows the break-
                                                                 down of common equity ownership in Ally Financial as of June 30, 2013.

                                                                 Proposed Ally Financial IPO
                                                                 On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
                                                                 an IPO with the Securities and Exchange Commission (“SEC”).654 The document
                                                                 includes a prospectus relating to the issuance of Ally Financial common stock.655
                                                                 The prospectus also outlines certain aspects of Ally Financial’s business operations
                                                                 and risks facing the company.656
                                                                     Ally Financial stated that the proposed IPO would consist of “common stock
                                                                 to be sold by the U.S. Department of the Treasury.”657 Ally Financial has disclosed
                                                                 additional details about its proposed IPO in several amended Form S-1 Registration
                                                                 statements filed over time with the SEC, the most recent on July 9, 2013.658

                                                                 Ally Financial Subsidiary Files for Chapter 11 Bankruptcy Relief
                                                                 On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
                                                                 Residential Capital, LLC, and certain of its subsidiaries (“ResCap”) filed for
                                                                 bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code, and that
                                                                 it was exploring strategic alternatives for its international operations.659 As a result
                                                                 of the Chapter 11 filing, Ally Financial said that it deconsolidated ResCap from
                                                                 its financial statements and wrote down its equity interest in ResCap to zero.660
                                                                 On June 26, 2013, the U.S. Bankruptcy Court approved Ally Financial’s proposed
                                                                 settlement to pay $2.1 billion to the ResCap estate for release from certain
                                                                 mortgage claims and liabilities.661 As part of the settlement, ResCap on June 13,
                                                                                  quarterly report to congress I July 24, 2013   155




2013, fully repaid Ally Financial’s secured claim for $1.13 billion owed under
existing credit facilities.662 Ally Financial said it would record a charge of about
$1.55 billion in the second quarter of 2013 related to the settlement, and would
make its settlement payment to the ResCap estate in the fourth quarter of 2013.663
The case is pending as ResCap and its creditors prepare a reorganization plan.

Ally Financial Agrees to Sell International Assets for $9.2 Billion
On November 21, 2012, Ally Financial announced it had reached agreements to
sell its remaining international assets to several buyers for a total of approximately
$9.2 billion in proceeds.664 Among the buyers was General Motors Financial
Company, Inc. (“GM Financial”), which agreed to purchase Ally Financial’s auto
finance operations in Europe and Latin America and its 40% stake in a joint
venture in China. On April 2, 2013, Ally Financial said that it had completed the
sale of most of its operations in Europe and Latin America to GM Financial and
received $2.6 billion in total proceeds, which included a $2.4 billion payment at
closing and $190 million in dividends paid prior to the closing.665 On June 3, 2013,
Ally Financial said it completed the sale of its business in France.666 The company
said it expected the remaining sales to GM Financial of its Brazil operations and a
joint venture stake in China to close later in 2013.667
    As part of the international sales, Ally Financial also agreed to sell its Canadian
auto finance operation to Royal Bank of Canada for $4.1 billion and its Mexican
insurance business to ACE Group for $865 million.668 The Canadian operations
sale was completed on February 1, 2013, and the Mexican insurance business sale
closed on May 2, 2013, according to Ally Financial.669 Table 2.42 summarizes Ally
Financial’s international and domestic asset sales in 2013.

Ally Bank Agrees to Sell Mortgage Servicing Rights for $865 Million
Ally Financial’s banking subsidiary, Ally Bank, announced in March 2013 that it
agreed to sell all its agency mortgage servicing rights to two buyers for a total of
approximately $865 million.670 In one transaction, announced on March 12, 2013,
Ally Bank agreed to sell a portfolio of agency mortgage servicing rights to Ocwen
Financial Corp. for approximately $585 million.671 The sale included the transfer of
Ally Bank’s mortgage liabilities for most of the loans, which had an unpaid principal
balance of approximately $90 billion as of January 31, 2013. In the second sale,
announced on March 21, 2013, Ally Bank said it agreed to sell its remaining
agency mortgage servicing rights to Quicken Loans for approximately $280
million.672 The portfolio held mortgages with an unpaid principal balance of about
$34 billion as of January 31, 2013. Both sales were completed on April 17, 2013,
according to Ally Bank, which said it received a combined $850 million in proceeds
from the transactions.673 Table 2.42 summarizes Ally Financial’s international and
domestic asset sales in 2013.
156   special inspector general I troubled asset relief program




                                             TABLE 2.42
                                              ALLY FINANCIAL - 2013 ASSET SALES                               ($ MILLIONS)

                                                                      Sale Proceeds                       Buyer      Sale Closed
                                              Ally Credit
                                                                                                 Royal Bank of
                                              Canada,                             $4,100                                     2/1/13
                                                                                                       Canada
                                              ResMor Trust
                                              Ally Bank                                                    Walter
                                              wholesale                                N/A            Investment           2/28/13
                                              mortgage unit                                          Management
                                              Units in Latin
                                              America,                            $2,600             GM Financial           4/2/13a
                                              Europe, China
                                              Ally Bank                                                 Ocwen
                                              mortgage                               $850            Financial,            4/17/13
                                              servicing                                         Quicken Loans
                                              ABA Seguros
                                                                                     $865             ACE Group              5/2/13
                                              Insurance
                                              Total
                                                                                 $8,415                                               
                                              Proceeds:
                                              Notes:
                                              a
                                                The closing on 4/2/2013 did not include China and Brazil assets, which are expected to
                                                 close later in 2013.

                                              Sources: Ally Financial SEC filings, press releases.



                                             Chrysler
                                             Chrysler is no longer in TARP and taxpayers suffered a $2.9 billion loss on
                                             the TARP investment in Chrysler. Through October 3, 2010, Treasury made
                                             approximately $12.5 billion available to Chrysler directly through AIFP in three
                                             stages: $4 billion before bankruptcy to CGI Holding LLC, which was the parent
                                             of Chrysler and Chrysler Financial; $1.9 billion in financing to Chrysler during
                                             bankruptcy; and $6.6 billion to Chrysler afterwards.674 In exchange, Treasury
                                             received 10% of the common equity in Chrysler.
                                                 On April 30, 2010, following the bankruptcy court’s approval of the plan
                                             of liquidation for Chrysler, the $1.9 billion loan was extinguished without
                                             repayment. In return, Treasury retained the right to recover proceeds from the
                                             sale of assets that were collateral for the loan from the liquidation of Chrysler
                                             assets.675 According to Treasury, it is unlikely to fully recover its initial investment of
                                             approximately $1.9 billion related to the loan.676 As of June 30, 2013, Treasury had
                                             recovered approximately $57.4 million from asset sales during bankruptcy.677 Of the
                                             $4 billion lent to Chrysler’s parent company, CGI Holding LLC, before bankruptcy,
                                             $500 million of the debt was assumed by Chrysler while the remaining $3.5 billion
                                             was held by CGI Holding LLC.678 Under the terms of this loan agreement, as
                                             amended on July 23, 2009, Treasury was entitled to the greater of approximately
                                             $1.4 billion or 40% of any proceeds that Chrysler Financial paid to its parent
                                             company, CGI Holding LLC, after certain other distributions were made.679 On
                                             May 14, 2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion
                                             loan to CGI Holding LLC.680
                                                                                 quarterly report to congress I July 24, 2013   157




    On May 24, 2011, Chrysler used the proceeds from a series of refinancing
transactions and an equity call option exercised by Fiat North America LLC (“Fiat”)
to repay the loans from Treasury and the Canadian government.681 The repaid loans
were made up of $6.6 billion in post-bankruptcy financing (of which $2.1 billion
was never drawn down), and the $500 million in debt assumed by Chrysler.682
Treasury terminated Chrysler’s ability to draw the remaining $2.1 billion TARP
loan.683
    Over time, Fiat increased its ownership of Chrysler. On July 21, 2011, Treasury
sold to Fiat for $500 million Treasury’s remaining equity ownership interest in
Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights to receive pro-
ceeds under an agreement with the United Auto Workers retiree trust pertaining to
the trust’s shares in Chrysler.684
    As of July 21, 2011, the Chrysler entities had made approximately $1.2 billion
in interest payments to Treasury under AIFP.685

Chrysler Financial
Chrysler Financial is no longer in TARP, having fully repaid the TARP investment.
In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
fully repaid the loan in addition to approximately $7.4 million in interest
payments.686 In connection with the $3.5 billion pre-bankruptcy loan remaining
with CGI Holding LLC, the parent company of Chrysler (the bankrupt entity)
and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
CGI Holding LLC, after certain other distributions were made.687 On May 14,
2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
Financial.688 Seven months later, on December 21, 2010, TD Bank Group
announced that it had agreed to purchase Chrysler Financial from Cerberus, the
owner of CGI Holding LLC, for approximately $6.3 billion.689 TD Bank Group
completed its acquisition of Chrysler Financial on April 1, 2011, and has rebranded
Chrysler Financial under the TD Auto Finance brand.690

Auto Supplier Support Program (“ASSP”)
On March 19, 2009, Treasury announced a commitment of $5 billion to
ASSP to “help stabilize the automotive supply base and restore credit flows in a
critical sector of the American economy.”691 Because of concerns about the auto
manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
from banks by using their receivables as collateral. ASSP enabled automotive parts
suppliers to access Government-backed protection for money owed to them for the
products they shipped to manufacturers. Under the program, Treasury made loans
for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid in
April 2010.692
158   special inspector general I troubled asset relief program




                                             Auto Warranty Commitment Program (“AWCP”)
                                             AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
                                             and GM vehicle warranties during the companies’ restructuring in bankruptcy.693
                                             Treasury obligated $640.8 million to this program — $360.6 million for GM
                                             and $280.1 million for Chrysler.694 On July 10, 2009, the companies fully repaid
                                             Treasury upon their exit from bankruptcy.695
              Rising Redefaults of HAMP
              Mortgage Modifications Hurt
Sect io n 3
              Homeowners, Communities,
              and Taxpayers
160   special inspector general I troubled asset relief program
                                                                                                                                  quarterly report to congress I July 24, 2013             161




                                         i
Introduction
More than four years ago, in April 2009, the Administration launched its program
to support homeowners under TARP, the Home Affordable Modification Program
(“HAMP”).ii HAMP has been the centerpiece in Treasury’s efforts as outlined by
Congress through the TARP legislation to “[protect] the interests of taxpayers”
and “help families keep their homes.”696 While HAMP has helped about 865,000
homeowners avoid foreclosure through permanent mortgage modifications, more
than 306,000 homeowners have redefaulted out of the program–often into a less
advantageous private sector modification or even worse, into foreclosure. Also,
of homeowners still in an active HAMP permanent modification, more than
88,000 have missed one to two monthly mortgage payments and thus are at risk of
redefaulting out of the program.697, iii
    Twenty-two percent of homeowners who have redefaulted on their HAMP
permanent mortgage modifications have moved into the foreclosure process. The
Administration’s stated goal for the housing initiative was “to help as many as three
to four million financially struggling homeowners avoid foreclosure by modifying
loans to a level that is affordable for borrowers now and sustainable over the long
term.”698 However, since 2009, during each year of the program, an increased
number of homeowners redefaulted on HAMP permanent mortgage modifications.
Redefault rates of the oldest 2009 HAMP permanent mortgage modifications have
continued to increase as they age at a redefault rate of 46%. The 2010 HAMP
permanent mortgage modifications are redefaulting at a rate of 38%.699 Treasury’s
data continue to demonstrate that the longer homeowners remain in HAMP,
the greater the chance that they will redefault on their permanent modification
and fall out of the TARP program. For the substantial number of homeowners
who redefault, their modification was not sustainable. It is crucial that Treasury
recognize this problem and take proactive steps to ensure that HAMP lives up to its
promise and potential.
    In addition to the hardship placed on families and communities, HAMP
redefaults cost taxpayers money. As of April 30, 2013, $815 million (18% of TARP                                                               For more on SIGTARP’s
funds spent for all HAMP permanent modifications) has been spent on the more                                                                   recommendations to Treasury on HAMP
than 163,000iv HAMP permanent modifications that redefaulted, according to                                                                     redefaults, see Section 5 of this report,
Treasury.700 Homeowners who receive a HAMP permanent modification but end                                                                      and SIGTARP’s April 2013 Quarterly
up losing their home to foreclosure or fall out of the TARP program are not being                                                              Report, pages 10-11, 179-182, and
helped to keep their homes as TARP intended, and taxpayers lose the positive                                                                   251-252.
impact these funds were to provide for the individual family and the community
at large.


i	SIGTARP is issuing this report under the Emergency Economic Stabilization Act. It is not an audit or evaluation under the Inspector
     General Act of 1978 as amended.
ii	In this report, “HAMP” refers to the original HAMP First Lien Modification Program, which Treasury later renamed HAMP Tier 1.
iii	In its “Mortgage Metrics Report, First Quarter 2013,” OCC compared a snapshot of HAMP permanent modifications and private
     modifications, from 2011 and 2012, between three and 15 months after the modifications became effective, and 60 or more days
     late on payments.
iv	HAMP also covers loans owned by the two Government-sponsored entities (“GSEs”), Fannie Mae and Freddie Mac. TARP funds
     are used to pay incentives for non-GSE, HAMP permanent modifications. The GSEs pay for GSE-HAMP modifications; 142,727
     homeowners have redefaulted on GSE-HAMP permanent modifications. Table 3.1 provides additional information on the annual and
     cumulative activity of non-GSE HAMP permanent modifications and GSE-HAMP permanent modifications.
162            special inspector general I troubled asset relief program




                                                           The Administration’s recent announcement that the HAMP application period
                                                      will be continued for an additional two years to December 31, 2015, gives Treasury
                                                      an opportunity to bring more struggling homeowners into the program, and reduce
                                                      the number of homeowners who fall out of the program. Homeowners now have
                                                      an additional two years to apply to HAMP, and payments on modified loans will be
                                                      disbursed until 2021. That means that Treasury still has time to improve the
                                                      program to help homeowners.
                                                           SIGTARP has made four recommendations to Treasury on how to improve
                                                      the efficiency and effectiveness of the HAMP program by curbing HAMP
                                                      redefaults, including conducting further research into the causes of redefault;
                                                      requiring servicers to develop and use an “early warning system” to actively reach
                                                      out to homeowners who may be at risk of redefaulting; and providing help and
                                                      information to homeowners who have redefaulted. Treasury recently agreed to
                                                      implement SIGTARP’s recommendations to minimize redefaults.701 Once fully
                                                      implemented, these recommendations would help ensure that homeowners who
                                                      receive HAMP permanent mortgage modifications have affordable and sustainable
                                                      mortgages and remain in their homes.
                                                           While it is Treasury’s responsibility to conduct this research based on existing
                                                      data as well as new research that Treasury should undertake, SIGTARP conducted
                                                      a review of Treasury’s existing data on HAMP permanent mortgage modifica-
                                                      tions to homeowners who have redefaulted. This data shows some clear patterns.
                                                      Homeowners who are most likely to redefault: (1) received the least reduction in
                                                      their monthly mortgage payment and overall debt, (2) are still underwater on their
                                                      mortgage, and (3) have subprime credit scores at the time of modification as well as
                                                      a high overall debt burdens. Treasury should use these observations and augment
                                                      them with its own analysis, as SIGTARP has recommended.
                                                           As our review indicates, with each day that passes, more and more homeowners
                                                      fall out of the HAMP program. To protect the interests of both homeowners and
                                                      taxpayers, Treasury should take action so that as many homeowners as possible
                                                      can be helped to keep their homes – particularly those who have redefaulted,
                                                      are redefaulting, or are at risk of redefault – and can permanently sustain their
                                                      mortgages. It is crucial that HAMP fulfill its intent to help homeowners.




                                                      TARP and Loan Modifications
                                                      In the midst of the 2008 financial crisis, Congress authorized TARP, directing
      For more information on HAMP                    Treasury to create foreclosure mitigation efforts that would maximize assistance for
      mortgage modifications, see Section             homeowners, minimize foreclosures, and facilitate loan modifications to prevent
      2 of this report, “Housing Support              avoidable foreclosures.702 Some Members of Congress would not authorize TARP
      Programs.”                                      until they were assured that Treasury was required to use some TARP funds to
                                                      directly help homeowners avoid foreclosure.703
                                                          In 2009, Treasury launched its signature mortgage modification program,
                                                      HAMP. Under this program, homeowners who are in default on their non-GSE
                                                      mortgages or at imminent risk of default can apply to their mortgage servicer
                                                                             quarterly report to congress I July 24, 2013   163




for a loan modification that should make the loan more affordable by reducing
monthly payments. Under HAMP, the mortgage servicer, mortgage investors, and
homeowner are all eligible for incentive payments that are paid from TARP funds.
(Homeowner incentives are paid to servicers that, in turn, apply the payment to a
homeowner’s mortgage).704 Treasury obligated $19.1 billion for the HAMP First-
Lien Modification Program. As of April 30, 2013, Treasury has expended only
$4.4 billion of the $19.1 billion (23%) on HAMP permanent modifications.705
    Homeowners participating in HAMP are supposed to first receive a trial
mortgage modification for three to four months and they may or may not
subsequently receive a permanent mortgage modification. A trial modification
will not help a homeowner avoid foreclosure in the long run, only a permanent
modification can help do that. Once a homeowner secures a HAMP permanent
modification, TARP-funded incentive payments can be disbursed. Homeowners
have until December 31, 2015, to apply for a HAMP modification; TARP incentive
payments can last for five years, until as late as 2021.706

Redefaults on Permanent Modifications Are Increasing
According to Treasury, as of April 30, 2013, of the approximately 1.2 million
homeowners (TARP and GSE HAMP combined) who received a HAMP
permanent modification, 306,538 homeowners (26%) fell three months behind in
payments and, thus, redefaulted.707 However, this percentage includes all HAMP
modifications since the start of the program. The longer a homeowner remains in
HAMP, the more likely he or she is to redefault out of the program. Redefaults of
the oldest HAMP modifications are at a 46% redefault rate, a rate that continues
to increase as the modifications age. These homeowners fell out of the HAMP
program, and their HAMP permanent modification was not sustainable. Once
again, they risked losing their homes and some may have lost their homes.
    For the more than 306,000 homeowners who have redefaulted on permanent
mortgage modifications since HAMP began, the modification they received
was not sustainable. Since HAMP’s inception in 2009, the cumulative number
of homeowners who have received permanent modifications and subsequently
redefaulted has increased each year.708 The percentage of the total, cumulative
number of homeowners who redefaulted also has risen every year—from 1% at the
end of 2009 to 26% in the first four months of 2013.709 Table 3.1 provides detail
on the annual and cumulative number and percentage of homeowners in HAMP
permanent modifications who have redefaulted over the life of HAMP.
164      special inspector general I troubled asset relief program




      TABLE 3.1
       ANNUAL AND CUMULATIVE HAMP PERMANENT MODIFICATION ACTIVITY, AS OF 4/30/2013
                              Permanent Modifications                               Active Modifications                                     Redefaulted Modifications
                                                                                                                                                                             Redefault
                                                                                                                                                                               Rate as
                                                                                                            As Percent Of                                                Percentage of
                                                                                                             Permanents                                                    Permanents
                                    Annual        Cumulative               Annual        Cumulative           Cumulative                Annual        Cumulative            Cumulative
                  2009              23,633              23,633             23,502              23,502                    99%                 129                129                        1%
                  2010             243,262            266,895            214,014             237,516                     89%            29,015              29,144                     11%
                  2011             185,254            452,149            125,515             363,031                     80%            59,080              88,224                     20%
       TARP
                  2012             114,745            566,894              54,388            417,419                     74%            58,860            147,084                      26%
                  2013              33,258            600,152              15,638            433,057                     72%            16,727            163,811                      27%
                  Total           600,152                               433,057                                                       163,811                                                
                  2009              43,305              43,305             42,963              42,963                    99%                 339                339                        1%
                  2010             269,450            312,755            241,151             284,114                     91%            27,730              28,069                         9%
                  2011             168,423            481,178            115,694             399,808                     83%            51,287              79,356                     16%
       GSE
                  2012              87,280            568,458              32,780            432,588                     76%            49,229            128,585                      23%
                  2013              16,976            585,434                (545)a          432,043                     74%            14,142            142,727                      24%
                  Total           585,434                               432,043                                                       142,727                                                
                  2009              66,938              66,938             66,465              66,465                    99%                 468                468                        1%
                  2010             512,712            579,650            455,165             521,630                     90%            56,745              57,213                     10%
                  2011             353,677            933,327            241,209             762,839                     82%           110,367            167,580                      18%
       Total
                  2012             202,025          1,135,352              87,168            850,007                     75%           108,089            275,669                      24%
                  2013              50,234          1,185,586              15,093            865,100                     73%            30,869            306,538                      26%
                  Total        1,185,586                                865,100                                                       306,538                                                
       Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2011; December 31, 2012; and April 30, 2013; as of April 30, 2013, of all permanent modifications, 13,948
       loans have been paid off and thus are not counted as redefaulted or active.
       a
         This number is negative due to change in status from GSE to non-GSE TARP of some mortgages with HAMP permanent modifications.

       Sources: Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, 5/23/2013, and 7/10/2013; Fannie Mae, responses to SIGTARP data
       calls, 4/19/2013, 5/22/2013, and 7/9/2013; SIGTARP, Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress,
       1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.



                                                                  The longer a homeowner stays in a HAMP permanent modification, the more
                                                              likely he or she is to redefault, with homeowners redefaulting on the oldest HAMP
                                                              permanent modifications at a rate of 46%. Of homeowners with the newest modi-
                                                              fications, those made permanent in early 2013, less than 1% had redefaulted.710
                                                              Treasury’s data shows that after homeowners’ modifications made in 2009, 2010, or
                                                              2011 had aged one year, between 11% and 21% had redefaulted.711 Approximately
                                                              half of all homeowners with HAMP permanent modifications received them in
                                                              2009 and 2010; at three years, between 37% and 42% of those homeowners had
                                                              redefaulted, with the lower rates for more recent modifications.712 However, for the
                                                              oldest of the HAMP permanent modifications, those that had aged 3.5 years, the
                                                              redefault rate was as high as 46%.713 Appendix F, Table F.2 provides detail on home-
                                                              owners with HAMP permanent modifications who redefaulted, by official quarter
                                                              the permanent modification began and length of time since the modification.
                                                                               quarterly report to congress I July 24, 2013   165




Thousands of Homeowners Are at Risk of Redefault
In addition to the homeowners who already have redefaulted out of HAMP,
thousands of more homeowners have fallen behind on payments following a
HAMP permanent mortgage modification and, thus, are at risk of redefaulting.
As of April 30, 2013, 865,100 homeowners were in an active HAMP permanent
mortgage modification.714 Of these homeowners, 88,813 (more than 10%) have
missed one or two payments but have not yet redefaulted.715
    On April 1, 2013, SIGTARP issued four recommendations to Treasury
addressing HAMP redefaults. One recommendation addressed these at risk loans:

       “Treasury should require servicers to develop and use an ‘early
       warning system’ to identify and reach out to homeowners that may be
       at risk of redefaulting on a HAMP mortgage modification, including
       providing or recommending counseling and other assistance and
       directing them to other TARP housing programs.”

   Treasury has recently agreed to implement this recommendation and can
take the first step of many by requiring servicers to flag homeowners with HAMP
permanent mortgage modifications who miss one to two payments.716 Treasury
can then require servicers to reach out to these borrowers in an effort to prevent
redefaults.




Redefault: Impact on States and
Communities
Homeowners are redefaulting in communities throughout the nation. While the
cumulative number of HAMP permanent modifications in certain states may not
be high, some states with a relatively small number of modifications have redefault
rates of 30% or more.717 For example, only 4,511 homeowners from Mississippi
received HAMP permanent modifications, but these homeowners are redefaulting
at a rate of 35%. Meanwhile, some states with the highest number of homeowners
who have redefaulted have the lowest redefault rates. For example, California,
which has the most homeowners in permanent modifications, has the highest
number of homeowners who redefaulted on HAMP permanent modifications,
more than 56,000, but has one of the lowest redefault rates, 20%. (Only Puerto
Rico and the Virgin Islands have lower rates.) Florida, Illinois, and Arizona have
the next highest number of homeowners who redefaulted, at 38,435, 17,897,
and 14,392, respectively. After Mississippi, Alabama has a redefault rate of 33%
for homeowners in HAMP permanent modifications, followed by Tennessee,
Delaware, Louisiana, and Missouri, where homeowners are redefaulting at a rate
of 32%. Tables 3.2-3.8 show regional and state breakdowns of the number of
homeowners with HAMP permanent modifications, the number of homeowners
166   special inspector general I troubled asset relief program




                                             with active permanent modifications, the number who have redefaulted on
                                             modifications, and the redefault rates.
                                                Tables F.3 and F.4 in Appendix F shows the number of homeowners with
                                             HAMP permanent modifications, the number of homeowners with active perma-
                                             nent modifications, the number who have redefaulted on modifications, and the
                                             redefault rates by Metropolitan Statistical Area.

                                             Table 3.2
                                              Redefaulted HAMP Permanent Modifications, by region, cumulative
                                              as of 4/30/2013
                                                                                     Permanent                         Active                Redefaulted
                                                                                    Modifications               Modifications               Modifications           Redefault Rate
                                              West                                          327,139                   256,809                         67,365                   21%
                                              Mountain West/ Plains                              66,097                   47,039                      17,879                   27%
                                              Southwest/ South Central                           98,647                   68,174                      28,885                   29%
                                              Midwest                                       186,770                   131,182                         53,112                   28%
                                              Mid-Atlantic/ Northeast                       256,384                   184,110                         69,403                   27%
                                              Southeast                                     250,549                   177,786                         69,894                   28%
                                              Total                                     1,185,586                    865,100                      306,538                      26%
                                              Notes: Includes GSE and non-GSE modifications. Of all permanent modifications, 13,948 loans have been paid off.

                                              Source: Treasury, response to SIGTARP data call, 6/13/2013.


                                             Figure 3.1
                                             REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY REGION, CUMULATIVE
                                             AS OF 4/30/2013

                                                  AK
                                                                                       MOUNTAIN WEST/
                                                                                           PLAINS
                                                                                           17,879                                      MIDWEST                      MID-ATLANTIC/
                                                                          WA                                                            53,112                       NORTHEAST
                                                                                            MT                                                                VT ME    69,403
                                                                                                       ND
                                                                     OR                                              MN                                                 NH
                                                                                                                                WI                           NY
                                                  WEST                            ID                      SD                                                             MA
                                                                                                                                        MI
                                                 67,365
                                                                                            WY
                                                                                                                      IA                                               CT RI
                                                                                                                                             OH         PA            NJ
                                                                                                          NE
                                                                            NV                                                   IL    IN                            DE
                                                                    CA                 UT                                                             WV VA        MD
                                                                                                 CO                   MO
                                                                                                               KS                           KY                    DC
                                                            HI                                                                                         NC
                                                                                                                                       TN
                                                                                   AZ                           OK        AR                           SC
                                                                                                 NM
                                                   GU                                                                                MS AL       GA           SOUTHEAST
                                                                                                           TX              LA                                   69,894

                                                                                                                                                       FL           PR   VI
                                                                                   SOUTHWEST/
                                                                                  SOUTH CENTRAL
                                                                                      28,885

                                                              WEST                                                              MIDWEST
                                                              MOUNTAIN WEST/PLAINS                                              MID-ATLANTIC/NORTHEAST
                                                              SOUTHWEST/SOUTH CENTRAL                                           SOUTHEAST
                                                                                                            quarterly report to congress I July 24, 2013           167




West
Table 3.3
 Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                    Permanent                        Active                Redefaulted
                                                                   Modifications              Modifications               Modifications           Redefault Rate
                                           WA         AK                        566                         405                         135                 24%
                                                      CA                  284,031                     225,023                      56,634                   20%
            AK
                                      OR              GU                            9                          6                           2                22%
                                                      HI                      4,399                      3,356                          964                 22%
                                                      OR                    13,089                       9,732                       3,172                  24%

                  GU                                  WA                    25,045                     18,287                        6,458                  26%
                                      CA              Total              327,139                     256,809                       67,365                  21%
                                                      Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                       HI                             Source: Treasury, response to SIGTARP data call, 6/13/2013.



       WEST                                >27%
       Percentage of Redefaults            25-27%
       on HAMP Permanent                   <25%
       Modifications



Mountain West/Plains
Table 3.4
 Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                    Permanent                        Active                Redefaulted
                                                                   Modifications              Modifications               Modifications           Redefault Rate

                            MT                        CO                    16,135                     12,227                        3,560                  22%
                                       ND
                                                      ID                      4,512                      3,247                       1,189                  26%
             ID                            SD         KS                      2,947                      1,991                          885                 30%
                             WY
                                                      MT                      1,335                         992                         296                 22%
                                           NE
       NV                                             ND                        190                         130                           47                25%
                  UT
                                 CO                   NE                      1,716                      1,133                          528                 31%
                                                KS
                                                      NV                    27,747                     18,938                        8,533                  31%
                                                      SD                        450                         297                         128                 28%
     MOUNTAIN WEST/                          >27%
                                             25-27%
     PLAINS                                  <25%
                                                      UT                    10,486                       7,683                       2,562                  24%
     Percentage of Redefaults on
     HAMP Permanent Modifications
                                                      WY                        579                         401                         151                 26%
                                                      Total                66,097                      47,039                      17,879                  27%
                                                      Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                      Source: Treasury, response to SIGTARP data call, 6/13/2013.
168   special inspector general I troubled asset relief program




       Southwest/South Central
       Table 3.5
        Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                               Permanent                        Active                Redefaulted
                                                                              Modifications              Modifications               Modifications           Redefault Rate

             AZ                               OK                 AR                      2,715                      1,811                          829                 31%
                       NM                                  AR
                                                                 AZ                    48,811                     33,728                      14,392                   29%
                                                           LA    LA                      7,210                      4,761                       2,334                  32%
                                         TX
                                                                 NM                      3,971                      2,867                       1,032                  26%
                                                                 OK                      2,959                      1,951                          921                 31%
                                                                 TX                    32,981                     23,056                        9,377                  28%
              SOUTHWEST/                                >27%     Total                98,647                      68,174                      28,885                  29%
                                                        25-27%
              SOUTH CENTRAL                             <25%     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.
              Percentage of Redefaults
              on HAMP Permanent                                  Source: Treasury, response to SIGTARP data call, 6/13/2013.
              Modifications



       Midwest
       Table 3.6
        Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                               Permanent                        Active                Redefaulted
                                                                              Modifications              Modifications               Modifications           Redefault Rate
                                                                 IA                      3,043                      2,002                          946                 31%
                     MN
                               WI                                IL                    62,999                     44,622                      17,897                   28%
                                              MI                 IN                    11,583                       7,954                       3,439                  30%
                       IA
                                                                 KY                      4,616                      3,103                       1,409                  31%
                                    IL   IN        OH
                                                                 MI                    35,503                     25,751                        9,194                  26%
                          MO
                                               KY                MN                    19,240                     13,565                        5,396                  28%
                                                                 MO                    12,491                       8,288                       3,973                  32%
               MIDWEST                              >27%
                                                                 OH                    25,446                     17,894                        7,216                  28%
               Percentage of Redefaults             25-27%
               on HAMP Permanent                    <25%         WI                    11,849                       8,003                       3,642                  31%
               Modifications
                                                                 Total              186,770                     131,182                       53,112                  28%
                                                                 Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                                 Source: Treasury, response to SIGTARP data call, 6/13/2013.
                                                                                                              quarterly report to congress I July 24, 2013           169




Mid-Atlantic/Northeast
Table 3.7
 Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                      Permanent                        Active                Redefaulted
                                                                     Modifications              Modifications               Modifications           Redefault Rate
                             VT    ME                   CT                    15,586                     10,974                        4,470                  29%

                                        NH              DC                      2,056                      1,526                          506                 25%
                        NY               MA             DE                      3,802                      2,534                       1,232                  32%
                                              RI
                                   CT
                   PA             NJ                    MA                    28,526                     20,628                        7,557                  26%
                                 DE                     MD                    38,194                     27,121                      10,678                   28%
             WV VA
             WV                MD
                              DC                        ME                      3,507                      2,370                       1,080                  31%
                                                        NH                      5,490                      3,808                       1,591                  29%
                                                        NJ                    40,030                     27,684                      11,960                   30%
       MID-ATLANTIC/                      >27%
                                          25-27%        NY                    57,271                     43,624                      13,154                   23%
       NORTHEAST                          <25%
       Percentage of                                    PA                    25,746                     17,436                        7,945                  31%
       Redefaults on HAMP
       Permanent Modifications                          RI                      5,884                      4,138                       1,693                  29%
                                                        VA                    27,588                     20,402                        6,767                  25%
                                                        VT                      1,034                         732                         273                 26%
                                                        WV                      1,670                      1,133                          497                 30%
                                                        Total              256,384                     184,110                       69,403                  27%
                                                        Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                        Source: Treasury, response to SIGTARP data call, 6/13/2013.



Southeast
Table 3.8
 Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                      Permanent                        Active                Redefaulted
                                                                     Modifications              Modifications               Modifications           Redefault Rate
                                  NC
             TN                                         AL                      7,142                      4,657                       2,341                  33%
                              SC
                                                        FL                  144,777                     104,959                      38,435                   27%
        MS    AL        GA
                                              PR        GA                    43,947                     30,812                      12,700                   29%
                                                        MS                      4,511                      2,866                       1,574                  35%
                                                   VI
                                  FL                    NC                    22,232                     15,259                        6,617                  30%
                                                        PR                      3,773                      3,114                          597                 16%
                                                        SC                    11,334                       7,678                       3,464                  31%
       SOUTHEAST                         >27%
       Percentage of                     25-27%         TN                    12,827                       8,435                       4,166                  32%
       Redefaults on HAMP                <25%
       Permanent Modifications                          VI                            6                          6                           0                 0%
                                                        Total              250,549                     177,786                       69,894                  28%
                                                        Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                        Source: Treasury, response to SIGTARP data call, 6/13/2013.
170   special inspector general I troubled asset relief program




                                             Redefault: Impact on Taxpayers Funding
                                             TARP
                                             Taxpayers have lost $815 million in TARP funds paid as incentives for HAMP
                                             permanent mortgage modifications for 163,811 homeowners who later
                                             redefaulted.718 As of April 30, 2013, Treasury has distributed $4.4 billion in TARP
                                             funds for 600,152 homeowners’ HAMP permanent modifications.719 According to
                                             Treasury, $2.2 billion of that was designated for investor incentives, $1.5 billion for
                                             servicer incentives, and $770 million for homeowner incentives.720 (Homeowner
                                             incentives are paid to servicers that, in turn, apply the payment to a homeowner’s
                                             mortgage).721 According to Treasury, 18% of those funds were paid for incentives on
                                             HAMP permanent modifications held by homeowners who later redefaulted.722
                                                 More than half of TARP funds that Treasury spent for HAMP permanent
                                             modifications that redefaulted were for mortgages currently serviced by three
                                             servicers, Ocwen Loan Servicing, LLC, J.P. Morgan Chase Bank, NA, and Bank
                                             of America, N.A. (listed in Table 3.9v).723 Almost all (91%) of TARP funds Treasury
                                             spent for HAMP permanent modifications that redefaulted were for mortgages
                                             currently serviced by 10 servicers (listed in Table 3.9).724 Table 3.9 shows payments
                                             by HAMP permanent modifications currently within servicers’ portfolios for active,
                                             redefaulted, and paid off loans.




                                             v	Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table
                                                by the current servicer of the loan. The incentive payment totals may not tie to the actual amount paid to the servicer as servicing
                                                transfers are not taken into account when the current servicer on the loan is used.
                                                                                                                                 quarterly report to congress I July 24, 2013                   171




TABLE 3.9
 TARP INCENTIVE PAYMENTS ON HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS Currently WITHIN
 SERVICERS’ PORTFOLIOS, AS OF 4/30/2013
                                                                                                                                                                            Percentage
                                                                                                                                                                          of Total TARP
                                                       TARP Incentive               TARP Incentive               TARP Incentive                  Total TARP                    Incentive
                                                        Payments for                 Payments for                 Payments for                     Incentive              Payments for
                                                         Permanents                   Permanents                   Permanents                 Payments for                 Permanents
 Servicer Name                                                 Active                 Redefaulted                      Paid Off              Permanents All                Redefaulted
 Ocwen Loan Servicing, LLC                               $717,012,471                 $193,448,229                    $2,783,080               $913,243,780                            21%
 JPMorgan Chase Bank, NA                                   610,180,075                  138,039,418                     2,184,054                750,403,546                           18%
 Bank of America, N.A.                                     541,463,146                  102,348,226                     1,771,097                645,582,468                           16%
 Wells Fargo Bank, N.A.                                    556,799,469                   99,746,001                     2,363,712                658,909,182                           15%
 Select Portfolio Servicing, Inc.                          232,357,874                   66,032,543                     1,179,550                299,569,967                           22%
 GMAC Mortgage, LLC                                        162,351,234                   38,087,369                     1,535,568                201,974,171                           19%
 CitiMortgage Inc                                          220,396,014                   32,212,389                     1,557,153                254,165,556                           13%
 Nationstar Mortgage LLC                                   158,077,382                   31,631,671                        928,588               190,637,641                           17%
 OneWest Bank                                              198,871,236                   30,471,998                        378,627               229,721,860                           13%
 Carrington Mortgage
                                                            33,540,072                   13,302,807                        291,268                 47,134,147                          28%
 Services, LLC.
 Other                                                     176,226,136                   69,612,295                     5,324,529                251,162,960                           28%
 Total                                                3,607,275,109                   814,932,943                    20,297,226              4,442,505,278                             18%
 Note: Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table by the current servicer of the loan. The
 incentive payment totals may not tie to the actual amount paid to the servicer as servicing transfers are not taken into account when the current servicer on the loan is used. Totals shown
 here include payments under the Home Price Decline Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs tied to these loans.

 Sources: Treasury, response to SIGTARP data call, 6/5/2013; Treasury, responses to SIGTARP vetting draft, 7/12/2013 and 7/16/2013; Fannie Mae, responses to SIGTARP vetting draft,
 7/11/2013 and 7/16/2013.




Redefaults Hurt Homeowners
Redefaults hurt homeowners. Homeowners who have redefaulted on a HAMP
permanent modification must seek alternatives to losing their home to foreclosure,
short sale, or deed-in-lieu of foreclosure, with limited options. The homeowner
could seek assistance through another TARP housing program such as the Hardest
Hit Fund (“HHF”) program if the homeowner lives in a participating state and
SIGTARP recommended that Treasury require servicers to inform homeowners of
this in writing. The homeowner may enter into a private modification offered by his
or her servicer, but as the Office of the Comptroller of the Currency (“OCC”) has
reported, private modifications are typically not as advantageous to the homeowner
as a HAMP modification.725, vi In the worst case scenario, the homeowner can lose
the home to foreclosure, as well as losing any accrued equity. According to Treasury,
Treasury does not require servicers to ask why a homeowner redefaults on a HAMP
permanent modification.726 Treasury does track whether all homeowners who

vi	In its “Mortgage Metrics Report, First Quarter 2013,” the OCC compared a snapshot of HAMP permanent modifications and private
    modifications, from 2011 and 2012, between three and 15 months after the modifications became effective, and 60 or more days
    late on payments.
172   special inspector general I troubled asset relief program




                                             redefault in a HAMP permanent modification end up in foreclosure or in another
                                             modification. However, Treasury reported that of the redefaulted loans reported by
                                             the eight largest servicers, as of April 30, 2013, 31% of homeowners who redefault
                                             receive an alternative modification, usually a private sector modification, 22% of
                                             homeowners move into the foreclosure process, and 12% of homeowners lose their
                                             home via a short sale or deed-in-lieu of foreclosure.727

                                             What Homeowners Say
                                             Anecdotal evidence suggests that poor service by mortgage servicers contributes
                                             to homeowners redefaulting on HAMP permanent modifications. Through its
                                             Hotline, SIGTARP has received thousands of calls from the public regarding
                                             HAMP, many of them alleging mortgage servicer error and lack of communication
                                             or miscommunication. In these cases, SIGTARP contacted the homeowner.
                                             SIGTARP may have also used Hotline information to make recommendations to
                                             Treasury to improve HAMP and may have referred the homeowner to Treasury
                                             and any other applicable agency. SIGTARP also spoke with several attorneys at
                                             nonprofit organizations across the country who represent HAMP homeowners who
                                             have redefaulted and who allege servicer errors regarding HAMP modifications.
                                             The circumstances homeowners allege include (1) servicer payment calculation
                                             or payment credit errors, (2) problems following a transfer of mortgage ownership
                                             or servicing rights, (3) lost paperwork, (4) dual tracking—when a servicer moves
                                             ahead on foreclosure even while a homeowner is in the HAMP modification
                                             process, a procedure prohibited under HAMP guidelines, (5) a servicer not
                                             honoring a HAMP permanent modification, or (6) homeowners with a change in
                                             circumstance. Often there is some combination of these issues. Anecdotal evidence
                                             suggests servicers need more improvement. The following are some instances
                                             where homeowners allege servicer-caused permanent modification redefaults.

                                             Servicer payment calculation or payment credit errors

                                             •	 In February 2011, a couple from Paso Robles, California, contacted the
                                                SIGTARP Hotline to say that they had received a HAMP permanent
                                                modification in March 2010 and made on time mortgage payments. However,
                                                the homeowners told SIGTARP that, in January 2011, they received a letter
                                                from their servicer saying that they were late on their mortgage payments and
                                                that the servicer had started foreclosure proceedings against the property.
                                                According to the homeowners, “Each time we have contacted [our servicer] via
                                                the phone numbers they have given us. Each time the representative answering
                                                the phone has stated that we were delinquent; however, after stating that we
                                                have a loan modification agreement and we are actually current, they replied
                                                that the computer agrees with us; they stated that they will research the bank’s
                                                error; and that someone will get back in touch with us. [Our servicer] has never
                                                returned any of our numerous calls or answered our inquiries.” Despite being
                                                given assurances of a current status, the servicer considered the homeowners
                                                redefaulted and moved to foreclose on the property.728
                                                                                quarterly report to congress I July 24, 2013   173




•	 In May 2013, a husband and wife in San Jose, California, both police officers,
   redefaulted on their HAMP permanent modification, an attorney reported to
   SIGTARP. Because of health problems and an income reduction, the couple
   fell behind on mortgage payments and applied for and received a HAMP
   modification, which included a $50,000 principal reduction; the modification
   was made permanent in January 2013. However, the HAMP permanent
   modification agreement did not specify the required mortgage payment amount,
   so the couple made mortgage payments in the amount required by their trial
   modification. From February through April 2013, the couple continued to
   make these payments but received notices that they were late on their mortgage
   payments. The couple contacted the bank and visited a branch office to try
   to determine the amount of their required payment, but they were unable
   to resolve the situation. In May 2013, the servicer considered their HAMP
   modification to have redefaulted. In July 2013, the attorney reported to
   SIGTARP that the couple’s loan modification had been reinstated and they are
   no longer facing foreclosure.729
•	 In Connecticut, an attorney from a nonprofit organization described to
   SIGTARP a variety of scenarios that he had encountered where homeowners
   had difficulties with their servicer following a HAMP permanent modification,
   and in the worst-case scenarios, servicers claimed that homeowners redefaulted
   and recommenced judicial foreclosure proceedings. Some servicers had
   miscalculated the required payments for a HAMP permanent modification and
   informed homeowners that they would need to agree to a new modification
   resulting in higher payments than those required by the original HAMP
   permanent modification. Other servicers did not recognize that a loan had
   undergone a HAMP permanent modification and treated the homeowners’
   payments as insufficient. In some cases, the servicer backdated the due date
   for the homeowner’s first mortgage payment to a date prior to the effective date
   of the HAMP permanent modification and charged the homeowner new late
   fees even though the homeowner made the payments under the modification
   agreement.730

Problems following a transfer of mortgage ownership or servicing
rights

•	 A woman from San Jose received a HAMP permanent modification in 2012,
   but redefaulted in 2013 after a transfer of servicing rights from one servicer to
   another servicer, an attorney recounted to SIGTARP. The homeowner’s second
   servicer refused to honor a HAMP modification arranged by the previous
   servicer. After the new servicer began servicing the mortgage, it stopped
   crediting her mortgage payments and instead held the payments in a suspense
   account. The new servicer told the homeowner that she would have to apply for
   a new mortgage modification. Although the homeowner was eventually able to
   obtain a HAMP modification from the new servicer, she decided the mortgage
   was not affordable and opted to sell her home in a short sale.731
174   special inspector general I troubled asset relief program




                                             •	 In July 2013, the SIGTARP Hotline was contacted by an attorney representing
                                                a Riverside, California, homeowner who received a HAMP permanent
                                                modification in February 2011. According to the attorney, the homeowner’s
                                                mortgage was then transferred to a new servicer, which claimed that it had no
                                                knowledge of the modification. In February 2011, the first servicer’s employees
                                                verbally approved her for a HAMP permanent modification, described the terms
                                                of the modification, and said they would send her the paperwork. The servicer
                                                never sent her the paperwork. Then her loan was transferred to a new servicer.
                                                The homeowner contacted her new servicer and was referred, back-and-forth,
                                                between her new servicer and previous servicer, both of whom claimed that
                                                the other had the homeowner’s modification paperwork. The homeowner’s
                                                previous servicer went so far as to send a letter to the homeowner stating that
                                                her modification paperwork was transferred to her new servicer. Even with this
                                                letter, the new servicer continued to claim that it had no such paperwork, and,
                                                at the request of the new servicer, the homeowner filled out a new mortgage
                                                modification application. In March 2013, the new servicer denied her a
                                                mortgage modification, noting that it does “not participate in any government
                                                programs.”732

                                             Lost paperwork

                                             •	 In September 2010, the SIGTARP Hotline was contacted by Hudson, Florida,
                                                homeowners who were under the impression that they had received a HAMP
                                                permanent modification in July 2010. However, according to the servicer, they
                                                were mistaken and, thus, had redefaulted sometime between July and August of
                                                2010. The homeowners stated that between 2009 and 2010, they had submitted
                                                each piece of paperwork as requested by the servicer -- sometimes the same
                                                paperwork multiple times. The homeowners also stated that following the trial
                                                modification, they made their new mortgage payments, but the servicer refused
                                                to apply them to their mortgage. According to the homeowners, the servicer
                                                notified them that it never received their signed, permanent modification
                                                papers; the homeowners said the servicer never sent them modification papers
                                                to sign. The homeowners were not able to resolve the paperwork issue with the
                                                servicer and the servicer instead offered a short sale or foreclosure alternative.
                                                One of the homeowners recently reported to SIGTARP that they eventually
                                                received a HAMP permanent mortgage modification, but said that she believes
                                                that it happened only after she had told a top executive at the servicer that they
                                                planned to go public with their case.733
                                             •	 In May 2010, a Jackson, Mississippi homeowner received a HAMP permanent
                                                modification, according to an attorney. The homeowner originally applied for a
                                                HAMP modification because he had a back injury and lost his job. According
                                                to the attorney, the servicer sent a notary to deliver the HAMP permanent
                                                modification agreement to the homeowner, witness the homeowner’s signature,
                                                and return the agreement to the servicer. The homeowner kept a copy. The
                                                homeowner made his new, lower mortgage payments for around a year and
                                                                             quarterly report to congress I July 24, 2013   175




   a half, at which point the servicer returned his December 2011 mortgage
   payment and requested that the homeowner make a mortgage payment in the
   amount that he had been paying before he had received a HAMP permanent
   modification. After the homeowner contacted the servicer and, in February
   2012, retained an attorney, the servicer claimed that it had no record of
   the HAMP permanent modification or the notary, and it also informed the
   homeowner that he was delinquent on his mortgage payments. In April 2013,
   the homeowner sued his servicer. The case is pending.734

Dual tracked HAMP permanent modification and foreclosure

•	 An attorney from California described to SIGTARP that, during the past couple
   of years, her nonprofit organization has had ten cases involving redefaulted
   HAMP permanent modifications. Of the homeowners they represented, most
   applied for a HAMP modification due to a job loss, reduced income, or recently
   incurred disability. After receiving a HAMP permanent modification, the
   homeowners made their new mortgage payments, but each of their servicers
   responded by sending notices about late payments and to inform them that
   the servicer had started foreclosure proceedings. For some homeowners, the
   servicer also would not recognize the permanent modification. In all of the
   cases, the servicer did not provide a “single point of contact,” and homeowners
   were bounced among several departments without any explanation. Some
   servicers offered homeowners alternative, non-HAMP modifications that
   were unaffordable as compared to the homeowners’ HAMP permanent
   modification.735
•	 In February 2013, the SIGTARP Hotline was contacted by a Walnut Creek,
   California, homeowner who after a self-described nearly four-year struggle
   to be approved for a HAMP permanent modification finally received one
   in September 2012, only to redefault two months later due to what the
   homeowner described as retaliation. As of January 2013, the homeowner was
   in suspended foreclosure status. The homeowner’s income decreased between
   2008 and 2009 and, several times, the homeowner applied for a modification
   but was denied each time. Later in 2009, the homeowner’s mortgage was
   transferred to a new servicer. Again, several times, the homeowner applied
   for a mortgage modification, but was denied each time. The homeowner said
   that each denial was due to different servicer underwriting error. Finally, in
   September 2012, while the homeowner’s mortgage remained “under suspended
   foreclosure status,” the homeowner received a HAMP permanent modification.
   However, two months later, the homeowner’s servicer cancelled his modification
   due to what the homeowner called a “technicality.” After requesting that the
   servicer reinstate the HAMP permanent modification, the servicer informed
   the homeowner that a new contract would be mailed to the homeowner to sign.
   Since then, the homeowner has had to submit a new application for a mortgage
   modification.736
176   special inspector general I troubled asset relief program




                                             HAMP permanent modification not honored by servicer

                                             •	 According to an attorney representing homeowners from Hampton,
                                                Connecticut, the homeowners redefaulted on their HAMP permanent
                                                modification about eight months after accepting and paying on it due to a
                                                servicer error. The couple had applied for a HAMP modification because the
                                                husband became disabled and they were without an income while he waited
                                                for disability checks to arrive. In March 2010, the couple received a HAMP
                                                permanent mortgage modification. However, in the fall of 2010, the servicer
                                                notified the homeowners that it had miscalculated their required mortgage
                                                payments, told the homeowners to execute a new agreement calling for higher
                                                monthly payments and, after they refused, the servicer cancelled their HAMP
                                                permanent modification. The higher, previous interest rate was reinstituted and
                                                the couple was required to reapply for a new HAMP modification.737
                                             •	 Lancaster, Texas, homeowners contacted the SIGTARP Hotline in October
                                                2010 to relate problems with a HAMP permanent modification they had
                                                received in December 2009. The homeowners made their new mortgage
                                                payments on time, but in 2010, “field inspectors” started showing up at their
                                                home. After the homeowners contacted their servicer multiple times about the
                                                inspectors, the servicer at first said that the homeowners were current on their
                                                account, and it would call off the inspectors. However, when the inspectors
                                                continued to show up, the homeowners called their servicer in September 2010,
                                                only to learn that their HAMP permanent modification had been cancelled
                                                in August 2010 due to a mistake the servicer made related to the principal
                                                balance of the mortgage. According to the homeowners, at that time they had
                                                received no written notice that their servicer had cancelled their modification.
                                                The servicer informed the homeowners that they would need to reapply for a
                                                HAMP modification. The homeowners expressed to SIGTARP their anxiety
                                                over reapplying for a HAMP modification, given that to receive their HAMP
                                                permanent modification, they had spent much of a year calling, faxing, mailing,
                                                refaxing, and remailing paperwork to the servicer.738
                                             •	 An attorney described to SIGTARP that a man from Mississippi who he
                                                represented lost his construction job in 2012, applied for a HAMP modification,
                                                and received a HAMP permanent modification in September 2012. He
                                                made his new mortgage payments on time, but in February 2013, his servicer
                                                returned his most recent mortgage payment and notified the homeowner that
                                                a foreclosure sale was scheduled for March. The servicer explained that it had
                                                cancelled the homeowner’s permanent modification because at the time of
                                                the modification, the homeowner had been in bankruptcy proceedings, which
                                                was not the case. The homeowner retained an attorney, which resulted in the
                                                foreclosure sale being cancelled, and the servicer sending the homeowner a
                                                copy of the original, HAMP permanent mortgage modification agreement that
                                                he had signed. The homeowner proceeded to make mortgage payments, but
                                                his servicer returned his April and May 2013 mortgage payments and informed
                                                                                  quarterly report to congress I July 24, 2013   177




   the homeowner that his loan had been sold and would be transferred to a new
   servicer.739

Homeowner change in circumstance following HAMP permanent
modification

•	 A North Carolina woman received a HAMP permanent modification in May
   2011 with a modified payment of 45% of her gross income, according to her
   attorney. Although the new monthly payment was never affordable, she did
   make on time payments for six months, between late summer of 2011 and
   early 2012. After that time, her income was reduced further and she could no
   longer pay her monthly mortgage payment. In March 2012, she requested a
   remodification from her servicer. Her servicer told her that she was not eligible
   for a remodification until May 2012, one year after she had received her
   HAMP permanent modification. While she was in the midst of working out a
   remodification with her servicer, in June 2012, the homeowner’s home was sold
   at a foreclosure sale. In August 2012, she sued her servicer, alleging bad faith,
   unfair and deceptive trade practices, and gross negligence. The homeowner
   alleged that the servicer offered the homeowner a HAMP permanent mortgage
   modification in May 2011 that did not comply with HAMP and that the servicer
   falsely represented to the borrower that it was considering her application for a
   remodification while simultaneously proceeding to a foreclosure sale. The case
   is pending.740




Why Homeowners Redefault
While the overall U.S. foreclosure rate has begun to improve with the economy,
the redefault rate on HAMP-modified loans shows that problems remain.741
SIGTARP made a recommendation that Treasury conduct independent research
and analysis to determine the causes of redefaults and the characteristics of
loans or homeowners that may be more at risk for redefault. While SIGTARP has
performed a preliminary analysis of Treasury’s HAMP data for some characteristics,
it is Treasury’s responsibility to conduct in-depth research and analysis of Treasury’s
HAMP data, as well as other information that Treasury needs to obtain. SIGTARP
is sharing this analysis of Treasury’s own HAMP database so that Treasury can
develop an early warning system of those homeowners likely to redefault and
have servicers reach out to them. SIGTARP analyzed Treasury’s HAMP data and
identified permanent modifications that were effective as of April 30, 2013.742 That
analysis shows some clear patterns among homeowners who have redefaulted.
Homeowners who are most likely to redefault: (1) received the least reduction in
their mortgage payment and overall debt, (2) are still underwater on their mortgage,
and (3) have subprime credit scores at the time of modification as well as high
overall debt burdens.
178   special inspector general I troubled asset relief program




                                             Characteristics of HAMP Permanent Modifications Can Signal
                                             Redefault
                                             Not surprisingly, homeowners who received the worst deal on a HAMP
                                             modification were the most likely to redefault. According to Treasury’s database
                                             of HAMP records for permanent modifications that were effective as of April 30,
                                             2013, the smaller the reduction in a homeowner’s mortgage payments and overall
                                             debt, the more likely the homeowner was to redefault.743 Specifically, homeowners
                                             who had the highest redefault rates had high overall debt post-modification, had
                                             subprime credit scores, or owed significantly more on their home than it was worth.
                                             Homeowners whose mortgage was less than five years old when it was permanently
                                             modified were more likely to redefault than those whose mortgage was five years
                                             old or older.

                                             Debt-to-income Ratios
                                             The reduction in a homeowner’s monthly debt payments is a factor in the success
                                             of a HAMP modification.744 Homeowner debt is measured in two ways, called debt-
                                             to-income (“DTI”) ratios. The “front-end DTI” measures monthly housing-related
                                             expenses including principal, interest, taxes, and insurance as a percentage of
                                             gross income. The “back-end DTI” measures all debt, which may also include, for
                                             example, medical bills or credit card debt.
                                                 HAMP modifications are structured to reduce a homeowner’s front-end DTI to
                                             31% so that monthly mortgage payments are no more than 31% of gross income.745
                                             Treasury set a goal of reducing total debt to less than 55% of income as measured
                                             by back-end DTI.746 If a homeowner receives a HAMP permanent modification
                                             where the total debt is not reduced to less than 55%, the HAMP servicer is re-
                                             quired to send a letter to the homeowner about housing counseling.747 The home-
                                             owner is required to verify in writing that he or she will secure HUD-approved
                                             housing counseling and “develop a plan to reduce [his or her]…total indebtedness
                                             below 55%.”748 Treasury requires no further action on the part of the servicer or
                                             homeowner to validate that the homeowner, in fact, received housing counseling
                                             and developed a debt reduction plan.

                                             Monthly Housing-Related Expenses
                                             Homeowners with a larger reduction in their monthly housing expenses after
                                             receiving a HAMP permanent modification fared better than those with a smaller
                                             reduction.749 Of homeowners who received a HAMP permanent modification,
                                             about 39% of homeowners whose housing expenses (measured by front-end
                                             DTI) were cut by less than 5 percentage points redefaulted. About 32% whose
                                             housing expenses were cut more than 5 percentage points but less than 10
                                             percentage points redefaulted. However, of those whose housing expenses were
                                             cut by 10 percentage points or more—say, from 41% of income to 31%—just 21%
                                             redefaulted. Table 3.10 shows changes in housing expenses and redefault rates.
                                                                                               quarterly report to congress I July 24, 2013   179




TABLE 3.10
 CHANGE IN HOUSING Expenses AND REDEFAULT RATE FOR
 HAMP PERMANENT MODIFICATIONS, Cumulative AS OF
 4/30/2013
 Change in Housing Expenses                                         Redefault Rate
 Cut by less than 5 percentage points                                         39%
 Cut by 5 to less than 10 percentage points                                   32%
 Cut by 10 or more percentage points                                          21%
 Note: Housing debt is “front-end debt-to-income ratio.”

 Source: SIGTARP analysis of Treasury HAMP data.



Total Monthly Expenses
Homeowners who were still carrying heavy overall debt loads after a mortgage
modification were the most likely to redefault.750 The amount of reduction in
overall debt as measured by back-end DTI also affects how likely a homeowner
is to redefault.
    A little less than half of homeowners had overall debt loads after permanent
modification of 55% or more of gross income, the threshold at which housing
counseling is required. Table 3.11 shows a homeowner’s total debt after HAMP
permanent modification, as measured by back-end DTI and redefault rate.

TABLE 3.11
 POST-MODIFICATION TOTAL DEBT Expense AND REDEFAULT RATE FOR HAMP
 PERMANENT MODIFICATIONS, Cumulative AS OF 4/30/2013
 Total Debt After Modification                                                       Redefault Rate
 55% or more                                                                                   28%
 Less than 55%                                                                                 24%
 Note: Total debt is measured by “back-end debt-to-income ratio.”

 Source: SIGTARP analysis of Treasury HAMP data.



    Even more indicative was the amount of reduction in total debt (back-end-DTI)
that a homeowner received as a result of the HAMP modification. According to
SIGTARP’s analysis of Treasury’s HAMP data, the homeowners whose total debt
(back-end DTI) was cut by fewer than 5 percentage points were most likely to
redefault.751 Table 3.12 shows changes in total debt (back-end DTI) and redefault
rates.
180            special inspector general I troubled asset relief program




                                                      TABLE 3.12
                                                       CHANGE IN TOTAL DEBT AND REDEFAULT RATE FOR HAMP PERMANENT
                                                       MODIFICATIONS, Cumulative AS OF 4/30/2013
                                                       Change in Total Debt                                               Redefault Rate
                                                       Back-end-DTI cut by less than 5 percentage points                            38%
                                                       Back-end-DTI cut by 5 to less than 10 percentage points                      31%
                                                       Back-end-DTI cut by 10 or more percentage points                             21%
                                                       Note: Total debt is “back-end debt-to-income ratio.”

                                                       Source: SIGTARP analysis of Treasury HAMP data.



                                                      Total Equity in Home and Unpaid Principal Balance
                                                      Homeowners who owe more than their home is worth, even after receiving a
                                                      HAMP permanent mortgage modification, are more likely to redefault than
                                                      homeowners who owe less following a modification.752 How much equity a
                                                      homeowner has is measured by the loan-to-value (“LTV”) ratio. A homeowner
                                                      with an 80% LTV ratio owns 20% of the house—a traditional stake for a buyer. A
                                                      homeowner with LTV above 100% owes more than the home is worth, known as
                                                      being underwater.
                                                          Treasury should better coordinate the HAMP program with the other significant
                                                      TARP housing program, the Hardest Hit Fund (“HHF”). Treasury should
                                                      coordinate with state housing finance agency (“HFA”) HHF programs to help
                                                      homeowners further decrease their LTVs in conjunction with a HAMP permanent
                                                      modification, thereby, reducing the probability the homeowners will will redefault.
                                                      In April 2013, SIGTARP recommended to Treasury that in the letter that servicers
                                                      are required to send to homeowners who redefaulted, it include for borrowers living
                                                      in the 19 states where HFAs participate in the HHF program information about
                                                      HHF as a possible foreclosure prevention option. Some HHF states have programs
      For additional information concerning           that, in conjunction with HAMP, can help homeowners reduce their principal
      HHF, see Section 2 of this report,              balance and pay past-due amounts on their mortgages.753 Treasury recently agreed
      “Housing Support Programs.”                     to implement this recommendation.754
                                                          Of homeowners who received a HAMP permanent modification, approximately
                                                      70% were underwater when they applied, with an LTV above 100%. After receiving
                                                      a HAMP permanent modification, 73% were underwater, which may have been
                                                      caused by servicers tacking onto the mortgage balance any missed payments,
                                                      accrued interest, or escrow advances or out-of-pocket expenses to third parties
                                                      that the homeowner owed prior to receiving a HAMP permanent modification.755
                                                      Many homeowners who received HAMP permanent modifications were deeply
                                                      underwater and remained underwater even with the HAMP modification. Both
                                                      before and after receiving a HAMP permanent modification, almost 20% of
                                                      homeowners had an LTV at or above 170%. Of homeowners who were underwater
                                                      even after receiving a HAMP modification, around 28% redefaulted, compared
                                                      with 21% of those not underwater.756
                                                          For 87% of homeowners, a HAMP modification resulted in no decrease
                                                      in their LTV ratio; this may have been caused by servicers tacking onto the
                                                      mortgage balance any missed payments, accrued interest, or escrow advances or
                                                                                                                        quarterly report to congress I July 24, 2013   181




out-of-pocket expenses to third parties that the homeowner owed prior to receiving
a HAMP permanent modification. The relatively small group of homeowners
for whom the modification decreased their LTV—13% of those who received
permanent modifications—were the least likely to redefault.757 Table 3.13
shows the amount a homeowner’s LTV changed and redefault rates.

TABLE 3.13
 CHANGE IN LOAN-TO-VALUE RATIO AND REDEFAULT RATE FOR HAMP
 PERMANENT MODIFICATIONS, Cumulative AS OF 4/30/2013
 Change in Loan-to-Value Ratio                                                                    Redefault Rate
 Increased by 25 or more percentage points                                                                        38%
 Increased by 10 to less than 25 percentage points                                                                36%
 Increased by 0 to less than 10 percentage points                                                                 25%
 Decreased                                                                                                        14%
 Note: A “change” that results in “increased” LTV for homeowners may have been caused by servicers adding missed
 payments, accrued interest, or escrow advances or out-of-pocket expenses to third parties to the homeowners mortgage
 balance as part of a HAMP permanent modification.

 Source: SIGTARP analysis of Treasury HAMP data.



    Principal reduction is not mandatory for HAMP. Homeowners whose unpaid
principal balance did not decrease or actually increased as a result of a HAMP
modification—for instance, missed payments, accrued interest, or escrow advances
or out-of-pocket expenses to third parties were added to the balance—were more
likely to redefault than those whose principal balance was cut.758 Of homeowners
who received a HAMP permanent modification, 87% did not see their unpaid
mortgage balance decrease or saw it increase; between 26% and 35% of these
homeowners redefaulted. Table 3.14 shows principal balance changes and
redefault rates.

TABLE 3.14
 CHANGE IN PRINCIPAL BALANCE OWED AND REDEFAULT RATE FOR
 HAMP PERMANENT MODIFICATIONS, Cumulative AS OF 4/30/2013
 Change in Principal Balance Owed                                                                 Redefault Rate
 Increased by 25 or more percentage points                                                                        35%
 Increased by 10 to less than 25 percentage points                                                                36%
 Increased by 0 to less than 10 percentage points                                                                 26%
 Decreased                                                                                                        14%
 Note: A “change” that results in “increased” unpaid principal balance for homeowners may have been caused by
 servicers adding missed payments, accrued interest, or escrow advances or out-of-pocket expenses to third parties to
 the homeowners mortgage balance as part of a HAMP permanent modification.

 Source: SIGTARP analysis of Treasury HAMP data.
182   special inspector general I troubled asset relief program




                                             Credit Score
                                             Homeowners who received a HAMP permanent modification were more than
                                             twice as likely to redefault if they had a subprime credit score.759 A credit score
                                             usually ranges from 300 to 850 and reflects an individual’s credit risk based on his
                                             or her credit history and credit performance. Among other uses, it can help predict
                                             how an individual will likely perform on existing or new credit, such as a mortgage.
                                             It also can help lenders determine, based on risk, the cost of extending credit, such
                                             as a mortgage, to a homeowner. Mortgage lenders generally consider scores of 620
                                             or more as prime, and those below 620 as subprime.
                                                 Homeowners with a HAMP permanent modification who had a higher credit
                                             score were more likely to stay in a HAMP modification than those with a low credit
                                             score. Of all homeowners who received a HAMP permanent modification, 71% had
                                             a credit score below 620 (subprime) and 29% had a credit score of 620 or higher
                                             (prime). HAMP was structured to help homeowners who were already in default
                                             or in imminent danger of default, so their credit scores were unlikely to be strong
                                             because missing a mortgage payment damages a credit score. Of homeowners with
                                             credit scores below 620, 31% redefaulted on their HAMP permanent modification.
                                             Of homeowners with credit scores of 620 or above, 15% redefaulted. Table 3.15
                                             shows credit scores and redefault rates.
                                             TABLE 3.15
                                              CREDIT SCORE AND REDEFAULT RATE FOR HAMP PERMANENT
                                              MODIFICATIONS, Cumulative AS OF 4/30/2013
                                              Credit Score                                                        Redefault Rate
                                              Less than 620 (subprime)                                                      31%
                                              620 or greater (prime)                                                        15%
                                              Note: Analysis based on records where credit score was available.

                                              Source: SIGTARP analysis of Treasury HAMP data.



                                             How Many Years the Homeowner Had the Mortgage
                                             For the most part, the fewer years homeowners had their mortgage prior to
                                             receiving a HAMP permanent modification, the more likely they were to
                                             redefault.760 Of homeowners who received a HAMP permanent modification,
                                             61% had their mortgage for less than five years before HAMP, and 39% had their
                                             mortgage for five or more years before HAMP. Of homeowners who had their
                                             mortgage for less than five years before HAMP, 30% redefaulted on their HAMP
                                             permanent modification. Of homeowners who had their mortgage for five years
                                             or more before HAMP, 16% redefaulted on their HAMP permanent modification.
                                             Table 3.16 shows how long a homeowner had his or her mortgage before receiving
                                             a HAMP permanent modification and the redefault rate.
                                                                                       quarterly report to congress I July 24, 2013           183




TABLE 3.16
 HOW MANY YEARS THE HOMEOWNER HAD THE MORTGAGE
 BEFORE MODIFICATION AND REDEFAULT RATE FOR HAMP
 PERMANENT MODIFICATIONS, cumulative AS OF 4/30/2013
 Years Homeowner
 Had Mortgage                                                         Redefault Rate
 Fewer than 5 years                                                             30%
 5 or more years                                                                16%
 Note: Analysis based on records where mortgage data was available.

 Source: SIGTARP analysis of Treasury HAMP data.




SIGTARP Recommendations on HAMP
Redefaults
Almost since the beginning of HAMP, SIGTARP has recognized and has warned
about the danger of redefaults, urging Treasury to change the program to ensure
that modifications are sustainable. Now that there are more than two years left for
homeowners to apply for HAMP modifications, opportunities remain for Treasury
to improve HAMP. Following the issuance of our April 2013 recommendations,
Federal lawmakers including U.S. Senator Elizabeth Warren, U.S. Representative
Elijah J. Cummings, and U.S. Representative Robin Kelly have written to Treasury
supporting SIGTARP’s recommendations.761
    In March 2010, SIGTARP issued an audit report on HAMP that included                             For more on SIGTARP’s 2010
specific warnings to Treasury about the potential for HAMP redefaults. The                          recommendations on redefaults, see:
report included a formal recommendation that Treasury “re-examine the program’s                     • SIGTARP’s audit report, “Factors
structure to ensure that the program is adequately minimizing the risk of                              Affecting Implementation of the Home
re-default.” To date, Treasury has only partially implemented SIGTARP’s March                          Affordable Modification Program,”
                                                                                                       March 25, 2010.
2010 recommendation, by adopting some programs that address concerns about
                                                                                                    • SIGTARP Quarterly Report, April
negative equity, a factor in some redefaults, but has not addressed other factors.
                                                                                                       2010, pages 134-135.
    SIGTARP is concerned that homeowners are redefaulting on HAMP
                                                                                                    • SIGTARP Quarterly Report, July
permanent modifications at an alarming rate. On April 1, 2013, SIGTARP made                            2010, pages 171-180.
four new, specific recommendations to curb redefaults and protect homeowners
from losing their homes. Treasury recently agreed to implement SIGTARP’s
recommendations regarding redefaults.762

  These are SIGTARP’s April 2013 recommendations to Treasury regarding
HAMP redefaults:

•	 Treasury should conduct in-depth research and analysis to determine the
   causes of redefaults of HAMP permanent mortgage modifications and
   the characteristics of loans or the homeowner that may be more at risk
   for redefault. Treasury should require servicers to submit any additional
   information that Treasury needs to conduct this research and analysis.
184   special inspector general I troubled asset relief program




                                                Treasury should make the results of this analysis public and issue findings
                                                based on this analysis, so that others can examine, build on, and learn from
                                                this research.
                                             •	 As a result of the findings of Treasury’s research and analysis into the
                                                causes of HAMP redefaults, and characteristics of redefaults, Treasury
                                                should modify aspects of HAMP and the other TARP housing programs in
                                                ways to reduce the number of redefaults.
                                             •	 Treasury should require servicers to develop and use an “early warning
                                                system” to identify and reach out to homeowners that may be at risk of
                                                redefaulting on a HAMP mortgage modification, including providing or
                                                recommending counseling and other assistance and directing them to other
                                                TARP housing programs.
                                             •	 In the letter Treasury already requires servicers to send to homeowners
                                                who have redefaulted on a HAMP modification about possible options to
                                                foreclosure, Treasury should require the servicers to include other available
                                                alternative assistance options under TARP such as the Hardest Hit Fund
                                                and HAMP Tier 2, so that homeowners can move forward with other
                                                alternatives, if appropriate, in a timely and fully informed manner. To the
                                                extent that a servicer does not follow Treasury’s rules in this area, Treasury
                                                should permanently withhold incentives from that servicer.

                                                Once fully implemented by Treasury, these recommendations would help
                                             ensure that homeowners who receive HAMP permanent mortgage modifications
                                             have affordable and sustainable mortgages and remain in their homes.
Sect io n 4
              TARP Operations and
              Administration
186   special inspector general I troubled asset relief program
                                                                                 quarterly report to congress I July 24, 2013   187




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.763 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.764 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP Administrative and Program Operating
Expenditures
As of June 30, 2013, Treasury has obligated $376.2 million for TARP
administrative costs and $1 billion in programmatic operating expenditures for a
total of $1.4 billion since the beginning of TARP. Of that, $280 million has been
obligated in the year since June 30, 2012. According to Treasury, as of June 30,
2013, it had spent $323.4 million on TARP administrative costs and $903 million
on programmatic operating expenditures, for a total of $1.2 billion since the
beginning of TARP. Of that, $264 million has been spent in the year since June 30,
2012.765
    Much of the work on TARP is performed by private vendors rather than
Government employees. Treasury reported that as of June 30, 2013, it employs
55 career civil servants, 72 term appointees, and 23 reimbursable detailees, for a
total of 150 full-time employees.766 Between TARP’s inception in 2008 and June
30, 2013, Treasury had retained 150 private vendors — 20 financial agents and
130 contractors, to help administer TARP.767 According to Treasury, as of June 30,
2013, 64 private vendors were active — 13 financial agents and 51 contractors,
some with multiple contracts.768 The number of private-sector staffers who provide
services under these agreements dwarfs the number of people working for OFS. As
of early 2013, according to Treasury, Fannie Mae and Freddie Mac together had
about 845 people dedicated to working on their TARP contracts.769 According to
Treasury, as of June 30, 2013, at least another 347 people were working on other
active OFS contracts, including financial agent and legal services contracts, for a
total of 1,192 private-sector employees working on TARP.770
    Table 4.1 provides a summary of the expenditures and obligations for TARP ad-
ministrative and programmatic operating costs through June 30, 2013. The admin-
istrative costs are categorized as “personnel services” and “non-personnel services.”
Table 4.2 provides a summary of OFS service contracts, which include costs to hire
financial agents and contractors, and obligations through June 30, 2013, excluding
costs and obligations related to personnel services, travel, and transportation.
188   special inspector general I troubled asset relief program




                                             TABLE 4.1
                                              TARP ADMINISTRATIVE AND PROGRAMMATIC OBLIGATIONS AND
                                              EXPENDITURES
                                                                                                              Obligations for Period Expenditures for Period
                                              Budget Object Class Title                                         Ending 6/30/2013         Ending 6/30/2013
                                              Administrative                                                                                                                        
                                              Personnel Services                                                                                                                    
                                                  Personnel Compensation & Benefits                                     $116,501,732                           $116,436,938
                                              Total Personnel Services                                                    $116,501,732                          $116,436,938
                                                                                                                                                                                    
                                              Non-Personnel Services                                                                                                                
                                                  Travel & Transportation of Persons                                          $2,316,329                            $2,297,013
                                                  Transportation of Things                                                          11,960                                 11,960
                                                  Rents, Communications, Utilities & Misc.
                                                                                                                                  779,845                                695,498
                                                  Charges
                                                  Printing & Reproduction                                                                402                                   402
                                                  Other Services                                                            254,718,246                           202,143,937
                                                  Supplies & Materials                                                         1,615,090                              1,610,905
                                                  Equipment                                                                       253,286                                243,907
                                                  Land & Structures                                                                        —                                      —
                                                  Insurance Claims & Indemnities                                                           —                                      —
                                                  Dividends and Interest                                                                 634                                   634
                                              Total Non-Personnel Services                                              $259,695,791                           $207,004,256
                                              Total Administrative                                                      $376,197,523                           $323,441,195
                                              Programmatic                                                           $1,015,004,258                            $903,045,360
                                              Total Administrative and Programmatic                                  $1,391,201,781                         $1,226,486,555
                                              Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures
                                              and Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.
                                              Amounts are cumulative since the beginning of TARP.

                                              Source: Treasury, response to SIGTARP data call, 7/11/2013.




                                             Financial Agents
                                             EESA requires SIGTARP to provide biographical information for each person or
                                             entity hired to manage assets acquired through TARP.771 Treasury hired no new
                                             financial agents in the quarter ended June 30, 2013.772
                                                                                            quarterly report to congress I July 24, 2013             189




TABLE 4.2
 OFS SERVICE CONTRACTS
                                                                                     Type of
 Date         Vendor                            Purpose                              Transaction          Obligated Value        Expended Value
              Simpson Thacher & Bartlett MNP    Legal services for the
 10/10/2008                                                                          Contract                   $931,090                $931,090
              LLP                               implementation of TARP
 10/11/2008   Ennis Knupp & Associates Inc.1    Investment and Advisory Services     Contract                   2,635,827              2,635,827
              The Bank of New York Mellon
 10/14/2008                                     Custodian                            FAA Listing              54,627,204              52,667,205
              Corporation
 10/16/2008   PricewaterhouseCoopers, LLP       Internal control services            Contract                 34,980,857              33,505,992
                                                For process mapping consultant       Interagency
 10/17/2008   Turner Consulting Group, Inc.2                                                                        9,000                       —
                                                services                             Agreement
 10/18/2008   Ernst & Young LLP                 Accounting Services                  Contract                 14,550,519              13,640,626
                                                Legal services for the Capital
 10/29/2008   Hughes Hubbard & Reed LLP                                              Contract                   3,060,921              2,835,357
                                                Purchase Program
                                                Legal services for the Capital
 10/29/2008   Squire Sanders & Dempsey LLP                                           Contract                   2,687,999              2,687,999
                                                Purchase Program
 10/31/2008   Lindholm & Associates, Inc.       Human resources services             Contract                     614,963                  614,963
              Sonnenschein Nath & Rosenthal     Legal services related to auto
 11/7/2008                                                                           Contract                   2,702,441              2,702,441
              LLP4                              industry loans
                                                                                     Interagency
 11/9/2008    Internal Revenue Service          Detailees                                                          97,239                   97,239
                                                                                     Agreement
                                                                                     Interagency
 11/17/2008   Internal Revenue Service          CSC Systems & Solutions LLC2                                        8,095                    8,095
                                                                                     Agreement
              Department of the Treasury —                                           Interagency
 11/25/2008                                     Administrative Support                                        16,512,820              16,131,121
              Departmental Offices                                                   Agreement
                                                IAA — TTB Development, Mgmt &        Interagency
 12/3/2008    Trade and Tax Bureau - Treasury                                                                      67,489                   67,489
                                                Operation of SharePoint              Agreement
                                                                                     Interagency
 12/5/2008    Washington Post3                  Subscription                                                          395                       —
                                                                                     Agreement
              Sonnenschein Nath & Rosenthal     Legal services for the purchase of
 12/10/2008                                                                          Contract                     102,769                  102,769
              LLP                               asset-backed securities
                                                Admin action to correct system
 12/10/2008   Thacher Proffitt & Wood4                                               Contract                           —                       —
                                                issue
                                                                                     Interagency
 12/15/2008   Office of Thrift Supervision      Detailees                                                         225,547                  164,823
                                                                                     Agreement
              Department of Housing and                                              Interagency
 12/16/2008                                     Detailees                                                               —                       —
              Urban Development                                                      Agreement
                                                                                     Interagency
 12/22/2008   Office of Thrift Supervision      Detailees                                                               —                       —
                                                                                     Agreement
              Cushman and Wakefield of VA
 12/24/2008                                     Painting Services for TARP Offices   Contract                       8,750                    8,750
              Inc.
                                                                                                                            Continued on next page
190          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                           Type of
      Date         Vendor                             Purpose                              Transaction   Obligated Value        Expended Value
                   Securities and Exchange                                                 Interagency
      1/6/2009                                        Detailees                                                 $30,416                 $30,416
                   Commission                                                              Agreement
      1/7/2009     Colonial Parking Inc.              Lease of parking spaces              Contract             347,634                 234,433
                   Cadwalader Wickersham & Taft
      1/27/2009                                       Bankruptcy Legal Services            Contract             409,955                 409,955
                   LLP
                   Whitaker Brothers Bus Machines
      1/27/2009                                       Office Machines                      Contract               3,213                    3,213
                   Inc.
                   Office of the Comptroller of the                                        Interagency
      1/30/2009                                       Detailees                                                 501,118                 501,118
                   Currency                                                                Agreement
                                                      IAA — GAO required by P.L. 110-
                                                                                           Interagency
      2/2/2009     Government Accountability Office   343 to conduct certain activities                       7,459,049               7,459,049
                                                                                           Agreement
                                                      related to TARP IAA
                                                                                           Interagency
      2/3/2009     Internal Revenue Service           Detailees                                                 242,499                 242,499
                                                                                           Agreement
                                                      Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.      Production, FOIA assistance, and     Contract             692,108                 692,108
                                                      Program Support
                                                      Initiate Interim Legal Services in
      2/12/2009    Locke Lord Bissell & Liddell LLP   support of Treasury Investments      Contract             272,243                 272,243
                                                      under EESA
                                                      Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                               405,730,176             375,555,856
                                                      Program                              Agent
                                                      Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                              284,925,041             254,172,655
                                                      Program                              Agent
                                                                                           Interagency
      2/20/2009    Financial Clerk U.S. Senate        Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                           Agreement
                                                                                           Interagency
      2/20/2009    Office of Thrift Supervision       Detailees                                                 203,390                 189,533
                                                                                           Agreement
                   Simpson Thacher & Bartlett MNP
      2/20/2009                                       Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   LLP
                                                      Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                             Contract           1,394,724               1,394,724
                                                      Legal Services
                   Securities and Exchange                                                 Interagency
      2/26/2009                                       Detailees                                                  18,531                  18,531
                   Commission                                                              Agreement
                   Pension Benefit Guaranty                                                Interagency
      2/27/2009                                       Rothschild, Inc.                                        7,750,000               7,750,000
                   Corporation                                                             Agreement
                   The Boston Consulting Group        Management Consulting relating to
      3/6/2009                                                                             Contract             991,169                 991,169
                   Inc.                               the Auto industry
                                                      Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                           2,947,780               2,947,780
                                                      Program                              Agent
                                                      SBA Initiative Legal Services —
      3/30/2009    Bingham McCutchen LLP5             Contract Novated from TOFS-          Contract             273,006                 143,893
                                                      09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/30/2009                                       Auto Investment Legal Services       Contract          17,392,786              17,392,786
                   LLP
      3/30/2009    Haynes and Boone, LLP              Auto Investment Legal Services       Contract             345,746                 345,746
                                                                                                                           Continued on next page
                                                                                           quarterly report to congress I July 24, 2013             191




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date        Vendor                             Purpose                              Transaction          Obligated Value        Expended Value
                                               SBA Initiative Legal Services
                                               — Contract Novated to TOFS-
3/30/2009   McKee Nelson LLP5                                                       Contract                   $149,349                $126,631
                                               10-D-0001 with Bingham
                                               McCutchen LLP
            Sonnenschein Nath & Rosenthal
3/30/2009                                      Auto Investment Legal Services       Contract                   1,834,193              1,834,193
            LLP4
                                               Credit Reform Modeling and
3/31/2009   FI Consulting Inc.                                                      Contract                   4,865,098              3,720,326
                                               Analysis
                                                                                    Interagency
4/3/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                              35,187                   25,808
                                                                                    Agreement
            The Boston Consulting Group        Management Consulting relating to
4/3/2009                                                                            Contract                   4,100,195              4,099,923
            Inc.                               the Auto industry
                                                                                    Interagency
4/17/2009   Bureau of Engraving and Printing   Detailee for PTR Support                                           45,822                   45,822
                                                                                    Agreement
4/17/2009   Herman Miller Inc.                 Aeron Chairs                         Contract                      53,799                   53,799
                                                                                    Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                     47,416,084              45,788,248
                                                                                    Agent
                                                                                    Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                     26,146,765              25,895,584
                                                                                    Agent
            Piedmont Investment Advisors,                                           Financial
4/21/2009                                      Asset Management Services                                     12,432,643              12,302,396
            LLC                                                                     Agent
                                                                                    Interagency
4/30/2009   State Department                   Detailees                                                               —                       —
                                                                                    Agreement
                                                                                    Interagency
5/5/2009    Federal Reserve Board              Detailees                                                          48,422                   48,422
                                                                                    Agreement
            Department of the Treasury —       “Making Home Affordable” Logo        Interagency
5/13/2009                                                                                                            325                     325
            U.S. Mint                          search                               Agreement
                                               Executive Search and recruiting
5/14/2009   Knowledgebank Inc.2                Services — Chief Homeownership       Contract                     124,340                  124,340
                                               Officer
                                               Freedom of Information Act (FOIA)
                                               Analysts to support the Disclosure
5/15/2009   Phacil Inc.                                                             Contract                      90,301                   90,301
                                               Services, Privacy and Treasury
                                               Records
            Securities and Exchange                                                 Interagency
5/20/2009                                      Detailees                                                         430,000                  430,000
            Commission                                                              Agreement
                                                                                    Interagency
5/22/2009   Department of Justice — ATF        Detailees                                                         243,778                  243,772
                                                                                    Agreement
                                               Legal services for work under
5/26/2009   Anderson, McCoy & Orta             Treasury’s Public-Private            Contract                   2,286,996              2,286,996
                                               Investment Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett MNP
5/26/2009                                      Treasury’s Public-Private            Contract                   7,849,026              3,526,454
            LLP
                                               Investment Funds (PPIF) program
                                                                                    Interagency
6/9/2009    Gartner, Inc.                      Financial Management Services                                      89,436                   89,436
                                                                                    Agreement
                                               Federal Consulting Group             Interagency
6/29/2009   Department of the Interior                                                                            49,000                   49,000
                                               (Foresee)                            Agreement
                                                                                                                           Continued on next page
192          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS             (CONTINUED)

                                                                                         Type of
      Date         Vendor                             Purpose                            Transaction     Obligated Value        Expended Value
      7/8/2009     Judicial Watch   6
                                                      Litigation Settlement              Other Listing           $1,500                  $1,500
                                                      Executive search services for
      7/17/2009    Korn/Ferry International           the OFS Chief Investment Officer   Contract                74,023                  74,023
                                                      position
                   Cadwalader Wickersham & Taft
      7/30/2009                                       Restructuring Legal Services       Contract             1,278,696               1,278,696
                   LLP
      7/30/2009    Debevoise & Plimpton LLP           Restructuring Legal Services       Contract                 1,650                    1,650
                   Fox, Hefter, Swibel, Levin &
      7/30/2009                                       Restructuring Legal Services       Contract                26,493                  26,493
                   Carol, LLP
                                                                                         Interagency
      8/10/2009    Department of Justice              Detailees                                                  63,109                  63,109
                                                                                         Agreement
                   National Aeronautics and Space                                        Interagency
      8/10/2009                                       Detailees                                                 140,889                 140,889
                   Administration (NASA)                                                 Agreement
                                                      Executive Compensation Data
      8/18/2009    Mercer (US) Inc.                                                      Contract                 3,000                    3,000
                                                      Subscription
                                                                                         Interagency
      8/25/2009    Department of Justice              Detailees                                                  63,248                  63,248
                                                                                         Agreement
      9/2/2009     Knowledge Mosaic Inc.              SEC filings subscription service   Contract                 5,000                    5,000
                                                      Executive Compensation Data
      9/10/2009    Equilar, Inc.                                                         Contract                59,990                  59,990
                                                      Subscription
      9/11/2009    PricewaterhouseCoopers, LLP        PPIP compliance                    Contract             3,647,526               3,517,441
                                                                                         Interagency
      9/18/2009    Treasury Franchise Fund – BPD      Administrative Support                                    436,054                 436,054
                                                                                         Agreement
      9/28/2009    Judicial Watch6                    Litigation Settlement              Other Listing            2,146                    2,146
                                                                                         Interagency
      9/30/2009    Immixtechnology Inc.3              EnCase eDiscovery ProSuite                                210,184                       —
                                                                                         Agreement
                                                                                         Interagency
      9/30/2009    Immixtechnology Inc.3              Guidance Inc.                                             108,000                       —
                                                                                         Agreement
      9/30/2009    NNA INC.                           Administrative Support             Contract                 8,220                    8,220
                                                      SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                      Contract               460,000                 460,000
                                                      financial analytics service
                   Department of the Treasury —                                          Interagency
      11/9/2009                                       Administrative Support                                 23,682,061              18,056,064
                   Departmental Offices                                                  Agreement
                                                                                         Interagency
      12/16/2009   Internal Revenue Service           Detailees                                                      —                        —
                                                                                         Agreement
                                                                                         Financial
      12/22/2009   Avondale Investments, LLC          Asset Management Services                                 772,657                 772,657
                                                                                         Agent
                                                                                         Financial
      12/22/2009   Bell Rock Capital, LLC             Asset Management Services                               2,492,674               2,435,972
                                                                                         Agent
                                                      Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                             Contract             1,653,289                 868,376
                                                      Litigation Support
                                                                                         Financial
      12/22/2009   KBW Asset Management, Inc.         Asset Management Services                               4,937,433               4,937,433
                                                                                         Agent
                                                                                         Financial
      12/22/2009   Lombardia Capital Partners, LLC    Asset Management Services                               3,217,866               3,217,866
                                                                                         Agent
                   Paradigm Asset Management                                             Financial
      12/22/2009                                      Asset Management Services                               3,877,859               3,794,923
                   Co., LLC                                                              Agent
                                                                                                                           Continued on next page
                                                                                           quarterly report to congress I July 24, 2013             193




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date         Vendor                             Purpose                             Transaction          Obligated Value        Expended Value
             Raymond James (f/k/a Howe                                              Financial
12/22/2009                                      Asset Management Services                                      $384,308                $362,512
             Barnes Hoefer & Arnett, Inc.)                                          Agent
             Howe Barnes Hoefer & Arnett,
12/23/2009                                      Asset Management Services           FAA Listing                3,124,094              3,124,094
             Inc.
                                                IAA — GAO required by P.L.110-
                                                                                    Interagency
1/14/2010    Government Accountability Office   343 to conduct certain activities                              7,304,722              7,304,722
                                                                                    Agreement
                                                related to TARP
             Association of Government
1/15/2010                                       CEAR Program Application            Contract                       5,000                    5,000
             Accountants
                                                                                    Interagency
2/16/2010    Internal Revenue Service           Detailees                                                         52,742                   52,742
                                                                                    Agreement
                                                FNMA IR2 assessment — OFS
2/16/2010    The MITRE Corporation              task order on Treasury MITRE        Contract                     730,192                  730,192
                                                Contract
                                                                                    Interagency
2/18/2010    Treasury Franchise Fund – BPD      Administrative Support                                         1,221,140              1,221,140
                                                                                    Agreement
3/8/2010     Qualx Corporation                  FOIA Support Services               Contract                     549,518                  549,518
             Department of the Treasury —                                           Interagency
3/12/2010                                       Administrative Support                                           671,731                  671,731
             Departmental Offices                                                   Agreement
                                                                                    Interagency
3/22/2010    Gartner, Inc.                      Financial Management Services                                     73,750                   73,750
                                                                                    Agreement
             Federal Maritime Commission                                            Interagency
3/26/2010                                       Detailees                                                        158,600                  158,600
             (FMC)                                                                  Agreement
             Morgan Stanley & Co.                                                   Financial
3/29/2010                                       Disposition Agent Services                                   16,685,290              16,685,290
             Incorporated                                                           Agent
                                                                                    Interagency
4/2/2010     Financial Clerk U.S. Senate        Congressional Oversight Panel                                  4,797,556              4,797,556
                                                                                    Agreement
4/8/2010     Squire Sanders & Dempsey LLP       Housing Legal Services              Contract                   1,229,350                  918,224
4/12/2010    Hewitt EnnisKnupp, Inc.1           Investment Consulting Services      Contract                   5,468,750              4,231,631
                                                Data and Document Management
4/22/2010    Digital Management Inc.                                                Contract                           —                       —
                                                Consulting Services
                                                Data and Document Management
4/22/2010    MicroLink LLC                                                          Contract                 16,234,132              12,996,003
                                                Consulting Services
                                                Data and Document Management
4/23/2010    RDA Corporation                                                        Contract                   6,626,280              6,419,518
                                                Consulting Services
                                                                                    Interagency
5/4/2010     Internal Revenue Service           Training — Bulux CON 120                                           1,320                    1,320
                                                                                    Agreement
                                                                                    Financial
5/17/2010    Lazard Fréres & Co. LLC            Transaction Structuring Services                             14,222,312              14,222,312
                                                                                    Agent
             Reed Elsevier Inc (dba             Accurint subscription service for
6/24/2010                                                                           Contract                       8,208                    8,208
             LexisNexis)                        one year — 4 users
                                                Financial Institution Management
             The George Washington
6/30/2010                                       & Modeling — Training course        Contract                       5,000                    5,000
             University
                                                (J.Talley)
                                                Program Compliance Support
7/21/2010    Navigant Consulting Inc.                                               Contract                   3,774,673                  687,355
                                                Services
                                                Program Compliance Support
7/21/2010    Regis & Associates PC                                                  Contract                   1,933,726                  820,902
                                                Services
                                                                                                                           Continued on next page
194          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                          Type of
      Date         Vendor                            Purpose                              Transaction   Obligated Value        Expended Value
                                                     Program Compliance Support
      7/22/2010    Ernst & Young LLP                                                      Contract          $9,221,175              $4,186,770
                                                     Services
                                                     Program Compliance Support
      7/22/2010    PricewaterhouseCoopers, LLP                                            Contract                  —                        —
                                                     Services
      7/22/2010    Schiff Hardin LLP                 Housing Legal Services               Contract              97,526                  97,526
      7/27/2010    West Publishing Corporation       Subscription Service for 4 users     Contract               6,664                    6,664
                                                     Omnibus procurement for legal
      8/6/2010     Alston & Bird LLP                                                      Contract           1,357,061                 232,482
                                                     services
                   Cadwalader Wickersham & Taft      Omnibus procurement for legal
      8/6/2010                                                                            Contract           7,406,866               3,322,957
                   LLP                               services
                   Fox, Hefter, Swibel, Levin &      Omnibus procurement for legal
      8/6/2010                                                                            Contract             227,415                 150,412
                   Carol, LLP                        services
                                                     Omnibus procurement for legal
      8/6/2010     Haynes and Boone, LLP                                                  Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Hughes Hubbard & Reed LLP                                              Contract           2,480,447               1,207,063
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Love & Long LLP                                                        Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Orrick Herrington Sutcliffe LLP                                        Contract                  —                        —
                                                     services
                   Paul, Weiss, Rifkind, Wharton &   Omnibus procurement for legal
      8/6/2010                                                                            Contract           9,565,850               5,063,970
                   Garrison LLP                      services
                                                     Omnibus procurement for legal
      8/6/2010     Perkins Coie LLP                                                       Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Seyfarth Shaw LLP                                                      Contract                  —                        —
                                                     services
                   Shulman, Rogers, Gandal, Pordy    Omnibus procurement for legal
      8/6/2010                                                                            Contract             367,641                 212,770
                   & Ecker, PA                       services
                   Sullivan Cove Reign Enterprises   Omnibus procurement for legal
      8/6/2010                                                                            Contract                  —                        —
                   JV                                services
                                                     Omnibus procurement for legal
      8/6/2010     Venable LLP                                                            Contract             498,100                      960
                                                     services
      8/12/2010    Knowledge Mosaic Inc.             SEC filings subscription service     Contract               5,000                    5,000
                   Department of Housing and                                              Interagency
      8/30/2010                                      Detailees                                                  29,915                  29,915
                   Urban Development                                                      Agreement
                                                     One-year subscription (3 users) to
                                                     the CQ Today Breaking News &
      9/1/2010     CQ-Roll Call Inc.                 Schedules, CQ Congressional &        Contract               7,500                    7,500
                                                     Financial Transcripts, CQ Custom
                                                     Email Alerts
                                                     SBA 7(a) Security Purchase
      9/17/2010    Bingham McCutchen LLP5                                                 Contract              11,177                  11,177
                                                     Program
                                                     Program Operations Support
                                                     Services to include project
      9/27/2010    Davis Audrey Robinette            management, scanning and             Contract           4,019,939               3,101,265
                                                     document management and
                                                     correspondence
                                                                                                                          Continued on next page
                                                                                            quarterly report to congress I July 24, 2013             195




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                     Type of
Date         Vendor                             Purpose                              Transaction          Obligated Value        Expended Value
                                                GSA Task Order for procurement
                                                books — FAR, T&M, Government
9/30/2010    CCH Incorporated                                                        Contract                      $2,430                  $2,430
                                                Contracts Reference, World Class
                                                Contracting
                                                                                     Interagency
10/1/2010    Financial Clerk U.S. Senate        Congressional Oversight Panel                                   5,200,000              2,777,752
                                                                                     Agreement
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                       1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 216            Contract                       1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                       2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — 11107705           Contract                         995                     995
10/8/2010    Management Concepts Inc.           Training Course — Analytic Boot      Contract                       1,500                   1,500
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                       2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                       1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                       2,214                   2,214
             Hispanic Association of Colleges
10/14/2010                                      Detailees                            Contract                      12,975                  12,975
             & Universities
                                                IAA — GAO required by P.L. 110-
                                                                                     Interagency
10/26/2010   Government Accountability Office   343 to conduct certain activities                               5,600,000              3,738,195
                                                                                     Agreement
                                                related to TARP
                                                FNMA IR2 assessment — OFS
                                                task order on Treasury MITRE
11/8/2010    The MITRE Corporation              Contract for cost and data           Contract                   2,288,166              1,850,677
                                                validation services related to
                                                HAMP FA
                                                Structuring and Disposition          Financial
11/18/2010   Greenhill & Co., Inc.                                                                              6,139,167              6,139,167
                                                Services                             Agent
                                                Acquisition Support Services —
12/2/2010    Addx Corporation                   PSD TARP (action is an order         Contract                   1,311,314              1,299,002
                                                against BPA)
             Reed Elsevier Inc. (dba            Accurint subscription services one
12/29/2010                                                                           Contract                         684                     684
             LexisNexis)                        user
                                                                                     Interagency
1/5/2011     Canon U.S.A. Inc.                  Administrative Support                                             12,937                  12,013
                                                                                     Agreement
                                                Structuring and Disposition          Financial
1/18/2011    Perella Weinberg Partners & Co.                                                                    5,542,473              5,542,473
                                                Services                             Agent
                                                                                     Interagency
1/24/2011    Treasury Franchise Fund – BPD      Administrative Support                                          1,090,860              1,090,860
                                                                                     Agreement
             Association of Government
1/26/2011                                       CEAR Program Application             Contract                       5,000                   5,000
             Accountants
                                                Mentor Program Training (call
2/24/2011    ESI International Inc.                                                  Contract                      20,758                  20,758
                                                against IRS BPA)
             Department of the Treasury —                                            Interagency
2/28/2011                                       Administrative Support                                        17,805,529              13,243,352
             Departmental Offices                                                    Agreement
                                                Executive Compensation Data
3/3/2011     Equilar, Inc.                                                           Contract                      59,995                  59,995
                                                Subscription
                                                Executive Compensation Data
3/10/2011    Mercer (US) Inc.                                                        Contract                       7,425                   3,600
                                                Subscription
                                                                                                                            Continued on next page
196          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                           Type of
      Date         Vendor                              Purpose                             Transaction   Obligated Value        Expended Value
      3/22/2011    Harrison Scott Publications Inc.    Subscription Service                Contract              $5,894                  $5,894
                                                                                           Interagency
      3/28/2011    Fox News Network LLC7               Litigation Settlement                                    121,000                 121,000
                                                                                           Agreement
                   Federal Reserve Bank of New                                             Interagency
      4/20/2011                                        Oversight Services                                     1,300,000                 875,415
                   York (FRBNY) HR                                                         Agreement
      4/26/2011    PricewaterhouseCoopers, LLP         Financial Services Omnibus          Contract           5,102,092               3,502,284
      4/27/2011    ASR Analytics LLC                   Financial Services Omnibus          Contract           2,645,423               1,146,868
      4/27/2011    Ernst & Young LLP                   Financial Services Omnibus          Contract           1,584,282                 561,136
      4/27/2011    FI Consulting, Inc.                 Financial Services Omnibus          Contract           2,812,304               2,196,414
      4/27/2011    Lani Eko & Company CPAs LLC         Financial Services Omnibus          Contract              50,000                       —
      4/27/2011    MorganFranklin Corporation          Financial Services Omnibus          Contract             619,375                 213,755
      4/27/2011    Oculus Group, Inc.                  Financial Services Omnibus          Contract           3,643,643               1,540,855
      4/28/2011    Booz Allen Hamilton, Inc.           Financial Services Omnibus          Contract              50,000                       —
      4/28/2011    KPMG LLP                            Financial Services Omnibus          Contract              50,000                       —
                   Office of Personnel Management
                                                                                           Interagency
      4/28/2011    (OPM) — Western Management          Leadership Training                                       21,300                       —
                                                                                           Agreement
                   Development Center
                   Reed Elsevier Inc (dba              Accurint subscriptions by
      5/31/2011                                                                            Contract              10,260                  10,260
                   LexisNexis)                         LexisNexis for 5 users
                                                       Five (5) user subscriptions to
      5/31/2011    West Publishing Corporation         CLEAR by West Government            Contract               7,515                    7,515
                                                       Solutions
                                                       One year subscription to the
                                                       CQ Today Breaking News &
      6/9/2011     CQ-Roll Call Inc.                   Schedules, CQ Congressional &       Contract               7,750                    7,750
                                                       Financial Transcripts, CQ Custom
                                                       Email Alerts
                                                       Anti-Fraud Protection and
      6/17/2011    Winvale Group LLC                                                       Contract             711,698                 504,232
                                                       Monitoring Subscription Services
                   Department of the Treasury —                                            Interagency
      6/24/2011                                        Administrative Support                                   660,601                 660,601
                   Departmental Offices                                                    Agreement
                   Internal Revenue Service —                                              Interagency
      7/28/2011                                        Detailee                                                  84,234                  84,234
                   Procurement                                                             Agreement
                                                                                           Interagency
      9/9/2011     Financial Management Service        FMS – NAFEO                                               22,755                  22,755
                                                                                           Agreement
                                                       MHA Felony Certification
      9/12/2011    ADC LTD NM                                                              Contract             447,799                 339,489
                                                       Background Checks (BPA)
                   ABMI – All Business Machines,       4 Level 4 Security Shredders and
      9/15/2011                                                                            Contract               4,392                    4,392
                   Inc                                 Supplies
                                                       National Business Center, Federal   Interagency
      9/29/2011    Department of Interior                                                                        51,000                  25,000
                                                       Consulting Group                    Agreement
                                                       Renewing TD010-F-249 SEC filings
      9/29/2011    Knowledge Mosaic Inc.                                                   Contract               4,200                    4,200
                                                       Subscription Service
                                                                                           Interagency
      10/4/2011    Internal Revenue Service            Detailees                                                168,578                  84,289
                                                                                           Agreement
                   ABMI – All Business Machines,       4 Level 4 Security Shredders and
      10/20/2011                                                                           Contract               4,827                    4,827
                   Inc.                                Supplies
                                                                                                                           Continued on next page
                                                                                               quarterly report to congress I July 24, 2013             197




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                        Type of
Date         Vendor                               Purpose                               Transaction          Obligated Value        Expended Value
11/18/2011   Qualx Corporation                    FOIA Support Services                 Contract                     $68,006                  $68,006
                                                                                        Financial
11/29/2011   Houlihan Lokey, Inc.                 Transaction Structuring Services                                 9,650,000              7,586,290
                                                                                        Agent
                                                  Pre-Program and Discovery
12/20/2011   The Allison Group LLC                                                      Contract                      19,065                   19,065
                                                  Process Team Building
                                                                                        Interagency
12/30/2011   Department of the Treasury           Administrative Support                                             901,433                  899,268
                                                                                        Agreement
             Department of the Treasury —                                               Interagency
12/30/2011                                        Administrative Support                                         15,098,746              10,169,235
             Departmental Offices                                                       Agreement
                                                  IAA — GAO required by P.L. 110-
                                                                                        Interagency
1/4/2012     Government Accountability Office     343 to conduct certain activities                                2,500,000              2,475,937
                                                                                        Agreement
                                                  related to TARP IAA
             Office of Personnel Management       Office of Personnel Management
                                                                                        Interagency
1/5/2012     (OPM) — Western Management           (OPM) — Western Management                                          31,088                       —
                                                                                        Agreement
             Development Center                   Development Center
                                                  ABS/MBS Data Subscription
2/2/2012     Moody’s Analytics Inc.                                                     Contract                   2,769,000              2,085,458
                                                  Services
                                                  Structuring and Disposition           Financial
2/7/2012     Greenhill & Co., LLC                                                                                  1,680,000              1,680,000
                                                  Services                              Agent
2/14/2012    Association of Govt Accountants      CEAR Program Application              Contract                       5,000                    5,000
2/27/2012    Diversified Search LLC               CPP Board Placement Services          Contract                     510,000                  201,779
3/6/2012     Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)        Contract                   1,892,123              1,057,434
                                                  National Business Center, Federal     Interagency
3/14/2012    Department of Interior                                                                                   57,500                   26,000
                                                  Consulting Group                      Agreement
             Department of the Treasury —                                               Interagency
3/30/2012                                         Administrative Support                                           1,137,451                  542,673
             Departmental Offices WCF                                                   Agreement
3/30/2012    E-Launch Multimedia, Inc.            Subscription Service                  Contract                           —                       —
                                                  Maintenance Agreement for Canon
5/2/2012     Cartridge Technology, Inc.                                                 Contract                      15,692                    8,500
                                                  ImageRunner
                                                  Executive Compensation Data
5/10/2012    Equilar Inc.                                                               Contract                      44,995                   44,995
                                                  Subscription
                                                                                        Interagency
6/12/2012    Department of Justice                Detailees                                                        1,737,884                  248,825
                                                                                        Agreement
6/15/2012    Qualx Corporation                    FOIA Support Services                 Contract                     104,112                   81,722
                                                  Subscription for Anti Fraud Unit to
6/30/2012    West Publishing Corporation                                                Contract                       8,660                    8,660
                                                  Perform Background Research
7/26/2012    Knowledge Mosaic Inc.                SEC filings subscription service      Contract                       4,750                    4,750
                                                                                        Interagency
8/1/2012     Internal Revenue Service             Training                                                             4,303                    4,303
                                                                                        Agreement
                                                  Subscription to Commercial
8/3/2012     Harrison Scott Publications Inc.                                           Contract                       3,897                    3,897
                                                  Mortgage Alert Online Service
                                                  Administrative Resource Center        Interagency
9/19/2012    Treasury Franchise Fund — BPD                                                                           826,803                  620,102
                                                  (ARC)                                 Agreement
                                                  Data Subscription Services for
9/28/2012    SNL Financial LC                     Financial, Regulatory, and Market     Contract                     180,000                  180,000
                                                  Data and Services
                                                                                                                               Continued on next page
198               special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                                                             Type of
      Date                 Vendor                                          Purpose                                           Transaction                    Obligated Value                  Expended Value
                                                                                                                             Interagency
      11/19/2012           Government Accountability Office                Oversight services                                                                     $1,800,000                        $1,507,661
                                                                                                                             Agreement
                           Association of Government
      12/13/2012                                                           CEAR Program Application                          Contract                                      5,000                             5,000
                           Accountants
                           Department of the Treasury —                                                                      Interagency
      12/19/2012                                                           Administrative Support                                                                 12,264,436                          5,885,475
                           Departmental Offices                                                                              Agreement
                                                                                                                             Financial
      1/1/2013             Lazard Fréres & Co. LLC                         Asset Management Services                                                                2,250,000                         1,500,000
                                                                                                                             Agent
                                                                                                                             Financial
      1/1/2013             Lazard Fréres & Co. LLC                         Legal Advisory                                                                           4,500,000                         2,250,000
                                                                                                                             Agent
      2/13/2013            Mercer (US) Inc.                                Personnel detail                                  Contract                                      4,050                                  —
                           Department of the Treasury -                                                                      Interagency
      3/4/2013                                                             Administrative Support                                                                   1,350,662                                     —
                           Departmental Offices WCF                                                                          Agreement
                           Department of Housing and                                                                         Interagency
      3/7/2013                                                             Research and Analysis Services                                                              499,348                                    —
                           Urban Development                                                                                 Agreement
      3/26/2013            Bloomberg Finance L.P.                          Administrative Support                            Contract                                      5,400                             5,400
                                                                                                                             Interagency
      3/28/2013            Treasury Acquisition Institute                  Legal Advisory                                                                                21,000                                   —
                                                                                                                             Agreement
                                                                                                                             Interagency
      5/1/2013             Internal Revenue Service                        Legal Services                                                                                88,854                                   —
                                                                                                                             Agreement
      5/10/2013            Equilar Inc.                                    Administrative Support                            Contract                                    45,995                            45,995
      6/13/2013            West Publishing Corporation                     Administrative Support                            Contract                                      8,131                                  —
      Total                                                                                                                                               $1,274,154,104                    $1,126,119,884
      Notes: Numbers may not total due to rounding. Table 4.2 includes all vendor contracts administered under Federal Acquisition Regulations, inter-agency agreements, and financial agency agreements
      entered into in support of OFS since the beginning of the program. The table does not include salary, benefits, travel, and other non-contract related expenses. For some contracts, $0 is obligated if no task
      orders have been awarded and so those contracts are not reflected in this table.
      1
        EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
         Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
          Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
           Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
            McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      6
             Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
      7
              Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.

      Source: Treasury, response to SIGTARP data call, 7/11/2013.
S ect io n 5   SIGTARP Recommendations
200   special inspector general I troubled asset relief program
                                                                                                                                   quarterly report to congress I July 24, 2013     201




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has
made 121 recommendations in its quarterly reports to Congress and its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated April 24, 2013 (the “April 2013 Quarterly Report”), and,
in the table at the end of this section, summarizes SIGTARP’s recommendations
from past quarters and notes the extent of implementation.




Update on Recommendation Regarding AIG
On September 13, 2012, SIGTARP called on Treasury and the Board of Governors
of the Federal Reserve System (“Federal Reserve”) to recommend to the Financial
Stability Oversight Council (“FSOC” or “the Council”) that AIG be designated as
systemically important pursuant to Dodd-Frank to ensure that AIG is subject to
the most comprehensive regulatory scrutiny in order to protect taxpayers’ then-
TARP investment in AIG. On July 8, 2013, FSOC took action and unanimously
designated AIG as systemically important, requiring that the then-TARP-recipient                                                                For more on SIGTARP’s
be supervised by the Federal Reserve and subject to additional heightened                                                                       recommendation regarding AIG, see
regulation. Specifically, Treasury Secretary (and FSOC Chairperson) Jacob Lew,                                                                  SIGTARP’s October 2012 Quarterly
and Chairman of the Federal Reserve Ben Bernanke voted in favor of AIG’s                                                                        Report, pages 179-180.
designation, thereby fully implementing SIGTARP’s previous recommendation.
     Agreeing with SIGTARP’s concerns, FSOC determined that if AIG were to
experience material financial distress in the future, the company could pose a
threat to U.S. financial stability.i Announcing the importance of this decision,
Secretary Lew stated: “Today, the Council has taken a decisive step to address
threats to U.S. financial stability and create a safer and more resilient financial
system.” He added, “These designations will help protect the financial system and
broader economy from the types of risks that contributed to the financial crisis.”
     As SIGTARP noted in its recommendation, although AIG has made some
changes to its business since it was bailed out by taxpayers, AIG’s collapse could
still pose a threat to the financial stability of the United States today. Among other
things, SIGTARP referred to ongoing risks posed by AIG’s business, including the
interconnectedness of its operations to the nation’s financial system, the size of
its assets, its involvement in credit default swaps, its derivative exposure, and the
company’s outstanding debt. FSOC indicated that, in making its determination, it
considered these and other factors, including the extent of AIG’s leverage, its trans-
actions and relationship with other systemically important financial companies,
its liabilities, and its reliance on short-term debt. Summarizing its analysis, FSOC
iA
  long with AIG, FSOC also determined General Electric Capital Corporation, Inc. (a non-TARP recipient) should similarly be subject to
 enhanced regulation by the Federal Reserve.
202   special inspector general I troubled asset relief program




                                             explained, “Because of AIG’s size and interconnectedness, certain characteristics of
                                             its liabilities and products, the potential effects of a rapid liquidation of its assets,
                                             potential challenges with resolvability, as well as other factors…material finan-
                                             cial distress at AIG could cause an impairment of financial intermediation or of
                                             financial market functioning that would be sufficiently severe to inflict significant
                                             damage on the broader economy.”
                                                  FSOC agreed with SIGTARP’s recommendation that AIG’s previous Federal
                                             regulation was a necessary factor to be considered in subjecting the company to
                                             enhanced regulation. In fact, as SIGTARP previously noted, leading up to the
                                             financial crisis and even after receiving TARP support, AIG operated with little
                                             supervision and without an effective consolidated Federal regulator. For more than
                                             two years prior to SIGTARP’s recommendation, AIG had no consolidated regulator
                                             after its prior regulator, the Office of Thrift Supervision, was disbanded. In
                                             September 2012, once Treasury’s ownership of TARP shares in AIG fell below 50%,
                                             the Federal Reserve became AIG’s consolidated regulator because AIG qualified as
                                             a Savings and Loan Holding Company (“SLHC”) due to a small bank owned by the
                                             company. Nonetheless, even when AIG became supervised by the Federal Reserve,
                                             AIG still was not subject to the most stringent level of regulation that flowed to
                                             systemically important institutions. Indeed, in its determination analysis, FSOC
                                             explained, “Absent a determination by the Council regarding AIG, however, AIG
                                             would not be subject to the enhanced prudential standards required under sections
                                             165 and 166 of the Dodd-Frank Act because these standards do not apply to
                                             SLHCs unless the Board of Governors separately applies these requirements
                                             to SLHCs.”
                                                  Moreover, as SIGTARP’s recommendation explained, AIG had the power to
                                             escape the Federal Reserve’s regulation, because that regulation was dependent on
                                             AIG’s ownership of the small bank, which AIG was considering shedding. Even if
                                             AIG kept the bank, it may not be subject to the strongest level of regulation that
                                             flowed to systemically important institutions. FSOC agreed, noting: “Furthermore,
                                             it is possible that in the future, certain companies may no longer be subject to
                                             the Board of Governors’ authority if they successfully deregister as SLHCs. For
                                             example, if AIG were to deregister as an SLHC, even though its subsidiaries would
                                             remain subject to other regulatory regimes, the Board of Governors would no
                                             longer act as its consolidated supervisor.”
                                                  Implementation of SIGTARP’s recommendation to designate AIG as
                                             systemically important is a necessary and positive step to repairing AIG’s lax
                                             regulatory environment that allowed for the company’s near-collapse, threatened
                                             financial stability, and contributed to the financial crisis and the taxpayers’ bailout
                                             of AIG. Subjecting AIG to the highest level of Federal regulation is necessary to
                                             mitigate the potential dangers to financial stability should AIG again find itself
                                             in severe financial distress. As FSOC explained, the Federal Reserve’s enhanced
                                             regulation will now require AIG to, among other things: (1) meet enhanced
                                             liquidity and capital standards; (2) undergo and report periodic stress tests; (3)
                                             adopt enhanced risk-management processes; (4) submit a resolution plan providing
                                                                                   quarterly report to congress I July 24, 2013              203




for its rapid and orderly resolution in the event of its material financial distress
or failure; and (5) provide for the early remediation of financial distress at the
company on a consolidated basis.
    Although AIG has repaid the TARP support provided by taxpayers, increased
Federal regulation over AIG is critical to ensure that taxpayers’ support was not
in vain. To best protect the taxpayers’ investment in TARP, including in AIG,
regulators should use all the tools available to alleviate risks posed by large,
interconnected financial institutions whose severe distress could threaten our
nation’s financial system, such as AIG.




Update on Recommendations Regarding
Redefaults of Mortgages Modified Under
HAMP
On April 1, 2013, SIGTARP expressed its concerns to Treasury that the number
of homeowners who have redefaulted on permanent mortgage modification under
TARP’s signature housing support program, HAMP, is increasing at an alarming
rate, leaving those homeowners more at risk of foreclosure. As a result, SIGTARP
                                                                                                For the full text of SIGTARP’s
issued four recommendations, calling upon Treasury to use its many resources and
                                                                                                recommendations regarding redefaults of
work to curb HAMP redefaults to keep homeowners safe from losing their homes.
                                                                                                mortgages modified under HAMP, and
    Specifically, SIGTARP recommended that Treasury: (1) conduct research and
                                                                                                for Treasury’s response, see Appendix J of
analysis to determine the causes and characteristics of homeowners who redefault                this report.
on HAMP permanent mortgage modifications, publishing its findings; (2) modify
aspects of TARP’s housing programs to reduce the number of homeowners who                       For more on homeowners who redefault
redefault out of HAMP, based on those findings; (3) require servicers to develop                on HAMP permanent mortgage
and use an “early warning system” to identify and reach out to homeowners that                  modifications, see Section 3 of this
may be at risk of redefaulting on a HAMP permanent mortgage modification; and                   report.
(4) require servicers to inform homeowners in writing who have redefaulted on a
HAMP permanent modification about possible alternative assistance options to
foreclosure available under TARP, such as the Hardest Hit Fund and HAMP
Tier 2, and that Treasury permanently withhold incentives from servicers who fail
to do so.
    Treasury has agreed to implement SIGTARP’s four recommendations. It is a
positive sign that Treasury is willing to address these four critical recommendations
and SIGTARP will monitor Treasury’s implementation of the recommendations. In
addition, with Treasury extending the HAMP application period for two years until
December 31, 2015, it is crucial that Treasury fully and expeditiously implement all
of SIGTARP’s recommendations addressing TARP’s housing programs to maximize
TARP assistance to homeowners and to prevent taxpayers’ dollars that funded
HAMP from going to waste. SIGTARP has issued a series of recommendations
to Treasury aimed at the process by which a homeowner gets into HAMP and
the treatment of the homeowner while in HAMP that are designed to help
homeowners.
SIGTARP RECOMMENDATIONS TABLE                                                                                                                                                             204
                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
1    *   Treasury should include language in the automobile industry
         transaction term sheet acknowledging SIGTARP’s oversight
                                                                               X
         role and expressly giving SIGTARP access to relevant
         documents and personnel.
2    *   Treasury should include language in new TARP agreements                                                                             Although Treasury has made
         to facilitate compliance and oversight. Specifically, SIGTARP                                                                       substantial efforts to comply with
         recommends that each program participant should (1)                                                                                 this recommendation in many of its
         acknowledge explicitly the jurisdiction and authority of                                                                            agreements, there have been exceptions,
         SIGTARP and other oversight bodies, as relevant, to oversee                                                                         including in its agreements with servicers
         compliance of the conditions contained in the agreement                                                                             in MHA.
         in question, (2) establish internal controls with respect to                            X
         that condition, (3) report periodically to the Compliance
         department of the Office of Financial Stability (“OFS-
         Compliance”) regarding the implementation of those controls
         and its compliance with the condition, and (4) provide a
         signed certification from an appropriate senior official to
         OFS-Compliance that such report is accurate.
3    *   All existing TARP agreements, as well as those governing
         new transactions, should be posted on the Treasury website            X
         as soon as possible.
                                                                                                                                                                                          special inspector general I troubled asset relief program




4    *   Treasury should require all TARP recipients to report on the
                                                                               X
         actual use of TARP funds.
5    *   Treasury quickly determines its going-forward valuation
                                                                               X
         methodology.
6    *   Treasury begins to develop an overall investment strategy to
         address its portfolio of stocks and decide whether it intends         X
         to exercise warrants of common stock.
7    *   In formulating the structure of TALF, Treasury should                                                                               The Federal Reserve adopted
         consider requiring, before committing TARP funds to the                                                                             mechanisms that address this
         program, that certain minimum underwriting standards and/                                                                           recommendation.
                                                                               X
         or other fraud prevention mechanisms be put in place with
         respect to the ABS and/or the assets underlying the ABS
         used for collateral.
8    *   Agreements with TALF participants should include an
         acknowledgment that: (1) they are subject to the oversight
         of OFS-Compliance and SIGTARP, (2) with respect to any
         condition imposed as part of TALF, that the party on which
                                                                                                                           X
         the condition is imposed is required to establish internal
         controls with respect to each condition, report periodically
         on such compliance, and provide a certification with respect
         to such compliance.
9    *   Treasury should give careful consideration before agreeing                                                                          This recommendation was implemented
         to the expansion of TALF to include MBS without a full review                                                                       with respect to CMBS, and the Federal
                                                                               X
         of risks that may be involved and without considering certain                                                                       Reserve did not expand TALF to RMBS.
         minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (Continued)

                                                                                             Partially                    Not
         Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
10   *   Treasury should oppose any expansion of TALF to legacy                                                                              This recommendation was implemented
         MBS without significant modifications to the program to                                                                             with respect to CMBS, and the Federal
                                                                               X
         ensure a full assessment of risks associated with such an                                                                           Reserve did not expand TALF to RMBS.
         expansion.
11       Treasury should formalize its valuation strategy and begin                                                                          Treasury has formalized its valuation
         providing values of the TARP investments to the public.               X                                                             strategy and regularly publishes its
                                                                                                                                             estimates.
12   *   Treasury and the Federal Reserve should provide to                                                                                  On December 1, 2010, the Federal
         SIGTARP, for public disclosure, the identity of the borrowers                                                                       Reserve publicly disclosed the identities
         who surrender collateral in TALF.                                                                                                   of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *   In TALF, Treasury should dispense with rating agency                                                                                The Federal Reserve announced that
         determinations and require a security-by-security screening                                                                         RMBS were ineligible for TALF loans,
         for each legacy RMBS. Treasury should refuse to participate                                                                         rendering this recommendation moot.
         if the program is not designed so that RMBS, whether new
         or legacy, will be rejected as collateral if the loans backing                                                               X
         particular RMBS do not meet certain baseline underwriting
         criteria or are in categories that have been proven to be
         riddled with fraud, including certain undocumented subprime
         residential mortgages.
14   *   In TALF, Treasury should require significantly higher haircuts                                                                      This recommendation was implemented
         for all MBS, with particularly high haircuts for legacy RMBS,         X                                                             with respect to CMBS, and the Federal
         or other equally effective mitigation efforts.                                                                                      Reserve did not expand TALF to RMBS.
15   *   Treasury should require additional anti-fraud and credit                                                                            The Federal Reserve adopted
         protection provisions, specific to all MBS, before                                                                                  mechanisms that address this
         participating in an expanded TALF, including minimum                  X                                                             recommendation with respect to CMBS,
         underwriting standards and other fraud prevention                                                                                   and did not expand TALF to RMBS.
         measures.
16   *   Treasury should design a robust compliance protocol with
         complete access rights to all TALF transaction participants                                                       X
         for itself, SIGTARP, and other relevant oversight bodies.
17   *   Treasury should not allow Legacy Securities PPIFs to invest
         in TALF unless significant mitigating measures are included           X
         to address these dangers.
18   *   All TALF modeling and decisions, whether on haircuts or any
         other credit or fraud loss mechanisms, should account for
         potential losses to Government interests broadly, including           X
         TARP funds, and not just potential losses to the Federal
         Reserve.
19   *   Treasury should address the confusion and uncertainty on
                                                                                                                                                                                         quarterly report to congress I July 24, 2013




         executive compensation by immediately issuing the required            X
         regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                         205
SIGTARP RECOMMENDATIONS TABLE                    (Continued)                                                                                                                              206
                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
20   *   Treasury should significantly increase the staffing levels of                                                                       According to Treasury, OFS-Compliance
         OFS-Compliance and ensure the timely development and                                                                                has increased its staffing level and has
         implementation of an integrated risk management and                                     X                                           contracted with four private firms to
         compliance program.                                                                                                                 provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *   Treasury should require CAP participants to (1) establish an                                                                        Treasury closed the program with no
         internal control to monitor their actual use of TARP funds, (2)                                                                     investments having been made, rendering
         provide periodic reporting on their actual use of TARP funds,                                                                       this recommendation moot.
         (3) certify to OFS-Compliance, under the penalty of criminal
         sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
         of internal controls and regular certified reports should be
         applied to all conditions imposed on CAP participants, and
         (4) acknowledge explicitly the jurisdiction and authority of
         SIGTARP and other oversight bodies, as appropriate, to
         oversee conditions contained in the agreement.
22   *   Treasury should impose strict conflict-of-interest rules upon                                                                       Treasury has adopted some significant
         PPIF managers across all programs that specifically address                                                                         conflict-of-interest rules related to this
         whether and to what extent the managers can (1) invest                                                                              recommendation, but has failed to
         PPIF funds in legacy assets that they hold or manage on                                 X                                           impose other significant safeguards.
         behalf of themselves or their clients or (2) conduct PPIF
                                                                                                                                                                                          special inspector general I troubled asset relief program




         transactions with entities in which they have invested on
         behalf of themselves or others.
23   *   Treasury should require that all PPIF fund managers (1)                                                                             Treasury’s agreements with PPIF
         have stringent investor-screening procedures, including                                                                             managers include investor-screening
         comprehensive “Know Your Customer” requirements at least                                                                            procedures such as “Know Your
         as rigorous as that of a commercial bank or retail brokerage                                                                        Customer” requirements. Treasury
         operation to prevent money laundering and the participation                                                                         has agreed that it will have access to
         of actors prone to abusing the system, and (2) be required                              X                                           any information in a fund manager’s
         to provide Treasury with the identities of all the beneficial                                                                       possession relating to beneficial owners.
         owners of the private interests in the fund so that Treasury                                                                        However, Treasury did not impose an
         can do appropriate diligence to ensure that investors in the                                                                        affirmative requirement that managers
         funds are legitimate.                                                                                                               obtain and maintain beneficial owner
                                                                                                                                             information.
24   *   Treasury should require PPIP managers to provide most
         favored nation clauses to PPIF equity stakeholders, to
                                                                                X
         acknowledge that they owe Treasury a fiduciary duty, and to
         adopt a robust ethics policy and compliance apparatus.
25       Treasury should require servicers in MHA to submit third-                                                                           Treasury has decided to adopt this
         party verified evidence that the applicant is residing in the                                                                       important SIGTARP recommendation.
                                                                                                             X
         subject property before funding a mortgage modification.                                                                            SIGTARP will monitor Treasury’s
                                                                                                                                             implementation of the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (Continued)

                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
26   *   In MHA, Treasury should require a closing-like procedure                                                                            Treasury rejected SIGTARP’s
         be conducted that would include (1) a closing warning                                                                               recommendation for a closing-like
         sheet that would warn the applicant of the consequences                                                                             procedure. However, since this
         of fraud; (2) the notarized signature and thumbprint of each                                                                        recommendation was issued, Treasury
         participant; (3) mandatory collection, copying, and retention                                                                       has taken several actions to prevent
         of copies of identification documents of all participants in                                                                        fraud on the part of either MHA servicers
         the transaction; (4) verbal and written warnings regarding                              X                                           or applicants.
         hidden fees and payments so that applicants are made fully
         aware of them; (5) the benefits to which they are entitled
         under the program (to prevent a corrupt servicer from
         collecting payments from the Government and not passing
         the full amount of the subsidies to the homeowners); and (6)
         the fact that no fee should be charged for the modification.
27   *   Additional anti-fraud protections should be adopted in MHA                                                                          Treasury has taken steps to implement
         to verify the identity of the participants in the transaction                                                                       policies and conduct compliance reviews
         and to address the potential for servicers to steal from                                                                            to address this recommendation.
         individuals receiving Government subsidies without applying                             X                                           However, it remains unclear if Treasury
         them for the benefit of the homeowner.                                                                                              has an appropriate method to ensure the
                                                                                                                                             irregularities identified in the compliance
                                                                                                                                             reviews are resolved.
28   *   In MHA, Treasury should require the servicer to compare                                                                             Treasury has rejected SIGTARP’s
         the income reported on a mortgage modification application                                                                          recommendation and does not require
         with the income reported on the original loan applications.                                                       X                 income reported on the modification
                                                                                                                                             application to be compared to income
                                                                                                                                             reported on the original loan application.
29   *   In MHA, Treasury should require that verifiable, third-party
         information be obtained to confirm an applicant’s income              X
         before any modification payments are made.
30   *   In MHA, Treasury should defer payment of the $1,000                                                                                 Rather than deferring payment of the
         incentive to the servicer until after the homeowner has                                                                             incentive until after the homeowner has
         verifiably made a minimum number of payments under the                                                                              verifiably made a minimum number of
         mortgage modification program.                                                                                                      payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *   In MHA, Treasury should proactively educate homeowners
         about the nature of the program, warn them about
                                                                               X
         modification rescue fraudsters, and publicize that no fee is
         necessary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                           quarterly report to congress I July 24, 2013
                                                                                                                                                                                           207
SIGTARP RECOMMENDATIONS TABLE                    (Continued)                                                                                                                              208
                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
32   *   In MHA, Treasury should require its agents to keep track of                                                                         While Treasury’s program administrator,
         the names and identifying information for each participant in                                                                       Fannie Mae, has developed a HAMP
         each mortgage modification transaction and to maintain a                                                                            system of record that maintains
         database of such information.                                                                                                       servicers’ names, investor group
                                                                                                                                             (private, portfolio, GSE), and
                                                                                                 X                                           participating borrowers’ personally
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *   Treasury should require the imposition of strict information                                                                        Treasury has refused to adopt this
         barriers or “walls” between the PPIF managers making                                                                                significant anti-fraud measure designed
         investment decisions on behalf of the PPIF and those                                                              X                 to prevent conflicts of interest. This
         employees of the fund management company who manage                                                                                 represents a material deficiency in the
         non-PPIF funds.                                                                                                                     program.
34   *   Treasury should periodically disclose PPIF trading activity                                                                         Treasury has committed to publish
         and require PPIF managers to disclose to SIGTARP, within                                                                            on a quarterly basis certain high-level
         seven days of the close of the quarter, all trading activity,                                                                       information about aggregated purchases
         holdings, and valuations so that SIGTARP may disclose                                                                               by the PPIFs, but not within seven days of
                                                                                                                                                                                          special inspector general I troubled asset relief program




         such information, subject to reasonable protections, in its                                                       X                 the close of the quarter. Treasury has not
         quarterly reports.                                                                                                                  committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35       Treasury should define appropriate metrics and an                                                                                   Treasury has stated that it has developed
         evaluation system should be put in place to monitor the                                                                             risk and performance metrics. However,
         effectiveness of the PPIF managers, both to ensure they                                                                             more than four years into the program,
         are fulfilling the terms of their agreements and to measure                             X                                           it is still not clear how Treasury will
         performance.                                                                                                                        use these metrics to evaluate the PPIP
                                                                                                                                             managers and take appropriate action as
                                                                                                                                             recommended by SIGTARP.
36   *   The conditions that give Treasury “cause” to remove a                                                                               Treasury has refused to adopt this
         PPIF manager should be expanded to include a manager’s                                                                              recommendation, relying solely on
         performance below a certain standard benchmark, or if                                                                               Treasury’s right to end the investment
         Treasury concludes that the manager has materially violated                                                       X                 period after 12 months. That timeframe
         compliance or ethical rules.                                                                                                        has already expired. Treasury’s failure to
                                                                                                                                             adopt this recommendation potentially
                                                                                                                                             puts significant Government funds at risk.
37   *   Treasury should require PPIF managers to disclose to
         Treasury, as part of the Watch List process, not only
                                                                                X
         information about holdings in eligible assets but also
         holdings in related assets or exposures to related liabilities.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (Continued)

                                                                                             Partially                    Not
         Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
38       Treasury should require PPIF managers to obtain and                                                                                 Treasury has agreed that it can have
         maintain information about the beneficial ownership of all of                                                                       access to any information in a fund
         the private equity interests, and Treasury should have the                                                                          manager’s possession relating to
         unilateral ability to prohibit participation of private equity                                                                      beneficial owners. However, Treasury is
         investors.                                                                                                                          not making an affirmative requirement
                                                                                                                           X                 that managers obtain and maintain
                                                                                                                                             beneficial owner information. Treasury will
                                                                                                                                             not adopt the recommendation to give
                                                                                                                                             itself unilateral ability to deny access to
                                                                                                                                             or remove an investor, stating that such a
                                                                                                                                             right would deter participation.
39   *   Treasury and FRBNY should (1) examine Moody’s assertions                                                                            Treasury and the Federal Reserve have
         that some credit rating agencies are using lower standards                                                                          discussed concerns about potential
         to give a potential TALF security the necessary AAA rating                                                                          overrating or rating shopping with the
         and (2) develop mechanisms to ensure that acceptance of               X                                                             rating agencies, and have agreed to
         collateral in TALF is not unduly influenced by the improper                                                                         continue to develop and enhance risk
         incentives to overrate that exist among the credit agencies.                                                                        management tools and processes, where
                                                                                                                                             appropriate.
40   *   Treasury should more explicitly document the vote of each
         Investment Committee member for all decisions related to              X
         the investment of TARP funds.
41   *   Treasury should improve existing control systems to
         document the occurrence and nature of external phone calls
         and in-person meetings about actual and potential recipients          X
         of funding under the CPP and other similar TARP-assistance
         programs to which they may be part of the decision making.
42   *   The Secretary of the Treasury should direct the Special
         Master to work with FRBNY officials in understanding AIG
         compensation programs and retention challenges before
                                                                               X
         developing future compensation decisions that may affect
         both institutions’ ability to get repaid by AIG for Federal
         assistance provided.
43   *   Treasury should establish policies to guide any similar                                                                             Treasury stated that it does not
         future decisions to take a substantial ownership position in                                                                        anticipate taking a substantial percentage
         financial institutions that would require an advance review                                                                  X      ownership position in any other financial
         so that Treasury can be reasonably aware of the obligations                                                                         institution pursuant to EESA.
         and challenges facing such institutions.
44   *   Treasury should establish policies to guide decision making                                                                         Treasury has agreed to work closely with
         in determining whether it is appropriate to defer to another                                                                        other Federal agencies that are involved
                                                                                                 X
         agency when making TARP programming decisions where                                                                                 in TARP.
         more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                           quarterly report to congress I July 24, 2013
                                                                                                                                                                                           209
SIGTARP RECOMMENDATIONS TABLE                   (Continued)                                                                                                                              210
                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
45       Treasury should rectify the confusion that its own                                                                                  Despite SIGTARP’s repeated highlighting
         statements have caused for HAMP by prominently disclosing                                                                           of this essential transparency and
         its goals and estimates (updated over time, as necessary)                                                                           effectiveness measure, Treasury has
                                                                                                                           X
         of how many homeowners the program will help through                                                                                refused to disclose clear and relevant
         permanent modifications and report monthly on its progress                                                                          goals and estimates for the program.
         toward meeting that goal.
46       Treasury should develop other performance metrics                                                                                   Although Treasury has increased its
         and publicly report against them to measure over time                                                                               reporting of servicer performance, it has
         the implementation and success of HAMP. For example,                                                                                not identified goals for each metric and
         Treasury could set goals and publicly report against those                                                                          measured performance against those
         goals for servicer processing times, modifications as a                                 X                                           goals.
         proportion of a servicer’s loans in default, modifications
         as a proportion of foreclosures generally, rates of how
         many borrowers fall out of the program prior to permanent
         modification, and re-default rates.
47       Treasury should undertake a sustained public service
         campaign as soon as possible, both to reach additional
         borrowers who could benefit from the program and to arm
                                                                               X
         the public with complete, accurate information — this will
         help to avoid confusion and delay, and prevent fraud and
                                                                                                                                                                                         special inspector general I troubled asset relief program




         abuse.
48       Treasury should reconsider its position that allows servicers
         to substitute alternative forms of income verification based                                                      X
         on subjective determinations by the servicer.
49       Treasury should re-examine HAMP’s structure to ensure that                                                                          Treasury has adopted some programs to
         it is adequately minimizing the risk of re-default stemming                                                                         assist underwater mortgages to address
         from non-mortgage debt, second liens, partial interest rate                             X                                           concerns of negative equity but has not
         resets after the five-year modifications end, and from many                                                                         addressed other factors contained in this
         borrowers being underwater.                                                                                                         recommendation.
50       Treasury should institute careful screening before putting
         additional capital through CDCI into an institution with
         insufficient capital to ensure that the TARP matching funds           X
         are not flowing into an institution that is on the verge of
         failure.
51       Treasury should develop a robust procedure to audit and
         verify the bona fides of any purported capital raise in CDCI
                                                                               X
         and to establish adequate controls to verify the source,
         amount and closing of all claimed private investments.
52       Treasury should revise CDCI terms to clarify that Treasury
         inspection and copy rights continue until the entire CDCI
         investment is terminated. Additionally, consistent with
         recommendations made in connection with other TARP                    X
         programs, the terms should be revised to provide expressly
         that SIGTARP shall have access to the CDFI’s records equal
         to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (Continued)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
53       Treasury should consider more frequent surveys of a CDCI
         participant’s use of TARP funds than annually as currently
                                                                                                                           X
         contemplated. Quarterly surveys would more effectively
         emphasize the purpose of CDCI.
54       Treasury should ensure that more detail is captured by                                                                              Treasury has indicated that it has
         the Warrant Committee meeting minutes. At a minimum,                                                                                implemented this recommendation.
         the minutes should include the members’ qualitative                                                                                 Although the detail of the minutes has
                                                                                X
         considerations regarding the reasons bids were accepted or                                                                          improved, Treasury is still not identifying
         rejected within fair market value ranges.                                                                                           how each member of the committee
                                                                                                                                             casts his or her vote.
55       Treasury should document in detail the substance of                                                                                 Treasury has agreed to document the
         all communications with recipients concerning warrant                                                                               dates, participants, and subject line of
                                                                                                                           X
         repurchases.                                                                                                                        calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *   Treasury should develop and follow guidelines and internal                                                                          Treasury has adopted procedures
         controls concerning how warrant repurchase negotiations                                                                             designed to address this
         will be pursued, including the degree and nature of                                                                                 recommendation, including a policy to
         information to be shared with repurchasing institutions                                                                             discuss only warrant valuation inputs and
         concerning Treasury’s valuation of the warrants.                                                                                    methodologies prior to receiving a bid,
                                                                                                                                             generally to limit discussion to valuation
                                                                                                 X                                           ranges after receiving approval from
                                                                                                                                             the Warrant Committee, and to note
                                                                                                                                             the provision of any added information
                                                                                                                                             in the Committee minutes. However,
                                                                                                                                             Treasury believes that its existing internal
                                                                                                                                             controls are sufficient to ensure adequate
                                                                                                                                             consistency in the negotiation process.
57   *   Treasury should promptly take steps to verify TARP                                                                                  Although Treasury largely continues
         participants’ conformance to their obligations, not only by                                                                         to rely on self-reporting, stating that
         ensuring that they have adequate compliance procedures                                                                              it only plans to conduct testing where
         but also by independently testing participants’ compliance.                                                                         they have particular concerns as to a
                                                                                                 X                                           TARP recipient’s compliance procedures
                                                                                                                                             or testing results, it has conducted
                                                                                                                                             independent testing of compliance
                                                                                                                                             obligations during some compliance
                                                                                                                                             reviews.
58   *   Treasury should develop guidelines that apply consistently                                                                          Treasury states that it has developed
         across TARP participants for when a violation is sufficiently                                                                       guidance and provided that guidance to
         material to merit reporting, or in the alternative require that                                                                     the exceptional assistance participants
         all violations be reported.                                                                                                         that were remaining in TARP as of
                                                                                                 X                                           June 30, 2011. Treasury has not
                                                                                                                                             addressed other factors contained in this
                                                                                                                                             recommendation, citing its belief that
                                                                                                                                             materiality should be subject to a fact
                                                                                                                                                                                            quarterly report to congress I July 24, 2013




                                                                                                                                             and circumstances review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                            211
SIGTARP RECOMMENDATIONS TABLE                   (Continued)                                                                                                                              212
                                                                                             Partially                    Not
         Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
59       For each HAMP-related program and subprogram, Treasury                                                                              Treasury has provided anticipated costs,
         should publish the anticipated costs and expected                                                                                   but not expected participation.
         participation in each and that, after each program is                                   X
         launched, it report monthly as to the program’s performance
         against these expectations.
60   *   Treasury should re-evaluate the voluntary nature of its                                                                             Treasury plans to maintain the voluntary
         principal reduction program and, irrespective of whether it                                                                         nature of the program, providing an
         is discretionary or mandatory, consider changes to better                                                                           explanation that on its face seems
                                                                                                                                      X
         maximize its effectiveness, ensure to the greatest extent                                                                           unpersuasive to SIGTARP. SIGTARP will
         possible the consistent treatment of similarly situated                                                                             continue to monitor performance.
         borrowers, and address potential conflict of interest issues.
61       Treasury should adopt a uniform appraisal process across
         all HAMP and HAMP-related short-sale and principal                                                                X
         reduction programs consistent with FHA’s procedures.
62   *   Treasury should reconsider the length of the minimum term                                                                           For more than a year, Treasury refused to
         of HAMP’s unemployment forbearance program.                                                                                         adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                               X                                                             the Administration announced a policy
                                                                                                                                                                                         special inspector general I troubled asset relief program




                                                                                                                                             change, and Treasury has extended the
                                                                                                                                             minimum term of the unemployment
                                                                                                                                             program from three months to 12
                                                                                                                                             months, effective October 1, 2011.
63       Treasury should launch a broad-based information
         campaign, including public service announcements in target
         markets that focus on warnings about potential fraud, and             X
         include conspicuous fraud warnings whenever it makes
         broad public announcements about the HAMP program.
64       When Treasury considers whether to accept an existing CPP
         participant into SBLF, because conditions for many of the
         relevant institutions have changed dramatically since they
         were approved for CPP, Treasury and the bank regulators               X
         should conduct a new analysis of whether the applying
         institution is sufficiently healthy and viable to warrant
         participation in SBLF.
65       When Treasury conducts the new analysis of an institution’s                                                                         Treasury refused to adopt this
         health and viability, the existing CPP preferred shares should                                                                      recommendation, citing its belief that
         not be counted as part of the institution’s capital base.                                                                           current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are
                                                                                                                           X
                                                                                                                                             not counted as part of their capital
                                                                                                                                             base, and that SBLF “already provides
                                                                                                                                             substantial hurdles that CPP recipients
                                                                                                                                             must overcome” that don’t apply to other
                                                                                                                                             applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (Continued)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
66       Treasury should take steps to prevent institutions that are                                                                         Treasury refused to adopt this
         refinancing into the SBLF from CPP from securing windfall                                                                           recommendation, suggesting that
         dividend reductions without any relevant increase in lending.                                                                       its adoption would subvert the will
                                                                                                                                             of Congress and that SIGTARP’s
                                                                                                                           X
                                                                                                                                             recommendation “may not be helpful”
                                                                                                                                             because “it is unclear that using this
                                                                                                                                             statutorily mandated baseline will lead to
                                                                                                                                             anomalies.”
67   *   Treasury, as part of its due diligence concerning any
         proposed restructuring, recapitalization, or sale of its CPP
         investment to a third party, should provide to SIGTARP the             X
         identity of the CPP institution and the details of the proposed
         transaction.
68   *   When a CPP participant refinances into SBLF and seeks
         additional taxpayer funds, Treasury should provide to
                                                                                X
         SIGTARP the identity of the institution and details of the
         proposed additional SBLF investment.
69   *   OFS should adopt the legal fee bill submission standards                                                                            Treasury told SIGTARP that OFS has
         contained in the FDIC’s Outside Counsel Deskbook, or                                                                                created new guidance using the FDIC’s
         establish similarly detailed requirements for how law                                                                               Outside Counsel Deskbook and other
                                                                                X
         firms should prepare legal fee bills and describe specific                                                                          resources.
         work performed in the bills, and which costs and fees are
         allowable and unallowable.
70   *   OFS should include in its open legal service contracts                                                                              Treasury told SIGTARP that OFS has
         detailed requirements for law firms on the preparation and                                                                          distributed its new guidance to all
         submission of legal fee bills, or separately provide the                                                                            law firms currently under contract to
         instructions to law firms and modify its open contracts,                                                                            OFS. Treasury further stated that OFS
                                                                                                             X
         making application of the instructions mandatory.                                                                                   will work with Treasury’s Procurement
                                                                                                                                             Services Division to begin modifying
                                                                                                                                             base contracts for OFS legal services to
                                                                                                                                             include those standards as well.
71   *   OFS should adopt the legal fee bill review standards                                                                                Treasury told SIGTARP that OFS has held
         and procedures contained in the FDIC’s Outside Counsel                                                                              training on its newly adopted guidance
         Deskbook, or establish similarly specific instructions and                                                                          prescribing how legal fee bills should
         guidance for OFS COTRs to use when reviewing legal fee                                                                              be prepared with OFS COTRs and other
         bills, and incorporate those instructions and guidance into                                                                         staff involved in the review of legal fee
         OFS written policies.                                                                                                               bills, and that the OFS COTRs will begin
                                                                                X
                                                                                                                                             reviewing invoices in accordance with
                                                                                                                                             its new guidance for periods starting
                                                                                                                                             with March 2011. OFS also stated that
                                                                                                                                             it incorporated relevant portions of its
                                                                                                                                             training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
                                                                                                                                                                                          quarterly report to congress I July 24, 2013




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                          213
SIGTARP RECOMMENDATIONS TABLE                  (Continued)                                                                                                                                214
                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
72   *   OFS should review previously paid legal fee bills to                                                                                Although Treasury previously agreed
         identify unreasonable or unallowable charges, and seek                                                                              to implement this recommendation,
         reimbursement for those charges, as appropriate.                                                                                    Treasury only reviewed the legal fee bills
                                                                                                                                             for one of the five law firms that SIGTARP
                                                                                                                           X                 had already described as unreasonable.
                                                                                                                                             Treasury refuses to seek any
                                                                                                                                             reimbursement for those charges. See
                                                                                                                                             also Recommendation 81 concerning
                                                                                                                                             this issue.
73   *   Treasury should establish detailed guidance and internal                                                                            Treasury made important changes to
         controls governing how the MHA Servicer Compliance                                                                                  its servicer assessments by including
         Assessment will be conducted and how each compliance                                                                                metrics for the ratings, including several
         area will be weighted.                                                                                                              quantitative metrics. However, qualitative
                                                                                                 X                                           metrics to assess the servicer’s internal
                                                                                                                                             controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for
                                                                                                                                             rating the effectiveness of internal
                                                                                                                                             controls are still necessary.
74   *   Treasury should ensure that more detail is captured by                                                                              Minutes of recent MHA Compliance
         the MHA Compliance Committee meeting minutes. At a                                                                                  Committee meetings contain brief
                                                                                                                                                                                          special inspector general I troubled asset relief program




         minimum, the minutes should include MHA-C’s proposed                                                                                explanations of servicer assessment
         rating for each servicer, the committee members’ qualitative                                                                        rating decisions. However, these
         and quantitative considerations regarding each servicer’s                                                                           minutes do not explain the Committee’s
         ratings, the votes of each committee member, the final                                  X                                           deliberations in detail, do not indicate
         rating for each servicer, justification for any difference in                                                                       how members voted beyond a tally of
         that rating with MHA-C’s proposed rating, and any follow-                                                                           the votes, and do not discuss follow-up
         up including escalation to Treasury’s Office of General                                                                             actions or escalation.
         Counsel or the Assistant Secretary and the outcomes of that
         escalation.
75   *   Treasury should require that MHA servicer communications                                                                            Treasury has refused to adopt this
         with homeowners relating to changes in the status or                                                                                recommendation, saying it already
         terms of a homeowner’s modification application, trial or                                                                           requires a loan servicer to communicate
         permanent modification, HAFA agreement, or any other                                                                                in writing with a borrower an average
         significant change affecting the homeowner’s participation in                                                                       of 10 times. However, most written
                                                                                                                           X
         the MHA program, be in writing.                                                                                                     requirements apply to a HAMP
                                                                                                                                             application and Treasury’s response fails
                                                                                                                                             to address homeowners who receive
                                                                                                                                             miscommunication from servicers on
                                                                                                                                             important milestones or changes.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                     (Continued)

                                                                                             Partially                    Not
         Recommendation                                                     Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
76   *   Treasury should establish benchmarks and goals for                                                                                  Treasury told SIGTARP that it already
         acceptable program performance for all MHA servicers,                                                                               established benchmarks in this area,
         including the length of time it takes for trial modifications to                                                                    including that trial periods should last
         be converted into permanent modifications, the conversion                                                                           three to four months, and escalated
         rate for trial modifications into permanent modifications,                                                                          cases should be resolved in 30 days. If
         the length of time it takes to resolve escalated homeowner                                                        X                 these are the benchmarks for acceptable
         complaints, and the percentage of required modification                                                                             performance, many servicers have
         status reports that are missing.                                                                                                    missed the mark. Also, Treasury has yet
                                                                                                                                             to establish a benchmark for conversion
                                                                                                                                             rates from trial modifications to
                                                                                                                                             permanent modifications.
77   *   Treasury should publicly assess the top 10 MHA servicers’                                                                           Treasury has rejected this
         program performance against acceptable performance                                                                                  recommendation, saying only that it
         benchmarks in the areas of: the length of time it takes                                                                             would “continue to develop and improve
         for trial modifications to be converted into permanent                                                                              the process where appropriate.”
         modifications, the conversion rate for trial modifications                                                        X
         into permanent modifications, the length of time it takes
         to resolve escalated homeowner complaints, and the
         percentage of required modification status reports that are
         missing.
78   *   Treasury must ensure that all servicers participating in MHA                                                                        Treasury has rejected this important
         comply with program requirements by vigorously enforcing                                                                            recommendation, stating that it believes
         the terms of the servicer participation agreements, including                                                                       that the remedies enacted have been
         using all financial remedies such as withholding, permanently                                                                       appropriate and that appropriate
                                                                                                                           X
         reducing, and clawing back incentives for servicers who                                                                             transparency exists.
         fail to perform at an acceptable level. Treasury should be
         transparent and make public all remedial actions taken
         against any servicer.
79       Treasury should specifically determine the allowability of                                                                          Treasury neither agreed nor disagreed
         $7,980,215 in questioned, unsupported legal fees and                                                                                with the recommendation.
         expenses paid to the following law firms: Simpson Thacher
         & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                              X
         Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
         ($146,867); and Bingham McCutchen LLP (novated from
         McKee Nelson LLP, $57,939).
80       The Treasury contracting officer should disallow and seek                                                                           Treasury neither agreed nor disagreed
         recovery from Simpson Thacher & Bartlett LLP for $96,482                                                                            with the recommendation.
         in questioned, ineligible fees and expenses paid that were
         not allowed under the OFS contract. Specifically, those are
                                                                                                                           X
         $68,936 for labor hours billed at rates in excess of the
         allowable maximums set in contract TOFS-09-0001, task
         order 1, and $22,546 in other direct costs not allowed
         under contract TOFS-09-007, task order 1.
                                                                                                                                                                                        quarterly report to congress I July 24, 2013




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                        215
SIGTARP RECOMMENDATIONS TABLE                   (Continued)                                                                                                                             216
                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
81       Treasury should promptly review all previously paid legal fee                                                                       Treasury only reviewed the legal fee
         bills from all law firms with which it has a closed or open                                                                         bills for one of the five law firms that
         contract to identify unreasonable or unallowable charges                                                          X                 SIGTARP had already described as
         and seek reimbursement for those charges, as appropriate.                                                                           unreasonable. Treasury refuses to seek
                                                                                                                                             any reimbursements for those charges.
82       Treasury should require in any future solicitation for legal                                                                        Treasury neither agreed nor disagreed
         services multiple rate categories within the various partner,                                                                       with the recommendation.
         counsel, and associate labor categories. The additional                                                           X
         labor rate categories should be based on the number of
         years the attorneys have practiced law.
83       Treasury should pre-approve specified labor categories and                                                                          Treasury neither agreed nor disagreed
         rates of all contracted legal staff before they are allowed to                                                    X                 with the recommendation.
         work on and charge time to OFS projects.
84   *   Treasury, in consultation with Federal banking regulators,                                                                          Treasury responded that it continues
         should develop a clear TARP exit path to ensure that                                                                                its efforts to wind down CPP through
         as many community banks as possible repay the TARP                                                                                  repayments, restructuring, and sales.
         investment and prepare to deal with the banks that cannot.                                                                          Treasury has not addressed the criteria
                                                                                                             X
         Treasury should develop criteria pertaining to restructurings,                                                                      for these divestment strategies or
         exchanges, and sales of its TARP investments (including any                                                                         consulted with regulators.
                                                                                                                                                                                        special inspector general I troubled asset relief program




         discount of the TARP investment, the treatment of unpaid
         TARP dividend and interest payments, and warrants).
85   *   Treasury should assess whether it should renegotiate the                                                                            Treasury rejected this recommendation
         terms of its Capital Purchase Program contracts for those                                                                           without ever addressing why.
         community banks that will not be able to exit TARP prior                                                          X
         to the dividend rate increase in order to help preserve the
         value of taxpayers’ investments.
86       Treasury should protect borrower personally identifiable                                                                            Treasury has said it will adopt this
         information (“PII”) and other sensitive borrower information                                                                        recommendation in part. Treasury did
         compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                         not agree to review each HFA’s policies
         that within 90 days, all Housing Finance Agencies (and                                                                              and procedures to determine if they
         their contractors) (“HFAs”) participating in HHF develop                                                                            are effective. Also, Treasury did not
         and implement effective policies and procedures to ensure                                                                           require notification within 24 hours or
         protection against unauthorized access, use, and disposition                                                                        notification to SIGTARP. SIGTARP will
         of PII and other sensitive borrower information; (2) Treasury                                                                       monitor Treasury’s efforts to implement
         reviewing each HFA’s policies and procedures to determine                                                                           the recommendation.
         if they are effective, and taking such action as is required to                                     X
         ensure effectiveness; (3) requiring that all parties granted
         access to borrower information should be made aware
         of restrictions on copying and disclosing this information;
         (4) requiring annual certification by HFAs to Treasury that
         they are in compliance with all applicable laws, policies
         and procedures pertaining to borrower information; and (5)
         requiring that HFAs promptly notify Treasury and SIGTARP
         within 24 hours, when a breach of security has occurred
         involving borrower information.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (Continued)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
87   *   To ensure that the Office of the Special Master consistently                                                                        OSM began memorializing in its records
         grants exceptions to the $500,000 cash salary cap, the                                                                              justifications for exceptions. However,
         Office of the Special Master should substantiate each                                                                               SIGTARP found in its review of the 2012
         exception requested and whether the requests demonstrate                                                                            determinations that those records do not
                                                                                                                           X
         or fail to demonstrate “good cause.”                                                                                                substantiate each exception requested
                                                                                                                                             and whether the request for an exception
                                                                                                                                             demonstrates or fails to demonstrate
                                                                                                                                             “good cause.”
88   *   The Office of the Special Master should better document
         its use of market data in its calculations. At a minimum, the
         Office of the Special Master should prospectively document
         which companies and employees are used as comparisons
                                                                                X
         in its analysis of the 50th percentile of the market, and
         it should also maintain records and data so that the
         relationship between its determinations and benchmarks are
         clearly understood.
89   *   The Office of the Special Master should develop more                                                                                Treasury has not agreed to implement
         robust policies, procedures, or guidelines to help ensure                                                                           this important recommendation.
         that its pay determination process and its decisions are
         evenhanded. These measures will improve transparency
                                                                                                                           X
         and help the Office of the Special Master consistently apply
         the Interim Final Rule principles of “appropriate allocation,”
         “performance-based compensation,” and “comparable
         structures and payments.”
90       In order to allow for effective compliance and enforcement                                                                          Treasury responded to this
         in HAMP Tier 2, Treasury should require that the borrower                                                                           recommendation by requiring that
         prove that the property has been rented and is occupied                                                                             borrowers certify that they intend to rent
         by a tenant at the time the borrower applies for a loan                                                                             the property for at least five years and
         modification, as opposed to requiring only a certification                                                                          that they will make reasonable efforts
         that the borrower intends to rent the property. As part of                                                                          to rent. This does not go far enough.
         the Request for Mortgage Assistance (“RMA”) application                                                                             Requiring only a self-certification, under
         for HAMP Tier 2, the borrower should provide the servicer                                                                           penalty of perjury, without a strong
         with a signed lease and third-party verified evidence of                                                          X                 compliance and enforcement regime to
         occupancy in the form of documents showing that a renter                                                                            ensure that the intent is carried out and
         lives at the property address, such as a utility bill, driver’s                                                                     the property is actually rented, leaves the
         license, or proof of renter’s insurance. In the case of                                                                             program vulnerable to risks that TARP
         multiple-unit properties under one mortgage Treasury should                                                                         funds will pay investors for modifications
         require that the borrower provide the servicer with evidence                                                                        for mortgages on vacation homes
         that at least one unit is occupied by a tenant as part of the                                                                       that are not rented, and may delay, as
         RMA.                                                                                                                                opposed to prevent, foreclosures and
                                                                                                                                             increase HAMP redefault rates.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                           quarterly report to congress I July 24, 2013
                                                                                                                                                                                           217
SIGTARP RECOMMENDATIONS TABLE                   (Continued)                                                                                                                                 218
                                                                                             Partially                    Not
         Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
91       To continue to allow for effective compliance and                                                                                   Treasury rejected this recommendation,
         enforcement in HAMP Tier 2 after the trial modification has                                                                         stating that eligibility is not retested
         started, Treasury should require that, prior to conversion                                                                          prior to conversion. This does not go far
         of a trial modification to a permanent modification, the                                                                            enough. Requiring only a self-certification,
         borrower certify under penalty of perjury that none of the                                                                          without a strong compliance and
         occupancy circumstances stated in the RMA have changed.                                                                             enforcement regime to ensure that the
                                                                                                                                             intent is carried out and the property
                                                                                                                           X
                                                                                                                                             is actually rented, leaves the program
                                                                                                                                             vulnerable to risks that TARP funds
                                                                                                                                             will pay investors for modifications for
                                                                                                                                             mortgages on vacation homes that are
                                                                                                                                             not rented, and may delay, as opposed to
                                                                                                                                             prevent, foreclosures and increase HAMP
                                                                                                                                             redefault rates.
92       To prevent a property that has received a HAMP Tier 2                                                                               Treasury told SIGTARP that implementing
         modification from remaining vacant for an extended period                                                                           this recommendation would create
         of time after a lease expires or a tenant vacates,                                                                                  significant additional procedures and
         (a) Treasury should require that borrowers immediately notify                                                                       documentation requirements. With no
         their servicer if the property has remained vacant for more                                                                         compliance regime to determine that a
         than three months.                                                                                                                  renter is in place, the program remains
                                                                                                                                                                                            special inspector general I troubled asset relief program




                                                                                                                                             vulnerable to TARP funds being paid to
         (b) Treasury should require servicers to provide monthly                                                                            modify mortgages that do not fit within
         reports to Treasury of any properties that have remained                                                          X                 the intended expansion of the program.
         vacant for more than three months.
         (c) Treasury should bar payment of TARP-funded incentives
         to any participant for a loan modification on a property that
         has been reported vacant for more than three months, until
         such time as the property has been re-occupied by a tenant
         and the borrower has provided third-party verification of
         occupancy.
93       In order to protect against the possibility that the extension                                                                      Treasury has not implemented this
         and expansion of HAMP will lead to an increase in mortgage                                                                          recommendation. It is important that
         modification fraud,                                                                                                                 Treasury educate as many homeowners
         (a) Treasury should require that servicers provide the                                                                              as possible with accurate information
         SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                               about HAMP in an effort to prevent
         Alert to all HAMP-eligible borrowers as part of their monthly                                                                       mortgage modification fraud.
         mortgage statement until the expiration of the application
                                                                                                                           X
         period for HAMP Tier 1 and 2.
         (b) Treasury should undertake a sustained public service
         campaign as soon as possible both to reach additional
         borrowers who could potentially be helped by HAMP Tier 2
         and to arm the public with complete, accurate information
         about the program to avoid confusion and delay, and to
         prevent fraud and abuse.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (Continued)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
94       Given the expected increase in the volume of HAMP                                                                                   Treasury has not implemented this
         applications due to the implementation of HAMP Tier 2,                                                                              recommendation. Treasury has not held
         Treasury should convene a summit of key stakeholders to                                                                             a summit of all key stakeholders to
                                                                                                                           X
         discuss program implementation and servicer ramp-up and                                                                             make the program roll-out efficient and
         performance requirements so that the program roll-out is                                                                            effective.
         efficient and effective.
95       To ensure servicer compliance with HAMP Tier 2 guidelines                                                                           Treasury said that it will include metrics
         and assess servicer performance,                                                                                                    in the future. SIGTARP will continue to
                                                                                                                                             monitor Treasury’s implementation of this
         (a) Treasury should include additional criteria in its servicer
                                                                                                                                             recommendation.
         compliance assessments that measure compliance with the
         program guidelines and requirements of HAMP Tier 2.
                                                                                                              X                        
         (b) Treasury should develop and publish separate metrics
         related to HAMP Tier 2 in the compliance results and
         program results sections of the quarterly Making Home
         Affordable (“MHA”) servicer assessments of the Top 10 MHA
         servicers.
96       To allow for assessment of the progress and success                                                                                 Treasury has rejected this
         of HAMP Tier 2, Treasury should set meaningful and                                                                                  recommendation. Treasury’s refusal to
         measurable goals, including at a minimum the number of                                                                              provide meaningful and measurable goals
         borrowers Treasury estimates will be helped by HAMP Tier                                                          X                 leaves it vulnerable to accusations that it
         2. Treasury should unambiguously and prominently disclose                                                                           is trying to avoid accountability.
         its goals and report monthly on its progress in meeting
         these goals.
97       Treasury should set meaningful and measurable                                                                                       Treasury has not implemented this
         performance goals for the Hardest Hit Fund program                                                                                  recommendation. It is important that
         including, at a minimum, the number of homeowners                                                                                   Treasury sets meaningful goals and
         Treasury estimates will be helped by the program, and                                                             X                 metrics to identify program successes
         measure the program’s progress against those goals.                                                                                 and set-backs, in order to change the
                                                                                                                                             program as necessary, and to provide
                                                                                                                                             transparency and accountability.
98       Treasury should instruct state housing finance agencies                                                                             Treasury issued letters to five housing
         in the Hardest Hit Fund to set meaningful and measurable                                                                            finance agencies requiring those states
         overarching and interim performance goals with appropriate                                                                          to provide an action plan with measurable
         metrics to measure progress for their individual state                                                                              interim and overall goals, including
         programs.                                                                                                                           benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                 X
                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                           quarterly report to congress I July 24, 2013
                                                                                                                                                                                           219
SIGTARP RECOMMENDATIONS TABLE                   (Continued)                                                                                                                                  220
                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
99        Treasury should set milestones at which the state housing                                                                          Treasury issued letters to five housing
          finance agencies in the Hardest Hit Fund must review the                                                                           finance agencies requiring those states
          progress of individual state programs and make program                                                                             to provide an action plan with measurable
          adjustments from this review.                                                                                                      interim and overall goals, including
                                                                                                                                             benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                 X
                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
100       Treasury should publish on its website and in the Housing                                                                          Treasury has only partially implemented
          Scorecard on a quarterly basis the total number of                                                                                 this recommendation. Treasury recently
          homeowners assisted, funds drawn down by states, and                                                                               started publishing some aggregated
          dollars expended for assistance to homeowners, assistance                                                                          data on its website. However, Treasury
                                                                                                 X
          committed to homeowners, and cash on hand, aggregated                                                                              does not publish all of the data SIGTARP
          by all state Hardest Hit Fund programs.                                                                                            recommended nor does Treasury publish
                                                                                                                                             any data at all concerning the Hardest Hit
                                                                                                                                             Fund in the Housing Scorecard.
                                                                                                                                                                                             special inspector general I troubled asset relief program




101       Treasury should develop an action plan for the Hardest                                                                             Treasury has rejected this
          Hit Fund that includes steps to increase the numbers of                                                                            recommendation. It is important that
          homeowners assisted and to gain industry support for                                                                               Treasury change the status quo and fulfill
          Treasury-approved HHF programs. Treasury should set                                                                                its role as steward over TARP programs,
          interim metrics for how many homeowners it intends to                                                                              make determinations of which programs
          assist in a Treasury-defined time period in each particular                                                                        are successful and which programs
          program (such as principal reduction, second lien reduction,                                                     X                 are not working, and ensure that HHF
          or reinstatement). If Treasury cannot achieve the desired                                                                          funds are reaching homeowners. This
          level of homeowners assisted in any one program area in                                                                            may include putting the funds toward
          the defined time period, Treasury should put the funds to                                                                          programs that are more successful at
          better use toward programs that are reaching homeowners.                                                                           reaching homeowners. It is unacceptable
                                                                                                                                             to delegate all of this responsibility to the
                                                                                                                                             states.
102       Treasury should stop allowing servicers to add a risk                                                                              Treasury has not implemented this
          premium to Freddie Mac’s discount rate in HAMP’s net                                                                               recommendation. The addition of a
          present value test.                                                                                                                risk premium reduces the number
                                                                                                                                             of otherwise qualified homeowners
                                                                                                                           X
                                                                                                                                             Treasury helps through HAMP. Treasury
                                                                                                                                             should implement this recommendation
                                                                                                                                             to increase assistance to struggling
                                                                                                                                             homeowners.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
103       Treasury should ensure that servicers use accurate                                                                                 Treasury has not implemented this
          information when evaluating net present value test results                                                                         recommendation. Servicer errors using
          for homeowners applying to HAMP and should ensure that                                                                             NPV inputs and the lack of properly
          servicers maintain documentation of all net present value                                                                          maintained records on NPV inputs have
                                                                                                                           X
          test inputs. To the extent that a servicer does not follow                                                                         diminished compliance and placed the
          Treasury’s guidelines on input accuracy and documentation                                                                          protection of homeowner’s rights to
          maintenance, Treasury should permanently withhold                                                                                  challenge servicer error at risk.
          incentives from that servicer.
104       Treasury should require servicers to improve their                                                                                 Treasury has not implemented this
          communication with homeowners regarding denial of a                                                                                recommendation. Servicers’ failure to
          HAMP modification so that homeowners can move forward                                                                              communicate denial in a timely manner
          with other foreclosure alternatives in a timely and fully                                                                          can have serious consequences because
                                                                                                                           X
          informed manner. To the extent that a servicer does not                                                                            a delay may prevent homeowners from
          follow Treasury’s guidelines on these communications,                                                                              finding other foreclosure alternatives
          Treasury should permanently withhold incentives from that                                                                          sooner.
          servicer.
105       Treasury should ensure that more detail is captured by the                                                                         Treasury has not implemented this
          Making Home Affordable Compliance Committee meeting                                                                                recommendation. SIGTARP found a lack
          minutes regarding the substance of discussions related to                                                                          of detail in Treasury’s meeting minutes
          compliance efforts on servicers in HAMP. Treasury should                                                                           and because Treasury failed to document
                                                                                                                           X
          make sure that minutes clearly outline the specific problems                                                                       its oversight, SIGTARP was unable to
          encountered by servicers, remedial options discussed, and                                                                          verify Treasury’s role in the oversight of
          any requisite actions taken to remedy the situation.                                                                               servicers or its compliance agent Freddie
                                                                                                                                             Mac.
106       In order to protect taxpayers who funded TARP against any                                                                          Neither Treasury nor the Federal
          future threat that might result from LIBOR manipulation,                                                                           Reserve has agreed to implement this
          Treasury and the Federal Reserve should immediately                                                                                recommendation despite Treasury telling
          change any ongoing TARP programs including, without                                                                                SIGTARP that it “share[s SIGTARP’s]
          limitation, PPIP and TALF, to cease reliance on LIBOR.                                                                             concerns about the integrity” of LIBOR,
                                                                                                                           X
                                                                                                                                             and the Federal Reserve telling SIGTARP
                                                                                                                                             that it agreed that “recent information
                                                                                                                                             regarding the way the LIBOR has been
                                                                                                                                             calculated has created some uncertainty
                                                                                                                                             about the reliability of the rate.”
107       In order to protect taxpayers who invested TARP funds                                                                              On July 8, 2013, the Financial Stability
          into AIG to the fullest extent possible, Treasury and the                                                                          Oversight Council unanimously voted to
          Federal Reserve should recommend to the Financial Stability                                                                        designate AIG as systemically important.
                                                                               X
          Oversight Council that AIG be designated as a systemically
          important financial institution so that it receives the
          strongest level of Federal regulation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          quarterly report to congress I July 24, 2013
                                                                                                                                                                                          221
SIGTARP RECOMMENDATIONS TABLE                    (Continued)                                                                                                                            222
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
108       In order to fulfill Treasury’s responsibility to wind down its                                                                     Treasury has not agreed to implement
          TARP Capital Purchase Program investments in a way that                                                                            this important recommendation.
          protects taxpayer interests, before allowing a TARP bank
          to purchase Treasury’s TARP shares at a discount to the
          TARP investment (for example as the successful bidder
          at auction), Treasury should undertake an analysis, in                                                           X
          consultation with Federal banking regulators, to determine
          that allowing the bank to redeem its TARP shares at a
          discount to the TARP investment outweighs the risk that the
          bank will not repay the full TARP investment. Treasury should
          document that analysis and consultation.
109       In order to fulfill Treasury’s responsibility to wind down its                                                                     Treasury has not agreed to implement
          TARP investments in a way that promotes financial stability                                                                        this important recommendation.
          and preserves the strength of our nation’s community
          banks, Treasury should undertake an analysis in consultation
          with Federal banking regulators that ensures that it is exiting
          its Capital Purchase Program investments in a way that
          satisfies the goals of CPP, which are to promote financial
          stability, maintain confidence in the financial system and                                                       X
          enable lending. This financial stability analysis of a bank’s
                                                                                                                                                                                        special inspector general I troubled asset relief program




          exit from TARP should determine at a minimum: (1) that the
          bank will remain healthy and viable in the event of an auction
          of Treasury’s preferred shares; and (2) that the bank’s exit
          from TARP does not have a negative impact on the banking
          industry at a community, state, regional, and national level.
          Treasury should document that analysis and consultation.
110       Treasury should better document its decision whether or not                                                                        Treasury has not agreed to implement
          to auction its preferred shares in a TARP bank to adequately                                                                       this important recommendation, but
          reflect the considerations made for each bank and detailed                                                                         is reviewing its practices in light of
                                                                                                                           X
          rationale.                                                                                                                         SIGTARP’s recommendations. SIGTARP
                                                                                                                                             will monitor Treasury's efforts to
                                                                                                                                             implement this recommendation.
111 *     Each year, Treasury should reevaluate total compensation                                                                           Treasury has not agreed to implement
          for those employees at TARP exceptional assistance                                                                                 this important recommendation.
                                                                                                                           X
          companies remaining in the Top 25 from the prior year,
          including determining whether to reduce total compensation.
112 *     To ensure that Treasury effectively applies guidelines aimed                                                                       Treasury has not agreed to implement
          at curbing excessive pay and reducing risk taking, Treasury                                                                        this important recommendation.
                                                                                                                           X
          should develop policies, procedures, and criteria for
          approving pay in excess of Treasury guidelines.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (Continued)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
113 *     Treasury should independently analyze whether good cause                                                                           Treasury has not agreed to implement
          exists to award a Top 25 employee a pay raise or a cash                                                                            this important recommendation.
          salary over $500,000. To ensure that the Office of the
          Special Master has sufficient time to conduct this analysis,                                                     X
          Treasury should allow OSM to work on setting Top 25 pay
          prior to OSM’s receiving the company pay proposals, which
          starts the 60-day timeline.
114 *     To be consistent with Treasury’s Interim Final Rule that the                                                                       Treasury made some progress
          portion of performance-based compensation compared                                                                                 in implementing this important
          to total compensation should be greater for positions that                                                                         recommendation by including long-term
          exercise higher levels of responsibility, Treasury should                                                                          restricted stock in the 2013 Treasury-
          return to using long-term restricted stock for employees,                                          X                               approved pay packages. It is important
          particularly senior employees such as CEOs.                                                                                        that Treasury continue to address this
                                                                                                                                             recommendation by using long-term
                                                                                                                                             restricted stock in pay packages going
                                                                                                                                             forward.
115       Treasury should conduct in-depth research and analysis to                                                                          Treasury has agreed to implement this
          determine the causes of redefaults of HAMP permanent                                                                               important recommendation. Treasury
          mortgage modifications and the characteristics of loans                                                                            told SIGTARP that it is in the process of
          or the homeowner that may be more at risk for redefault.                                                                           conducting the recommended research.
          Treasury should require servicers to submit any additional                                                                         SIGTARP will monitor Treasury’s efforts to
                                                                                                             X
          information that Treasury needs to conduct this research                                                                           implement the recommendation.
          and analysis. Treasury should make the results of this
          analysis public and issue findings based on this analysis,
          so that others can examine, build on, and learn from this
          research.
116       As a result of the findings of Treasury’s research and                                                                             Treasury has agreed to consider this
          analysis into the causes of HAMP redefaults, and                                                                                   important recommendation, based on
          characteristics of redefaults, Treasury should modify                                                                       X      the results of research it is conducting.
          aspects of HAMP and the other TARP housing programs in                                                                             SIGTARP will monitor Treasury’s efforts to
          ways to reduce the number of redefaults.                                                                                           implement the recommendation.
117       Treasury should require servicers to develop and use                                                                               Treasury has agreed to implement
          an “early warning system” to identify and reach out to                                                                             this important recommendation and
          homeowners that may be at risk of redefaulting on a                                                                                is considering taking further action.
                                                                                                                           X
          HAMP mortgage modification, including providing or                                                                                 SIGTARP will monitor Treasury’s efforts to
          recommending counseling and other assistance and                                                                                   implement the recommendation.
          directing them to other TARP housing programs.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          quarterly report to congress I July 24, 2013
                                                                                                                                                                                          223
SIGTARP RECOMMENDATIONS TABLE                      (Continued)                                                                                                                            224
                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
118       In the letter Treasury already requires servicers to send to                                                                       Treasury has agreed to implement
          homeowners who have redefaulted on a HAMP modification                                                                             this important recommendation and
          about possible options to foreclosure, Treasury should                                                                             is considering taking further action.
          require the servicers to include other available alternative                                                                       SIGTARP will monitor Treasury’s efforts to
          assistance options under TARP such as the Hardest Hit                                                                              implement the recommendation.
                                                                                                                           X
          Fund and HAMP Tier 2, so that homeowners can move
          forward with other alternatives, if appropriate, in a timely
          and fully informed manner. To the extent that a servicer
          does not follow Treasury’s rules in this area, Treasury should
          permanently withhold incentives from that servicer.
119       Treasury and the Federal banking regulators should                                                                                 Treasury has not agreed to implement
          improve coordination when collaborating on current and                                                                             this important recommendation.
          future initiatives by (1) defining the roles of all participants
          at the outset of collaborative efforts by creating precise
          and directed governing documents (i.e., charters) that
          clearly address the responsibilities of each entity; and (2)                                                     X
          jointly documenting processes and procedures, including
          flowcharts, risk management tools, and reporting systems
          to ensure that objectives are met. Each participant should
          sign off to demonstrate their understanding of, and
                                                                                                                                                                                          special inspector general I troubled asset relief program




          agreement with, these procedures.
120       To increase small-business lending by former TARP banks                                                                            Treasury has not agreed to implement
          participating in SBLF, Treasury should work with the banks                                                                         this important recommendation.
                                                                                                                           X
          to establish new, achievable plans to increase lending going
          forward.
121       To preserve the amount of capital former TARP banks                                                                                Treasury has not agreed to implement
          participating in SBLF have to lend, the primary Federal                                                                            this important recommendation.
          banking regulators (the Federal Reserve, FDIC, or OCC)
                                                                                                                           X
          should not approve dividend distributions to common
          shareholders of former TARP banks that have not effectively
          increased small-business lending while in SBLF.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
               Endnotes
                                                                                                quarterly report to congress I July 24, 2013                 225


1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2,16.
3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
       Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 7/1/2013.
4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
6.	    Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       07.01.2013.pdf, accessed 7/2/2013.
7.	    Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20Monthly%20
       Report%20to%20Congress.pdf, accessed 7/10/2013.
8.	    Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/Daily%20TARP%20Update%20-%2007.01.2013.pdf, accessed 7/2/2013.
9.	    Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       07.01.2013.pdf, accessed 7/2/2013.
10.	   Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       07.01.2013.pdf, accessed 7/2/2013.
11.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 7/1/2013; OMB, “Analytical
       Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed 7/1/2013.
12.	   CBO, “Report on the Troubled Asset Relief Program—May 2013,” www.cbo.gov/sites/default/files/cbofiles/attachments/44256_TARP.pdf,
       accessed 6/21/2013.
13.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2014/assets/econ_analyses.pdf, accessed 7/1/2013.
14.	   OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/
       reports/tarp_report_august_2012.pdf, accessed 7/1/2013.
15.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2014/assets/econ_analyses.pdf, accessed 7/1/2013.
16.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 7/1/2013.
17.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 7/1/2013.
18.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 7/1/2013.
19.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
       Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
20.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
       Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013
21.	   Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20Monthly%20
       Report%20to%20Congress.pdf, accessed 7/10/2013; Treasury, response to SIGTARP data call, 7/5/2013.
22.	   Treasury, response to SIGTARP data call, 7/5/2013.
23.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
       Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
24.	   Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20Monthly%20
       Report%20to%20Congress.pdf, accessed 7/10/2013.
25.	   Treasury, response to SIGTARP data call, 7/5/2013.
26.	   Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20Monthly%20
       Report%20to%20Congress.pdf, accessed 7/10/2013.
27.	   Treasury, response to SIGTARP data call, 7/5/2013.
28.	   Treasury, response to SIGTARP data call, 7/5/2013.
29.	   Treasury, response to SIGTARP data call, 7/5/2013.
30.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
       press-center/press-releases/Pages/tg48.aspx, accessed 7/1/2013.
31.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2013.
32.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 7/1/2013.
33.	   Treasury, response to SIGTARP data call, 7/5/2013.
34.	   Treasury, response to SIGTARP data call, 7/5/2013.
35.	   Treasury, response to SIGTARP data call, 7/5/2013.
36.	   Treasury, response to SIGTARP data call, 7/19/2013.
37.	   Treasury, response to SIGTARP data call, 7/19/2013.
38.	   Treasury, response to SIGTARP data call, 7/19/2013.
39.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
       president-obama-announces-help-hardest-hit-housing-markets, accessed 7/1/2013.
40.	   Treasury, response to SIGTARP data call, 7/5/2013.
41.	   Treasury, response to SIGTARP data call, 7/5/2013.
42.	   Treasury, response to SIGTARP data call, 7/5/2013.
226            special inspector general I troubled asset relief program



      43.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
             AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
             Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 7/1/2013.
      44.	   Treasury, response to SIGTARP data call, 7/19/2013.
      45.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      46.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/1/2013.
      47.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
             programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/1/2013.
      48.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      49.	   Treasury, response to SIGTARP data call, 7/5/2013.
      50.	   Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      51.	   Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      52.	   Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      53.	   Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20Monthly%20
             Report%20to%20Congress.pdf, accessed 7/10/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      54.	   Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20Monthly%20
             Report%20to%20Congress.pdf, accessed 7/10/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to
             SIGTARP data call, 7/5/2013.
      55.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      56.	   Treasury, response to SIGTARP data call, 7/5/2013.
      57.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      58.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
             investment-programs/cdci/Pages/Overview.aspx, accessed 7/1/2013.
      59.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      60.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      61.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      62.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
             7/1/2013.
      63.	   Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
             9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/1/2013.
      64.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      65.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 7/1/2013; Treasury Press
             Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
             tg996.aspx, accessed 7/1/2013.
      66.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      67.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; AIG Press Release, “AIG Repurchases Warrants from U.S. Treasury,”
             3/1/2013, www.sec.gov/Archives/edgar/data/5272/000119312513086875/d495224dex991.htm, accessed 7/1/2013.
      68.	   Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             07.01.2013.pdf, accessed 7/2/2013.
      69.	   Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             07.01.2013.pdf, accessed 7/2/2013.
      70.	   Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
             Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 7/9/2013.
      71.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 7/1/2013.
      72.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      73.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      74.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
             Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
                                                                                              quarterly report to congress I July 24, 2013               227


75.	    Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
        OFS%20AFR%2009_24.pdf, accessed 7/1/2013.
76.	    Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-
        center/press-releases/Pages/hp1358.aspx, accessed 7/1/2013.
77.	    U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
        Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
        pdf, accessed 7/1/2013.
78.	    Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
        TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 7/1/2013.
79.	    Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
        TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 7/1/2013.
80.	    Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 7/1/2013.
81.	    FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 7/1/2013.
82.	    FRBNY, response to SIGTARP data call, 7/8/2013.
83.	    FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
        7/1/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/TALF_
        recent_operations.html, accessed 7/1/2013; FRBNY, response to SIGTARP data call, 7/8/2013.
84.	    FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 7/1/2013;
        FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_recent_
        operations.html, accessed 7/1/2013; FRBNY, response to SIGTARP data call, 7/8/2013.
85.	    Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 7/1/2013.
86.	    Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
        Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
        7/1/2013.
87.	    FRBNY, response to SIGTARP data call, 7/8/2013.
88.	    Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
        gov/press-center/press-releases/Pages/tg65.aspx, accessed 7/1/2013.
89.	    Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
        Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
90.	    PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP, 6/17/2013, accessed 7/10/2013; PPIP fund managers’
        monthly reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013, accessed 7/15/2013.
91.	    Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
        tg58.aspx, accessed 7/1/2013.
92.	    Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”1/25/2012,
        www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 7/1/2013.
93.	    Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
        Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 7/1/2013.
94.	    Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
        Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/
        financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2007.01.2013.pdf, accessed 7/2/2013.
95.	    Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
        Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
96.	    Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
        Dividends%20Interest%20Report.pdf, accessed 7/10/2013; Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/
        Documents/Daily%20TARP%20Update%20-%2007.01.2013.pdf, accessed 7/2/2013.
97.	    Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
        Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
98.	    Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
        Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
99.	    General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/1/2013.
100.	   Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
        gov/press-center/press-releases/Pages/tg1810.aspx, accessed 7/1/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/
        financial-stability/reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
101.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
        Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
102.	   Treasury, response to SIGTARP data call, 7/5/2013.
103.	   Treasury Press Release, “Taxpayers to Receive $1.03 Billion From Sale of GM Common Stock,” 6/6/2013, www.treasury.gov/press-center/press-
        releases/Pages/jl1976.aspx, accessed 6/18/2013.
104.	   Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
105.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
        Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
106.	   Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
        Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
107.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
        Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 7/1/2013.
228             special inspector general I troubled asset relief program



      108.	 In Re Residential Capital, LLC, Case No. 12-12020, U.S. Bankruptcy Court for the Southern District of New York.
      109.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      110.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1253.aspx, accessed 7/1/2013.
      111.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1253.aspx, accessed 7/1/2013.
      112.	 Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20Monthly%20
            Report%20to%20Congress.pdf, accessed 7/10/2013.
      113.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      114.	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/Other%20Programs/aifp/Documents/supplier_support_program_3_18.pdf, accessed 7/1/2013.
      115.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      116.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      117.	 Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
            President-on-the-mortgage-crisis/, accessed 7/1/2013.
      118.	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
            releases/Pages/tg33.aspx, accessed 7/1/2013.
      119.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      120.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.
            com/portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
      121.	 Treasury, “Supplemental Directive 13-04: Making Home Affordable Program – MHA Program Extension and Enhancements,” 6/13/2013,
            https://www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1304.pdf, accessed 7/1/2013.
      122.	 Treasury, response to SIGTARP data call, 6/25/2013.
      123.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
            doc11227/03-17-tarp.pdf, accessed 7/1/2013.
      124.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            07.01.2013.pdf, accessed 7/2/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 6/27/2013.
      125.	 Treasury, “Home Affordable Modification Program: Overview,” undated, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 7/1/2013.
      126.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2013.
      127.	 Treasury, response to SIGTARP data call, 7/19/2013; Fannie Mae, response to SIGTARP data call, 7/19/2013.
      128.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
            5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 7/1/2013.
      129.	 Treasury, response to SIGTARP data call, 7/5/2013.
      130.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      131.	 Treasury, response to SIGTARP data call, 7/5/2013.
      132.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      133.	 Treasury, response to SIGTARP data call, 7/19/2013.
      134.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.
            com/portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
      135.	 Treasury, response to SIGTARP data call, 7/19/2013.
      136.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
            alternatives.jsp, accessed 7/1/2013.
      137.	 Treasury, response to SIGTARP data call, 7/5/2013.
      138.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      139.	 Treasury, response to SIGTARP data call, 7/5/2013.
      140.	 Treasury, response to SIGTARP data call, 7/19/2013.
      141.	 Treasury, response to SIGTARP data call, 7/5/2013.
      142.	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal
            Housing Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 7/1/2013; Treasury,
            “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
            9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 7/1/2013; Department of Veterans Affairs, “Revised VA
            Making Home Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed
            7/1/2013.
      143.	 Treasury, response to SIGTARP data call, 7/5/2013.
      144.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2013.
      145.	 Treasury, response to SIGTARP data call, 7/5/2013.
                                                                                               quarterly report to congress I July 24, 2013                 229


146.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2013.
147.	 Treasury, response to SIGTARP data call, 7/5/2013.
148.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 7/1/2013.
149.	 Treasury, response to SIGTARP data call, 7/19/2013.
150.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      07.01.2013.pdf, accessed 7/2/2013.
151.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      07.01.2013.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
152.	 Treasury, response to SIGTARP data call, 7/5/2013.
153.	 Treasury, response to SIGTARP data call, 7/5/2013; Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 6/27/2013.
154.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      07.01.2013.pdf, accessed 7/2/2013; Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
      Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 4/9/2013; Treasury, briefing to SIGTARP and other Federal agency staff,
      3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/Citi%20Amendment%201%20to%20Facility%20Purchase%20
      Agreement.pdf, accessed 7/1/2013.
155.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      07.01.2013.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
156.	 SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
      pdf, accessed 7/1/2013; Treasury, response to SIGTARP data call, 7/5/2013.
157.	 Treasury, responses to SIGTARP data call, 7/5/2013 and 7/19/2013.
158.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 6/27/2013; Treasury, response to SIGTARP data call, 7/5/2013.
159.	 Treasury, response to SIGTARP data call, 7/5/2013.
160.	 Treasury, response to SIGTARP data call, 7/5/2013.
161.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 7/1/2013.
162.	 Treasury, responses to SIGTARP data call, 7/5/2013 and 7/19/2013.
163.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
164.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
165.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
166.	 Treasury, response to SIGTARP data call, 7/5/2013.
167.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
168.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
169.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
170.	 Treasury, “Supplemental Directive 13-04: Making Home Affordable Program – MHA Program Extension and Enhancements,” 6/13/2013,
      https://www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1304.pdf, accessed 6/21/2013.
171.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
172.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
173.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
174.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
175.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
176.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
      Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/1/2013.
177.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 7/1/2013.
178.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 7/1/2013.
179.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 7/1/2013.
180.	 Treasury, response to SIGTARP data call, 7/19/2013; Fannie Mae, response to SIGTARP data call, 7/19/2013.
230            special inspector general I troubled asset relief program



      181.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      182.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 7/1/2013.
      183.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 7/1/2013.
      184.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      185.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/1/2013.
      186.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 7/1/2013.
      187.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      188.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      189.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      190.	 Treasury, response to SIGTARP data call, 7/5/2013; Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 6/27/2013.
      191.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            7/1/2013.
      192.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            7/1/2013.
      193.	 Treasury, “Supplemental Directive 13-01: Making Home Affordable Program – Making Home Affordable Outreach and Borrower Intake
            Project,” 3/1/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1301.pdf, accessed 7/1/2013; NeighborWorks, “Making
            Home Affordable Outreach and Intake Project Funding Announcement, Revised,” 3/7/2013, www.nw.org/network/foreclosure/documents/
            MHAOutreachandIntakeProjectFundingAnnouncementRevised3713.pdf, accessed 7/1/2013.
      194.	 Treasury, “Supplemental Directive 13-01: Making Home Affordable Program – Making Home Affordable Outreach and Borrower Intake
            Project,” 3/1/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1301.pdf, accessed 7/1/2013.
      195.	 Treasury, briefing to SIGTARP staff, 1/23/2013.
      196.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            7/1/2013.
      197.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            7/1/2013.
      198.	 NeighborWorks, “Making Home Affordable Outreach and Intake Project Eligible Applicant Briefing for NeighborWorks Organizations,”
            3/6/2013, www.nw.org/network/foreclosure/documents/MHAProjectNWOBriefingRevised3713.pdf, accessed 7/1/2013; Treasury, “Supplemental
            Directive 13-01: Making Home Affordable Program – Making Home Affordable Outreach and Borrower Intake Project,” 3/1/2013, www.
            hmpadmin.com/portal/programs/docs/hamp_servicer/sd1301.pdf, accessed 7/1/2013.
      199.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            7/1/2013.
      200.	 Treasury, response to SIGTARP data call, 7/10/2013.
      201.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
      202.	 Treasury, “Making Home Affordable Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      203.	 Treasury, “Making Home Affordable Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013; Treasury, “Supplemental Directive 12-02: Making Home Affordable
            Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
      204.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 7/1/2013.
      205.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
      206.	 Treasury, “Making Home Affordable Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, https://www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 6/21/2013.
      207.	 Treasury, response to SIGTARP data call, 7/19/2013.
      208.	 Treasury, response to SIGTARP data call, 7/19/2013.
      209.	 Treasury, response to SIGTARP data call, 7/19/2013.
      210.	 Treasury, response to SIGTARP data call, 11/2/2012.
      211.	 Treasury, responses to SIGTARP data call, 7/5/2013 and 7/19/2013.
      212.	 Treasury, response to SIGTARP data call, 7/19/2013
                                                                                          quarterly report to congress I July 24, 2013             231


213.	   Treasury, response to SIGTARP data call, 7/19/2013.
214.	   Treasury, response to SIGTARP data call, 7/19/2013.
215.	   Treasury, response to SIGTARP data call, 7/19/2013.
216.	   Treasury, response to SIGTARP data call, 7/19/2013
217.	   Treasury, response to SIGTARP data call, 7/19/2013.
218.	   Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
        Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/1/2013.
219.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
220.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
221.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
222.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
223.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
224.	   Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
        Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/1/2013.
225.	   Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
        Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/1/2013.
226.	   Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
        Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 7/1/2013.
227.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013
228.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
229.	   Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
        www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 7/1/2013.
230.	   Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
        www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 7/1/2013.
231.	   Treasury, response to SIGTARP data call, 7/5/2013.
232.	   Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
        programs/docs/hamp_servicer/sd1005.pdf, accessed 7/1/2013.
233.	   Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
        servicer/praoverviewnongse.pdf, accessed 7/1/2013.
234.	   Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
        Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 7/1/2013.
235.	   Treasury, response to SIGTARP data call, 7/19/2013.
236.	   Treasury, response to SIGTARP data call, 7/5/2013.
237.	   Treasury, response to SIGTARP data call, 7/5/2013.
238.	   Treasury, response to SIGTARP data call, 7/5/2013.
239.	   Treasury, response to SIGTARP data call, 7/5/2013.
240.	   Treasury, response to SIGTARP data call, 7/5/2013.
241.	   Treasury, response to SIGTARP data call, 7/5/2013.
242.	   Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
        programs/docs/hamp_servicer/sd1005.pdf, accessed 7/1/2013.
243.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
244.	   Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
        programs/docs/hamp_servicer/sd1005.pdf, accessed 7/1/2013.
245.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
246.	   Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
        Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 7/1/2013.
247.	   Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
        Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 7/1/2013.
248.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
249.	   Treasury, response to SIGTARP data call, 7/5/2013.
250.	   Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
        press-center/press-releases/Pages/tg614.aspx, accessed 7/1/2013.
251.	   Treasury, response to SIGTARP data call, 7/19/2013.
252.	   Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
        hamp_servicer/sd1107.pdf, accessed 7/1/2013.
232            special inspector general I troubled asset relief program



      253.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      254.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 7/1/2013.
      255.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1004.pdf, accessed 7/1/2013.
      256.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 7/1/2013.
      257.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 7/1/2013.
      258.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
      259.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
            gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 7/1/2013.
      260.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      261.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives – Short Sale and Deed-in-Lieu of Foreclosure
            Update,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/hafa/sd0909r.pdf, accessed 7/1/2013.
      262.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives – Short Sale and Deed-in-Lieu of Foreclosure
            Update,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/hafa/sd0909r.pdf, accessed 7/1/2013.
      263.	 Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009, www.hmpadmin.com/portal/news/
            docs/2009/hampupdate113009.pdf, accessed 7/1/2013.
      264.	 Treasury, response to SIGTARP data call, 7/12/2013.
      265.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” 8/9/2011, www.hmpadmin.
            com/portal/programs/docs/hamp_servicer/sd1108.pdf, accessed 7/1/2013.
      266.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
            com/portal/programs/docs/hafa/sd1018.pdf, accessed 7/1/2013.
      267.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 7/1/2013.
      268.	 Treasury, response to SIGTARP data call, 7/5/2013.
      269.	 Treasury, response to SIGTARP data call, 7/5/2013.
      270.	 Treasury, response to SIGTARP data call, 7/19/2013.
      271.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 7/1/2013.
      272.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
            portal/programs/docs/second_lien/sd0905r.pdf, accessed 7/1/2013.
      273.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 7/1/2013.
      274.	 Treasury, response to SIGTARP data call, 7/19/2013.
      275.	 Treasury, response to SIGTARP data call, 7/5/2013.
      276.	 Treasury, response to SIGTARP data call, 7/5/2013.
      277.	 Treasury, response to SIGTARP data call, 7/5/2013.
      278.	 Treasury, response to SIGTARP data call, 7/5/2013.
      279.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
            portal/programs/docs/second_lien/sd0905r.pdf, accessed 7/1/2013.
      280.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
            portal/programs/docs/second_lien/sd0905r.pdf, accessed 7/1/2013.
      281.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 7/1/2013.
      282.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
            Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 7/1/2013.
      283.	 Treasury, response to SIGTARP data call, 7/5/2013.
      284.	 Treasury, response to SIGTARP data call, 7/5/2013.
      285.	 Treasury, response to SIGTARP data call, 7/5/2013.
      286.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/
            HOMELOANS/circulars/26_10_6.pdf, accessed 7/1/2013.
      287.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 7/1/2013;
            Treasury, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to Support
            FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1008.pdf,
            accessed 7/1/2013.
      288.	 Treasury, response to SIGTARP data call, 7/5/2013.
      289.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
            FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
            accessed 7/1/2013.
      290.	 Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 2/2010, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/housing/Documents/HFA%20Proposal%20Guidelines%20-%201st%20Rd.pdf, accessed 6/25/2013.
                                                                                            quarterly report to congress I July 24, 2013                233


291.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 7/1/2013.
292.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 7/1/2013.
293.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg618.aspx, accessed 7/1/2013.
294.	 National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
      foreclosure-initiative, accessed 7/1/2013.
295.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      7/1/2013.
296.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure Prevention Programs to Help Homeowners Struggling
      With Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176,
      accessed 7/1/2013.
297.	 Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 7/1/2013.
298.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
      reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 7/1/2013.
299.	 SIGTARP analysis of HFA participation agreements and amendments; SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund
      Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_HHF_Audit.pdf, accessed 7/1/2013.
300.	 Treasury, response to SIGTARP data call, 7/5/2013.
301.	 Treasury, reply to SIGTARP data call, 7/11/2013.
302.	 Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 6/27/2013.
303.	 Treasury, response to SIGTARP data call, 7/5/2013; Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
      accessed 7/1/2013; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 7/1/2013; CALHFA Mortgage
      Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 7/1/2013; Florida Hardest-Hit,
      “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 7/1/2013; Georgia Department of Community Affairs, “Hardest Hit Fund,”
      no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 7/1/2013; Illinois Housing Development Authority,
      “Illinois Housing Development Authority,” no date, www.ihda.org/, accessed 7/1/2013; Indiana Foreclosure Prevention Network, “Indiana
      Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 7/1/2013; Kentucky Housing Corporation, “Kentucky Housing
      Corporation,” no date, www.kyhousing.org/, accessed 7/1/2013; Michigan State Housing Development Authority, “Helping Michigan’s Hardest
      Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed 7/1/2013; Mississippi Home Corporation,
      “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed 7/1/2013; Nevada’s Hardest Hit Funds, “Nevada’s
      Hardest Hit Funds,” no date, www.nahac.org/, accessed 7/1/2013; State of New Jersey Housing and Mortgage Finance Agency, “State of New
      Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/, accessed 7/1/2013; NC Foreclosure Prevention Fund, “Help
      for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.gov/, accessed 7/1/2013; Ohio.gov, “Ohio’s Foreclosure Prevention
      Effort,” no date, www.savethedream.ohio.gov/, accessed 7/1/2013; Oregon Homeownership Stabilization Initiative, “OHSI,” no date, www.
      oregonhomeownerhelp.org/, accessed 7/1/2013; Hardest Hit Fund-Rhode Island, “HHFRI,” no date, www.hhfri.org/, accessed 7/1/2013; SC
      Help, “South Carolina Homeownership and Employment Lending Program,” no date, www.scmortgagehelp.com/, accessed 7/1/2013; Tennessee
      Housing Development Agency, “THDA,” no date, www.thda.org/, accessed 7/1/2013; District of Columbia Housing Finance Agency, “District of
      Columbia Housing Finance Agency,” no date, www.dchfa.org/, accessed 7/1/2013.
304.	 Treasury, response to SIGTARP data call, 7/5/2013.
305.	 SIGTARP, “Quarterly Report to Congress,” 7/28/2011; Treasury, response to SIGTARP data call, 7/5/2013
306.	 SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 7/5/2013.
307.	 Treasury, response to SIGTARP data call, 7/5/2013.
308.	 Treasury, response to SIGTARP data call, 7/5/2013.
309.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 7/1/2013.
310.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
      latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 7/1/2013.
311.	 Treasury, response to SIGTARP data call, 7/19/2013.
312.	 Treasury, response to SIGTARP data call, 7/5/2013.
313.	 Treasury, response to SIGTARP data call, 7/5/2013.
314.	 Treasury, response to SIGTARP data call, 7/5/2013.
315.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 7/1/2013; HUD,
      response to SIGTARP draft, 1/10/2011.
316.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
317.	 HUD, response to SIGTARP draft report, 1/10/2011.
318.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 7/1/2013.
319.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 7/1/2013; HUD, response to SIGTARP draft report, 3/31/2011.
320.	 HUD, response to SIGTARP draft report, 1/12/2011; Treasury, response to SIGTARP data call, 7/5/2013.
321.	 Treasury, response to SIGTARP data call, 1/11/2013; Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013.
234            special inspector general I troubled asset relief program



      322.	 Treasury, response to SIGTARP data call, 6/25/2013.
      323.	 Treasury conference call, 3/19/2009.
      324.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      325.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      326.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      327.	 Treasury, Security Purchase Agreement Standard Terms, 4/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cpp/Documents/spa.pdf, accessed 7/1/2013.
      328.	 Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations),” 7/22/2012, www.treasury.
            gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/Term%20Sheet%20-%20Private%20C%20Corporations.pdf,
            accessed 7/1/2013.
      329.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      330.	 Treasury, response to SIGTARP data call, 7/5/2013.
      331.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      332.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      333.	 Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20Monthly%20
            Report%20to%20Congress.pdf, accessed 7/10/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to
            SIGTARP data call, 7/5/2013.
      334.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      335.	 Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      336.	 Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      337.	 Treasury, response to SIGTARP data call, 7/5/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      338.	 Treasury, response to SIGTARP data call, 7/5/2013.
      339.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      340.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
      341.	 Treasury, response to SIGTARP data call 7/5/2013; Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/June%202013%20Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
      342.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
      343.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
      344.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
      345.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 7/1/2013.
      346.	 Treasury, response to SIGTARP data call, 7/5/2013; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
            Observer%20Fact%20Sheet.pdf, accessed 7/1/2013.
      347.	 Treasury, response to SIGTARP data call 7/5/2013; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
            Observer%20Fact%20Sheet.pdf, accessed 7/1/2013.
      348.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
      349.	 Treasury, “Frequently Asked Questions: Capital Purchase Program (CPP) – Related to Missed Dividend (or Interest) Payments and Director
            Nomination,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20
            Directors%20FAQs.pdf, accessed 7/1/2013.
      350.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            7/1/2013.
      351.	 Treasury, response to SIGTARP data call, 7/5/2013.
      352.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            7/1/2013.
      353.	 Treasury, response to SIGTARP data call, 7/5/2013.
                                                                                            quarterly report to congress I July 24, 2013            235


354.	 Treasury, response to SIGTARP data call, 7/5/2013.
355.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2013.
356.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
357.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2013.
358.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2013.
359.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      7/1/2013.
360.	 Treasury, response to SIGTARP data call, 7/5/2013.
361.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
362.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
363.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
364.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
365.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
366.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
367.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
368.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
369.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, response to SIGTARP data call, 7/5/2013.
370.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
371.	 FDIC, “First Scottsdale Bank, National Association, Scottsdale, Arizona, Assumes All of the Deposits of Gold Canyon Bank, Gold Canyon,
      Arizona,” 4/5/2013, www.fdic.gov/news/news/press/2013/pr13026.html, accessed 7/10/2013.
372.	 FDIC, “First Scottsdale Bank, National Association, Scottsdale, Arizona, Assumes All of the Deposits of Gold Canyon Bank, Gold Canyon,
      Arizona,” 4/5/2013, www.fdic.gov/news/news/press/2013/pr13026.html, accessed 7/10/2013.
373.	 FDIC, “First Scottsdale Bank, National Association, Scottsdale, Arizona, Assumes All of the Deposits of Gold Canyon Bank, Gold Canyon,
      Arizona,” 4/5/2013, www.fdic.gov/news/news/press/2013/pr13026.html, accessed 7/10/2013.
374.	 Treasury, response to SIGTARP data call, 7/10/2013.
375.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
376.	 United States Bankruptcy Court, Southern District of Indiana, “Indiana Bank Corp: Voluntary Petition, Chapter 11,” filed 4/9/2013, Case no.
      13-80388-FJO-11, ecf.insb.uscourts.gov/doc1/072127432208, accessed 7/10/2013.
377.	 Treasury, response to SIGTARP data call, 7/10/2013.
378.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 7/5/2013.
379.	 Treasury conference call, 3/19/2010.
380.	 Treasury, response to SIGTARP draft report, 1/14/2012.
381.	 Treasury conference call, 3/19/2010.
382.	 Treasury conference call, 3/19/2010.
383.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
384.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
385.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
386.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
387.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
388.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
236            special inspector general I troubled asset relief program



      389.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      390.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      391.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      392.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      393.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      394.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      395.	 SNL Financial LLC data.
      396.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      397.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
      398.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/June%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/10/2013.
      399.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 7/1/2013.
      400.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      401.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      402.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
      403.	 Treasury, response to SIGTARP data call, 10/5/2011.
      404.	 Treasury, response to SIGTARP data call, 10/5/2011.
      405.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 7/1/2013.
      406.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
            Report%20Aug2011.pdf, accessed 7/1/2013.
      407.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/1/2013.
      408.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/1/2013.
      409.	 Treasury, response to SIGTARP data call, 7/11/2013.
      410.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/1/2013.
      411.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
            Report%20Aug2011.pdf, accessed 7/1/2013; Treasury, response to SIGTARP data call, 7/11/2013.
      412.	 Treasury, response to SIGTARP data call, 7/11/2013.
      413.	 Treasury, response to SIGTARP data call, 7/11/2013.
      414.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/1/2013.
      415.	 Treasury, response to SIGTARP data call, 7/11/2013.
      416.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 7/1/2013.
      417.	 Treasury, response to SIGTARP data call, 7/11/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      418.	 Treasury, response to SIGTARP data call, 7/11/2013.
      419.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 7/1/2013.
      420.	 Treasury, “Treasury Completes Auction to Sell Warrant Positions,” 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx,
            accessed 6/21/2013.
      421.	 Treasury conference call, 11/10/2011.
      422.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 7/1/2013.
      423.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 7/1/2013.
      424.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/
            cdci/Pages/faqs.aspx, accessed 7/1/2013; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-
            room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 7/1/2013; Treasury Press Release, “Treasury Announces
            Special Financial Stabilization Initiative Investments of $570 Million in Community Development Financial Institutions in Underserved Areas,”
            9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 7/1/2013.
      425.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 7/1/2013.
                                                                                             quarterly report to congress I July 24, 2013                237


426.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
      investment-programs/cdci/Pages/default.aspx, accessed 7/1/2013.
427.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
      Release%209-30-10.pdf, accessed 7/1/2013.
428.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
429.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
430.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
431.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
432.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
433.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/18/2013.
434.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/18/2013.
435.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/1/2013.
436.	 Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 7/1/2013.
437.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      7/1/2013; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      7/1/2013.
438.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/1/2013.
439.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/1/2013.
440.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
      FY2010BIB-Complete.pdf, accessed 7/1/2013.
441.	 Treasury, response to SIGTARP data call, 1/8/2010.
442.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/1/2013; Treasury, Daily TARP Update, 7/1/2013, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2007.01.2013.pdf, accessed 7/2/2013.
443.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
444.	 Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
      Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 7/9/2013.
445.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/1/2013.
446.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/1/2013.
447.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/1/2013; FRBNY, “Summary of Maiden Lane II LLC Waterfall
      Allocation,” 5/29/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 7/1/2013; FRBNY, “Summary of
      Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
      7/1/2013.
448.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      07.01.2013.pdf, accessed 7/2/2013.
449.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/1/2013; FRBNY, “Summary of Maiden Lane II LLC Waterfall
      Allocation,” 5/29/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 7/1/2013; FRBNY, “Summary of
      Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
      7/1/2013.
450.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
      FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
      pdf, accessed 7/1/2013; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
      7/1/2013.
451.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_
      Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/1/2013.
452.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/1/2013.
238            special inspector general I troubled asset relief program



      453.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/1/2013.
      454.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/1/2013.
      455.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
            105report.pdf, accessed 7/1/2013.
      456.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/1/2013.
      457.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, “Securities Exchange Agreement,” 4/17/2009, www.treasury.
            gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed 7/1/2013;
            Treasury, “Securities Purchase Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/
            Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed 7/1/2013.
      458.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/1/2013.
      459.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/1/2013; Treasury Press Release, “With
            $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1096.aspx, accessed 7/1/2013; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/data/5272/000095012311021398/y90008ae8vk.
            htm, accessed 7/1/2013.
      460.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/8/2013.
      461.	 AIG Press Release, “AIG Announces Pricing of Sale of Ordinary Shares of AIA Group Limited,” 3/5/2012, phx.corporate-ir.net/External.Fi le?ite
            m=UGFyZW50SUQ9MTI5ODQ3fENoaWxkSUQ9LTF8VHlwZT0z&t=1, accessed 7/8/2013.
      462.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 7/8/2013; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/
            data/5272/000095012311021398/y90008ae8vk.htm, accessed 7/8/2013.
      463.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 7/1/2013.
      464.	 Treasury, response to SIGTARP data call, 4/4/2013.
      465.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 7/1/2013; AIG, 8-K, 12/8/2010,
            www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/1/2013; AIG, 10-Q, 11/5/2010, www.sec.gov/
            Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 7/1/2013.
      466.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 7/1/2013.
      467.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
            Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 7/1/2013.
      468.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
            Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 7/1/2013.
      469.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            07.01.2013.pdf, accessed 7/2/2013.
      470.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 7/1/2013.
      471.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf accessed 7/2/2013.
      472.	 AIG, Stock Information, www.aig.com/Stock-Information_3171_438015.html, accessed 7/1/2013.
      473.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/1/2013.
      474.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
            From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 7/1/2013.
      475.	 FRBNY, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm?showMore=1, accessed
            7/1/2013; FRBNY, response to SIGTARP data call, 4/12/2012.
      476.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
            From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 7/1/2013.
      477.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 12/27/2012, www.federalreserve.gov/releases/h41/, accessed 7/1/2013.
      478.	 FRBNY, “Maiden Lane III LLC Securities Offerings,” no date, www.newyorkfed.org/markets/sec_offerings_recent.html, accessed 7/1/2013;
            FRBNY, response to SIGTARP data call, 1/3/2013; FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of
            AIG-Related Assistance; Approximately $6.6 Billion Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/
            newsevents/news/markets/2012/an120823.html, accessed 7/1/2013.
      479.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of AIG-Related Assistance; Approximately $6.6 Billion
            Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120823.html,
            accessed 7/1/2013.
      480.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 12/27/2012, www.federalreserve.gov/releases/h41/, accessed 7/1/2013.
      481.	 FRBNY, Transaction Data, 11/23/2012, http://newyorkfed.org/markets/maidenlane.html#periodicreleases3, accessed 7/1/2013.
      482.	 FRBNY, Transaction Data, 11/23/2012, http://newyorkfed.org/markets/maidenlane.html#periodicreleases3, accessed 7/1/2013.
      483.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 7/1/2013; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
            treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
            accessed 7/1/2013.
      484.	 Treasury, “Guidelines for Targeted Investment Program,” 1/2/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
            7/1/2013.
      485.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 7/1/2013.
                                                                                            quarterly report to congress I July 24, 2013              239


486.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
487.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
488.	 Treasury, “Exchange Agreement,” 6/9/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citigroup%20Exchange%20Agreement.pdf, accessed 7/1/2013; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
      data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/1/2013.
489.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 7/1/2013.
490.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 7/1/2013.
491.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 7/1/2013.
492.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 7/1/2013.
493.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 7/1/2013.
494.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 7/1/2013.
495.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
496.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 7/1/2013; Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of
      $894 Million, Providing an Additional Profit for Taxpayers on TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1841.aspx, accessed 7/1/2013.
497.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 7/1/2013.
498.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 7/1/2013.
499.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 7/1/2013.
500.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
      Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
      7/1/2013; FRBNY Press Release, “Federal Reserve Board announces agreement with Treasury Department regarding credit protection for the
      Term Asset-Backed Securities Loan Facility (TALF),” 1/13/2013, www.federalreserve.gov/newsevents/press/monetary/20130115b.htm, accessed
      7/1/2013.
501.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      07.01.2013.pdf, accessed 7/2/2013.
502.	 FRBNY, response to SIGTARP data call, 7/8/2013.
503.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
504.	 PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP, 6/17/2013; PPIP fund managers’ monthly reports for
      June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
505.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
506.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
507.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
      11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 7/1/2013.
508.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
      accessed 7/1/2013.
509.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
      lendingfacilities_201003.htm, accessed 7/1/2013.
510.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
511.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/1/2013.
512.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
      accessed 7/1/2013.
513.	 FRBNY, response to SIGTARP data call, 7/8/2013.
514.	 FRBNY, response to SIGTARP data call, 7/8/2013.
515.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/1/2013.
516.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/1/2013.
517.	 FRBNY, response to SIGTARP data call, 7/8/2013.
518.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/1/2013.
519.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/1/2013.
240            special inspector general I troubled asset relief program



      520.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 7/1/2013.
      521.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 7/1/2013.
      522.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 7/1/2013; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
            December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 7/1/2013.
      523.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 7/1/2013.
      524.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 7/1/2013.
      525.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 7/1/2013.
      526.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 7/1/2013.
      527.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      528.	 FRBNY, response to SIGTARP data call, 7/8/2013.
      529.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 7/1/2013;
            FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed
            7/1/2013.
      530.	 FRBNY, response to SIGTARP data call, 7/8/2013.
      531.	 FRBNY, response to SIGTARP data call, 7/8/2013.
      532.	 FRBNY, response to SIGTARP data call, 7/8/2013.
      533.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
            accessed 7/1/2013.
      534.	 FRBNY, response to SIGTARP data call, 7/8/2013.
      535.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      536.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
            Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
            7/1/2013.
      537.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
            States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
            Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
            accessed 7/1/2013.
      538.	 FRBNY, response to SIGTARP data call, 7/8/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      539.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 6/27/2013, www.federalreserve.gov/releases/h41/20130627/, accessed 7/1/2013;
            FRBNY, response to SIGTARP data call, 7/5/2013.
      540.	 FRBNY, response to SIGTARP data call, 7/8/2013.
      541.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
      542.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
            pdf, accessed 7/1/2013.
      543.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
            aspx, accessed 7/1/2013.
      544.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      545.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/1/2013.
      546.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 7/1/2013.
      547.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/
            ppip/Pages/purpose-and-overview.aspx, accessed 7/1/2013.
      548.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/1/2013.
      549.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/1/2013; Treasury, “Amended and Restated
            Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
            Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 7/1/2013.
      550.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 7/1/2013.
      551.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
            Pages/Program-Status.aspx, accessed 7/1/2013.
      552.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
            gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/1/2013.
      553.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
                                                                                            quarterly report to congress I July 24, 2013              241


554.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 7/1/2013.
555.	 Treasury, response to SIGTARP data call, 7/15/2013.
556.	 Treasury, response to SIGTARP data call, 7/15/2013.
557.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
558.	 Treasury, response to SIGTARP data call, 7/15/2013.
559.	 Treasury, response to SIGTARP data call, 7/15/2013.
560.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
561.	 Treasury, response to SIGTARP data call, 7/15/2013.
562.	 PPIP fund managers reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
563.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
564.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
565.	 Treasury, response to SIGTARP data call, 7/15/2013.
566.	 PPIP fund managers reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
567.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
568.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
569.	 Treasury, response to SIGTARP data call, 7/15/2013.
570.	 PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP, 6/17/2013.
571.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
572.	 Treasury, response to SIGTARP data call, 7/15/2013.
573.	 PPIP fund managers’ monthly reports for February 2013 submitted to Treasury and SIGTARP, 3/15/2013.
574.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
575.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
576.	 Treasury, response to SIGTARP data call, 7/15/2013.
577.	 BlackRock press release, “BlackRock Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,”
      12/5/2012, http://finance.yahoo.com/news/blackrock-liquidates-public-private-investment-194500728.html, accessed 7/1/2013.
578.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; BlackRock press release, “BlackRock Liquidates Public-Private
      Investment Partnership at a 23.5% Internal Rate of Return to Treasury,” 12/5/2012, http://finance.yahoo.com/news/blackrock-liquidates-public-
      private-investment-194500728.html, accessed 7/1/2013.
579.	 Treasury, response to SIGTARP data call, 7/15/2013.
580.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
581.	 Treasury, response to SIGTARP data call, 7/15/2013.
582.	 AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return
      for Treasury,” 10/9/2012, www.alliancebernstein.com/abcom/Our_Firm/Investor_Media/news/releases.htm, accessed 7/1/2013.
583.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
584.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
585.	 Treasury, response to SIGTARP data call, 7/15/2013.
586.	 RLJ Western press release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership At A 23.9% Internal Rate of
      Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-investment-
      partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html#, accessed 7/1/2013.
587.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
588.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
      Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
589.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
      Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
590.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 7/1/2013.
591.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
592.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
242            special inspector general I troubled asset relief program



      593.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Invesco Legacy
            Securities Master Fund, L.P., 10/3/2012, Authentication No. 9893096, File No. 4722688.
      594.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 7/1/2013.
      595.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 7/1/2013.
      596.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 7/1/2013.
      597.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 7/1/2013.
      598.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press- center/press-releases/Pages/tg58.aspx,
            accessed 7/1/2013; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 7/1/2013.
      599.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
            (Execution%20Version).pdf, accessed 7/1/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
            by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
            Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf,
            accessed 7/1/2013.
      600.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 7/1/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
            Purchase%20Agreement%20(Execution%20Version).pdf, accessed 7/1/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates
            and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
            MPA%20(73485877_2).pdf, accessed 7/1/2013.
      601.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      602.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      603.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/18/2013.
      604.	 Treasury, Auto Industry, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/pages/default.aspx,
            accessed 7/1/2013.
      605.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      606.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      607.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      608.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            07.01.2013.pdf, accessed 7/9/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      609.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      610.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, “Office of Financial Stability: Agency Financial Report
            - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
            OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2013.
      611.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      612.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      613.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/18/2013.
      614.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      615.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/1/2013.
      616.	 Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, 11/30/2011, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 7/1/2013.
            Treasury,Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
      617.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
            Dividends%20Interest%20Report.pdf, accessed 7/18/2013.
      618.	 General Motors, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 7/1/2013.
      619.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/1/2013.
                                                                                            quarterly report to congress I July 24, 2013               243


620.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/1/2013; Treasury
      Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
      Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed 7/1/2013; GM
      Press Release, “General Motors Company Prices Public Offering of Common and Preferred Stock,” 11/17/2010, http://media.gm.com/content/
      media/be/de/opel/news.detail.html/content/Pages/news/be/de/2010/OPEL/1117_pricing_eu.html, accessed 7/1/2013.
621.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 7/1/2013.
622.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/1/2013.
623.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
      gov/press-center/press-releases/Pages/tg1810.aspx, accessed 7/1/2013.
624.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 7/1/2013; Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the
      Next 12-15 Months,” 12/19/2012, www.treasury.gov/press-center/press-releases/Pages/tg1810.aspx, accessed 7/1/2013; Treasury, Transactions
      Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-
      13_INVESTMENT.pdf, accessed 7/2/2013.
625.	 General Motors Company Form 8-K, 12/20/2012, www.sec.gov/Archives/edgar/data/1467858/000146785812000082/form8-kusttreasurystock.
      htm, accessed 7/1/2013; Treasury, Stockholders Agreement, 10/15/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
      automotive-programs/Documents/GM%20Corporate%20Docs.pdf, accessed 7/1/2013; Treasury, Second Amended and Restated Secured Credit
      Agreement, 8/12/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/Documents/General%20Motors%20
      Company%20Loan%20Documents%20%20(post-July%2010,%202009).pdf, accessed 7/1/2013.
626.	 General Motors Press Release, “GM to Buy Back Stock from U.S. Treasury Department,” 12/19/2012, http://media.gm.com/media/us/en/gm/
      news.detail.html/content/Pages/news/us/en/2012/Dec/1219_gm-ust-stock.html, accessed 7/1/2013.
627.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 7/1/2013.
628.	 Treasury, response to SIGTARP data call, 7/5/2013. Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
629.	 Treasury Press Release, “Treasury Announces Next Step in Plan to Sell General Motors Common Stock,” 5/6/2013, www.treasury.gov/press-
      center/press-releases/Pages/jl1926.aspx, accessed 5/31/2013; Treasury, response to SIGTARP data call, 7/5/2013.
630.	 Treasury, Daily TARP Update, 6/3/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20
      -%2006.03.2013.pdf, accessed 7/12/2013; Treasury, Daily TARP Update, 6/13/2013, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/Daily%20TARP%20Update%20-%2006.13.2013.pdf, accessed 7/12/2013; Treasury, Daily TARP Update, 7/1/2013, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2007.01.2013.pdf, accessed 7/12/2013; Treasury, Section
      105(a) Report, 6/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/May%202013%20Monthly%20Report%20to%20
      Congress%20Final.pdf, accessed 7/9/2013. Treasury, Section 105(a) Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/June%202013%20Monthly%20Report%20to%20Congress.pdf, accessed 7/10/2013.
631.	 Treasury Press Release, “Taxpayers to Receive $1.03 Billion from Sale of GM Common Stock,” 6/6/2013, www.treasury.gov/press-center/press-
      releases/Pages/jl1976.aspx, accessed 6/18/2013.
632.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/9/2013. General Motors Co., Form 424-B7 Prospectus Supplement, 6/6/2013,
      www.sec.gov/Archives/edgar/data/1467858/000119312513250684/d550435d424b7.htm, accessed 7/11/2013.
633.	 Treasury, response to SIGTARP data call, 7/5/2013.
634.	 Treasury, Daily TARP Update, 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      07.01.2013.pdf, accessed 7/9/2013.
635.	 Treasury, response to SIGTARP data call, 7/5/2013.
636.	 General Motors Co., Form 424-B7 Prospectus Supplement, 6/6/2013, www.sec.gov/Archives/edgar/data/1467858/000119312513250684/
      d550435d424b7.htm, accessed 7/11/2013.
637.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
638.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/18/2013.
639.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 7/1/2013.
640.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 7/1/2013.
641.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 7/1/2013.
642.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 7/1/2013; Treasury, Section
      105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
      Report_final.pdf, accessed 7/1/2013.
643.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 7/1/2013.
644.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 7/1/2013.
645.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 7/1/2013.
646.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg1014.aspx, accessed 7/1/2013.
647.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1081.aspx, accessed 7/1/2013.
244            special inspector general I troubled asset relief program



      648.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 7/1/2013; Ally Financial,
            Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
            accessed 7/1/2013.
      649.	 Ally Financial, 8-K, 4/25/2013, www.sec.gov/Archives/edgar/data/40729/000114420413023802/v342461_8k.htm, accessed 7/1/2013.
      650.	 Ally Financial, 10-K, 3/1/2013, www.sec.gov/Archives/edgar/data/40729/000004072913000005/gjm2012123110k.htm, accessed 7/1/2013.
      651.	 Ally Financial, 8-K, 4/25/2013, www.sec.gov/Archives/edgar/data/40729/000114420413023802/v342461_8k.htm, accessed 7/1/2013.
      652.	 Ally Financial, 8-K, 5/31/2013, www.sec.gov/Archives/edgar/data/40729/000114420413032503/v346690_8-k.htm, accessed 7/1/2013.
      653.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            7/1/2013.
      654.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 7/1/2013.
      655.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            7/1/2013.
      656.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            7/1/2013.
      657.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 7/1/2013.
      658.	 Ally Financial,Amendment No. 1 to Form S-1 Registration Statement, 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.
            dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 7/1/2013; Ally Financial, Amendment No. 2 to Form
            S-1 Registration Statement, 6/3/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7978010&Sessio
            nID=yWV1FqvBONn9GA7, accessed 7/1/2013; Ally Financial, Amendment No. 3 to Form S-1 Registration Statement, 6/28/2011, www.
            sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 7/1/2013; Ally Financial, Amendment No. 4 to Form S-1
            Registration Statement, 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 7/1/2013; Ally
            Financial,Amendment No. 5 to Form S-1 Registration Statement, 12/2/2011, www.sec.gov/Archives/edgar/data/40729/000119312511328749/
            d167661ds1a.htm, accessed 7/1/2013; Ally Financial,Amendment No. 6 to Form S-1 Registration Statement, 4/12/2012, www.sec.gov/
            Archives/edgar/data/40729/000119312512159940/d167661ds1a.htm, accessed 7/1/2013; Ally Financial, Amendment No. 7 to Form S-1
            Registration Statement, 10/5/2012, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 7/1/2013; Ally
            Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/data/40729/000119312513285728/
            d388008ds1a.htm, accessed 7/9/2013.
      659.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
            Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 7/1/2013.
      660.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
            Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 7/1/2013; Ally Financial, 10-Q, 8/3/2012, www.sec.gov/
            Archives/edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 7/1/2013.
      661.	 In Re Residential Capital, LLC, Case No. 12-12020, U.S. Bankruptcy Court for the Southern District of New York, Order Granting Debtors’
            Motion for an Order Under Bankruptcy Code Sections 105(A) and 363(B) Authorizing the Debtors to Enter into a Plan Support Agreement
            with Ally Financial Inc., the Creditors’ Committee, and Certain Consenting Claimants, 6/26/2013, accessed 7/9/2013.
      662.	 Ally Financial Press Release, “Ally Financial Marks Next Step in Implementing the Comprehensive ResCap Settlement,” 5/23/2013, media.ally.
            com/2013-05-23-Ally-Financial-Marks-Next-Step-in-Implementing-the-Comprehensive-ResCap-Settlement, accessed 7/1/2013.
      663.	 Ally Financial Press Release, “Ally Financial Statement on Approval of the ResCap Plan Support Agreement,” 6/26/2013, media.ally.com/
            index.php?s=20295&item=122962, accessed 7/9/2013; Ally Financial Press Release, “Ally Financial Marks Next Step in Implementing
            the Comprehensive ResCap Settlement,” 5/23/2013, media.ally.com/2013-05-23-Ally-Financial-Marks-Next-Step-in-Implementing-the-
            Comprehensive-ResCap-Settlement, accessed 7/1/2013.
      664.	 Ally Financial Press Release, “Ally Financial Announces Agreement to Sell Remaining International Operations,” 11/21/2012, media.ally.com/
            index.php?s=20295&item=122921, accessed 7/9/2013.
      665.	 Ally Financial Press Release, “Ally Financial Completes Sale of Majority of European and Latin American Operations,” 4/2/2013, media.ally.
            com/2013-04-02-Ally-Financial-Completes-Sale-of-Majority-of-European-and-Latin-American-Operations, accessed 7/1/2013.
      666.	 Ally Financial, 8-K, 6/3/2013, www.sec.gov/Archives/edgar/data/40729/000114420413032819/v346794_8k.htm, accessed 7/1/2013.
      667.	 Ally Financial Press Release, “Ally Financial Marks Next Step in Implementing the Comprehensive ResCap Settlement,” 5/23/2013, media.ally.
            com/2013-05-23-Ally-Financial-Marks-Next-Step-in-Implementing-the-Comprehensive-ResCap-Settlement, accessed 7/1/2013.
      668.	 Ally Financial Press Release, “Ally Financial Announces Agreement to Sell Canadian Operations,” 10/23/2012, media.ally.com/index.
            php?s=20295&item=122912, accessed 7/9/2013; Ally Press Release, “Ally Financial Announces Agreement to Sell Mexican Insurance
            Business,” 10/18/2012, media.ally.com/index.php?s=20295&item=122910 , accessed 7/9/2013.
      669.	 Ally Financial Press Release, “Ally Financial Completes Sale of Canadian Operations,” 2/1/2013, media.ally.com/index.
            php?s=20295&item=122599 , accessed 7/9/2013; Ally Financial Press Release, “Ally Financial Completes Sale of Mexican Insurance Business,”
            5/2/2013, media.ally.com/2013-05-02-Ally-Financial-Completes-Sale-of-Mexican-Insurance-Business, accessed 7/1/2013.
      670.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, media.ally.com/2013-03-
            21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 7/1/2013.
      671.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Mortgage Servicing Rights,” 3/12/2013, media.ally.com/2013-03-12-Ally-
            Bank-Reaches-Agreement-to-Sell-Mortgage-Servicing-Rights, accessed 7/1/2013.
      672.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, media.ally.com/2013-03-
            21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 7/1/2013.
      673.	 Ally Financial Press Release, “Ally Bank Completes Sales of Mortgage Servicing Rights,” 4/17/2013, media.ally.com/2013-04-17-Ally-Bank-
            Completes-Sales-of-Mortgage-Servicing-Rights, accessed 7/1/2013.
      674.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
            Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
                                                                                              quarterly report to congress I July 24, 2013                 245


675.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 7/1/2013.
676.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 7/1/2013.
677.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
678.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
679.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
      gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 7/1/2013; Treasury, Transactions Report, 6/28/2013, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed
      7/2/2013.
680.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
681.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
      http://media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 7/1/2013;
      Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 7/1/2013.
682.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 7/1/2013.
683.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 7/1/2013.
684.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1253.aspx, accessed 7/1/2013.
685.	 Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202013%20
      Dividends%20Interest%20Report.pdf, accessed 7/18/2013.
686.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, Dividends and Interest Report, 7/10/2013, www.treasury.gov/
      initiatives/financial-stability/reports/Documents/March%202013%20Dividends%20Interest%20Report.pdf, accessed 7/18/2013.
687.	 Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
      Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
      Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 7/1/2013; Treasury, Transactions Report, 6/28/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf,
      accessed 7/2/2013.
688.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
689.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, https://mediaroom.tdbank.com/index.
      php?s=30379&item=94198, accessed 7/1/2013.
690.	 TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/data/1337471/000095012311032930/y90599e8vk.htm, accessed 7/1/2013;
      Banking Business Review, “TD Bank closes acquisition of Chrysler Financial,” 4/1/2010, http://retailbanking.banking-business-review.com/news/
      td-bank-closes-acquisition-of-chrysler-financial-040411, accessed 7/1/2013.
691.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg64.aspx, accessed 7/1/2013.
692.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013; Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/
      initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20Report_final.pdf, accessed 7/1/2013.
693.	 Treasury, Office of Financial Stability: Agency Financial Report - Fiscal Year 2010, 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/1/2013.
694.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
695.	 Treasury, Transactions Report, 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20Transactions%20
      Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/2/2013.
696.	 Emergency Economic Stabilization Act of 2008, P.L. 110–343, 10/3/2008, Section 103.
697.	 Treasury, response to SIGTARP data call, 5/23/2013; Fannie Mae, response to SIGTARP data call, 5/22/2013; Treasury, “Making Home
      Affordable, Program Performance Report Through May 2013,” 7/12/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
      May%202013%20MHA%20Report%20Final.pdf, accessed 7/15/2013; OCC, “Mortgage Metrics Report, First Quarter 2013,” 6/27/2013, www.
      occ.treas.gov/publications/publications-by-type/other-publications-reports/mortgage-metrics-2013/mortgage-metrics-q1-2013.pdf, accessed
      7/1/2013.
698.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
699.	 Treasury, “HAMP Redefault Tables 1-16-May 2013,” accessed, 6/27/2013.
700.	 Treasury, responses to SIGTARP data calls, 5/23/2013 and 6/5/2013.
701.	 Treasury, letter from Timothy G. Massad, “Treasury Response to SIGTARP HAMP Default Recommendations,” 7/5/2013.
702.	 Emergency Economic Stabilization Act of 2008, P.L. 110–343, 10/3/2008, Section 109(a).
703.	 U.S. Congress, Congressional Record – House, 10/3/08, p. H10771, www.gpo.gov/fdsys/pkg/CREC-2008-10-03/pdf/CREC-2008-10-03-pt1-
      PgH10712-2.pdf#page=59, accessed 2/25/2013; and U.S. Congress, Congressional Record – Senate, 10/1/08, p.S10252, www.gpo.gov/fdsys/
      pkg/CREC-2008-10-01/pdf/CREC-2008-10-01-pt1-PgS10220-2.pdf#page=33, accessed 2/25/2013.
246            special inspector general I troubled asset relief program



      704.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, https://www.hmpadmin.
            com/portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/15/2013.
      705.	 Treasury, response to SIGTARP data call, 7/10/2013
      706.	 Treasury, “Supplemental Directive 13-04: Making Home Affordable Program – MHA Program Extension and Enhancements,” 6/13/2013,
            https://www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1304.pdf, accessed 7/1/2013; Treasury. “Making Home Affordable Program,
            Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, https://www.hmpadmin.com/portal/programs/docs/hamp_servicer/
            mhahandbook_42.pdf, accessed 7/1/2013.
      707.	 Treasury, response to SIGTARP data call, 5/23/2013; Fannie Mae, response to SIGTARP data call, 5/22/2013.
      708.	 Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, and 5/23/2013; Fannie Mae, response to
            SIGTARP data calls, 4/19/2013 and 5/22/2013; SIGTARP, Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress,
            1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
      709.	 Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, and 5/23/2013; Fannie Mae, response to
            SIGTARP data call, 4/19/2013 and 5/22/2013; SIGTARP, Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress,
            1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
      710.	 Treasury, “HAMP Redefault Tables 1-16-May2013,” accessed 6/27/2013.
      711.	 Treasury, “HAMP Redefault Tables 1-16-May2013,” accessed 6/27/2013.
      712.	 Treasury, “HAMP Redefault Tables 1-16-May2013,” accessed 6/27/2013; Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012,
            1/22/2013, 2/28/2013, 4/19/2013, and 5/23/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013 and 5/22/2013; SIGTARP, Quarterly
            Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012;
            SIGTARP Quarterly Report to Congress, 1/30/2013.
      713.	 Treasury, “HAMP Redefault Tables 1-16-May2013,” accessed 6/27/2013.
      714.	 Treasury, response to SIGTARP data call, 5/23/2013.
      715.	 SIGTARP analysis of Treasury HAMP data.
      716.	 Treasury, letter from Timothy G. Massad, “Treasury Response to SIGTARP HAMP Default Recommendations,” 7/5/2013.
      717.	 Treasury, response to SIGTARP data call, 6/17/2013.
      718.	 Treasury, response to SIGTARP data calls, 5/23/2013 and 6/5/2013.
      719.	 Treasury, response to SIGTARP data call, 7/10/2013.
      720.	 Treasury, response to SIGTARP data call, 7/10/2013.
      721.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, https://www.hmpadmin.
            com/portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/15/2013.
      722.	 Treasury, response to SIGTARP data call, 6/5/2013.
      723.	 Treasury, response to SIGTARP data call, 6/5/2013; Treasury, responses to SIGTARP vetting draft, 7/12/2013 and 7/16/2013; Fannie Mae,
            responses to SIGTARP vetting draft, 7/11/2013 and 7/16/2013.
      724.	 Treasury, response to SIGTARP data call, 6/5/2013; Treasury, responses to SIGTARP vetting draft, 7/12/2013 and 7/16/2013; Fannie Mae,
            responses to SIGTARP vetting draft, 7/11/2013 and 7/16/2013.
      725.	 OCC, “Mortgage Metrics Report, First Quarter 2013,” 6/27/2013, www.occ.treas.gov/publications/publications-by-type/other-publications-
            reports/mortgage-metrics-2013/mortgage-metrics-q1-2013.pdf, accessed 7/1/2013.
      726.	 Treasury, meeting, 5/1/2012; Treasury, response to SIGTARP vetting draft, 5/12/2013.
      727.	 Treasury, “Making Home Affordable, Program Performance Report Through May 2013,” 7/12/2013, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/May%202013%20MHA%20Report%20Final.pdf, accessed 7/15/2013.
      728.	 SIGTARP, Hotline.
      729.	 Senior Attorney, Fair Housing Law Project, A program of the Law Foundation of Silicon Valley, San Jose, California, 5/22/2013.
      730.	 Managing Attorney, Fair Lending and Foreclosure Prevention Project, Connecticut Fair Housing Center, Hartford, Connecticut, 5/23/2013.
      731.	 Senior Attorney, Fair Housing Law Project, A program of the Law Foundation of Silicon Valley, San Jose, California, 5/22/2013.
      732.	 SIGTARP, Hotline.
      733.	 SIGTARP, Hotline.
      734.	 Staff Attorney, Mississippi Center for Justice, Jackson, Mississippi, 5/22/2013.
      735.	 Senior Attorney, Fair Housing Law Project, a program of the Law Foundation of Silicon Valley, San Jose, California, 5/22/2013.
      736.	 SIGTARP, Hotline.
      737.	 Managing Attorney, Fair Lending and Foreclosure Prevention Project, Connecticut Fair Housing Center, Hartford, Connecticut, 5/23/2013.
      738.	 SIGTARP, Hotline.
      739.	 Staff Attorney, Mississippi Center for Justice, Jackson, Mississippi, 5/22/2013.
      740.	 Staff Attorney, Consumer & Housing Project, North Carolina Justice Center, Raleigh, North Carolina,5/31/2013.
      741.	 RealtyTrac, “U.S. Foreclosure Activity Decreases 14 Percent in June to Lowest Level Since December 2006 Despite 34 Percent Jump in Judicial
            Scheduled Foreclosure Auctions,” 7/9/2013, www.realtytrac.com/content/foreclosure-market-report/midyear-2013-us-foreclosure-market-
            report-7794, accessed 7/18/2013.
      742.	 SIGTARP analysis of Treasury HAMP data.
      743.	 SIGTARP analysis of Treasury HAMP data.
      744.	 SIGTARP analysis of Treasury HAMP data.
      745.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013; SIGTARP, “Quarterly Report to Congress,” 1/20/2013, p.57,
            www.sigtarp.gov/Quarterly%20Reports/January_30_2013_Report_to_Congress.pdf, accessed 2/27/2013; and Treasury, “Making Home Affordable
            Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/ portal/programs/docs/hamp_servicer/
            mhahandbook_41.pdf, accessed 1/2/2013.
                                                                                             quarterly report to congress I July 24, 2013               247


746.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013.
747.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013.
748.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013.
749.	 SIGTARP analysis of Treasury HAMP data.
750.	 SIGTARP analysis of Treasury HAMP data.
751.	 SIGTARP analysis of Treasury HAMP data.
752.	 SIGTARP analysis of Treasury HAMP data.
753.	 Treasury, “Hardest Hit Fund State-by-State Information,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
      Program-Documents.aspx, accessed 7/16/2013.
754.	 Treasury, letter from Timothy G. Massad, “Treasury Response to SIGTARP HAMP Default Recommendations,” 7/5/2013.
755.	 Treasury, response to SIGTARP vetting draft, 7/12/2013; Fannie Mae, response to SIGTARP vetting draft, 7/11/2013; Treasury, “Making Home
      Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/portal/programs/docs/hamp_
      servicer/mhahandbook_42.pdf, accessed 7/16/2013.
756.	 SIGTARP analysis of Treasury HAMP data.
757.	 SIGTARP analysis of Treasury HAMP data.
758.	 SIGTARP analysis of Treasury HAMP data; Treasury, response to SIGTARP vetting draft, 7/12/2013; Fannie Mae, response to SIGTARP vetting
      draft, 7/11/2013; Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.
      hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013.
759.	 SIGTARP analysis of Treasury HAMP data.
760.	 SIGTARP analysis of Treasury HAMP data.
761.	 U.S. Senator Elizabeth Warren and U.S. Representative Elijah E. Cummings, letter, 5/16/2013; U.S. Representative Robin Kelly, letter,
      5/9/2013.
762.	 Treasury, letter from Timothy G. Massad, “Treasury Response to SIGTARP HAMP Default Recommendations,” 7/5/2013.
763.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
764.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
765.	 Treasury, response to SIGTARP data call, 7/11/2013.
766.	 Treasury, response to SIGTARP data call, 7/5/2013.
767.	 Treasury, response to SIGTARP data call, 7/11/2013.
768.	 Treasury, response to SIGTARP data call, 7/11/2013.
769.	 Treasury, response to SIGTARP data call, 7/12/2013.
770.	 Treasury, response to SIGTARP data call, 7/12/2013.
771.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
772.	 Treasury, response to SIGTARP data call, 7/11/2013.
248           Appendix a I glossary I JULY 24, 2013




      Glossary
      This appendix provides a glossary of terms that are used in the context of this report.

      7(a) Loan Program: SBA loan program guaranteeing                   Credit Default Swap (“CDS”): A contract where the seller
      a percentage of loans for small businesses that cannot             receives payments from the buyer in return for agreeing to
      otherwise obtain conventional loans at reasonable terms.           pay the buyer when a particular credit event occurs, such
                                                                         as when the credit rating on a bond is downgraded or a
      Accredited Investors: Individuals or institutions that
                                                                         loan goes into default. The buyer does not need to own the
      by law are considered financially sophisticated enough
                                                                         asset covered by the contract, meaning the swap can serve
      so that they can invest in ventures that are exempt from
                                                                         essentially as a bet against the underlying bond or loan.
      investor protection laws. Under U.S. securities laws, these
      include many financial companies, pension plans, wealthy           Cumulative Preferred Stock: Stock requiring a defined
      individuals, and top executives or directors of the issuing        dividend payment. If the company does not pay the dividend
      companies.                                                         on schedule, it still owes the missed dividend to the stock’s
                                                                         owner.
      Asset-Backed Securities (“ABS”): Bonds backed by a
      portfolio of consumer or corporate loans (e.g., credit card,       CUSIP number (“CUSIP”): Unique identifying number
      auto, or small-business loans). Financial companies typically      assigned to all registered securities in the United States
      issue ABS backed by existing loans in order to fund new loans      and Canada; the name originated with the Committee on
      for their customers.                                               Uniform Securities Identification Procedures.
      Collateral: Asset pledged by a borrower to a lender until a        Custodian Bank: Bank holding the collateral and managing
      loan is repaid. Generally, if the borrower defaults on the loan,   accounts for FRBNY; for TALF the custodian is Bank of New
      the lender gains ownership of the pledged asset and may sell       York Mellon.
      it to satisfy the debt. In TALF, the ABS or CMBS purchased
                                                                         Debt: Investment in a business that is required to be paid
      with the TALF loan is the collateral that is posted with
                                                                         back to the investor, usually with interest.
      FRBNY.
                                                                         Deed-in-Lieu of Foreclosure: Instead of going through
      Collateralized Debt Obligation (“CDO”): A security that
                                                                         foreclosure, the borrower voluntarily surrenders the deed
      entitles the purchaser to some part of the cash flows from a
                                                                         to the home to the investor as satisfaction of the unpaid
      portfolio of assets such as mortgage-backed securities, bonds,
                                                                         mortgage balance.
      loans, or other CDOs.
                                                                         Deficiency Judgment: Court order authorizing a lender to
      Commercial Mortgage-Backed Securities (“CMBS”):
                                                                         collect all or part of an unpaid and outstanding debt resulting
      Bonds backed by one or more mortgages on commercial real
                                                                         from the borrower’s default on the mortgage note securing a
      estate (e.g., office buildings, rental apartments, hotels).
                                                                         debt. A deficiency judgment is rendered after the foreclosed
      Common Stock: Equity ownership entitling an individual to          or repossessed property is sold when the proceeds are
      share in corporate earnings and voting rights.                     insufficient to repay the full mortgage debt.
      Community Development Financial Institutions                       Deobligations: An agency’s cancellation or downward
      (“CDFIs”): Financial institutions eligible for Treasury            adjustment of previously incurred obligations.
      funding to serve urban and rural low-income communities
                                                                         Due Diligence: Appropriate level of attention or care a
      through the CDFI Fund. CDFIs were created in 1994
                                                                         reasonable person should take before entering into an
      by the Riegle Community Development and Regulatory
                                                                         agreement or a transaction with another party. In finance, it
      Improvement Act.
                                                                         often refers to the process of conducting an audit or review of
                                                                         the institution before initiating a transaction.
                                                                         Equity: Investment that represents an ownership interest in
                                                                         a business.
                                                                                            glossary I Appendix A I JULY 24, 2013    249




Equity Capital Facility: Commitment to invest equity                (limited partner) and at least one partner whose liability
capital in a firm under certain future conditions. An equity        extends beyond monetary investment (general partner).
facility when drawn down is an investment that increases
                                                                    Loan Servicers: Companies that perform administrative
the provider’s ownership stake in the company. The investor
                                                                    tasks on monthly mortgage payments until the loan is
may be able to recover the amount invested by selling its
                                                                    repaid. These tasks include billing, tracking, and collecting
ownership stake to other investors at a later date.
                                                                    monthly payments; maintaining records of payments and
Excess Spread: Funds left over after required payments and          balances; allocating and distributing payment collections to
other contractual obligations have been met. In TALF it is          investors in accordance with each mortgage loan’s governing
the difference between the periodic amount of interest paid         documentation; following up on delinquencies; and initiating
out by the collateral and the amount of interest charged by         foreclosures.
FRBNY on the nonrecourse loan provided to the borrower to
                                                                    Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
purchase the collateral.
                                                                    that mortgage lenders examine before approving a mortgage;
Exercise Price: Preset price at which a warrant holder              calculated by dividing the outstanding amount of the loan
may purchase each share. For warrants in publicly traded            by the value of the collateral backing the loan. Loans with
institutions issued through CPP, this was based on the              high LTV ratios are generally seen as higher risk because the
average stock price during the 20 days before the date that         borrower has less of an equity stake in the property.
Treasury granted preliminary CPP participation approval.
                                                                    Mandatorily Convertible Preferred Stock (“MCP”): A type
Government-Sponsored Enterprises (“GSEs”): Private                  of preferred share (ownership in a company that generally
corporations created and chartered by the Government to             entitles the owner of the shares to collect dividend payments)
reduce borrowing costs and provide liquidity in the market,         that can be converted to common stock under certain
the liabilities of which are not officially considered direct       parameters at the discretion of the company — and must be
taxpayer obligations. On September 7, 2008, the two largest         converted to common stock by a certain time.
GSEs, the Federal National Mortgage Association (“Fannie
                                                                    Nationally Recognized Statistical Rating Organization
Mae”) and the Federal Home Loan Mortgage Corporation
                                                                    (“NRSRO”): Credit rating agency registered with the
(“Freddie Mac”), were placed into Federal conservatorship.
                                                                    SEC. Credit rating agencies provide their opinion of the
They are currently being financially supported by the
                                                                    creditworthiness of companies and the financial obligations
Government.
                                                                    issued by companies. The ratings distinguish between
Haircut: Difference between the value of the collateral and         investment grade and non-investment grade equity and debt
the value of the loan (the loan value is less than the collateral   obligations.
value).
                                                                    Net Present Value (“NPV”) Test: Compares the money
Illiquid Assets: Assets that cannot be quickly converted to         generated by modifying the terms of the mortgage with the
cash.                                                               amount an investor can reasonably expect to recover in a
                                                                    foreclosure sale.
Investors: Owners of mortgage loans or bonds backed by
mortgage loans who receive interest and principal payments          Non-Agency Residential Mortgage-Backed Securities
from monthly mortgage payments. Servicers manage the cash           (“non-agency RMBS”): Financial instrument backed by
flow from borrowers’ monthly payments and distribute them           a group of residential real estate mortgages (i.e., home
to investors according to Pooling and Servicing Agreements          mortgages for residences with up to four dwelling units) not
(“PSAs”).                                                           guaranteed or owned by a Government-sponsored enterprise
                                                                    (“GSE”) or a Government Agency.
Legacy Securities: Real estate-related securities originally
issued before 2009 that remained on the balance sheets              Non-Cumulative Preferred Stock: Preferred stock with
of financial institutions because of pricing difficulties that      a defined dividend, without the obligation to pay missed
resulted from market disruption.                                    dividends.
Limited Partnership: Partnership in which there is at least
one partner whose liability is limited to the amount invested
250           Appendix a I glossary I JULY 24, 2013




      Non-Recourse Loan: Secured loan in which the borrower is           Servicing Advances: If borrowers’ payments are not made
      relieved of the obligation to repay the loan upon surrendering     promptly and in full, servicers are contractually obligated to
      the collateral.                                                    advance the required monthly payment amount in full to the
                                                                         investor. Once a borrower becomes current or the property is
      Obligations: Definite commitments that create a legal
                                                                         sold or acquired through foreclosure, the servicer is repaid all
      liability for the Government to pay funds.
                                                                         advanced funds.
      Pool Assemblers: Firms authorized to create and market
                                                                         Short Sale: Sale of a home for less than the unpaid mortgage
      pools of SBA-guaranteed loans.
                                                                         balance. A borrower sells the home and the investor accepts
      Preferred Stock: Equity ownership that usually pays a fixed        the proceeds as full or partial satisfaction of the unpaid
      dividend before distributions for common stock owners but          mortgage balance, thus avoiding the foreclosure process.
      only after payments due to debt holders. It typically confers
                                                                         Skin in the Game: Equity stake in an investment; down
      no voting rights. Preferred stock also has priority over
                                                                         payment; the amount an investor can lose.
      common stock in the distribution of assets when a bankrupt
      company is liquidated.                                             Special Purpose Vehicle (“SPV”): A legal entity, often off-
                                                                         balance-sheet, that holds transferred assets presumptively
      Pro Rata: Refers to dividing something among a group of
                                                                         beyond the reach of the entities providing the assets, and that
      participants according to the proportionate share that each
                                                                         is legally isolated from its sponsor or parent company.
      participant holds as a part of the whole.
                                                                         Subchapter S Corporations (“S corporations”): Corporate
      Qualified Institutional Buyers (“QIB”): Institutions that
                                                                         form that passes corporate income, losses, deductions, and
      under U.S. securities law are permitted to buy securities that
                                                                         credit through to shareholders for Federal tax purposes.
      are exempt from registration under investor protection laws
                                                                         Shareholders of S corporations report the flow-through of
      and to resell those securities to other QIBs. Generally these
                                                                         income and losses on their personal tax returns and are taxed
      institutions own and invest at least $100 million in securities,
                                                                         at their individual income tax rates.
      or are registered broker-dealers that own or invest at least $10
      million in securities.                                             Subordinated Debentures: Form of debt security that ranks
                                                                         below other loans or securities with regard to claims on assets
      Revolving Credit Facility: Line of credit for which borrowers
                                                                         or earnings.
      pay a commitment fee, allowing them to repeatedly draw
      down funds up to a guaranteed maximum amount. The                  Systemically Significant Institutions: Term referring to any
      amount of available credit decreases and increases as funds        financial institution whose failure would impose significant
      are borrowed and then repaid.                                      losses on creditors and counterparties, call into question the
                                                                         financial strength of similar institutions, disrupt financial
      Risk-Weighted Assets: Risk-based measure of total assets
                                                                         markets, raise borrowing costs for households and businesses,
      held by a financial institution. Assets are assigned broad
                                                                         and reduce household wealth.
      risk categories. The amount in each risk category is then
      multiplied by a risk factor associated with that category. The     TALF Agent: Financial institution that is party to the TALF
      sum of the resulting weighted values from each of the risk         Master Loan and Security Agreement and that occasionally
      categories is the bank’s total risk-weighted assets.               acts as an agent for the borrower. TALF agents include
                                                                         primary and nonprimary broker-dealers.
      SBA Pool Certificates: Ownership interest in a bond backed
      by SBA-guaranteed loans.                                           Trial Modification: Under HAMP, a period of at least three
                                                                         months in which a borrower is given a chance to establish
      Senior Preferred Stock: Shares that give the stockholder
                                                                         that he or she can make lower monthly mortgage payments
      priority dividend and liquidation claims over junior preferred
                                                                         and qualify for a permanent modification.
      and common stockholders.
                                                                         Trust Preferred Securities (“TRUPS”): Securities that have
      Senior Subordinated Debentures: Debt instrument ranking
                                                                         both equity and debt characteristics, created by establishing a
      below senior debt but above equity with regard to investors’
                                                                         trust and issuing debt to it.
      claims on company assets or earnings.
                                                                                                       glossary I Appendix A I JULY 24, 2013                            251




Undercapitalized: Condition in which a financial institution      Sources:
                                                                  Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
does not meet its regulator’s requirements for sufficient         fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
capital to operate under a defined level of adverse conditions.   7/3/2013.
                                                                  Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
Underwater Mortgage: Mortgage loan on which a                     org/files/regulations/pdf/operating_circular_8.pdf, accessed 7/3/2013.

homeowner owes more than the home is worth, typically as a        FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 7/3/2013.
                                                                  FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
result of a decline in the home’s value. Underwater mortgages     card_securitization/glossary.html, accessed 7/3/2013.
also are referred to as having negative equity.                   FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                  rules/2000-4600.html, accessed 7/3/2013.
                                                                  FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed 7/3/2013.
                                                                  SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                  3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
                                                                  Affordable_Modification_Program.pdf, accessed 7/3/2013.
                                                                  GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
                                                                  special.pubs/d06382sp.pdf, p. 7-3, accessed 7/3/2013.
                                                                  GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                  on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                  pdf, accessed 7/3/2013; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
                                                                  Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
                                                                  Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 7/3/2013.
                                                                  IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
                                                                  Employed/Abusive-Offshore-Tax-Avoidance-Schemes---Glossary-of-Offshore-Terms, accessed
                                                                  7/3/2013.
                                                                  Making Home Affordable base NPV model documentation v5.01, updated 10/1/2012. www.
                                                                  hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv501.pdf, pp. 23-24,
                                                                  accessed 7/3/2013.
                                                                  SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                  groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 7/3/2013.
                                                                  SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 7/3/2013.
                                                                  Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                  7/3/2013.
                                                                  Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
                                                                  center/press-releases/Pages/tg58.aspx, accessed 7/3/2013.
                                                                  Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                  Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
                                                                  aspx, accessed 7/3/2013.
                                                                  Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                  Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                  sd1014.pdf, accessed 7/3/2013.
                                                                  Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                  treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 7/3/2013.
                                                                  U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                  www.census.gov/hhes/www/rfs/glossary.html#l, accessed 7/3/2013.
                                                                  U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                  sfh/buying/glossary.cfm, accessed 7/3/2013.
252           Appendix B I Acronyms and abbreviations I JULY 24, 2013




      Acronyms and Abbreviations

                    2MP      Second Lien Modification Program                                  DTI    debt-to-income
                     ABS     asset-backed securities                                          ECB     ECB Bancorp, Inc., Raleigh, North Carolina
                     AGP Asset Guarantee Program                                             EESA     Emergency Economic Stabilization Act of 2008
                      AIA    American International Insurance Co., Ltd.             Eligible Assets   securities eligible for purchase by PPIFs
                 AIA SPV     AIA Aurora LLC                                                 F.N.B.    F.N.B. Corporation, Hermitage, Pennsylvania
                     AIFP    Automotive Industry Financing Program                     Fannie Mae     Federal National Mortgage Association
                      AIG    American International Group, Inc.                                FBI    Federal Bureau of Investigation
               AIG Trust AIG Credit Facility Trust                                            FDIC    Federal Deposit Insurance Corporation
                   ALICO     American Life Insurance Company                                          Federal Deposit Insurance Corporation Office of
                                                                                         FDIC OIG
                                                                                                      Inspector General
              ALICO SPV ALICO Holdings LLC
                                                                                   Federal Reserve    Federal Reserve System
      Ally, Ally Financial   Ally Financial Inc.
                                                                                              FHA     Federal Housing Administration
                    AMS American Mortgage Specialists
                                                                                                      Federal Housing Finance Agency Office of
               Annapolis Annaplois Bancorp, Inc., Annapolis, Maryland                    FHFA OIG
                                                                                                      Inspector General
                    ASSP Auto Supplier Support Program
                                                                                          FHA2LP      Treasury/FHA Second-Lien Program
                   AWCP Auto Warranty Commitment Program
                                                                                               Fiat   Fiat North America LLC
       Bank of America Bank of America Corporation
                                                                                          FirstCity   FirstCity Bank
                     BNC     BNC National Bank
                                                                                                      Office of Inspector General-Board of Governors of
                                                                                          FRB OIG
                     BOC     Bank of the Commonwealth                                                 the Federal Reserve System
                     CAP Capital Assistance Program                                        FRBNY      Federal Reserve Bank of New York
                     CBO     Congressional Budget Office                              Freddie Mac     Federal Home Loan Mortgage Corporation
                    CDCI     Community Development Capital Initiative                        FSOC     Financial Stability Oversight Council or the Council
                    CDFI     Community Development Financial Institution                      GAO     Government Accountability Office
                   CDOs      collateralized debt obligations                                   GM     General Motors Company
                     CDS     Credit Default Swap                                      GM Financial    General Motors Financial Company, Inc.
               Cerberus Cerberus Capital Management, L.P.                          God Please Help GPH Investments
                Chrysler     Chrysler Holding LLC                                     Gold Canyon Gold Canyon Bank, Gold Canyon, Arizona
      Chrysler Financial     Chrysler Financial Services Americas LLC                         GSE     Government-sponsored enterprise
               Citigroup     Citigroup Inc.                                              GulfSouth GulfSouth Private Bank
                    CLTV     Combined Loan-to-Value                                          HAFA     Home Affordable Foreclosure Alternatives program
                   CMBS commercial mortgage-backed securities                               HAMP      Home Affordable Modification Program
      Coastal Securities Coastal Securities, Inc.                                     HAMP Tier 2     Home Affordable Modification Program Tier 2
                     CPP Capital Purchase Program                                             HAT     Home Advocate Trustees
                             Crescent Financial Bancshares, Inc., Raleigh, North              HFA     Housing Finance Agency
                Crescent
                             Carolina
                                                                                              HHF     Hardest Hit Fund
                         CUSIP numbers; from Committee on Uniform
                  CUSIPs                                                           HHF or Hardest
                         Securities Identification Procedures                                     Housing Finance Agency Hardest Hit Fund
                                                                                         Hit Fund
                             Dodd-Frank Wall Street Reform and Consumer
        Dodd-Frank Act                                                                       HOPE     Home Owners Protection Economics, Inc.
                             Protection Act
                                                                                             HPDP     Home Price Decline Protection
                                                                              Acronyms and abbreviations I Appendix B I JULY 24, 2013               253




            HUD     Department of Housing and Urban Development                  ResCap Residential Capital, LLC
        Imperial    Imperial Finance                                                 RMA    request for mortgage assistance
   Indiana Bank                                                                    RMBS     residential mortgage-backed securities
                Indiana Bank Corp., Dana, Indiana
          Corp.
                                                                          S corporations subchapter S corporations
             IPO    initial public offering
                                                                                     SBA    Small Business Administration
                    Internal Revenue Service Criminal Investigation
          IRS-CI                                                                    SBLF    Small Business Lending Fund
                    Division
                                                                                     SEC    Securities and Exchange Commission
          Jefsco    Jefsco Manufacturing Co., Inc.
                                                                          Secret Service    U.S. Secret Service
 Small Business
                Jobs Act of 2010
       Jobs Act                                                                 Servicers loan servicers
      Lexington Lexington Insurance Company                            servicing advance receivables for residential mortgage servicing
                                                                              receivables advances
             LTV    loan-to-value
                                                                          Shay Financial    Shay Financial Services, Inc.
            M&T     M&T Bank Corporation
                                                                                            Office of the Special Inspector General for the
            MBG MBG Investors I, L.P.                                           SIGTARP
                                                                                            Troubled Asset Relief Program
            MBS mortgage-backed securities
                                                                                            Special Inspector General for the Troubled Asset
                                                                            SIGTARP Act
            MCP mandatorily convertible preferred shares                                    Relief Program Act of 2009
    Metropolitan Metropolitan Bank Group, Inc., Chicago, Illinois                   SLHC    Savings and Loan Holding Company
            MHA     Making Home Affordable program                                   SPA    Servicer Participation Agreements
    NC Bancorp NC Bancorp, Inc., Chicago, Illinois                                   SPV    special purpose vehicle
                    Neighborhood Reinvestment Corporation and                        SSFI   Systemically Significant Failing Institutions program
 NeighborWorks
                    NeighborWorks America
                                                                                    TALF    Term Asset-Backed Securities Loan Facility
    Non-Agency Non-Agency Residential Mortgage-Backed
                                                                                    TARP    Troubled Asset Relief Program
         RMBS Securities
                                                                                     TBW    Taylor, Bean, and Whitaker
             NPV net present value
                                                                                     TCW    The TCW Group, Inc.
         NRSRO nationally recognized statistical rating organization
                                                                                    Tifton Tifton Banking Company
            OCC     Office of the Comptroller of the Currency
                                                                                      TIP Targeted Investment Program
             OFS    Office of Financial Stability
                                                                                     TPP trial period plan
     Old Second Old Second National Bank
                                                                                Treasury U.S. Department of the Treasury
            OMB     Office of Management and Budget
                                                                                Treasury
    Option ARM Option Adjustable Rate Mortgage                                           Secretary of the Treasury
                                                                               Secretary
          Oxford    Oxford Collection Agency, Inc.
                                                                           Treasury/FHA     HAMP Loan Modification Option for FHA-insured
              PII   personally identifiable information                           HAMP      Mortgages
Please Help Lord    PHL Investments                                               TRUPS     trust preferred securities
            PPIF Public-Private Investment Fund                                      UAW    United Auto Workers
            PPIP Public-Private Investment Program                                  UCSB    Unlocking Credit for Small Businesses
             PRA Principal Reduction Alternative                                       UP   Home Affordable Unemployment Program
       Premium Premium Finance Group                                               USPIS    United States Postal Inspection Services
             PSA Pooling and Servicing Agreements                                      VA Department of Veterans Affairs
             QIB    Qualified Institutional Buyers                      Wilmington Trust Wilmington Trust Co.
                    Department of Agriculture’s Office of Rural
              RD
                    Development
       RD-HAMP      HAMP
254           Appendix C I Reporting Requirements I JULY 24, 2013




      Reporting Requirements
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
      data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

      #     EESA        EESA Reporting        Treasury Response to SIGTARP Data Call                                                         SIGTARP Report
            Section     Requirement                                                                                                          Section
      1     Section     A description of      Treasury’s authority to make new financial commitments under TARP ended on October 3,          Section 2: “TARP
            121(c)(A)   the categories of     2010.                                                                                          Overview”
                        troubled assets       Accordingly, the Secretary of the Treasury has not purchased or otherwise procured any
                        purchased or                                                                                                         Appendix D:
                                              troubled assets under TARP since that date.
                        otherwise procured                                                                                                   “Transaction
                        by the Treasury       Below are program descriptions from Treasury’s website, www.treasury.gov/initiatives/          Detail”
                        Secretary.            financial-stability/Pages/default.aspx, as of 7/11/2013 or as otherwise noted:
                                              CPP: The Capital Purchase Program (CPP) was launched to stabilize the financial system
                                              by providing capital to viable financial institutions of all sizes throughout the nation.
                                              Without a viable banking system, lending to businesses and consumers could have frozen
                                              and the financial crisis might have spiraled further out of control. 
                                              AIG (otherwise known as Systemically Significant Failing Institutions (“SSFI”): At the
                                              height of the financial crisis in September 2008, American International Group (AIG)
                                              was on the brink of failure. At the time, AIG was the largest provider of conventional
                                              insurance in the world. Millions depended on it for their life savings and it had a huge
                                              presence in many critical financial markets, including municipal bonds. AIG’s failure
                                              would have been devastating to global financial markets and the stability of the broader
                                              economy. Therefore, the Federal Reserve and Treasury acted to prevent AIG’s disorderly
                                              failure.a
                                              AGP: Under the Asset Guarantee Program (AGP), the government supported institutions
                                              whose failure would have caused serious harm to the financial system and the broader
                                              economy. It involved supporting the value of certain assets held by qualifying financial
                                              institutions by agreeing to absorb a portion of losses on those assets.  AGP was
                                              conducted jointly by Treasury, the Federal Reserve, and the FDIC and was used in
                                              conjunction with other forms of exceptional assistance. … Two institutions received
                                              assistance under the AGP - Bank of America and Citigroup.
                                              TIP: The Targeted Investment Program (TIP) was created to help stabilize institutions
                                              considered systemically significant, to prevent broader disruption of financial markets.
                                              Under the TIP, Treasury purchased $20 billion in preferred stock from two institutions,
                                              Citigroup Inc. and Bank of America.  
                                              TALF: The Term Asset-Backed Securities Loan Facility (TALF) is a joint program with the
                                              Federal Reserve. The program was launched in March 2009 with the aim of helping to
                                              restart the asset-backed securitization (ABS) markets that provide credit to consumers
                                              and small businesses. … Under this program, the Federal Reserve Bank of New York
                                              made non‐recourse loans to buyers of AAA‐rated asset‐backed securities to help stimulate
                                              consumer and business lending. Treasury used TARP funds to provide credit support for
                                              these loans. 
                                              PPIP: On March 23, 2009, Treasury announced the Legacy Securities Public-Private
                                              Investment Program (PPIP), which was designed to support market functioning and
                                              facilitate price discovery in the markets for legacy Commercial Mortgage-Backed
                                              Securities (CMBS) and non-agency Residential Mortgage-Backed Securities (RMBS).
                                              CDCI: Treasury created the Community Development Capital Initiative (CDCI) on February
                                              3, 2010 to help viable certified Community Development Financial Institutions (CDFIs)
                                              and the communities they serve cope with effects of the financial crisis. Under this
                                              program, CDFI banks, thrifts, and credit unions received investments of capital. Eighty-four
                                              institutions received investments totaling approximately $570 million.
                                                                                           Reporting Requirements I Appendix C I JULY 24, 2013            255




#   EESA        EESA Reporting          Treasury Response to SIGTARP Data Call                                                        SIGTARP Report
    Section     Requirement                                                                                                           Section
                                        SBLF: Established by the Small Business Jobs Act of 2010 (the Act), the Small Business
                                        Lending Fund (SBLF) is a dedicated fund designed to provide capital to qualified
                                        community banks and community development loan funds (CDLFs) in order to encourage
                                        small business lending.  The purpose of the SBLF is to encourage Main Street banks and
                                        small businesses to work together, help create jobs, and promote economic growth in
                                        communities across the nation.
                                        SBA 7(a) Securities Purchase Program (formerly known as UCSB): Treasury launched the
                                        SBA 7(a) Securities Purchase Program to help unlock credit for small businesses. Under
                                        this program, Treasury purchased securities backed by the government guaranteed
                                        portion of SBA 7(a) small business loans and provided additional liquidity to the market in
                                        order to increase overall small business lending.
                                        AIFP: The Automotive Industry Financing Program (AIFP) was launched in December
                                        2008 to prevent the uncontrolled liquidation of Chrysler and General Motors (GM) and the
                                        collapse of the U.S. auto industry.
                                        ASSP: [The Automotive Supplier Support Program was created to] ensure that auto
                                        suppliers received compensation for their services and products, regardless of the
                                        condition of the auto companies that purchase their products.b
                                        AWCP: Treasury provided loans to protect warranties on new vehicles purchased from GM
                                        and Chrysler during their restructuring periods.b
                                        HAMP (a program under MHA): The Home Affordable Modification Program’s goal is to
                                        offer homeowners who are at risk of foreclosure reduced monthly mortgage payments
                                        that are affordable and sustainable over the long-term. HAMP was designed to help
                                        families who are struggling to remain in their homes and show: documented financial
                                        hardship and an ability to make their monthly mortgage payments after a modification.
                                        HAMP is a voluntary program that supports servicers’ efforts to modify mortgages,
                                        while protecting taxpayers’ interests. To protect taxpayers, MHA housing initiatives have
                                        pay‐for‐success incentives. This means that funds are spent only when transactions are
                                        completed and only as long as those contracts remain in place. Therefore, funds will be
                                        disbursed over many years.
2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
    121(c)(B)   troubled assets         2010.                                                                                         “Transaction
                purchased in each                                                                                                     Detail”
                such category           Information on all transactions as well as additional information about these programs and
                described under         related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                Section 121(c)(A).      to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                                        default.aspx.
3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on October 3,         Section 2: “TARP
    121(c)(C)   of the reasons          2010.                                                                                         Overview”
                the Treasury
                Secretary deemed                                                                                                      Appendix C:
                it necessary to                                                                                                       “Reporting
                purchase each such                                                                                                    Requirements”
                troubled asset.                                                                                                       of prior SIGTARP
                                                                                                                                      Quarterly Reports
                                                                                                                                      to Congress
4   Section     A listing of each       Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
    121(c)(D)   financial institution   2010.                                                                                         “Transaction
                from which such                                                                                                       Detail”
                troubled assets         Information on all transactions as well as additional information about these programs and
                were purchased.         related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                                        to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                                        default.aspx.
256               Appendix C I Reporting Requirements I JULY 24, 2013




      #       EESA               EESA Reporting                 Treasury Response to SIGTARP Data Call                                                                        SIGTARP Report
              Section            Requirement                                                                                                                                  Section
      5       Section            A listing of                   There have been no new PPIP fund managers hired between March 31, 2013 and June                               Section 2:
              121(c)(E)          and detailed                   30, 2013.                                                                                                     “Public-Private
                                 biographical                                                                                                                                 Investment
                                 information on each                                                                                                                          Program”
                                 person or entity
                                 hired to manage                                                                                                                              Appendix C:
                                 such troubled                                                                                                                                “Reporting
                                 assets.                                                                                                                                      Requirements”
                                                                                                                                                                              of prior SIGTARP
                                                                                                                                                                              Quarterly Reports
                                                                                                                                                                              to Congress
      6       Section            A current estimate             Treasury will publish its most recent valuation of TARP investments on July 10, 2013, in                      Table C.1;
              121(c)(F)          of the total amount            its June 2013 Monthly Report to Congress, which will be available on Treasury’s public                        Section 2:
                                 of troubled assets             website at the following link: www.treasury.gov/initiatives/financial-stability/reports/                      “TARP Overview”
                                 purchased pursuant             Pages/Monthly-Report-to-Congress.aspx.
                                 to any program                                                                                                                               Appendix D:
                                 established under                                                                                                                            “Transaction
                                 Section 101, the                                                                                                                             Detail”
                                 amount of troubled
                                 assets on the books
                                 of Treasury, the
                                 amount of troubled
                                 assets sold, and
                                 the profit and loss
                                 incurred on each
                                 sale or disposition
                                 of each such
                                 troubled assets.
      7       Section            A listing of the               Treasury’s authority to make new financial commitments under TARP ended on October 3,                         Section 2:
              121(c)(G)          insurance contracts            2010. As such, Treasury cannot issue any new insurance contracts after this date.                             “TARP Overview”
                                 issued under
                                 Section 102.                                                                                                                                 Section 2:
                                                                                                                                                                              “Targeted
                                                                                                                                                                              Investment
                                                                                                                                                                              Program and
                                                                                                                                                                              Asset Guarantee
                                                                                                                                                                              Program”
      8       Section            A detailed                     Treasury’s authority to make new financial commitments under TARP ended on October 3,                         Table C.1;
              121(f)             statement of                   2010.
                                 all purchases,                                                                                                                               Section 2:
                                 obligations,                                                                                                                                 “TARP Overview”
                                                                Treasury provides information about TARP obligations, expenditures, and revenues in
                                 expenditures,
                                                                TARP Transactions Reports available on Treasury’s public website at www.treasury.gov/
                                 and revenues                                                                                                                                 Section 4:
                                                                initiatives/financial-stability/Pages/default.aspx.
                                 associated with                                                                                                                              “TARP
                                 any program                                                                                                                                  Operations and
                                 established by the             Information on obligations and expenditures is also available in the Daily TARP Update                        Administration”
                                 Secretary of the               reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-
                                 Treasury under                 stability/reports/Pages/Daily-TARP-Reports.aspx, accessed 7/2/2013.                                           Appendix D:
                                 Sections 101 and                                                                                                                             “Transaction
                                 102.                                                                                                                                         Detail”
      Notes:
      a
        Otherwise known as Systemically Significant Failing Institutions (“SSFI”).
      b
        Description is as of 7/13/2012.

      Sources: Program Descriptions: Treasury, “TARP Programs,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx#, accessed 7/2/2013; ASSP: “Treasury Announces Auto
      Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 7/2/2013; AWCP: “Obama Administration’s New Warrantee Commitment Program,”
      no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 7/2/2013; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently Asked
      Questions,” 3/3/2009, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 7/2/2013; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010, www.gpo.
      gov/fdsys/pkg/PLAW-111publ240/html/PLAW-111publ240.htm, accessed 7/11/2013; MHA “Making Home Affordable Updated Detailed Description Update,” 11/23/2012, www.treasury.gov/initiatives/
      financial-stability/TARP-Programs/housing/mha/Pages/default.aspx, accessed 7/2/2013.
                                                                                                                                   Reporting Requirements I Appendix C I JULY 24, 2013                                     257




Table C.1
 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                                       ($ BILLIONS)
 (NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE)

                                                                                                                   Obligations
                                                                                                                   After Dodd-                     Current
                                                                                                                         Frank                  Obligations
                                                                                                                         (As of                      (As of                                         On Treasury’s
                                                                                   Total Funding                  10/3/2010)                   6/30/2013)                        Expended                 Booksa
 Housing Support Programs                                                                  $70.6b                            $45.6                       $38.5c                          $8.6                     $—d
                                                                                            204.9
 Capital Purchase Program (“CPP”)                                                                                            204.9                       204.9                         204.9                      8.9
                                                                                           (193.8)e
                                                                                               0.6
 Community Development Capital Initiative (“CDCI”)                                                                               0.6                         0.6f                          0.2                    0.5
                                                                                              (0.1)
                                                                                             69.8
 Systemically Significant Failing Institutions (“SSFI”)                                                                        69.8                        67.8h                         67.8                    13.5
                                                                                            (56.4)g
                                                                                             40.0
 Targeted Investment Program (“TIP”)                                                                                           40.0                        40.0                          40.0                     0.0
                                                                                            (40.0)
                                                                                            301.0
 Asset Guarantee Program (“AGP”)                                                                                                 5.0                         5.0                           0.0                    0.0
                                                                                           (301.0)
                                                                                             71.1
 Term Asset-Backed Securities Loan Facility (“TALF”)                                                                             4.3                         0.1                           0.1                    0.0
                                                                                              (0.1)i
                                                                                             29.8
 Public-Private Investment Program (“PPIP”)                                                                                    22.4                        19.6                          18.6                     0.0k
                                                                                            (18.6)j
                                                                                               0.4l
 Unlocking Credit for Small Businesses (“UCSB”)                                                                                  0.4                         0.4                           0.4                    0.0
                                                                                              (0.4)
                                                                                             81.8n
 Automotive Industry Support Programs (“AIFP”)m                                                                                81.8                        79.7                          79.7                    34.8
                                                                                            (47.0)
 Total                                                                                   $868.9                           $474.8                      $456.6                        $420.3o                   $57.6
 Notes: Numbers may not total due to rounding.
 a
       “On Treasury’s Books” includes amounts disbursed and still outstanding, plus write-offs and realized losses totaling $29.1 billion. It does not include $8.6 billion in TARP dollars spent on housing
        programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
 b
           Program was initially announced as a $75 billion initiative funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25 billion
            estimated to be spent by the GSE’s, the total program amount is $70.6 billion.
 c
        On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
 d
          Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 e
         Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $351.9 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include
          $2.2 billion refinanced from CPP into the Small Business Lending Fund.
 f
     CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
     was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants.
     Of the total obligation, only $106 million went to non-CPP institutions.
 g
            The $56.4 billion in reduced exposure and repayments for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
             received from the AIG credit facility trust in the January 2011 recapitalization.
 h
      Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 i
   On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to
    $0.1 billion.
 j
    On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
     $958 million is included in this repayment total.
 k
     PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6
      billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of
      $19.6 billion results because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn
      equity was not as of June 30, 2013, except for Invesco.
 l
     Treasury reduced commitment from $15 billion to an obligation of $400 million.
 m
             Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 n
       Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 o
            The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Repayments data: Treasury, Transactions Report, 6/28/2013; Treasury, Daily TARP Update, 7/1/2013.
Transaction Detail
Table D.1                                                                                                                                                                                                                                                                          258

CPP TRANSACTIONS DETAIL, AS OF 6/30/2013
                                                                                                                                    Capital                                           Final                                            Stock        Current
                                                                                                                                    Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                             Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
12/23/2008      1st Constitution Bancorp, Cranbury, NJ                  Preferred Stock w/ Warrants                   $12,000,000   10/27/2010        $12,000,000              $—     11/18/2011      P             $326,576           $9.50                        $1,106,667
2/13/2009       1st Enterprise Bank, Los Angeles, CA2,49                Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011            $4,400,000             $—     9/1/2011        R             $220,000         $17.50                         $1,128,156
12/11/2009      1st Enterprise Bank, Los Angeles, CA2,10a,49            Preferred Stock                                $6,000,000   9/1/2011            $6,000,000             $—     N/A                                 N/A
11/14/2008      1st FS Corporation, Hendersonville, NC                  Preferred Stock w/ Warrants                   $16,369,000                                                                                                                                   $1,229,949
1/23/2009       1st Source Corporation, South Bend, IN                  Preferred Stock w/ Warrants                 $111,000,000    12/29/2010       $111,000,000              $—     3/9/2011        R           $3,750,000         $23.76                        $10,730,000
3/13/2009       1st United Bancorp, Inc., Boca Raton, FL2               Preferred Stock w/ Exercised Warrants         $10,000,000   11/18/2009        $10,000,000              $—     11/18/2009      R             $500,000           $6.72                          $370,903
1/23/2009       AB&T Financial Corporation, Gastonia, NC                Preferred Stock w/ Warrants                    $3,500,000                                                                                                      $0.76                          $360,694
1/30/2009       Adbanc, Inc, Ogallala, NE2,49                           Preferred Stock w/ Exercised Warrants         $12,720,000   7/21/2011         $12,720,000              $—     7/21/2011       R             $636,000                                        $1,715,769
1/23/2009       Alarion Financial Services, Inc., Ocala, FL2            Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                                     $998,057
2/6/2009        Alaska Pacific Bancshares, Inc., Juneau, AK161          Preferred Stock w/ Warrants                    $4,781,000   11/29/2012          $4,217,568             $—                                                    $11.40                           $913,405
6/26/2009       Alliance Bancshares, Inc., Dalton, GA2,230              Preferred Stock w/ Exercised Warrants          $2,986,000   3/28/2013           $2,831,437             $—     3/28/2013       P             $138,900                                          $611,060
12/19/2008      Alliance Financial Corporation, Syracuse, NY            Preferred Stock w/ Warrants                   $26,918,000   5/13/2009         $26,918,000              $—     6/17/2009       R             $900,000                                          $538,360
                                                                        Subordinated Debentures
6/26/2009       Alliance Financial Services Inc., Saint Paul, MN8,195                                                 $12,000,000   2/7/2013            $8,912,495             $—     2/7/2013        P             $504,900                                          $388,742
                                                                        w/ Exercised Warrants
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 24, 2013




4/24/2009       Allied First Bancorp, Inc., Oswego, IL2                 Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                      $0.51                          $409,753
                Alpine Banks of Colorado,
3/27/2009                                                               Preferred Stock w/ Exercised Warrants         $70,000,000   9/12/2012         $56,430,297              $—     9/12/2012       P           $3,291,750                                       $13,407,114
                Glenwood Springs, CO2,128
1/30/2009       AMB Financial Corp., Munster, IN2,50                    Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011           $3,674,000             $—     9/22/2011       R             $184,000           $7.00                          $529,576
3/6/2009        AmeriBank Holding Company, Collinsville, OK2,49         Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011           $2,492,000             $—     9/15/2011       R             $125,000                                          $343,021
1/9/2009        American Express Company, New York, NY                  Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009       $3,388,890,000             $—     7/29/2009       R        $340,000,000          $74.76                        $74,367,308
5/29/2009       American Premier Bancorp, Arcadia, CA2                  Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011           $1,800,000             $—     1/26/2011       R              $90,000                                          $162,682
1/9/2009        American State Bancshares, Inc., Great Bend, KS2        Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011           $6,000,000             $—     11/2/2011       R             $300,000                                          $920,142
11/21/2008      Ameris Bancorp, Moultrie, GA85                          Preferred Stock w/ Warrants                   $52,000,000   6/13/2012         $47,665,332              $—     8/22/2012       R           $2,670,000         $16.85                         $9,302,107
12/19/2008      AmeriServ Financial, Inc, Johnstown, PA50               Preferred Stock w/ Warrants                   $21,000,000   8/11/2011         $21,000,000              $—     11/2/2011       R             $825,000           $2.74                        $2,776,667
                                                                        Subordinated Debentures
8/21/2009       AmFirst Financial Services, Inc., McCook, NE8,231                                                      $5,000,000   3/28/2013           $4,752,000             $—     3/28/2013       P             $259,875                                        $1,511,380
                                                                        w/ Exercised Warrants
1/30/2009       Anchor BanCorp Wisconsin Inc., Madison, WI              Preferred Stock w/ Warrants                 $110,000,000                                                                                                       $0.56     7,399,103
                                                                                                                                    4/6/2011         $262,500,000     $262,500,000
11/21/2008      Associated Banc-Corp, Green Bay, WI                     Preferred Stock w/ Warrants                 $525,000,000                                                      11/30/2011      A           $3,435,006         $15.55                        $68,104,167
                                                                                                                                    9/14/2011        $262,500,000              $—
12/29/2009      Atlantic Bancshares, Inc., Bluffton, SC2,10             Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                      $1.50                          $122,725
2/27/2009       Avenue Financial Holdings, Inc., Nashville, TN2,49      Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011           $7,400,000             $—     9/15/2011       R             $370,000                                        $1,028,415
3/13/2009       BancIndependent, Inc., Sheffield, AL2,49                Preferred Stock w/ Exercised Warrants         $21,100,000   7/14/2011         $21,100,000              $—     7/14/2011       R           $1,055,000                                        $2,686,411
7/10/2009       Bancorp Financial, Inc., Oak Brook, IL2,10,49           Preferred Stock w/ Exercised Warrants         $13,669,000   8/18/2011         $13,669,000              $—     8/18/2011       R             $410,000                                        $1,516,737
12/19/2008      Bancorp Rhode Island, Inc., Providence, RI              Preferred Stock w/ Warrants                   $30,000,000   8/5/2009          $30,000,000              $—     9/30/2009       R           $1,400,000                                          $941,667
2/20/2009       BancPlus Corporation, Ridgeland, MS2,30                 Preferred Stock w/ Exercised Warrants         $48,000,000   9/29/2010         $48,000,000              $—     9/29/2010       R           $2,400,000                                        $4,207,399
4/3/2009        BancStar, Inc., Festus, MO2,242                         Preferred Stock w/ Exercised Warrants          $8,600,000   4/29/2013           $8,366,452             $—     4/29/2013       P             $426,339                                        $1,908,670
12/19/2008      BancTrust Financial Group, Inc., Mobile, AL206          Preferred Stock w/ Warrants                   $50,000,000   2/15/2013         $50,000,000              $—     2/15/2013       R              $15,000                       730,994         $10,436,156
8/14/2009       Bank Financial Services, Inc., Eden Prairie, MN2,187    Preferred Stock w/ Exercised Warrants          $1,004,000   12/20/2012           $907,937              $—     12/20/2012      P              $23,500                                          $183,244
10/28/2008      Bank of America Corporation, Charlotte, NC1b            Preferred Stock w/ Warrants               $15,000,000,000   12/9/2009      $15,000,000,000             $—     3/3/2010        A        $183,547,824          $12.86                      $835,416,667
1/9/2009        Bank of America Corporation, Charlotte, NC1a,1b         Preferred Stock w/ Warrants               $10,000,000,000   12/9/2009      $10,000,000,000             $—     3/3/2010        A        $122,365,216                                      $458,333,333
1/16/2009       Bank of Commerce, Charlotte, NC2,162                    Preferred Stock w/ Exercised Warrants          $3,000,000   11/30/2012          $2,477,000             $—     11/30/2012      P             $100,100                                          $510,473
11/14/2008      Bank of Commerce Holdings, Redding, CA49                Preferred Stock w/ Warrants                   $17,000,000   9/27/2011         $17,000,000              $—     10/26/2011      R             $125,000           $5.04                        $2,439,028
3/13/2009       Bank of George, Las Vegas, NV2                          Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                                     $279,991
12/5/2008       Bank of Marin Bancorp, Novato, CA                       Preferred Stock w/ Warrants                   $28,000,000   3/31/2009         $28,000,000              $—     11/18/2011      P           $1,703,984         $40.00                           $451,111
4/10/2009       Bank of Southern California, N.A.2,188                  Preferred Stock w/ Exercised Warrants          $2,211,000   12/20/2012          $2,017,453             $—     12/20/2012                     $90,462
                                                                                                                                                                                                      P                                $5.65                          $752,663
12/11/2009      Bank of Southern California, N.A.2,10a,188              Preferred Stock                                $2,032,000   12/20/2012          $1,832,697             $—     N/A                                 N/A
4/17/2009       Bank of the Carolinas Corporation, Mocksville, NC       Preferred Stock w/ Warrants                   $13,179,000                                                                                                      $0.57       475,204          $1,039,677
12/12/2008      Bank of the Ozarks, Inc., Little Rock, AR               Preferred Stock w/ Warrants                   $75,000,000   11/4/2009         $75,000,000              $—     11/24/2009      R           $2,650,000         $43.33                         $3,354,167
                                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                             (continued)
                                                                                                                                       Capital                                           Final                                            Stock        Current
                                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                                Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
                Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                                  Preferred Stock w/ Exercised Warrants         $12,639,000                                                                                                                                   $3,081,443
                Denver, CO2
1/23/2009       BankFirst Capital Corporation, Macon, MS2,49               Preferred Stock w/ Exercised Warrants         $15,500,000   9/8/2011          $15,500,000              $—     9/8/2011        R             $775,000                                        $2,217,469
2/13/2009       BankGreenville, Greenville, SC2,147                        Preferred Stock w/ Exercised Warrants          $1,000,000   11/9/2012            $891,000              $—     11/9/2012       P              $46,412                                          $203,773
11/21/2008      Banner Corporation, Walla Walla, WA74                      Preferred Stock w/ Warrants                 $124,000,000    3/28/2012        $108,071,915              $—     6/12/2013       P             $134,201         $33.79                        $20,873,747
2/6/2009        Banner County Ban Corporation, Harrisburg, NE2,49          Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011            $795,000              $—     7/28/2011       R              $40,000                                          $107,411
1/16/2009       Bar Harbor Bankshares, Bar Harbor, ME                      Preferred Stock w/ Warrants                   $18,751,000   2/24/2010         $18,751,000              $—     7/28/2010       R             $250,000         $36.55                         $1,036,514
11/14/2008      BB&T Corp., Winston-Salem, NC                              Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             $—     7/22/2009       R          $67,010,402         $33.88                        $92,703,517
                BBCN Bancorp, Inc. (Center Financial Corporation),
12/12/2008                                                                 Preferred Stock w/ Warrants                   $55,000,000   6/27/2012         $55,000,000              $—                                                                                   $9,739,583
                Los Angeles, CA66
                                                                                                                                                                                         8/8/2012        R           $2,189,317         $14.22
                BBCN Bancorp, Inc. (Nara Bancorp, Inc.),
11/21/2008                                                                 Preferred Stock w/ Warrants                   $67,000,000   6/27/2012         $67,000,000              $—                                                                                  $12,060,000
                Los Angeles, CA66
4/3/2009        BCB Holding Company, Inc., Theodore, AL2                   Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                                     $173,508
12/23/2008      BCSB Bancorp, Inc., Baltimore, MD                          Preferred Stock w/ Warrants                   $10,800,000   1/26/2011         $10,800,000              $—     4/19/2013       R           $1,442,000         $23.41                         $1,129,500
                                                                                                                                       7/6/2011            $1,500,000      $4,500,000
                                                                                                                                       10/19/2011          $1,500,000      $3,000,000
1/30/2009       Beach Business Bank, Manhattan Beach, CA2                  Preferred Stock w/ Exercised Warrants          $6,000,000   3/7/2012            $1,500,000      $1,500,000    6/27/2012       R             $300,000           $9.18                          $963,317
                                                                                                                                       6/6/2012            $1,200,000        $300,000
                                                                                                                                       6/27/2012            $300,000              $—
12/19/2008      Berkshire Hills Bancorp, Inc., Pittsfield, MA              Preferred Stock w/ Warrants                   $40,000,000   5/27/2009         $40,000,000              $—     6/24/2009       R           $1,040,000         $27.76                           $877,778
2/13/2009       Bern Bancshares, Inc., Bern, KS2,49                        Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              $—     9/1/2011        R              $50,000           $7.95                          $137,063
                Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                                  Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             $—     7/28/2011       R              $82,000
                Birmingham, MI2,49
                                                                                                                                                                                                                                          $4.30                          $342,023
                Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                                 Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             $—     N/A                                 N/A
                Birmingham, MI2,10a,49
                Biscayne Bancshares, Inc., Coconut Grove,                  Subordinated Debentures
6/19/2009                                                                                                                 $6,400,000   2/8/2013            $6,170,630             $—     2/8/2013        P             $204,507                                        $1,896,838
                FL8,10,196                                                 w/ Exercised Warrants
3/13/2009       Blackhawk Bancorp, Inc., Beloit, WI2,136                   Preferred Stock w/ Exercised Warrants         $10,000,000   10/31/2012          $9,009,000             $—     10/31/2012      R             $470,250           $8.30                        $1,980,211
                                                                                                                                       6/27/2012           $2,250,000      $2,750,000
                                                      2
5/22/2009       Blackridge Financial, Inc., Fargo, ND                      Preferred Stock w/ Exercised Warrants          $5,000,000                                                     9/12/2012       R             $250,000                                          $877,326
                                                                                                                                       9/12/2012           $2,750,000             $—
                                                                   2,134
3/6/2009        Blue Ridge Bancshares, Inc., Independence, MO              Preferred Stock w/ Exercised Warrants         $12,000,000   10/31/2012          $8,969,400             $—     10/31/2012      R             $541,793                                        $2,427,244
3/6/2009        Blue River Bancshares, Inc., Shelbyville, IN2,71           Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                      $0.01                          $529,105
12/5/2008       Blue Valley Ban Corp, Overland Park, KS                    Preferred Stock w/ Warrants                   $21,750,000                                                                                                      $7.70       111,083            $211,458
4/17/2009       BNB Financial Services Corporation, New York, NY2 Preferred Stock w/ Exercised Warrants                   $7,500,000                                                                                                                                     $440,542
12/5/2008       BNC Bancorp, Thomasville, NC120                            Preferred Stock w/ Warrants                   $31,260,000   8/23/2012         $28,365,685              $—     9/19/2012       R             $939,920         $11.42                         $5,835,061
2/27/2009       BNC Financial Group, Inc., New Canaan, CT2,49              Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             $—     8/4/2011        R             $240,000         $20.00                           $636,921
1/16/2009       BNCCORP, Inc., Bismarck, ND2                               Preferred Stock w/ Exercised Warrants         $20,093,000                                                                                                    $11.70                         $5,042,009
3/6/2009        BOH Holdings, Inc., Houston, TX2,49                        Preferred Stock w/ Exercised Warrants         $10,000,000   7/14/2011         $10,000,000              $—     7/14/2011       R             $500,000                                        $1,283,777
                                                                           Subordinated Debentures
5/15/2009       Boscobel Bancorp, Inc, Boscobel, WI8,216                                                                  $5,586,000   3/11/2013           $6,116,943             $—     3/11/2013       P             $361,890                                          $468,624
                                                                           w/ Exercised Warrants

                Boston Private Financial Holdings, Inc.,                                                                               1/13/2010         $50,000,000     $104,000,000
11/21/2008                                                                 Preferred Stock w/ Warrants                 $154,000,000                                                      2/1/2011        A           $6,202,523         $10.64                        $11,022,222
                Boston, MA                                                                                                             6/16/2010        $104,000,000              $—
                                                                                                                                       2/23/2011         $15,000,000       $8,864,000
12/23/2008      Bridge Capital Holdings, San Jose, CA                      Preferred Stock w/ Warrants                   $23,864,000                                                     4/20/2011       R           $1,395,000         $15.86                         $2,613,582
                                                                                                                                       3/16/2011           $8,864,000             $—
12/19/2008      Bridgeview Bancorp, Inc., Bridgeview, IL2                  Preferred Stock w/ Exercised Warrants         $38,000,000                                                                                                                                   $2,393,156
                Broadway Financial Corporation,
11/14/2008                                                                 Preferred Stock                                $9,000,000                                                                                                      $0.71                          $810,417
                Los Angeles, CA3a,72
                Broadway Financial Corporation,
12/4/2009                                                                  Preferred Stock                                $6,000,000
                Los Angeles, CA3,10a,72
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I July 24, 2013




                                                                           Subordinated Debentures w/ Exercised
5/15/2009       Brogan Bankshares, Inc., Kaukauna, WI8,243                                                                $2,400,000   4/29/2013           $2,495,024             $—     4/29/2013       P             $125,136                                          $402,720
                                                                           Warrants
                                                                2,49
7/17/2009       Brotherhood Bancshares, Inc., Kansas City, KS              Preferred Stock w/ Exercised Warrants         $11,000,000   9/15/2011         $11,000,000              $—     9/15/2011       R             $550,000                                        $1,295,586
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      259
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                             (continued)                                                                                                                                                                      260
                                                                                                                                       Capital                                           Final                                            Stock        Current
                                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                                Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
                                                                                                                                       5/23/2012           $6,000,000      $9,000,000
4/24/2009       Business Bancshares, Inc., Clayton, MO2                    Preferred Stock w/ Exercised Warrants         $15,000,000   1/9/2013            $2,500,000      $6,500,000    4/24/2013       R             $750,000                                        $2,957,709
                                                                                                                                       4/24/2013           $6,500,000             $—
3/13/2009       Butler Point, Inc., Catlin, IL2                            Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011            $607,000              $—     11/2/2011       R              $30,000                                           $87,124
                                                                                                                                       7/27/2011         $10,000,000      $10,000,000
1/9/2009        C&F Financial Corporation, West Point, VA                  Preferred Stock w/ Warrants                   $20,000,000                                                                                                    $55.73        167,504          $2,902,778
                                                                                                                                       4/11/2012         $10,000,000              $—
                                                               2,49
12/23/2008      Cache Valley Banking Company , Logan, UT                   Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             $—     7/14/2011       R             $238,000
                                                                                                                                                                                                                                                                       $1,029,334
12/18/2009      Cache Valley Banking Company, Logan, UT2,10a,49            Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             $—     N/A                                 N/A
                                                                 33
1/9/2009        Cadence Financial Corporation, Starkville, MS              Preferred Stock w/ Warrants                   $44,000,000   3/4/2011          $38,000,000              $—     N/A                                 N/A                                       $3,984,063
2/27/2009       California Bank of Commerce, Lafayette, CA2,49             Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $200,000                                          $555,900
1/23/2009       California Oaks State Bank, Thousand Oaks, CA2             Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             $—     12/8/2010       R             $165,000                                          $337,219
1/23/2009       Calvert Financial Corporation, Ashland, MO2                Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                                     $215,443
1/23/2009       CalWest Bancorp, Rancho Santa Margarita, CA2               Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                      $0.42                          $396,164
12/23/2008      Capital Bancorp, Inc., Rockville, MD2                      Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010          $4,700,000             $—     12/30/2010      R             $235,000                                          $517,281
12/12/2008      Capital Bank Corporation, Raleigh, NC35                    Preferred Stock w/ Warrants                   $41,279,000   1/28/2011         $41,279,000              $—     N/A                                 N/A                      749,619          $3,973,104
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I July 24, 2013




4/10/2009       Capital Commerce Bancorp, Inc., Milwaukee, WI2             Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                                     $304,973
11/14/2008      Capital One Financial Corporation, McLean, VA              Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009       $3,555,199,000             $—     12/3/2009       A        $146,500,065          $62.81                      $105,174,638
12/23/2008      Capital Pacific Bancorp, Portland, OR2,148                 Preferred Stock w/ Exercised Warrants          $4,000,000   11/9/2012           $3,728,440             $—     11/9/2012       P             $192,102                                          $845,369
                                                                           Subordinated Debentures
10/23/2009      Cardinal Bancorp II, Inc., Washington, MO8,50                                                             $6,251,000   9/8/2011            $6,251,000             $—     9/8/2011        R             $313,000                                          $983,480
                                                                           w/ Exercised Warrants
1/9/2009        Carolina Bank Holdings, Inc., Greensboro, NC209            Preferred Stock w/ Warrants                   $16,000,000   2/20/2013         $14,811,984              $—     4/19/2013       R           $1,800,000         $12.24                         $3,329,805
2/6/2009        Carolina Trust Bank, Lincolnton, NC163                     Preferred Stock w/ Warrants                    $4,000,000   11/30/2012          $3,362,000             $—     6/12/2013       P              $19,132           $2.46                          $613,320
2/13/2009       Carrollton Bancorp, Baltimore, MD                          Preferred Stock w/ Warrants                    $9,201,000   4/19/2013           $9,201,000             $—     4/19/2013       R             $213,594           $4.85                        $1,974,364
1/16/2009       Carver Bancorp, Inc, New York, NY3,30                      Preferred Stock                               $18,980,000   8/27/2010         $18,980,000              $—     N/A                                 N/A          $5.44                        $1,531,581
11/21/2008      Cascade Financial Corporation, Everett, WA47               Preferred Stock w/ Warrants                   $38,970,000   6/30/2011         $16,250,000              $—     N/A                                 N/A                                       $1,428,900
12/5/2008       Cathay General Bancorp, Los Angeles, CA                    Preferred Stock w/ Warrants                 $258,000,000    3/20/2013        $129,000,000     $129,000,000                                                   $20.35      1,846,374         $56,347,917
2/27/2009       Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49            Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011           $3,000,000             $—     7/21/2011       R             $150,000         $18.60                           $685,071
12/22/2009      Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49        Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011           $3,500,000             $—     7/21/2011       R             $113,000
5/29/2009       CB Holding Corp., Aledo, IL2,63                            Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                                     $271,580
2/20/2009       CBB Bancorp, Cartersville, GA2,164                         Preferred Stock w/ Exercised Warrants          $2,644,000   11/29/2012          $2,453,094             $—     11/29/2012                    $115,861
                                                                                                                                                                                                         P                                                               $799,528
12/29/2009      CBB Bancorp, Cartersville, GA2,10a,164                     Preferred Stock                                $1,753,000   11/29/2012          $1,613,658             $—     N/A                                 N/A
                                                  2,108
3/27/2009       CBS Banc-Corp., Russellville, AL                           Preferred Stock w/ Exercised Warrants         $24,300,000   7/27/2012         $21,776,396              $—     7/27/2012       P           $1,107,825                       523,076          $4,548,137
12/23/2008      Cecil Bancorp, Inc., Elkton, MD                            Preferred Stock w/ Warrants                   $11,560,000                                                                                                      $0.43       261,538            $516,989
2/6/2009        CedarStone Bank, Lebanon, TN2                              Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                                     $830,291
1/9/2009        Center Bancorp, Inc., Union, NJ49                          Preferred Stock w/ Warrants                   $10,000,000   9/15/2011         $10,000,000              $—     12/7/2011       R             $245,000         $12.69                         $1,341,667
5/1/2009        CenterBank, Milford, OH2,138                               Preferred Stock w/ Exercised Warrants          $2,250,000   10/31/2012          $1,831,250             $—     10/31/2012      R              $84,057                                          $429,355
11/21/2008      Centerstate Banks of Florida Inc., Davenport, FL           Preferred Stock w/ Warrants                   $27,875,000   9/30/2009         $27,875,000              $—     10/28/2009      R             $212,000                                        $1,196,303
1/16/2009       Centra Financial Holdings, Inc., Morgantown, WV2           Preferred Stock w/ Exercised Warrants         $15,000,000   3/31/2009         $15,000,000              $—     4/15/2009       R             $750,000           $8.68                          $172,938
12/5/2008       Central Bancorp, Inc., Garland, TX50                       Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     10/19/2011      R           $2,525,000                                        $2,411,625
2/27/2009       Central Bancorp, Inc., Somerville, MA2                     Preferred Stock w/ Exercised Warrants         $22,500,000                                                                                                                                   $1,361,111
1/30/2009       Central Bancshares, Inc., Houston, TX2                     Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011            $5,800,000             $—     7/6/2011        R             $290,000                                          $769,177
2/20/2009       Central Community Corporation, Temple, TX2,180             Preferred Stock w/ Exercised Warrants         $22,000,000   12/11/2012        $20,172,636              $—     12/11/2012      P           $1,058,726                                        $4,566,167
12/5/2008       Central Federal Corporation, Fairlawn, OH130               Preferred Stock w/ Warrants                    $7,225,000   9/26/2012           $3,000,000             $—     N/A                                 N/A                                         $612,118
12/23/2008      Central Jersey Bancorp, Oakhurst, NJ                       Preferred Stock w/ Warrants                   $11,300,000   11/24/2010        $11,300,000              $—     12/1/2010       R             $319,659           $1.31                        $1,084,486
                                                                                                                                       6/17/2011         $35,883,281      $99,116,719
1/9/2009        Central Pacific Financial Corp., Honolulu, HI37,46         Common Stock w/ Warrants                    $135,000,000                                                      6/12/2013       P             $751,888         $18.00                         $2,362,500
                                                                                                                                       3/29/2012         $36,039,222              $—
                                                                      50
1/30/2009       Central Valley Community Bancorp, Fresno, CA               Preferred Stock w/ Warrants                    $7,000,000   8/18/2011           $7,000,000             $—     9/28/2011       R             $185,017         $10.08                           $892,500
1/30/2009       Central Virginia Bankshares, Inc., Powhatan, VA            Preferred Stock w/ Warrants                   $11,385,000                                                                                                      $0.35       263,542            $450,656
12/18/2009      Centric Financial Corporation, Harrisburg, PA2,10,49       Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011           $6,056,000             $—     7/14/2011       R             $182,000                                          $501,822
2/6/2009        Centrix Bank & Trust, Bedford, NH2,49                      Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011           $7,500,000             $—     7/28/2011       R             $375,000         $23.25                         $1,012,791
                                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                         (continued)
                                                                                                                                   Capital                                           Final                                            Stock        Current
                                                                                                                                   Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                            Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
1/9/2009        Centrue Financial Corporation, St. Louis, MO           Preferred Stock w/ Warrants                   $32,668,000                                                                                                                  508,320            $571,690
                Century Financial Services Corporation,                Subordinated Debentures
6/19/2009                                                                                                            $10,000,000   12/20/2012          $9,751,500             $—     12/20/2012      P             $496,589                                        $2,938,871
                Santa Fe, NM8,193                                      w/ Exercised Warrants
                                                                       Subordinated Debentures
5/29/2009       Chambers Bancshares, Inc., Danville, AR8                                                             $19,817,000                                                                                                                                   $5,754,675
                                                                       w/ Exercised Warrants
                                                           2
7/31/2009       Chicago Shore Corporation , Chicago, IL                Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                                   $1,446,521
12/31/2008      CIT Group Inc., New York, NY16                         Contingent Value Rights                    $2,330,000,000   2/8/2010                  $—               $—     N/A                                 N/A        $46.63                        $43,687,500
10/28/2008      Citigroup Inc., New York, NY11,23                      Common Stock w/ Warrants                  $25,000,000,000   **             $25,000,000,000             $—     1/25/2011       A          $54,621,849         $47.97                      $932,291,667
1/16/2009       Citizens & Northern Corporation, Wellsboro, PA         Preferred Stock w/ Warrants                   $26,440,000   8/4/2010          $26,440,000              $—     9/1/2010        R             $400,000         $19.32                         $2,049,100
12/23/2008      Citizens Bancorp, Nevada City, CA2,61                  Preferred Stock w/ Exercised Warrants         $10,400,000                                                                                                      $0.01                          $223,571
5/29/2009       Citizens Bancshares Co., Chillicothe, MO2,197          Preferred Stock w/ Exercised Warrants         $24,990,000   2/8/2013          $12,679,301              $—     2/8/2013        P             $645,047                                          $628,033
3/6/2009        Citizens Bancshares Corporation, Atlanta, GA3,30       Preferred Stock                                $7,462,000   8/13/2010           $7,462,000             $—     N/A                                 N/A          $6.33                          $535,813
3/20/2009       Citizens Bank & Trust Company, Covington, LA2          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $379,683
                Citizens Commerce Bancshares, Inc.,
2/6/2009                                                               Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                                     $180,259
                Versailles, KY2
12/23/2008      Citizens Community Bank, South Hill, VA2,49            Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011           $3,000,000             $—     7/28/2011       R             $150,000                                          $424,646
                                                                                                                                   2/16/2011           $2,212,308      $6,566,692
12/19/2008      Citizens First Corporation, Bowling Green, KY          Preferred Stock w/ Warrants                    $8,779,000                                                     $8.95                                                        254,218          $1,643,064
                                                                                                                                   2/13/2013           $3,300,904      $3,265,788
                                                                  50
12/12/2008      Citizens South Banking Corporation, Gastonia, NC       Preferred Stock w/ Warrants                   $20,500,000   9/22/2011         $20,500,000              $—     11/9/2011       R             $225,157         $15.59                         $2,847,222
                City National Bancshares Corporation,
4/10/2009                                                              Preferred Stock                                $9,439,000                                                                                                                                     $281,859
                Newark, NJ2,3
                                                                                                                                   12/30/2009       $200,000,000     $200,000,000
11/21/2008      City National Corporation, Beverly Hills, CA           Preferred Stock w/ Warrants                 $400,000,000                                                      4/7/2010        R          $18,500,000         $63.37                        $23,916,667
                                                                                                                                   3/3/2010         $200,000,000              $—
3/27/2009       Clover Community Bankshares, Inc., Clover, SC2,165     Preferred Stock w/ Exercised Warrants          $3,000,000   11/29/2012          $2,593,700             $—     11/29/2012      P             $114,022                                          $610,864

                Coastal Banking Company, Inc.,                                                                                     3/11/2013           $9,408,213             $—     4/10/22013      R              $99,000
12/5/2008                                                              Preferred Stock w/ Warrants                    $9,950,000                                                                                                      $7.01                        $1,434,038
                Fernandina Beach, FL198,217                                                                                                                                          6/12/2013       R             $225,647
                CoastalSouth Bancshares, Inc.,
8/28/2009                                                              Preferred Stock w/ Exercised Warrants         $16,015,000   3/11/2013         $12,606,191              $—     3/11/2013       P             $415,848                                        $1,235,449
                Hilton Head Island, SC2,10,218
                                                    50
12/19/2008      CoBiz Financial Inc., Denver, CO                       Preferred Stock w/ Warrants                   $64,450,000   9/8/2011          $64,450,000              $—     11/18/2011      P             $143,677           $8.30                        $8,763,410
1/9/2009        Codorus Valley Bancorp, Inc., York, PA49               Preferred Stock w/ Warrants                   $16,500,000   8/18/2011         $16,500,000              $—     9/28/2011       R             $526,604         $17.40                         $2,151,875
2/13/2009       ColoEast Bankshares, Inc., Lamar, CO2                  Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                                                   $1,229,278
3/27/2009       Colonial American Bank, West Conshohocken, PA2         Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011           $574,000              $—     10/26/2011      R              $29,000                                           $65,143
1/9/2009        Colony Bankcorp, Inc., Fitzgerald, GA199               Preferred Stock w/ Warrants                   $28,000,000   2/7/2013          $21,680,089              $—     6/12/2013       P             $810,000           $6.81                        $3,990,000
11/21/2008      Columbia Banking System, Inc., Tacoma, WA              Preferred Stock w/ Warrants                   $76,898,000   8/11/2010         $76,898,000              $—     9/1/2010        R           $3,301,647         $23.81                         $6,621,772
2/27/2009       Columbine Capital Corp., Buena Vista, CO2,49           Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011           $2,260,000             $—     9/22/2011       R             $113,000                                          $316,479
11/14/2008      Comerica Inc., Dallas, TX                              Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010       $2,250,000,000             $—     5/6/2010        A        $181,102,043          $39.83                      $150,937,500
1/9/2009        Commerce National Bank, Newport Beach, CA              Preferred Stock w/ Warrants                    $5,000,000   10/7/2009           $5,000,000             $—                                                    $14.89         87,209             $36,111
                Commonwealth Bancshares, Inc.,                         Subordinated Debentures
5/22/2009                                                                                                            $20,400,000   7/27/2012         $15,147,000              $—     7/27/2012       P             $898,722                                        $5,529,295
                Louisville, KY8,110                                    w/ Exercised Warrants
1/23/2009       Commonwealth Business Bank, Los Angeles, CA2           Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                    $17.80                           $760,123
1/16/2009       Community 1st Bank, Roseville, CA2                     Preferred Stock w/ Exercised Warrants          $2,550,000   12/19/2012          $2,550,000             $—     12/19/2012      R             $128,000                                          $221,660
3/6/2009        Community Bancshares of Kansas, Inc., Goff, KS2        Preferred Stock w/ Exercised Warrants           $500,000    7/18/2012            $500,000              $—     7/18/2012       R              $25,000                                           $91,742
                Community Bancshares of Mississippi, Inc.,
9/11/2009                                                              Preferred Stock w/ Exercised Warrants         $52,000,000   9/29/2010         $52,000,000              $—     9/29/2010       R           $2,600,000                                        $2,975,700
                Brandon, MS2,30
                Community Bancshares of Mississippi, Inc.2,101,166
2/6/2009                                                               Preferred Stock w/ Exercised Warrants          $1,050,000   11/30/2012           $977,750              $—     11/30/2012      P              $25,000                                          $217,551
                (Community Holding Company of Florida, Inc.)
7/24/2009       Community Bancshares, Inc., Kingman, AZ2,10            Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                                     $777,119
1/16/2009       Community Bank of the Bay, Oakland, CA3,30             Preferred Stock                                $1,747,000   9/29/2010           $1,747,000             $—     N/A                                 N/A                                          $76,189
                Community Bank Shares of Indiana, Inc.,
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 24, 2013




5/29/2009                                                              Preferred Stock w/ Warrants                   $19,468,000   9/15/2011         $19,468,000              $—     10/19/2011      R           $1,100,870         $18.60                         $2,233,412
                New Albany, IN49
                Community Bankers Trust Corporation,
12/19/2008                                                             Preferred Stock w/ Warrants                   $17,680,000                                                                                                      $3.62       780,000          $3,986,458
                Glen Allen, VA
                Community Business Bank,
2/27/2009                                                              Preferred Stock w/ Exercised Warrants          $3,976,000   11/30/2012          $3,692,560             $—     11/30/2012      P             $167,035           $8.51                          $814,455
                West Sacramento, CA2,167
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  261
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                           (continued)                                                                                                                                                                      262
                                                                                                                                     Capital                                           Final                                            Stock        Current
                                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                              Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
12/19/2008      Community Financial Corporation, Staunton, VA194         Preferred Stock w/ Warrants                   $12,643,000   1/9/2013          $12,643,000              $—                                                                  351,194          $2,563,720
5/15/2009       Community Financial Shares, Inc., Glen Ellyn, IL2,158    Preferred Stock w/ Exercised Warrants          $6,970,000   12/21/2012          $3,136,500             $—     12/21/2012      P             $157,050           $1.30                          $947,194
3/20/2009       Community First Bancshares Inc., Union City, TN2,49      Preferred Stock w/ Exercised Warrants         $20,000,000   8/18/2011         $20,000,000              $—     8/18/2011       R           $1,000,000                                        $2,628,111
4/3/2009        Community First Bancshares, Inc., Harrison, AR2          Preferred Stock w/ Exercised Warrants         $12,725,000                                                                                                                                   $2,854,867
2/27/2009       Community First Inc., Columbia, TN2                      Preferred Stock w/ Exercised Warrants         $17,806,000                                                                                                                                   $1,908,453
                Community Investors Bancorp, Inc.,
12/23/2008                                                               Preferred Stock w/ Exercised Warrants          $2,600,000   12/20/2012          $2,445,000             $—     12/20/2012      P             $105,000                                          $565,616
                Bucyrus, OH2,189
1/30/2009       Community Partners Bancorp, Middletown, NJ49             Preferred Stock w/ Warrants                    $9,000,000   8/11/2011           $9,000,000             $—     10/26/2011      R             $460,000           $6.34                        $1,138,750
                Community Pride Bank Corporation,                        Subordinated Debentures
11/13/2009                                                                                                              $4,400,000                                                                                                                                     $448,253
                Ham Lake, MN8,10                                         w/ Exercised Warrants
                Community Trust Financial Corporation,
1/9/2009                                                                 Preferred Stock w/ Exercised Warrants         $24,000,000   7/6/2011          $24,000,000              $—     7/6/2011        R           $1,200,000                                        $3,259,100
                Ruston, LA2,49
12/19/2008      Community West Bancshares, Goleta, CA181                 Preferred Stock w/ Warrants                   $15,600,000   12/11/2012        $11,181,456              $—     6/12/2013       P             $698,351           $4.72                        $2,461,333
1/9/2009        Congaree Bancshares, Inc., Cayce, SC2,140                Preferred Stock w/ Exercised Warrants          $3,285,000   10/31/2012          $2,685,979             $—     10/31/2012      R             $106,364           $4.00                          $691,286
                Corning Savings and Loan Association,
2/13/2009                                                                Preferred Stock w/ Exercised Warrants           $638,000    11/30/2012           $523,680              $—     11/30/2012      P               $3,960                                          $132,065
                Corning, AR2,168
                                                          2,169
1/30/2009       Country Bank Shares, Inc., Milford, NE                   Preferred Stock w/ Exercised Warrants          $7,525,000   11/29/2012          $6,838,126             $—     11/29/2012      P             $372,240                                        $1,570,840
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I July 24, 2013




6/5/2009        Covenant Financial Corporation, Clarksdale, MS2          Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                   $1,083,489
2/20/2009       Crazy Woman Creek Bancorp, Inc., Buffalo, WY2            Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                    $10.70                           $715,691
                Crescent Financial Bancshares, Inc. (Crescent
1/9/2009                                                                 Preferred Stock w/ Warrants                   $24,900,000                                                                                                      $4.38       514,693          $5,584,780
                Financial Corporation), Cary, NC65
1/16/2009       ECB Bancorp, Inc., Engelhard, NC233                      Preferred Stock w/ Warrants                   $17,949,000                                                                                                    $14.43                         $3,776,769
1/23/2009       Crosstown Holding Company, Blaine, MN2                   Preferred Stock w/ Exercised Warrants         $10,650,000                                                                                                                                   $2,502,471
3/27/2009       CSRA Bank Corp., Wrens, GA2                              Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $180,940
                Customers Bancorp, Inc. (Berkshire Bancorp,
6/12/2009                                                                Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011          $2,892,000             $—     12/28/2011      R             $145,000                                          $407,478
                Inc.), Phoenixville, PA2,60
                                                                                                                                     8/26/2009         $97,500,000      $32,500,000
12/5/2008       CVB Financial Corp, Ontario, CA                          Preferred Stock w/ Warrants                 $130,000,000                                                      10/28/2009      R           $1,307,000         $11.76                         $4,739,583
                                                                                                                                     9/2/2009          $32,500,000              $—
2/27/2009       D.L. Evans Bancorp, Burley, ID2,49                       Preferred Stock w/ Exercised Warrants         $19,891,000   9/27/2011         $19,891,000              $—     9/27/2011       R             $995,000                                        $2,800,592

                                                                  8,49   Subordinated Debentures
5/15/2009       Deerfield Financial Corporation, Deerfield, WI                                                          $2,639,000   9/8/2011            $2,639,000             $—     9/8/2011        R             $132,000                                          $512,339
                                                                         w/ Exercised Warrants
12/4/2009       Delmar Bancorp, Delmar, MD2,200                          Preferred Stock w/ Exercised Warrants          $9,000,000   2/7/2013            $5,453,900             $—     2/7/2013        P             $311,944                                          $832,488
2/13/2009       DeSoto County Bank, Horn Lake, MS2                       Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                                       $526,869
12/29/2009      DeSoto County Bank, Horn Lake, MS2,10a                   Preferred Stock                                $1,508,000
                                                                         Subordinated Debentures
5/22/2009       Diamond Bancorp, Inc., Washington, MO8,111                                                             $20,445,000   7/27/2012         $14,780,662              $—     7/27/2012       P             $779,576                                        $5,541,380
                                                                         w/ Exercised Warrants
                Dickinson Financial Corporation II,
1/16/2009                                                                Preferred Stock w/ Exercised Warrants       $146,053,000    2/8/2013          $79,903,245              $—     2/8/2013        P           $4,925,417                                        $2,631,197
                Kansas City, MO2,201
3/13/2009       Discover Financial Services , Riverwoods, IL             Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010       $1,224,558,000             $—     7/7/2010        R        $172,000,000          $47.64                        $67,690,844
1/30/2009       DNB Financial Corporation, Downingtown, PA49             Preferred Stock w/ Warrants                   $11,750,000   8/4/2011          $11,750,000              $—     9/21/2011       R             $458,000         $17.71                         $1,475,278
                                                                         Subordinated Debentures
6/19/2009       Duke Financial Group, Inc., Minneapolis, MN8                                                           $12,000,000                                                                                                                                   $4,082,973
                                                                         w/ Exercised Warrants
                                                                                                                                     12/23/2009        $15,000,000      $23,235,000
12/5/2008       Eagle Bancorp, Inc., Bethesda, MD49                      Preferred Stock w/ Warrants                   $38,235,000                                                     11/18/2011      P           $2,794,422         $22.38                         $3,817,732
                                                                                                                                     7/14/2011         $23,235,000              $—
12/5/2008       East West Bancorp, Pasadena, CA                          Preferred Stock w/ Warrants                 $306,546,000    12/29/2010       $306,546,000              $—     1/26/2011       R          $14,500,000         $27.50                        $31,676,420
                Eastern Virginia Bankshares, Inc.,
1/9/2009                                                                 Preferred Stock w/ Warrants                   $24,000,000                                                                                                      $5.00       373,832          $2,220,000
                Tappahannock, VA
                                                          49
12/23/2008      Emclaire Financial Corp., Emlenton, PA                   Preferred Stock w/ Warrants                    $7,500,000   8/18/2011           $7,500,000             $—     12/7/2011       R              $51,113         $24.70                           $994,792
12/5/2008       Encore Bancshares Inc., Houston, TX50                    Preferred Stock w/ Warrants                   $34,000,000   9/27/2011         $34,000,000              $—     11/18/2011      P             $637,071                                        $4,778,889
12/19/2008      Enterprise Financial Services Corp., St. Louis, MO       Preferred Stock w/ Warrants                   $35,000,000   11/7/2012         $35,000,000              $—     1/9/2013        R           $1,006,100         $15.96        324,074          $6,795,833
                Enterprise Financial Services Group, Inc.,
6/12/2009                                                                Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011           $4,000,000             $—     8/25/2011       R             $200,000                                          $480,206
                Allison Park, PA2,49
                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                             (continued)
                                                                                                                                       Capital                                           Final                                            Stock        Current
                                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                                Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
1/30/2009       Equity Bancshares, Inc., Wichita, KS2,49,145               Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011                                                                                                                       $1,206,873
                Equity Bancshares, Inc. (First Community                                                                                                   $8,750,000             $—     8/11/2011       R             $438,000         $15.68
5/15/2009                                                                  Preferred Stock w/ Exercised Warrants         $14,800,000                                                                                                                                   $3,374,178
                Bancshares, Inc), Wichita, KS2,145
                                                  2,103
12/19/2008      Exchange Bank, Santa Rosa, CA                              Preferred Stock w/ Exercised Warrants         $43,000,000   7/27/2012         $37,259,393              $—     7/27/2012       P           $2,054,215                                        $7,980,919
                                                                           Subordinated Debentures
5/22/2009       F & C Bancorp, Inc., Holden, MO8,156                                                                      $2,993,000   11/13/2012          $2,844,599             $—     11/13/2012      P             $148,500                                          $872,778
                                                                           w/ Exercised Warrants
1/30/2009       F & M Bancshares, Inc., Trezevant, TN2,202                 Preferred Stock w/ Exercised Warrants          $4,609,000   2/7/2013            $4,300,543             $—     2/7/2013        P             $222,008                                        $1,584,421
11/6/2009       F & M Bancshares, Inc., Trezevant, TN2,10a,202             Preferred Stock                                $3,535,000   2/7/2013            $3,298,420             $—     N/A                                 N/A
2/6/2009        F & M Financial Corporation, Salisbury, NC2,126            Preferred Stock w/ Exercised Warrants         $17,000,000   9/12/2012         $15,988,500              $—     9/12/2012       P             $775,274                                        $3,355,971
2/13/2009       F&M Financial Corporation, Clarksville, TN2,127            Preferred Stock w/ Exercised Warrants         $17,243,000   9/12/2012         $13,443,074              $—     9/12/2012       P             $742,441                                        $3,388,249
1/9/2009        F.N.B. Corporation, Hermitage, PA                          Preferred Stock w/ Warrants                 $100,000,000    9/9/2009         $100,000,000              $—     11/18/2011      P             $690,100         $12.08        819,640          $3,333,333
                F.N.B. Corporation (Parkvale Financial
12/23/2008                                                                 Preferred Stock w/ Warrants                   $31,762,000   1/3/2012          $31,762,000              $—                                                                  342,564          $4,808,414
                Corporation), Monroeville, PA67

                F.N.B. Corporation (Annapolis Bancorp, Inc.),                                                                          4/18/2012           $4,076,000      $4,076,000
1/30/2009                                                                  Preferred Stock w/ Warrants                    $8,152,000                                                                                                                                   $1,491,136
                Annapolis, MD                                                                                                          3/6/2013            $4,076,000             $—
                Farmers & Merchants Bancshares, Inc.,
3/6/2009                                                                   Preferred Stock w/ Exercised Warrants         $11,000,000                                                                                                                                   $1,913,405
                Houston, TX2
                Farmers & Merchants Financial Corporation,
3/20/2009                                                                  Preferred Stock w/ Exercised Warrants           $442,000    6/24/2013            $400,425              $—     6/24/2013       P              ($2,835)                                         $102,609
                Argonia, KS2,245
1/23/2009       Farmers Bank , Windsor, VA2                                Preferred Stock w/ Exercised Warrants          $8,752,000   1/9/2013            $3,063,000      $5,689,000                                                                                  $2,002,884
1/9/2009        Farmers Capital Bank Corporation, Frankfort, KY87          Preferred Stock w/ Warrants                   $30,000,000   6/13/2012         $21,863,750              $—     7/18/2012       R              $75,000         $21.69                         $5,166,600
                                                                           Subordinated Debentures
6/19/2009       Farmers Enterprises, Inc., Great Bend, KS8,157                                                           $12,000,000   11/13/2012        $11,439,252              $—     11/13/2012      P             $590,323                                        $3,423,094
                                                                           w/ Exercised Warrants
3/20/2009       Farmers State Bankshares, Inc., Holton, KS2, 50            Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000              $—     7/21/2011       R              $40,000                                           $90,174

                                                          8,10,38          Subordinated Debentures
12/29/2009      FBHC Holding Company, Boulder, CO                                                                         $3,035,000   3/9/2011             $650,000              $—     N/A                                 N/A                                         $154,592
                                                                           w/ Exercised Warrants
6/26/2009       FC Holdings, Inc., Houston, TX2,210                        Preferred Stock w/ Exercised Warrants         $21,042,000   2/20/2013         $18,685,927              $—     2/20/2013       P             $994,613                                          $156,090
12/19/2008      FCB Bancorp, Inc., Louisville, KY2,50                      Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000             $—     9/22/2011       R             $465,000                                        $1,397,234
12/19/2008      FFW Corporation, Wabash, IN2,170                           Preferred Stock w/ Exercised Warrants          $7,289,000   11/30/2012          $6,515,426             $—     11/30/2012      P             $358,558                                        $1,567,852
                                                                           Subordinated Debentures w/ Exercised
5/29/2009       Fidelity Bancorp, Inc, Baton Rouge, LA8                                                                   $3,942,000   3/27/2013           $3,942,000             $—     3/27/2013       R             $197,000                                        $1,265,924
                                                                           Warrants
11/13/2009      Fidelity Federal Bancorp, Evansville, IN2,10               Preferred Stock w/ Exercised Warrants          $6,657,000
12/19/2008      Fidelity Financial Corporation, Wichita, KS2,104           Preferred Stock w/ Exercised Warrants         $36,282,000   7/27/2012         $32,013,328              $—     7/27/2012       P           $1,725,103                                        $7,228,349
12/19/2008      Fidelity Southern Corporation, Atlanta, GA92               Preferred Stock w/ Warrants                   $48,200,000   6/27/2012         $42,757,786              $—                                                    $12.37      2,575,081          $8,528,883
12/31/2008      Fifth Third Bancorp, Cincinnati, OH                        Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000             $—     3/16/2011       R        $280,025,936          $18.05                      $355,946,667
                                                                                                                                       2/23/2011         $12,505,000      $25,010,000
12/23/2008      Financial Institutions, Inc., Warsaw, NY                   Preferred Stock w/ Warrants                   $37,515,000                                                     5/11/2011       R           $2,079,963         $18.41                         $4,192,649
                                                                                                                                       3/30/2011         $25,010,000              $—
2/13/2009       Financial Security Corporation, Basin, WY2,50              Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000             $—     7/21/2011       R             $250,000                                          $664,597
                Financial Services of Winger, Inc.,                        Subordinated Debentures
7/31/2009                                                                                                                 $3,742,000   9/1/2011            $3,742,000             $—     9/1/2011        R             $112,000                                          $633,322
                Winger, MN8,10,49                                          w/ Exercised Warrants
                First Advantage Bancshares Inc.,
5/22/2009                                                                  Preferred Stock w/ Exercised Warrants          $1,177,000   12/11/2012          $1,032,193             $—     12/11/2012      P              $53,755                                          $227,945
                Coon Rapids, MN2,182
6/26/2009       First Alliance Bancshares, Inc., Cordova, TN2,190          Preferred Stock w/ Exercised Warrants          $3,422,000   12/20/2012          $2,370,742             $—     12/20/2012      P              $94,702                                          $538,231

                First American Bank Corporation,                           Subordinated Debentures                                     12/21/2011        $15,000,000      $35,000,000
7/24/2009                                                                                                                $50,000,000                                                     12/11/2012      R           $2,500,000                                       $13,058,531
                Elk Grove Village, IL8                                     w/ Exercised Warrants                                       12/11/2012        $35,000,000              $—
                                                                    3,30
3/13/2009       First American International Corp., Brooklyn, NY           Preferred Stock                               $17,000,000   8/13/2010         $17,000,000              $—     N/A                                 N/A                                       $1,204,167
1/9/2009        First Bancorp, Troy, NC50                                  Preferred Stock w/ Warrants                   $65,000,000   9/1/2011          $65,000,000              $—     11/18/2011      P             $924,462         $14.10        616,308          $8,594,444
1/16/2009       First BanCorp, San Juan, PR28                              Common Stock w/ Warrants                    $424,174,000                                                                                                     $17.48        389,484         $32,999,386
                                                                                                                                       1/18/2012           $3,675,000      $3,675,000
2/20/2009       First BancTrust Corporation, Paris, IL2,4,7                Preferred Stock w/ Exercised Warrants          $7,350,000                                                     10/24/2012      R             $368,000         $13.25                         $1,332,517
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I July 24, 2013




                                                                                                                                       10/24/2012          $3,675,000             $—
2/6/2009        First Bank of Charleston, Inc., Charleston, WV2,50         Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000             $—     7/21/2011       R             $167,000                                          $448,105
1/16/2009       First Bankers Trustshares, Inc., Quincy, IL2,50            Preferred Stock w/ Exercised Warrants         $10,000,000   9/8/2011          $10,000,000              $—     9/8/2011        R             $500,000         $28.00                         $1,441,222
12/31/2008      First Banks, Inc., Clayton, MO2                            Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                                    $6,037,238
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      263
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                            (continued)                                                                                                                                                                   264
                                                                                                                                   Capital                                           Final                                            Stock        Current
                                                                                                                                   Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                            Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
3/6/2009        First Busey Corporation, Urbana, IL50                  Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000              $—     11/18/2011      P              $63,677           $4.50                       $12,347,222
                First California Financial Group, Inc,
12/19/2008                                                             Preferred Stock w/ Warrants                   $25,000,000   7/14/2011         $25,000,000              $—     8/24/2011       R             $599,042                                        $3,211,806
                Westlake Village, CA50
4/3/2009        First Capital Bancorp, Inc., Glen Allen, VA90          Preferred Stock w/ Warrants                   $10,958,000   6/13/2012           $9,931,327             $—     2/6/2013        R             $266,042           $3.40       250,947          $1,759,344
2/13/2009       First Choice Bank, Cerritos, CA2, 30                   Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000             $—     9/24/2010       R             $110,000                                          $300,643
12/22/2009      First Choice Bank, Cerritos, CA2,10a,30                Preferred Stock                                $2,836,000   9/24/2010           $2,836,000             $—     N/A             -                   N/A
1/23/2009       First Citizens Banc Corp, Sandusky, OH94               Preferred Stock w/ Warrants                   $23,184,000   6/27/2012         $20,689,633              $—     9/5/2012        R             $563,174           $8.95       469,312          $3,992,877
3/20/2009       First Colebrook Bancorp, Inc., Colebrook, NH2,49       Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000             $—     9/22/2011       R             $225,000                                          $614,488
11/21/2008      First Community Bancshares Inc., Bluefield, VA         Preferred Stock w/ Warrants                   $41,500,000   7/8/2009          $41,500,000              $—     11/18/2011      P              $30,600         $15.68                         $1,308,403
                First Community Bank Corporation of America,
12/23/2008                                                             Preferred Stock w/ Warrants                   $10,685,000   5/31/2011           $7,754,267             $—     N/A                                 N/A                                         $744,982
                Pinellas Park, FL39
11/21/2008      First Community Corporation, Lexington, SC122          Preferred Stock w/ Warrants                   $11,350,000   8/23/2012         $10,987,794              $—     11/1/2012       R             $297,500           $9.20                        $2,140,686
                First Community Financial Partners, Inc.,
12/11/2009                                                             Preferred Stock w/ Exercised Warrants         $22,000,000   9/12/2012         $14,211,450              $—     7/27/2012       P             $720,374                                        $3,320,656
                Joliet, IL2,113,129
                                                                89
12/5/2008       First Defiance Financial Corp., Defiance, OH           Preferred Stock w/ Warrants                   $37,000,000   6/13/2012         $35,084,144              $—                                                    $22.55        550,595          $6,546,862
                                                                       Subordinated Debentures
9/11/2009       First Eagle Bancshares, Inc., Hanover Park, IL8,30                                                    $7,500,000   9/17/2010           $7,500,000             $—     9/17/2010       R             $375,000                                          $639,738
                                                                       w/ Exercised Warrants
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 24, 2013




2/6/2009        First Express of Nebraska, Inc., Gering, NE2           Preferred Stock w/ Exercised Warrants          $5,000,000   2/15/2012           $5,000,000             $—     2/15/2012       R             $250,000                                          $824,313
                First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                               Preferred Stock w/ Warrants                   $16,500,000   5/3/2011            $6,000,000             $—     N/A                                 N/A          $7.90                          $570,625
                Harrison, AR42
12/23/2008      First Financial Bancorp, Cincinnati, OH                Preferred Stock w/ Warrants                   $80,000,000   2/24/2010         $80,000,000              $—     6/2/2010        A           $2,966,288         $14.90                         $4,677,778
                First Financial Bancshares, Inc.,                      Subordinated Debentures
6/12/2009                                                                                                             $3,756,000   9/22/2011           $3,756,000             $—     9/22/2011       R             $113,000                                          $694,280
                Lawrence, KS8,10,49                                    w/ Exercised Warrants
12/5/2008       First Financial Holdings Inc., Charleston, SC75        Preferred Stock w/ Warrants                   $65,000,000   3/28/2012         $55,926,478              $—     5/22/2013       R           $1,400,000         $21.21                        $10,815,494
                First Financial Service Corporation,
1/9/2009                                                               Preferred Stock w/ Warrants                   $20,000,000   4/29/2013         $10,733,778              $—                                                      $3.39       215,983          $1,600,000
                Elizabethtown, KY239
12/22/2009      First Freedom Bancshares, Inc., Lebanon, TN2,10,149 Preferred Stock w/ Exercised Warrants             $8,700,000   11/9/2012           $7,945,493             $—     11/9/2012       P             $256,119                                        $1,320,735
                First Gothenburg Bancshares, Inc.,
2/27/2009                                                              Preferred Stock w/ Exercised Warrants          $7,570,000   10/31/2012          $6,822,136             $—     10/31/2012      R             $362,119                                        $1,517,766
                Gothenburg, NE2,135
8/28/2009       First Guaranty Bancshares, Inc., Hammond, LA2,49       Preferred Stock w/ Exercised Warrants         $20,699,000   9/22/2011         $20,699,000              $—     9/22/2011       R           $1,030,000                                        $2,330,477
11/14/2008      First Horizon National Corporation, Memphis, TN        Preferred Stock w/ Warrants                 $866,540,000    12/22/2010       $866,540,000              $—     3/9/2011        R          $79,700,000         $11.20                        $91,227,406
8/28/2009       First Independence Corporation, Detroit, MI2,3,191     Preferred Stock                                $3,223,000   12/20/2012          $2,286,675             $—     N/A                                 N/A                                         $533,582
3/13/2009       First Intercontinental Bank, Doraville, GA2            Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                                     $757,454
12/12/2008      First Litchfield Financial Corporation, Litchfield, CT Preferred Stock w/ Warrants                   $10,000,000   4/7/2010          $10,000,000              $—     4/7/2010        R           $1,488,046                                          $659,722
2/27/2009       First M&F Corporation, Kosciusko, MS30                 Preferred Stock w/ Warrants                   $30,000,000   9/29/2010         $30,000,000              $—                                                    $15.81        513,113          $2,383,333
1/16/2009       First Manitowoc Bancorp, Inc., Manitowoc, WI2          Preferred Stock w/ Exercised Warrants         $12,000,000   5/27/2009         $12,000,000              $—     5/27/2009       R             $600,000         $16.00                           $237,983
2/13/2009       First Menasha Bancshares, Inc., Neenah, WI2,49         Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011           $4,797,000             $—     9/15/2011       R             $240,000                                          $676,865
                                                                       Preferred Stock w/ Warrants                   $69,600,000   9/22/2011         $69,600,000              $—                                                                                  $12,167,111
2/20/2009       First Merchants Corporation, Muncie, IN27,49,50                                                                                                                      11/18/2011      P             $367,500         $17.15
                                                                       Trust Preferred Securities                    $46,400,000   9/22/2011         $46,400,000              $—                                                                                   $2,848,444
12/5/2008       First Midwest Bancorp, Inc., Itasca, IL                Preferred Stock w/ Warrants                 $193,000,000    11/23/2011       $193,000,000              $—     12/21/2011      R             $900,000         $13.72                        $28,628,333
3/13/2009       First National Corporation, Strasburg, VA2,123         Preferred Stock w/ Exercised Warrants         $13,900,000   8/23/2012         $12,082,749              $—     8/23/2012       P             $624,675                                        $2,621,903
                First NBC Bank Holding Company,
3/20/2009                                                              Preferred Stock w/ Exercised Warrants         $17,836,000   8/4/2011          $17,836,000              $—     8/4/2011        R             $892,000                                        $2,305,990
                New Orleans, LA2,49
11/21/2008      First Niagara Financial Group, Lockport, NY            Preferred Stock w/ Warrants                 $184,011,000    5/27/2009        $184,011,000              $—     6/24/2009       R           $2,700,000         $10.07                         $4,753,618
3/13/2009       First Northern Community Bancorp, Dixon, CA49          Preferred Stock w/ Warrants                   $17,390,000   9/15/2011         $17,390,000              $—     11/16/2011      R             $375,000           $5.90                        $2,178,580
11/21/2008      First PacTrust Bancorp, Inc., Chula Vista, CA          Preferred Stock w/ Warrants                   $19,300,000   12/15/2010        $19,300,000              $—     1/5/2011        R           $1,003,227         $13.58      3,670,822          $1,994,333
3/13/2009       First Place Financial Corp., Warren, OH146             Preferred Stock w/ Warrants                   $72,927,000                                                                                                      $0.01                        $7,009,095
2/20/2009       First Priority Financial Corp., Malvern, PA2,203       Preferred Stock w/ Exercised Warrants          $4,579,000   2/8/2013            $4,002,371             $—     2/8/2013        P             $224,717
                                                                                                                                                                                                                                                                   $1,711,259
12/18/2009      First Priority Financial Corp., Malvern, PA2,10a,203   Preferred Stock                                $4,596,000   2/8/2013            $4,009,723             $—     N/A                                 N/A
3/6/2009        First Reliance Bancshares, Inc., Florence, SC2,219     Preferred Stock w/ Exercised Warrants         $15,349,000   3/11/2013         $10,327,021              $—     3/11/2013       P             $624,632           $1.80                        $2,042,406
1/30/2009       First Resource Bank, Exton, PA2,50                     Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011           $2,600,000             $—     9/15/2011       R             $130,000                                          $584,794
12/11/2009      First Resource Bank, Exton, PA2,10a,49                 Preferred Stock                                $2,417,000   9/15/2011           $2,417,000             $—     N/A                                 N/A
1/9/2009        First Security Group, Inc., Chattanooga, TN215         Preferred Stock w/ Warrants                   $33,000,000   4/11/2013         $14,912,862              $—     N/A                                 N/A          $2.17                        $1,402,500
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                             (continued)
                                                                                                                                       Capital                                           Final                                            Stock        Current
                                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                                Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
12/23/2008      First Sound Bank, Seattle, WA178                           Preferred Stock w/ Warrants                    $7,400,000   2/20/2013           $3,700,000             $—     N/A                                 N/A          $0.18       114,080            $330,944

                                                                           Subordinated Debentures                                     9/28/2011         $13,125,000      $36,875,000                                                                                 $12,932,451
7/17/2009       First South Bancorp, Inc., Lexington, TN8                                                                $50,000,000                                                     11/28/2012      R           $2,500,000
                                                                           w/ Exercised Warrants                                       11/28/2012        $36,875,000              $—
                                                                   2
1/30/2009       First Southern Bancorp, Inc., Boca Raton, FL               Preferred Stock w/ Exercised Warrants         $10,900,000   6/16/2010         $10,900,000              $—     6/16/2010       R             $545,000                                          $818,468
                First Southwest Bancorporation, Inc.,
3/6/2009                                                                   Preferred Stock w/ Exercised Warrants          $5,500,000   3/27/2013           $4,900,609             $—     3/27/2013       P             $251,837                                          $207,327
                Alamosa, CO2,226
2/27/2009       First State Bank of Mobeetie, Mobeetie, TX2                Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010            $731,000              $—     4/14/2010       R              $37,000                                           $45,087
3/6/2009        First Texas BHC, Inc., Fort Worth, TX2,49                  Preferred Stock w/ Exercised Warrants         $13,533,000   9/15/2011         $13,533,000              $—     9/15/2011       R             $677,000                                        $1,862,389
                                                                           Subordinated Debentures
6/5/2009        First Trust Corporation, New Orleans, LA8,211                                                            $17,969,000   2/20/2013         $13,612,558              $—     2/20/2013       P             $644,726                                        $1,046,896
                                                                           w/ Exercised Warrants
1/23/2009       First ULB Corp., Oakland, CA2                              Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009           $4,900,000             $—     4/22/2009       R             $245,000                                           $66,021
1/30/2009       First United Corporation, Oakland, MD                      Preferred Stock w/ Warrants                   $30,000,000                                                                                                      $7.60       326,323          $2,312,500
6/12/2009       First Vernon Bancshares, Inc., Vernon, AL2,10,30           Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010           $6,000,000             $—     9/29/2010       R             $245,000                                          $417,770
2/6/2009        First Western Financial, Inc., Denver, CO2,105,250         Preferred Stock w/ Exercised Warrants          $8,559,000   6/24/2013           $7,647,253             $—     7/27/2012
                                                                                                                                       7/27/2012           $6,138,000      $3,881,000                    P             $351,052                                        $3,768,965
12/11/2009      First Western Financial, Inc., Denver, CO2,10a,114,251     Preferred Stock                               $11,881,000                                                     N/A
                                                                                                                                       6/24/2013           $3,237,045             $—
1/30/2009       Firstbank Corporation, Alma, MI97                          Preferred Stock w/ Warrants                   $33,000,000   6/27/2012         $30,587,530              $—     7/18/2012       R           $1,946,670         $13.41                         $5,651,360
1/9/2009        FirstMerit Corporation, Akron, OH                          Preferred Stock w/ Warrants                 $125,000,000    4/22/2009        $125,000,000              $—     5/27/2009       R           $5,025,000         $20.03      2,408,203          $1,788,194
                FirstMerit Corporation (Citizens Republic
12/12/2008                                                                 Preferred Stock w/ Warrants                 $300,000,000    4/12/2013        $300,000,000              $—                                                                                  $69,245,437
                Bancorp, Inc.), Flint, MI214
1/30/2009       Flagstar Bancorp, Inc., Troy, MI228                        Preferred Stock w/ Warrants                 $266,657,000    3/27/2013        $240,627,277              $—     6/12/2013       P              $12,905         $13.96                        $37,220,872
7/24/2009       Florida Bank Group, Inc., Tampa, FL2,207                   Preferred Stock w/ Exercised Warrants         $20,471,000                                                                                                                                   $1,180,793
2/20/2009       Florida Business BancGroup, Inc., Tampa, FL2,49            Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011           $9,495,000             $—     9/22/2011       R             $475,000                                        $1,339,751
12/19/2008      Flushing Financial Corporation, Lake Success, NY           Preferred Stock w/ Warrants                   $70,000,000   10/28/2009        $70,000,000              $—     12/30/2009      R             $900,000         $16.45                         $3,004,167
2/27/2009       FNB Bancorp, South San Francisco, CA2,50                   Preferred Stock w/ Exercised Warrants         $12,000,000   9/15/2011         $12,000,000              $—     9/15/2011       R             $600,000         $20.35                         $1,667,700
2/13/2009       FNB United Corp., Asheboro, NC58                           Common Stock w/ Warrants                      $51,500,000                                                                                                      $8.11        22,071          $2,589,305
5/15/2009       Foresight Financial Group, Inc., Rockford, IL2             Preferred Stock w/ Exercised Warrants         $15,000,000   12/11/2012        $15,000,000              $—     12/11/2012      R             $750,000         $16.25                         $2,920,292
5/22/2009       Fort Lee Federal Savings Bank, Fort Lee, NJ2,82            Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                                      $87,185
4/3/2009        Fortune Financial Corporation , Arnold, MO2,50             Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011           $3,100,000             $—     9/15/2011       R             $155,000                                          $413,928
12/5/2008       FPB Bancorp, Inc., Port St. Lucie, FL55                    Preferred Stock w/ Warrants                    $5,800,000                                                                                                      $0.03       183,158            $273,889
                                                                                                                                       12/16/2009          $1,000,000      $2,240,000
                                                       2
1/23/2009       FPB Financial Corp., Hammond, LA                           Preferred Stock w/ Exercised Warrants          $3,240,000                                                     6/16/2010       R                                            162,000            $221,722
                                                                                                                                       6/16/2010           $2,240,000             $—
5/22/2009       Franklin Bancorp, Inc., Washington, MO2,150                Preferred Stock w/ Exercised Warrants          $5,097,000   11/13/2012          $3,198,853             $—     11/13/2012      P             $195,018                                          $965,344

                                                               8           Subordinated Debentures
5/8/2009        Freeport Bancshares, Inc., Freeport, IL                                                                   $3,000,000                                                                                                                                   $1,011,693
                                                                           w/ Exercised Warrants

                                                               8           Subordinated Debentures
6/26/2009       Fremont Bancorporation, Fremont, CA                                                                      $35,000,000   7/25/2012         $35,000,000              $—     7/25/2012       R           $1,750,000                                        $9,046,066
                                                                           w/ Exercised Warrants
1/23/2009       Fresno First Bank, Fresno, CA2                             Preferred Stock w/ Exercised Warrants          $1,968,000   11/1/2012           $1,968,000             $—     11/1/2012       R              $98,000                                          $371,100

                                                                           Subordinated Debentures                                     11/24/2009          $1,600,000      $1,400,000
                                                           8
4/24/2009       Frontier Bancshares, Inc., Austin, TX                                                                     $3,000,000                                                     10/6/2010       R             $150,000                                          $258,192
                                                                           w/ Exercised Warrants                                       10/6/2010           $1,400,000             $—
12/23/2008      Fulton Financial Corporation, Lancaster, PA                Preferred Stock w/ Warrants                 $376,500,000    7/14/2010        $376,500,000              $—     9/8/2010        R          $10,800,000         $11.48                        $29,335,625
5/8/2009        Gateway Bancshares, Inc., Ringgold, GA2,80                 Preferred Stock w/ Exercised Warrants          $6,000,000   4/13/2012           $6,000,000             $—     4/13/2012       R             $300,000                                          $960,795
2/6/2009        Georgia Commerce Bancshares, Inc., Atlanta, GA2 Preferred Stock w/ Exercised Warrants                     $8,700,000   2/16/2011           $8,700,000             $—     2/16/2011       R             $435,000                                          $961,471
5/1/2009        Georgia Primary Bank, Atlanta, GA2                         Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                           $—
                Germantown Capital Corporation, Inc.,
3/6/2009                                                                   Preferred Stock w/ Exercised Warrants          $4,967,000   10/31/2012          $4,495,616             $—     10/31/2012      R             $214,595                                          $988,890
                Germantown, TN2,137
6/26/2009       Gold Canyon Bank, Gold Canyon, AZ2,10,235                  Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                                      $53,860
1/30/2009       Goldwater Bank, N.A., Scottsdale, AZ2                      Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                                     $145,750
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I July 24, 2013




4/24/2009       Grand Capital Corporation, Tulsa, OK2,49                   Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011            $4,000,000             $—     9/8/2011        R             $200,000                                          $517,145
                                                                           Subordinated Debentures
9/25/2009       Grand Financial Corporation, Hattiesburg, MS8                                                             $2,443,320                                                                                                                                     $745,868
                                                                           w/ Exercised Warrants
                                                                       2
5/29/2009       Grand Mountain Bancshares, Inc., Granby, CO                Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                           $—
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      265
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                         (continued)                                                                                                                                                                      266
                                                                                                                                   Capital                                           Final                                            Stock        Current
                                                                                                                                   Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                            Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
1/9/2009        GrandSouth Bancorporation, Greenville, SC2,50          Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011            $9,000,000             $—     9/8/2011        R             $450,000
                                                                                                                                                                                                                                      $5.10                        $1,856,917
12/11/2009      GrandSouth Bancorporation, Greenville, SC2,10a,49      Preferred Stock                                $6,319,000   9/8/2011            $6,319,000             $—     N/A                                 N/A
                                                                       Subordinated Debentures
7/17/2009       Great River Holding Company, Baxter, MN8                                                              $8,400,000                                                                                                                                     $759,575
                                                                       w/ Exercised Warrants
12/5/2008       Great Southern Bancorp, Springfield, MO50              Preferred Stock w/ Warrants                   $58,000,000   8/18/2011         $58,000,000              $—     9/21/2011       R           $6,436,364         $26.96                         $7,838,056
12/23/2008      Green Bankshares, Inc., Greeneville, TN59                                                            $72,278,000   9/7/2011          $68,700,000              $—     N/A                                 N/A                                       $5,942,858
                                                                                                                                   11/14/2012           $800,000       $1,600,000
2/27/2009       Green Circle Investments, Inc., Clive, IA2             Preferred Stock w/ Exercised Warrants          $2,400,000   1/23/2013            $800,000         $800,000    4/24/2013       R             $120,000                                          $516,021
                                                                                                                                   4/24/2013            $800,000              $—
2/27/2009       Green City Bancshares, Inc., Green City, MO2           Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010            $651,000              $—     7/14/2010       R              $33,000                                           $49,037
1/30/2009       Greer Bancshares Incorporated, Greer, SC2              Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                                      $5.35                          $975,831
2/13/2009       Gregg Bancshares, Inc., Ozark, MO2,115                 Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                                       $45,190
2/20/2009       Guaranty Bancorp, Inc., Woodsville, NH2,50             Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011           $6,920,000             $—     9/15/2011       R             $346,000                                          $969,040
9/25/2009       Guaranty Capital Corporation, Belzoni, MS3,8,30        Subordinated Debentures                       $14,000,000   7/30/2010         $14,000,000              $—     N/A                                 N/A                                         $913,299

                Guaranty Federal Bancshares, Inc.,                                                                                 6/13/2012           $5,000,000     $12,000,000
1/30/2009                                                              Preferred Stock w/ Warrants                   $17,000,000                                                     5/15/2013       R           $2,003,250         $10.25                         $3,390,721
                Springfield, MO241                                                                                                 4/29/2013         $11,493,900              $—
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 24, 2013




                                                    10,21,132
9/25/2009       GulfSouth Private Bank, Destin, FL                     Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                     $757,380
6/26/2009       Gulfstream Bancshares, Inc., Stuart, FL2,50            Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011           $7,500,000             $—     8/18/2011       R             $375,000                                          $876,542
2/20/2009       Hamilton State Bancshares, Hoschton, GA2               Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011           $7,000,000             $—     4/13/2011       R             $350,000                                          $819,166
12/31/2008      Hampton Roads Bankshares, Inc., Norfolk, VA31          Common Stock w/ Warrants                      $80,347,000                                                                                                      $1.29        53,034          $2,510,844
7/17/2009       Harbor Bankshares Corporation, Baltimore, MD2,3        Preferred Stock                                $6,800,000                                                                                                                                     $282,744
                Hartford Financial Services Group, Inc.,
6/26/2009                                                              Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010       $3,400,000,000             $—     9/21/2010       A        $706,264,560          $30.92                      $129,861,111
                Hartford, CT
3/13/2009       Haviland Bancshares, Inc., Haviland, KS2               Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010           $425,000              $—     12/29/2010      R              $21,000                                           $41,524
                                                                                                                                   5/9/2012          $12,000,000      $18,255,000
12/19/2008      Hawthorne Bancshares, Inc., Lee’s Summit, MO           Preferred Stock w/ Warrants                   $30,255,000                                                     6/12/2013       R             $540,000         $12.50                         $6,054,505
                                                                                                                                   5/15/2013         $18,255,000              $—
3/6/2009        HCSB Financial Corporation, Loris, SC                  Preferred Stock w/ Warrants                   $12,895,000                                                                                                      $0.19        91,714          $1,090,702
9/11/2009       Heartland Bancshares, Inc., Franklin, IN2,10,100       Preferred Stock w/ Exercised Warrants          $7,000,000   7/17/2012           $7,000,000             $—     7/17/2012                     $248,000                                        $1,073,471
12/19/2008      Heartland Financial USA, Inc., Dubuque, IA50           Preferred Stock w/ Warrants                   $81,698,000   9/15/2011         $81,698,000              $—     9/28/2011       R           $1,800,000         $27.49                        $11,188,087
                                                                                                                                   3/16/2011           $2,606,000      $7,497,000
9/25/2009       Heritage Bankshares, Inc., Norfolk, VA2,10,50          Preferred Stock w/ Exercised Warrants         $10,103,000                                                     8/11/2011       R             $303,000         $13.50                           $947,284
                                                                                                                                   8/11/2011           $7,497,000             $—
11/21/2008      Heritage Commerce Corp., San Jose, CA                  Preferred Stock w/ Warrants                   $40,000,000   3/7/2012          $40,000,000              $—     6/12/2013       P             $140,000           $7.00                        $6,761,267
11/21/2008      Heritage Financial Corporation, Olympia, WA            Preferred Stock w/ Warrants                   $24,000,000   12/22/2010        $24,000,000              $—     8/17/2011       R             $450,000         $14.65                         $2,503,333
3/20/2009       Heritage Oaks Bancorp, Paso Robles, CA                 Preferred Stock w/ Warrants                   $21,000,000                                                                                                      $6.17       611,650          $4,485,502
11/21/2008      HF Financial Corp., Sioux Falls, SD                    Preferred Stock w/ Warrants                   $25,000,000   6/3/2009          $25,000,000              $—     6/30/2009       R             $650,000         $17.70                           $666,667
                Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                               Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011           $3,091,000             $—     9/22/2011       R             $155,000
                Vernon, NJ2,13 ,49
                                                                                                                                                                                                                                      $4.46                          $606,927
                Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                             Preferred Stock                                $2,359,000   9/22/2011           $2,359,000             $—     N/A                                 N/A
                Vernon, NJ2,10a,13,49
                Highlands Independent Bancshares, Inc.,
3/6/2009                                                               Preferred Stock w/ Exercised Warrants          $6,700,000                                                                                                                                     $617,712
                Sebring, FL2
                                                                   2
1/30/2009       Hilltop Community Bancorp, Inc., Summit, NJ            Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010           $4,000,000             $—     4/21/2010       R             $200,000           $9.19                          $267,050
12/23/2008      HMN Financial, Inc., Rochester, MN204                  Preferred Stock w/ Warrants                   $26,000,000   2/8/2013          $18,571,410              $—                                                      $7.11       833,333          $2,462,778
1/16/2009       Home Bancshares, Inc., Conway, AR                      Preferred Stock w/ Warrants                   $50,000,000   7/6/2011          $50,000,000              $—     7/27/2011       R           $1,300,000         $25.97                         $6,180,556
                Hometown Bancorp of Alabama, Inc.,
2/20/2009                                                              Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                                     $750,512
                Oneonta, AL2
2/13/2009       Hometown Bancshares, Inc., Corbin, KY2,171             Preferred Stock w/ Exercised Warrants          $1,900,000   11/30/2012          $1,766,510             $—     11/30/2012      P              $70,095                                          $393,196
                HomeTown Bankshares Corporation,
9/18/2009                                                              Preferred Stock w/ Exercised Warrants         $10,000,000   10/31/2012          $9,093,150             $—     10/31/2012      R             $315,462           $5.90                        $1,702,400
                Roanoke, VA2,10,144
12/12/2008      HopFed Bancorp, Hopkinsville, KY                       Preferred Stock w/ Warrants                   $18,400,000   12/19/2012        $18,400,000              $—     1/16/2013       R             $256,257         $10.80        253,666          $3,697,889
                                                                                                                                   11/10/2010          $6,250,000     $18,750,000
12/19/2008      Horizon Bancorp, Michigan City, IN50                   Preferred Stock w/ Warrants                   $25,000,000                                                     11/18/2011      P           $1,750,551         $20.41     $3,106,771          $3,106,771
                                                                                                                                   8/25/2011         $18,750,000              $—
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                          (continued)
                                                                                                                                      Capital                                           Final                                            Stock        Current
                                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                             Investment Description                    Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
2/27/2009       Howard Bancorp, Inc., Ellicott City, MD2,49             Preferred Stock w/ Exercised Warrants            $5,983,000   9/22/2011           $5,983,000             $—     9/22/2011       R             $299,000           $7.88                          $837,793
11/13/2009      HPK Financial Corporation, Chicago, IL2,10a             Preferred Stock w/ Exercised Warrants            $5,000,000   12/11/2012          $5,000,000             $—     12/11/2012      R             $144,000                                        $1,596,555
5/1/2009        HPK Financial Corporation, Chicago, IL2                 Preferred Stock w/ Exercised Warrants            $4,000,000   12/11/2012          $4,000,000             $—     12/11/2012      R             $200,000
11/14/2008      Huntington Bancshares, Columbus, OH                     Preferred Stock w/ Warrants                  $1,398,071,000   12/22/2010      $1,398,071,000             $—     1/19/2011       R          $49,100,000           $7.87                     $147,185,809
2/6/2009        Hyperion Bank, Philadelphia, PA2,192                    Preferred Stock w/ Exercised Warrants            $1,552,000   12/20/2012           $983,800              $—     12/20/2012      P              $25,700                                          $327,666
9/18/2009       IA Bancorp, Inc., Iselin, NJ2,10                        Preferred Stock w/ Exercised Warrants            $5,976,000                                                                                                                                     $916,227
5/15/2009       IBC Bancorp, Inc., Chicago, IL3,8,30                    Subordinated Debentures                          $4,205,000   9/10/2010           $4,205,000             $—     N/A                                 N/A                                         $427,216
12/5/2008       Iberiabank Corporation, Lafayette, LA                   Preferred Stock w/ Warrants                     $90,000,000   3/31/2009         $90,000,000              $—     5/20/2009       R           $1,200,000         $53.61                         $1,450,000
3/27/2009       IBT Bancorp, Inc., Irving, TX2                          Preferred Stock w/ Exercised Warrants            $2,295,000   6/12/2013           $2,295,000             $—     6/12/2013       R             $115,000                                          $526,463
3/13/2009       IBW Financial Corporation , Washington, DC2,3a,30       Preferred Stock                                  $6,000,000   9/3/2010            $6,000,000             $—     N/A                                 N/A        $12.25                           $453,067
3/6/2009        ICB Financial, Ontario, CA2                             Preferred Stock w/ Exercised Warrants            $6,000,000   11/1/2012           $6,000,000             $—                     R             $300,000           $4.50                        $1,194,458
1/16/2009       Idaho Bancorp, Boise, ID2                               Preferred Stock w/ Exercised Warrants            $6,900,000                                                                                                      $0.08                          $124,306
5/22/2009       Illinois State Bancorp, Inc., Chicago, IL2,49           Preferred Stock w/ Exercised Warrants            $6,272,000   9/22/2011           $6,272,000             $—     9/22/2011       R             $314,000
                                                                                                                                                                                                                                                                      $1,158,113
12/29/2009      Illinois State Bancorp, Inc., Chicago, IL2,10a,49       Preferred Stock w/ Exercised Warrants            $4,000,000   9/22/2011           $4,000,000             $—     9/22/2011       R              $92,000
                                                            2
1/9/2009        Independence Bank, East Greenwich, RI                   Preferred Stock w/ Exercised Warrants            $1,065,000                                                                                                                                     $252,387
1/9/2009        Independent Bank Corp., Rockland, MA                    Preferred Stock w/ Warrants                     $78,158,000   4/22/2009         $78,158,000              $—     5/27/2009       R           $2,200,000         $34.50                         $1,118,094
                                                                        Mandatorily Convertible Preferred Stock
12/12/2008      Independent Bank Corporation, Ionia, MI22                                                               $74,426,000                                                                                                      $6.29       346,154          $2,430,000
                                                                        w/ Warrants
                                                 2,14,236
4/24/2009       Indiana Bank Corp., Dana, IN                            Preferred Stock w/ Exercised Warrants            $1,312,000                                                                                                                                     $165,139
12/12/2008      Indiana Community Bancorp, Columbus, IN                 Preferred Stock w/ Warrants                     $21,500,000   9/12/2012         $21,500,000              $—     9/12/2012       R           $1,800,000         $27.15                         $4,031,250
2/27/2009       Integra Bank Corporation, Evansville, IN14,57           Preferred Stock w/ Warrants                     $83,586,000                                                                                                                7,418,876          $1,950,340
12/19/2008      Intermountain Community Bancorp, Sandpoint, ID          Preferred Stock w/ Warrants                     $27,000,000                                                                                                    $13.95         65,323          $6,251,134
                                                                                                                                      7/11/2011         $40,000,000     $176,000,000
                International Bancshares Corporation,
12/23/2008                                                              Preferred Stock w/ Warrants                   $216,000,000    11/1/2012         $45,000,000     $131,000,000    6/12/2013       P           $4,018,511         $22.58                        $41,520,139
                Laredo, TX
                                                                                                                                      11/28/2012       $131,000,000              $—
12/23/2008      Intervest Bancshares Corporation, New York, NY246       Preferred Stock w/ Warrants                     $25,000,000   6/24/2013         $24,007,500              $—                                                      $6.68       691,882          $6,028,056
                Investors Financial Corporation of Pettis County,       Subordinated Debentures
5/8/2009                                                                                                                 $4,000,000                                                                                                                                     $174,325
                Inc., Sedalia, MO8,133                                  w/ Exercised Warrants
10/28/2008      JPMorgan Chase & Co., New York, NY                      Preferred Stock w/ Warrants                 $25,000,000,000   6/17/2009      $25,000,000,000             $—     12/10/2009      A        $936,063,469          $52.79                      $795,138,889
1/30/2009       Katahdin Bankshares Corp., Houlton, ME2,49              Preferred Stock w/ Exercised Warrants           $10,449,000   8/18/2011         $10,449,000              $—     8/18/2011       R             $522,000         $11.35                         $1,452,047
11/14/2008      KeyCorp, Cleveland, OH                                  Preferred Stock w/ Warrants                  $2,500,000,000   3/30/2011       $2,500,000,000             $—     4/20/2011       R          $70,000,000         $11.04                      $297,222,222
3/20/2009       Kirksville Bancorp, Inc., Kirksville, MO2               Preferred Stock w/ Exercised Warrants             $470,000                                                                                                                                      $106,560
8/21/2009       KS Bancorp, Inc., Smithfield, NC2,172                   Preferred Stock w/ Exercised Warrants            $4,000,000   11/30/2012          $3,283,000             $—     11/30/2012      P             $140,400           $8.00                          $713,937
2/20/2009       Lafayette Bancorp, Inc., Oxford, MS2,30                 Preferred Stock w/ Exercised Warrants            $1,998,000   9/29/2010           $1,998,000             $—     9/29/2010       R             $100,000                                          $267,134
12/29/2009      Lafayette Bancorp, Inc., Oxford, MS2,10a,30             Preferred Stock                                  $2,453,000   9/29/2010           $2,453,000             $—     N/A                                 N/A
                                                                                                                                      8/4/2010          $20,000,000      $39,000,000
2/6/2009        Lakeland Bancorp, Inc., Oak Ridge, NJ                   Preferred Stock w/ Warrants                     $59,000,000   3/16/2011         $20,000,000      $19,000,000    2/29/2012       R           $2,800,000         $10.43                         $6,460,833
                                                                                                                                      2/8/2012          $19,000,000              $—
2/27/2009       Lakeland Financial Corporation, Warsaw, IN              Preferred Stock w/ Warrants                     $56,044,000   6/9/2010          $56,044,000              $—     11/18/2011      P             $877,557         $27.75                         $3,596,156
12/18/2009      Layton Park Financial Group, Milwaukee, WI2,173         Preferred Stock w/ Exercised Warrants            $3,000,000   11/29/2012          $2,345,930             $—     11/29/2012      P             $104,375                                          $481,858
1/9/2009        LCNB Corp., Lebanon, OH                                 Preferred Stock w/ Warrants                     $13,400,000   10/21/2009        $13,400,000              $—     11/18/2011      P             $602,557         $22.36                           $524,833
12/23/2008      Leader Bancorp, Inc., Arlington, MA2                    Preferred Stock w/ Exercised Warrants            $5,830,000   11/24/2010          $5,830,000             $—     11/24/2010      R             $292,000                                          $609,961
1/30/2009       Legacy Bancorp, Inc., Milwaukee, WI3,53                 Preferred Stock                                  $5,498,000                                                                                                                                     $355,079
1/23/2009       Liberty Bancshares, Inc., Jonesboro, AR2,50             Preferred Stock w/ Exercised Warrants           $57,500,000   7/21/2011         $57,500,000              $—     7/21/2011       R           $2,875,000                                        $7,816,966
2/13/2009       Liberty Bancshares, Inc., Springfield, MO2,50           Preferred Stock w/ Exercised Warrants           $21,900,000   8/18/2011         $21,900,000              $—     8/18/2011       R           $1,095,000                                        $3,000,452
12/4/2009       Liberty Bancshares, Inc., Fort Worth, TX2,10            Preferred Stock w/ Exercised Warrants            $6,500,000                                                                                                                                   $1,181,156
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 24, 2013




2/6/2009        Liberty Financial Services, Inc., New Orleans, LA3,30   Preferred Stock                                  $5,645,000   9/24/2010           $5,645,000             $—     N/A                                 N/A                                         $461,009
2/20/2009       Liberty Shares, Inc., Hinesville, GA2                   Preferred Stock w/ Exercised Warrants           $17,280,000                                                                                                                                   $1,399,560
7/10/2009       Lincoln National Corporation, Radnor, PA                Preferred Stock w/ Warrants                   $950,000,000    6/30/2010        $950,000,000              $—     9/16/2010       A        $213,671,319          $36.47                        $46,180,555
12/12/2008      LNB Bancorp Inc., Lorain, OH 88                         Preferred Stock w/ Warrants                     $25,223,000   6/13/2012         $21,594,229              $—     7/18/2012       R             $860,326           $8.59                        $4,438,492
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     267
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                         (continued)                                                                                                                                                                        268
                                                                                                                                     Capital                                           Final                                            Stock        Current
                                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                            Investment Description                    Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
2/6/2009        Lone Star Bank, Houston, TX2                           Preferred Stock w/ Exercised Warrants            $3,072,000                                                                                                                                           $—
12/12/2008      LSB Corporation, North Andover, MA                     Preferred Stock w/ Warrants                     $15,000,000   11/18/2009        $15,000,000              $—     12/16/2009      R             $560,000                       407,542            $700,000
6/26/2009       M&F Bancorp, Inc., Durham, NC2,3,10,30                 Preferred Stock                                 $11,735,000   8/20/2010         $11,735,000              $—     N/A                                 N/A                                         $674,763
                                                                                                                                     5/18/2011        $370,000,000     $230,000,000
                                                         119
12/23/2008      M&T Bank Corporation, Buffalo, NY                      Preferred Stock w/ Warrants                   $600,000,000                                                      12/17/2012      P          $31,838,761        $111.75                        $86,553,400
                                                                                                                                     8/17/2012        $230,000,000              $—
                M&T Bank Corporation, (Provident Bancshares
11/14/2008                                                             Preferred Stock w/ Warrants                   $151,500,000    8/17/2012        $151,500,000              $—     3/19/2013                  $19,047,077                                       $28,553,037
                Corp.), Baltimore, MD119,225
                M&T Bank Corporation (Wilmington Trust
12/12/2008                                                             Preferred Stock w/ Warrants                   $330,000,000    5/13/2011        $330,000,000              $—                                                                   95,383         $39,920,833
                Corporation), Wilmington, DE43
4/24/2009       Mackinac Financial Corporation, Manistique, MI121      Preferred Stock w/ Warrants                     $11,000,000   8/23/2012         $10,380,905              $—     12/19/2012      R           $1,300,000           $8.88                        $1,840,923
3/13/2009       Madison Financial Corporation, Richmond, KY2           Preferred Stock w/ Exercised Warrants            $3,370,000                                                                                                                                     $169,422
                                                                                                                                     11/24/2009          $3,455,000     $10,340,000
12/23/2008      Magna Bank, Memphis, TN2,49                            Preferred Stock w/ Exercised Warrants           $13,795,000   6/8/2011            $3,455,000      $6,885,000    8/18/2011       R             $690,000                                        $1,661,468
                                                                                                                                     8/18/2011           $6,885,000             $—
12/29/2009      Mainline Bancorp, Inc., Ebensburg, PA2,73              Preferred Stock w/ Exercised Warrants            $4,500,000   3/9/2012            $4,500,000             $—     3/9/2012        R             $225,000         $69.50                           $538,188
1/16/2009       MainSource Financial Group, Inc., Greensburg, IN78 Preferred Stock w/ Warrants                         $57,000,000   3/28/2012         $52,277,171              $—     6/12/2013       P           $1,512,177         $13.43                         $9,159,773
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I July 24, 2013




12/5/2008       Manhattan Bancorp, El Segundo, CA                      Preferred Stock w/ Warrants                      $1,700,000   9/16/2009           $1,700,000             $—     10/14/2009      R              $63,364           $3.98                           $66,347
                                                                       Subordinated Debentures
6/19/2009       Manhattan Bancshares, Inc., Manhattan, IL8,183                                                          $2,639,000   12/11/2012          $2,561,405             $—     12/11/2012      P             $131,021                                          $770,044
                                                                       w/ Exercised Warrants
3/6/2009        Marine Bank & Trust Company, Vero Beach, FL2           Preferred Stock w/ Exercised Warrants            $3,000,000                                                                                                                                     $235,713
2/20/2009       Market Bancorporation, Inc., New Market, MN2           Preferred Stock w/ Exercised Warrants            $2,060,000                                                                                                                                     $138,778
                Market Street Bancshares, Inc.,                        Subordinated Debentures
5/15/2009                                                                                                              $20,300,000   7/27/2012         $18,069,213              $—     7/27/2012       P             $824,731                                        $5,535,303
                Mt. Vernon, IL8,109                                    w/ Exercised Warrants
12/19/2008      Marquette National Corporation, Chicago, IL2,102       Preferred Stock w/ Exercised Warrants           $35,500,000   7/27/2012         $25,313,186              $—     7/27/2012       P           $1,450,171        $200.00                         $7,072,587
11/14/2008      Marshall & Ilsley Corporation, Milwaukee, WI44         Preferred Stock w/ Warrants                  $1,715,000,000   7/5/2011        $1,715,000,000             $—     7/5/2011        R           $3,250,000                                     $226,522,917
3/27/2009       Maryland Financial Bank, Towson, MD2                   Preferred Stock w/ Exercised Warrants            $1,700,000                                                                                                                                     $290,303
12/5/2008       MB Financial Inc., Chicago, IL                         Preferred Stock w/ Warrants                   $196,000,000    3/14/2012        $196,000,000              $—     5/2/2012        R           $1,518,072         $26.80                        $32,095,000
11/20/2009      McLeod Bancshares, Inc., Shorewood, MN2,50             Preferred Stock w/ Exercised Warrants            $6,000,000   8/18/2011           $6,000,000             $—     8/18/2011       R             $300,000                                          $570,433
2/27/2009       Medallion Bank, Salt Lake City, UT2,49                 Preferred Stock w/ Exercised Warrants           $11,800,000   7/21/2011         $11,800,000              $—     7/21/2011       R             $590,000                                        $2,317,675
12/22/2009      Medallion Bank, Salt Lake City, UT2,10a,49             Preferred Stock w/ Exercised Warrants            $9,698,000   7/21/2011           $9,698,000             $—     7/21/2011       R              $55,000
                                                                                                                                     4/4/2012          $10,500,000      $10,500,000
5/15/2009       Mercantile Bank Corporation, Grand Rapids, MI          Preferred Stock w/ Warrants                     $21,000,000                                                     7/3/2012        R           $7,465,100         $17.97                         $3,166,021
                                                                                                                                     6/6/2012          $10,500,000              $—
2/6/2009        Mercantile Capital Corp., Boston, MA2,49               Preferred Stock w/ Exercised Warrants            $3,500,000   8/4/2011            $3,500,000             $—     8/4/2011        R             $175,000                                          $475,815
                Merchants and Manufacturers Bank
6/19/2009                                                              Preferred Stock w/ Exercised Warrants            $3,510,000   9/8/2011            $3,510,000             $—     9/8/2011        R             $176,000                                          $424,668
                Corporation, Joliet, IL2,49
                Merchants and Planters Bancshares, Inc.,
3/6/2009                                                               Preferred Stock w/ Exercised Warrants            $1,881,000   9/7/2011            $1,881,000             $—     9/7/2011        R              $94,000                                          $256,560
                Toone, TN2,62
                                           2
2/13/2009       Meridian Bank, Devon, PA                               Preferred Stock w/ Exercised Warrants            $6,200,000
                                                                                                                                                                                                                                                                     $2,523,701
12/11/2009      Meridian Bank, Devon, PA2,10a                          Preferred Stock                                  $6,335,000
                                                 2,141
1/30/2009       Metro City Bank, Doraville, GA                         Preferred Stock w/ Exercised Warrants            $7,700,000   10/31/2012          $6,861,462             $—     1031/2012       R             $369,948                                        $1,574,888
1/16/2009       MetroCorp Bancshares, Inc., Houston, TX95              Preferred Stock w/ Warrants                     $45,000,000   6/27/2012         $43,490,360              $—     6/12/2013       P           $2,087,368           $9.76                        $7,828,900
6/26/2009       Metropolitan Bank Group, Inc., Chicago, IL2,41         Preferred Stock w/ Exercised Warrants           $74,706,000   6/28/2013         $23,718,542              $—     N/A                                 N/A                                         $332,256
                Metropolitan Bank Group, Inc. (NC Bancorp, Inc.),
6/26/2009                                                              Preferred Stock w/ Exercised Warrants            $7,186,000   6/28/2013           $2,281,458             $—     N/A                                 N/A                                       $3,454,185
                Chicago, IL2,41
4/10/2009       Metropolitan Capital Bancorp, Inc., Chicago, IL2       Preferred Stock w/ Exercised Warrants            $2,040,000
                                                                                                                                                                                                                                                                       $864,799
11/20/2009      Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a   Preferred Stock                                  $2,348,000
12/19/2008      Mid Penn Bancorp, Inc., Millersburg, PA                Preferred Stock w/ Warrants                     $10,000,000   12/28/2012        $10,000,000              $—     1/23/2013       R              $58,479         $11.14         73,099          $2,012,500
1/30/2009       Middleburg Financial Corporation, Middleburg, VA       Preferred Stock w/ Warrants                     $22,000,000   12/23/2009        $22,000,000              $—     11/18/2011      P             $301,001                                          $986,944
1/23/2009       Midland States Bancorp, Inc., Effingham, IL2           Preferred Stock w/ Exercised Warrants           $10,189,000   12/23/2009        $10,189,000              $—     12/23/2009      R             $509,000                                          $508,989
1/9/2009        MidSouth Bancorp, Inc., Lafayette, LA49                Preferred Stock w/ Warrants                     $20,000,000   8/25/2011         $20,000,000              $—     11/18/2011      P             $206,557                                        $2,627,778
2/27/2009       Midtown Bank & Trust Company, Atlanta, GA2             Preferred Stock w/ Exercised Warrants            $5,222,000                                                                                                                                     $275,105
                                                                       Mandatorily Convertible Preferred Stock
12/5/2008       Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                     $89,388,000                                                                                                                4,282,020            $824,289
                                                                       w/ Warrants
                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                       (continued)
                                                                                                                                 Capital                                           Final                                            Stock        Current
                                                                                                                                 Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                          Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
2/13/2009       Midwest Regional Bancorp, Inc., Festus, MO2          Preferred Stock w/ Exercised Warrants           $700,000    11/10/2009           $700,000              $—     11/10/2009      R              $35,000                                           $28,294
2/6/2009        MidWestOne Financial Group, Inc., Iowa City, IA      Preferred Stock w/ Warrants                   $16,000,000   7/6/2011          $16,000,000              $—     7/27/2011       R           $1,000,000         $24.06                         $1,933,333
                Mid-Wisconsin Financial Services, Inc.,
2/20/2009                                                            Preferred Stock w/ Exercised Warrants         $10,000,000   4/26/2013         $10,000,000              $—     4/26/2013       R             $500,000           $5.60                        $2,344,226
                Medford, WI2
4/3/2009        Millennium Bancorp, Inc., Edwards, CO2,84            Preferred Stock w/ Exercised Warrants          $7,260,000   8/14/2012           $2,904,000             $—     8/14/2012                           $—                                        $1,392,562
1/9/2009        Mission Community Bancorp, San Luis Obispo, CA3 Preferred Stock                                     $5,116,000   12/28/2011          $5,116,000             $—     N/A                                 N/A          $4.95                          $759,584
12/23/2008      Mission Valley Bancorp, Sun Valley, CA3,30           Preferred Stock                                $5,500,000   8/20/2010           $5,500,000             $—     N/A                                 N/A                                         $456,042
12/19/2008      Monadnock Bancorp, Inc., Peterborough, NH2           Preferred Stock w/ Exercised Warrants          $1,834,000   12/28/2012          $1,834,000             $—     12/28/2012      R              $92,000           $5.25                          $413,349
2/6/2009        Monarch Community Bancorp, Inc., Coldwater, MI       Preferred Stock w/ Warrants                    $6,785,000                                                                                                      $3.30        52,192            $262,919
12/19/2008      Monarch Financial Holdings, Inc., Chesapeake, VA     Preferred Stock w/ Warrants                   $14,700,000   12/23/2009        $14,700,000              $—     2/10/2010       R             $260,000         $10.83                           $743,167
3/13/2009       Moneytree Corporation, Lenoir City, TN2,50           Preferred Stock w/ Exercised Warrants          $9,516,000   9/15/2011           $9,516,000             $—     9/15/2011       R             $476,000                                        $1,299,481
1/30/2009       Monument Bank, Bethesda, MD2,49                      Preferred Stock w/ Exercised Warrants          $4,734,000   8/11/2011           $4,734,000             $—     8/11/2011       R             $237,000                                          $652,959
10/28/2008      Morgan Stanley, New York, NY                         Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     8/12/2009       R        $950,000,000          $24.43                      $318,055,555
1/16/2009       Morrill Bancshares, Inc., Merriam, KS2               Preferred Stock w/ Exercised Warrants         $13,000,000   7/20/2011         $13,000,000              $—     7/20/2011       R             $650,000                                        $1,779,122
                                                                                                                                 4/25/2012           $1,100,000      $5,116,000
1/23/2009       Moscow Bancshares, Inc., Moscow, TN2                 Preferred Stock w/ Exercised Warrants          $6,216,000                                                     12/5/2012       R             $311,000                                        $1,276,377
                                                                                                                                 12/5/2012           $5,116,000             $—
                                                                 2
9/25/2009       Mountain Valley Bancshares, Inc., Cleveland, GA      Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                                     $654,454
3/27/2009       MS Financial, Inc., Kingwood, TX2                    Preferred Stock w/ Exercised Warrants          $7,723,000   10/19/2011          $7,723,000             $—     10/19/2011      R             $386,000                                        $1,097,290
12/23/2008      MutualFirst Financial, Inc., Muncie, IN50            Preferred Stock w/ Warrants                   $32,382,000   8/25/2011         $32,382,000              $—     9/28/2011       R             $900,194         $14.11                         $4,326,595
3/27/2009       Naples Bancorp, Inc., Naples, FL2,99                 Preferred Stock w/ Exercised Warrants          $4,000,000   7/12/2012            $600,000              $—     N/A                                 N/A                                         $356,067
2/27/2009       National Bancshares, Inc., Bettendorf, IA2,212       Preferred Stock w/ Exercised Warrants         $24,664,000   2/20/2013         $18,318,148              $—     2/20/2013       P             $845,448                                        $2,307,492
12/12/2008      National Penn Bancshares, Inc., Boyertown, PA        Preferred Stock w/ Warrants                 $150,000,000    3/16/2011        $150,000,000              $—     4/13/2011       R           $1,000,000         $10.16                        $16,958,333
                                                                     Subordinated Debentures
12/11/2009      Nationwide Bankshares, Inc., West Point, NE8                                                        $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000                                          $176,190
                                                                     w/ Exercised Warrants
                                                  2
12/19/2008      NCAL Bancorp, Los Angeles, CA                        Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $1.36                        $1,311,028
                                                                     Subordinated Debentures
6/19/2009       NEMO Bancshares Inc., Madison, MO8                                                                  $2,330,000   4/24/2013           $2,330,000             $—     4/24/2013       R             $117,000                                          $752,347
                                                                     w/ Exercised Warrants
                New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                            Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     2/15/2012       R             $737,100         $14.31                         $1,304,167
                Newport, NH49
                New York Private Bank & Trust Corporation,
1/9/2009                                                             Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                                   $63,364,101
                New York, NY2
12/12/2008      NewBridge Bancorp, Greensboro, NC237                 Preferred Stock w/ Warrants                   $52,372,000   4/29/2013         $50,837,239              $—     5/15/2013       R           $7,778,783           $5.99                       $11,471,039
12/23/2008      Nicolet Bankshares, Inc., Green Bay, WI2,49          Preferred Stock w/ Exercised Warrants         $14,964,000   9/1/2011          $14,964,000              $—     9/1/2011        R             $748,000                                        $2,192,843
1/9/2009        North Central Bancshares, Inc., Fort Dodge, IA       Preferred Stock w/ Warrants                   $10,200,000   12/14/2011        $10,200,000              $—     1/11/2012       R             $600,000                                        $1,494,583
12/12/2008      Northeast Bancorp, Lewiston, ME                      Preferred Stock w/ Warrants                    $4,227,000   11/28/2012          $4,227,000             $—     12/28/2012      R              $95,000           $9.67                          $837,181
5/15/2009       Northern State Bank, Closter, NJ2                    Preferred Stock w/ Exercised Warrants          $1,341,000   3/28/2012           $1,341,000             $—     3/28/2012       R              $67,000
                                                                                                                                                                                                                                                                   $349,782
12/18/2009      Northern State Bank, Closter, NJ2,10a                Preferred Stock                                $1,230,000   3/28/2012           $1,230,000             $—     N/A             -                   N/A
                Northern States Financial Corporation,
2/20/2009                                                            Preferred Stock w/ Warrants                   $17,211,000                                                                                                      $0.86       584,084            $418,323
                Waukegan, IL
11/14/2008      Northern Trust Corporation, Chicago, IL              Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009       $1,576,000,000             $—     8/26/2009       R          $87,000,000         $57.90                        $46,623,333
1/30/2009       Northway Financial, Inc., Berlin, NH2,49             Preferred Stock w/ Exercised Warrants         $10,000,000   9/15/2011         $10,000,000              $—     9/15/2011       R             $500,000         $16.25                         $1,430,625
2/13/2009       Northwest Bancorporation, Inc., Spokane, WA2,220     Preferred Stock w/ Exercised Warrants         $10,500,000   3/11/2013         $10,728,783              $—     3/11/2013       P             $587,635                                          $575,430
2/13/2009       Northwest Commercial Bank, Lakewood, WA2             Preferred Stock w/ Exercised Warrants          $1,992,000   1/9/2013            $1,992,000             $—     1/9/2013        R             $100,000                                          $288,393
                Oak Ridge Financial Services, Inc.,
1/30/2009                                                            Preferred Stock w/ Warrants                    $7,700,000   10/31/2012          $7,024,595             $—     2/6/2013        R             $122,888           $4.06       163,830          $1,444,854
                Oak Ridge, NC139
                                                   50
12/5/2008       Oak Valley Bancorp, Oakdale, CA                      Preferred Stock w/ Warrants                   $13,500,000   8/11/2011         $13,500,000              $—     9/28/2011       R             $560,000           $7.67                        $1,811,250
1/16/2009       OceanFirst Financial Corp., Toms River, NJ           Preferred Stock w/ Warrants                   $38,263,000   12/30/2009        $38,263,000              $—     2/3/2010        R             $430,797         $15.55                         $1,828,122
1/30/2009       Ojai Community Bank, Ojai, CA2                       Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                                      $6.25                          $429,823
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 24, 2013




12/5/2008       Old Line Bancshares, Inc., Bowie, MD                 Preferred Stock w/ Warrants                    $7,000,000   7/15/2009           $7,000,000             $—     9/2/2009        R             $225,000         $13.19                           $213,889
12/12/2008      Old National Bancorp, Evansville, IN                 Preferred Stock w/ Warrants                 $100,000,000    3/31/2009        $100,000,000              $—     5/8/2009        R           $1,200,000         $13.83                         $1,513,889
                                                                                                                                 3/11/2013         $24,438,021       $2,972,000
1/16/2009       Old Second Bancorp, Inc., Aurora, IL224,227          Preferred Stock w/ Warrants                   $73,000,000                                                     6/12/2013       P             $106,891           $5.52                        $5,769,028
                                                                                                                                 3/27/2013           $1,109,298             $—
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                269
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                       (continued)                                                                                                                                                                      270
                                                                                                                                 Capital                                           Final                                            Stock        Current
                                                                                                                                 Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                          Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
4/17/2009       Omega Capital Corp., Lakewood, CO2                   Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                                      $50,311
5/8/2009        One Georgia Bank, Atlanta, GA2,56                    Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                           $—

                                                             8,10    Subordinated Debentures
6/5/2009        OneFinancial Corporation, Little Rock, AR                                                          $17,300,000                                                                                                                                   $3,782,991
                                                                     w/ Exercised Warrants
12/19/2008      OneUnited Bank, Boston, MA2,3                        Preferred Stock                               $12,063,000                                                                                                                                      $93,823
4/24/2009       Oregon Bancorp, Inc., Salem, OR2                     Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                                    $11.25                           $711,385
                                                                     Subordinated Debentures
5/1/2009        OSB Financial Services, Inc., Orange, TX8                                                           $6,100,000   10/5/2011           $6,100,000             $—     10/5/2011       R             $305,000                                        $1,257,315
                                                                     w/ Exercised Warrants
                                                                29
11/21/2008      Pacific Capital Bancorp, Santa Barbara, CA           Common Stock w/ Warrants                    $195,045,000    11/30/2012       $165,983,272              $—     11/30/2012      R             $393,121                                        $2,107,397
                Pacific City Financial Corporation,
12/19/2008                                                           Preferred Stock w/ Exercised Warrants         $16,200,000                                                                                                                                     $358,065
                Los Angeles, CA2
                Pacific Coast Bankers’ Bancshares,
12/23/2008                                                           Preferred Stock w/ Exercised Warrants         $11,600,000   7/28/2011         $11,600,000              $—     7/28/2011       R             $580,000                                        $1,641,964
                San Francisco, CA2,50
                Pacific Coast National Bancorp,
1/16/2009                                                            Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                 $—               $—     N/A                                 N/A          $0.01                           $18,088
                San Clemente, CA2,19
12/23/2008      Pacific Commerce Bank, Los Angeles, CA2              Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                                      $4.00                          $387,223
12/12/2008      Pacific International Bancorp, Seattle, WA208        Preferred Stock w/ Warrants                    $6,500,000   2/15/2013           $6,500,000             $—                                                                                   $1,437,754
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 24, 2013




3/6/2009        Park Bancorporation, Inc., Madison, WI2,106          Preferred Stock w/ Exercised Warrants         $23,200,000   7/27/2012         $16,772,382              $—     7/27/2012       P             $896,039                                        $4,351,643
12/23/2008      Park National Corporation, Newark, OH                Preferred Stock w/ Warrants                 $100,000,000    4/25/2012        $100,000,000              $—     5/2/2012        R           $2,842,400         $68.79                        $16,694,444
1/30/2009       Parke Bancorp, Inc., Sewell, NJ174                   Preferred Stock w/ Warrants                   $16,288,000   11/29/2012        $11,595,735              $—     6/12/2013       P           $1,650,288           $7.66       438,906          $3,119,532
                Pascack Bancorp, Inc. (Pascack Community
2/6/2009                                                             Preferred Stock w/ Exercised Warrants          $3,756,000   10/19/2011          $3,756,000             $—     10/19/2011      R             $188,000                                          $553,313
                Bank), Westwood, NJ2,13
                                                         2
12/19/2008      Patapsco Bancorp, Inc., Dundalk, MD                  Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                      $3.40                          $377,867
9/11/2009       Pathfinder Bancorp, Inc., Oswego, NY49               Preferred Stock w/ Warrants                    $6,771,000   9/1/2011            $6,771,000             $—     2/1/2012        R             $537,633         $12.52                           $667,696
3/27/2009       Pathway Bancorp, Cairo, NE2,247                      Preferred Stock w/ Exercised Warrants          $3,727,000   6/24/2013           $4,324,446             $—     6/24/2013       P             $226,565                                           $77,852
12/19/2008      Patriot Bancshares, Inc., Houston, TX2               Preferred Stock w/ Exercised Warrants         $26,038,000                                                                                                                                   $2,704,136
                                                                                                                                 3/7/2012             $250,000       $3,440,000
                                                                                                                                 8/22/2012            $250,000       $3,190,000
4/17/2009       Patterson Bancshares, Inc, Patterson, LA2            Preferred Stock w/ Exercised Warrants          $3,690,000   12/5/2012            $250,000       $2,940,000                                                                                    $817,023
                                                                                                                                 5/8/2013             $500,000       $2,440,000
                                                                                                                                 6/5/2013            $2,440,000             $—     6/5/2013        R             $185,000
                                                                                                                                 1/6/2010            $7,172,000     $21,513,000
                Peapack-Gladstone Financial Corporation,
1/9/2009                                                             Preferred Stock w/ Warrants                   $28,685,000   3/2/2011            $7,172,000     $14,341,000    4/4/2012        R             $110,000         $17.48                         $3,280,740
                Gladstone, NJ
                                                                                                                                 1/11/2012         $14,341,000              $—
1/30/2009       Peninsula Bank Holding Co., Palo Alto, CA            Preferred Stock w/ Warrants                    $6,000,000                                                                                                    $10.13         81,670          $1,308,943
4/17/2009       Penn Liberty Financial Corp., Wayne, PA2,49          Preferred Stock w/ Exercised Warrants          $9,960,000   9/1/2011            $9,960,000             $—     9/1/2011        R             $498,000                                        $1,287,689
2/13/2009       Peoples Bancorp, Lynden, WA2,62                      Preferred Stock w/ Exercised Warrants         $18,000,000   8/3/2011          $18,000,000              $—     8/3/2011        R             $900,000                                        $2,425,250
                                                                                                                                 2/2/2011          $21,000,000      $18,000,000
1/30/2009       Peoples Bancorp Inc., Marietta, OH                   Preferred Stock w/ Warrants                   $39,000,000                                                     2/15/2012       R           $1,200,724         $21.08                         $4,725,833
                                                                                                                                 12/28/2011        $18,000,000              $—
                Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                           Preferred Stock w/ Warrants                   $25,054,000   6/27/2012         $23,033,635              $—     8/8/2012        R             $425,000         $12.90                         $4,419,331
                Newton, NC93
                                                             2,83
4/24/2009       Peoples Bancorporation, Inc., Easley, SC             Preferred Stock w/ Exercised Warrants         $12,660,000   4/24/2012         $12,660,000              $—     4/24/2012       R             $633,000                                        $2,069,910
                Peoples Bancshares of TN, Inc,
3/20/2009                                                            Preferred Stock w/ Exercised Warrants          $3,900,000   10/31/2012          $2,919,500             $—     10/31/2012      R             $122,225                                          $768,149
                Madisonville, TN2,142
3/6/2009        PeoplesSouth Bancshares, Inc., Colquitt, GA2         Preferred Stock w/ Exercised Warrants         $12,325,000                                                                                                                                   $2,815,501
9/11/2009       PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50   Preferred Stock w/ Exercised Warrants          $1,500,000   8/25/2011           $1,500,000             $—     8/25/2011       R              $71,000                                          $159,163
2/6/2009        PGB Holdings, Inc., Chicago, IL3,30                  Preferred Stock                                $3,000,000   8/13/2010           $3,000,000             $—     N/A                                 N/A                                         $227,917
1/23/2009       Pierce County Bancorp, Tacoma, WA2,51                Preferred Stock w/ Exercised Warrants          $6,800,000                                                                                                                                     $207,948
                Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                             Preferred Stock w/ Exercised Warrants          $4,389,000                                                                                                                  267,455            $284,999
                Orange City, FL2,116
                                                                                                                                 12/28/2011        $23,750,000      $71,250,000
12/12/2008      Pinnacle Financial Partners, Inc., Nashville, TN     Preferred Stock w/ Warrants                   $95,000,000                                                     7/18/2012       R             $755,000         $25.71                        $16,163,194
                                                                                                                                 6/20/2012         $71,250,000              $—
                                                      2,49
12/19/2008      Plains Capital Corporation, Dallas, TX               Preferred Stock w/ Exercised Warrants         $87,631,000   9/27/2011         $87,631,000              $—     9/27/2011       R           $4,382,000                                       $13,239,940
                                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                        (continued)
                                                                                                                                  Capital                                           Final                                            Stock        Current
                                                                                                                                  Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                          Investment Description                   Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
                                                                     Subordinated Debentures
7/17/2009       Plato Holdings Inc., Saint Paul, MN8,10,244                                                          $2,500,000   4/29/2013           $2,478,750             $—     4/29/2013       P              $90,582                                          $534,286
                                                                     w/ Exercised Warrants
1/30/2009       Plumas Bancorp, Quincy, CA240                        Preferred Stock w/ Warrants                    $11,949,000   4/29/2013         $12,907,297              $—     5/22/2013       R             $234,500           $6.20                          $622,344
12/5/2008       Popular, Inc., San Juan, PR12                        Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                     $30.37      2,093,284       $194,921,528
11/21/2008      Porter Bancorp Inc., Louisville, KY                  Preferred Stock w/ Warrants                    $35,000,000                                                                                                      $0.85       330,561          $4,783,333
4/3/2009        Prairie Star Bancshares, Inc., Olathe, KS2           Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                                     $132,253
5/8/2009        Premier Bancorp, Inc., Wilmette, IL3,8,30            Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000             $—     N/A                                 N/A                                         $660,215
3/20/2009       Premier Bank Holding Company, Tallahassee, FL2,14    Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                                     $467,413
10/2/2009       Premier Financial Bancorp, Inc., Huntington, WV112 Preferred Stock w/ Warrants                      $22,252,000   7/27/2012         $19,849,222              $—                                                    $12.04        628,588          $3,203,018
                                                                     Subordinated Debentures w/ Exercised
5/22/2009       Premier Financial Corp, Dubuque, IA8                                                                 $6,349,000                                                                                                                                     $522,263
                                                                     Warrants
                                                       2
2/20/2009       Premier Service Bank, Riverside, CA                  Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                                      $3.50                           $54,500
2/13/2009       PremierWest Bancorp, Medford, OR186                  Preferred Stock w/ Warrants                    $41,400,000   4/9/2013          $41,400,000              $—     N/A                                 N/A                                       $1,046,500
11/20/2009      Presidio Bank, San Francisco, CA2,10,184             Preferred Stock w/ Exercised Warrants          $10,800,000   12/11/2012          $9,058,369             $—     12/11/2012      P             $278,381           $8.30                        $1,740,944
1/23/2009       Princeton National Bancorp, Inc., Princeton, IL159   Preferred Stock w/ Warrants                    $25,083,000                                                                                                      $0.03       155,025          $2,271,405
2/27/2009       Private Bancorporation, Inc., Minneapolis, MN2       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                                    $498,860
12/29/2009      Private Bancorporation, Inc., Minneapolis, MN2,10a   Preferred Stock                                 $3,262,000
1/30/2009       PrivateBancorp, Inc., Chicago, IL5                   Preferred Stock w/ Warrants                  $243,815,000    10/24/2012       $243,815,000              $—     11/14/2012      R           $1,225,000         $21.23                        $45,512,133
10/2/2009       Providence Bank, Rocky Mount, NC2,10,49              Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $175,000                                          $421,312
                Provident Community Bancshares, Inc.,
3/13/2009                                                            Preferred Stock w/ Warrants                     $9,266,000                                                                                                      $0.55       178,880            $543,091
                Rock Hill, SC
2/27/2009       PSB Financial Corporation, Many, LA2,30              Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010           $9,270,000             $—     9/29/2010       R             $464,000                                          $802,802
1/16/2009       Puget Sound Bank, Bellevue, WA2,49                   Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011           $4,500,000             $—     8/11/2011       R             $225,000         $12.70                           $630,157
1/16/2009       Pulaski Financial Corp, Creve Coeur, MO96            Preferred Stock w/ Warrants                    $32,538,000   6/27/2012         $28,460,338              $—     8/8/2012        R           $1,100,000           $9.55                        $5,635,509
2/13/2009       QCR Holdings, Inc., Moline, IL49                     Preferred Stock w/ Warrants                    $38,237,000   9/15/2011         $38,237,000              $—     11/16/2011      R           $1,100,000         $15.45                         $4,949,567
10/30/2009      Randolph Bank & Trust Company, Asheboro, NC2         Preferred Stock w/ Exercised Warrants           $6,229,000                                                                                                                                     $608,163
6/19/2009       RCB Financial Corporation, Rome, GA2,10              Preferred Stock w/ Exercised Warrants           $8,900,000                                                                                                                                     $893,934
1/16/2009       Redwood Capital Bancorp, Eureka, CA2,49              Preferred Stock w/ Exercised Warrants           $3,800,000   7/21/2011           $3,800,000             $—     7/21/2011       R             $190,000           $8.50                          $520,626
1/9/2009        Redwood Financial Inc., Redwood Falls, MN2,49        Preferred Stock w/ Exercised Warrants           $2,995,000   8/18/2011           $2,995,000             $—     8/18/2011       R             $150,000         $25.00                           $425,811
3/6/2009        Regent Bancorp, Inc., Davie, FL2                     Preferred Stock w/ Exercised Warrants           $9,982,000                                                                                                                                     $784,282
2/27/2009       Regent Capital Corporation, Nowata, OK2,49           Preferred Stock w/ Exercised Warrants           $2,655,000   7/21/2011           $2,655,000             $—     7/21/2011       R             $133,000                                          $347,328
10/23/2009      Regents Bancshares, Inc., Vancouver, WA2,10,69       Preferred Stock w/ Exercised Warrants          $12,700,000   1/27/2012         $12,700,000              $—     1/27/2012       R             $381,000                                        $1,513,339
2/13/2009       Regional Bankshares, Inc., Hartsville, SC2,151       Preferred Stock w/ Exercised Warrants           $1,500,000   11/9/2012           $1,362,500             $—     11/9/2012       P              $74,250                                          $305,660
11/14/2008      Regions Financial Corporation, Birmingham, AL        Preferred Stock w/ Warrants                 $3,500,000,000   4/4/2012        $3,500,000,000             $—     5/2/2012        R          $45,000,000           $9.53                     $593,055,556
2/13/2009       Reliance Bancshares, Inc., Frontenac, MO2            Preferred Stock w/ Exercised Warrants          $40,000,000                                                                                                      $1.68                        $3,827,111
                Ridgestone Financial Services, Inc.,
2/27/2009                                                            Preferred Stock w/ Exercised Warrants          $10,900,000   2/20/2013           $8,876,677             $—     2/20/2013       P             $476,207                                          $277,224
                Brookfield, WI2,213
1/9/2009        Rising Sun Bancorp, Rising Sun, MD2                  Preferred Stock w/ Exercised Warrants           $5,983,000                                                                                                                                     $195,637

                                                                     Subordinated Debentures                                      6/6/2012          $10,500,000       $4,500,000
                                                                 8
6/12/2009       River Valley Bancorporation, Inc., Wausau, WI                                                       $15,000,000                                                     5/15/2013       R             $750,000         $22.15                         $4,178,275
                                                                     w/ Exercised Warrants                                        5/15/2013           $4,500,000             $—
                                                                     Subordinated Debentures
5/15/2009       Riverside Bancshares, Inc., Little Rock, AR8                                                         $1,100,000                                                                                                                                     $323,015
                                                                     w/ Exercised Warrants
1/30/2009       Rogers Bancshares, Inc., Little Rock, AR2            Preferred Stock w/ Exercised Warrants          $25,000,000                                                                                                      $1.42                          $738,021
                Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                            Preferred Stock w/ Warrants                    $30,407,000                                                                                                    $19.60      1,104,370            $358,971
                Narberth, PA
1/16/2009       S&T Bancorp, Indiana, PA                             Preferred Stock w/ Warrants                  $108,676,000    12/7/2011        $108,676,000              $—     6/12/2013       P             $527,361           $0.20                       $15,712,738
12/23/2008      Saigon National Bank, Westminster, CA2               Preferred Stock w/ Exercised Warrants           $1,549,000                                                                                                    $26.00                                 $—
3/13/2009       Salisbury Bancorp, Inc., Lakeville, CT49             Preferred Stock w/ Warrants                     $8,816,000   8/25/2011           $8,816,000             $—     11/2/2011       R             $205,000         $21.62                         $1,079,960
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 24, 2013




                                                                                                                                  7/21/2010         $41,547,000      $41,547,000
12/5/2008       Sandy Spring Bancorp, Inc., Olney, MD                Preferred Stock w/ Warrants                    $83,094,000                                                     2/23/2011       R           $4,450,000                                        $7,593,868
                                                                                                                                  12/15/2010        $41,547,000              $—
2/13/2009       Santa Clara Valley Bank, N.A., Santa Paula, CA2,221 Preferred Stock w/ Exercised Warrants            $2,900,000   3/11/2013           $2,440,029             $—     3/11/2013       P              $98,251           $5.61                          $158,928
12/19/2008      Santa Lucia Bancorp, Atascadero, CA64                Preferred Stock w/ Warrants                     $4,000,000   10/21/2011          $2,800,000             $—     N/A                                 N/A          $0.34                          $331,111
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 271
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                             (continued)                                                                                                                                                                      272
                                                                                                                                       Capital                                           Final                                            Stock        Current
                                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                                Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
3/27/2009       SBT Bancorp, Inc., Simsbury, CT2,49                        Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011           $4,000,000             $—     8/11/2011       R             $200,000                                          $517,145
1/16/2009       SCBT Financial Corporation, Columbia, SC                   Preferred Stock w/ Warrants                   $64,779,000   5/20/2009         $64,779,000              $—     6/24/2009       R           $1,400,000         $50.39                         $1,115,639
                Seacoast Banking Corporation of Florida,
12/19/2008                                                                 Preferred Stock w/ Warrants                   $50,000,000   3/28/2012         $40,404,700              $—     5/30/2012       R              $55,000           $2.20                        $8,585,770
                Stuart, FL77
12/23/2008      Seacoast Commerce Bank, Chula Vista, CA2,49                Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011            $1,800,000             $—     9/1/2011        R              $90,000           $5.75                          $263,780
                Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                                  Preferred Stock w/ Exercised Warrants          $2,152,000   12/11/2012          $1,465,497             $—     12/11/2012      P              $93,245                                          $449,073
                Waynesville, MO2,185
1/9/2009        Security Business Bancorp, San Diego, CA2,49               Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011           $5,803,000             $—     7/14/2011       R             $290,000                                          $795,018
1/9/2009        Security California Bancorp, Riverside, CA2,49             Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011           $6,815,000             $—     9/15/2011       R             $341,000         $10.70                           $996,698
6/26/2009       Security Capital Corporation, Batesville, MS2,10,30        Preferred Stock w/ Exercised Warrants         $17,388,000   9/29/2010         $17,388,000              $—     9/29/2010       R             $522,000                                        $1,153,111
12/19/2008      Security Federal Corporation, Aiken, SC30                  Preferred Stock w/ Warrants                   $18,000,000   9/29/2010         $18,000,000              $—                                                    $12.50        137,966          $1,600,000
                Security State Bancshares, Inc., Charleston,
2/20/2009                                                                  Preferred Stock w/ Exercised Warrants         $12,500,000   9/22/2011         $12,500,000              $—     9/22/2011       R             $625,000                                        $1,763,680
                MO2,49
                Security State Bank Holding-Company,                       Subordinated Debentures
5/1/2009                                                                                                                 $10,750,000   6/24/2013         $12,409,261              $—     6/24/2013       P             $720,369                                        $1,414,005
                Jamestown, ND8,248                                         w/ Exercised Warrants
11/21/2008      Severn Bancorp, Inc., Annapolis, MD                        Preferred Stock w/ Warrants                   $23,393,000                                                                                                      $4.65       556,976          $3,781,869
1/9/2009        Shore Bancshares, Inc., Easton, MD                         Preferred Stock w/ Warrants                   $25,000,000   4/15/2009         $25,000,000              $—     11/16/2011      R              $25,000           $7.36       172,970            $333,333
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I July 24, 2013




                                                                           Subordinated Debentures
6/26/2009       Signature Bancshares, Inc., Dallas, TX8                                                                   $1,700,000   12/15/2010          $1,700,000             $—     12/15/2010      R              $85,000                                          $209,588
                                                                           w/ Exercised Warrants
12/12/2008      Signature Bank, New York, NY                               Preferred Stock w/ Warrants                 $120,000,000    3/31/2009        $120,000,000              $—     3/10/2010       A          $11,150,940         $83.02                         $1,816,667
1/16/2009       Somerset Hills Bancorp, Bernardsville, NJ                  Preferred Stock w/ Warrants                    $7,414,000   5/20/2009           $7,414,000             $—     6/24/2009       R             $275,000                                          $127,686
2/20/2009       Sonoma Valley Bancorp, Sonoma, CA2,25                      Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                                     $347,164
1/9/2009        Sound Banking Company, Morehead City, NC2,152              Preferred Stock w/ Exercised Warrants          $3,070,000   11/13/2012          $2,807,413             $—     11/13/2012      P             $147,918           $5.80                          $643,399
12/5/2008       South Financial Group, Inc., Greenville, SC26              Preferred Stock w/ Warrants                 $347,000,000    9/30/2010        $130,179,219              $—     9/30/2010       R             $400,000                                       $16,386,111
                SouthCrest Financial Group, Inc.,
7/17/2009                                                                  Preferred Stock w/ Exercised Warrants         $12,900,000   3/11/2013         $11,587,256              $—     3/11/2013       P             $588,264           $5.35                          $933,494
                Fayetteville, GA2,222
1/16/2009       Southern Bancorp, Inc., Arkadelphia, AR3,30                Preferred Stock                               $11,000,000   8/6/2010          $11,000,000              $—     N/A                                 N/A                                         $855,556
                Southern Community Financial Corp.,
12/5/2008                                                                  Preferred Stock w/ Warrants                   $42,750,000   10/1/2012         $42,750,000              $—     N/A                                 N/A                                       $8,338,046
                Winston-Salem, NC131
2/27/2009       Southern First Bancshares, Inc., Greenville, SC98          Preferred Stock w/ Warrants                   $17,299,000   6/27/2012         $15,403,722              $—     7/25/2012       R           $1,100,000         $10.99                         $2,897,640
                Southern Heritage Bancshares, Inc.,
5/15/2009                                                                  Preferred Stock w/ Exercised Warrants          $4,862,000   9/8/2011            $4,862,000             $—     9/8/2011        R             $243,000                                          $613,111
                Cleveland, TN2,50
1/23/2009       Southern Illinois Bancorp, Inc., Carmi, IL2,49             Preferred Stock w/ Exercised Warrants          $5,000,000   8/25/2011           $5,000,000             $—     8/25/2011       R             $250,000                                          $705,472
12/5/2008       Southern Missouri Bancorp, Inc., Poplar Bluff, MO49 Preferred Stock w/ Warrants                           $9,550,000   7/21/2011           $9,550,000             $—                                                    $25.67        114,326          $1,254,764
6/12/2009       SouthFirst Bancshares, Inc., Sylacauga, AL2                Preferred Stock w/ Exercised Warrants          $2,760,000                                                                                                      $1.90                          $364,796
12/5/2008       Southwest Bancorp, Inc., Stillwater, OK                    Preferred Stock w/ Warrants                   $70,000,000   8/8/2012          $70,000,000              $—     5/29/2013       R           $2,287,197         $13.20                        $12,960,373
3/13/2009       Sovereign Bancshares, Inc., Dallas, TX2,49                 Preferred Stock w/ Exercised Warrants         $18,215,000   9/22/2011         $18,215,000              $—     9/22/2011       R             $911,000                                        $2,506,669
3/27/2009       Spirit BankCorp, Inc., Bristow, OK2                        Preferred Stock w/ Exercised Warrants         $30,000,000                                                                                                                                   $2,261,750
3/13/2009       St. Johns Bancshares, Inc., St. Louis, MO2                 Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $682,158
4/24/2009       Standard Bancshares, Inc., Hickory Hills, IL2,158          Preferred Stock w/ Exercised Warrants         $60,000,000   2/22/2013         $60,000,000              $—     2/22/2013       R           $3,000,000                                       $12,757,163
                                                                                                                                       8/12/2009         $12,500,000      $37,500,000
1/16/2009       State Bankshares, Inc., Fargo, ND2                         Preferred Stock w/ Exercised Warrants         $50,000,000                                                     6/29/2011       R           $2,500,000                                        $5,508,472
                                                                                                                                       6/29/2011         $37,500,000              $—
2/13/2009       State Capital Corporation, Greenwood, MS2,30               Preferred Stock w/ Exercised Warrants         $15,000,000   9/29/2010         $15,000,000              $—     9/29/2010       R             $750,000                                        $1,330,709
10/28/2008      State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                $2,000,000,000   6/17/2009       $2,000,000,000             $—     7/8/2009        R          $60,000,000         $65.21                        $63,611,111
                                                                           Subordinated Debentures
6/26/2009       Stearns Financial Services, Inc., St. Cloud, MN8                                                         $24,900,000   1/18/2012         $24,900,000              $—     1/18/2012       R           $1,245,000                                        $5,350,442
                                                                           w/ Exercised Warrants

                                                                 8,10,50   Subordinated Debentures
9/25/2009       Steele Street Bank Corporation, Denver, CO                                                               $11,019,000   9/1/2011          $11,019,000              $—     9/1/2011        R             $331,000                                        $1,728,673
                                                                           w/ Exercised Warrants
                                                                                                                                       4/13/2011           $7,500,000     $22,500,000
12/19/2008      StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                   $30,000,000                                                                                                    $19.65        302,623          $4,271,875
                                                                                                                                       12/28/2011        $22,500,000              $—
12/23/2008      Sterling Bancorp, New York, NY                             Preferred Stock w/ Warrants                   $42,000,000   4/27/2011         $42,000,000              $—     5/18/2011       R             $945,775         $11.62                         $4,923,333
12/12/2008      Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                 $125,198,000    5/5/2009         $125,198,000              $—     6/9/2010        A           $2,857,915                                        $2,486,571
                                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                            (continued)
                                                                                                                                      Capital                                           Final                                            Stock        Current
                                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                              Investment Description                   Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
12/5/2008       Sterling Financial Corporation, Spokane, WA24,118        Common Stock w/ Warrants                     $303,000,000    8/14/2012        $113,338,081              $—     9/19/2012       R             $825,000         $23.78                         $7,594,129
                Stewardship Financial Corporation,
1/30/2009                                                                Preferred Stock w/ Warrants                    $10,000,000   9/1/2011          $10,000,000              $—     10/26/2011      R             $107,398           $5.30                        $1,293,055
                Midland Park, NJ49
                                                                                                                                      1/14/2011           $4,000,000     $11,568,000
2/6/2009        Stockmens Financial Corporation, Rapid City, SD2         Preferred Stock w/ Exercised Warrants          $15,568,000                                                     3/16/2011       R             $778,000                                        $1,755,554
                                                                                                                                      3/16/2011         $11,568,000              $—
                                                                 2,229
1/23/2009       Stonebridge Financial Corp., West Chester, PA            Preferred Stock w/ Exercised Warrants          $10,973,000   3/27/2013           $1,879,145             $—     3/27/2013       P             $139,063                                          $634,609
                                                                         Subordinated Debentures
6/19/2009       Suburban Illinois Bancorp, Inc., Elmhurst, IL8                                                          $15,000,000                                                                                                                                   $2,083,520
                                                                         w/ Exercised Warrants
12/19/2008      Summit State Bank, Santa Rosa, CA49                      Preferred Stock w/ Warrants                     $8,500,000   8/4/2011            $8,500,000             $—     9/14/2011       R             $315,000           $9.47                        $1,115,625
1/9/2009        Sun Bancorp, Inc., Vineland, NJ                          Preferred Stock w/ Warrants                    $89,310,000   4/8/2009          $89,310,000              $—     5/27/2009       R           $2,100,000           $3.39                        $1,103,971
11/14/2008      SunTrust Banks, Inc., Atlanta, GA                        Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011       $3,500,000,000             $—     9/22/2011       A          $14,069,763
                                                                                                                                                                                                                                       $31.57                      $567,986,111
12/31/2008      SunTrust Banks, Inc., Atlanta, GA                        Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011       $1,350,000,000             $—     9/22/2011       A          $15,996,899
12/5/2008       Superior Bancorp Inc., Birmingham, AL17,54               Trust Preferred Securities w/ Warrants         $69,000,000                                                                                                                1,923,792          $4,983,333
1/9/2009        Surrey Bancorp, Mount Airy, NC2                          Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000           $7.75                          $214,972
                                                                                                                                      4/21/2010        $200,000,000     $100,000,000
12/12/2008      Susquehanna Bancshares, Inc, Lititz, PA                  Preferred Stock w/ Warrants                  $300,000,000                                                      1/19/2011       R           $5,269,179         $12.85                        $23,722,222
                                                                                                                                      12/22/2010       $100,000,000              $—
                                               2
4/10/2009       SV Financial, Inc., Sterling, IL                         Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011           $4,000,000             $—     8/31/2011       R             $200,000                                          $521,383
12/12/2008      SVB Financial Group, Santa Clara, CA                     Preferred Stock w/ Warrants                  $235,000,000    12/23/2009       $235,000,000              $—     6/16/2010       R           $6,820,000         $83.32                        $12,109,028
                                                                         Subordinated Debentures
5/8/2009        Sword Financial Corporation , Horicon, WI8,49                                                           $13,644,000   9/15/2011         $13,644,000              $—     9/15/2011       R             $682,000                                        $2,693,234
                                                                         w/ Exercised Warrants
12/19/2008      Synovus Financial Corp., Columbus, GA                    Preferred Stock w/ Warrants                  $967,870,000                                                                                                       $2.92    15,510,737       $213,200,253
1/16/2009       Syringa Bancorp, Boise, ID2                              Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                      $0.16                          $253,122
11/21/2008      Taylor Capital Group, Rosemont, IL86                     Preferred Stock w/ Warrants                  $104,823,000    6/13/2012         $92,254,460              $—     7/18/2012       R           $9,839,273         $16.89                        $18,751,438
                                                                         Subordinated Debentures
8/28/2009       TCB Corporation, Greenwood, SC8,10,50                                                                    $9,720,000   9/8/2011            $9,720,000             $—     9/8/2011        R             $292,000                                        $1,599,381
                                                                         w/ Exercised Warrants
                TCB Holding Company, Texas Community Bank,
1/16/2009                                                                Preferred Stock w/ Exercised Warrants          $11,730,000                                                                                                                                     $690,832
                The Woodlands, TX2
11/14/2008      TCF Financial Corporation, Wayzata, MN                   Preferred Stock w/ Warrants                  $361,172,000    4/22/2009        $361,172,000              $—     12/15/2009      A           $9,449,981         $14.18                         $7,925,719
12/23/2008      TCNB Financial Corp., Dayton, OH2                        Preferred Stock w/ Exercised Warrants           $2,000,000   8/3/2011            $2,000,000             $—     8/3/2011        R             $100,000                                          $284,611
12/19/2008      Tennessee Commerce Bancorp, Inc., Franklin, TN70 Preferred Stock w/ Warrants                            $30,000,000                                                                                                                  461,538          $3,233,333
                Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                               Preferred Stock w/ Exercised Warrants           $3,000,000   4/29/2013           $3,041,330             $—     4/29/2013       P             $144,142                                          $146,242
                Oak Ridge, TN2,238
1/16/2009       Texas Capital Bancshares, Inc., Dallas, TX               Preferred Stock w/ Warrants                    $75,000,000   5/13/2009         $75,000,000              $—     3/11/2010       A           $6,559,066         $44.36                         $1,218,750
1/9/2009        Texas National Bancorporation, Jacksonville, TX2         Preferred Stock w/ Exercised Warrants           $3,981,000   5/19/2010           $3,981,000             $—     5/19/2010       R             $199,000                                          $295,308
8/7/2009        The ANB Corporation, Terrell, TX2,49                     Preferred Stock w/ Exercised Warrants          $20,000,000   8/25/2011         $20,000,000              $—     8/25/2011       R           $1,000,000                                        $2,234,500
12/12/2008      The Bancorp, Inc., Wilmington, DE                        Preferred Stock w/ Warrants                    $45,220,000   3/10/2010         $45,220,000              $—     9/8/2010        R           $4,753,985         $14.99                         $2,813,689
2/6/2009        The Bank of Currituck, Moyock, NC2,34                    Preferred Stock w/ Exercised Warrants           $4,021,000   12/3/2010           $1,742,850             $—     N/A                                 N/A                                         $169,834

                The Bank of Kentucky Financial Corporation,                                                                           12/22/2010        $17,000,000      $17,000,000
2/13/2009                                                                Preferred Stock w/ Warrants                    $34,000,000                                                     5/29/2013       R           $2,150,649         $28.44        276,078          $3,940,694
                Crestview Hills, KY                                                                                                   11/23/2011        $17,000,000              $—
                The Bank of New York Mellon Corporation,
10/28/2008                                                               Preferred Stock w/ Warrants                 $3,000,000,000   6/17/2009       $3,000,000,000             $—     8/5/2009        R        $136,000,000          $28.05                        $95,416,667
                New York, NY
1/16/2009       The Baraboo Bancorporation, Baraboo, WI2,179             Preferred Stock w/ Exercised Warrants          $20,749,000   12/11/2012        $13,399,227              $—     12/11/2012      P             $858,478           $1.41                        $3,766,127
                The Connecticut Bank and Trust Company,
12/19/2008                                                               Preferred Stock w/ Warrants                     $5,448,000   4/19/2012           $5,448,000             $—     4/19/2012       R             $792,783                                          $662,083
                Hartford, CT81
12/19/2008      The Elmira Savings Bank, FSB, Elmira, NY49               Preferred Stock w/ Warrants                     $9,090,000   8/25/2011           $9,090,000             $—                                                    $21.55        116,538          $1,219,575
                                                                                                                                      8/24/2011         $12,500,000      $12,500,000
1/9/2009        The First Bancorp, Inc., Damariscotta, ME                Preferred Stock w/ Warrants                    $25,000,000   3/27/2013           $2,500,000     $10,000,000                                                   $17.48        225,904          $4,332,986
                                                                                                                                      5/8/2013          $10,000,000              $—
2/6/2009        The First Bancshares, Inc., Hattiesburg, MS30            Preferred Stock w/ Warrants                     $5,000,000   9/29/2010           $5,000,000             $—                                                                   54,705            $411,806
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 24, 2013




2/6/2009        The Freeport State Bank, Harper, KS2                     Preferred Stock w/ Exercised Warrants            $301,000    12/19/2012           $301,000              $—     12/19/2012      R              $15,000                                           $63,459
10/28/2008      The Goldman Sachs Group, Inc., New York, NY              Preferred Stock w/ Warrants                $10,000,000,000   6/17/2009      $10,000,000,000             $—     7/22/2009       R      $1,100,000,000         $151.25                      $318,055,555
5/22/2009       The Landrum Company, Columbia, MO2,49                    Preferred Stock w/ Exercised Warrants          $15,000,000   8/18/2011         $15,000,000              $—     8/18/2011       R             $750,000                                        $1,830,292
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     273
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                           (continued)                                                                                                                                                                      274
                                                                                                                                     Capital                                           Final                                            Stock        Current
                                                                                                                                     Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                              Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
12/23/2008      The Little Bank, Incorporated, Kinston, NC2,143          Preferred Stock w/ Exercised Warrants          $7,500,000   10/31/2012          $7,285,410             $—     10/31/2012      R             $371,250                                        $1,575,992
                The PNC Financial Services Group Inc.,
12/31/2008                                                               Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010       $7,579,200,000             $—     4/29/2010       A        $320,277,984          $72.92                      $421,066,667
                Pittsburgh, PA
2/20/2009       The Private Bank of California, Los Angeles, CA2,49 Preferred Stock w/ Exercised Warrants               $5,450,000   9/1/2011            $5,450,000             $—     9/1/2011        R             $273,000                                          $751,752
1/9/2009        The Queensborough Company, Louisville, GA2,223           Preferred Stock w/ Exercised Warrants         $12,000,000   3/11/2013         $11,605,572              $—     3/11/2013       P             $576,774                                          $882,900
                                                                         Subordinated Debentures
9/4/2009        The State Bank of Bartley, Bartley, NE8,10,49                                                           $1,697,000   9/22/2011           $1,697,000             $—     9/22/2011       R              $51,000                                          $282,299
                                                                         w/ Exercised Warrants
12/11/2009      The Victory Bancorp, Inc., Limerick, PA2,10a,49          Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011           $1,505,000             $—     9/22/2011       R              $34,000                                          $215,183
                The Victory Bancorp, Inc. (The Victory Bank),
2/27/2009                                                                Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011            $541,000              $—     9/22/2011       R              $27,000
                Limerick, PA2,13,49
                Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                                Preferred Stock w/ Exercised Warrants          $5,677,000   11/9/2012           $4,992,788             $—     11/9/2012       P             $282,285                                        $1,174,058
                National Bank & Trust), Orlando, FL2,13,153
12/5/2008       TIB Financial Corp, Naples, FL32                         Preferred Stock w/ Warrants                   $37,000,000   9/30/2010         $12,119,637              $—     9/30/2010       R              $40,000                                        $1,284,722
12/19/2008      Tidelands Bancshares, Inc, Mount Pleasant, SC            Preferred Stock w/ Warrants                   $14,448,000                                                                                                                  571,821          $1,195,973
4/17/2009       Tifton Banking Company, Tifton, GA2,52                   Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                     $223,208
12/23/2008      Timberland Bancorp, Inc., Hoquiam, WA154                 Preferred Stock w/ Warrants                   $16,641,000   11/13/2012        $14,209,334              $—     6/12/2013       P           $1,301,856           $8.42                        $3,346,629
4/3/2009        Titonka Bancshares, Inc, Titonka, IA2                    Preferred Stock w/ Exercised Warrants          $2,117,000   4/4/2012            $2,117,000             $—     4/4/2012        R             $106,000                                          $346,491
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I July 24, 2013




2/6/2009        Todd Bancshares, Inc., Hopkinsville, KY2                 Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $931,950
12/12/2008      TowneBank, Portsmouth, VA50                              Preferred Stock w/ Warrants                   $76,458,000   9/22/2011         $76,458,000              $—     5/15/2013       R           $1,500,000         $14.72                        $10,619,167
                                                                                                                                     2/15/2011            $500,000              $—
1/16/2009       Treaty Oak Bancorp, Inc., Austin, TX2,36                 Warrants                                       $3,268,000                                                                                                      $0.19     3,098,341            $192,415
                                                                                                                                     12/21/2012           $150,000              $—
3/27/2009       Triad Bancorp, Inc., Frontenac, MO2,49                   Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011           $3,700,000             $—     9/22/2011       R             $185,000                                          $501,325
12/19/2008      Tri-County Financial Corporation, Waldorf, MD2,49        Preferred Stock w/ Exercised Warrants         $15,540,000   9/22/2011         $15,540,000              $—     9/22/2011       R             $777,000                                        $2,336,116
3/27/2009       Trinity Capital Corporation , Los Alamos, NM2,107        Preferred Stock w/ Exercised Warrants         $35,539,000   7/27/2012         $26,396,503              $—     7/27/2012       P           $1,655,787                                        $6,592,186
4/3/2009        Tri-State Bank of Memphis, Memphis, TN2,3,30             Preferred Stock                                $2,795,000   8/13/2010           $2,795,000             $—     N/A                                 N/A                                         $190,215
2/27/2009       TriState Capital Holdings, Inc., Pittsburgh, PA2         Preferred Stock w/ Exercised Warrants         $23,000,000   9/26/2012         $23,000,000              $—     9/26/2012       R           $1,150,000                                        $4,492,402
4/3/2009        TriSummit Bank, Kingsport, TN2,175                       Preferred Stock w/ Exercised Warrants          $2,765,000   11/29/2012          $2,053,013             $—     11/29/2012      P             $124,666
                                                                                                                                                                                                                                                                     $1,172,766
12/22/2009      TriSummit Bank, Kingsport, TN2,10a,175                   Preferred Stock                                $4,237,000   11/29/2012          $3,145,973             $—     N/A                                 N/A
11/21/2008      Trustmark Corporation, Jackson, MS                       Preferred Stock w/ Warrants                 $215,000,000    12/9/2009        $215,000,000              $—     12/30/2009      R          $10,000,000         $24.58                        $11,287,500
5/29/2009       Two Rivers Financial Group, Burlington, IA2,49           Preferred Stock w/ Exercised Warrants         $12,000,000   9/1/2011          $12,000,000              $—     9/1/2011        R             $600,000         $19.50                         $1,475,133
11/14/2008      U.S. Bancorp, Minneapolis, MN                            Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009       $6,599,000,000             $—     7/15/2009       R        $139,000,000          $36.15                      $195,220,417
8/7/2009        U.S. Century Bank, Miami, FL2                            Preferred Stock w/ Exercised Warrants         $50,236,000                                                                                                                                     $745,312
1/30/2009       UBT Bancshares, Inc., Marysville, KS2,49                 Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011           $8,950,000             $—     8/11/2011       R             $450,000                                        $1,234,912
11/14/2008      UCBH Holdings, Inc., San Francisco, CA14                 Preferred Stock w/ Warrants                 $298,737,000                                                                                                                 7,847,732          $7,509,920
11/14/2008      Umpqua Holdings Corp., Portland, OR                      Preferred Stock w/ Warrants                 $214,181,000    2/17/2010        $214,181,000              $—     3/31/2010       R           $4,500,000         $15.01                        $13,475,555
5/1/2009        Union Bank & Trust Company, Oxford, NC2,50               Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011           $3,194,000             $—     9/22/2011                     $160,000
                                                                                                                                                                                                       R                                                               $680,292
12/18/2009      Union Bank & Trust Company, Oxford, NC2,10a,49           Preferred Stock                                $2,997,000   9/22/2011           $2,997,000             $—     N/A                                 N/A
                                                                  2,10
12/29/2009      Union Financial Corporation, Albuquerque, NM             Preferred Stock w/ Exercised Warrants          $2,179,000   7/25/2012            $600,000       $1,579,000                                                                                    $363,602
                Union First Market Bankshares Corporation
2/6/2009                                                                 Preferred Stock                               $33,900,000   12/7/2011         $35,595,000              $—     N/A                                 N/A                                       $5,239,859
                (First Market Bank, FSB), Bowling Green, VA18
                Union First Market Bankshares Corporation                                                                                                                                                                             $20.59
12/19/2008      (Union Bankshares Corporation),                          Preferred Stock w/ Warrants                   $59,000,000   11/18/2009        $59,000,000              $—     12/23/2009      R             $450,000                                        $2,695,972
                Bowling Green, VA18
                                                         2
2/20/2009       United American Bank, San Mateo, CA                      Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                           $—
1/16/2009       United Bancorp, Inc., Tecumseh, MI91                     Preferred Stock w/ Warrants                   $20,600,000   6/13/2012         $16,750,221              $—     7/18/2012       R              $38,000           $7.25                        $3,527,704
                United Bancorporation of Alabama, Inc.,
12/23/2008                                                               Preferred Stock w/ Warrants                   $10,300,000   9/3/2010          $10,300,000              $—                                                                  108,264            $872,639
                Atmore, AL30
                                                                         Subordinated Debentures w/ Exercised
5/22/2009       United Bank Corporation, Barnesville, GA8                                                              $14,400,000   7/3/2012          $14,400,000              $—     7/3/2012        R             $720,000                                        $3,762,079
                                                                         Warrants
12/5/2008       United Community Banks, Inc., Blairsville, GA232         Preferred Stock w/ Warrants                 $180,000,000    3/28/2013        $171,517,500              $—     6/12/2013       P               $6,677         $12.42                        $38,843,350

                United Financial Banking Companies, Inc.,                                                                            12/15/2010          $3,000,000      $2,658,000
1/16/2009                                                                Preferred Stock w/ Exercised Warrants          $5,658,000                                                     9/15/2011       R             $283,000         $17.01                           $708,964
                Vienna, VA2,49                                                                                                       9/15/2011           $2,658,000             $—
12/5/2008       Unity Bancorp, Inc., Clinton, NJ                         Preferred Stock w/ Warrants                   $20,649,000   5/15/2013         $10,324,000      $10,325,000                                                     $7.10                        $4,588,667
                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                        (continued)
                                                                                                                                  Capital                                           Final                                            Stock        Current
                                                                                                                                  Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Purchase Date   Institution                                           Investment Description                  Investment Amount   Date                   Amount6   Capital Amount   Date          Note15          Proceeds     6/28/2013        Warrants     Paid to Treasury
5/22/2009       Universal Bancorp, Bloomfield, IN2                    Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                                   $2,147,709
6/19/2009       University Financial Corp, Inc., St. Paul, MN3,8,30   Subordinated Debentures                       $11,926,000   7/30/2010         $11,926,000              $—     N/A                                 N/A                                       $1,022,886
2/6/2009        US Metro Bank, Garden Grove, CA2                      Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                      $1.50                          $432,678
12/23/2008      Uwharrie Capital Corp, Albemarle, NC2                 Preferred Stock w/ Exercised Warrants         $10,000,000   4/3/2013            $7,742,000      $2,258,000                                                     $2.50                        $2,349,811
1/30/2009       Valley Commerce Bancorp, Visalia, CA2                 Preferred Stock w/ Exercised Warrants          $7,700,000   3/21/2012           $7,700,000             $—     3/21/2012       R             $385,000         $12.86                         $1,318,401
1/9/2009        Valley Community Bank, Pleasanton, CA2                Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                      $1.50                          $629,476
                                                                                                                                  11/14/2012          $1,600,000     $14,419,000
12/12/2008      Valley Financial Corporation, Roanoke, VA             Preferred Stock w/ Warrants                   $16,019,000   2/20/2013           $1,600,000     $12,819,000                                                                 344,742          $3,523,269
                                                                                                                                  5/15/2013           $1,600,000     $11,219,000
                Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                            Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011           $1,300,000             $—     9/22/2011       R              $65,000                       488,847            $124,775
                Saginaw, MI
                                                                                                                                  6/3/2009          $75,000,000     $225,000,000
11/14/2008      Valley National Bancorp, Wayne, NJ                    Preferred Stock w/ Warrants                 $300,000,000    9/23/2009        $125,000,000     $100,000,000    5/18/2010       A           $5,421,615           $9.47
                                                                                                                                  12/23/2009       $100,000,000              $—
12/5/2008       Valley National Bancorp (State Bancorp, Inc.)68       Preferred Stock w/ Warrants                   $36,842,000   12/14/2011        $36,842,000              $—                                                                                   $5,572,353
                Veritex Holdings, Inc.(Fidelity Resources
6/26/2009                                                             Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011           $3,000,000             $—     8/25/2011       R             $150,000                                          $353,796
                Company), Dallas, TX2,40,49
                Village Bank and Trust Financial Corp,
5/1/2009                                                              Preferred Stock w/ Warrants                   $14,738,000                                                                                                      $1.67       499,029          $1,318,232
                Midlothian, VA
12/12/2008      Virginia Commerce Bancorp, Arlington, VA              Preferred Stock w/ Warrants                   $71,000,000   12/11/2012        $71,000,000              $—                                                    $13.96      2,696,203         $14,190,139
6/12/2009       Virginia Company Bank, Newport News, VA2,10           Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                                     $786,987
4/24/2009       Vision Bank - Texas, Richardson, TX2                  Preferred Stock w/ Exercised Warrants          $1,500,000   12/28/2012           $787,500         $712,500                                                                                    $316,785
12/19/2008      VIST Financial Corp., Wyomissing, PA117               Preferred Stock w/ Warrants                   $25,000,000   8/1/2012          $25,000,000              $—     8/1/2012        R           $1,189,813                                        $4,520,833
1/30/2009       W.T.B. Financial Corporation, Spokane, WA2,50         Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011        $110,000,000              $—     9/15/2011       R           $5,500,000                                       $15,736,874
                                                                                                                                  4/4/2012            $3,000,000      $9,000,000
12/11/2009      Wachusett Financial Services, Inc., Clinton, MA2,10   Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                   $1,978,713
                                                                                                                                  1/30/2013           $4,000,000      $5,000,000
12/19/2008      Wainwright Bank & Trust Company, Boston, MA           Preferred Stock w/ Warrants                   $22,000,000   11/24/2009        $22,000,000              $—     12/16/2009      R             $568,700                                        $1,023,611
1/16/2009       Washington Banking Company, Oak Harbor, WA            Preferred Stock w/ Warrants                   $26,380,000   1/12/2011         $26,380,000              $—     3/2/2011        R           $1,625,000         $14.20                         $2,623,344
11/14/2008      Washington Federal, Inc., Seattle, WA                 Preferred Stock w/ Warrants                 $200,000,000    5/27/2009        $200,000,000              $—     3/9/2010        A          $15,388,874         $18.88                         $5,361,111
10/30/2009      WashingtonFirst Bankshares, Inc., Reston, VA2,10a,49 Preferred Stock                                 $6,842,000   8/4/2011            $6,842,000             $—     N/A                                 N/A                                       $1,510,318
                WashingtonFirst Bankshares, Inc.
1/30/2009                                                             Preferred Stock w/ Exercised Warrants          $6,633,000   8/4/2011            $6,633,000             $—     8/4/2011        R             $332,000
                (WashingtonFirst Bank), Reston, VA2,13,49
6/26/2009       Waukesha Bankshares, Inc., Waukesha, WI2,10,205       Preferred Stock w/ Exercised Warrants          $5,625,000   2/7/2013            $5,161,674             $—     2/7/2013        P             $165,839                                        $1,071,380
                                                                                                                                  3/3/2010         $100,000,000     $300,000,000
11/21/2008      Webster Financial Corporation, Waterbury, CT          Preferred Stock w/ Warrants                 $400,000,000    10/13/2010       $100,000,000     $200,000,000    6/2/2011        A          $20,388,842         $25.68                        $36,944,444
                                                                                                                                  12/29/2010       $200,000,000              $—
10/28/2008      Wells Fargo & Company, San Francisco, CA              Preferred Stock w/ Warrants               $25,000,000,000   12/23/2009     $25,000,000,000             $—     5/20/2010       A        $840,374,892          $41.27                     $1,440,972,222
12/5/2008       WesBanco, Inc., Wheeling, WV                          Preferred Stock w/ Warrants                   $75,000,000   9/9/2009          $75,000,000              $—     12/23/2009      R             $950,000         $26.43        100,448          $2,854,167
                WesBanco, Inc. (Fidelity Bancorp, Inc.),
12/12/2008                                                            Preferred Stock w/ Warrants                    $7,000,000   11/30/2012          $7,000,000             $—                                                                                   $1,388,333
                Wheeling, WV176
12/31/2008      West Bancorporation, Inc., West Des Moines, IA        Preferred Stock w/ Warrants                   $36,000,000   6/29/2011         $36,000,000              $—     8/31/2011       R             $700,000         $11.75                         $4,495,000
                                                                                                                                  9/2/2009          $41,863,000      $41,863,000
2/13/2009       Westamerica Bancorporation, San Rafael, CA            Preferred Stock w/ Warrants                   $83,726,000                                                     11/18/2011      P             $878,256         $45.69        246,698          $2,755,981
                                                                                                                                  11/18/2009        $41,863,000              $—
                                                                 49
11/21/2008      Western Alliance Bancorporation, Las Vegas, NV        Preferred Stock w/ Warrants                 $140,000,000    9/27/2011        $140,000,000              $—     11/18/2011      P             $415,000         $15.83                        $19,950,000
                Western Community Bancshares, Inc.,
12/23/2008                                                            Preferred Stock w/ Exercised Warrants          $7,290,000                                                                                                                                     $554,083
                Palm Desert, CA2
12/23/2008      Western Illinois Bancshares Inc., Monmouth, IL2,155   Preferred Stock w/ Exercised Warrants          $6,855,000   11/9/2012           $6,398,944             $—     11/9/2012                     $335,417
                Western Illinois Bancshares Inc.,                                                                                                                                                   P                                                             $2,102,189
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 24, 2013




12/29/2009                                                            Preferred Stock                                $4,567,000   11/9/2012           $4,217,361             $—     N/A                                 N/A
                Monmouth, IL2,10a,155
5/15/2009       Western Reserve Bancorp, Inc, Medina, OH2,177         Preferred Stock w/ Exercised Warrants          $4,700,000   11/30/2012          $4,700,000             $—     11/30/2012      R             $235,000         $28.00                           $907,198
2/20/2009       White River Bancshares Company, Fayetteville, AR2 Preferred Stock w/ Exercised Warrants             $16,800,000                                                                                                                                   $1,589,583
12/19/2008      Whitney Holding Corporation, New Orleans, LA45        Preferred Stock w/ Warrants                 $300,000,000    6/3/2011         $300,000,000              $—     6/3/2011        R           $6,900,000                                       $36,833,333
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 275
     CPP TRANSACTIONS DETAIL, AS OF 6/30/2013                                                         (continued)                                                                                                                                                                                                                276
                                                                                                                                               Capital                                                         Final                                                        Stock          Current
                                                                                                                                               Repayment          Capital Repayment           Remaining        Disposition                    Final Disposition        Price as of     Outstanding       Dividend/Interest
     Purchase Date      Institution                                         Investment Description                     Investment Amount       Date                         Amount6       Capital Amount       Date               Note15             Proceeds         6/28/2013          Warrants         Paid to Treasury
     12/12/2008         Wilshire Bancorp, Inc., Los Angeles, CA76           Preferred Stock w/ Warrants                       $62,158,000      3/28/2012                 $57,766,994                    $—     6/20/2012            R                 $760,000               $6.62                            $10,282,176
     12/19/2008         Wintrust Financial Corporation, Lake Forest, IL     Preferred Stock w/ Warrants                      $250,000,000      12/22/2010               $250,000,000                    $—     2/8/2011             A             $25,600,564              $38.28                             $25,104,167
                        Worthington Financial Holdings, Inc.,
     5/15/2009                                                              Preferred Stock w/ Exercised Warrants               $2,720,000     6/24/2013                  $2,318,851                    $—     6/24/2013            P                  $90,940                                                    $370,600
                        Huntsville, AL2,249
     1/23/2009          WSFS Financial Corporation79                        Preferred Stock w/ Warrants                       $52,625,000      3/28/2012                 $47,435,299                    $—     9/12/2012            R               $1,800,000             $52.39                               $8,405,558
     1/16/2009          Yadkin Valley Financial Corporation, Elkin, NC124   Preferred Stock w/ Warrants                       $36,000,000      9/12/2012                 $31,843,080                    $—     6/12/2013            P                  $20,000             $14.04          128,663              $8,820,923
     7/24/2009          Yadkin Valley Financial Corporation, Elkin, NC125   Preferred Stock w/ Warrants                       $13,312,000      9/12/2012                 $11,643,740                    $—     6/12/2013            P                  $55,677                               91,178
     4/24/2009          York Traditions Bank , York, PA2,50                 Preferred Stock w/ Exercised Warrants               $4,871,000     7/14/2011                  $4,871,000                    $—     7/14/2011            R                 $244,000                                                    $590,022
                                                                                                                                               3/28/2012                $700,000,000        $700,000,000
     11/14/2008         Zions Bancorporation, Salt Lake City, UT            Preferred Stock w/ Warrants                    $1,400,000,000                                                                      12/5/2012            P               $7,666,419             $28.92                            $253,361,111
                                                                                                                                               9/26/2012                $700,000,000                    $—
                                                                                                                                                      Total
                                                                                                                                                    Capital
                                                                                        Total Purchase Amount*         $204,943,827,320                     $196,005,065,209
                                                                                                                                                 Repayment
                                                                                                                                                  Amount**
                                                                                                                                            Total Losses***     ($3,486,315,340)
                                                                                                              Total Treasury CPP Investment Outstanding $5,452,446,771                                   Total Warrant Proceeds****         $7,874,131,974
     Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numeric notes were taken verbatim from Treasury’s 6/28/2013 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 6/30/2013.
                                                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 24, 2013




     * Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
     ** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common
         Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
     *** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale, but excludes investment amounts for institutions that have pending receivership or
          bankruptcy proceedings.
     **** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a). Beginning with the Transactions Report for the period ending April 20, 2012, disposition amounts for warrant sales by
           Treasury in a registered public offering (“A”) are displayed after underwriting fees (net) as oppose to before underwriting fees and selling expenses (gross).

     Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Dividends and Interest Report, 7/10/2013.




1a
  	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
      1/1/2009, and this transaction under the CPP was funded on 1/9/2009.
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and
      $122,365,216. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
 	Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
 	To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a
  	Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
 	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
 	Redemption pursuant to a qualified equity offering.
6
 	This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
 	The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
 	Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
 	In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   	This institution participated in the expansion of CPP for small banks.
10a
    	This institution received an additional investment through the expansion of CPP for small banks.
11
   	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
      Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
      purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   	On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   	This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   	As of the date of this report, this institution is in bankruptcy proceedings.
15
   	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered
      public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.
16
   	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
      common shares to holders of CVRs were not met.
17
   	On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
      dividend rate equivalent to those of Treasury’s original investment.
19
   	On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and
      unpaid dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued
      and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
   	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see
      note 11). On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on 6/30/2010 (or on completion of
      the sale). Completion of the sale under this authority occurred on 5/26/2010. On 5/26/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending
      on 6/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 6/30/2010. On 7/23/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from
      time to time during the period ending on 9/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 9/30/2010. On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which plan was terminated on 12/6/2010. All such sales were generally made at the market price. On 12/6/2010, Treasury commenced an underwritten
      public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during
      those periods.
24
  	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
     4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
  	On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
26
  	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement between
     Treasury and TD entered into on 5/18/2010.
27
  	On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28
  	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
     unpaid dividends. On 10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on
     the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
29
  	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
     investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
     common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30
  	This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a
   	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31
  	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
     8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32
  	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the agreement
     between Treasury and NAFH entered into on 9/24/2010.
33
  	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
     entered into on 10/29/2010.
34
  	On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and
     Currituck entered into on 11/5/2010.
35
  	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
     closing of the sale also occurred on 1/28/2011.
36
  	On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
     payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.
37
  	On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
38
  	On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
     Treasury and FBHC entered into on 3/9/2011.
39
  	On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
     debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.
40
  	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an
     agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
41
  	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
     preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
     into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42
  	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
     Bear State entered into on 5/3/2011.
43
  	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent
     warrant issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.
44
  	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
     held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011.
45
  	On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid
     dividends thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.
46
  	On 6/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 6/17/2011. On
     4/4/2012, Treasury completed the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of $36,039,222.17, pursuant to an underwriting
     agreement executed on 3/29/2012.
47
  	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
     on 6/28/2011.
49
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
50
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
51
  	On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
53
  	On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
54
  	On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
55
  	On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
56
  	On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
57
  	On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United
     entered into on 8/12/2011.
59
  	On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
     entered into on 9/6/2011.
60
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
     unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
61
  	On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
62
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
63
  	On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
64
  	On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on
     10/20/2011.
65
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
     among Treasury, CFC and CFB entered into on 11/15/2011.
66
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
     Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
67
  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by
     Treasury for a like F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.
68
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company
     and the acquiror entered into on 1/1/2012.
69
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the
     exercise of warrants) that had been issued to Treasury by Regents.
70
  	On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
71
  	On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
                                                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I July 24, 2013




72
  	On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a
     capital plan.
73
  	On 3/9/2012, Treasury completed the sale of all Mainline Bancorp, Inc. preferred stock and exercised warrants held by Treasury to 9th Street Holdings, Inc., a subsidiary of S&T Bancorp, Inc., for an aggregate purchase price of $4,725,000 plus accrued and unpaid dividends, pursuant to the terms of an
     agreement among Treasury, 9th Street Holdings, Inc., and S&T Bancorp, Inc. entered into on 3/8/2012.
74
  	On 4/3/2012, Treasury completed the sale of 124,000 shares of Banner Corporation preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $108,071,914.80 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
75
  	On 4/3/2012, Treasury completed the sale of 65,000 shares of First Financial Holdings, Inc. preferred stock at $873.51 per share (less underwriting discounts) for net proceeds of $55,926,477.75 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
76
  	On 4/3/2012, Treasury completed the sale of 62,158 shares of Wilshire Bancorp, Inc. preferred stock at $943.51 per share (less underwriting discounts) for net proceeds of $57,766,994.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
                                                                                                                                                                                                                                                                                                                            277
                                                                                                                                                                                                                                                                                                                       278
77
  	On 4/3/2012, Treasury completed the sale of 2,000 shares of Seacoast Banking Corporation of Florida preferred stock at $20,510.00 per share (less underwriting discounts) for net proceeds of $40,404,700.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
     3/28/2012.
78
  	On 4/3/2012, Treasury completed the sale of 57,000 shares of MainSource Financial Group, Inc. preferred stock at $931.11 per share (less underwriting discounts) for net proceeds of $52,277,170.95 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
79
  	On 4/3/2012, Treasury completed the sale of 52,625 shares of WSFS Financial Corporation preferred stock at $915.11 per share (less underwriting discounts) for net proceeds of $47,435,298.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
80
  	On 4/13/2012, Treasury completed the sale of all Gateway Bancshares, Inc. preferred stock held by Treasury to First Volunteer Corporation (“First Volunteer”) for an aggregate purchase price of $6,300,000.00 plus accrued and unpaid dividends, pursuant to the terms of the agreement between Treasury
     and First Volunteer entered into on 4/13/2012.
81
  	On 4/20/2012, Treasury completed the sale of all The Connecticut Bank and Trust Company preferred stock held by Treasury to Berkshire Bank for an aggregate purchase price of $6,289,966.33 consisting of (a) (i) $5,448,000.00 for the preferred stock plus (ii) all accrued and unpaid dividends and (b)
     $792,783.00 for the Warrant, pursuant to the terms of the agreement by and among Treasury, The Connecticut Bank and Trust Company, and Berkshire Bank entered into on 4/19/2012.
82
  	On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
83
  	On 4/24/2012, Treasury completed the sale of all Peoples Bancorporation, Inc. (“Peoples”) preferred stock held by Treasury to SCBT Financial Corporation (“SCBT”) for an aggregate purchase price of $13,293,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among
     Treasury, Peoples, and SCBT entered into on 4/24/2012.
84
  	On 8/14/2012, Treasury completed the sale of all Millennium Bancorp, Inc. (Millennium) Preferred Stock held by Treasury to CIC Bancshares, Inc. (CIC) for an aggregate purchase price of (i) $2.904 million plus (ii) accrued and unpaid dividends on the Preferred Stock as of the closing date, pursuant to an
     agreement by and amount Treasury, CIC, and Millennium entered into on 4/20/2012.
85
  	On 6/19/2012, Treasury completed the sale of 52,000 shares of Ameris Bancorp preferred stock at $930.60 per share (less underwriting discounts) for net proceeds of $47,665,332.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
86
  	On 6/19/2012, Treasury completed the sale of 104,823 shares of Taylor Capital Group preferred stock at $893.50 per share (less underwriting discounts) for net proceeds of $92,254,460.24 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
87
  	On 6/19/2012, Treasury completed the sale of 30,000 shares of Farmers Capital Bank Corporation preferred stock at $869.17 per share (less underwriting discounts) for net proceeds of $21,594,228.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
88
  	On 6/19/2012, Treasury completed the sale of 25,223 shares of LNB Bancorp Inc. preferred stock at $739.89 per share (less underwriting discounts) for net proceeds of $21,863,749.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
89
  	On 6/19/2012, Treasury completed the sale of 37,000 shares of First Defiance Financial Corp. preferred stock at $962.66 per share (less underwriting discounts) for net proceeds of $35,084,143.70 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
90
  	On 6/19/2012, Treasury completed the sale of 10,958 shares of First Capital Bancorp, Inc. preferred stock at $920.11 per share (less underwriting discounts) for net proceeds of $9,931,326.90 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
91
  	On 6/19/2012, Treasury completed the sale of 20,600 shares of United Bancorp, Inc. preferred stock at $825.50 per share (less underwriting discounts) for net proceeds of $16,750,220.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
92
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 48,200 shares of Fidelity Southern Corporation preferred stock at $900.60 per share (less underwriting discounts) for net proceeds of $42,757,786.20 plus accrued and unpaid dividends.
93
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 25,054 shares of Peoples Bancorp of North Carolina, Inc. preferred stock at $933.36 per share (less underwriting discounts) for net proceeds of $23,033,635.42 plus accrued and unpaid dividends.
94
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 23,184 shares of First Citizens Banc Corp preferred stock at $906.00 per share (less underwriting discounts) for net proceeds of $20,689,633.44 plus accrued and unpaid dividends.
95
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 45,000 shares of MetroCorp Bancshares, Inc. preferred stock at $981.17 per share (less underwriting discounts) for net proceeds of $43,490,360.25 plus accrued and unpaid dividends.
96
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 32,538 shares of Pulaski Financial Corp preferred stock at $888.00 per share (less underwriting discounts) for net proceeds of $28,460,337.84 plus accrued and unpaid dividends.
97
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 33,000 shares of Firstbank Corporation preferred stock at $941.01 per share (less underwriting discounts) for net proceeds of $30,587,530.05 plus accrued and unpaid dividends.
98
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 17,299 shares of Southern First Bancshares, Inc. preferred stock at $904.00 per share (less underwriting discounts) for net proceeds of $15,403,721.56 plus accrued and unpaid dividends.
99
  	On 7/12/2012, Treasury completed the sale of all Naples Bancorp, Inc. (“Naples Bancorp”) preferred stock held by Treasury to Naples Bancorp for an aggregate purchase price of $600,000.00, pursuant to the terms of the agreement between Treasury and Naples Bancorp entered into on 7/12/2012.
100
   	On 7/17/2012, Treasury completed the sale of all Heartland Bancshares, Inc. (“Heartland”) preferred stock held by Treasury to Horizon Bancorp for an aggregate purchase price of $7,248,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among Treasury, Heartland,
     and Horizon Bancorp entered into on 7/17/2012. 101 As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009
     were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.
102
                                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I July 24, 2013




   	On 8/10/2012, Treasury completed the sale of 35,500 shares of Marquette National Corporation preferred stock at $720.25 per share (less a placement agent fee) for net proceeds of $25,313,186.25 and 1,775 shares of Marquette National Corporation preferred stock received upon the exercise of
     warrants at $825.25 per share (less a placement agent fee) for net proceeds of $1,450,170.56, pursuant to a placement agency agreement executed on 7/23/2012.
103
   	On 8/13/2012, Treasury completed the sale of 43,000 shares of Exchange Bank preferred stock at $875.25 per share (less a placement agent fee) for net proceeds of $37,259,392.50 and 2,150 shares of Exchange Bank preferred stock received upon the exercise of warrants at $965.10 per share (less
     a placement agent fee) for net proceeds of $2,054,215.35, pursuant to a placement agency agreement executed on 7/23/2012.
104
   	On 8/9/2012, Treasury completed the sale of 36,282 shares of Fidelity Financial Corporation preferred stock at $891.26 per share (less a placement agent fee) for net proceeds of $32,013,328.37 and 1,814 shares of Fidelity Financial Corporation preferred stock received upon the exercise of warrants at
     $960.60 per share (less a placement agent fee) for net proceeds of $1,725,103.12, pursuant to a placement agency agreement executed on 7/23/2012.
105
   	On 8/9/2012, Treasury completed the sale of 428 shares of First Western Financial, Inc. preferred stock received upon the exercise of warrants at $828.50 per share (less a placement agent fee) for net proceeds of $351,052.02, pursuant to a placement agency agreement executed on 7/23/2012.
106
   	On 8/10/2012, Treasury completed the sale of 23,200 shares of Park Bancorporation, Inc. preferred stock at $730.25 per share (less a placement agent fee) for net proceeds of $16,772,382.00 and 1,160 shares of Park Bancorporation, Inc. preferred stock received upon the exercise of warrants at
     $780.25 per share (less a placement agent fee) for net proceeds of $896,039.10, pursuant to a placement agency agreement executed on 7/23/2012.
107
   	On 8/10/2012, Treasury completed the sale of 35,539 shares of Trinity Capital Corporation preferred stock at $750.25 per share (less a placement agent fee) for net proceeds of $26,396,503.40 and 1,777 shares of Trinity Capital Corporation preferred stock received upon the exercise of warrants at
     $941.20 per share (less a placement agent fee) for net proceeds of $1,655,787.28, pursuant to a placement agency agreement executed on 7/23/2012.
108
   	On 8/10/2012, Treasury completed the sale of 24,300 shares of CBS Banc-Corp. preferred stock at $905.20 per share (less a placement agent fee) for net proceeds of $21,776,396.40 and 1,215 shares of CBS Banc-Corp. preferred stock received upon the exercise of warrants at $921.00 per share
     (less a placement agent fee) for net proceeds of $1,107,824.85, pursuant to a placement agency agreement executed on 7/23/2012.
109
   	On 8/9/2012, Treasury completed the sale of its Market Street Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $18,069,212.70 and its Market Street Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee)
     for net proceeds of $824,730.64, pursuant to a placement agency agreement executed on 7/23/2012.
110
   	On 8/9/2012, Treasury completed the sale of its Commonwealth Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $15,147,000.00 and its Commonwealth Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent
     fee) for net proceeds of $898,722.00, pursuant to a placement agency agreement executed on 7/23/2012.
111
   	On 8/9/2012, Treasury completed the sale of its Diamond Bancorp, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $14,780,661.64 and its Diamond Bancorp, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds
     of $779,576.49, pursuant to a placement agency agreement executed on 7/23/2012.
112
   	On 8/10/2012, Treasury completed the sale of 22,252 shares of Premier Financial Bancorp, Inc. preferred stock at $901.03 per share (less a placement agent fee) for net proceeds of $19,849,222.36, pursuant to a placement agency agreement executed on 7/23/2012.
113
   	On 8/10/2012, Treasury completed the sale of 1,100 shares of First Community Financial Partners, Inc. preferred stock received upon the exercise of warrants at $661.50 per share (less a placement agent fee) for net proceeds of $720,373.50, pursuant to a placement agency agreement executed on
     7/23/2012.
114
   	On 8/9/2012, Treasury completed the sale of 8,000 shares of First Western Financial, Inc. preferred stock at $775.00 per share (less a placement agent fee) for net proceeds of $6,138,000.00, pursuant to a placement agency agreement executed on 7/23/2012.
115
   	On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc. , was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
116
   	On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.
117
   	On 8/1/2012, Treasury completed the sale of all VIST Financial Corp. (“VIST”) preferred stock and the related warrant held by Treasury to Tompkins Financial Corporation (“Tompkins”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($25,000,000) plus accrued and unpaid
     dividends thereon and (ii) $1,189,813 for the warrant, pursuant to the terms of the agreement by and among Treasury, VIST, and Tompkins entered into on 8/1/2012.
118
   	On 8/20/2012, Treasury completed the sale of 5,738,637 split adjusted shares of Sterling Financial Corporation common stock at $20.00 per share (less underwriting discounts) for net proceeds of $113,338,080.75, pursuant to an underwriting agreement executed on 8/14/2012.
119
   	On 8/21/2012, Treasury completed the sale of 230,000 shares of M&T Bank Corporation Series A Preferred Shares and 151,500 shares of M&T Bank Corporation Series C Preferred Shares at $1,000.00 per share plus accrued dividends for proceeds of $381,500,000.00 plus accrued dividends,
     pursuant to an underwriting agreement executed on 8/17/2012.
120
   	On 8/29/2012, Treasury completed the sale of 31,260 shares of BNC Bancorp preferred stock at $921.23 per share (less underwriting discounts) for net proceeds of $28,365,685.05 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
121
   	On 8/29/2012, Treasury completed the sale of 11,000 shares of Mackinac Financial Corporation preferred stock at $958.09 per share (less underwriting discounts) for net proceeds of $10,380,905.15 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
122
   	On 8/29/2012 Treasury completed the sale of 11,350 shares of First Community Corporation preferred stock at $982.83 per share (less underwriting discounts) for net proceeds of $10,987,793.69 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
123
   	On 8/29/2012, Treasury completed the sale of 13,900 shares of First National Corporation preferred stock at $882.50 per share (less underwriting discounts) for net proceeds of $12,082,748.75 plus accrued dividends and 695 shares of First National Corporation preferred stock (held as a result of
    warrant exercise) at $912.50 per share (less underwriting discounts) for net proceeds of $624,674.69 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
124
   	On 9/18/2012, Treasury completed the sale of 36,000 shares of Yadkin Valley Financial Corporation Series T preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $31,843,080.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
    9/12/2012.
125
   	On 9/18/2012, Treasury completed the sale of 13,312 shares of Yadkin Valley Financial Corporation Series T-ACB preferred stock at $880.00 per share (less underwriting discounts) for net proceeds of $11,643,740.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
    9/12/2012.
126
   	On 9/20/2012, Treasury completed the sale of 17,000 shares of F&M Financial Corporation (NC) preferred stock at $950.00 per share (less a placement agent fee) for net proceeds of $15,988,500.00 and 850 shares of F&M Financial Corporation (NC) preferred stock received upon the exercise of
    warrants at $921.30 per share (less a placement agent fee) for net proceeds of $775,273.95, pursuant to a placement agency agreement executed on 9/12/2012.
127
   	On 9/21/2012, Treasury completed the sale of 17,243 shares of F&M Financial Corporation (TN) preferred stock at $787.50 per share (less a placement agent fee) for net proceeds of $13,443,073.87 and 862 shares of F&M Financial Corporation (TN) preferred stock received upon the exercise of
    warrants at $870.00 per share (less a placement agent fee) for net proceeds of $742,440.60, pursuant to a placement agency agreement executed on 9/12/2012.
128
   	On 9/20/2012, Treasury completed the sale of 70,000 shares of Alpine Banks of Colorado preferred stock at $814.29 per share (less a placement agent fee) for net proceeds of $56,430,297.00 and 3,500 shares of Alpine Banks of Colorado preferred stock received upon the exercise of warrants at
    $950.00 per share (less a placement agent fee) for net proceeds of $3,291,750.00, pursuant to a placement agency agreement executed on 9/12/2012.
129
   	On 9/21/2012, Treasury completed the sale of 22,000 shares of First Community Financial Partners, Inc. preferred stock at $652.50 per share (less a placement agent fee) for net proceeds of $14,211,450.00, pursuant to a placement agency agreement executed on 9/12/2012
130
   	On 9/26/2012, Treasury completed the sale of all Central Federal Corporation preferred stock and the related warrant held by UST for an aggregate purchase price of $3,000,000, pursuant to the terms of the agreement entered into on 9/12/2012.
131
   	On 10/1/2012, Treasury completed the sale of all Southern Community Financial Corp. preferred stock and the related warrant held by UST for an aggregate purchase price of $42,750,000, plus accrued and unpaid dividends, pursuant to the terms of the agreement entered into on 10/1/2012.
132
   	On 10/19/2012, GulfSouth Private Bank, Destin, Florida, was closed by the Florida Office of Financial Regulation, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
133
   	On 10/19/2012, Excel Bank, Sedalia, Missouri, the banking subsidiary of Investors Financial Corporation of Pettis County, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
134
   	On 10/31/2012, Treasury completed the sale of 12,000 shares of Blue Ridge Bancshares, Inc. preferred stock at $755.00 per share (less a placement agent fee) for net proceeds of $8,969,400.00 and 600 shares of Blue Ridge Bancshares, Inc. preferred stock received upon the exercise of warrants at
    $912.11 per share (less a placement agent fee) for net proceeds of $541,793.34, pursuant to a placement agency agreement executed on 10/22/2012.
135
   	On 10/31/2012, Treasury completed the sale of 7,570 shares of First Gothenburg Bancshares, Inc. preferred stock at $910.31 per share (less a placement agent fee) for net proceeds of $6,822,136.23 and 379 shares of First Gothenburg Bancshares, Inc. preferred stock received upon the exercise of
    warrants at $965.11 per share (less a placement agent fee) for net proceeds of $362,118.92, pursuant to a placement agency agreement executed on 10/22/2012.
136
   	On 10/31/2012, Treasury completed the sale of 10,000 shares of Blackhawk Bancorp Inc. preferred stock at $910.00 per share (less a placement agent fee) for net proceeds of $9,009,000.00 and 500 shares of Blackhawk Bancorp Inc. preferred stock received upon the exercise of warrants at $950.00
    per share (less a placement agent fee) for net proceeds of $470,250.00, pursuant to a placement agency agreement executed on 10/22/2012.
137
   	On 10/31/2012, Treasury completed the sale of 4,967 shares of Germantown Capital Corporation, Inc. preferred stock at $910.13 per share (less a placement agent fee) for net proceeds of $4,495,615.71 and 248 shares of Germantown Capital Corporation, Inc. preferred stock received upon the
    exercise of warrants at $966.11 per share (less a placement agent fee) for net proceeds of $214,595.28, pursuant to a placement agency agreement executed on 10/22/2012.
138
   	On 10/31/2012, Treasury completed the sale of 2,250 shares of CenterBank preferred stock at $825.00 per share (less a placement agent fee) for net proceeds of $1,831,250.00 and 113 shares of CenterBank preferred stock received upon the exercise of warrants at $965.11 per share (less a
    placement agent fee) for net proceeds of $84,057.43, pursuant to a placement agency agreement executed on 10/22/2012.
139
   	On 10/31/2012, Treasury completed the sale of 7,700 shares of Oak Ridge Financial Services, Inc. preferred stock at $921.50 per share (less a placement agent fee) for net proceeds of $7,024,594.50, pursuant to a placement agency agreement executed on 10/22/2012.
140
   	On 10/31/2012, Treasury completed the sale of 3,285 shares of Congaree Bancshares Inc. preferred stock at $825.26 per share (less a placement agent fee) for net proceeds of $2,685,979.10 and 164 shares of Congaree Bancshares Inc. preferred stock received upon the exercise of warrants at
    $801.00 per share (less a placement agent fee) for net proceeds of $106,364.00, pursuant to a placement agency agreement executed on 10/22/2012.
141
   	On 10/31/2012, Treasury completed the sale of 7,700 shares of Metro City Bank preferred stock at $900.10 per share (less a placement agent fee) for net proceeds of $6,861,462.30 and 385 shares of Metro City Bank preferred stock received upon the exercise of warrants at $970.61 per share (less a
    placement agent fee) for net proceeds of $369,948.00, pursuant to a placement agency agreement executed on 10/22/2012.
142
   	On 10/31/2012, Treasury completed the sale of 3,900 shares of Peoples Bancshares of TN, Inc. preferred stock at $755.00 per share (less a placement agent fee) for net proceeds of $2,919,500.00 and 195 shares of Peoples Bancshares of TN, Inc. preferred stock received upon the exercise of
    warrants at $755.00 per share (less a placement agent fee) for net proceeds of $122,225.00, pursuant to a placement agency agreement executed on 10/22/2012.
143
   	On 10/31/2012, Treasury completed the sale of 7,500 shares of The Little Bank, Incorporated preferred stock at $981.20 per share (less a placement agent fee) for net proceeds of $7,285,410.00 and 375 shares of The Little Bank, Incorporated preferred stock received upon the exercise of warrants at
    $1,000.00 per share (less a placement agent fee) for net proceeds of $371,250.00, pursuant to a placement agency agreement executed on 10/22/2012.
144
   	On 10/31/2012, Treasury completed the sale of 10,000 shares of HomeTown Bankshares Corporation preferred stock at $918.50 per share (less a placement agent fee) for net proceeds of $9,093,150.00 and 374 shares of HomeTown Bankshares Corporation preferred stock received upon the exercise
    of warrants at $852.00 per share (less a placement agent fee) for net proceeds of $315,461.52, pursuant to a placement agency agreement executed on 10/22/2012.
145
   	On 10/25/2012, pursuant to the terms of the merger of First Community Bancshares, Inc. (“First Community”) and Equity Bancshares, Inc. (“Equity”), Treasury received a like amount of preferred stock and exercised warrants from Equity in exchange for Treasury’s original investment in First Community, plus
     accrued and unpaid dividends, pursuant to a placement agency agreement executed on 10/23/2012.
146
   	On 10/29/2012, First Place Financial Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Delaware.
147
   	On 11/9/2012, Treasury completed the sale of 1,000 shares of BankGreenville Financial Corp. preferred stock at $900.00 per share (less a placement agent fee) for net proceeds of $891,000.00 and 50 shares of BankGreenville Financial Corp. preferred stock received upon the exercise of warrants at
     $937.61 per share (less a placement agent fee) for net proceeds of $46,411.70, pursuant to a placement agency agreement executed on 11/1/2012.
148
   	On 11/9/2012, Treasury completed the sale of 4,000 shares of Capital Pacific Bancorp preferred stock at $938.36 per share (less a placement agent fee) for net proceeds of $3,715,905.60 and 200 shares of Capital Pacific Bancorp preferred stock received upon the exercise of warrants at $970.21 per
     share (less a placement agent fee) for net proceeds of $192,101.58, pursuant to a placement agency agreement executed on 11/1/2012.
149
   	On 11/9/2012, Treasury completed the sale of 8,700 shares of First Freedom Bancshares, Inc. preferred stock at $922.50 per share (less a placement agent fee) for net proceeds of $7,945,492.50 and 261 shares of First Freedom Bancshares, Inc. preferred stock received upon the exercise of warrants
     at $991.21 per share (less a placement agent fee) for net proceeds of $256,118.75, pursuant to a placement agency agreement executed on 11/1/2012.
150
   	On 11/13/2012, Treasury completed the sale of 5,097 shares of Franklin Bancorp, Inc. preferred stock at $632.50 per share (less a placement agent fee) for net proceeds of $3,191,613.98 and 255 shares of Franklin Bancorp, Inc. preferred stock received upon the exercise of warrants at $772.50 per
     share (less a placement agent fee) for net proceeds of $195,017.63, pursuant to a placement agency agreement executed on 11/1/2012.
151
   	On 11/9/2012, Treasury completed the sale of 1,500 shares of Regional Bankshares Inc. preferred stock at $925.00 per share (less a placement agent fee) for net proceeds of $1,373,625.00 and 75 shares of Regional Bankshares Inc. preferred stock received upon the exercise of warrants at $1,000 per
     share (less a placement agent fee) for net proceeds of $74,250.00, pursuant to a placement agency agreement executed on 11/1/2012.
152
   	On 11/13/2012, Treasury completed the sale of 3,070 shares of Sound Banking Co. preferred stock at $922.61 per share (less a placement agent fee) for net proceeds of $2,804,088.57 and 154 shares of Sound Banking Co. preferred stock received upon the exercise of warrants at $970.21 per share
     (less a placement agent fee) for net proceeds of $147,918.22, pursuant to a placement agency agreement executed on 11/1/2012.
153
   	On 11/9/2012, Treasury completed the sale of 5,677 shares of Three Shores Bancorporation, Inc. preferred stock at $888.36 per share (less a placement agent fee) for net proceeds of $4,992,787.52 and 284 shares of Three Shores Bancorporation, Inc. preferred stock received upon the exercise of
     warrants at $1,004.00 per share (less a placement agent fee) for net proceeds of $282,284.64, pursuant to a placement agency agreement executed on 11/1/2012.
154
   	On 11/13/2012, Treasury completed the sale of 16,641 shares of Timberland Bancorp, Inc. preferred stock at $862.50 per share (less a placement agent fee) for net proceeds of $14,209,333.88, pursuant to a placement agency agreement executed on 11/1/2012.
155
   	On 11/9/2012, Treasury completed the sale of 6,855 shares of Western Illinois Bancshares, Inc. Series A preferred stock at $942.90 per share (less a placement agent fee) for net proceeds of $6,398,943.71; 4,567 shares of Western Illinois Bancshares, Inc. Series C preferred stock at $932.77 per
     share (less a placement agent fee) for net proceeds of $4,217,360.98; and 343 shares of Western Illinois Bancshares, Inc. preferred stock received upon the exercise of warrants at $987.77 per share (less a placement agent fee) for net proceeds of $335,417.06, pursuant to a placement agency
     agreement executed on 11/1/2012.
156
   	On 11/13/2012, Treasury completed the sale of its F&C Bancorp. Inc. subordinated debentures (less a placement agent fee) for net proceeds of $2,840,902.62 and its F&C Bancorp. Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds of
     $148,500.00, pursuant to a placement agency agreement executed on 11/1/2012.
157
   	On 11/13/2012, Treasury completed the sale of its Farmers Enterprises, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $11,439,252.00 and its Farmers Enterprises, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net
     proceeds of $590,323.14, pursuant to a placement agency agreement executed on 11/1/2012.
158
   	On 11/5/2012, Treasury entered into (i) an exchange agreement with Standard Bancshares, Inc. pursuant to which Treasury agreed to exchange its preferred stock for common stock and (ii) securities purchase agreements with W Capital Partners II, L.P., Trident SBI Holdings, LLC, PEPI Capital, LP, LCB
     Investment, LLC, Cohesive Capital Partners, L.P., and Athena Select Private Investment Fund LLC, pursuant to which Treasury agreed to sell such common stock to such parties.
159
   	On 11/2/2012, Citizens First National Bank, Princeton, IL, the banking subsidiary of Princeton National Bancorp, was closed by the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
160
   	On 11/13/2012, Treasury entered into an agreement with Community Financial Shares, Inc. (“CFS”) pursuant to which Treasury agreed to sell its CPP preferred stock back to CFS at a discount subject to the satisfaction of the conditions specified in the agreement.
161
   	On 11/29/2012, Treasury completed the sale of 4,781 shares of Alaska Pacific Bancshares, Inc. preferred stock at $892.61 per share (less a placement agent fee) for net proceeds of $4,217,568.41, pursuant to a placement agency agreement executed on 11/19/2012.
162
   	On 11/30/2012, Treasury completed the sale of 3,000 shares of Bank of Commerce preferred stock at $834.00 per share (less a placement agent fee) for net proceeds of $2,477,000.00 and 150 shares of Bank of Commerce preferred stock received upon the exercise of warrants at $834.00 per share
     (less a placement agent fee) for net proceeds of $100,100.00, pursuant to a placement agency agreement executed on 11/19/2012.
163
   	On 11/30/2012, Treasury completed the sale of 4,000 shares of Carolina Trust Bank preferred stock at $853.00 per share (less a placement agent fee) for net proceeds of $3,362,000.00, pursuant to a placement agency agreement executed on 11/19/2012.
164
   	On 11/29/2012, Treasury completed the sale of 2,644 shares of CBB Bancorp Series A preferred stock at $934.10 per share (less a placement agent fee) for net proceeds of $2,453,093; 1,753 shares of CBB Bancorp Series C preferred stock at $930.02 per share (less a placement agent fee) for net
     proceeds of $1,613,658.39; and 132 shares of CBB Bancorp Series B preferred stock received upon the exercise of warrants at $1,004.00 per share (less a placement agent fee) for net proceeds of $115,861.33, pursuant to a placement agency agreement executed on 11/19/2012.
165
   	On 11/29/2012, Treasury completed the sale of 3,000 shares of Clover Community Bankshares, Inc. preferred stock at $872.90 per share (less a placement agent fee) for net proceeds of $2,593,700.00 and 150 shares of Clover Community Bankshares, Inc. preferred stock received upon the exercise of
     warrants at $926.81 per share (less a placement agent fee) for net proceeds of $114,021.50, pursuant to a placement agency agreement executed on 11/19/2012.
166
   	On 11/30/2012, Treasury completed the sale of 105 shares of Community Bancshares of Mississippi, Inc. preferred stock at $9,550.00 per share (less a placement agent fee) for net proceeds of $977,750.00 and 5 shares of Community Bancshares of Mississippi, Inc. preferred stock received upon the
     exercise of warrants at $10,000.00 per share (less a placement agent fee) for net proceeds of $25,000.00, pursuant to a placement agency agreement executed on 11/19/2012.
167
   	On 11/30/2012, Treasury completed the sale of 3,976 shares of Community Business Bank preferred stock at $935.00 per share (less a placement agent fee) for net proceeds of $3,692,560.00 and 199 shares of Community Business Bank preferred stock received upon the exercise of warrants at
     $965.00 per share (less a placement agent fee) for net proceeds of $167,035.00, pursuant to a placement agency agreement executed on 11/19/2012.
168
   	On 11/30/2012, Treasury completed the sale of 638 shares of Corning Savings and Loan Association preferred stock at $860.00 per share (less a placement agent fee) for net proceeds of $523,680.00 and 32 shares of Corning Savings and Loan Association preferred stock received upon the exercise of
     warrants at $905.00 per share (less a placement agent fee) for net proceeds of $3,960.00, pursuant to a placement agency agreement executed on 11/19/2012.
169
   	On 11/29/2012, Treasury completed the sale of 7,525 shares of Country Bank Shares, Inc. preferred stock at $917.90 per share (less a placement agent fee) for net proceeds of $6,838,125.53 and 376 shares of Country Bank Shares, Inc. preferred stock received upon the exercise of warrants at
     $1,000.00 per share (less a placement agent fee) for net proceeds of $372,240.00, pursuant to a placement agency agreement executed on 11/19/2012.
170
   	On 11/30/2012, Treasury completed the sale of 7,289 shares of FFW Corporation preferred stock at $902.90 per share (less a placement agent fee) for net proceeds of $6,515,425.72 and 364 shares of FFW Corporation preferred stock received upon the exercise of warrants at $995.00 per share (less
     a placement agent fee) for net proceeds of $358,558.20, pursuant to a placement agency agreement executed on 11/19/2012.
171
   	On 11/30/2012, Treasury completed the sale of 1,900 shares of Hometown Bancshares, Inc. preferred stock at $942.90 per share (less a placement agent fee) for net proceeds of $1,766,510.00 and 95 shares of Hometown Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $1,001.00 per share (less a placement agent fee) for net proceeds of $70,095.00, pursuant to a placement agency agreement executed on 11/19/2012.
172
   	On 11/30/2012, Treasury completed the sale of 4,000 shares of KS Bancorp, Inc. preferred stock at $827.00 per share (less a placement agent fee) for net proceeds of $3,283,000 and 200 shares of KS Bancorp, Inc. preferred stock received upon the exercise of warrants at $827.00 per share (less a
     placement agent fee) for net proceeds of $140,400.00, pursuant to a placement agency agreement executed on 11/19/2012.
173
   	On 11/29/2012, Treasury completed the sale of 3,000 shares of Layton Park Financial Group, Inc. preferred stock at $790.31 per share (less a placement agent fee) for net proceeds of $2,345,930.00 and 150 shares of Layton Park Financial Group, Inc. preferred stock received upon the exercise of
     warrants at $862.50 per share (less a placement agent fee) for net proceeds of $104,375.00, pursuant to a placement agency agreement executed on 11/19/2012.
174
   	On 11/29/2012, Treasury completed the sale of 16,288 shares of Parke Bancorp, Inc. preferred stock at $719.11 per share (less a placement agent fee) for net proceeds of $11,595,735.04, pursuant to a placement agency agreement executed on 11/19/2012.
175
   	On 11/29/2012, Treasury completed the sale of 2,765 shares of TriSummit Bank Series B preferred stock at $750.00 per share (less a placement agent fee) for net proceeds of $2,053,012.50; 4,237 shares of TriSummit Bank Series D preferred stock at $750.00 per share (less a placement agent fee)
     for net proceeds of $3,145,972.50; and 138 shares of TriSummit Bank Series C preferred stock received upon the exercise of warrants at $912.50 per share (less a placement agent fee) for net proceeds of $124,665.75, pursuant to a placement agency agreement executed on 11/19/2012.
176
   	In connection with the merger of Fidelity Bancorp, Inc. (“Fidelity”) and WesBanco, Inc. (“WesBanco”) effective 01/01/2012, Treasury (i) sold to WesBanco all of the preferred stock that had been issued by Fidelity to Treasury for a purchase price of $7,000,000 plus accrued dividends and (ii) exchanged the
     Fidelity warrant held by Treasury for a like WesBanco warrant, pursuant to the terms of an agreement among Treasury and WesBanco entered into on 11/28/2012.
177
   	On 11/30/12, Western Reserve Bancorp, Inc. was acquired by an affiliate of Westfield Bancorp, Inc. Pursuant to the terms of the merger, each outstanding share of Series A and Series B preferred stock issued to Treasury was redeemed for the respective principal amount together with accrued and unpaid
     dividends thereon.
178
   	On 11/30/12, Treasury entered into an agreement with First Sound Bank (“First Sound”) pursuant to which Treasury agreed to sell its CPP preferred stock and warrant back to First Sound at a discount subject to the satisfaction of the conditions specified in the agreement.
179
   	On 12/11/2012, Treasury completed the sale of 20,749 shares of The Baraboo Bancorporation, Inc. preferred stock at $652.30 per share (less a placement agent fee) for net proceeds of $13,399,226.97 and 1,037 shares of The Baraboo Bancorporation, Inc. preferred stock received upon the exercise
     of warrants at $836.21 per share (less a placement agent fee) for net proceeds of $858,478.27, pursuant to a placement agency agreement executed on 12/3/2012.
180
   	On 12/11/2012, Treasury completed the sale of 22,000 shares of Central Community Corporation preferred stock at $926.20 per share (less a placement agent fee) for net proceeds of $20,172,636.00 and 1,100 shares of Central Community Corporation preferred stock received upon the exercise of
     warrants at $972.20 per share (less a placement agent fee) for net proceeds of $1,058,725.80, pursuant to a placement agency agreement executed on 12/3/2012.
181
   	On 12/11/2012, Treasury completed the sale of 15,600 shares of Community West Bancshares, Inc. preferred stock at $724.00 per share (less a placement agent fee) for net proceeds of $11,181,456.00, pursuant to a placement agency agreement executed on 12/3/2012.
182
   	On 12/11/2012, Treasury completed the sale of 1,177 shares of First Advantage Bancshares, Inc. preferred stock at $898.21 per share (less a placement agent fee) for net proceeds of $1,046,621.24 and 59 shares of First Advantage Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $920.31 per share (less a placement agent fee) for net proceeds of $53,755.31, pursuant to a placement agency agreement executed on 12/3/2012.
                                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I July 24, 2013




183
   	On 12/11/2012, Treasury completed the sale of its Manhattan Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $2,560,540.68 and its Manhattan Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for
     net proceeds of $131,021.07, pursuant to a placement agency agreement executed on 12/3/2012.
184
   	On 12/11/2012, Treasury completed the sale of 10,800 shares of Presidio Bank preferred stock at $847.21 per share (less a placement agent fee) for net proceeds of $9,058,369.32 and 325 shares of Presidio Bank preferred stock received upon the exercise of warrants at $865.21 per share (less a
     placement agent fee) for net proceeds of $278,381.32, pursuant to a placement agency agreement executed on 12/3/2012.
185
   	On 12/11/2012, Treasury completed the sale of 2,152 shares of Security Bancshares of Pulaski County, Inc. preferred stock at $692.61 per share (less a placement agent fee) for net proceeds of $1,475,591.75 and 108 shares of Security Bancshares of Pulaski County, Inc. preferred stock received upon
     the exercise of warrants at $872.10 per share (less a placement agent fee) for net proceeds of $93,244.93, pursuant to a placement agency agreement executed on 12/3/2012.
186
   	On 12/11/12, Treasury entered into a securities purchase agreement with PremierWest Bancorp (PremierWest) and Starbuck Bancshares, Inc. (Starbuck) pursuant to which Treasury agreed to sell its CPP preferred and warrant in PremierWest to Starbuck subject to certain conditions.
                                                                                                                                                                                                                                                                                                                         279
                                                                                                                                                                                                                                                                                                                                   280
187
   	On 12/20/2012, Treasury completed the sale of 1,004 shares of Bank Financial Services, Inc. preferred stock at $929.22 per share (less a placement agent fee) for net proceeds of $907,936.88 and 50 shares of Bank Financial Services, Inc. preferred stock received upon the exercise of warrants at
     $970.00 per share (less a placement agent fee) for net proceeds of $23,500.00, pursuant to a placement agency agreement executed on 12/11/2012.
188
   	On 12/20/2012, Treasury completed the sale of 2,211 shares of Bank of Southern California, N.A. Series A preferred stock at $920.00 per share (less a placement agent fee) for net proceeds of $2,017,453.33; 2,032 shares of Bank of Southern California, N.A. Series C preferred stock at $910.12
     per share (less a placement agent fee) for net proceeds of $1,832,697.18; and 111 shares of Bank of Southern California, N.A. preferred stock received upon the exercise of warrants at $965.12 per share (less a placement agent fee) for net proceeds of $90,461.65, pursuant to a placement agency
     agreement executed on 12/11/2012.
189
   	On 12/20/2012, Treasury completed the sale of 2,600 shares of Community Investors Bancorp, Inc. preferred stock at $950.00 per share (less a placement agent fee) for net proceeds of $2,445,000.00 and 130 shares of Community Investors Bancorp, Inc. preferred stock received upon the exercise of
     warrants at $1,000.00 per share (less a placement agent fee) for net proceeds of $105,000.00, pursuant to a placement agency agreement executed on 12/11/2012.
190
   	On 12/20/2012, Treasury completed the sale of 3,422 shares of First Alliance Bancshares, Inc. preferred stock at $700.10 per share (less a placement agent fee) for net proceeds of $2,370,742.20 and 171 shares of First Alliance Bancshares, Inc. preferred stock received upon the exercise of warrants
     at $700.01 per share (less a placement agent fee) for net proceeds of $94,701.71, pursuant to a placement agency agreement executed on 12/11/2012.
191
   	On 12/20/2012, Treasury completed the sale of 3,223 shares of First Independence Corporation preferred stock at $725.00 per share (less a placement agent fee) for net proceeds of $2,286,675.00, pursuant to a placement agency agreement executed on 12/11/2012.
192
   	On 12/20/2012, Treasury completed the sale of 1,552 shares of Hyperion Bank preferred stock at $650.00 per share (less a placement agent fee) for net proceeds of $983,800.00 and 78 shares of Hyperion Bank preferred stock received upon the exercise of warrants at $650.00 per share (less a
     placement agent fee) for net proceeds of $25,700.00, pursuant to a placement agency agreement executed on 12/11/2012.
193
   	On 12/20/2012, Treasury completed the sale of its Century Financial Services Corporation subordinated debentures (less a placement agent fee) for net proceeds of $9,751,500.00 and its Century Financial Services Corporation subordinated debentures received upon the exercise of warrants (less a
     placement agent fee) for net proceeds of $496,588.95, pursuant to a placement agency agreement executed on 12/11/2012.
194
   	In connection with the merger of Community Financial Corporation (“Community Financial”) and City Holding Company (“City Holding”) effective 1/09/13, Treasury (i) sold to City Holding all of the preferred stock that had been issued by Community Financial tTreasury for a purchase price of $12,643,000 plus
     accrued dividends and (ii) exchanged the Community Financial warrant held by Treasury for a like City Holding warrant, pursuant to the terms of an agreement among Treasury and City Holding entered into on 1/09/13.
195
   	On 2/7/2013, Treasury completed the sale of its Alliance Financial Services, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $8,912,494.80 and its Alliance Financial Services, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee)
     for net proceeds of $504,900.00, pursuant to a placement agency agreement executed on 12/11/2012.
196
   	On 2/8/2013, Treasury completed the sale of its Biscayne Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $6,170,630.40 and its Biscayne Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net
     proceeds of $204,506.72, pursuant to a placement agency agreement executed on 1/29/2013.
197
   	On 2/8/2013, Treasury completed the sale of 24,990 shares of Citizens Bancshares Co. preferred stock at $512.50 per share (less a placement agent fee) for net proceeds of $12,679,301.25 and 1,250 shares of Citizens Bancshares Co. preferred stock received upon the exercise of warrants at
     $521.25 per share (less a placement agent fee) for net proceeds of $645,046.87, pursuant to a placement agency agreement executed on 1/29/2013.
198
   	On 1/29/2013, Treasury executed a placement agency agreement pursuant to which Treasury agreed to sell 9,950 shares of Coastal Banking Company, Inc. preferred stock at $815.00 per share (less a placement agent fee) for net proceeds of $8,028,157.50. On 2/6/2013, the placement agent notified
     Coastal Banking Company, Inc. that, pursuant to the placement agency agreement, it was terminating the transaction and, therefore, Treasury did not receive any proceeds or pay any fees in connection with the transaction.
199
   	On 2/7/2013, Treasury completed the sale of 28,000 shares of Colony Bankcorp, Inc. preferred stock at $782.11 per share (less a placement agent fee) for net proceeds of $21,680,089.20, pursuant to a placement agency agreement executed on 1/29/2013.
200
   	On 2/7/2013, Treasury completed the sale of 9,000 shares of Delmar Bancorp preferred stock at $612.11 per share (less a placement agent fee) for net proceeds of $5,453,900.10 and 450 shares of Delmar Bancorp preferred stock received upon the exercise of warrants at $700.21 per share (less a
     placement agent fee) for net proceeds of $311,943.55, pursuant to a placement agency agreement executed on 1/29/2013.
201
   	On 2/8/2013, Treasury completed the sale of 146,053 shares of Dickinson Financial Corporation II preferred stock at $552.61 per share (less a placement agent fee) for net proceeds of $79,903,244.85 and 7,303 shares of Dickinson Financial Corporation II preferred stock received upon the exercise of
     warrants at $681.25 per share (less a placement agent fee) for net proceeds of $4,925,417.06, pursuant to a placement agency agreement executed on 1/29/2013.
202
   	On 2/7/2013, Treasury completed the sale of 4,609 shares of F & M Bancshares, Inc. Series A preferred stock at $942.50 per share (less a placement agent fee) for net proceeds of $4,300,542.67; 3,535 shares of F & M Bancshares, Inc. Series C preferred stock at $942.50 per share (less a placement
     agent fee) for net proceeds of $3,298,420.12; and 230 shares of F & M Bancshares, Inc. Series B preferred stock received upon the exercise of warrants at $975.00 per share (less a placement agent fee) for net proceeds of $222,007.50, pursuant to a placement agency agreement executed on
                                                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 24, 2013




     1/29/2013.
203
   	On 2/8/2013, Treasury completed the sale of 4,579 shares of First Priority Financial Corp. Series A preferred stock at $882.90 per share (less a placement agent fee) for net proceeds of $4,002,371.11; 4,596 shares of First Priority Financial Corp. Series C preferred stock at $881.25 per share (less
     a placement agent fee) for net proceeds of $4,009,722.75; and 229 shares of First Priority Financial Corp. Series B preferred stock received upon the exercise of warrants at $991.21 per share (less a placement agent fee) for net proceeds of $224,717.22, pursuant to a placement agency agreement
     executed on 1/29/2013.
204
   	On 2/8/2013, Treasury completed the sale of 26,000 shares of HMN Financial, Inc. preferred stock at $721.50 per share (less a placement agent fee) for net proceeds of $18,571,410.00, pursuant to a placement agency agreement executed on 1/29/2013.
205
   	On 2/7/2013, Treasury completed the sale of 5,625 shares of Waukesha Bankshares, Inc. preferred stock at $926.90 per share (less a placement agent fee) for net proceeds of $5,161,674.37 and 169 shares of Waukesha Bankshares, Inc. preferred stock received upon the exercise of warrants at
     $991.21 per share (less a placement agent fee) for net proceeds of $165,839.35, pursuant to a placement agency agreement executed on 1/29/2013.
206
   	On 2/15/2013, Treasury sold its CPP preferred stock and warrant issued by BancTrust Financial Group, Inc. (“BancTrust”) pursuant to an agreement with BancTrust and Trustmark Corporation (“Trustmark”) entered into on 02/11/2013.
207
   	On 2/12/13, Treasury entered into an agreement with Florida Bank Group, Inc. (“FBG”) pursuant to which Treasury agreed to sell its CPP preferred stock back to FBG at a discount subject to the satisfaction of the conditions specified in the agreement.
208
   	On 2/15/2013, pursuant to the terms of the merger of Pacific International Bancorp, Inc. (“Pacific International”) with BBCN Bancorp, Inc. (“BBCN”), Treasury received $7,474,619.97 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock that had
     been issued to Treasury by Pacific International. Treasury exchanged its Pacific International warrant for an equivalent warrant issued by BBCN.
209
   	On 2/20/2013, Treasury completed the sale of 16,000 shares of Carolina Bank Holdings, Inc. preferred stock at $935.10 per share (less a placement agent fee) for net proceeds of $14,811,984.00, pursuant to a placement agency agreement executed on 2/6/2013.
210
   	On 2/20/2013, Treasury completed the sale of 21,042 shares of FC Holdings, Inc. preferred stock at $897.00 per share (less a placement agent fee) for net proceeds of $18,685,927.26 and 1,052 shares of FC Holdings, Inc. preferred stock received upon the exercise of warrants at $955.00 per share
     (less a placement agent fee) for net proceeds of $994,613.40, pursuant to a placement agency agreement executed on 2/6/2013.
211
   	On 2/20/2013, Treasury completed the sale of its First Trust Corporation subordinated debentures (less a placement agent fee) for net proceeds of $13,612,557.91 and its First Trust Corporation subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds
     of $644,726.19, pursuant to a placement agency agreement executed on 12/11/2012.
212
   	On 2/20/2013, Treasury completed the sale of 24,664 shares of National Bancshares, Inc. preferred stock at $750.21 per share (less a placement agent fee) for net proceeds of $18,318,147.65 and 1,233 shares of National Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $692.61 per share (less a placement agent fee) for net proceeds of $845,448.25, pursuant to a placement agency agreement executed on 2/6/2013.
213
   	On 2/20/2013, Treasury completed the sale of 10,900 shares of Ridgestone Financial Services, Inc. preferred stock at $822.60 per share (less a placement agent fee) for net proceeds of $8,876,676.60 and 545 shares of Ridgestone Financial Services, Inc. preferred stock received upon the exercise of
     warrants at $882.60 per share (less a placement agent fee) for net proceeds of $476,206.83, pursuant to a placement agency agreement executed on 2/6/2013.
214
   	On 2/21/13, Treasury entered into a securities purchase agreement with FirstMerit Corporation (FirstMerit) and Citizens Republic Bancorp, Inc. (Citizens Republic) pursuant to which Treasury agreed, subject to certain conditions, to (i) sell its CPP preferred in Citizens Republic to FirstMerit and (ii) exchange its
     existing warrant in Citizens Republic for a warrant issued by FirstMerit.
215
   	On 2/25/2013, Treasury entered into an agreement with First Security Group, Inc. to exchange Treasury’s CPP warrant and $33,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by First Security Group, Inc. of certain conditions, including the satisfactory completion of
     a capital plan.
216
   	On 3/11/2013, Treasury completed the sale of its Boscobel Bancorp, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $6,116,943.16 and its Boscobel Bancorp, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net
     proceeds of $361,890.34, pursuant to a placement agency agreement executed on 2/25/2013.
217
   	On 3/11/2013, Treasury completed the sale of 9,950 shares of Coastal Banking Company, Inc. preferred stock at $955.10 per share (less a placement agent fee) for net proceeds of $9,408,212.55, pursuant to a placement agency agreement executed on 2/25/2013.
218
   	On 3/11/2013, Treasury completed the sale of 16,015 shares of CoastalSouth Bancshares, Inc. preferred stock at $795.10 per share (less a placement agent fee) for net proceeds of $12,606,191.23 and 480 shares of CoastalSouth Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $875.10 per share (less a placement agent fee) for net proceeds of $415,847.52, pursuant to a placement agency agreement executed on 2/25/2013.
219
   	On 3/11/2013, Treasury completed the sale of 15,349 shares of First Reliance Bancshares, Inc. preferred stock at $679.61 per share (less a placement agent fee) for net proceeds of $10,327,020.55 and 767 shares of First Reliance Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $822.61 per share (less a placement agent fee) for net proceeds of $624,632.45, pursuant to a placement agency agreement executed on 2/25/2013.
220
   	On 3/11/2013, Treasury completed the sale of 10,500 shares of Northwest Bancorporation, Inc. preferred stock at $1,032.11 per share (less a placement agent fee) for net proceeds of $10,728,783.45 and 525 shares of Northwest Bancorporation, Inc. preferred stock received upon the exercise of
     warrants at $1,130.61 per share (less a placement agent fee) for net proceeds of $587,634.55, pursuant to a placement agency agreement executed on 2/25/2013.
221
   	On 3/11/2013, Treasury completed the sale of 2,900 shares of Santa Clara Valley Bank, N.A. preferred stock at $850.01 per share (less a placement agent fee) for net proceeds of $2,440,029.00 and 145 shares of Santa Clara Valley Bank, N.A. preferred stock received upon the exercise of warrants at
     $850.01 per share (less a placement agent fee) for net proceeds of $98,251.45, pursuant to a placement agency agreement executed on 2/25/2013.
222
   	On 3/11/2013, Treasury completed the sale of 12,900 shares of SouthCrest Financial Group, Inc. preferred stock at $907.31 per share (less a placement agent fee) for net proceeds of $11,587,256.01 and 645 shares of SouthCrest Financial Group, Inc. preferred stock received upon the exercise of
     warrants at $921.25 per share (less a placement agent fee) for net proceeds of $588,264.19, pursuant to a placement agency agreement executed on 2/25/2013.
223
   	On 3/11/2013, Treasury completed the sale of 12,000 shares of The Queensborough Company preferred stock at $976.90 per share (less a placement agent fee) for net proceeds of $11,605,572.00 and 600 shares of The Queensborough Company preferred stock received upon the exercise of warrants
     at $971.00 per share (less a placement agent fee) for net proceeds of $576,774.00, pursuant to a placement agency agreement executed on 2/25/2013.
224
   	On 3/11/2013, Treasury completed the sale of 70,028 shares of Old Second Bancorp, Inc. preferred stock at $352.50 per share (less a placement agent fee) for net proceeds of $24,438,021.30, pursuant to a placement agency agreement executed on 2/25/2013.
225
   	On 3/19/2013, Treasury exercised its warrant on a cashless basis and received (i) 186,589 shares of common stock and (ii) $71.62 in cash in lieu of fractional shares. Treasury sold such shares of common stock on 3/19/2013.
226
   	On 3/27/2013, Treasury completed the sale of 5,500 shares of First Southwest Bancorporation, Inc. preferred stock at $900.02 per share (less a placement agent fee) for net proceeds of $4,900,608.90 and 275 shares of First Southwest Bancorporation, Inc. preferred stock received upon the exercise of
     warrants at $925.02 per share (less a placement agent fee) for net proceeds of $251,836.69, pursuant to a placement agency agreement executed on 3/11/2013.
227
   	On 3/27/2013, Treasury completed the sale of 2,972 shares of Old Second Bancorp, Inc. preferred stock at $377.02 per share (less a placement agent fee) for net proceeds of $1,109,298.41, pursuant to a placement agency agreement executed on 3/11/2013.
228
   	On 3/27/2013, Treasury completed the sale of 266,657 shares of Flagstar Bancorp, Inc. preferred stock at $911.50 per share (less a placement agent fee) for net proceeds of $240,627,276.94, pursuant to a placement agency agreement executed on 3/11/2013.
229
   	On 3/27/2013, Treasury completed the sale of 10,973 shares of Stonebridge Financial Corp. preferred stock at $173.53 per share (less a placement agent fee) for net proceeds of $1,879,144.69 and 549 shares of Stonebridge Financial Corp. preferred stock received upon the exercise of warrants at
     $298.84 per share (less a placement agent fee) for net proceeds of $139,063.16, pursuant to a placement agency agreement executed on 3/11/2013.
230
   	On 3/28/2013, Treasury completed the sale of 2,986 shares of Alliance Bancshares, Inc. preferred stock at $956.61 per share (less a placement agent fee) for net proceeds of $2,831,437.46 and 149 shares of Alliance Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $1,100.00 per share (less a placement agent fee) for net proceeds of $138,900.00, pursuant to a placement agency agreement executed on 3/11/2013.
231
   	On 3/28/2013, Treasury completed the sale of its AmFirst Financial Services, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $4,752,000.00 and its AmFirst Financial Services, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee)
     for net proceeds of $259,875.00, pursuant to a placement agency agreement executed on 3/11/2013.
232
   	On 3/28/2013, Treasury completed the sale of 180,000 shares of United Commercial Banks, Inc. preferred stock at $962.50 per share (less a placement agent fee) for net proceeds of $171,517,500.00, pursuant to a placement agency agreement executed on 3/11/2013.
233
   	As a result of the acquisition of ECB Bancorp, Inc. by Crescent Financial Bancshares, Inc., the preferred stock and warrant issued by ECB Bancorp, Inc. were exchanged for a like amount of securities of Crescent Financial Bancshares, Inc., pursuant to the terms of an agreement among Treasury, ECB
     Bancorp, Inc., and Crescent Financial Bancshares, Inc. entered into on 4/1/2013.
234
   	As a result of the merger of Annapolis Bancorp, Inc. into F.N.B. Corporation, the warrant issued by Annapolis Bancorp, Inc. was exchanged for a like warrant issued by F.N.B. Corporation, pursuant to the terms of an agreement among Treasury, Annapolis Bancorp, Inc., and F.N.B. Corporation entered into on
     4/6/2013.
235
   	On 04/05/2013, Gold Canyon Bank, Gold Canyon, Arizona was closed by the Arizona Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
236
   	On 04/09/2013, Indiana Bank Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Southern District of Indiana.
237
   	On 4/29/2013, Treasury completed the sale of 52,372 shares of NewBridge Bancorp preferred stock at $980.50 per share (less a placement agent fee) for net proceeds of $50,837,238.54, pursuant to a placement agency agreement executed on 4/15/2013.
238
   	On 4/29/2013, Treasury completed the sale of 3,000 shares of Tennessee Valley Financial Holdings, Inc. preferred stock at $1,022.11 per share (less a placement agent fee) for net proceeds of $3,041,330.00 and 150 shares of Tennessee Valley Financial Holdings, Inc. preferred stock received upon the
     exercise of warrants at $1,127.61 per share (less a placement agent fee) for net proceeds of $144,141.50, pursuant to a placement agency agreement executed on 4/15/2013.
239
   	On 4/29/2013, Treasury completed the sale of 20,000 shares of First Financial Service Corporation preferred stock at $542.11 per share (less a placement agent fee) for net proceeds of $10,733,778.00, pursuant to a placement agency agreement executed on 4/15/2013.
240
   	On 4/29/2013, Treasury completed the sale of 11,949 shares of Plumas Bancorp preferred stock at $1,091.11 per share (less a placement agent fee) for net proceeds of $12,907,296.66, pursuant to a placement agency agreement executed on 4/15/2013.
241
   	On 4/29/2013, Treasury completed the sale of 12,000 shares of Guaranty Federal Bancshares, Inc. preferred stock at $967.50 per share (less a placement agent fee) for net proceeds of $11,493,900.00, pursuant to a placement agency agreement executed on 4/15/2013.
242
   	On 4/29/2013, Treasury completed the sale of 8,600 shares of BancStar, Inc. preferred stock at $982.67 per share (less a placement agent fee) for net proceeds of $8,366,452.38 and 430 shares of BancStar, Inc. preferred stock received upon the exercise of warrants at $1,001.50 per share (less a
     placement agent fee) for net proceeds of $426,338.55, pursuant to a placement agency agreement executed on 4/15/2013.
243
   	On 4/29/2013, Treasury completed the sale of its Brogan Bankshares, Inc. subordinated debentures for net proceeds of $2,495,024.00 and its Brogan Bankshares, Inc. subordinated debentures received upon the exercise of warrants for net proceeds of $125,135.60, pursuant to a placement agency
     agreement executed on 4/15/2013.
244
   	On 4/29/2013, Treasury completed the sale of its Plato Holdings Inc. subordinated debentures for net proceeds of $2,478,750.00 and its Plato Holdings Inc. subordinated debentures received upon the exercise of warrants for net proceeds of $90,582.47, pursuant to a placement agency agreement
     executed on 4/15/2013.
245
   	On 6/24/2013, Treasury completed the sale of 442 shares of Farmer & Merchants Financial Corporation preferred stock at $962.50 per share (less a placement agent fee) for net proceeds of $400,425.00 and 22 shares of Farmer & Merchants Financial Corporation preferred stock received upon the
     exercise of warrants at $1,007.50 per share (less a placement agent fee) for net proceeds of -$2,835.00, pursuant to a placement agency agreement executed on 6/14/2013.
246
   	On 6/24/2013, Treasury completed the sale of 25,000 shares of Intervest Bancshares Corp preferred stock at $970.00 per share (less a placement agent fee) for net proceeds of $24,007,500.00 , pursuant to a placement agency agreement executed on 6/14/2013.
247
   	On 6/24/2013, Treasury completed the sale of 3,727 shares of Pathway Bancorp preferred stock at $1,167.01 per share (less a placement agent fee) for net proceeds of $4,324,446.27 and 186 shares of Pathway Bancorp preferred stock received upon the exercise of warrants at $1,352.50 per share
     (less a placement agent fee) for net proceeds of $226,565.00, pursuant to a placement agency agreement executed on 6/14/2013.
248
   	On 6/24/2013, Treasury completed the sale of its Security State Bank Holding Company subordinated debentures for net proceeds of $12,409,261.43 and its Security State Bank Holding Company subordinated debentures received upon the exercise of warrants for proceeds of $720,368.55, pursuant to
     a placement agency agreement executed on 6/14/2013.
249
   	On 6/24/2013, Treasury completed the sale of 2,720 shares of Worthington Financial Holdings, Inc. preferred stock at $861.71 per share (less a placement agent fee) for net proceeds of $2,318,851.2 and 136 shares of Worthington Financial Holdings, Inc. preferred stock received upon the exercise of
     warrants at $852.50 per share (less a placement agent fee) for proceeds of $90,940.00, pursuant to a placement agency agreement executed on 6/14/2013.
250
   	On 6/24/2013, Treasury completed the sale of 8,559 shares of First Western Financial, Inc. preferred stock at $902.50 per share (less a placement agent fee) for net proceeds of $7,647,252.53 , pursuant to a placement agency agreement executed on 6/14/2013.
251
   	On 6/24/2013, Treasury completed the sale of 3,881 shares of First Western Financial, Inc. preferred stock at $842.50 per share (less a placement agent fee) for net proceeds of $3,237,045.08, pursuant to a placement agency agreement executed on 6/14/2013.
252
   	On 6/28/2013, Treasury completed the sale to MBG Investors I, L.P. of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Metropolitan Bank Group, Inc. to Treasury for an aggregate purchase price of $26,000,000.00, pursuant to the terms of the agreement
     among Treasury, MBG Investors I, L.P. and Metropolitan Bank Group, Inc. entered into on 6/26/2013.

Sources: Treasury, Transactions Report, 6/28/2013; Dividends and Interest Report, 7/10/2013; Treasury, response SIGTARP data call, 7/12/2013; Bloomberg, LP, accessed 7/10/2013.




Table D.2
 CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 6/30/2013
      Note   Date                                           Pricing Mechanism6                      Number of Shares                                   Proceeds7
       1     4/26/2010 - 5/26/2010                                          $4.12                        1,500,000,000                           $6,182,493,158
       2     5/26/2010 - 6/30/2010                                          $3.90                        1,108,971,857                           $4,322,726,825
       3     7/23/2010 - 9/30/2010                                          $3.91                        1,500,000,000                           $5,863,489,587
       4     10/19/2010 - 12/6/2010                                         $4.26                        1,165,928,228                           $4,967,921,811
       5     12/6/2010                                                      $4.35                        2,417,407,607                          $10,515,723,090
                                                                                                       Total Proceeds:                        $31,852,354,471
 Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes taken verbatim from 6/28/2013 Transactions Report.

 1	
    4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   On
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occurred on 5/26/2010.
 2	
   On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occurred on 6/30/2010.
 3	
   On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
   Completion of the sale under this authority occured on 9/30/2010.
 4	
   On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
   parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which
   plan was terminated on 12/6/2010.
 5	
   On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the fulfillment
   of certain closing conditions.
 6	
   The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
 7	
   Amount represents the gross proceeds to Treasury.

 Source: Treasury, Transactions Report, 6/28/2013.
                                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                                      281
Table D.3                                                                                                                                                                                                                                                            282
CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2013
                                                            Seller                                                                  Purchase Details                                                               Disposition Details
                                                                                                                     Amount from                                                     Pricing                                       Remaining    Dividend/Interest
 Note   Purchase Date   Name of Institution                                                Investment Description            CPP      Additional Investment   Investment Amount   Mechanism          Date       Amount     Investment Amount     Paid to Treasury
        9/24/2010       Alternatives Federal Credit Union, Ithaca, NY                      Subordinated Debentures           $­­—                      $—            $2,234,000          Par                                                            $118,030
        9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL                  Subordinated Debentures           $—                        $—            $5,457,000          Par                                                            $450,172
  6     9/24/2010       Atlantic City Federal Credit Union, Lander, WY                     Subordinated Debentures           $—                        $—            $2,500,000          Par    9/26/20126   $2,500,000                  $—             $100,278
        9/24/2010       Bainbridge Bancshares, Inc., Bainbridge, GA                        Preferred Stock                   $—                        $—            $3,372,000          Par                                                            $178,154
  8     9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                              Subordinated Debentures           $—                        $—            $3,297,000          Par    3/13/20136   $3,297,000                  $—             $250,975
 1, 2   9/29/2010       BancPlus Corporation, Ridgeland, MS                                Preferred Stock           $50,400,000               $30,514,000          $80,914,000          Par                                                          $4,252,480
        9/29/2010       BankAsiana, Palisades Park, NJ                                     Preferred Stock                   $—                        $—            $5,250,000          Par                                                            $275,917
        9/29/2010       Bethex Federal Credit Union, Bronx, NY                             Subordinated Debentures           $—                        $—             $502,000           Par                                                             $26,383
        9/29/2010       Border Federal Credit Union, Del Rio, TX                           Subordinated Debentures           $—                        $—            $3,260,000          Par                                                            $171,331
  6     9/24/2010       Brewery Credit Union, Milwaukee, WI                                Subordinated Debentures           $—                        $—            $1,096,000          Par    10/3/20126   $1,096,000                  $—              $44,388
        9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY            Subordinated Debentures           $—                        $—             $300,000           Par                                                             $15,750
        9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY              Subordinated Debentures           $—                        $—             $145,000           Par                                                              $7,661
        9/24/2010       Butte Federal Credit Union, Biggs, CA                              Subordinated Debentures           $—                        $—            $1,000,000          Par                                                             $52,833
  6     9/29/2010       Carter Federal Credit Union, Springhill, LA                        Subordinated Debentures           $—                        $—            $6,300,000          Par                                                            $317,350
                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I July 24, 2013




 1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                                  Common Stock              $18,980,000                       $—           $18,980,000          Par     2/6/20136   $2,500,000            $3,800,000           $446,507
        9/17/2010       CFBanc Corporation, Washington, DC                                 Preferred Stock                   $—                        $—            $5,781,000          Par                                                            $307,678
  1     8/13/2010                                                                          Preferred Stock            $7,462,000                       $—                   $—           Par
                        Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                                                    $644,299
  2a    9/17/2010                                                                          Preferred Stock                   $—                 $4,379,000          $11,841,000          Par
  1     9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS             Preferred Stock           $54,600,000                       $—           $54,600,000          Par                                                          $2,869,533
 1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                             Preferred Stock            $1,747,000                $2,313,000           $4,060,000          Par                                                            $193,076
        9/24/2010       Community First Guam Federal Credit Union, Hagatna, GU             Subordinated Debentures           $—                        $—            $2,650,000          Par                                                            $140,008
        9/29/2010       Community Plus Federal Credit Union, Rantoul, IL                   Subordinated Debentures           $—                        $—             $450,000           Par                                                             $23,650
        9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA              Subordinated Debentures           $—                        $—            $2,799,000          Par                                                            $147,881
        9/29/2010       D.C. Federal Credit Union, Washington, DC                          Subordinated Debentures           $—                        $—            $1,522,000          Par                                                             $79,990
        9/29/2010       East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT   Subordinated Debentures           $—                        $—               $7,000           Par                                                                $368
        9/29/2010       Episcopal Community Federal Credit Union, Los Angeles, CA          Subordinated Debentures           $—                        $—             $100,000           Par                                                              $5,256
        9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA                   Subordinated Debentures           $—                        $—            $8,044,000          Par                                                            $424,991
        9/29/2010       Faith Based Federal Credit Union, Oceanside, CA                    Subordinated Debentures           $—                        $—              $30,000           Par                                                              $1,577
        9/29/2010       Fidelis Federal Credit Union, New York, NY                         Subordinated Debentures           $—                        $—              $14,000           Par                                                                $736
  1     8/13/2010       First American International Corp., Brooklyn, NY                   Preferred Stock           $17,000,000                       $—           $17,000,000          Par                                                            $952,976
 1, 7   9/24/2010       First Choice Bank, Cerritos, CA                                    Preferred Stock            $5,146,000                       $—            $5,146,000          Par     5/1/20137   $5,146,000                  $—             $267,878
  1     9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL                     Subordinated Debentures    $7,875,000                       $—            $7,875,000          Par                                                            $649,644
        9/29/2010       First Legacy Community Credit Union, Charlotte, NC                 Subordinated Debentures          $­­—-                      $—            $1,000,000          Par                                                             $52,556
  1     9/29/2010       First M&F Corporation, Kosciusko, MS                               Preferred Stock           $30,000,000                       $—           $30,000,000          Par                                                          $1,576,667
  1     9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                          Preferred Stock            $6,245,000                       $—            $6,245,000          Par                                                             $15,959
  6     9/29/2010       Freedom First Federal Credit Union, Roanoke, VA                    Subordinated Debentures           $—                        $—            $9,278,000          Par    6/12/20136   $9,278,000                  $—             $501,527
  6     9/24/2010       Gateway Community Federal Credit Union, Missoula, MT               Subordinated Debentures           $—                        $—            $1,657,000          Par   10/17/20126   $1,657,000                  $—              $68,397
        9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY                  Subordinated Debentures           $—                        $—             $300,000           Par                                                             $15,967
  6     9/29/2010       Greater Kinston Credit Union, Kinston, NC                          Subordinated Debentures           $—                        $—             $350,000           Par    4/10/20126    $350,000                   $—              $10,714
  1     7/30/2010       Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures   $14,000,000                       $—           $14,000,000          Par                                                          $1,211,583
        9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA                 Subordinated Debentures           $—                        $—             $100,000           Par                                                              $5,256
        9/17/2010       Hope Federal Credit Union, Jackson, MS                             Subordinated Debentures           $—                        $—            $4,520,000          Par                                                            $240,564
 1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                                     Subordinated Debentures    $4,205,000                $3,881,000           $8,086,000          Par                                                            $671,924
  1     9/3/2010        IBW Financial Corporation, Washington, DC                          Preferred Stock            $6,000,000                       $—            $6,000,000          Par                                                            $324,000
        9/29/2010       Independent Employers Group Federal Credit Union, Hilo, HI         Subordinated Debentures           $—                        $—             $698,000           Par                                                             $36,684
        9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                           Subordinated Debentures           $—                        $—            $3,154,000          Par                                                            $263,990
  1     9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                                Preferred Stock            $4,551,000                       $—            $4,551,000          Par                                                            $239,180
        9/24/2010       Liberty County Teachers Federal Credit Union, Liberty, TX          Subordinated Debentures           $—                        $—             $435,000           Par                                                             $22,983
 1, 2   9/24/2010       Liberty Financial Services, Inc., New Orleans, LA                  Preferred Stock            $5,645,000                $5,689,000          $11,334,000          Par                                                            $598,813
                                                                                                                                                                                                                                            Continued on next page
CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2013                                                                   (Continued)
                                                                 Seller                                                                                 Purchase Details                                                                                      Disposition Details
                                                                                                                                         Amount from                                                              Pricing                                                     Remaining       Dividend/Interest
 Note     Purchase Date      Name of Institution                                                         Investment Description                  CPP       Additional Investment       Investment Amount       Mechanism                Date             Amount       Investment Amount        Paid to Treasury
          9/24/2010          Lower East Side People’s Federal Credit Union, New York, NY                 Subordinated Debentures                   $—                          $—                 $898,000              Par                                                                             $47,444
  1       8/20/2010          M&F Bancorp, Inc., Durham, NC                                               Preferred Stock                  $11,735,000                          $—             $11,735,000               Par                                                                            $642,165
  1       8/20/2010                                                                                      Preferred Stock                   $5,500,000                          $—                       $—              Par
                             Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                                                                    $556,474
  2a      9/24/2010                                                                                      Preferred Stock                           $—                 $4,836,000              $10,336,000               Par
          9/24/2010          Neighborhood Trust Federal Credit Union, New York, NY                       Subordinated Debentures                   $—                          $—                 $283,000              Par                                                                             $14,952
          9/29/2010          North Side Community Federal Credit Union, Chicago, IL                      Subordinated Debentures                   $—                          $—                 $325,000              Par                                                                             $17,081
          9/24/2010          Northeast Community Federal Credit Union, San Francisco, CA                 Subordinated Debentures                   $—                          $—                 $350,000              Par                                                                             $18,492
          9/29/2010          Opportunities Credit Union, Burlington, VT                                  Subordinated Debentures                   $—                          $—               $1,091,000              Par                                                                             $57,338
  1       8/13/2010          PGB Holdings, Inc., Chicago, IL                                             Preferred Stock                   $3,000,000                          $—               $3,000,000              Par                                                                             $30,333
          9/24/2010          Phenix Pride Federal Credit Union                                           Subordinated Debentures                   $—                          $—                 $153,000              Par                                                                               $8,084
 1, 4     8/13/2010          Premier Bancorp, Inc., Wilmette, IL                                         Subordinated Debentures           $6,784,000                          $—               $6,784,000              Par      1/29/20134              $79,900                       $—                    $—
          9/24/2010          Prince Kuhio Federal Credit Union, Honolulu, HI                             Subordinated Debentures                   $—                          $—                 $273,000              Par                                                                             $14,424
 1, 7     9/29/2010          PSB Financial Corporation, Many, LA                                         Preferred Stock                   $9,734,000                          $—               $9,734,000              Par     12/28/20127          $9,734,000                        $—              $437,489
          9/24/2010          Pyramid Federal Credit Union, Tucson, AZ                                    Subordinated Debentures                   $—                          $—               $2,500,000              Par                                                                            $132,083
          9/29/2010          Renaissance Community Development Credit Union, Somerset, NJ                Subordinated Debentures                   $—                          $—                  $31,000              Par                                                                               $1,629
          9/24/2010          Santa Cruz Community Credit Union, Santa Cruz, CA                           Subordinated Debentures                   $—                          $—               $2,828,000              Par                                                                            $149,413
  1       9/29/2010          Security Capital Corporation, Batesville, MS                                Preferred Stock                  $17,910,000                          $—                17910000               Par                                                                            $941,270
 1, 2     9/29/2010          Security Federal Corporation, Aiken, SC                                     Preferred Stock                  $18,000,000                 $4,000,000              $22,000,000               Par                                                                          $1,156,222
          9/29/2010          Shreveport Federal Credit Union, Shreveport, LA                             Subordinated Debentures                   $—                          $—               $2,646,000              Par                                                                            $139,062
 1, 2     8/6/2010           Southern Bancorp, Inc., Arkadelphia, AR                                     Preferred Stock                  $11,000,000                $22,800,000              $33,800,000               Par                                                                          $1,875,900
          9/29/2010          Southern Chautauqua Federal Credit Union, Lakewood, NY                      Subordinated Debentures                   $—                          $—               $1,709,000              Par                                                                             $89,817
          9/29/2010          Southside Credit Union, San Antonio, TX                                     Subordinated Debentures                   $—                          $—               $1,100,000              Par                                                                             $57,811
  1       9/29/2010          State Capital Corporation, Greenwood, MS                                    Preferred Stock                  $15,750,000                          $—             $15,750,000               Par                                                                            $827,750
 1, 2     9/29/2010          The First Bancshares, Inc., Hattiesburg, MS                                 Preferred Stock                   $5,000,000                $12,123,000              $17,123,000               Par                                                                            $899,909
          9/29/2010          The Magnolia State Corporation, Bay Springs, MS                             Subordinated Debentures                   $—                          $—               $7,922,000              Par                                                                            $645,335
                             Thurston Union of Low-Income People (TULIP) Cooperative Credit Union,
          9/24/2010                                                                                      Subordinated Debentures                   $—                          $—                  $75,000              Par                                                                               $3,963
                             Olympia, WA
          9/24/2010          Tongass Federal Credit Union, Ketchikan, AK                                 Subordinated Debentures                   $—                          $—               $1,600,000              Par                                                                             $84,533
  1       8/13/2010          Tri-State Bank of Memphis, Memphis, TN                                      Preferred Stock                   $2,795,000                          $—               $2,795,000              Par                                                                            $154,036
          9/24/2010          Tulane-Loyola Federal Credit Union, New Orleans, LA                         Subordinated Debentures                   $—                          $—                 $424,000              Par                                                                             $22,401
          9/24/2010          Union Baptist Church Federal Credit Union, Fort Wayne, IN                   Subordinated Debentures                   $—                          $—                  $10,000              Par                                                                                 $528
          9/29/2010          Union Settlement Federal Credit Union, New York, NY                         Subordinated Debentures                   $—                          $—                 $295,000              Par                                                                             $15,504
  1       9/3/2010           United Bancorporation of Alabama, Inc., Atmore, AL                          Preferred Stock                  $10,300,000                          $—             $10,300,000               Par                                                                            $556,200
                             UNITEHERE Federal Credit Union, (Workers United Federal Credit Union),                                                                                                                                          6
  6       9/29/2010                                                                                      Subordinated Debentures                   $—                          $—                  $57,000              Par      3/20/2013               $57,000                       $—                 $2,822
                             New York, NY
 1, 2     7/30/2010          University Financial Corp, Inc., St. Paul, MN                               Subordinated Debentures          $11,926,000                $10,189,000              $22,115,000               Par     11/28/20126         $22,115,000                        $—            $1,595,843
          9/24/2010          UNO Federal Credit Union, New Orleans, LA                                   Subordinated Debentures                   $—                          $—                 $743,000              Par                                                                             $39,255
          9/29/2010          Vigo County Federal Credit Union, Terre Haute, IN                           Subordinated Debentures                   $—                          $—               $1,229,000              Par                                                                             $64,591
          9/24/2010          Virginia Community Capital, Inc., Christiansburg, VA                        Subordinated Debentures                   $—                          $—               $1,915,000              Par                                                                            $101,176
                                                                                                                                                         Total Purchase Amount              $570,073,000                      Total Capital Repayment Amount                $57,809,900
                                                                                                                                              TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                                     $512,263,100
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes are taken verbatim from Treasury’s 6/28/2013 Transactions Report.

1	
  
  This  institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	
  Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a	
  Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	
  On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and previously unpaid dividends
  were paid on the date of the exchange.
4	
  On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver. On 1/29/2013, UST received $79,900
                                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 24, 2013




  representing the total amount of distributions paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
5	
  Repayment pursuant to Section 5.2 of the CDCI Securities Purchase Agreement.
6	
  Repayment pursuant to Section 6.10 of the CDCI Securities Purchase Agreement.
7	
  Repayment pursuant to Section 5 of the CDCI Exchange Agreement.
8	
  Repayment pursuant to Section 6.11 of the CDCI Securities Purchase Agreement.
9	
  Repayment pursuant to Section 5.11 of the CDCI Exchange Agreement.

Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Dividends and Interest Report, 7/10/2013.
                                                                                                                                                                                                                                                                                                                   283
Table D.4                                                                                                                                                                                                                                                                        284
 AIFP TRANSACTION DETAIL, AS OF 6/30/2013
                                                                                                                                       Treasury Investment After Exchange/
                                          Initial Investment                                  Exchange/Transfer/Other Details          Transfer/Other                                                                  Payment or Disposition1
                                                                                                                                                                                                                                                  Remaining
                                                                                                                                                                                                                                Remaining        Investment      Dividend/
                           Transaction                                                                                                                                     Amount/                                     Amount/ Investment          Amount/ Interest Paid to
               Date        Type        Seller      Description          Amount Note Date          Type                  Amount Note Obligor          Note Description      Equity %        Date          Type          Proceeds Description        Equity %      Treasurya
                                                   Preferred                                     Exchange for
                                                   Stock w/                                      convertible                                               Convertible
               12/29/2008 Purchase     GMAC                      $5,000,000,000       12/30/2009                 $5,000,000,000                      21,
                                                   Exercised                                     preferred                             GMAC (Ally)          Preferred $5,937,500,000
                                                                                                                                                     22
                                                   Warrants                                      stock                                                         Stock

                                                                                                Partial
                                                   Convertible
                                                                                                conversion
                                                   Preferred
                                                                                                of preferred
               5/21/2009   Purchase    GMAC        Stock w/      $7,500,000,000   22 12/30/2009                  $3,000,000,000
                                                                                                stock for
                                                   Exercised
                                                                                                common
                                                   Warrants
                                                                                                stock                                                 3,
                                                                                                                                                             Common
GMAC (Ally),                                                                                                                           GMAC (Ally)   26,                      73.8%
                                                                                                 Partial                                                       Stock                                                                                            $3,405,284,382
Detroit, MI                                        Convertible                                                                                       32
                                                                                                 conversion
                                                   Preferred
                                                                                  22,            of preferred
               12/30/2009 Purchase     GMAC        Stock w/      $1,250,000,000       12/30/2010                 $5,500,000,000   26
                                                                                  26             stock for
                                                   Exercised
                                                                                                 common
                                                   Warrants
                                                                                                 stock
                                                   Trust                                          Exchange
                                                   Preferred                                      for amended
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 24, 2013




                                                                                                                                                                Trust
                                                   Securities                                     and restated
               12/30/2009 Purchase     GMAC                      $2,540,000,000       3/1/2011                   $2,670,000,000   27   GMAC (Ally)    27    Preferred $2,670,000,000   3/2/2011   Disposition28   $2,667,000,000          N/A           $­­­—
                                                   w/                                             Trust
                                                                                                                                                            Securities
                                                   Exercised                                      Preferred
                                                   Warrants                                       Securities
                                                                                                                                                                                                                                                       Continued on next page
 AIFP TRANSACTION DETAIL, AS OF 6/30/2013                                               (Continued)
                                                                                                                                          Treasury Investment After Exchange/
                                         Initial Investment                                    Exchange/Transfer/Other Details            Transfer/Other                                                                     Payment or Disposition1
                                                                                                                                                                                                                                                            Remaining
                                                                                                                                                                                                                                      Remaining            Investment      Dividend/
                          Transaction                                                                                                                                           Amount/                                      Amount/ Investment              Amount/ Interest Paid to
              Date        Type        Seller      Description             Amount Note Date          Type                    Amount Note Obligor         Note Description        Equity %         Date          Type          Proceeds Description            Equity %      Treasurya
                                                                                                    Exchange
                                      General
                                                  Debt                                              for equity
              12/29/2008 Purchase     Motors                        $884,024,131    2   5/29/2009                     $884,024,131    3
                                                  Obligation                                        interest in
                                      Corporation
                                                                                                    GMAC
                                                                                                    Exchange
                                                  Debt
                                      General                                                       for preferred
                                                  Obligation
              12/31/2008 Purchase     Motors                      $13,400,000,000       7/10/2009   and common      $13,400,000,000   7
                                                  w/ Additional
                                      Corporation                                                   stock in New
                                                  Note
                                                                                                    GM
                                                                                                    Exchange
                                                  Debt
                                      General                                                       for preferred                         General       10,
                                                  Obligation                                                                                                    Preferred
              4/22/2009   Purchase    Motors                       $2,000,000,000   4   7/10/2009   and common       $2,000,000,000   7   Motors        11,               $2,100,000,000 12/15/2010      Repayment      $2,139,406,778          N/A               $­­­—
                                                  w/ Additional                                                                                                    Stock
                                      Corporation                                                   stock in New                          Company       24
                                                  Note
                                                                                                    GM
                                                                                                                                                                                                              Partial                      Common
                                                                                                                                                                                           11/18/2010                 $11,743,303,903                          36.9%
                                                                                                                                                                                                        Disposition25                        Stock
                                                                                                                                                                                                              Partial                      Common
                                                                                                                                                                                           11/26/2010                   $1,761,495,577                        32.04%
                                                                                                    Exchange                                                                                            Disposition25                        Stock
                                                  Debt
                                      General                                                       for preferred                         General       10,
                                                  Obligation                                                                                                    Common                                        Partial                      Common
              5/20/2009   Purchase    Motors                       $4,000,000,000   5   7/10/2009   and common       $4,000,000,000   7   Motors        11,                       60.8% 12/21/2012                      $5,500,000,000                        21.97%
                                                  w/ Additional                                                                                                   Stock                                 Disposition33                        Stock
                                      Corporation                                                   stock in New                          Company       25
                                                  Note
                                                                                                    GM                                                                                                        Partial                      Common
                                                                                                                                                                                            4/11/2013                   $1,637,839,844                        17.69%
                                                                                                                                                                                                        Disposition34                        Stock
                                                                                                                                                                                                              Partial                      Common
                                                                                                                                                                                            6/12/2013                   $1,031,700,000                        13.80%
                                                                                                                                                                                                        Disposition35                        Stock
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                            7/10/2009                    $360,624,198                  $6,711,864,407
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                                             Partial                           Debt
                                                                                                    Exchange                                                                               12/18/2009                   $1,000,000,000                 $5,711,864,407
                                                  Debt                                                                                    General                                                        Repayment                        Obligation
                                      General                                                       for preferred
                                                  Obligation                                                                              Motors        11,         Debt
General       5/27/2009   Purchase    Motors                        $360,624,198    6   7/10/2009   and common        $360,624,198    7                                   $7,072,488,605                     Partial                           Debt
                                                  w/ Additional                                                                           Holdings      12     Obligation                1/21/2010                        $35,084,421                  $5,676,779,986
Motorsb,c                             Corporation                                                   stock in New                                                                                         Repayment                        Obligation                      $756,714,508
                                                  Note                                                                                    LLC
Detroit, MI                                                                                         GM
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                            3/31/2010                   $1,000,000,000                 $4,676,779,986
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                            4/20/2010    Repayment      $4,676,779,986          N/A               $­­­—
                                                                                                    Exchange
                                                  Debt
                                      General                                                       for preferred
                                                  Obligation
              6/3/2009    Purchase    Motors                      $30,100,000,000   8   7/10/2009   and common      $22,041,706,310   9
                                                  w/ Additional
                                      Corporation                                                   stock in New
                                                  Note
                                                                                                    GM
                                                                                                    Transfer of
                                                                                        7/10/2009   debt to New      $7,072,488,605   9
                                                                                                    GM
                                                                                                                                          Motors
                                                                                                    Debt left at                                                    Debt                                     Partial                           Debt
                                                                                        7/10/2009                     $985,805,085    9   Liquidation    29                 $985,805,085 3/31/2011                        $50,000,000                   $935,805,085
                                                                                                    Old GM                                                     Obligation                                Repayment                        Obligation
                                                                                                                                          Company
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                             4/5/2011                     $45,000,000                   $890,805,085
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                             5/3/2011                     $15,887,795                   $874,917,290
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                           12/16/2011                        $144,444                   $874,772,846
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                           12/23/2011                     $18,890,294                   $855,882,552
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                            1/11/2012                      $6,713,489                   $849,169,063
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                           10/23/2012                        $435,097                   $848,733,966
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                                             Partial                           Debt
                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I July 24, 2013




                                                                                                                                                                                            5/22/2013                     $10,048,968                   $838,684,999
                                                                                                                                                                                                         Repayment                        Obligation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          285
 AIFP TRANSACTION DETAIL, AS OF 6/30/2013                                               (Continued)                                                                                                                                                                                           286
                                                                                                                                           Treasury Investment After Exchange/
                                        Initial Investment                                     Exchange/Transfer/Other Details             Transfer/Other                                                                     Payment or Disposition1
                                                                                                                                                                                                                                                               Remaining
                                                                                                                                                                                                                                       Remaining              Investment      Dividend/
                         Transaction                                                                                                                                            Amount/                                       Amount/ Investment                Amount/ Interest Paid to
             Date        Type        Seller      Description            Amount Note Date            Type                  Amount Note Obligor            Note Description       Equity %         Date           Type          Proceeds Description              Equity %      Treasurya
                                                 Debt                                                                                                                                                                                             Debt
                                     Chrysler    Obligation                                                                                                                                                  Partial                         Obligation
             1/16/2009   Purchase                                $1,500,000,000    13                                                                                                       3/17/2009                       $3,499,055                    $1,496,500,945
                                     FinCo       w/ Additional                                                                                                                                           Repayment                        w/ Additional
                                                 Note                                                                                                                                                                                             Note
                                                                                                                                                                                                                                                  Debt
                                                                                                                                                                                                             Partial                         Obligation
                                                                                                                                                                                            4/17/2009                      $31,810,122                    $1,464,690,823
                                                                                                                                                                                                         Repayment                        w/ Additional
                                                                                                                                                                                                                                                  Note
Chrysler                                                                                                                                                                                                                                          Debt
FinCo,                                                                                                                                                                                                       Partial                         Obligation
                                                                                                                                                                                            5/18/2009                      $51,136,084                    $1,413,554,739        $7,405,894
Farmington                                                                                                                                                                                               Repayment                        w/ Additional
Hills, MI                                                                                                                                                                                                                                         Note
                                                                                                                                                                                                                                                  Debt
                                                                                                                                                                                                             Partial                         Obligation
                                                                                                                                                                                            6/17/2009                      $44,357,710                    $1,369,197,029
                                                                                                                                                                                                         Repayment                        w/ Additional
                                                                                                                                                                                                                                                  Note
                                                                                                                                                                                                                                             Additional
                                                                                                                                                                                            7/14/2009    Repayment       $1,369,197,029                              $­­­—
                                                                                                                                                                                                                                                  Note
                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 24, 2013




                                                                                                                                                                                            7/14/2009   Repayment*         $15,000,000             N/A               $­­­—
                                                                                                                                                                     Debt
                                                 Debt
                                                                                                    Transfer of                                                 obligation
                                     Chrysler    Obligation                                                                                Chrysler
             1/2/2009    Purchase                                $4,000,000,000         6/10/2009   debt to New     $500,000,000      19                  20            w/ $3,500,000,000 5/14/2010                      $1,900,000,000            N/A               $­­­—
                                     Holding     w/ Additional                                                                             Holding
                                                                                                    Chrysler                                                    additional                             Termination
                                                 Note
                                                                                                                                                                     note                           and settlement
                                                 Debt                                                                                                                                                   payment20
                                     Chrysler    Obligation
             4/29/2009   Purchase                                          $­­­—   14
                                     Holding     w/ Additional
                                                 Note
                                                 Debt
                                     Chrysler    Obligation
             4/29/2009   Purchase                                 $280,130,642     15                                                                                                       7/10/2009    Repayment        $280,130,642             N/A               $­­­—
                                     Holding     w/ Additional
                                                 Note
                                                 Debt                                               Completion
                                                                                                                                           Old Carco              Right to                                 Proceeds                           Right to
                                     Old         Obligation                                         of
             5/1/2009    Purchase                                $1,888,153,580    16 4/30/2010                   ($1,888,153,580)    23   Liquidation    23       recover           N/A 5/10/2010      from sale of       $30,544,528         recover              N/A
                                     Chrysler    w/ Additional                                      bankruptcy
                                                                                                                                           Trust                 proceeds                                  collateral                        proceeds
                                                 Note                                               proceeding;
                                                                                                    transfer of
                                                 Debt                                               collateral                                                                                             Proceeds                           Right to
                                     Old         Obligation                                         security to
             5/20/2009   Purchase                                          $­­­—   17                                                                                                        9/9/2010   from sale of        $9,666,784         recover              N/A
                                     Chrysler    w/ Additional                                      liquidation                                                                                            collateral                        proceeds
                                                 Note                                               trust
                                                                                                                                                                                                           Proceeds                           Right to
Chrysler,                                                                                                                                                                                  12/29/2010   from sale of        $7,844,409         recover              N/A
Auburn                                                                                                                                                                                                     collateral                        proceeds                        $1,171,263,942
Hills, MI
                                                                                                                                                                                                           Proceeds                           Right to
                                                                                                                                                                                            4/30/2012   from sale of        $9,302,185         recover              N/A
                                                                                                                                                                                                           collateral                        proceeds
                                                                                                                                                                      Debt
                                                 Debt
                                                                                                                                                                 obligation
                                                 Obligation                                         Issuance
                                                                                                                                           Chrysler                      w/
                                     New         w/ Additional                                      of equity                                            19,                                            Repayment -
             5/27/2009   Purchase                                $6,642,000,000    18 6/10/2009                               $­­­—        Group                 additional $7,142,000,000 5/24/2011                     $5,076,460,000
                                     Chrysler    Note, Zero                                         in New                                               31                                                Principal
                                                                                                                                           LLC                 note & zero
                                                 Coupon                                             Chrysler
                                                                                                                                                                   coupon
                                                 Note, Equity
                                                                                                                                                                      note
                                                                                                                                                                                                         Termination
                                                                                                                                                                                            5/24/2011    of undrawn      $2,065,540,000            N/A               $­­­—
                                                                                                                                                                                                            facility31
                                                                                                                                                                                                        Repayment*
                                                                                                                                                                                            5/24/2011    - Additional     $288,000,000
                                                                                                                                                                                                                Note
                                                                                                                                                                                                        Repayment*
                                                                                                                                                                                            5/24/2011 - Zero Coupon       $100,000,000
                                                                                                                                                                                                               Note
                                                                                                                                           Chrysler
                                                                                                                                                                 Common
                                                                                                                                           Group          30                        6.6% 7/21/2011       Disposition      $560,000,000             N/A               $­­­—
                                                                                                                                                                   equity
                                                                                                                                           LLC
                                                                                                                                                                                                                                                                    Continued on next page
    AIFP TRANSACTION DETAIL, AS OF 6/30/2013                                                      (Continued)
                                                                                                                                                           Treasury Investment After Exchange/
                                             Initial Investment                                             Exchange/Transfer/Other Details                Transfer/Other                                                                             Payment or Disposition1
                                                                                                                                                                                                                                                                                         Remaining
                                                                                                                                                                                                                                                               Remaining                Investment      Dividend/
                          Transaction                                                                                                                                                                Amount/                                          Amount/ Investment                  Amount/ Interest Paid to
            Date          Type        Seller           Description                Amount Note Date               Type                     Amount Note Obligor            Note Description            Equity %          Date            Type           Proceeds Description                Equity %      Treasurya
                                                                                                                                                                                                                                                       Additional Proceeds*         $403,000,000
                                  Total Initial Investment Amount $81,344,932,551                                                                                                                                                                             Total Payments $43,074,303,341
                                                                                                                                                                                                                                         Total Treasury Investment Amount $32,716,935,630
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from Treasury’s 6/28/2013, Transaction Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1	
   
   Payment      amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2	
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3	
   Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009.
   (See transactions market by orange line in the table above and footnote 22.)
4	
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5	
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6	
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of
   debt assumed by the new GM, as explained in footnote 10.
7	
   On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8	
   Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds
   had been disbursed by Treasury.
9	
   On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under
   the terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10	
   In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11	
   Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General
   Motors Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12	
   Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13	
   The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14	
   This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15	
   The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16	
   This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”).
   As of 6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17	
   This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP
   Loan had terminated.
18	
   This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up
   to $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New
   Chrysler. When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19	
   Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20	
   Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a
   settlement payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21	
   Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22	
   Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23	
   On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
   transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24	
   On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common
   stock. The repurchase was completed on 12/15/2010.
25	
   On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903.
   On 11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the
   underwriting agreement total $13,504,799,480.
26	
   On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27	
   On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and
   restatement, Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28	
   On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not
   include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29	
   On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan,
   were transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30	
   In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership
   automatically increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully
   diluted basis). On 7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31	
   On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32	
   On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.
33	
   On 12/21/2012, Treasury sold 200,000,000 shares of common stock at $27.50 per share pursuant to a letter agreement. Following settlement, the net proceeds to Treasury were $5,500,000,000.
34	
   On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion
   of the sale). Completion of the sale under this authority occurred on April 11, 2013.
35	
   On 6/12/2013, Treasury sold 30,000,000 shares of GM common stock in a registered public offering at $34.41 per share for net proceeds to Treasury of $1,031,700,000.
                                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I July 24, 2013




a	
  For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b	
  According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
	This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Dividends and Interest Report, 7/10/2013.
                                                                                                                                                                                                                                                                                                                           287
Table D.5                                                                                                                                                                                                                                                                                                            288
ASSP TRANSACTION DETAIL, AS OF 6/30/2013
                         Seller                                                                                                                                Adjustment Details                                                            Repayment4
                                                                                                                                                                                             Adjusted                                            Remaining
                                                             Transaction       Investment                                      Pricing         Adjustment            Adjustment            Investment                                           Investment                                     Dividend/Interest
Note      Date           Institution Name                    Type              Description          Investment Amount       Mechanism                Date               Amount                Amount       Date                   Type          Description                     Amount          Paid to Treasury
                                                                                                                                                                                                                                 Partial   Debt Obligation w/
                                                                                                                                                                                                           11/20/2009                                                   $140,000,000
                                                                                                                                                                                                                             repayment        Additional Note

                         GM Supplier Receivables LLC                           Debt Obligation w/                                               7/8/20093      ($1,000,000,000)       $2,500,000,000                             Partial   Debt Obligation w/
1         4/9/2009                                           Purchase                                  $3,500,000,000                 N/A                                                                  2/11/2010                                                    $100,000,000                  $9,087,808
                         Wilmington, DE                                        Additional Note                                                                                                                               repayment        Additional Note
                                                                                                                                                                                                           3/4/2010         Repayment5        Additional Note               $50,000,000
                                                                                                                                                                                        $290,000,000       4/5/2010           Payment6                 None                 $56,541,893

                         Chrysler Receivables SPV LLC                          Debt Obligation w/                                               7/8/20093        ($500,000,000)       $1,000,000,000       3/9/2010         Repayment5        Additional Note           $123,076,735
2         4/9/2009                                           Purchase                                  $1,500,000,000                 N/A                                                                                                                                                             $5,787,176
                         Wilmington, DE                                        Additional Note                                                                                          $123,076,735       4/7/2010           Payment7                 None                 $44,533,054
         Initial Total                    $5,000,000,000                                                                                    Adjusted Total       $413,076,735                                                              Total Repayments            $413,076,735
                                                                                                                  Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from Treasury’s 6/28/2013, Transactions Report.
1	
   The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2	
   The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3	
   Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4	
                                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I July 24, 2013




   Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5	
   All outstanding principal drawn under the credit agreement was repaid.
6	
   Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
   of which have been repaid.
7	
   Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Dividends and Interest Report, 7/10/2013.




Table D.6
AIFP GENERAL MOTORS COMPANY COMMON STOCK DISPOSITION DETAIL, AS OF 6/30/2013
Date                                              Pricing Mechanism1                                                                 Number of Shares                             Proceeds2
1/18/2013 – 4/17/20133                            $28.049                                                                                   58,392,078                       $1,637,839,844
                                                                                                                                       Total Proceeds:                     $1,637,839,844
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from Treasury’s 6/28/2013, Transactions Report.
1	
   The price set forth is the weighted average price for all sales of General Motors Company common stock made by Treasury over the course of the corresponding period.
2	
   Amount represents the gross proceeds to Treasury.
3	
   On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to
   58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred
   on April 11, 2013.

Source: Treasury, Transactions Report, 6/28/2013.




Table D.7
TIP TRANSACTION DETAIL, AS OF 6/30/2013
                                                                                                                                                                             Treasury Investment
                                                                                                                                                                             Remaining After Capital
                         Seller                                                                                                       Capital Repayment Details              Repayment                                        Final Disposition                    Market and Warrant Data
                                                                                                                                                Capital          Capital      Remaining Remaining       Final                 Final                        Final                                     Dividends/
                         Institution         Transaction                                             Investment         Pricing              Repayment        Repayment         Capital   Capital Disposition                 Disposition            Disposition    Stock        Outstanding    Interest Paid to
Note    Date             Name                Type           Investment Description                      Amount       Mechanism                  Amount             Date2        Amount Description     Date3                  Description             Proceeds      Price     Warrant Shares           Treasury
                                                            Trust Preferred Securities
    1   12/31/2008       Citigroup Inc.      Purchase                                          $20,000,000,000                Par       $20,000,000,000      12/23/2009               $—        Warrants 1/25/2011      A     Warrants            $190,386,428     $47.97                       $1,568,888,889
                                                            w/ Warrants
                         Bank of America
        1/16/2009                            Purchase       Preferred Stock w/ Warrants        $20,000,000,000                Par       $20,000,000,000        12/9/2009              $—        Warrants    3/3/2010    A     Warrants          $1,236,804,513     $12.86                       $1,435,555,556
                         Corporation
                                                                                                                     Total Capital
                                                            Total Investment                   $40,000,000,000                          $40,000,000,000
                                                                                                                      Repayment
                                                                                         Total Treasury TIP Investment Amount                         $—                                                                                          Total Warrant Proceeds $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from Treasury’s 6/28/2013 Transactions Report.
1	
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2	
   Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3	
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Dividends and Interest Report, 7/10/2013; Bloomberg LP, accessed 7/10/2013.
Table D.8
AGP TRANSACTION DETAIL, AS OF 6/30/2013
                        Initial Investment                                                                    Premium                           Exchange/Transfer/Other Details                                                                   Payment or Disposition           Market and Warrant Data
                                                                                                                                                                                                                                          Remaining              Remaining Outstanding                    Dividends/
                        Institution     Transaction                                                                                                                                                          Payment             Payment   Premium                Premium Warrant      Stock           Interest Paid
Note     Date           Name            Type          Description      Guarantee Limit Description               Amount            Date             Type     Description          Amount            Date        Type              Amount Description               Amount Shares       Price             to Treasury
                                                                                                                                          Exchange                                                           Partial
                                                                                                                                                                      Trust                                                                 Trust
                                                                                                                                           preferred                                                   cancellation
                                                                                                                                                                Preferred                                                               Preferred
                                                                                                                             6/9/2009 stock for trust                       $4,034,000,000 12/23/2009      for early ($1,800,000,000)              $2,234,000,000
                                                                                                                                                             Securities w/                                                              Securities
                                                                                                                                           preferred                                                    termination
                        Citigroup                                                     Preferred                                                                 Warrants                                                              w/ Warrants
1, 2, 3,                                              Master                                                                              securities                                                  of guarantee
         1/16/2009      Inc., New       Guarantee                      $5,000,000,000 Stock w/          $4,034,000,000                                                                                                                                                                      $47.97 $642,832,268
4, 5                                                  Agreement                                                                           Exchange                                           9/30/2010     Disposition    $2,246,000,000        Warrants                 $—
                        York, NY                                                      Warrants                                                                        Trust
                                                                                                                                     trust preferred
                                                                                                                                                                Preferred
                                                                                                                            9/29/2010 securities for                        $2,246,000,000                     Warrant
                                                                                                                                                             Securities w/                   1/25/2011                       $67,197,045            None                 $—
                                                                                                                                     trust preferred                                                           Auction
                                                                                                                                                                Warrants
                                                                                                                                          securities
                        Citigroup                     Termination
3        12/23/2009                     Termination                  ($5,000,000,000)
                        Inc.                          Agreement
                                                                                                                                                     Trust
                                                                                                                                                preferred           Trust
6                                                                                                                          12/28/2012           securities      Preferred    $800,000,000
                                                                                                                                            received from       Securities
                                                                                                                                                 the FDIC
                                                                                                                                               Exchange
                                                                                                                                                     Trust
                                                                                                                                               preferred     Subordinated
7, 8                                                                                                                         2/4/2013                                        $894,000,000     2/8/2013     Disposition $894,000,000.00              None                 $—
                                                                                                                                            securities for           Note
                                                                                                                                            subordinated
                                                                                                                                                      note
                                                      Total          $—                                                                                                                                Total Proceeds $3,207,197,045
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from Treasury’s 6/28/2013 Transactions Report.

1	
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2	
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
  Perpetual Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3	
  On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion
  of the AGP Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the
  FDIC’s Temporary Liquidity Guarantee Program.
4	
  On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of
  exchange, Citigroup Inc. paid the outstanding accrued and unpaid dividends.
5	
  On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
6	
  12/28/2012, as contemplated by the Termination Agreement and the Letter Agreement dated 12/23/2009, between Treasury and the Federal Deposit Insurance Corporation (FDIC), Treasury received from the FDIC, Citigroup Inc. trust preferred securities in aggregate liquidation preference equal to $800
  million and approximately $183 million in dividend and interest payments from those securities.
7	
  On 2/4/2013, Treasury exchanged $800 million in Citigroup Capital XXXII Trust Preferred Securities (TRuPS) for $894 million in Citigroup subordinated notes pursuant to an agreement between Citigroup and the Treasury executed on 2/4/2013. Accrued interest on the TRuPS was received at the time of
  the exchange.
8	
  On 2/8/2013, Treasury completed the sale of its Citigroup subordinated notes for $894 million plus accrued interest, pursuant to an underwriting agreement executed on 2/8/2012.

Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Dividends and Interest Report, 7/10/2013; Bloomberg LP, accessed 7/10/2013.



Table D.9
TALF TRANSACTION DETAIL, AS OF 6/30/2013
                          Seller                                                                                                                                  Adjusted Investment                                                       Repayment
                                                         Transaction                                                    Investment    Pricing                                                        Final Investment
Note      Date            Institution                    Type            Investment Description                            Amount     Mechanism          Date                           Amount                Amount      Date                                   Amount
                                                                                                                                                         7/19/2010             $4,300,000,000                             2/6/2013                         $100,000,000
                                                                                                                                                         6/28/2012             $1,400,000,000                             2/6/2013                         $212,829,610

1,2,3,                                                                                                                                                                                                                    3/6/2013                          $97,594,053
          3/3/2009        TALF LLC, Wilmington, DE       Purchase        Debt Obligation w/ Additional Note      $20,000,000,000      N/A                                                               $100,000,000
4,5                                                                                                                                                                                                                       4/4/2013                           $6,069,968
                                                                                                                                                         1/15/2013               $100,000,000
                                                                                                                                                                                                                          5/6/2013                           $4,419,259
                                                                                                                                                                                                                          6/6/2013                          $96,496,772
                                                                                                                                                                      Total Investment Amount          $100,000,000        Total Repayment Amount          $517,409,662
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from Treasury’s 6/28/2013, Transactions Report.

1	
  The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.
                                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I July 24, 2013




2	
  On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to $4,300,000,000.
3	
  On 6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.
4	
  On 1/15/2013, Treasury, the FRBNY and TALF LLC entered into an amendment that stated that, due to the fact that the accumulated fees collected through TALF exceed the total principal amount of TALF loans outstanding, Treasury’s commitment of TARP funds
  to provide credit protection is no longer necessary.
5	
  Repayment amounts do not include accrued interest proceeds received on 2/6/2013, which are reflected on the Dividends & Interest Report.

Sources: Treasury, Transactions Report, 6/28/2013.
                                                                                                                                                                                                                                                                                                                        289
Table D.10                                                                                                                                                                                                                                                                                             290
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2013
                    Seller               Purchase Details                                                      Exchange/Transfer Details
Note    Date        Name of              Transaction     Investment                Investment   Pricing                                                   Transaction                                                               Pricing                   Outstanding Warrant Dividends/Interest
                                                                                                                Date                                                          Investment Description                  Amount                    Stock Price
                    Institution          Type            Description                  Amount    Mechanism                                                 Type                                                                   Mechanism                                 Shares   Paid to Treasury
                                                         Preferred Stock
                                                                                                                                                                              Preferred Stock
  1     11/25/2008 AIG, New York, NY     Purchase        w/ Warrants          $40,000,000,000   Par            4/17/2009                                  Exchange                                            $40,000,000,000            Par         $44.70                    —                $­—
                                                                                                                                                                              w/ Warrants (Series E)
                                                         (Series D)
                                                         Preferred Stock                                       See table below for exchange/
 2, 3   4/17/2009   AIG, New York, NY    Purchase        w/ Warrants          $29,835,000,000   Par            transfer details in connection with the                                                                                               $44.70                    —       $641,275,676
                                                         (Series F)                                            recapitalization conducted on 1/14/2011.
                                                             Initial Total   $69,835,000,000
                                                                                                                                                          Final Disposition
                                                                                                                                                                                               Transaction
                                                                                                                                                          Date                Investment       Type                 Proceeds
                                                                                                                                                                              Warrants
                                                                                                                                                          3/1/2013                             Repurchase        $25,150,923
                                                                                                                                                                              (Series D)
                                                                                                                                                                              Warrants
                                                                                                                                                          3/1/2013                             Repurchase             $5,768
                                                                                                                                                                              (Series F)
                                                                                                                                                                                               Total             $25,156,691
                                      Recapitalization                                          Treasury Holdings Post-Recapitalization                                                                                          Final Disposition
                                                                                                                                                                                                                                                                Remaining Recap
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I July 24, 2013




                    Investment           Transaction                   Pricing                                                                            Amount /                             Transaction                                         Pricing
Note    Date                                                                                    Investment Description                                                        Date                                                 Proceeds8                  Investment Amount,
                    Description          Type                          Mechanism                                                                          Shares                               Type                                             Mechanism
                                                                                                                                                                                                                                                              Shares, or Equity %
                                         Exchange                      Par                      Preferred Stock (Series G)                                $2,000,000,000      5/27/2011        Cancellation                              $­—           N/A                  $—10
                                                                                                                                                                              2/14/2011        Payment                          $185,726,192            Par
                                                                                                                                                                              3/8/2011         Payment                      $5,511,067,614              Par
                                                                                                                                                                              3/15/2011        Payment                           $55,833,333            Par
                                                                                                                                                                              8/17/2011        Payment                           $97,008,351            Par
                                                                                                                                                                              8/18/2011        Payment                      $2,153,520,000              Par
                                                                                                AIA Preferred Units                                       $16,916,603,5687                                                                                                   $—8
                                                                                                                                                                              9/2/2011         Payment                           $55,885,302            Par

                    Preferred Stock      Exchange                      N/A                                                                                                    11/1/2011        Payment                          $971,506,765            Par
  4     1/14/2011
                    (Series F)                                                                                                                                                3/8/2012         Payment                      $5,576,121,382              Par
                                                                                                                                                                              3/15/2012        Payment                      $1,521,632,096              Par
                                                                                                                                                                              3/22/2012        Payment                      $1,493,250,339              Par
                                                                                                                                                                              2/14/2011        Payment                      $2,009,932,072              Par
                                                                                                ALICO Junior Preferred Interests                          $3,375,328,4327     3/8/2011         Payment                      $1,383,888,037              Par                  $—8
                                                                                                                                                                              3/15/2012        Payment                           $44,941,843            Par

                                                                                                                                                                                               Partial                                                             1,455,037,9629
                                         Exchange                                                                                                         $167,623,733        5/24/2011                                     $5,800,000,000             N/A
                                                                                                                                                                                               Disposition                                                                   77%

                                                                                                                                                                                               Partial                                                            1,248,141,41011
                                                                                                                                                                              3/8/2012                                      $6,000,000,008             N/A
                                                                                                                                                                                               Disposition                                                                   70%

                                                                                                                                                                                               Partial                                                            1,084,206,98412
                    Preferred Stock                                                                                                                                           5/6/2012                                      $4,999,999,993             N/A
  5     1/14/2011                        Exchange                      N/A                                                                                $924,546,133                         Disposition                                                                   63%
                    (Series E)
                                                                                                                                                                                               Partial                                                            1,059,616,82112
                                                                                                                                                                              5/7/2012                                          $749,999,972           N/A
                                                                                                                                                                                               Disposition                                                                   61%

                                                                                                                                                                                               Partial                                                              895,682,39513
                                                                                                                                                                              8/3/2012                                      $4,999,999,993             N/A
                                                                                                                                                                                               Disposition                                                                   55%
                                                                                                Common Stock
                                                                                                                                                                                               Partial                                                              871,092,23113
                                                                                                                                                                              8/6/2012                                          $750,000,002           N/A
                                                                                                                                                                                               Disposition                                                                   53%

                                                                                                                                                                                               Partial                                                              317,246,07814
                    Common Stock                                                                                                                                              9/10/2012                                    $17,999,999,973             N/A
  6     1/14/2011                        Transfer                                                                                                         $562,868,096                         Disposition                                                                   22%
                    (non-TARP)
                                                                                                                                                                                               Partial                                                              234,169,15614
                                                                                                                                                                              9/11/2012                                     $2,699,999,965             N/A
                                                                                                                                                                                               Disposition                                                                   16%

                                                                                                                                                                                               Final                                                                234,169,15615
                                                                                                                                                                              12/14/2012                                    $7,610,497,570             N/A
                                                                                                                                                                                               Disposition                                                                    0%
                                                                                                                                                                              Total                                       $72,670,810,802
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from the Treasury’s 6/28/2013, Transactions Report, and Treasury’s 7/10/2013, Dividends and Interest Report.

1	
   On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to
   Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2	
   The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3	
   This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4	
   On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred
   interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to
   $2,000,000,000.
5	
   On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6	
   On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
   transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7	
   The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8	
   Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9	
   On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10	
   On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11	
   On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12	
   On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13	
   On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14	
   On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.
15	
   On 12/14/2012, Treasury completed the sale of 234,169,156 shares of common stock at $32.50 per share for total proceeds of $7,610,497,570, pursuant to an underwriting agreement executed on 12/10/2012.

Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Dividends and Interest Report, 7/10/2013; Bloomberg LP, accessed 7/10/2013.


Table D.11
UCSB TRANSACTION DETAIL, AS OF 6/30/2013
                  1
Purchase Details                                                                                                                               Settlement Details                                                   Final Disposition
                                                                                                                                                                                                                                           Life-to-date
Purchase                                                                                         Purchase Face          Pricing      TBA or    Settlement           Investment        TBA or     Senior Security                              Principal     Current Face           Disposition          Interest Paid to
                                                                                                                                                                                                               4
Date          Investment Description                        Institution Name     CUSIP                Amount3        Mechanism        PMF3     Date                  Amount2, 3        PMF3           Proceeds       Trade Date            Received1,8         Amount6,8            Amount5, 6                 Treasury
3/19/2010     Floating Rate SBA 7a security due 2025        Coastal Securities   83164KYN7           $4,070,000           107.75       —       3/24/2010            $4,377,249             —              $2,184      6/21/2011              $902,633         $3,151,186           $3,457,746                 $169,441
3/19/2010     Floating Rate SBA 7a security due 2022        Coastal Securities   83165ADC5           $7,617,617               109      —       3/24/2010            $8,279,156             —              $4,130    10/19/2011             $1,685,710         $5,891,602           $6,462,972                 $449,518
3/19/2010     Floating Rate SBA 7a security due 2022        Coastal Securities   83165ADE1           $8,030,000          108.875       —       3/24/2010            $8,716,265             —              $4,348      6/21/2011            $2,022,652         $5,964,013           $6,555,383                 $371,355
4/8/2010      Floating Rate SBA 7a security due 2034        Coastal Securities   83165AD84          $23,500,000          110.502       —       5/28/2010          $26,041,643              —             $12,983       6/7/2011            $1,149,633        $22,350,367          $25,039,989               $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016        Coastal Securities   83164KZH9           $8,900,014             107.5      —       4/30/2010            $9,598,523             —              $4,783       6/7/2011            $2,357,796         $6,542,218           $7,045,774                 $414,561
5/11/2010     Floating Rate SBA 7a security due 2020        Coastal Securities   83165AEE0          $10,751,382          106.806       —       6/30/2010          $11,511,052              —              $5,741       6/7/2011              $932,112         $9,819,270          $10,550,917                 $348,599
5/11/2010     Floating Rate SBA 7a security due 2035        Coastal Securities   83164K2Q5          $12,898,996           109.42       —       6/30/2010          $14,151,229              —              $7,057       6/7/2011              $328,604        $12,570,392          $13,886,504                 $479,508
5/11/2010     Floating Rate SBA 7a security due 2033        Coastal Securities   83165AED2           $8,744,333          110.798       —       6/30/2010            $9,717,173             —              $4,844       6/7/2011              $261,145         $8,483,188           $9,482,247                 $368,608
5/25/2010     Floating Rate SBA 7a security due 2029        Coastal Securities   83164K3B7           $8,417,817          110.125       —       7/30/2010            $9,294,363             —              $4,635       6/7/2011              $246,658         $8,171,159           $8,985,818                 $287,624
5/25/2010     Floating Rate SBA 7a security due 2033        Coastal Securities   83165AEK6          $17,119,972          109.553       —       7/30/2010          $18,801,712              —              $9,377      9/20/2011            $2,089,260        $15,030,712          $16,658,561                 $657,863
6/17/2010     Floating Rate SBA 7a security due 2020        Coastal Securities   83165AEQ3          $34,441,059          110.785       —       8/30/2010          $38,273,995              —             $19,077      6/21/2011            $1,784,934        $32,656,125          $36,072,056               $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034        Coastal Securities   83165AEP5          $28,209,085          112.028       —       8/30/2010          $31,693,810              —             $15,801      9/20/2011            $2,278,652        $25,930,433          $29,142,474               $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020        Coastal Securities   83164K3Y7           $6,004,156          106.625       —       9/30/2010            $6,416,804             —              $3,200      6/21/2011              $348,107         $5,656,049           $6,051,772                 $146,030
7/14/2010     Floating Rate SBA 7a security due 2025        Shay Financial       83164K4J9           $6,860,835          108.505       —       9/30/2010            $7,462,726             —              $3,722    10/19/2011               $339,960         $6,520,875           $7,105,304                 $255,370
7/14/2010     Floating Rate SBA 7a security due 2034        Shay Financial       83165AE42          $13,183,361           111.86       —       9/30/2010          $14,789,302              —              $7,373      6/21/2011              $478,520        $12,704,841          $14,182,379                 $423,725
7/29/2010     Floating Rate SBA 7a security due 2017        Coastal Securities   83164K4E0           $2,598,386          108.438       —       9/30/2010            $2,826,678             —              $1,408      1/24/2012              $694,979         $1,903,407           $2,052,702                 $140,130
7/29/2010     Floating Rate SBA 7a security due 2034        Shay Financial       83164K4M2           $9,719,455           106.75       —       10/29/2010         $10,394,984              —              $5,187      6/21/2011              $188,009         $9,531,446          $10,223,264                 $181,124
8/17/2010     Floating Rate SBA 7a security due 2020        Shay Financial       83165AEZ3           $8,279,048          110.198       —       9/30/2010            $9,150,989             —              $4,561      9/20/2011            $1,853,831         $6,425,217           $7,078,089                 $335,082
8/17/2010     Floating Rate SBA 7a security due 2019        Coastal Securities   83165AFB5           $5,000,000          110.088       —       10/29/2010           $5,520,652             —              $2,752    10/19/2011               $419,457         $4,580,543           $5,029,356                 $213,319
8/17/2010     Floating Rate SBA 7a security due 2020        Coastal Securities   83165AE91          $10,000,000          110.821       —       10/29/2010         $11,115,031              —              $5,541    10/19/2011               $969,461         $9,030,539           $9,994,806                 $433,852
8/31/2010     Floating Rate SBA 7a security due 2020        Shay Financial       83165AEW0           $9,272,482          110.515       —       9/29/2010          $10,277,319              —              $5,123      9/20/2011              $868,636         $8,403,846           $9,230,008                 $386,326
8/31/2010     Floating Rate SBA 7a security due 2024        Shay Financial       83165AFA7          $10,350,000          112.476       —       10/29/2010         $11,672,766              —              $5,820    10/19/2011               $250,445        $10,099,555          $11,314,651                 $425,545
8/31/2010     Floating Rate SBA 7a security due 2020        Coastal Securities   83164K5H2           $6,900,000          105.875       —       11/30/2010           $7,319,688             —              $3,652      1/24/2012              $663,200         $6,236,800           $6,556,341                 $209,956
9/14/2010     Floating Rate SBA 7a security due 2020        Shay Financial       83165AFC3           $8,902,230          111.584       —       10/29/2010           $9,962,039             —              $4,966      1/24/2012            $1,398,549         $7,503,681           $8,269,277                 $447,356
9/14/2010     Floating Rate SBA 7a security due 2021        Shay Financial       83165AFK5           $8,050,000          110.759       —       11/30/2010           $8,940,780             —              $4,458      1/24/2012              $996,133         $7,053,867           $7,703,610                 $354,302
9/14/2010     Floating Rate SBA 7a security due 2029        Coastal Securities   83164K5F6           $5,750,000             106.5      —       11/30/2010           $6,134,172             —              $3,061      1/24/2012              $276,276         $5,473,724           $5,764,858                 $156,481
9/14/2010     Floating Rate SBA 7a security due 2026        Coastal Securities   83164K5L3           $5,741,753             110.5      —       11/30/2010           $6,361,173             —              $3,172      1/24/2012            $1,433,872         $4,307,881           $4,693,918                 $239,527
9/28/2010     Floating Rate SBA 7a security due 2035        Coastal Securities   83164K5M1           $3,450,000          110.875       —       11/30/2010           $3,834,428             —              $1,912    10/19/2011                 $82,832        $3,367,168           $3,698,411                 $111,165
                                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I July 24, 2013




                                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                                           291
UCSB TRANSACTION DETAIL, AS OF 6/30/2013                                                          (Continued)                                                                                                                                                                                                                    292
                  1
Purchase Details                                                                                                                                  Settlement Details                                                     Final Disposition
                                                                                                                                                                                                                                                Life-to-date
Purchase                                                                                           Purchase Face          Pricing      TBA or     Settlement           Investment         TBA or     Senior Security                               Principal     Current Face            Disposition          Interest Paid to
                                                                                                                                                                                                                   4
Date          Investment Description                          Institution Name     CUSIP                Amount3        Mechanism        PMF3      Date                  Amount2, 3         PMF3           Proceeds        Trade Date            Received1,8        Amount6, 8             Amount5, 6                 Treasury
9/28/2010     Floating Rate SBA 7a security due 2034          Coastal Securities   83165AFT6          $11,482,421          113.838        —       12/30/2010         $13,109,070               —              $6,535      1/24/2012               $889,646        $10,592,775          $11,818,944                  $512,131
9/28/2010     Floating Rate SBA 7a security due 2034          Shay Financial       83165AFM1          $13,402,491             113.9       —       11/30/2010         $15,308,612               —              $7,632     10/19/2011               $438,754        $12,963,737          $14,433,039                  $516,624
9/28/2010     Floating Rate SBA 7a security due 2035          Shay Financial       83165AFQ2          $14,950,000          114.006        —       12/30/2010         $17,092,069               —              $8,521      1/24/2012               $387,839        $14,562,161          $16,383,544                  $681,819
                                                                                                                                                                                           Total
                                                                                                                                                                                          Senior
                                                                Total Purchase Face Amount         $332,596,893                   Total Investment Amount*         $368,145,452                            $183,555                               Total Disposition Proceeds        $334,924,711                $13,347,352
                                                                                                                                                                                        Security
                                                                                                                                                                                       Proceeds
Notes: Numbers affected by rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from Treasury’s 6/28/2013 Transactions Report.
*Subject to adjustment

1	
  The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2	
  Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3	
  If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
  listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
  month’s factor (on or about the 11th business day of each month).
4	
  In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to
  the product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
  Master Purchase Agreement.
5	
  Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6	
  If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the
  11th business day of each month).
                                                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 24, 2013




7	
  Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8	
  The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Source: Treasury, Transactions Report, 6/28/2013, Treasury, Dividends and Interest Report, 7/10/2013.
Table D.12
PPIP TRANSACTION DETAIL, AS OF 6/30/2013
                                                                                                                                                                     Final
                                                                                                           Preliminary Adjusted                                Investment                                  Investment After Capital
                                                     Seller                                                   Commitment3         Final Commitment Amount7        Amount9    Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                     Transaction Investment        Commitment   Pricing                                                                  Repayment           Repayment                                                                                        Paid to
Note Date        Institution      City         State Type        Description          Amount Mechanism        Date         Amount Date             Amount         Amount      Date              Amount         Amount Description        Date        Description          Proceeds          Treasury
                 UST/TCW                                         Debt
                                                                                                                                                                                                                       Debt Obligation
2,4,             Senior Mortgage                                 Obligation w/
     9/30/2009                    Wilmington    DE    Purchase                   $2,222,222,222     Par   1/4/2010    $200,000,000 1/4/2010   $200,000,000   $200,000,000 1/11/2010         $34,000,000   $166,000,000 w/ Contingent
5                Securities Fund,                                Contingent
                                                                                                                                                                                                                       Proceeds
                 L.P.                                            Proceeds
                                                                                                                                                                                                                                         1/29/2010 Distribution           $502,302
                                                                                                                                                                                                                          Contingent
                                                                                                                                                                             1/12/2010     $166,000,000             $­—                              Final
                                                                                                                                                                                                                          Proceeds       2/24/2010                             $1,223
                                                                                                                                                                                                                                                     Distribution                          $342,176
                 UST/TCW
1,4,             Senior Mortgage                                 Membership
     9/30/2009                    Wilmington    DE    Purchase                   $1,111,111,111     Par   1/4/2010    $156,250,000 1/4/2010   $156,250,000   $156,250,000                                                                1/29/2010 Distribution        $20,091,872
5                Securities Fund,                                Interest                                                                                                                                                 Membership
                 L.P.                                                                                                                                                        1/15/2010     $156,250,000             $­—
                                                                                                                                                                                                                          Interest
                                                                                                                                                                                                                                                     Final
                                                                                                                                                                                                                                         2/24/2010                         $48,922
                                                                                                                                                                                                                                                     Distribution
                                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                        293
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                                                (Continued)                                                                                                                                                                                                         294
                                                                                                                                                                        Final
                                                                                                            Preliminary Adjusted                                  Investment                                   Investment After Capital
                                                      Seller                                                   Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                Interest/
                                                                                                                                                                                                                                                                                            Distributions
                                                      Transaction Investment        Commitment   Pricing                                                                    Repayment            Repayment                                                                                        Paid to
Note Date        Institution      City          State Type        Description          Amount Mechanism       Date          Amount Date               Amount         Amount      Date               Amount          Amount Description       Date        Description           Proceeds         Treasury
                 Invesco Legacy
                                                                  Membership                                                                                                                                                 Membership
1,6 9/30/2009    Securities Master Wilmington    DE    Purchase                   $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $856,000,000   $580,960,000 2/18/2010           $2,444,347   $578,515,653
                                                                  Interest                                                                                                                                                   Interest10
                 Fund, L.P.
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 4/15/2010       $3,533,199   $574,982,454
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 9/15/2010      $30,011,187   $544,971,267
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                11/15/2010      $66,463,982   $478,507,285
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                12/14/2010      $15,844,536   $462,662,749
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 1/14/2011      $13,677,726   $448,985,023
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 2/14/2011      $48,523,845   $400,461,178
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I July 24, 2013




                                                                                                                                                                                 3/14/2011      $68,765,544   $331,695,634
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 4/14/2011      $77,704,254   $253,991,380
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 5/20/2011      $28,883,733   $225,107,647
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 6/14/2011       $9,129,709   $215,977,938
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 7/15/2011      $31,061,747   $184,916,192
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 8/12/2011      $10,381,214   $174,534,977
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                10/17/2011       $6,230,731   $168,304,246
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                                                                            $99,764,742
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                12/14/2011       $1,183,959   $167,120,288
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 1/17/2012       $1,096,185   $166,024,103
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 2/14/2012       $1,601,688   $164,422,415
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 3/14/2012       $3,035,546   $161,386,870
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             3/29/2012 Distribution5         $56,390,209
                                                                                                                                                                                                                                             8/9/2012    Distribution5        $1,056,751
                                                                                                                                                                                                                             Membership                Final
                                                                                                                                                                                 3/29/2012     $161,386,870             $—                   9/28/2012                          $18,772
                                                                                                                                                                                                                             Interest10                Distribution5
                                                                                                                                                                                                                                                         Adjusted
                                                                                                                                                                                                                                             6/4/2013                           $69,399
                                                                                                                                                                                                                                                         Distribution5, 13
                                                                  Debt
                 Invesco Legacy                                                                                                                                                                                            Debt Obligation
2,6,                                                              Obligation w/
     9/30/2009   Securities Master Wilmington    DE    Purchase                   $2,222,222,222      Par 3/22/2010   $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000 2/18/2010           $4,888,718 $1,157,031,282 w/ Contingent
8                                                                 Contingent
                 Fund, L.P.                                                                                                                                                                                                Proceeds
                                                                  Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 4/15/2010       $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 9/15/2010      $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                11/15/2010     $132,928,628   $957,013,546 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                12/14/2010      $31,689,230   $925,324,316 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                                                   Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                            (Continued)
                                                                                                                                                Final
                                                                                        Preliminary Adjusted                              Investment                                   Investment After Capital
                                     Seller                                                Commitment3         Final Commitment Amount7      Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                        Interest/
                                                                                                                                                                                                                                                                    Distributions
                                       Transaction Investment    Commitment   Pricing                                                               Repayment            Repayment                                                                                        Paid to
Note Date   Institution   City   State Type        Description      Amount Mechanism      Date          Amount Date             Amount       Amount      Date               Amount         Amount Description        Date        Description          Proceeds          Treasury
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         1/14/2010      $27,355,590   $897,968,726 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         2/14/2011      $92,300,138   $805,668,588 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         3/14/2011     $128,027,536   $677,641,052 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         4/14/2011     $155,409,286   $522,231,766 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         5/20/2011      $75,085,485   $447,146,281 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         6/14/2011      $18,259,513   $428,886,768 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         7/15/2011      $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         8/12/2011      $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                        10/17/2011      $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                        12/14/2011       $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         1/17/2012       $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                   Debt Obligation
                                                                                                                                                         2/14/2012       $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                     3/29/2012 Distribution5         $3,434,460
                                                                                                                                                                                                                     8/9/2012    Distribution5         $40,556
                                                                                                                                                                                                     Contingent                Final
                                                                                                                                                         3/14/2012     $284,468,750             $—                   9/28/2012                              $469
                                                                                                                                                                                                     Proceeds                  Distribution5
                                                                                                                                                                                                                                 Adjusted
                                                                                                                                                                                                                     6/4/2013                              $1,735
                                                                                                                                                                                                                                 Distribution5, 13
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                    295
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                                             (Continued)                                                                                                                                                                                                        296
                                                                                                                                                                    Final
                                                                                                         Preliminary Adjusted                                 Investment                                   Investment After Capital
                                                   Seller                                                   Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                   Transaction Investment        Commitment   Pricing                                                                   Repayment            Repayment                                                                                        Paid to
Note Date       Institution     City         State Type        Description          Amount Mechanism       Date          Amount Date              Amount         Amount      Date               Amount          Amount Description       Date        Description          Proceeds          Treasury
                Wellington
                                                               Debt
                Management                                                                                                                                                                                             Debt Obligation
                                                               Obligation w/
2,6 10/1/2009   Legacy          Wilmington    DE    Purchase                   $2,222,222,222      Par 3/22/2010   $2,524,075,000 7/16/2010 $2,298,974,000 $2,298,974,000 6/26/2012        $125,000,000 $2,173,974,000 w/ Contingent
                                                               Contingent
                Securities PPIF                                                                                                                                                                                        Proceeds
                                                               Proceeds
                Master Fund, LP
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             9/17/2012     $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             12/6/2012     $800,000,000 $1,068,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                            12/21/2012     $630,000,000   $438,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             1/15/2013      $97,494,310   $341,479,690 w/ Contingent
                                                                                                                                                                                                                       Proceeds                                                       $229,105,784
                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I July 24, 2013




                                                                                                                                                                                                                          Contingent
                                                                                                                                                                             1/24/2013     $341,479,690             $—                   4/17/2013 Distribution5,11    $16,195,771
                                                                                                                                                                                                                          Proceeds
                Wellington
                Management
                                                               Membership                                                                                                                                                 Membership
1,6 10/1/2009   Legacy          Wilmington    DE    Purchase                   $1,111,111,111      Par 3/22/2010   $1,262,037,500 7/16/2010 $1,149,487,000 $1,149,487,000 7/16/2012         $62,499,688 $1,086,987,313
                                                               Interest                                                                                                                                                   Interest10
                Securities PPIF
                Master Fund, LP
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             9/17/2012     $152,499,238   $934,488,075
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             1/15/2013     $254,581,112   $679,906,963
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             2/13/2013     $436,447,818   $243,459,145
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             3/13/2013     $243,459,145             $­—                  3/13/2013 Distribution5      $479,509,240
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                                                               Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                                                (Continued)
                                                                                                                                                                       Final
                                                                                                            Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                      Seller                                                   Commitment3          Final Commitment Amount7        Amount9    Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                              Interest/
                                                                                                                                                                                                                                                                                          Distributions
                                                      Transaction Investment        Commitment   Pricing                                                                   Repayment           Repayment                                                                                        Paid to
Note Date        Institution      City          State Type        Description          Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date         Description         Proceeds          Treasury
                 AllianceBernstein                                Debt
                                                                                                                                                                                                                         Debt Obligation
2,6,             Legacy                                           Obligation w/
     10/2/2009                     Wilmington    DE    Purchase                   $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $2,300,847,000 $2,128,000,000 5/16/2011        $30,244,575 $2,097,755,425 w/ Contingent
12               Securities Master                                Contingent
                                                                                                                                                                                                                         Proceeds
                 Fund, L.P.                                       Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               6/14/2011          $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                5/3/2012      $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               5/14/2012      $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               5/23/2012     $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               6/14/2012      $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               6/25/2012     $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               7/16/2012      $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               7/27/2012     $450,000,000   $855,967,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               8/14/2012     $272,500,000   $583,467,339 w/ Contingent
                                                                                                                                                                                                                                                                                        $252,394,561
                                                                                                                                                                                                                         Proceeds

                                                                                                                                                                                                                           Contingent      10/3/2012 Distribution5,11     $12,012,957
                                                                                                                                                                               8/22/2012     $583,467,339             $—
                                                                                                                                                                                                                           Proceeds        12/21/2012 Distribution5,11       $16,967
                 AllianceBernstein
                 Legacy                                           Membership                                                                                                                                               Membership
1,6 10/2/2009                      Wilmington    DE    Purchase                   $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010 $1,150,423,500 $1,064,141,738 1/15/2010            $44,043 $1,064,097,694
                 Securities Master                                Interest                                                                                                                                                 Interest10
                 Fund, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               2/14/2011         $712,284 $1,063,385,410
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               3/14/2011       $6,716,327 $1,056,669,083
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               4/14/2011       $7,118,388 $1,049,550,694
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               5/14/2012      $39,999,800 $1,009,550,894
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               6/14/2012     $287,098,565   $722,452,330
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               7/16/2012      $68,749,656   $653,702,674
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               8/14/2012     $361,248,194   $292,454,480
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           8/30/2012 Distribution5,11     $75,278,664
                                                                                                                                                                                                                                           9/12/2012 Distribution5,11     $79,071,633
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               8/30/2012     $292,454,480             $—                   9/19/2012 Distribution5,11    $106,300,357
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           10/1/2012 Distribution5,11     $25,909,972
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I July 24, 2013




                                                                                                                                                                                                                                           12/21/2012 Distribution5,11      $678,683
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                          297
                                                                                                                                                                                                                                                                                                           298
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                                               (Continued)
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                   Investment After Capital
                                                     Seller                                                   Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                               Interest/
                                                                                                                                                                                                                                                                                           Distributions
                                                     Transaction Investment        Commitment   Pricing                                                                    Repayment            Repayment                                                                                        Paid to
Note Date       Institution       City         State Type        Description          Amount Mechanism       Date          Amount Date               Amount         Amount      Date               Amount         Amount Description        Date        Description          Proceeds          Treasury
                                                                 Debt
                                                                                                                                                                                                                          Debt Obligation
                Blackrock PPIF,                                  Obligation w/
2,6 10/2/2009                     Wilmington    DE    Purchase                   $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $1,389,960,000 $1,053,000,000 7/31/2012         $175,000,000   $878,000,000 w/ Contingent
                L.P.                                             Contingent
                                                                                                                                                                                                                          Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                8/14/2012       $5,539,055   $872,460,945 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                8/31/2012      $16,000,000   $856,460,945 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                9/17/2012       $1,667,352   $854,793,592 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                9/28/2012      $35,000,000   $819,793,592 w/ Contingent
                                                                                                                                                                                                                          Proceeds                                                         $72,435,724
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I July 24, 2013




                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               10/15/2012      $25,334,218   $794,459,374 w/ Contingent
                                                                                                                                                                                                                          Proceeds

                                                                                                                                                                                                                            Contingent      11/5/2012 Distribution5,11     $8,289,431
                                                                                                                                                                               10/18/2012     $794,459,374             $—
                                                                                                                                                                                                                            Proceeds        12/5/2012 Distribution5,11     $1,433,088
                Blackrock PPIF,                                  Membership                                                                                                                                                 Membership
1,6 10/2/2009                     Wilmington    DE    Purchase                   $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $694,980,000   $528,184,800 8/14/2012          $90,269,076   $437,915,724
                L.P.                                             Interest                                                                                                                                                   Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                9/17/2012       $8,833,632   $429,082,092
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                               10/15/2012      $10,055,653   $419,026,439
                                                                                                                                                                                                                            Interest10

                                                                                                                                                                                                                            Membership      11/5/2012 Distribution5,11   $297,511,708
                                                                                                                                                                                11/5/2012     $419,026,439             $—
                                                                                                                                                                                                                            Interest10      12/5/2012 Distribution5,11    $57,378,964
                                                                                                                                                                                                                                                                                  Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                                                          (Continued)
                                                                                                                                                                                 Final
                                                                                                                      Preliminary Adjusted                                 Investment                                   Investment After Capital
                                                            Seller                                                       Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details           Repayment                      Distribution or Disposition
                                                                                                                                                                                                                                                                                                        Interest/
                                                                                                                                                                                                                                                                                                    Distributions
                                                           Transaction Investment             Commitment   Pricing                                                                   Repayment            Repayment                                                                                       Paid to
Note Date            Institution        City         State Type        Description               Amount Mechanism       Date          Amount Date              Amount         Amount      Date               Amount          Amount Description       Date       Description          Proceeds          Treasury
                                                                           Debt
                                                                                                                                                                                                                                    Debt Obligation
                     AG GECC PPIF                                          Obligation w/
2,6 10/30/2009                         Wilmington      DE    Purchase                       $2,222,222,222      Par 3/22/2010   $2,542,675,000 7/16/2010 $2,486,550,000 $2,234,798,340 2/14/2012        $174,200,000 $2,060,598,340 w/ Contingent
                     Master Fund, L.P.                                     Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                           Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                          3/14/2012     $198,925,000 $1,861,673,340 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                          5/14/2012     $150,000,000 $1,711,673,340 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                          7/16/2012      $37,500,000 $1,674,173,340 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                          8/14/2012     $136,800,000 $1,537,373,340 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                          9/17/2012     $250,000,000 $1,287,373,340 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                         10/15/2012     $481,350,000   $806,023,340 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                                                                                                                                  $283,096,130
                                                                                                                                                                                         11/15/2012     $274,590,324   $531,433,016 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                         12/14/2012     $147,534,295   $383,898,721 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                          1/15/2013     $182,823,491   $201,075,230 w/ Contingent
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                                    4/19/2013 Distribution5,11     $17,118,005
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                          2/14/2013     $201,075,230             $— w/ Contingent 4/25/2013 Distribution5,11        $1,052,497
                                                                                                                                                                                                                                    Proceeds
                                                                                                                                                                                                                                                    5/29/2013 Distribution5,11      $1,230,643
               AG GECC PPIF                                                    Membership                                                                                                                                           Membership
1,6 10/30/2009                    Wilmington DE Purchase                                    $1,111,111,111      Par 3/22/2010   $1,271,337,500 7/16/2010 $1,243,275,000 $1,117,399,170 2/14/2012         $87,099,565 $1,030,299,606
               Master Fund, L.P.                                               Interest                                                                                                                                             Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                          3/14/2012      $99,462,003   $930,837,603
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                          5/14/2012      $74,999,625   $855,837,978
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                          7/16/2012      $18,749,906   $837,088,072
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                          8/14/2012      $68,399,658   $768,688,414
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                          9/17/2012     $124,999,375   $643,689,039
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                         10/15/2012     $240,673,797   $403,015,242
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                         11/15/2012      $45,764,825   $357,250,417
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                         12/14/2012      $24,588,926   $332,661,491
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                          1/15/2013      $30,470,429   $302,191,061
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 24, 2013




                                                                                                                                                                                          2/14/2013     $295,328,636      $6,862,425
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                                    299
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                                              (Continued)                                                                                                                                                                                                         300
                                                                                                                                                                      Final
                                                                                                          Preliminary Adjusted                                  Investment                                   Investment After Capital
                                                    Seller                                                   Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                              Interest/
                                                                                                                                                                                                                                                                                          Distributions
                                                    Transaction Investment        Commitment   Pricing                                                                    Repayment            Repayment                                                                                        Paid to
Note Date       Institution      City         State Type        Description          Amount Mechanism       Date          Amount Date               Amount         Amount      Date               Amount          Amount Description       Date         Description         Proceeds          Treasury
                                                                                                                                                                                                                                           2/21/2013 Distribution5,11    $184,431,858
                                                                                                                                                                                                                                           2/27/2013 Distribution5,11     $20,999,895

                                                                                                                                                                                                                         Membership        3/14/2013 Distribution5,11    $156,174,219
                                                                                                                                                                               2/21/2013       $6,862,425             $—
                                                                                                                                                                                                                         Interest10        4/19/2013 Distribution5,11    $105,620,441
                                                                                                                                                                                                                                           4/25/2013 Distribution5,11     $42,099,442
                                                                                                                                                                                                                                           5/29/20132 Distribution5,11    $49,225,244
                RLJ Western                                     Debt
                                                                                                                                                                                                                         Debt Obligation
                Asset Public/                                   Obligation w/
2,6 11/4/2009                    Wilmington    DE    Purchase                   $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $1,241,156,516 $1,241,000,000 5/13/2011          $13,531,530 $1,227,468,470 w/ Contingent
                Private Master                                  Contingent
                                                                                                                                                                                                                         Proceeds
                Fund, L.P.                                      Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               7/31/2012     $618,750,000   $608,718,470 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/9/2012     $151,006,173   $457,712,297 w/ Contingent
                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I July 24, 2013




                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               8/14/2012      $11,008,652   $446,703,645 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               8/23/2012     $160,493,230   $286,210,415 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               8/29/2012     $103,706,836   $182,503,579 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               9/17/2012      $20,637,410   $161,866,170 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11     $6,789,287 $161,505,775
                                                                                                                                                                                                                           Contingent
                                                                                                                                                                               9/21/2012     $161,866,170             $—                   11/2/2012 Distribution5,11      $3,718,769
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                           12/21/2012 Distribution5,11       $13,750
                RLJ Western
                Asset Public/                                   Membership                                                                                                                                                 Membership
1,6 11/4/2009                    Wilmington    DE    Purchase                   $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $620,578,258   $620,578,258 3/14/2011           $1,202,957   $619,375,301
                Private Master                                  Interest                                                                                                                                                   Interest10
                Fund, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               4/14/2011       $3,521,835   $615,853,465
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               8/14/2012     $104,959,251   $510,894,215
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               9/17/2012      $72,640,245   $438,253,970
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               9/28/2012     $180,999,095   $257,254,875
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                              10/15/2012     $134,999,325   $122,255,550
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11   $147,464,888
                                                                                                                                                                                                                           Membership
                                                                                                                                                                              10/19/2012     $122,255,550             $—                   11/2/2012 Distribution5,11    $148,749,256
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           12/21/2012 Distribution5,11      $549,997
                                                                                                                                                                                                                                                                                 Continued on next page
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                                              (Continued)
                                                                                                                                                                      Final
                                                                                                          Preliminary Adjusted                                  Investment                                   Investment After Capital
                                                    Seller                                                   Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                              Interest/
                                                                                                                                                                                                                                                                                          Distributions
                                                    Transaction Investment        Commitment   Pricing                                                                    Repayment            Repayment                                                                                        Paid to
Note Date        Institution     City         State Type        Description          Amount Mechanism       Date          Amount Date               Amount         Amount      Date               Amount         Amount Description        Date        Description          Proceeds          Treasury
               Marathon Legacy
                                                                Debt
               Securities                                                                                                                                                                                                Debt Obligation
                                                                Obligation w/
2,6 11/25/2009 Public-Private    Wilmington    DE    Purchase                   $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010   $949,100,000   $949,000,000 9/17/2012         $149,000,000   $800,000,000 w/ Contingent
                                                                Contingent
               Investment                                                                                                                                                                                                Proceeds
                                                                Proceeds
               Partnership, L.P.
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                              11/15/2012     $119,575,516   $680,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                              11/20/2012     $195,000,000   $485,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                              12/14/2012      $47,755,767   $437,668,717 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               1/15/2013      $62,456,214   $375,212,503 w/ Contingent
                                                                                                                                                                                                                         Proceeds

                                                                                                                                                                                                                           Contingent      4/16/2013 Distribution5,11     $7,143,340
                                                                                                                                                                               1/24/2013     $375,212,503             $—
                                                                                                                                                                                                                           Proceeds        5/16/2013 Distribution5,11       $963,411
                                                                                                                                                                                                                                                                                          $77,496,170
               Marathon Legacy
               Securities
                                                                Membership                                                                                                                                               Membership
1,6 11/25/2009 Public-Private    Wilmington    DE    Purchase                   $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $474,550,000   $474,550,000 9/17/2012          $74,499,628   $400,050,373
                                                                Interest                                                                                                                                                 Interest10
               Investment
               Partnership, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                              11/15/2012      $59,787,459   $340,262,914
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                              12/14/2012      $40,459,092   $299,803,821
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               1/15/2013      $10,409,317   $289,394,504
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               1/30/2013     $219,998,900    $69,395,604
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               2/25/2013      $39,026,406    $30,369,198
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           3/25/2013 Distribution5,11   $164,629,827
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               3/25/2013      $30,369,198             $—                   4/16/2013 Distribution5,11    $71,462,104
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           5/16/2013 Distribution5,11    $38,536,072
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                          301
PPIP TRANSACTION DETAIL, AS OF 6/30/2013                                               (Continued)                                                                                                                                                                                                         302
                                                                                                                                                                         Final
                                                                                                           Preliminary Adjusted                                    Investment                                   Investment After Capital
                                                   Seller                                                     Commitment3             Final Commitment Amount7        Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                               Interest/
                                                                                                                                                                                                                                                                                           Distributions
                                                   Transaction Investment          Commitment   Pricing                                                                      Repayment            Repayment                                                                                      Paid to
Note Date        Institution    City         State Type        Description            Amount Mechanism       Date          Amount Date                 Amount         Amount      Date               Amount          Amount Description       Date        Description          Proceeds        Treasury
                                                               Debt
                                                                                                                                                                                                                            Debt Obligation
               Oaktree PPIP                                    Obligation w/
2,6 12/18/2009                  Wilmington    DE    Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $2,321,568,200 $1,111,000,000 7/15/2011            $79,000,000 $1,032,000,000 w/ Contingent
               Fund, L.P.                                      Contingent
                                                                                                                                                                                                                            Proceeds
                                                               Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  3/14/2012      $78,775,901   $953,224,099 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  9/17/2012      $44,224,144   $908,999,956 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                 10/15/2012      $64,994,269   $844,005,687 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                 11/15/2012     $223,080,187   $620,925,500 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I July 24, 2013




                                                                                                                                                                                 12/14/2012     $111,080,608   $509,844,892 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  1/15/2013      $89,099,906   $420,744,985 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  4/12/2013     $109,610,516   $311,134,469 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                              5/28/2013 Distribution5,11       $444,393
                                                                                                                                                                                                                                              6/3/2013    Distribution5,11    $1,960,289
                                                                                                                                                                                                                               Contingent
                                                                                                                                                                                  5/14/2013     $311,134,469             $­—                  6/14/2013 Distribution5,11      $1,375,007
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                              6/24/2013 Distribution5,11       $700,004    $66,648,417

                                                                                                                                                                                                                                              6/26/2013 Distribution5,11       $293,751
                 Oaktree PPIP                                  Membership                                                                                                                                                      Membership
1,6 12/18/2009                  Wilmington    DE    Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010 $1,160,784,100     $555,904,633 7/15/2011          $39,499,803   $516,404,830
                 Fund, L.P.                                    Interest                                                                                                                                                        Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  3/14/2012      $39,387,753   $477,017,077
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  9/17/2012      $22,111,961   $454,905,116
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 10/15/2012      $32,496,972   $422,408,144
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 11/15/2012     $111,539,536   $310,868,608
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                 12/14/2012      $55,540,026   $255,328,581
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  1/15/2013      $14,849,910   $240,478,671
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  4/12/2013      $18,268,328   $222,210,343
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  5/14/2013      $70,605,973   $151,604,370
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  5/28/2013     $119,769,362    $31,835,008
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                                              6/3/2013    Distribution5,11   $46,575,750

                                                                                                                                                                                                                            Membership        6/14/2013 Distribution5,11     $54,999,725
                                                                                                                                                                                   6/3/2013      $31,835,008             $—
                                                                                                                                                                                                                            Interest10        6/24/2013 Distribution5,11     $27,999,860
                                                                                                                                                                                                                                              6/26/2013 Distribution5,11     $11,749,941
                                   Initial Investment Amount                   $30,000,000,000              Final Investment Amount           $21,856,403,574     Total Capital Repayment $18,625,147,938                                             Total Proceeds5 $2,555,315,773
Notes: Numbers may not total due to rounding. Data as of 6/30/2013. Numbered notes were taken verbatim from Treasury’s 6/28/2013, Transactions Report.
1	
   The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2	
   The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3	
   Adjusted to show Treasury’s maximum obligations to a fund.
4	
   On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5	
   Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds (reported
   on the Dividends & Interest Report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
6	
   Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment
   for the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7	
   Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8	
   On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9	
   Cumulative capital drawn at end of the Investment Period.
10	
   The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
11	
   Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
12	
   On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.
13	
   On, 6/5/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury that is the result of adjustments made to positions previously held by the Invesco Legacy Securities Master Fund, L.P. “Partnership”, of which The U.S. Department of the Treasury is a Limited Partner. The adjusted distribution was made
   18 months after the Final Distribution on 9/28/2012.

Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Dividends and Interest Report, 7/10/2013.
                                                                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                                                                        303
Table D.13                                                                                                                                                                                                                                                                                                 304
HAMP TRANSACTION DETAIL, AS OF 6/30/2013
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                               TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                      Lenders/                                 Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                   Borrower’s       Investors          Servicers               Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives              Payments
                                                                                                                   6/12/2009       $284,590,000        $660,590,000    Updated portfolio data from servicer
                                                                                                                   9/30/2009       $121,910,000        $782,500,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009       $131,340,000        $913,840,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010      ($355,530,000)       $558,310,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       $128,690,000        $687,000,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010            $4,000,000     $691,000,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                   9/30/2010           $59,807,784     $750,807,784    Updated portfolio data from servicer
                                                                                                                  11/16/2010            ($700,000)     $750,107,784    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010           $64,400,000     $814,507,784    Updated portfolio data from servicer
                                                                                                                    1/6/2011                 ($639)    $814,507,145    Updated portfolio data from servicer
                                                                                                                   1/13/2011           ($2,300,000)    $812,207,145    Transfer of cap due to servicing transfer
                                                                                                                   2/16/2011             $100,000      $812,307,145    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I July 24, 2013




                                                                                                                   3/16/2011            $3,600,000     $815,907,145    Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                 ($735)    $815,906,410    Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011            ($100,000)     $815,806,410    Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011             $400,000      $816,206,410    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011            ($100,000)     $816,106,410    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011               ($6,805)    $816,099,605    Updated due to quarterly assessment and reallocation
                                                                                                                   8/16/2011            ($100,000)     $815,999,605    Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011            ($200,000)     $815,799,605    Transfer of cap due to servicing transfer

                                                        Financial                                                 10/14/2011            ($100,000)     $815,699,605    Transfer of cap due to servicing transfer
            Select Portfolio Servicing,                 Instrument for
4/13/2009                                 Purchase                              $376,000,000     N/A              11/16/2011            ($100,000)     $815,599,605    Transfer of cap due to servicing transfer                 $59,544,585   $117,598,859       $88,261,516            $265,404,960
            Salt Lake City, UT                          Home Loan
                                                        Modifications                                              1/13/2012             $200,000      $815,799,605    Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012           $24,800,000     $840,599,605    Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012            $1,900,000     $842,499,605    Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012               $80,000     $842,579,605    Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012            $8,710,000     $851,289,605    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012               ($5,176)    $851,284,429    Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2012            $2,430,000     $853,714,429    Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012            $2,310,000     $856,024,429    Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012              ($13,961)    $856,010,468    Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012       $126,940,000        $982,950,468    Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012            $9,990,000     $992,940,468    Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012           $10,650,000    $1,003,590,468   Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012               ($2,663)   $1,003,587,805   Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013           $18,650,000    $1,022,237,805   Transfer of cap due to servicing transfer
                                                                                                                   2/14/2013           $10,290,000    $1,032,527,805   Transfer of cap due to servicing transfer
                                                                                                                   3/14/2013            $4,320,000    $1,036,847,805   Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013              ($10,116)   $1,036,837,689   Updated due to quarterly assessment and reallocation
                                                                                                                   4/16/2013             $840,000     $1,037,677,689   Transfer of cap due to servicing transfer
                                                                                                                   5/16/2013            $1,330,000    $1,039,007,689   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2013            $3,620,000    $1,042,627,689   Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013               ($3,564)   $1,042,624,125   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                      Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                   Borrower’s       Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives              Payments
                                                                                                              6/12/2009      ($991,580,000)      $1,079,420,000   Updated portfolio data from servicer
                                                                                                              9/30/2009      $1,010,180,000      $2,089,600,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009      ($105,410,000)      $1,984,190,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010      ($199,300,000)      $1,784,890,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                                                                                  Transfer of cap to Service One, Inc. due to servicing
                                                                                                              4/19/2010            ($230,000)    $1,784,660,000
                                                                                                                                                                  transfer
                                                                                                                                                                  Transfer of cap to Specialized Loan Servicing, LLC due
                                                                                                              5/14/2010           ($3,000,000)   $1,781,660,000
                                                                                                                                                                  to servicing transfer
                                                                                                                                                                  Transfer of cap to multiple servicers due to servicing
                                                                                                              6/16/2010       ($12,280,000)      $1,769,380,000
                                                                                                                                                                  transfer
                                                                                                              7/14/2010      ($757,680,000)      $1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap to multiple servicers due to servicing
                                                                                                              7/16/2010           ($7,110,000)   $1,004,590,000
                                                                                                                                                                  transfer
                                                                                                                                                                  Transfer of cap to multiple servicers due to servicing
                                                                                                              8/13/2010           ($6,300,000)    $998,290,000
                                                                                                                                                                  transfer
                                                                                                                                                                  Transfer of cap to multiple servicers due to servicing
                                                                                                              9/15/2010           ($8,300,000)    $989,990,000
                                                                                                                                                                  transfer
                                                                                                              9/30/2010           $32,400,000    $1,022,390,000   Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                              9/30/2010       $101,287,484       $1,123,677,484   Updated portfolio data from servicer
                                                                                                             10/15/2010           ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                             11/16/2010           ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                                                                               1/6/2011                 ($981)   $1,119,076,503   Updated portfolio data from servicer
                                                                                                              1/13/2011       ($10,500,000)      $1,108,576,503   Transfer of cap due to servicing transfer
                                                                                                              2/16/2011           ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                              3/16/2011       ($30,500,000)      $1,073,476,503   Transfer of cap due to servicing transfer
                                                   Financial                                                  3/30/2011               ($1,031)   $1,073,475,472   Updated due to quarterly assessment and reallocation
            CitiMortgage, Inc.,                    Instrument for
4/13/2009                            Purchase                            $2,071,000,000     N/A                                                                                                                             $57,557,194   $191,002,036       $98,861,710            $347,420,939
            O’Fallon, MO                           Home Loan                                                  4/13/2011             $100,000     $1,073,575,472   Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                              5/13/2011           ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                              6/16/2011            ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                              6/29/2011               ($9,131)   $1,065,966,341   Updated due to quarterly assessment and reallocation
                                                                                                              7/14/2011       ($14,500,000)      $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                              8/16/2011           ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                              9/15/2011             $700,000     $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                             10/14/2011           $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                             11/16/2011           ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                             12/15/2011           ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                              1/13/2012            ($900,000)    $1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                              2/16/2012           ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                              3/15/2012           ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                              4/16/2012            ($600,000)    $1,053,566,341   Transfer of cap due to servicing transfer
                                                                                                              5/16/2012            ($340,000)    $1,053,226,341   Transfer of cap due to servicing transfer
                                                                                                              6/14/2012           ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012               ($5,498)   $1,050,340,843   Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012      ($298,960,000)       $751,380,843    Transfer of cap due to servicing transfer
                                                                                                              7/27/2012       $263,550,000       $1,014,930,843   Transfer of cap due to servicing transfer
                                                                                                              8/16/2012               $30,000    $1,014,960,843   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I July 24, 2013




                                                                                                              9/27/2012              ($12,722)   $1,014,948,121   Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012           ($4,020,000)   $1,010,928,121   Transfer of cap due to servicing transfer
                                                                                                             11/15/2012           ($1,460,000)   $1,009,468,121   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012           ($6,000,000)   $1,003,468,121   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                                      305
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                     (continued)                                                                                                                                                                                               306
       Servicer Modifying Borrowers’ Loans                                                           Adjustment Details                                                                                                        TARP Incentive Payments
                                                                 Cap of Incentive
                                                             Payments on Behalf
                                                             of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                Transaction   Investment    Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                               Borrower’s    Investors          Servicers               Incentive
Date   Name of Institution      Type          Description        Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                     12/27/2012               ($1,916)   $1,003,466,205   Updated due to quarterly assessment and reallocation
                                                                                                      2/14/2013           ($8,450,000)    $995,016,205    Transfer of cap due to servicing transfer
                                                                                                      3/14/2013           ($1,890,000)    $993,126,205    Transfer of cap due to servicing transfer
                                                                                                      3/25/2013               ($6,606)    $993,119,599    Updated due to quarterly assessment and reallocation
                                                                                                      4/16/2013           ($3,490,000)    $989,629,599    Transfer of cap due to servicing transfer
                                                                                                      6/14/2013           ($3,630,000)    $985,999,599    Transfer of cap due to servicing transfer
                                                                                                      6/27/2013               ($2,161)    $985,997,438    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I July 24, 2013
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                                TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                       Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                       Incentives      Incentives         Incentives              Payments
                                                                                                              6/17/2009      ($462,990,000)      $2,410,010,000   Updated portfolio data from servicer
                                                                                                              9/30/2009           $65,070,000    $2,475,080,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009      $1,213,310,000      $3,688,390,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              2/17/2010      $2,050,236,344      $5,738,626,344   Transfer of cap (from Wachovia) due to merger
                                                                                                              3/12/2010               $54,767    $5,738,681,110   Transfer of cap (from Wachovia) due to merger
                                                                                                              3/19/2010       $668,108,890       $6,406,790,000   Initial 2MP cap
                                                                                                              3/26/2010       $683,130,000       $7,089,920,000   Updated portfolio data from servicer
                                                                                                              7/14/2010    ($2,038,220,000)      $5,051,700,000   Updated portfolio data from servicer
                                                                                                              9/30/2010      ($287,348,828)      $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                              9/30/2010       $344,000,000       $5,108,351,172
                                                                                                                                                                  RD-HAMP
                                                                                                              12/3/2010            $8,413,225    $5,116,764,397   Transfer of cap (from Wachovia) due to merger
                                                                                                             12/15/2010           $22,200,000    $5,138,964,397   Updated portfolio data from servicer
                                                                                                               1/6/2011               ($6,312)   $5,138,958,085   Updated portfolio data from servicer
                                                                                                              1/13/2011            ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer
                                                                                                              3/16/2011            ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                              3/30/2011               ($7,171)   $5,138,750,914   Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011           ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                              5/13/2011             $100,000     $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                              6/16/2011            ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                              6/29/2011              ($63,856)   $5,128,387,058   Updated due to quarterly assessment and reallocation
                                                                                                              7/14/2011           ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                              8/16/2011           ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                   Financial                                                  9/15/2011            $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
            Wells Fargo Bank, NA,                  Instrument for
4/13/2009                            Purchase                            $2,873,000,000     N/A                                                                                                                             $180,959,940   $426,059,612      $276,786,880            $883,806,433
            Des Moines, IA                         Home Loan                                                 10/14/2011             $200,000     $5,126,587,058   Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                             11/16/2011            ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                             12/15/2011            ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                              1/13/2012            ($300,000)    $5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                              2/16/2012            ($200,000)    $5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                              3/15/2012           ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                              4/16/2012            ($800,000)    $5,123,887,058   Transfer of cap due to servicing transfer
                                                                                                              5/16/2012            ($610,000)    $5,123,277,058   Transfer of cap due to servicing transfer
                                                                                                              6/14/2012           ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012              ($39,923)   $5,121,197,135   Updated due to quarterly assessment and reallocation
                                                                                                              8/16/2012            ($120,000)    $5,121,077,135   Transfer of cap due to servicing transfer
                                                                                                              9/27/2012            ($104,111)    $5,120,973,024   Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012           ($1,590,000)   $5,119,383,024   Transfer of cap due to servicing transfer
                                                                                                             11/15/2012           ($2,910,000)   $5,116,473,024   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012           ($1,150,000)   $5,115,323,024   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012              ($16,392)   $5,115,306,632   Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2013           ($3,350,000)   $5,111,956,632   Transfer of cap due to servicing transfer
                                                                                                              2/14/2013            ($820,000)    $5,111,136,632   Transfer of cap due to servicing transfer
                                                                                                              3/14/2013            ($270,000)    $5,110,866,632   Transfer of cap due to servicing transfer
                                                                                                              3/25/2013              ($58,709)   $5,110,807,923   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I July 24, 2013




                                                                                                              4/16/2013              ($40,000)   $5,110,767,923   Transfer of cap due to servicing transfer
                                                                                                              5/16/2013           ($5,320,000)   $5,105,447,923   Transfer of cap due to servicing transfer
                                                                                                              6/14/2013           ($1,260,000)   $5,104,187,923   Transfer of cap due to servicing transfer
                                                                                                              6/27/2013              ($20,596)   $5,104,167,327   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                       307
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)                                                                                                                                                                                                      308
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                      Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                   Borrower’s       Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives              Payments
                                                                                                              6/12/2009       $384,650,000       $1,017,650,000   Updated portfolio data from servicer
                                                                                                              9/30/2009      $2,537,240,000      $3,554,890,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009    ($1,679,520,000)      $1,875,370,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010       $190,180,000       $2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit Corporation due to
                                                                                                              5/14/2010            $1,880,000    $2,067,430,000
                                                                                                                                                                  servicing transfer
                                                                                                              7/14/2010      ($881,530,000)      $1,185,900,000   Updated portfolio data from servicer
                                                                                                              8/13/2010           ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                              9/30/2010       $119,200,000       $1,301,400,000
                                                                                                                                                                  2MP cap
                                                                                                              9/30/2010       $216,998,139       $1,518,398,139   Updated portfolio data from servicer
                                                                                                             12/15/2010            ($500,000)    $1,517,898,139   Updated portfolio data from servicer
                                                                                                               1/6/2011               ($1,734)   $1,517,896,405   Updated portfolio data from servicer
                                                                                                              3/16/2011            ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I July 24, 2013




                                                                                                              3/30/2011               ($2,024)   $1,517,794,381   Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011            ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                              5/13/2011       ($17,900,000)      $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                              6/29/2011              ($18,457)   $1,499,075,924   Updated due to quarterly assessment and reallocation
                                                                                                              7/14/2011            ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                              8/16/2011            $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                   Financial
            GMAC Mortgage, Inc.,                   Instrument for                                             9/15/2011             $200,000     $1,502,475,924   Transfer of cap due to servicing transfer
4/13/2009                            Purchase                              $633,000,000     N/A                                                                                                                             $51,440,855   $126,326,919       $84,080,830            $261,848,604
            Ft. Washington, PA                     Home Loan
                                                                                                             10/14/2011            ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                             11/16/2011            ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                             12/15/2011            $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                              1/13/2012           ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                              3/15/2012            ($400,000)    $1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                              4/16/2012            ($100,000)    $1,501,975,924   Transfer of cap due to servicing transfer
                                                                                                              5/16/2012            ($800,000)    $1,501,175,924   Transfer of cap due to servicing transfer
                                                                                                              6/14/2012            ($990,000)    $1,500,185,924   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012              ($12,463)   $1,500,173,461   Updated due to quarterly assessment and reallocation
                                                                                                              8/16/2012               $10,000    $1,500,183,461   Transfer of cap due to servicing transfer
                                                                                                              9/27/2012              ($33,210)   $1,500,150,251   Updated due to quarterly assessment and reallocation
                                                                                                             11/15/2012           ($1,200,000)   $1,498,950,251   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012               $40,000    $1,498,990,251   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012               ($5,432)   $1,498,984,819   Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2013               $60,000    $1,499,044,819   Transfer of cap due to servicing transfer
                                                                                                              2/14/2013              ($30,000)   $1,499,014,819   Transfer of cap due to servicing transfer
                                                                                                              3/14/2013              ($80,000)   $1,498,934,819   Transfer of cap due to servicing transfer
                                                                                                              3/25/2013              ($19,838)   $1,498,914,981   Updated due to quarterly assessment and reallocation
                                                                                                              6/14/2013               $30,000    $1,498,944,981   Transfer of cap due to servicing transfer
                                                                                                              6/27/2013               ($7,105)   $1,498,937,876   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                              TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                     Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                   Borrower’s      Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                      Incentives     Incentives         Incentives              Payments
                                                                                                                6/17/2009       $225,040,000        $632,040,000    Updated portfolio data from servicer
                                                                                                                9/30/2009       $254,380,000        $886,420,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009       $355,710,000       $1,242,130,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010       ($57,720,000)      $1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap to Ocwen Financial Corporation, Inc.
                                                                                                                6/16/2010      ($156,050,000)      $1,028,360,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                7/14/2010      ($513,660,000)       $514,700,000    Updated portfolio data from servicer
                                                                                                                7/16/2010       ($22,980,000)       $491,720,000    Transfer of cap due to multiple servicing transfers
                                                                                                                9/15/2010            $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                                                                                9/30/2010            $9,800,000     $503,320,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                9/30/2010       $116,222,668        $619,542,668    Updated portfolio data from servicer
                                                                                                               10/15/2010             $100,000      $619,642,668    Transfer of cap due to servicing transfer
                                                                                                               12/15/2010            $8,900,000     $628,542,668    Updated portfolio data from servicer
                                                                                                                 1/6/2011                 ($556)    $628,542,112    Updated portfolio data from servicer
                                                                                                                1/13/2011            $2,300,000     $630,842,112    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011             $700,000      $631,542,112    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                 ($654)    $631,541,458    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011            $2,100,000     $633,641,458    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011               ($6,144)    $633,635,314    Updated due to quarterly assessment and reallocation
                                                     Financial
            Saxon Mortgage Services,
                                                     Instrument for                                             7/14/2011             $200,000      $633,835,314    Transfer of cap due to servicing transfer
4/13/2009   Inc.,                      Purchase                              $407,000,000     N/A       16                                                                                                                    $19,655,075   $41,738,413       $39,413,598            $100,807,086
                                                     Home Loan
            Irving, TX                                                                                          8/16/2011            ($100,000)     $633,735,314    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                9/15/2011            ($700,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                               12/15/2011           $17,500,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                2/16/2012            ($100,000)     $650,435,314    Transfer of cap due to servicing transfer
                                                                                                                3/15/2012             $100,000      $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                4/16/2012       ($17,500,000)       $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                5/16/2012            ($760,000)     $632,275,314    Transfer of cap due to servicing transfer
                                                                                                                6/14/2012      ($354,290,000)       $277,985,314    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($1,831)    $277,983,483    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012       ($10,120,000)       $267,863,483    Transfer of cap due to servicing transfer
                                                                                                                8/16/2012              ($10,000)    $267,853,483    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012               ($4,701)    $267,848,782    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012           ($9,220,000)    $258,628,782    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012              ($30,000)    $258,598,782    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012               $60,000     $258,658,782    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                 ($788)    $258,657,994    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013            ($610,000)     $258,047,994    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013               ($2,979)    $258,045,015    Updated due to quarterly assessment and reallocation
                                                                                                                 4/9/2013      ($157,237,929)       $100,807,086    Termination of SPA
                                                     Financial
            Chase Home Finance,                      Instrument for
4/13/2009                              Purchase                            $3,552,000,000     N/A       2       7/31/2009    ($3,552,000,000)                  —    Termination of SPA                                               $—             $—                   $—                     $—
            LLC, Iselin, NJ                          Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                       309
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)                                                                                                                                                                                                     310
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                              TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                     Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                  Borrower’s       Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives              Payments
                                                                                                              6/12/2009      ($105,620,000)      $553,380,000    Updated portfolio data from servicer
                                                                                                              9/30/2009       $102,580,000       $655,960,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009       $277,640,000       $933,600,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010           $46,860,000    $980,460,000    Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Saxon Mortgage Services, Inc.
                                                                                                              6/16/2010       $156,050,000      $1,136,510,000
                                                                                                                                                                 due to servicing transfer
                                                                                                              7/14/2010      ($191,610,000)      $944,900,000    Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Saxon Mortgage Services, Inc.
                                                                                                              7/16/2010           $23,710,000    $968,610,000
                                                                                                                                                                 due to servicing transfer
                                                                                                              9/15/2010             $100,000     $968,710,000    Initial FHA-HAMP cap
                                                                                                              9/30/2010            $3,742,740    $972,452,740    Updated portfolio data from servicer
                                                                                                             10/15/2010       $170,800,000      $1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                               1/6/2011              ($1,020)   $1,143,251,720   Updated portfolio data from servicer
                                                                                                              2/16/2011             $900,000    $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I July 24, 2013




                                                                                                              3/30/2011              ($1,114)   $1,144,150,606   Updated due to quarterly assessment and reallocation
                                                                                                              6/29/2011             ($10,044)   $1,144,140,562   Updated due to quarterly assessment and reallocation
                                                                                                             10/14/2011            ($100,000)   $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                              1/13/2012       $194,800,000      $1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                              2/16/2012             $400,000    $1,339,240,562   Transfer of cap due to servicing transfer
                                                   Financial                                                  3/15/2012             $100,000    $1,339,340,562   Transfer of cap due to servicing transfer
            Ocwen Loan Servicing
                                                   Instrument for
4/16/2009   LLC,                     Purchase                              $659,000,000     N/A                                                                                                                            $95,884,903   $281,559,617      $160,507,373            $537,951,894
                                                   Home Loan                                                  5/16/2012       $123,530,000      $1,462,870,562   Transfer of cap due to servicing transfer
            West Palm Beach, FL
                                                   Modifications
                                                                                                              6/14/2012       $354,290,000      $1,817,160,562   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012              ($6,308)   $1,817,154,254   Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012           $10,080,000   $1,827,234,254   Transfer of cap due to servicing transfer
                                                                                                              8/16/2012            $8,390,000   $1,835,624,254   Transfer of cap due to servicing transfer
                                                                                                              9/27/2012             ($10,733)   $1,835,613,521   Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012           $14,560,000   $1,850,173,521   Transfer of cap due to servicing transfer
                                                                                                             11/15/2012           $13,240,000   $1,863,413,521   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012            $2,080,000   $1,865,493,521   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012              ($1,015)   $1,865,492,506   Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2013             $410,000    $1,865,902,506   Transfer of cap due to servicing transfer
                                                                                                              2/14/2013             $960,000    $1,866,862,506   Transfer of cap due to servicing transfer
                                                                                                              3/14/2013           $83,880,000   $1,950,742,506   Transfer of cap due to servicing transfer
                                                                                                              3/25/2013              ($1,877)   $1,950,740,629   Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Transfer of cap (from Saxon Mortgage Services, Inc )
                                                                                                               4/9/2013       $157,237,929      $2,107,978,558
                                                                                                                                                                 due to servicing transfer
                                                                                                              4/16/2013       $620,860,000      $2,728,838,558   Transfer of cap due to servicing transfer
                                                                                                              5/16/2013           $18,970,000   $2,747,808,558   Transfer of cap due to servicing transfer
                                                                                                              6/14/2013            ($190,000)   $2,747,618,558   Transfer of cap due to servicing transfer
                                                                                                              6/27/2013              ($2,817)   $2,747,615,741   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                            Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)
             Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                            TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors          Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap    Reason for Adjustment                                     Incentives     Incentives         Incentives              Payments
                                                                                                               6/12/2009            $5,540,000    $804,440,000    Updated portfolio data from servicer
                                                                                                               9/30/2009       $162,680,000       $967,120,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009       $665,510,000      $1,632,630,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               1/26/2010       $800,390,000      $2,433,020,000   Initial 2MP cap
                                                                                                               3/26/2010      ($829,370,000)     $1,603,650,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($366,750,000)     $1,236,900,000   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                               9/30/2010           $95,300,000   $1,332,200,000
                                                                                                                                                                  RD-HAMP

4/17/2009                                           Financial                                                  9/30/2010       $222,941,084      $1,555,141,084   Updated portfolio data from servicer
as amended   Bank of America, N.A.,                 Instrument for
                                      Purchase                              $798,900,000     N/A       13       1/6/2011              ($2,199)   $1,555,138,885   Updated portfolio data from servicer                      $4,267,062   $17,852,012         $9,159,439            $31,278,513
on           Simi Valley, CA                        Home Loan
1/26/2010                                           Modifications                                              3/30/2011              ($2,548)   $1,555,136,337   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011             ($23,337)   $1,555,113,000   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011            ($300,000)   $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011      ($120,700,000)     $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011            ($900,000)   $1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012            ($200,000)   $1,433,013,000   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($17,893)   $1,432,995,107   Updated due to quarterly assessment and reallocation
                                                                                                                                                                  Update of cap due to termination of SPA and merger
                                                                                                               8/10/2012    ($1,401,716,594)       $31,278,513
                                                                                                                                                                  with BAC Home Loans, LP
                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                    311
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)                                                                                                                                                                                                       312
             Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                                TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                       Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors          Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                       Incentives      Incentives         Incentives              Payments
                                                                                                               6/12/2009      $3,318,840,000      $5,182,840,000   Updated portfolio data from servicer
                                                                                                               9/30/2009      ($717,420,000)      $4,465,420,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009      $2,290,780,000      $6,756,200,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               1/26/2010       $450,100,000       $7,206,300,000   Initial 2MP cap
                                                                                                               3/26/2010       $905,010,000       $8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from Wilshire Credit Corporation due to
                                                                                                               4/19/2010           $10,280,000    $8,121,590,000
                                                                                                                                                                   servicing transfer
                                                                                                                                                                   Transfer of cap from Wilshire Credit Corporation due to
                                                                                                               6/16/2010       $286,510,000       $8,408,100,000
                                                                                                                                                                   servicing transfer
                                                                                                               7/14/2010    ($1,787,300,000)      $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                   Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                               9/30/2010       $105,500,000       $6,726,300,000
                                                                                                                                                                   RD-HAMP
                                                                                                               9/30/2010      ($614,527,362)      $6,111,772,638   Updated portfolio data from servicer
                                                                                                              12/15/2010       $236,000,000       $6,347,772,638   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I July 24, 2013




                                                                                                                1/6/2011               ($8,012)   $6,347,764,626   Updated portfolio data from servicer
                                                                                                               2/16/2011            $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011             $100,000     $6,349,664,626   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011               ($9,190)   $6,349,655,436   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011             $200,000     $6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011             $300,000     $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011           ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011              ($82,347)   $6,349,073,089   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011            ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
4/17/2009    Bank of America, N.A.                  Financial
as amended   (BAC Home Loans                        Instrument for                                             8/16/2011           ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
                                      Purchase                            $1,864,000,000     N/A                                                                                                                             $253,238,179   $507,607,382      $318,692,189          $1,079,537,750
on           Servicing, LP),                        Home Loan                                                  9/15/2011           ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
1/26/2010    Simi Valley, CA                        Modifications
                                                                                                              10/14/2011       $120,600,000       $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                   Transfer of cap from Home Loan Services, Inc. and
                                                                                                              10/19/2011       $317,956,289       $6,782,629,378   Wilshire Credit Corporation due to merger.


                                                                                                              11/16/2011             $800,000     $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011       ($17,600,000)      $6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012           ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012       ($23,900,000)      $6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012       ($63,800,000)      $6,676,029,378   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012               $20,000    $6,676,049,378   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012           ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012              ($58,550)   $6,667,130,828   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012           ($6,840,000)   $6,660,290,828   Transfer of cap due to servicing transfer
                                                                                                                                                                   Transfer of cap (from Bank of America, N.A.) due
                                                                                                               8/10/2012      $1,401,716,594      $8,062,007,423
                                                                                                                                                                   to merger
                                                                                                               8/16/2012           ($4,780,000)   $8,057,227,423   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012            ($205,946)    $8,057,021,476   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012      ($153,220,000)      $7,903,801,476   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012       ($27,300,000)      $7,876,501,476   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012       ($50,350,000)      $7,826,151,476   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012              ($33,515)   $7,826,117,961   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013       ($27,000,000)      $7,799,117,961   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013       ($41,830,000)      $7,757,287,961   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                  Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                                 3/14/2013           ($5,900,000)   $7,751,387,961   Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013            ($122,604)    $7,751,265,357   Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013           ($1,410,000)   $7,749,855,357   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013            ($940,000)    $7,748,915,357   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013       ($16,950,000)      $7,731,965,357   Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($45,103)   $7,731,920,254   Updated due to quarterly assessment and reallocation
                                                                                                                 6/12/2009       $128,300,000        $447,300,000    Updated portfolio data from servicer
                                                                                                                 9/30/2009           $46,730,000     $494,030,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009       $145,820,000        $639,850,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010       ($17,440,000)       $622,410,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($73,010,000)       $549,400,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010            $6,700,000     $556,100,000    Initial FHA-2LP cap

                                                      Financial                                                  9/30/2010       ($77,126,410)       $478,973,590    Updated portfolio data from servicer
            Home Loan Services, Inc.,                 Instrument for
4/20/2009                               Purchase                              $319,000,000     N/A       13     12/15/2010      ($314,900,000)       $164,073,590    Updated portfolio data from servicer                       $169,858    $2,440,768        $3,698,607              $6,309,233
            Pittsburgh, PA                            Home Loan
                                                      Modifications                                               1/6/2011                 ($233)    $164,073,357    Updated portfolio data from servicer
                                                                                                                 2/16/2011           ($1,900,000)    $162,173,357    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011            ($400,000)     $161,773,357    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                 ($278)    $161,773,079    Updated due to quarterly assessment and reallocation
                                                                                                                 5/13/2011            ($400,000)     $161,373,079    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011               ($2,625)    $161,370,454    Updated due to quarterly assessment and reallocation
                                                                                                                10/19/2011      ($155,061,221)         $6,309,233    Termination of SPA
                                                                                                                 6/12/2009           $87,130,000     $453,130,000    Updated portfolio data from servicer
                                                                                                                 9/30/2009      ($249,670,000)       $203,460,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009       $119,700,000        $323,160,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010           $52,270,000     $375,430,000    Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to Countrywide Home Loans due to
                                                                                                                 4/19/2010       ($10,280,000)       $365,150,000
                                                                                                                                                                     servicing transfer
                                                                                                                                                                     Transfer of cap to GMAC Mortgage, Inc. due to
                                                                                                                 5/14/2010           ($1,880,000)    $363,270,000
                                                                                                                                                                     servicing transfer

                                                      Financial                                                                                                      Transfer of cap to Countrywide Home Loans due to
            Wilshire Credit                                                                                      6/16/2010      ($286,510,000)        $76,760,000
                                                      Instrument for                                                                                                 servicing transfer
4/20/2009   Corporation, Beaverton,     Purchase                              $366,000,000     N/A       13                                                                                                                          $—      $490,394         $1,167,000              $1,657,394
                                                      Home Loan
            OR                                                                                                   7/14/2010           $19,540,000      $96,300,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                     Transfer of cap to Green Tree Servicing LLC due to
                                                                                                                 7/16/2010            ($210,000)      $96,090,000
                                                                                                                                                                     servicing transfer
                                                                                                                 8/13/2010            ($100,000)      $95,990,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010           $68,565,782     $164,555,782    Updated portfolio data from servicer
                                                                                                                  1/6/2011                 ($247)    $164,555,535    Updated portfolio data from servicer
                                                                                                                 3/30/2011                 ($294)    $164,555,241    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011               ($2,779)    $164,552,462    Updated due to quarterly assessment and reallocation
                                                                                                                10/19/2011      ($162,895,068)         $1,657,394    Termination of SPA
                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                     313
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)                                                                                                                                                                                               314
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                               Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                                 6/17/2009       ($64,990,000)      $91,010,000   Updated portfolio data from servicer
                                                                                                                 9/30/2009       $130,780,000      $221,790,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009      ($116,750,000)     $105,040,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010           $13,080,000   $118,120,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($24,220,000)      $93,900,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                 7/16/2010             $210,000     $94,110,000
                                                                                                                                                                  servicing transfer
                                                                                                                 8/13/2010            $2,200,000    $96,310,000   Transfer of cap due to servicing transfer
                                                                                                                 9/10/2010           $34,600,000   $130,910,000   Initial 2MP cap
                                                                                                                 9/30/2010            $5,600,000   $136,510,000   Initial FHA-2LP cap and FHA-HAMP
                                                                                                                 9/30/2010           $10,185,090   $146,695,090   Updated portfolio data from servicer
                                                                                                                10/15/2010             $400,000    $147,095,090   Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011                ($213)   $147,094,877   Updated portfolio data from servicer
                                                                                                                 3/30/2011                ($250)   $147,094,627   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 24, 2013




                                                                                                                 5/13/2011            $1,200,000   $148,294,627   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011             $100,000    $148,394,627   Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011              ($2,302)   $148,392,325   Updated due to quarterly assessment and reallocation
                                                      Financial                                                  7/14/2011            $1,900,000   $150,292,325   Transfer of cap due to servicing transfer
            Green Tree Servicing LLC,                 Instrument for
4/24/2009                               Purchase                              $156,000,000     N/A                                                                                                                          $2,171,504   $9,175,975        $4,806,360            $16,153,839
            Saint Paul, MN                            Home Loan                                                  9/15/2011             $200,000    $150,492,325   Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                10/14/2011             $200,000    $150,692,325   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011             $400,000    $151,092,325   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012             $900,000    $151,992,325   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012             $100,000    $152,092,325   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012            $3,260,000   $155,352,325   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012             $920,000    $156,272,325   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012              ($1,622)   $156,270,703   Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012             $110,000    $156,380,703   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012            $5,120,000   $161,500,703   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012              ($4,509)   $161,496,194   Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012            $8,810,000   $170,306,194   Transfer of cap due to servicing transfer
                                                                                                                11/15/2012            $2,910,000   $173,216,194   Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                ($802)   $173,215,392   Updated due to quarterly assessment and reallocation
                                                                                                                 2/14/2013           $10,210,000   $183,425,392   Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013              ($3,023)   $183,422,369   Updated due to quarterly assessment and reallocation
                                                                                                                 5/16/2013             $140,000    $183,562,369   Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($1,077)   $183,561,292   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s      Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives     Incentives         Incentives              Payments
                                                                                                              6/17/2009       ($63,980,000)      $131,020,000   Updated portfolio data from servicer
                                                                                                              9/30/2009           $90,990,000    $222,010,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009           $57,980,000    $279,990,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010           $74,520,000    $354,510,000   Updated portfolio data from servicer
                                                                                                              7/14/2010       ($75,610,000)      $278,900,000   Updated portfolio data from servicer
                                                                                                              8/13/2010            $1,100,000    $280,000,000   Transfer of cap due to servicing transfer
                                                                                                              9/30/2010            $3,763,685    $283,763,685   Updated portfolio data from servicer
                                                                                                             12/15/2010             $300,000     $284,063,685   Updated portfolio data from servicer
                                                                                                               1/6/2011                 ($325)   $284,063,360   Updated portfolio data from servicer
                                                                                                              1/13/2011            $2,400,000    $286,463,360   Transfer of cap due to servicing transfer
                                                                                                              3/30/2011                 ($384)   $286,462,976   Updated due to quarterly assessment and reallocation
                                                                                                              6/29/2011               ($3,592)   $286,459,384   Updated due to quarterly assessment and reallocation
                                                                                                              8/16/2011            $1,800,000    $288,259,384   Transfer of cap due to servicing transfer
                                                                                                              9/15/2011             $100,000     $288,359,384   Transfer of cap due to servicing transfer
                                                                                                             11/16/2011            $1,000,000    $289,359,384   Transfer of cap due to servicing transfer
                                                                                                              2/16/2012            $1,100,000    $290,459,384   Transfer of cap due to servicing transfer

                                                   Financial                                                  4/16/2012             $100,000     $290,559,384   Transfer of cap due to servicing transfer
            Carrington Mortgage
                                                   Instrument for
4/27/2009   Services, LLC,           Purchase                              $195,000,000     N/A               5/16/2012             $850,000     $291,409,384   Transfer of cap due to servicing transfer                 $7,924,768   $21,873,194       $15,649,151             $45,447,112
                                                   Home Loan
            Santa Ana, CA
                                                   Modifications                                              6/14/2012            $2,240,000    $293,649,384   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012               ($2,520)   $293,646,864   Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012            $1,690,000    $295,336,864   Transfer of cap due to servicing transfer
                                                                                                              8/16/2012              ($30,000)   $295,306,864   Transfer of cap due to servicing transfer
                                                                                                              9/27/2012               ($6,632)   $295,300,232   Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012            $2,880,000    $298,180,232   Transfer of cap due to servicing transfer
                                                                                                             11/15/2012            $1,500,000    $299,680,232   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012            $2,040,000    $301,720,232   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012               ($1,103)   $301,719,129   Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2013              ($10,000)   $301,709,129   Transfer of cap due to servicing transfer
                                                                                                              2/14/2013            $4,960,000    $306,669,129   Transfer of cap due to servicing transfer
                                                                                                              3/14/2013              ($30,000)   $306,639,129   Transfer of cap due to servicing transfer
                                                                                                              3/25/2013               ($4,179)   $306,634,950   Updated due to quarterly assessment and reallocation
                                                                                                              4/16/2013              ($70,000)   $306,564,950   Transfer of cap due to servicing transfer
                                                                                                              5/16/2013            $1,570,000    $308,134,950   Transfer of cap due to servicing transfer
                                                                                                              6/14/2013           ($1,880,000)   $306,254,950   Transfer of cap due to servicing transfer
                                                                                                              6/27/2013               ($1,522)   $306,253,428   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                  315
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                            (continued)                                                                                                                                                                                                   316
           Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                            TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors          Servicers               Incentive
Date       Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                      Incentives     Incentives         Incentives              Payments
                                                                                                             6/17/2009      ($338,450,000)      $459,550,000   Updated portfolio data from servicer
                                                                                                             9/30/2009       ($11,860,000)      $447,690,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                            12/30/2009           $21,330,000    $469,020,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                             3/26/2010            $9,150,000    $478,170,000   Updated portfolio data from servicer
                                                                                                             7/14/2010       ($76,870,000)      $401,300,000   Updated portfolio data from servicer
                                                                                                              9/1/2010             $400,000     $401,700,000   Initial FHA-HAMP cap
                                                                                                             9/30/2010           ($8,454,269)   $393,245,731   Updated portfolio data from servicer
                                                                                                              1/6/2011                 ($342)   $393,245,389   Updated portfolio data from servicer
                                                                                                             3/30/2011                 ($374)   $393,245,015   Updated due to quarterly assessment and reallocation
                                                                                                             5/13/2011           $18,000,000    $411,245,015   Transfer of cap due to servicing transfer
                                                                                                             6/29/2011               ($3,273)   $411,241,742   Updated due to quarterly assessment and reallocation
                                                  Financial
           Aurora Loan Services,                  Instrument for                                            10/14/2011            ($200,000)    $411,041,742   Transfer of cap due to servicing transfer
5/1/2009                            Purchase                              $798,000,000     N/A                                                                                                                           $15,997,418   $41,236,850       $28,629,251             $85,863,519
           LLC, Littleton, CO                     Home Loan                                                  3/15/2012             $100,000     $411,141,742   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 24, 2013




                                                                                                             4/16/2012            ($500,000)    $410,641,742   Transfer of cap due to servicing transfer
                                                                                                             6/28/2012               ($1,768)   $410,639,974   Updated due to quarterly assessment and reallocation
                                                                                                             7/16/2012              ($90,000)   $410,549,974   Transfer of cap due to servicing transfer
                                                                                                             8/16/2012      ($134,230,000)      $276,319,974   Transfer of cap due to servicing transfer
                                                                                                             8/23/2012      ($166,976,849)      $109,343,125   Transfer of cap due to servicing transfer
                                                                                                             9/27/2012                    $1    $109,343,126   Updated due to quarterly assessment and reallocation
                                                                                                            11/15/2012            ($230,000)    $109,113,126   Transfer of cap due to servicing transfer
                                                                                                             3/25/2013                   ($1)   $109,113,125   Updated due to quarterly assessment and reallocation
                                                                                                             5/16/2013              ($20,000)   $109,093,125   Transfer of cap due to servicing transfer
                                                                                                             6/14/2013              ($50,000)   $109,043,125   Transfer of cap due to servicing transfer
                                                                                                             6/27/2013                  ($15)   $109,043,110   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                            TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                      Incentives     Incentives         Incentives              Payments
                                                                                                                6/12/2009           $16,140,000    $117,140,000   Updated portfolio data from servicer
                                                                                                                9/30/2009       $134,560,000       $251,700,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009           $80,250,000    $331,950,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010           $67,250,000    $399,200,000   Updated portfolio data from servicer
                                                                                                                7/14/2010       ($85,900,000)      $313,300,000   Updated portfolio data from servicer
                                                                                                                8/13/2010             $100,000     $313,400,000   Transfer of cap due to servicing transfer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap, initial RD-
                                                                                                                9/30/2010            $2,900,000    $316,300,000
                                                                                                                                                                  HAMP, and initial 2MP cap
                                                                                                                9/30/2010           $33,801,486    $350,101,486   Updated portfolio data from servicer
                                                                                                               11/16/2010             $700,000     $350,801,486   Transfer of cap due to servicing transfer
                                                                                                               12/15/2010            $1,700,000    $352,501,486   Updated portfolio data from servicer
                                                                                                                 1/6/2011                 ($363)   $352,501,123   Updated portfolio data from servicer
                                                                                                                2/16/2011             $900,000     $353,401,123   Transfer of cap due to servicing transfer
                                                                                                                3/16/2011           $29,800,000    $383,201,123   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                 ($428)   $383,200,695   Updated due to quarterly assessment and reallocation
                                                                                                                5/26/2011           $20,077,503    $403,278,198   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011               ($4,248)   $403,273,950   Updated due to quarterly assessment and reallocation
                                                     Financial                                                 11/16/2011             $100,000     $403,373,950   Transfer of cap due to servicing transfer
            Nationstar Mortgage LLC,                 Instrument for
5/28/2009                              Purchase                              $101,000,000     N/A                                                                                                                           $30,707,283   $60,345,965       $43,663,671            $134,716,920
            Lewisville, TX                           Home Loan                                                  3/15/2012            ($100,000)    $403,273,950   Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                5/16/2012               $90,000    $403,363,950   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012           ($2,380,000)   $400,983,950   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($2,957)   $400,980,993   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012           ($2,580,000)   $398,400,993   Transfer of cap due to servicing transfer
                                                                                                                8/16/2012       $131,450,000       $529,850,993   Transfer of cap due to servicing transfer
                                                                                                                8/23/2012       $166,976,849       $696,827,842   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($12,806)   $696,815,036   Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012             $160,000     $696,975,036   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012               $50,000    $697,025,036   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($1,882)   $697,023,154   Updated due to quarterly assessment and reallocation
                                                                                                                2/14/2013              ($10,000)   $697,013,154   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013            ($280,000)    $696,733,154   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013               ($6,437)   $696,726,717   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013               $30,000    $696,756,717   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013           ($1,510,000)   $695,246,717   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013           ($1,070,000)   $694,176,717   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013               ($2,099)   $694,174,618   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                     317
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)                                                                                                                                                                                                318
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                              9/30/2009           ($1,860,000)    $17,540,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009           $27,920,000     $45,460,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010           ($1,390,000)    $44,070,000   Updated portfolio data from servicer
                                                                                                              7/14/2010       ($13,870,000)       $30,200,000   Updated portfolio data from servicer
                                                                                                                                                                Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                              9/30/2010             $400,000      $30,600,000
                                                                                                                                                                2MP cap
                                                                                                              9/30/2010             $586,954      $31,186,954   Updated portfolio data from servicer
                                                                                                               1/6/2011                  ($34)    $31,186,920   Updated portfolio data from servicer
                                                                                                              3/30/2011                  ($37)    $31,186,883   Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011             $100,000      $31,286,883   Transfer of cap due to servicing transfer
                                                                                                              6/29/2011                 ($329)    $31,286,554   Updated due to quarterly assessment and reallocation
                                                                                                              9/15/2011           ($1,900,000)    $29,386,554   Transfer of cap due to servicing transfer
                                                                                                             11/16/2011            $2,800,000     $32,186,554   Transfer of cap due to servicing transfer
                                                   Financial                                                  5/16/2012             $420,000      $32,606,554   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 24, 2013




            Residential Credit
                                                   Instrument for
6/12/2009   Solutions,               Purchase                               $19,400,000     N/A                                                                                                                           $1,298,915   $3,519,876        $2,211,661              $7,030,452
                                                   Home Loan                                                  6/14/2012            $8,060,000     $40,666,554   Transfer of cap due to servicing transfer
            Fort Worth, TX
                                                   Modifications
                                                                                                              6/28/2012                 ($313)    $40,666,241   Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012            $2,160,000     $42,826,241   Transfer of cap due to servicing transfer
                                                                                                              9/27/2012                 ($911)    $42,825,330   Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012            $5,690,000     $48,515,330   Transfer of cap due to servicing transfer
                                                                                                             11/15/2012               $20,000     $48,535,330   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012                 ($178)    $48,535,152   Updated due to quarterly assessment and reallocation
                                                                                                              2/14/2013            $3,190,000     $51,725,152   Transfer of cap due to servicing transfer
                                                                                                              3/14/2013            ($260,000)     $51,465,152   Transfer of cap due to servicing transfer
                                                                                                              3/25/2013                 ($713)    $51,464,439   Updated due to quarterly assessment and reallocation
                                                                                                              4/16/2013            $1,330,000     $52,794,439   Transfer of cap due to servicing transfer
                                                                                                              5/16/2013             $100,000      $52,894,439   Transfer of cap due to servicing transfer
                                                                                                              6/14/2013               $20,000     $52,914,439   Transfer of cap due to servicing transfer
                                                                                                              6/27/2013                 ($264)    $52,914,175   Updated due to quarterly assessment and reallocation
                                                                                                              9/30/2009           $13,070,000     $29,590,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009       $145,510,000       $175,100,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010      ($116,950,000)       $58,150,000   Updated portfolio data from servicer
                                                                                                              7/14/2010       ($23,350,000)       $34,800,000   Updated portfolio data from servicer
                                                                                                              9/30/2010            $7,846,346     $42,646,346   Updated portfolio data from servicer

                                                   Financial                                                   1/6/2011                  ($46)    $42,646,300   Updated portfolio data from servicer
            CCO Mortgage,                          Instrument for
6/17/2009                            Purchase                               $16,520,000     N/A               3/30/2011                  ($55)    $42,646,245   Updated due to quarterly assessment and reallocation      $1,691,372   $4,213,192        $3,117,143              $9,021,707
            Glen Allen, VA                         Home Loan
                                                   Modifications                                              6/29/2011                 ($452)    $42,645,793   Updated due to quarterly assessment and reallocation
                                                                                                              6/28/2012                 ($309)    $42,645,484   Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012                 ($807)    $42,644,677   Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012                 ($131)    $42,644,546   Updated due to quarterly assessment and reallocation
                                                                                                              3/25/2013                 ($475)    $42,644,071   Updated due to quarterly assessment and reallocation
                                                                                                              6/27/2013                 ($175)    $42,643,896   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                                9/30/2009       ($11,300,000)      $45,700,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009       ($42,210,000)       $3,490,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010           $65,640,000    $69,130,000    Updated portfolio data from servicer
                                                                                                                 4/9/2010       ($14,470,000)      $54,660,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($8,860,000)   $45,800,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           ($4,459,154)   $41,340,846    Updated portfolio data from servicer

                                                     Financial                                                 12/15/2010           ($4,300,000)   $37,040,846    Updated portfolio data from servicer
            RG Mortgage Corporation,                 Instrument for
6/17/2009                              Purchase                               $57,000,000     N/A                1/6/2011                  ($51)   $37,040,795    Updated portfolio data from servicer                       $164,853    $227,582           $401,334                $793,769
            San Juan, PR                             Home Loan
                                                     Modifications                                              3/30/2011                  ($65)   $37,040,730    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011                 ($616)   $37,040,114    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                 ($462)   $37,039,652    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($1,270)   $37,038,382    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                 ($214)   $37,038,168    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                 ($812)   $37,037,356    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                 ($306)   $37,037,050    Updated due to quarterly assessment and reallocation

                                                     Financial                                                 12/30/2009            $2,020,000     $2,790,000    Updated portfolio data from servicer & HAFA initial cap
            First Federal Savings
                                                     Instrument for
6/19/2009   and Loan,                  Purchase                                  $770,000     N/A               3/26/2010           $11,370,000    $14,160,000    Updated portfolio data from servicer                            $—           $—                   $—                     $—
                                                     Home Loan
            Port Angeles, WA
                                                     Modifications                                              5/26/2010       ($14,160,000)                —    Termination of SPA
                                                                                                                9/30/2009             $330,000        $870,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009           $16,490,000    $17,360,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010       ($14,260,000)       $3,100,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($1,800,000)    $1,300,000    Updated portfolio data from servicer
                                                                                                                7/30/2010            $1,500,000     $2,800,000    Updated portfolio data from servicer
                                                     Financial
            Wescom Central Credit                    Instrument for                                             9/30/2010            $1,551,668     $4,351,668    Updated portfolio data from servicer
6/19/2009                              Purchase                                  $540,000     N/A       9,12                                                                                                                 $184,272    $605,217           $308,225               $1,097,715
            Union, Anaheim, CA                       Home Loan                                                   1/6/2011                   ($2)    $4,351,666    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                3/30/2011                   ($2)    $4,351,664    Updated due to quarterly assessment and reallocation
                                                                                                                5/13/2011           ($1,800,000)    $2,551,664    Transfer of cap due to servicing transfer
                                                                                                                 6/3/2011           ($1,872,787)      $678,877    Termination of SPA
                                                                                                                6/14/2012             $990,000      $1,668,877    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012             $372,177      $2,041,054    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009              ($10,000)       $20,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009             $590,000        $610,000    Updated portfolio data from servicer & HAFA initial cap
                                                     Financial
            Citizens First Wholesale                                                                            3/26/2010            ($580,000)        $30,000    Updated portfolio data from servicer
                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                                    $30,000    N/A                                                                                                                                 $—           $—                   $—                     $—
                                                     Home Loan                                                  7/14/2010               $70,000       $100,000    Updated portfolio data from servicer
            The Villages, FL
                                                     Modifications
                                                                                                                9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                2/17/2011            ($145,056)              —    Termination of SPA
                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                  319
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)                                                                                                                                                                                                  320
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                  Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                               12/30/2009            $2,180,000       $2,250,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010            ($720,000)       $1,530,000    Updated portfolio data from servicer
                                                                                                                7/14/2010            ($430,000)       $1,100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010               $60,445       $1,160,445    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($1)      $1,160,444    Updated portfolio data from servicer
                                                     Financial
            Technology Credit Union,                 Instrument for                                             3/30/2011                   ($1)      $1,160,443    Updated due to quarterly assessment and reallocation
6/26/2009                              Purchase                                    $70,000    N/A                                                                                                                               $41,167     $153,805           $64,617                $259,588
            San Jose, CA                             Home Loan                                                  6/29/2011                  ($12)      $1,160,431    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                6/28/2012                   ($9)      $1,160,422    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($23)      $1,160,399    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($4)      $1,160,395    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($13)      $1,160,382    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($5)      $1,160,377    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009       $315,170,000        $610,150,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I July 24, 2013




                                                                                                               12/30/2009           $90,280,000     $700,430,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010       ($18,690,000)       $681,740,000    Updated portfolio data from servicer
                                                                                                                7/14/2010      ($272,640,000)       $409,100,000    Updated portfolio data from servicer
                                                                                                                                                                    Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                                9/30/2010           $80,600,000     $489,700,000
                                                                                                                                                                    2MP cap
                                                                                                                9/30/2010           $71,230,004     $560,930,004    Updated portfolio data from servicer
                                                                                                                 1/6/2011                 ($828)    $560,929,176    Updated portfolio data from servicer
                                                                                                                2/16/2011             $200,000      $561,129,176    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011            ($100,000)     $561,029,176    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                 ($981)    $561,028,195    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011           ($2,300,000)    $558,728,195    Transfer of cap due to servicing transfer
                                                     Financial                                                  5/13/2011            ($200,000)     $558,528,195    Transfer of cap due to servicing transfer
            National City Bank,                      Instrument for
6/26/2009                              Purchase                              $294,980,000     N/A                                                                                                                             $2,470,967   $7,695,790        $4,630,272            $14,797,029
            Miamisburg, OH                           Home Loan                                                  6/16/2011            ($200,000)     $558,328,195    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                6/29/2011               ($9,197)    $558,318,998    Updated due to quarterly assessment and reallocation
                                                                                                               10/14/2011             $300,000      $558,618,998    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011            ($300,000)     $558,318,998    Transfer of cap due to servicing transfer
                                                                                                                1/13/2012             $200,000      $558,518,998    Transfer of cap due to servicing transfer
                                                                                                                2/16/2012            ($100,000)     $558,418,998    Transfer of cap due to servicing transfer
                                                                                                                3/15/2012             $200,000      $558,618,998    Transfer of cap due to servicing transfer
                                                                                                                6/14/2012              ($10,000)    $558,608,998    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($6,771)    $558,602,227    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($18,467)    $558,583,760    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               ($3,105)    $558,580,655    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($11,713)    $558,568,942    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($4,393)    $558,564,549    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009       $723,880,000       $1,357,890,000   Updated portfolio data from servicer & HPDP initial cap
                                                     Financial
            Wachovia Mortgage, FSB,                  Instrument for                                            12/30/2009       $692,640,000       $2,050,530,000   Updated portfolio data from servicer & HAFA initial cap
7/1/2009                               Purchase                              $634,010,000     N/A       3                                                                                                                           $—       $76,890          $162,000                $238,890
            Des Moines, IA                           Home Loan                                                  2/17/2010    ($2,050,236,344)           $293,656    Transfer of cap (to Wells Fargo Bank) due to merger
                                                     Modifications
                                                                                                                3/12/2010              ($54,767)        $238,890    Transfer of cap (to Wells Fargo Bank) due to merger
                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                          TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                               Borrower’s      Investors          Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount       Adjusted Cap   Reason for Adjustment                                     Incentives     Incentives         Incentives              Payments
                                                                                                               9/30/2009           $23,850,000    $68,110,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009           $43,590,000   $111,700,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010           $34,540,000   $146,240,000   Updated portfolio data from servicer
                                                                                                                5/7/2010            $1,010,000   $147,250,000   Initial 2MP cap
                                                                                                               7/14/2010       ($34,250,000)     $113,000,000   Updated portfolio data from servicer
                                                                                                               9/30/2010             $600,000    $113,600,000   Initial FHA-2LP cap
                                                                                                               9/30/2010       ($15,252,303)      $98,347,697   Updated portfolio data from servicer
                                                                                                                1/6/2011                 ($70)    $98,347,627   Updated portfolio data from servicer
                                                                                                               3/30/2011                 ($86)    $98,347,541   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011             $400,000     $98,747,541   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011             $100,000     $98,847,541   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011                ($771)    $98,846,770   Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011             $600,000     $99,446,770   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011       ($18,900,000)      $80,546,770   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012             $900,000     $81,446,770   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012            $2,400,000    $83,846,770   Transfer of cap due to servicing transfer

                                                    Financial                                                  3/15/2012            ($100,000)    $83,746,770   Transfer of cap due to servicing transfer
            Bayview Loan Servicing,                 Instrument for
7/1/2009                              Purchase                               $44,260,000     N/A               4/16/2012             $200,000     $83,946,770   Transfer of cap due to servicing transfer                 $6,429,804   $11,603,678         $9,755,526            $27,789,008
            LLC, Coral Gables, FL                   Home Loan
                                                    Modifications                                              5/16/2012              $30,000     $83,976,770   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012            $1,810,000    $85,786,770   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                ($508)    $85,786,262   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012            $2,660,000    $88,446,262   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012              ($1,249)    $88,445,013   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012             $160,000     $88,605,013   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012            $6,970,000    $95,575,013   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012           $13,590,000   $109,165,013   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012                ($298)   $109,164,715   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013              $90,000    $109,254,715   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013            $3,250,000   $112,504,715   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013             $830,000    $113,334,715   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013              ($1,023)   $113,333,692   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013            $1,490,000   $114,823,692   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013             $660,000    $115,483,692   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013            $7,470,000   $122,953,692   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                ($308)   $122,953,384   Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2009             $150,000       $250,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009             $130,000       $380,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010              $50,000       $430,000    Updated portfolio data from servicer
                                                                                                               7/14/2010             ($30,000)      $400,000    Updated portfolio data from servicer
                                                    Financial
            Lake National Bank,                     Instrument for                                             9/30/2010              $35,167       $435,167    Updated portfolio data from servicer
7/10/2009                             Purchase                                  $100,000     N/A       12                                                                                                                    $3,000         $3,651             $4,000                 $10,651
            Mentor, OH                              Home Loan                                                   1/6/2011                  ($1)      $435,166    Updated portfolio data from servicer
                                                    Modifications
                                                                                                               3/30/2011                  ($1)      $435,165    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011                  ($6)      $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 24, 2013




                                                                                                               6/28/2012                  ($4)      $435,155    Updated due to quarterly assessment and reallocation
                                                                                                               8/23/2012            ($424,504)       $10,651    Termination of SPA
                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                  321
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)                                                                                                                                                                                                322
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                                9/30/2009              ($10,000)      $860,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009             $250,000      $1,110,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010              ($10,000)    $1,100,000    Updated portfolio data from servicer
                                                                                                                7/14/2010            ($400,000)       $700,000    Updated portfolio data from servicer
                                                     Financial
            IBM Southeast Employees’                                                                            9/30/2010             $170,334        $870,334    Updated portfolio data from servicer
                                                     Instrument for
7/10/2009   Federal Credit Union,      Purchase                                  $870,000     N/A       12                                                                                                                     $9,000      $23,589           $16,000                  $48,589
                                                     Home Loan                                                   1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer
            Delray Beach, FL
                                                     Modifications
                                                                                                                3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011                  ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($9)      $870,311    Updated due to quarterly assessment and reallocation
                                                                                                                9/14/2012            ($821,722)        $48,589    Termination of SPA
                                                                                                                9/30/2009           $18,530,000    $42,010,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009           $24,510,000    $66,520,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010           $18,360,000    $84,880,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I July 24, 2013




                                                                                                                7/14/2010       ($22,580,000)      $62,300,000    Updated portfolio data from servicer
                                                     Financial
            MorEquity, Inc.,                         Instrument for                                             9/30/2010           ($8,194,261)   $54,105,739    Updated portfolio data from servicer
7/17/2009                              Purchase                               $23,480,000     N/A       11                                                                                                                   $345,841    $2,305,003        $1,977,321              $4,628,165
            Evansville, IN                           Home Loan
                                                     Modifications                                               1/6/2011                  ($37)   $54,105,702    Updated portfolio data from servicer
                                                                                                                3/16/2011       ($29,400,000)      $24,705,702    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                  ($34)   $24,705,668    Updated due to quarterly assessment and reallocation
                                                                                                                                                                  Termination of SPA
                                                                                                                5/26/2011       ($20,077,503)       $4,628,165
                                                                                                                                                                  (remaining cap equals distribution amount)
                                                                                                                9/30/2009       ($36,240,000)      $18,230,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009           $19,280,000    $37,510,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010            $2,470,000    $39,980,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($17,180,000)      $22,800,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           $35,500,000    $58,300,000    Initial FHA-2LP cap and initial 2MP cap
                                                                                                                9/30/2010           $23,076,191    $81,376,191    Updated portfolio data from servicer
                                                                                                                 1/6/2011                 ($123)   $81,376,068    Updated portfolio data from servicer

                                                     Financial                                                  3/30/2011                 ($147)   $81,375,921    Updated due to quarterly assessment and reallocation
            PNC Bank, National
                                                     Instrument for
7/17/2009   Association,               Purchase                               $54,470,000     N/A               5/13/2011            ($100,000)    $81,275,921    Transfer of cap due to servicing transfer                   $91,333     $633,132          $376,750               $1,101,215
                                                     Home Loan
            Pittsburgh, PA
                                                     Modifications                                              6/29/2011               ($1,382)   $81,274,539    Updated due to quarterly assessment and reallocation
                                                                                                               10/14/2011            ($300,000)    $80,974,539    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($1,003)   $80,973,536    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($2,745)   $80,970,791    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                 ($460)   $80,970,331    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($1,740)   $80,968,591    Updated due to quarterly assessment and reallocation
                                                                                                                 4/9/2013               $60,000    $81,028,591    Transfer of cap (from RBC bank (USA) ) due to merger
                                                                                                                6/27/2013                 ($656)   $81,027,935    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009              ($90,000)       $80,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009               $50,000       $130,000    Updated portfolio data from servicer & HAFA initial cap
                                                     Financial
            Farmers State Bank,                      Instrument for                                             3/26/2010             $100,000        $230,000    Updated portfolio data from servicer
7/17/2009                              Purchase                                  $170,000     N/A                                                                                                                                 $—           $—                   $—                     $—
            West Salem, OH                           Home Loan                                                  7/14/2010            ($130,000)       $100,000    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                5/20/2011            ($145,056)              —    Termination of SPA
                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                               TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                      Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                   Borrower’s       Investors          Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives              Payments
                                                                                                                 9/30/2009             $890,000        $2,300,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009            $1,260,000       $3,560,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010              ($20,000)      $3,540,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($240,000)       $3,300,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010             $471,446        $3,771,446    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($3)      $3,771,443    Updated portfolio data from servicer
                                                      Financial
            ShoreBank,                                Instrument for                                             3/30/2011                   ($4)      $3,771,439    Updated due to quarterly assessment and reallocation
7/17/2009                               Purchase                                 $1,410,000    N/A       12                                                                                                                       $49,915       $153,906           $143,165                $346,986
            Chicago, IL                               Home Loan                                                  4/13/2011           ($1,100,000)      $2,671,439    Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                 6/29/2011                  ($38)      $2,671,401    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                  ($29)      $2,671,372    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                  ($79)      $2,671,293    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                  ($13)      $2,671,280    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($50)      $2,671,230    Updated due to quarterly assessment and reallocation
                                                                                                                  4/9/2013           ($2,324,244)        $346,986    Termination of SPA
                                                                                                                 9/30/2009       ($53,670,000)      $1,218,820,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009       $250,450,000       $1,469,270,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010       $124,820,000       $1,594,090,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($289,990,000)      $1,304,100,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010            $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                                10/15/2010             $300,000     $1,306,090,508   Transfer of cap due to servicing transfer
                                                                                                                11/16/2010            ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011               ($1,173)   $1,305,989,335   Updated portfolio data from servicer
                                                                                                                 2/16/2011            ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011               ($1,400)   $1,305,487,935   Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011            $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011              ($12,883)   $1,308,575,052   Updated due to quarterly assessment and reallocation
                                                                                                                 9/15/2011           ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011            ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer

            Homeward Residential,                     Financial                                                 11/16/2011           ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
            Inc. (American Home                       Instrument for
7/22/2009                               Purchase                            $1,272,490,000     N/A               5/16/2012              ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer                 $51,757,482   $133,689,960       $94,835,607            $280,283,049
            Mortgage Servicing, Inc),                 Home Loan
            Coppell, TX                               Modifications                                              6/28/2012               ($8,378)   $1,306,356,674   Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012            ($470,000)    $1,305,886,674   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012              ($80,000)   $1,305,806,674   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012              ($22,494)   $1,305,784,180   Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012            ($260,000)    $1,305,524,180   Transfer of cap due to servicing transfer
                                                                                                                11/15/2012              ($30,000)   $1,305,494,180   Transfer of cap due to servicing transfer
                                                                                                                12/14/2012              ($50,000)   $1,305,444,180   Transfer of cap due to servicing transfer
                                                                                                                12/27/2012               ($3,676)   $1,305,440,504   Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013              ($80,000)   $1,305,360,504   Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013               $20,000    $1,305,380,504   Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013       ($84,160,000)      $1,221,220,504   Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013              ($12,821)   $1,221,207,683   Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013      ($621,110,000)       $600,097,683    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I July 24, 2013




                                                                                                                 5/16/2013       ($19,120,000)       $580,977,683    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013               ($1,947)    $580,975,736    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                                         323
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)                                                                                                                                                                                                324
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                              9/30/2009            $1,780,000     $5,990,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009            $2,840,000     $8,830,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010            $2,800,000    $11,630,000    Updated portfolio data from servicer
                                                                                                              7/14/2010           ($5,730,000)    $5,900,000    Updated portfolio data from servicer
                                                                                                              9/30/2010            $2,658,280     $8,558,280    Updated portfolio data from servicer

                                                   Financial                                                   1/6/2011                  ($12)    $8,558,268    Updated portfolio data from servicer
            Mortgage Center, LLC,                  Instrument for
7/22/2009                            Purchase                                 $4,210,000    N/A               3/30/2011                  ($14)    $8,558,254    Updated due to quarterly assessment and reallocation       $126,681     $218,692          $252,880                $598,252
            Southfield, MI                         Home Loan
                                                   Modifications                                              6/29/2011                 ($129)    $8,558,125    Updated due to quarterly assessment and reallocation
                                                                                                              6/28/2012                  ($94)    $8,558,031    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012                 ($256)    $8,557,775    Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012                  ($43)    $8,557,732    Updated due to quarterly assessment and reallocation
                                                                                                              3/25/2013                 ($162)    $8,557,570    Updated due to quarterly assessment and reallocation
                                                                                                              6/27/2013                  ($60)    $8,557,510    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 24, 2013




                                                                                                              9/30/2009            ($490,000)       $370,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009            $6,750,000     $7,120,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010           ($6,340,000)      $780,000    Updated portfolio data from servicer
                                                                                                              7/14/2010            ($180,000)       $600,000    Updated portfolio data from servicer
                                                   Financial
            Mission Federal Credit                 Instrument for                                             9/30/2010             $125,278        $725,278    Updated portfolio data from servicer
7/22/2009                            Purchase                                  $860,000     N/A                                                                                                                             $55,593     $145,783           $99,026                $300,403
            Union, San Diego, CA                   Home Loan                                                  3/30/2011                   ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                              6/29/2011                   ($4)      $725,273    Updated due to quarterly assessment and reallocation
                                                                                                              6/28/2012                   ($1)      $725,272    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012                   ($1)      $725,271    Updated due to quarterly assessment and reallocation
                                                                                                              3/25/2013               $47,663       $772,934    Updated due to quarterly assessment and reallocation
                                                                                                              9/30/2009           ($1,530,000)    $4,930,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009             $680,000      $5,610,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010            $2,460,000     $8,070,000    Updated portfolio data from servicer
                                                                                                              7/14/2010           ($2,470,000)    $5,600,000    Updated portfolio data from servicer
                                                                                                              9/30/2010            $2,523,114     $8,123,114    Updated portfolio data from servicer

                                                   Financial                                                   1/6/2011                   ($2)    $8,123,112    Updated portfolio data from servicer
            FIRST BANK,                            Instrument for
7/29/2009                            Purchase                                 $6,460,000    N/A               3/30/2011                   ($2)    $8,123,110    Updated due to quarterly assessment and reallocation       $800,937    $1,692,966        $1,334,237              $3,828,140
            St. Louis, MO                          Home Loan
                                                   Modifications                                              6/29/2011                  ($15)    $8,123,095    Updated due to quarterly assessment and reallocation
                                                                                                              6/28/2012                   ($3)    $8,123,092    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012                   ($5)    $8,123,087    Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012                   ($1)    $8,123,086    Updated due to quarterly assessment and reallocation
                                                                                                              3/25/2013                   ($5)    $8,123,081    Updated due to quarterly assessment and reallocation
                                                                                                              6/27/2013                   ($1)    $8,123,080    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                              9/30/2009              ($60,000)    $1,030,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009            $1,260,000     $2,290,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010            $2,070,000     $4,360,000    Updated portfolio data from servicer
                                                                                                              7/14/2010           ($3,960,000)      $400,000    Updated portfolio data from servicer
                                                                                                              9/30/2010             $180,222        $580,222    Updated portfolio data from servicer

                                                   Financial                                                   1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
            Purdue Employees
                                                   Instrument for
7/29/2009   Federal Credit Union,    Purchase                                 $1,090,000    N/A               3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation         $1,000       $1,325             $2,000                  $4,325
                                                   Home Loan
            West Lafayette, IN
                                                   Modifications                                              6/29/2011                   ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                              6/28/2012                   ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012                  ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012                   ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                              3/25/2013                  ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                              6/27/2013                   ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                              9/30/2009       ($37,700,000)      $47,320,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009           $26,160,000    $73,480,000    Updated portfolio data from servicer & HAFA initial cap
                                                   Financial
            Wachovia Bank, N.A.,                   Instrument for                                             3/26/2010            $9,820,000    $83,300,000    Updated portfolio data from servicer
7/29/2009                            Purchase                               $85,020,000     N/A                                                                                                                                 $—           $—                   $—                     $—
            Charlotte, NC                          Home Loan                                                  7/14/2010       ($46,200,000)      $37,100,000    Updated portfolio data from servicer
                                                   Modifications
                                                                                                              9/30/2010       ($28,686,775)       $8,413,225    Updated portfolio data from servicer
                                                                                                              12/3/2010           ($8,413,225)             —    Termination of SPA
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                325
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)                                                                                                                                                                                                       326
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                                TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                       Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                    Borrower’s       Investors          Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                       Incentives      Incentives         Incentives              Payments
                                                                                                               9/30/2009       ($14,850,000)      $2,684,870,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009      $1,178,180,000      $3,863,050,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010      $1,006,580,000      $4,869,630,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                               7/14/2010    ($1,934,230,000)      $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                   Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                               9/30/2010           $72,400,000    $3,007,800,000
                                                                                                                                                                   RD-HAMP
                                                                                                               9/30/2010       $215,625,536       $3,223,425,536   Updated portfolio data from servicer
                                                                                                                1/6/2011               ($3,636)   $3,223,421,900   Updated portfolio data from servicer
                                                                                                               3/16/2011            ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011               ($3,999)   $3,223,317,901   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011            ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011       $122,700,000       $3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011              ($34,606)   $3,345,783,295   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011             $600,000     $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I July 24, 2013




                                                                                                               8/16/2011            ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011            ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011             $200,000     $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                              10/19/2011       $519,211,309       $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011           ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                    Financial
            J.P. Morgan Chase Bank,                 Instrument for                                             1/13/2012            ($100,000)    $3,862,394,604   Transfer of cap due to servicing transfer
7/31/2009                             Purchase                            $2,699,720,000     N/A                                                                                                                             $240,147,381   $539,546,044      $337,085,231          $1,116,778,656
            NA, Lewisville, TX                      Home Loan
                                                    Modifications                                              2/16/2012            ($100,000)    $3,862,294,604   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012      ($126,080,000)      $3,736,214,604   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012           ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012              ($16,192)   $3,734,578,412   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012           ($2,300,000)   $3,732,278,412   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012              ($20,000)   $3,732,258,412   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012              ($37,341)   $3,732,221,071   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012           ($1,130,000)   $3,731,091,071   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012           ($3,770,000)   $3,727,321,071   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012            ($180,000)    $3,727,141,071   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012               ($4,535)   $3,727,136,536   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013              ($60,000)   $3,727,076,536   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013            ($520,000)    $3,726,556,536   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013              ($90,000)   $3,726,466,536   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013              ($14,310)   $3,726,452,226   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013            ($110,000)    $3,726,342,226   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013            ($120,000)    $3,726,222,226   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013              ($50,000)   $3,726,172,226   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013               ($3,778)   $3,726,168,448   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                             TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                    Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                  Borrower’s      Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                     Incentives     Incentives         Incentives              Payments
                                                                                                                9/30/2009              ($10,000)    $707,370,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009       $502,430,000       $1,209,800,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010      ($134,560,000)      $1,075,240,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                                7/14/2010      ($392,140,000)       $683,100,000    Updated portfolio data from servicer
                                                                                                                7/16/2010            ($630,000)     $682,470,000    Transfer of cap to Saxon Mortgage Services, Inc.
                                                                                                                9/30/2010           $13,100,000     $695,570,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                9/30/2010           ($8,006,457)    $687,563,543    Updated portfolio data from servicer

                                                     Financial                                                 10/15/2010            ($100,000)     $687,463,543    Transfer of cap due to servicing transfer
            EMC Mortgage
                                                     Instrument for
7/31/2009   Corporation,               Purchase                              $707,380,000     N/A       14     12/15/2010           ($4,400,000)    $683,063,543    Updated portfolio data from servicer                      $7,569,459   $11,592,937       $16,279,383             $35,441,779
                                                     Home Loan
            Lewisville, TX
                                                     Modifications                                               1/6/2011                 ($802)    $683,062,741    Updated portfolio data from servicer
                                                                                                                2/16/2011            ($900,000)     $682,162,741    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011           ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                 ($925)    $678,161,816    Updated due to quarterly assessment and reallocation
                                                                                                                5/13/2011      ($122,900,000)       $555,261,816    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011               ($8,728)    $555,253,088    Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011            ($600,000)     $554,653,088    Transfer of cap due to servicing transfer
                                                                                                               10/19/2011      ($519,211,309)        $35,441,779    Termination of SPA
                                                                                                                9/30/2009             $180,000          $600,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009            ($350,000)         $250,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010               $20,000         $270,000    Updated portfolio data from servicer
                                                                                                                7/14/2010              ($70,000)        $200,000    Updated portfolio data from servicer

                                                     Financial                                                  9/30/2010               $90,111         $290,111    Updated portfolio data from servicer
            Lake City Bank,                          Instrument for
8/5/2009                               Purchase                                  $420,000     N/A               6/29/2011                   ($3)        $290,108    Updated due to quarterly assessment and reallocation         $6,244         $5,819           $17,235                  $29,297
            Warsaw, IN                               Home Loan
                                                     Modifications                                              6/28/2012                   ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($7)        $290,099    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($1)        $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($4)        $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($2)        $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009             $290,000          $430,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009             $210,000          $640,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010             $170,000          $810,000    Updated portfolio data from servicer
                                                                                                                7/14/2010              ($10,000)        $800,000    Updated portfolio data from servicer
                                                     Financial
            Oakland Municipal Credit                                                                            9/30/2010              ($74,722)        $725,278    Updated portfolio data from servicer
                                                     Instrument for
8/5/2009    Union,                     Purchase                                  $140,000     N/A       12                                                                                                                          $—          $3,568             $6,500                 $10,068
                                                     Home Loan                                                   1/6/2011                   ($1)        $725,277    Updated portfolio data from servicer
            Oakland, CA
                                                     Modifications
                                                                                                                3/30/2011                   ($1)        $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011            ($200,000)         $525,276    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                   ($7)        $525,269    Updated due to quarterly assessment and reallocation
                                                                                                                7/22/2011            ($515,201)          $10,068    Termination of SPA
                                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                      327
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)                                                                                                                                                                                                     328
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                              TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                     Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                   Borrower’s      Investors          Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                      Incentives     Incentives         Incentives              Payments
                                                                                                                 9/30/2009      ($121,190,000)       $552,810,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009       ($36,290,000)       $516,520,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010       $199,320,000        $715,840,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($189,040,000)       $526,800,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010           $38,626,728     $565,426,728    Updated portfolio data from servicer
                                                                                                                10/15/2010      ($170,800,000)       $394,626,728    Transfer of cap due to servicing transfer
                                                                                                                12/15/2010       ($22,200,000)       $372,426,728    Updated portfolio data from servicer
                                                                                                                  1/6/2011                 ($549)    $372,426,179    Updated portfolio data from servicer
                                                      Financial
            HomEq Servicing,                          Instrument for                                             2/16/2011            ($900,000)     $371,526,179    Transfer of cap due to servicing transfer
8/5/2009                                Purchase                              $674,000,000     N/A                                                                                                                                    $—      $3,036,319         $5,272,500              $8,308,819
            North Highlands, CA                       Home Loan                                                  3/30/2011                 ($653)    $371,525,526    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                 6/29/2011               ($6,168)    $371,519,358    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($4,634)    $371,514,724    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012            ($430,000)     $371,084,724    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I July 24, 2013




                                                                                                                 9/27/2012              ($12,728)    $371,071,996    Updated due to quarterly assessment and reallocation
                                                                                                                12/14/2012              ($20,000)    $371,051,996    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012               ($2,148)    $371,049,848    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($8,137)    $371,041,711    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($3,071)    $371,038,640    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2009       $313,050,000       $1,087,950,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009       $275,370,000       $1,363,320,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010       $278,910,000       $1,642,230,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($474,730,000)      $1,167,500,000   Updated portfolio data from servicer
                                                                                                                 8/13/2010            ($700,000)    $1,166,800,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/15/2010           ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/30/2010      ($115,017,236)      $1,050,782,764   Updated portfolio data from servicer
                                                                                                                10/15/2010            ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                12/15/2010             $800,000     $1,050,782,764   Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($1,286)   $1,050,781,478   Updated portfolio data from servicer
                                                                                                                 3/16/2011            $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011               ($1,470)   $1,059,580,008   Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011           ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer

                                                      Financial                                                  5/13/2011            ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
            Litton Loan Servicing LP,                 Instrument for
8/12/2009                               Purchase                              $774,900,000     N/A               6/16/2011            ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer                 $13,441,220   $35,353,126       $27,530,414             $76,324,760
            Houston, TX                               Home Loan
                                                      Modifications                                              6/29/2011              ($13,097)   $1,055,266,911   Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011            ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011           ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011            ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011            ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011           ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012      ($194,800,000)       $853,966,911    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012            ($400,000)     $853,566,911    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012               ($9,728)    $853,557,183    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012           ($7,990,000)    $845,567,183    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012              ($26,467)    $845,540,716    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               ($4,466)    $845,536,250    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($16,922)    $845,519,328    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($6,386)    $845,512,942    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s      Investors          Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives     Incentives         Incentives              Payments
                                                                                                               9/30/2009           ($1,200,000)    $5,010,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009           $30,800,000    $35,810,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010           $23,200,000    $59,010,000    Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from CitiMortgage, Inc. due to
                                                                                                               6/16/2010            $2,710,000    $61,720,000
                                                                                                                                                                 servicing transfer
                                                                                                               7/14/2010       ($18,020,000)      $43,700,000    Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from CitiMortgage, Inc. due to
                                                                                                               7/16/2010            $6,680,000    $50,380,000
                                                                                                                                                                 servicing transfer
                                                                                                               8/13/2010            $2,600,000    $52,980,000    Transfer of cap to due to servicing transfer
                                                                                                               9/15/2010            ($100,000)    $52,880,000    Transfer of cap to due to servicing transfer
                                                                                                               9/30/2010             $200,000     $53,080,000    Initial FHA-HAMP cap and 2MP initial cap
                                                                                                               9/30/2010           ($1,423,197)   $51,656,803    Updated portfolio data from servicer
                                                                                                              11/16/2010            $1,400,000    $53,056,803    Transfer of cap due to servicing transfer
                                                                                                              12/15/2010            ($100,000)    $52,956,803    Updated portfolio data from servicer
                                                                                                                1/6/2011                  ($72)   $52,956,731    Updated portfolio data from servicer
                                                                                                               1/13/2011            $4,100,000    $57,056,731    Transfer of cap due to servicing transfer
                                                                                                               2/16/2011            ($100,000)    $56,956,731    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011            $4,000,000    $60,956,731    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011                  ($94)   $60,956,637    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011            ($100,000)    $60,856,637    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011            $5,800,000    $66,656,637    Transfer of cap due to servicing transfer
                                                    Financial                                                  6/16/2011             $600,000     $67,256,637    Transfer of cap due to servicing transfer
            PennyMac Loan Services,
                                                    Instrument for
8/12/2009   LLC,                      Purchase                                 $6,210,000    N/A               6/29/2011                 ($812)   $67,255,825    Updated due to quarterly assessment and reallocation      $5,156,644   $10,564,532         $6,161,153            $21,882,330
                                                    Home Loan
            Calasbasa, CA
                                                    Modifications                                              7/14/2011            $2,500,000    $69,755,825    Transfer of cap due to servicing transfer
                                                                                                               9/15/2011            $2,800,000    $72,555,825    Transfer of cap due to servicing transfer
                                                                                                              10/14/2011             $300,000     $72,855,825    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011             $900,000     $73,755,825    Transfer of cap due to servicing transfer
                                                                                                              12/15/2011             $800,000     $74,555,825    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012             $200,000     $74,755,825    Transfer of cap due to servicing transfer
                                                                                                               3/15/2012            $1,900,000    $76,655,825    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012             $200,000     $76,855,825    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012            $1,340,000    $78,195,825    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                 ($340)   $78,195,485    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012            $2,930,000    $81,125,485    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012             $890,000     $82,015,485    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                 ($974)   $82,014,511    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012            $1,800,000    $83,814,511    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012            $3,860,000    $87,674,511    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012                 ($154)   $87,674,357    Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013            $2,980,000    $90,654,357    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013                 ($506)   $90,653,851    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013            $2,160,000    $92,813,851    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013            $2,440,000    $95,253,851    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                 ($128)   $95,253,723    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 24, 2013




                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                   329
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)                                                                                                                                                                                                330
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                              9/30/2009       ($25,510,000)       $4,220,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009             $520,000      $4,740,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010            $4,330,000     $9,070,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due to
                                                                                                              4/19/2010             $230,000      $9,300,000
                                                                                                                                                                servicing transfer
                                                                                                              5/19/2010             $850,000     $10,150,000    Initial 2MP cap
                                                                                                              7/14/2010            ($850,000)     $9,300,000    Updated portfolio data from servicer
                                                                                                              9/15/2010             $100,000      $9,400,000    Transfer of cap to due to servicing transfer
                                                                                                              9/30/2010             $100,000      $9,500,000    Initial FHA-HAMP cap
                                                                                                              9/30/2010           $16,755,064    $26,255,064    Updated portfolio data from servicer
                                                                                                             10/15/2010             $100,000     $26,355,064    Transfer of cap due to servicing transfer
                                                                                                             12/15/2010             $100,000     $26,455,064    Updated portfolio data from servicer
                                                                                                               1/6/2011                  ($40)   $26,455,024    Updated portfolio data from servicer
                                                                                                              1/13/2011             $300,000     $26,755,024    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 24, 2013




                                                                                                              2/16/2011             $100,000     $26,855,024    Transfer of cap due to servicing transfer
                                                                                                              3/16/2011            $2,200,000    $29,055,024    Transfer of cap due to servicing transfer
                                                                                                              3/30/2011                  ($52)   $29,054,972    Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011            $1,500,000    $30,554,972    Transfer of cap due to servicing transfer
                                                                                                              5/13/2011            $1,000,000    $31,554,972    Transfer of cap due to servicing transfer
                                                                                                              6/16/2011             $100,000     $31,654,972    Transfer of cap due to servicing transfer
                                                                                                              6/29/2011                 ($534)   $31,654,438    Updated due to quarterly assessment and reallocation
                                                                                                              8/16/2011             $700,000     $32,354,438    Transfer of cap due to servicing transfer
                                                                                                              9/15/2011            ($600,000)    $31,754,438    Transfer of cap due to servicing transfer
                                                   Financial
            Servis One, Inc.,                      Instrument for                                            10/14/2011            $4,000,000    $35,754,438    Transfer of cap due to servicing transfer
8/12/2009                            Purchase                               $29,730,000     N/A                                                                                                                            $470,238    $927,108           $615,903               $2,013,249
            Titusville, PA                         Home Loan
                                                   Modifications                                             11/16/2011             $600,000     $36,354,438    Transfer of cap due to servicing transfer
                                                                                                             12/15/2011             $200,000     $36,554,438    Transfer of cap due to servicing transfer
                                                                                                              1/13/2012             $100,000     $36,654,438    Transfer of cap due to servicing transfer
                                                                                                              2/16/2012            $1,300,000    $37,954,438    Transfer of cap due to servicing transfer
                                                                                                              3/15/2012            $1,100,000    $39,054,438    Transfer of cap due to servicing transfer
                                                                                                              4/16/2012             $800,000     $39,854,438    Transfer of cap due to servicing transfer
                                                                                                              5/16/2012           ($1,080,000)   $38,774,438    Transfer of cap due to servicing transfer
                                                                                                              6/14/2012            $1,560,000    $40,334,438    Transfer of cap due to servicing transfer
                                                                                                              6/28/2012                 ($465)   $40,333,973    Updated due to quarterly assessment and reallocation
                                                                                                              8/16/2012               $70,000    $40,403,973    Transfer of cap due to servicing transfer
                                                                                                              9/27/2012               ($1,272)   $40,402,701    Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012            $2,100,000    $42,502,701    Transfer of cap due to servicing transfer
                                                                                                             11/15/2012            $1,340,000    $43,842,701    Transfer of cap due to servicing transfer
                                                                                                             12/14/2012            $1,160,000    $45,002,701    Transfer of cap due to servicing transfer
                                                                                                             12/27/2012                 ($239)   $45,002,462    Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2013             $210,000     $45,212,462    Transfer of cap due to servicing transfer
                                                                                                              2/14/2013            $1,790,000    $47,002,462    Transfer of cap due to servicing transfer
                                                                                                              3/14/2013            $1,920,000    $48,922,462    Transfer of cap due to servicing transfer
                                                                                                              3/25/2013                 ($960)   $48,921,502    Updated due to quarterly assessment and reallocation
                                                                                                              4/16/2013             $410,000     $49,331,502    Transfer of cap due to servicing transfer
                                                                                                              5/16/2013              ($60,000)   $49,271,502    Transfer of cap due to servicing transfer
                                                                                                              6/14/2013            $1,620,000    $50,891,502    Transfer of cap due to servicing transfer
                                                                                                              6/27/2013                 ($359)   $50,891,143    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                               TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                      Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                   Borrower’s       Investors          Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount         Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives              Payments
                                                                                                               10/2/2009       $145,800,000        $814,240,000    HPDP initial cap
                                                                                                              12/30/2009      $1,355,930,000      $2,170,170,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010       $121,180,000       $2,291,350,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($408,850,000)      $1,882,500,000   Updated portfolio data from servicer
                                                                                                               9/30/2010            $5,500,000    $1,888,000,000   2MP initial cap
                                                                                                               9/30/2010       ($51,741,163)      $1,836,258,837   Updated portfolio data from servicer
                                                    Financial
            OneWest Bank,                           Instrument for                                              1/6/2011               ($2,282)   $1,836,256,555   Updated portfolio data from servicer
8/28/2009                             Purchase                              $668,440,000     N/A                                                                                                                             $52,060,053   $164,279,147       $75,560,054            $291,899,254
            Pasadena, CA                            Home Loan                                                  3/30/2011               ($2,674)   $1,836,253,881   Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                               6/29/2011              ($24,616)   $1,836,229,265   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($15,481)   $1,836,213,784   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($40,606)   $1,836,173,178   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($6,688)   $1,836,166,490   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013              ($24,811)   $1,836,141,679   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($9,058)   $1,836,132,621   Updated due to quarterly assessment and reallocation
                                                                                                               10/2/2009               $70,000         $370,000    HPDP initial cap
                                                                                                              12/30/2009            $2,680,000       $3,050,000    Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                             3/26/2010             $350,000        $3,400,000    Updated portfolio data from servicer
8/28/2009                             Purchase                                  $300,000     N/A                                                                                                                                    $—              $—                   $—                     $—
            Union, Palo Alto, CA                    Home Loan                                                  7/14/2010           ($1,900,000)      $1,500,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                               9/30/2010           ($1,209,889)        $290,111    Updated portfolio data from servicer
                                                                                                               3/23/2010            ($290,111)                —    Termination of SPA
                                                                                                               10/2/2009             $130,000          $700,000    HPDP initial cap
                                                                                                              12/30/2009            ($310,000)         $390,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010            $2,110,000       $2,500,000    Updated portfolio data from servicer
                                                                                                               7/14/2010            $8,300,000      $10,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010            $5,301,172      $16,101,172    Updated portfolio data from servicer
                                                                                                                1/6/2011                  ($22)     $16,101,150    Updated portfolio data from servicer
                                                                                                               3/16/2011            ($400,000)      $15,701,150    Transfer of cap due to servicing transfer

                                                    Financial                                                  3/30/2011                  ($25)     $15,701,125    Updated due to quarterly assessment and reallocation
            RoundPoint Mortgage
                                                    Instrument for
8/28/2009   Servicing Corporation,    Purchase                                  $570,000     N/A               6/29/2011                 ($232)     $15,700,893    Updated due to quarterly assessment and reallocation        $175,105       $438,541           $355,816                $969,461
                                                    Home Loan
            Charlotte, NC
                                                    Modifications                                              6/28/2012                 ($174)     $15,700,719    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012                 ($479)     $15,700,240    Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012            ($350,000)      $15,350,240    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012                  ($82)     $15,350,158    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                 ($308)     $15,349,850    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013               $80,000      $15,429,850    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013               $20,000      $15,449,850    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                 ($108)     $15,449,742    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                       331
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)                                                                                                                                                                                                332
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                         TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                                 10/2/2009             $130,000        $690,000    HPDP initial cap
                                                                                                                12/30/2009            $1,040,000     $1,730,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010           ($1,680,000)       $50,000    Updated portfolio data from servicer
                                                                                                                 5/12/2010            $1,260,000     $1,310,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010           ($1,110,000)      $200,000    Updated portfolio data from servicer

                                                      Financial                                                  9/30/2010             $100,000        $300,000    Initial RD-HAMP
             Horicon Bank,                            Instrument for
9/2/2009                                Purchase                                  $560,000     N/A               9/30/2010               ($9,889)      $290,111    Updated portfolio data from servicer                         $5,265     $15,433            $10,170                  $30,868
             Horicon, WI                              Home Loan
                                                      Modifications                                              6/29/2011                   ($3)      $290,108    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                   ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                   ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 24, 2013




                                                                                                                 10/2/2009            $1,310,000     $7,310,000    HPDP initial cap
                                                                                                                12/30/2009           ($3,390,000)    $3,920,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010             $410,000      $4,330,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($730,000)     $3,600,000    Updated portfolio data from servicer
                                                                                                                 9/15/2010            $4,700,000     $8,300,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010             $117,764      $8,417,764    Updated portfolio data from servicer
                                                                                                                11/16/2010             $800,000      $9,217,764    Transfer of cap due to servicing transfer
                                                                                                                12/15/2010            $2,700,000    $11,917,764    Updated portfolio data from servicer
                                                                                                                  1/6/2011                  ($17)   $11,917,747    Updated portfolio data from servicer
                                                                                                                 1/13/2011             $700,000     $12,617,747    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011            $1,800,000    $14,417,747    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                  ($19)   $14,417,728    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011             $300,000     $14,717,728    Transfer of cap due to servicing transfer

9/2/2009                                              Financial                                                  6/29/2011                 ($189)   $14,717,539    Updated due to quarterly assessment and reallocation
             Vantium Capital, Inc.dba
as amended                                            Instrument for
             Acqura Loan Services,      Purchase                                 $6,000,000    N/A       10      8/16/2011             $300,000     $15,017,539    Transfer of cap due to servicing transfer                  $238,807    $486,579           $388,789               $1,114,175
on                                                    Home Loan
             Plano, TX
8/27/2010                                             Modifications                                              9/15/2011             $100,000     $15,117,539    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011             $100,000     $15,217,539    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                 ($147)   $15,217,392    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012              ($10,000)   $15,207,392    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012                 ($413)   $15,206,979    Updated due to quarterly assessment and reallocation
                                                                                                                11/15/2012              ($40,000)   $15,166,979    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                  ($71)   $15,166,908    Updated due to quarterly assessment and reallocation
                                                                                                                 2/14/2013            ($770,000)    $14,396,908    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013              ($20,000)   $14,376,908    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                 ($256)   $14,376,652    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013            ($620,000)    $13,756,652    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013               $40,000    $13,796,652    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013               $10,000    $13,806,652    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                  ($95)   $13,806,557    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)
           Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                            TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                 Borrower’s      Investors          Servicers               Incentive
Date       Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                      Incentives     Incentives         Incentives              Payments
                                                                                                                10/2/2009             $280,000       $1,530,000   HPDP initial cap
                                                                                                               12/30/2009            ($750,000)       $780,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010             $120,000        $900,000    Updated portfolio data from servicer
                                                                                                                7/14/2010            ($300,000)       $600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010             $270,334        $870,334    Updated portfolio data from servicer

                                                     Financial                                                   1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer
           Central Florida Educators
                                                     Instrument for
9/9/2009   Federal Credit Union,       Purchase                                 $1,250,000    N/A               3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation         $88,380      $152,124           $191,666                $432,170
                                                     Home Loan
           Lake May, FL
                                                     Modifications                                              6/29/2011                   ($5)      $870,327    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               $21,717       $892,044    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012             $190,077       $1,082,121   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               $35,966      $1,118,087   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               $59,464      $1,177,551   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               $35,438      $1,212,989   Updated due to quarterly assessment and reallocation
                                                                                                                10/2/2009           $24,920,000    $139,140,000   HPDP initial cap
                                                                                                               12/30/2009           $49,410,000    $188,550,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010           $41,830,000    $230,380,000   Updated portfolio data from servicer
                                                                                                                7/14/2010       ($85,780,000)      $144,600,000   Updated portfolio data from servicer
                                                                                                                9/30/2010           $36,574,444    $181,174,444   Updated portfolio data from servicer

                                                     Financial                                                   1/6/2011                 ($160)   $181,174,284   Updated portfolio data from servicer
           U.S. Bank National
                                                     Instrument for
9/9/2009   Association,                Purchase                              $114,220,000     N/A               3/30/2011                 ($172)   $181,174,112   Updated due to quarterly assessment and reallocation      $10,193,055   $25,475,402       $19,104,663             $54,773,120
                                                     Home Loan
           Owensboro, KY
                                                     Modifications                                              6/29/2011               ($1,431)   $181,172,681   Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                 ($746)   $181,171,935   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($1,926)   $181,170,009   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                 ($308)   $181,169,701   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($1,135)   $181,168,566   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                 ($418)   $181,168,148   Updated due to quarterly assessment and reallocation
                                                                                                                10/2/2009             $950,000       $5,300,000   HPDP initial cap
                                                                                                               12/30/2009            $5,700,000     $11,000,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010             $740,000      $11,740,000   Updated portfolio data from servicer
                                                                                                                7/14/2010           ($1,440,000)    $10,300,000   Updated portfolio data from servicer
                                                                                                                9/30/2010           ($6,673,610)     $3,626,390   Updated portfolio data from servicer

                                                     Financial                                                   1/6/2011                   ($5)     $3,626,385   Updated portfolio data from servicer
           CUC Mortgage
                                                     Instrument for
9/9/2009   Corporation,                Purchase                                 $4,350,000    N/A               3/30/2011                   ($6)     $3,626,379   Updated due to quarterly assessment and reallocation         $49,221      $123,723            $90,770                $263,714
                                                     Home Loan
           Albany, NY
                                                     Modifications                                              6/29/2011                  ($52)     $3,626,327   Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                  ($38)     $3,626,289   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                 ($107)     $3,626,182   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                  ($18)     $3,626,164   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($69)     $3,626,095   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                  ($26)     $3,626,069   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                     333
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)                                                                                                                                                                                                334
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                               10/2/2009             $460,000      $2,530,000    HPDP initial cap
                                                                                                              12/30/2009            $2,730,000     $5,260,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010           $13,280,000    $18,540,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($13,540,000)       $5,000,000    Updated portfolio data from servicer
                                                                                                               9/30/2010            $1,817,613     $6,817,613    Updated portfolio data from servicer

                                                    Financial                                                   1/6/2011                  ($10)    $6,817,603    Updated portfolio data from servicer
            ORNL Federal Credit                     Instrument for
9/11/2009                             Purchase                                 $2,070,000    N/A               3/30/2011                  ($12)    $6,817,591    Updated due to quarterly assessment and reallocation        $10,402     $22,217            $30,302                  $62,922
            Union, Oak Ridge, TN                    Home Loan
                                                    Modifications                                              6/29/2011                 ($115)    $6,817,476    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012                  ($86)    $6,817,390    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012                 ($236)    $6,817,154    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012                  ($40)    $6,817,114    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                 ($149)    $6,816,965    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                  ($56)    $6,816,909    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 24, 2013




                                                                                                               10/2/2009               $60,000       $310,000    HPDP initial cap
                                                                                                              12/30/2009              ($80,000)      $230,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010             $280,000        $510,000    Updated portfolio data from servicer

                                                    Financial                                                  7/14/2010            ($410,000)       $100,000    Updated portfolio data from servicer
            Allstate Mortgage Loans
                                                    Instrument for
9/11/2009   & Investments, Inc.,      Purchase                                  $250,000     N/A               9/30/2010               $45,056       $145,056    Updated portfolio data from servicer                         $5,036       $9,263             $8,036                 $22,334
                                                    Home Loan
            Ocala, FL
                                                    Modifications                                              6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                               10/2/2009               $70,000       $350,000    HPDP initial cap
                                                                                                              12/30/2009             $620,000        $970,000    Updated portfolio data from servicer & HAFA initial cap

                                                    Financial                                                  3/26/2010             $100,000      $1,070,000    Updated portfolio data from servicer
            Metropolitan National                   Instrument for
9/11/2009                             Purchase                                  $280,000     N/A               7/14/2010            ($670,000)       $400,000    Updated portfolio data from servicer                            $—           $—                   $—                     $—
            Bank, Little Rock, AR                   Home Loan
                                                    Modifications                                              9/30/2010               $35,167       $435,167    Updated portfolio data from servicer
                                                                                                                1/6/2011                   ($1)      $435,166    Updated portfolio data from servicer
                                                                                                               1/26/2011            ($435,166)              —    Termination of SPA
                                                                                                               10/2/2009            $6,010,000    $33,520,000    HPDP initial cap
                                                                                                              12/30/2009       ($19,750,000)      $13,770,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010           ($4,780,000)    $8,990,000    Updated portfolio data from servicer
                                                                                                               7/14/2010           ($2,390,000)    $6,600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010            $2,973,670     $9,573,670    Updated portfolio data from servicer
                                                                                                                1/6/2011                   ($3)    $9,573,667    Updated portfolio data from servicer

                                                    Financial                                                  2/16/2011           ($1,800,000)    $7,773,667    Transfer of cap due to servicing transfer
            Franklin Credit
                                                    Instrument for
9/11/2009   Management Corporation,   Purchase                               $27,510,000     N/A               3/30/2011                   ($6)    $7,773,661    Updated due to quarterly assessment and reallocation       $331,388    $626,836           $732,024               $1,690,247
                                                    Home Loan
            Jersey City, NJ
                                                    Modifications                                              6/29/2011                  ($61)    $7,773,600    Updated due to quarterly assessment and reallocation
                                                                                                              10/14/2011            ($100,000)     $7,673,600    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                  ($58)    $7,673,542    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012                 ($164)    $7,673,378    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012                  ($29)    $7,673,349    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                 ($110)    $7,673,239    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                  ($42)    $7,673,197    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                         TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                                 10/2/2009               $90,000       $500,000    HPDP initial cap
                                                                                                                12/30/2009            $1,460,000     $1,960,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010             $160,000      $2,120,000    Updated portfolio data from servicer

                                                      Financial                                                  7/14/2010            ($120,000)     $2,000,000    Updated portfolio data from servicer
            Bay Federal Credit Union,                 Instrument for
9/16/2009                               Purchase                                  $410,000     N/A               9/30/2010           ($1,419,778)      $580,222    Updated portfolio data from servicer                            $—           $—                   $—                     $—
            Capitola, CA                              Home Loan
                                                      Modifications                                               1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
                                                                                                                 3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011                   ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                 1/25/2012            ($580,212)              —    Termination of SPA
                                                                                                                 10/2/2009             $960,000      $5,350,000    HPDP initial cap
                                                                                                                12/30/2009           ($3,090,000)    $2,260,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010             $230,000      $2,490,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010            $5,310,000     $7,800,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010             $323,114      $8,123,114    Updated portfolio data from servicer
                                                                                                                  1/6/2011                  ($12)    $8,123,102    Updated portfolio data from servicer
                                                                                                                 3/16/2011             $600,000      $8,723,102    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                  ($16)    $8,723,086    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011             $200,000      $8,923,086    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011             $100,000      $9,023,086    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011                 ($153)    $9,022,933    Updated due to quarterly assessment and reallocation
                                                                                                                 9/15/2011             $100,000      $9,122,933    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011             $100,000      $9,222,933    Transfer of cap due to servicing transfer

                                                      Financial                                                  4/16/2012            $1,100,000    $10,322,933    Transfer of cap due to servicing transfer
            AMS Servicing, LLC,                       Instrument for
9/23/2009                               Purchase                                 $4,390,000    N/A               6/14/2012             $650,000     $10,972,933    Transfer of cap due to servicing transfer                   $15,664     $72,231            $53,598                $141,493
            Buffalo, NY                               Home Loan
                                                      Modifications                                              6/28/2012                 ($136)   $10,972,797    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                 ($347)   $10,972,450    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012             $250,000     $11,222,450    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012               $30,000    $11,252,450    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012              ($10,000)   $11,242,450    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                  ($59)   $11,242,391    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013               $20,000    $11,262,391    Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013             $290,000     $11,552,391    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013               $10,000    $11,562,391    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                 ($220)   $11,562,171    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013              ($60,000)   $11,502,171    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013               $50,000    $11,552,171    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013               $10,000    $11,562,171    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                  ($79)   $11,562,092    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                   335
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)                                                                                                                                                                                                336
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                         TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                                 10/2/2009               $90,000       $480,000    HPDP initial cap
                                                                                                                12/30/2009             $940,000      $1,420,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010            ($980,000)       $440,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($140,000)       $300,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010            $1,150,556     $1,450,556    Updated portfolio data from servicer

                                                      Financial                                                   1/6/2011                   ($2)    $1,450,554    Updated portfolio data from servicer
            Schools Financial Credit                  Instrument for
9/23/2009                               Purchase                                  $390,000     N/A               3/30/2011                   ($2)    $1,450,552    Updated due to quarterly assessment and reallocation        $18,417     $50,048            $32,500                $100,965
            Union, Sacramento, CA                     Home Loan
                                                      Modifications                                              6/29/2011                  ($22)    $1,450,530    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                  ($16)    $1,450,514    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                  ($44)    $1,450,470    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($7)    $1,450,463    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($28)    $1,450,435    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                  ($11)    $1,450,424    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I July 24, 2013




                                                                                                                 10/2/2009               $60,000       $290,000    HPDP initial cap
                                                                                                                12/30/2009              ($10,000)      $280,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010             $130,000        $410,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($110,000)       $300,000    Updated portfolio data from servicer

                                                      Financial                                                  9/30/2010               ($9,889)      $290,111    Updated portfolio data from servicer
            Glass City Federal Credit
                                                      Instrument for
9/23/2009   Union,                      Purchase                                  $230,000     N/A               6/29/2011                   ($3)      $290,108    Updated due to quarterly assessment and reallocation         $4,000       $2,474             $6,000                 $12,474
                                                      Home Loan
            Maumee, OH
                                                      Modifications                                              6/28/2012                   ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                   ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009               $10,000        $40,000    HPDP initial cap
                                                                                                                12/30/2009             $120,000        $160,000    Updated portfolio data from servicer & HAFA initial cap
                                                      Financial
            Central Jersey Federal                                                                               3/26/2010               $10,000       $170,000    Updated portfolio data from servicer
                                                      Instrument for
9/23/2009   Credit Union,               Purchase                                    $30,000    N/A                                                                                                                                 $—           $—                   $—                     $—
                                                      Home Loan                                                  7/14/2010              ($70,000)      $100,000    Updated portfolio data from servicer
            Woodbridge, NJ
                                                      Modifications
                                                                                                                 9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                10/29/2010            ($145,056)              —    Termination of SPA
                                                                                                                 10/2/2009               $60,000       $300,000    HPDP initial cap
                                                                                                                12/30/2009             $350,000        $650,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010            $1,360,000     $2,010,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010           ($1,810,000)      $200,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010             $235,167        $435,167    Updated portfolio data from servicer
                                                      Financial
            Yadkin Valley Bank,                       Instrument for                                              1/6/2011                   ($1)      $435,166    Updated portfolio data from servicer
9/23/2009                               Purchase                                  $240,000     N/A                                                                                                                             $20,829     $25,249            $40,429                  $86,506
            Elkin, NC                                 Home Loan                                                  6/29/2011                   ($4)      $435,162    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                 6/28/2012                   ($3)      $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                   ($7)      $435,152    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($1)      $435,151    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($5)      $435,146    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($2)      $435,144    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                 (continued)
             Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                         TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                                Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives         Incentives              Payments
                                                                                                                  10/2/2009             $100,000        $540,000    HPDP initial cap
                                                                                                                 12/30/2009               $20,000       $560,000    Updated portfolio data from servicer & HAFA initial cap

                                                       Financial                                                  3/26/2010            ($290,000)       $270,000    Updated portfolio data from servicer
                                                       Instrument for
9/25/2009    SEFCU, Albany, NY           Purchase                                  $440,000     N/A               7/14/2010              ($70,000)      $200,000    Updated portfolio data from servicer                            $—           $—                   $—                     $—
                                                       Home Loan
                                                       Modifications                                              9/30/2010              ($54,944)      $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                  4/11/2012            ($145,055)              —    Termination of SPA
                                                                                                                 12/30/2009            $1,030,000     $1,600,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010            ($880,000)       $720,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($320,000)       $400,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010             $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                   1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
                                                       Financial
             Great Lakes Credit Union,                 Instrument for                                             3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation
10/14/2009                               Purchase                                  $570,000     N/A                                                                                                                              $8,833     $15,019            $12,100                  $35,952
             North Chicago, IL                         Home Loan                                                  6/29/2011                   ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  6/28/2012                   ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                  ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                   ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                  ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                   ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                 12/30/2009           ($2,900,000)    $1,960,000    Updated portfolio data from servicer & HAFA initial cap

                                                       Financial                                                  3/26/2010           ($1,600,000)      $360,000    Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                                 $4,860,000    N/A               7/14/2010            ($260,000)       $100,000    Updated portfolio data from servicer                            $—           $—                   $—                     $—
             Corporation, Tulsa, OK                    Home Loan
                                                       Modifications                                              9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                   3/9/2011            ($145,056)              —    Termination of SPA
                                                                                                                  1/22/2010               $20,000       $430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010             $400,000        $830,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($430,000)       $400,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010             $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                   1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
                                                       Financial
             United Bank Mortgage                                                                                 3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                       Instrument for
10/21/2009   Corporation,                Purchase                                  $410,000     N/A                                                                                                                             $34,449     $65,542            $57,835                $157,826
                                                       Home Loan                                                  6/29/2011                   ($5)      $580,215    Updated due to quarterly assessment and reallocation
             Grand Rapids, MI
                                                       Modifications
                                                                                                                  6/28/2012                   ($4)      $580,211    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                  ($11)      $580,200    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                   ($2)      $580,198    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                   ($7)      $580,191    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                   ($2)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                    337
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                  (continued)                                                                                                                                                                                               338
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s      Investors          Servicers               Incentive
Date         Name of Institution          Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives         Incentives              Payments
                                                                                                                   1/22/2010            $4,370,000     $98,030,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010           $23,880,000    $121,910,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($16,610,000)      $105,300,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010            $1,751,033    $107,051,033   Updated portfolio data from servicer
                                                                                                                    1/6/2011                  ($77)   $107,050,956   Updated portfolio data from servicer
                                                                                                                   3/16/2011           ($9,900,000)    $97,150,956   Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                  ($88)    $97,150,868   Updated due to quarterly assessment and reallocation
                                                        Financial
             Bank United,                               Instrument for                                             6/29/2011                 ($773)    $97,150,095   Updated due to quarterly assessment and reallocation
10/23/2009                                Purchase                               $93,660,000     N/A                                                                                                                        $6,693,744   $17,975,307       $10,492,905             $35,161,955
             Miami Lakes, FL                            Home Loan                                                  3/15/2012           ($1,400,000)    $95,750,095   Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                   6/28/2012                 ($277)    $95,749,818   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                 ($549)    $95,749,269   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($65)    $95,749,204   Updated due to quarterly assessment and reallocation
                                                                                                                   2/14/2013           ($2,670,000)    $93,079,204   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I July 24, 2013




                                                                                                                   3/25/2013                 ($142)    $93,079,062   Updated due to quarterly assessment and reallocation
                                                                                                                   5/16/2013            ($610,000)     $92,469,062   Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013                  ($48)    $92,469,014   Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010               $40,000       $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010            ($760,000)        $40,000    Updated portfolio data from servicer
                                                                                                                   5/12/2010            $2,630,000      $2,670,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($770,000)      $1,900,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010             $565,945       $2,465,945   Updated portfolio data from servicer

                                                        Financial                                                   1/6/2011                   ($4)     $2,465,941   Updated portfolio data from servicer
             IC Federal Credit Union,                   Instrument for
10/23/2009                                Purchase                                  $760,000     N/A               3/30/2011                   ($4)     $2,465,937   Updated due to quarterly assessment and reallocation     $17,333       $33,643            $29,000                  $79,976
             Fitchburg, MA                              Home Loan
                                                        Modifications                                              6/29/2011                  ($40)     $2,465,897   Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                  ($29)     $2,465,868   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($80)     $2,465,788   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($14)     $2,465,774   Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($52)     $2,465,722   Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                  ($19)     $2,465,703   Updated due to quarterly assessment and reallocation
                                                        Financial
             Harleysville National Bank
                                                        Instrument for
10/28/2009   & Trust Company,             Purchase                                 $1,070,000    N/A               4/21/2010           ($1,070,000)             —    Termination of SPA                                           $—             $—                   $—                     $—
                                                        Home Loan
             Harleysville, PA
                                                        Modifications
                                                        Financial
             Members Mortgage
                                                        Instrument for
10/28/2009   Company, Inc,                Purchase                                  $510,000     N/A               4/21/2010            ($510,000)              —    Termination of SPA                                           $—             $—                   $—                     $—
                                                        Home Loan
             Woburn, MA
                                                        Modifications
                                                                                                                   1/22/2010               $10,000        $80,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010               $10,000        $90,000    Updated portfolio data from servicer

                                                        Financial                                                  7/14/2010               $10,000       $100,000    Updated portfolio data from servicer
             DuPage Credit Union,                       Instrument for
10/30/2009                                Purchase                                    $70,000    N/A               9/30/2010               $45,056       $145,056    Updated portfolio data from servicer                      $6,028       $26,847            $11,328                  $44,204
             Naperville, IL                             Home Loan
                                                        Modifications                                              6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)
             Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                      TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                               1/22/2010               $40,000       $740,000    Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010               $50,000       $790,000    Updated portfolio data from servicer
                                                                                                               7/14/2010            $1,310,000     $2,100,000    Updated portfolio data from servicer
                                                                                                               9/30/2010               $75,834     $2,175,834    Updated portfolio data from servicer
                                                                                                                1/6/2011                   ($3)    $2,175,831    Updated portfolio data from servicer
                                                    Financial
             Los Alamos National                    Instrument for                                             3/30/2011                   ($4)    $2,175,827    Updated due to quarterly assessment and reallocation
11/6/2009                             Purchase                                  $700,000     N/A                                                                                                                          $15,638     $29,028            $32,351                  $77,016
             Bank, Los Alamos, NM                   Home Loan                                                  6/29/2011                  ($35)    $2,175,792    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                               6/28/2012                  ($26)    $2,175,766    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012                  ($70)    $2,175,696    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012                  ($12)    $2,175,684    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                  ($45)    $2,175,639    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                  ($17)    $2,175,622    Updated due to quarterly assessment and reallocation
                                                                                                               1/22/2010             $890,000     $19,850,000    Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010            $3,840,000    $23,690,000    Updated portfolio data from servicer
                                                                                                               7/14/2010           ($2,890,000)   $20,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010            $9,661,676    $30,461,676    Updated portfolio data from servicer
                                                                                                                1/6/2011                  ($46)   $30,461,630    Updated portfolio data from servicer
                                                                                                               1/13/2011            $1,600,000    $32,061,630    Transfer of cap due to servicing transfer
                                                                                                               2/16/2011            $1,400,000    $33,461,630    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011                  ($58)   $33,461,572    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011             $100,000     $33,561,572    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011             $100,000     $33,661,572    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011             $800,000     $34,461,572    Transfer of cap due to servicing transfer

                                                    Financial                                                  6/29/2011                 ($559)   $34,461,013    Updated due to quarterly assessment and reallocation
             Quantum Servicing                      Instrument for
11/18/2009                            Purchase                               $18,960,000     N/A               7/14/2011             $300,000     $34,761,013    Transfer of cap due to servicing transfer               $134,393    $335,508           $183,984                $653,885
             Corporation, Tampa, FL                 Home Loan
                                                    Modifications                                              8/16/2011             $200,000     $34,961,013    Transfer of cap due to servicing transfer
                                                                                                               9/15/2011             $100,000     $35,061,013    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012             $100,000     $35,161,013    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012             $330,000     $35,491,013    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                 ($428)   $35,490,585    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012               ($1,184)   $35,489,401    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012           ($1,910,000)   $33,579,401    Transfer of cap due to servicing transfer
                                                                                                              11/15/2012            ($980,000)    $32,599,401    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012                 ($187)   $32,599,214    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                 ($707)   $32,598,507    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013            ($240,000)    $32,358,507    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                 ($268)   $32,358,239    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                              339
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                 (continued)                                                                                                                                                                                             340
             Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                      TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                  1/22/2010               $80,000     $1,750,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010             $330,000      $2,080,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010           ($1,080,000)    $1,000,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010             $160,445      $1,160,445    Updated portfolio data from servicer
                                                                                                                   1/6/2011                   ($1)    $1,160,444    Updated portfolio data from servicer
                                                       Financial
             Hillsdale County National                                                                            3/30/2011                   ($2)    $1,160,442    Updated due to quarterly assessment and reallocation
                                                       Instrument for
11/18/2009   Bank,                       Purchase                                 $1,670,000    N/A                                                                                                                          $26,420     $34,119            $50,400                $110,939
                                                       Home Loan                                                  6/29/2011                  ($16)    $1,160,426    Updated due to quarterly assessment and reallocation
             Hillsdale, MI
                                                       Modifications
                                                                                                                  6/28/2012                  ($12)    $1,160,414    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                  ($33)    $1,160,381    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                   ($6)    $1,160,375    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                  ($21)    $1,160,354    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                   ($8)    $1,160,346    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2010              ($10,000)       $10,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I July 24, 2013




                                                                                                                  7/14/2010               $90,000       $100,000    Updated portfolio data from servicer

                                                       Financial                                                  9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
             QLending, Inc.,                           Instrument for
11/18/2009                               Purchase                                    $20,000    N/A               6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
             Coral Gables, FL                          Home Loan
                                                       Modifications                                              6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)
             Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                      TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                               1/22/2010             $950,000     $21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010       ($17,880,000)       $3,430,000    Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from CitiMortgage, Inc. due to
                                                                                                               6/16/2010            $1,030,000     $4,460,000
                                                                                                                                                                 servicing transfer
                                                                                                               7/14/2010           ($1,160,000)    $3,300,000    Updated portfolio data from servicer
                                                                                                               8/13/2010             $800,000      $4,100,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010             $200,000      $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                               9/30/2010            $1,357,168     $5,657,168    Updated portfolio data from servicer
                                                                                                                1/6/2011                   ($1)    $5,657,167    Updated portfolio data from servicer
                                                                                                               3/16/2011            $5,700,000    $11,357,167    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011                   ($6)   $11,357,161    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011            $7,300,000    $18,657,161    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011             $300,000     $18,957,161    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011             $900,000     $19,857,161    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011                 ($154)   $19,857,007    Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011             $100,000     $19,957,007    Transfer of cap due to servicing transfer
                                                    Financial                                                  8/16/2011             $300,000     $20,257,007    Transfer of cap due to servicing transfer
             Marix Servicing, LLC,                  Instrument for
11/25/2009                            Purchase                               $20,360,000     N/A                                                                                                                         $352,196    $970,197           $839,633               $2,162,025
             Phoenix, AZ                            Home Loan                                                  1/13/2012           ($1,500,000)   $18,757,007    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                               2/16/2012           ($2,100,000)   $16,657,007    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012           ($1,300,000)   $15,357,007    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012           ($8,350,000)    $7,007,007    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                  ($38)    $7,006,969    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012              ($90,000)    $6,916,969    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                 ($103)    $6,916,866    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012           ($1,020,000)    $5,896,866    Transfer of cap due to servicing transfer
                                                                                                              11/15/2012             $170,000      $6,066,866    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012                  ($15)    $6,066,851    Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013            ($100,000)     $5,966,851    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013            ($490,000)     $5,476,851    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013                  ($61)    $5,476,790    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013              ($10,000)    $5,466,790    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013              ($30,000)    $5,436,790    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013              ($10,000)    $5,426,790    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                  ($23)    $5,426,767    Updated due to quarterly assessment and reallocation
                                                    Financial
             Home Financing Center,                 Instrument for
11/25/2009                            Purchase                                  $230,000     N/A               4/21/2010            ($230,000)              —    Termination of SPA                                           $—           $—                   $—                     $—
             Inc, Coral Gables, FL                  Home Loan
                                                    Modifications
                                                                                                               1/22/2010               $50,000     $1,330,000    Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010            $1,020,000     $2,350,000    Updated portfolio data from servicer
                                                                                                               7/14/2010            ($950,000)     $1,400,000    Updated portfolio data from servicer

                                                    Financial                                                  9/30/2010               $50,556     $1,450,556    Updated portfolio data from servicer
             First Keystone Bank,                   Instrument for
11/25/2009                            Purchase                                 $1,280,000    N/A       12       1/6/2011                   ($2)    $1,450,554    Updated portfolio data from servicer                      $2,776       $3,423             $8,718                 $14,917
             Media, PA                              Home Loan
                                                    Modifications                                              3/30/2011                   ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                               6/16/2011            ($100,000)     $1,350,552    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 24, 2013




                                                                                                               6/29/2011                  ($21)    $1,350,531    Updated due to quarterly assessment and reallocation
                                                                                                               7/22/2011           ($1,335,614)       $14,917    Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              341
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)                                                                                                                                                                                             342
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                1/22/2010               $10,000       $390,000    Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010             $520,000        $910,000    Updated portfolio data from servicer
                                                                                                                7/14/2010            ($810,000)       $100,000    Updated portfolio data from servicer
                                                     Financial
            Community Bank & Trust                                                                              9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
                                                     Instrument for
12/4/2009   Company,                   Purchase                                  $380,000     N/A                                                                                                                              $—           $—                   $—                     $—
                                                     Home Loan                                                  6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Clarks Summit, PA
                                                     Modifications
                                                                                                                6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                1/22/2010             $440,000      $9,870,000    Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010           $14,480,000    $24,350,000    Updated portfolio data from servicer
                                                                                                                5/26/2010       ($24,200,000)         $150,000    Updated portfolio data from servicer
                                                                                                                7/14/2010             $150,000        $300,000    Updated portfolio data from servicer

                                                     Financial                                                  9/30/2010               ($9,889)      $290,111    Updated portfolio data from servicer
            Idaho Housing and
                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 24, 2013




                                                     Instrument for
12/4/2009   Finance Association,       Purchase                                 $9,430,000    N/A               6/29/2011                   ($3)      $290,108    Updated due to quarterly assessment and reallocation     $18,411     $20,806            $27,539                  $66,756
                                                     Home Loan
            Boise, ID
                                                     Modifications                                              6/28/2012                   ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($6)      $290,100    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($1)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($3)      $290,096    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($1)      $290,095    Updated due to quarterly assessment and reallocation
                                                                                                                1/22/2010               $10,000       $370,000    Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010             $850,000      $1,220,000    Updated portfolio data from servicer

                                                     Financial                                                  7/14/2010            ($120,000)     $1,100,000    Updated portfolio data from servicer
            Spirit of Alaska Federal
                                                     Instrument for
12/9/2009   Credit Union,              Purchase                                  $360,000     N/A               9/30/2010             $100,000      $1,200,000    Initial FHA-HAMP cap                                         $—           $—                   $—                     $—
                                                     Home Loan
            Fairbanks, AK
                                                     Modifications                                              9/30/2010             $105,500      $1,305,500    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($2)    $1,305,498    Updated portfolio data from servicer
                                                                                                                2/17/2011           ($1,305,498)             —    Termination of SPA
                                                                                                                1/22/2010               $70,000     $1,660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010            ($290,000)     $1,370,000    Updated portfolio data from servicer
                                                                                                                7/14/2010            ($570,000)       $800,000    Updated portfolio data from servicer
                                                     Financial
            American Eagle Federal                                                                              9/30/2010               $70,334       $870,334    Updated portfolio data from servicer
                                                     Instrument for
12/9/2009   Credit Union,              Purchase                                 $1,590,000    N/A                                                                                                                              $—           $—                   $—                     $—
                                                     Home Loan                                                   1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer
            East Hartford, CT
                                                     Modifications
                                                                                                                3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011                  ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                1/25/2012            ($870,319)              —    Termination of SPA
                                                                                                                1/22/2010               $90,000     $1,970,000    Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010            $1,110,000     $3,080,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($1,180,000)    $1,900,000    Updated portfolio data from servicer
                                                                                                                9/30/2010             $275,834      $2,175,834    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($2)    $2,175,832    Updated portfolio data from servicer
                                                     Financial
            Silver State Schools                                                                                3/30/2011                   ($3)    $2,175,829    Updated due to quarterly assessment and reallocation
                                                     Instrument for
12/9/2009   Credit Union,              Purchase                                 $1,880,000    N/A                                                                                                                          $40,356    $176,299            $69,189                $285,844
                                                     Home Loan                                                  6/29/2011                  ($26)    $2,175,803    Updated due to quarterly assessment and reallocation
            Las Vegas, NV
                                                     Modifications
                                                                                                                6/28/2012                  ($21)    $2,175,782    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($57)    $2,175,725    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                  ($10)    $2,175,715    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($37)    $2,175,678    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                  ($15)    $2,175,663    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                      TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                              1/22/2010             $140,000      $3,080,000    Updated HPDP cap & HAFA initial cap
                                                                                                              3/26/2010            $6,300,000     $9,380,000    Updated portfolio data from servicer
                                                                                                              7/14/2010           ($1,980,000)    $7,400,000    Updated portfolio data from servicer
                                                                                                              9/30/2010           ($6,384,611)    $1,015,389    Updated portfolio data from servicer
                                                                                                               1/6/2011                   ($1)    $1,015,388    Updated portfolio data from servicer
                                                   Financial
            Fidelity Homestead                                                                                3/30/2011                   ($2)    $1,015,386    Updated due to quarterly assessment and reallocation
                                                   Instrument for
12/9/2009   Savings Bank,            Purchase                                 $2,940,000    N/A                                                                                                                              $—           $—              $2,400                  $2,400
                                                   Home Loan                                                  6/29/2011                  ($16)    $1,015,370    Updated due to quarterly assessment and reallocation
            New Orleans, LA
                                                   Modifications
                                                                                                              6/28/2012                  ($12)    $1,015,358    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012                  ($32)    $1,015,326    Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012                   ($5)    $1,015,321    Updated due to quarterly assessment and reallocation
                                                                                                              3/25/2013                  ($21)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                                                                              6/27/2013                   ($8)    $1,015,292    Updated due to quarterly assessment and reallocation
                                                                                                              1/22/2010               $10,000       $240,000    Updated HPDP cap & HAFA initial cap

                                                   Financial                                                  3/26/2010             $440,000        $680,000    Updated portfolio data from servicer
            Bay Gulf Credit Union,                 Instrument for
12/9/2009                            Purchase                                  $230,000     N/A               7/14/2010              ($80,000)      $600,000    Updated portfolio data from servicer                         $—           $—                   $—                     $—
            Tampa, FL                              Home Loan
                                                   Modifications                                              9/30/2010              ($19,778)      $580,222    Updated portfolio data from servicer
                                                                                                             10/15/2010            ($580,222)              —    Termination of SPA
                                                                                                              1/22/2010             $290,000      $6,450,000    Updated HPDP cap & HAFA initial cap
                                                                                                              3/26/2010               $40,000     $6,490,000    Updated portfolio data from servicer
                                                                                                              7/14/2010           ($2,890,000)    $3,600,000    Updated portfolio data from servicer
                                                                                                              9/30/2010             $606,612      $4,206,612    Updated portfolio data from servicer
                                                                                                               1/6/2011                   ($4)    $4,206,608    Updated portfolio data from servicer
                                                   Financial
            The Golden 1 Credit                    Instrument for                                             3/30/2011                   ($4)    $4,206,604    Updated due to quarterly assessment and reallocation
12/9/2009                            Purchase                                 $6,160,000    N/A                                                                                                                         $247,661    $789,092           $479,554               $1,516,307
            Union, Sacramento, CA                  Home Loan                                                  6/29/2011                  ($35)    $4,206,569    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                              6/28/2012                   ($9)    $4,206,560    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012                  ($14)    $4,206,546    Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012                   ($2)    $4,206,544    Updated due to quarterly assessment and reallocation
                                                                                                              3/25/2013                   ($8)    $4,206,536    Updated due to quarterly assessment and reallocation
                                                                                                              6/27/2013                   ($4)    $4,206,532    Updated due to quarterly assessment and reallocation
                                                                                                              1/22/2010             $100,000      $2,350,000    Updated HPDP cap & HAFA initial cap
                                                                                                              3/26/2010            ($740,000)     $1,610,000    Updated portfolio data from servicer
                                                                                                              7/14/2010            ($710,000)       $900,000    Updated portfolio data from servicer
                                                                                                              9/30/2010             $550,556      $1,450,556    Updated portfolio data from servicer

                                                   Financial                                                   1/6/2011                   ($1)    $1,450,555    Updated portfolio data from servicer
            Sterling Savings Bank,                 Instrument for
12/9/2009                            Purchase                                 $2,250,000    N/A               3/30/2011                   ($1)    $1,450,554    Updated due to quarterly assessment and reallocation    $142,253    $301,446           $259,296                $702,995
            Spokane, WA                            Home Loan
                                                   Modifications                                              6/29/2011                  ($11)    $1,450,543    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012               $30,907     $1,481,450    Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012               $58,688     $1,540,138    Updated due to quarterly assessment and reallocation
                                                                                                              3/25/2013             $235,175      $1,775,313    Updated due to quarterly assessment and reallocation
                                                                                                              6/27/2013               $84,191     $1,859,504    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                             343
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)                                                                                                                                                                                             344
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                 1/22/2010               $20,000       $330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010             $820,000      $1,150,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($350,000)       $800,000    Updated portfolio data from servicer

                                                      Financial                                                  9/30/2010               $70,334       $870,334    Updated portfolio data from servicer
             HomeStar Bank &
                                                      Instrument for
12/11/2009   Financial Services,        Purchase                                  $310,000     N/A       12       1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer                      $1,917       $5,573             $5,833                 $13,323
                                                      Home Loan
             Manteno, IL
                                                      Modifications                                              3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011                  ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012                  ($10)      $870,309    Updated due to quarterly assessment and reallocation
                                                                                                                  7/6/2012            ($856,986)        $13,323    Termination of SPA

                                                      Financial                                                  1/22/2010               $20,000       $390,000    Updated HPDP cap & HAFA initial cap
             Glenview State Bank,                     Instrument for
12/11/2009                              Purchase                                  $370,000     N/A               3/26/2010            $1,250,000     $1,640,000    Updated portfolio data from servicer                         $—           $—                   $—                     $—
             Glenview, IL                             Home Loan
                                                      Modifications                                              5/26/2010           ($1,640,000)             —    Termination of SPA
                                                                                                                 1/22/2010               $30,000       $630,000    Updated HPDP cap & HAFA initial cap
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 24, 2013




                                                                                                                 3/26/2010             $400,000      $1,030,000    Updated portfolio data from servicer
                                                      Financial
             Verity Credit Union,                     Instrument for                                             7/14/2010            ($330,000)       $700,000    Updated portfolio data from servicer
12/11/2009                              Purchase                                  $600,000     N/A                                                                                                                              $—           $—                   $—                     $—
             Seattle, WA                              Home Loan                                                  9/30/2010               $25,278       $725,278    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                  1/6/2011                   ($1)      $725,277    Updated portfolio data from servicer
                                                                                                                 2/17/2011            ($725,277)              —    Termination of SPA
                                                                                                                 1/22/2010               $30,000       $660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010             $800,000      $1,460,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010            ($360,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010               $60,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($2)    $1,160,443    Updated portfolio data from servicer
                                                      Financial
             Hartford Savings Bank,                   Instrument for                                             3/30/2011                   ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
12/11/2009                              Purchase                                  $630,000     N/A                                                                                                                              $—           $—                   $—                     $—
             Hartford, WI                             Home Loan                                                  6/29/2011                  ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                 6/28/2012                  ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                  ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                      Financial                                                  4/21/2010            ($150,000)              —    Termination of SPA
             The Bryn Mawr Trust Co.,                 Instrument for
12/11/2009                              Purchase                                  $150,000     N/A       9                                                                                                                   $8,137     $11,652              $8,436                 $28,225
             Bryn Mawr, PA                            Home Loan                                                  6/16/2011             $100,000        $100,000    Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                 1/22/2010               $30,000       $650,000    Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010            ($580,000)        $70,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010            $1,430,000     $1,500,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010               $95,612     $1,595,612    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($2)    $1,595,610    Updated portfolio data from servicer
                                                      Financial
             Citizens First National                  Instrument for                                             3/30/2011                   ($3)    $1,595,607    Updated due to quarterly assessment and reallocation
12/16/2009                              Purchase                                  $620,000     N/A                                                                                                                          $19,063     $49,277            $38,730                $107,070
             Bank, Spring Valley, IL                  Home Loan                                                  6/29/2011                  ($24)    $1,595,583    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                 6/28/2012                  ($16)    $1,595,567    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                  ($45)    $1,595,522    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($8)    $1,595,514    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($30)    $1,595,484    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                  ($11)    $1,595,473    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                 (continued)
             Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                      TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                  1/22/2010               $10,000       $180,000    Updated HPDP cap & HAFA initial cap

                                                       Financial                                                  3/26/2010               $30,000       $210,000    Updated portfolio data from servicer
             Golden Plains Credit                      Instrument for
12/16/2009                               Purchase                                  $170,000     N/A               7/14/2010              ($10,000)      $200,000    Updated portfolio data from servicer                         $—           $—                   $—                     $—
             Union, Garden City, KS                    Home Loan
                                                       Modifications                                              9/30/2010               $90,111       $290,111    Updated portfolio data from servicer
                                                                                                                  2/17/2011            ($290,111)              —    Termination of SPA
             First Federal Savings                     Financial                                                  1/22/2010             $160,000      $3,620,000    Updated HPDP cap & HAFA initial cap
             and Loan Association of                   Instrument for
12/16/2009                               Purchase                                 $3,460,000    N/A                                                                                                                              $—           $—                   $—                     $—
             Lakewood,                                 Home Loan                                                  4/21/2010           ($3,620,000)             —    Termination of SPA
             Lakewood, OH                              Modifications
                                                                                                                  1/22/2010               $20,000       $460,000    Updated HPDP cap & HAFA initial cap
                                                       Financial
             Sound Community Bank,                     Instrument for                                             3/26/2010            $1,430,000     $1,890,000    Updated portfolio data from servicer
12/16/2009                               Purchase                                  $440,000     N/A                                                                                                                              $—           $—                   $—                     $—
             Seattle, WA                               Home Loan                                                  7/14/2010            ($390,000)     $1,500,000    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                   9/8/2010           ($1,500,000)             —    Termination of SPA
                                                                                                                  1/22/2010               $30,000       $730,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010            $1,740,000     $2,470,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010           ($1,870,000)      $600,000    Updated portfolio data from servicer

                                                       Financial                                                  9/30/2010             $850,556      $1,450,556    Updated portfolio data from servicer
             Horizon Bank, NA,                         Instrument for
12/16/2009                               Purchase                                  $700,000     N/A                1/6/2011                   ($2)    $1,450,554    Updated portfolio data from servicer                         $—           $—                   $—                     $—
             Michigan City, IN                         Home Loan
                                                       Modifications                                              3/30/2011                   ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                  ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                  ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
                                                                                                                  9/21/2012           ($1,450,512)             —    Termination of SPA
                                                                                                                  1/22/2010               $40,000       $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010             $140,000        $940,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($140,000)       $800,000    Updated portfolio data from servicer

                                                       Financial                                                  9/30/2010               $70,334       $870,334    Updated portfolio data from servicer
             Park View Federal Savings
                                                       Instrument for
12/16/2009   Bank,                       Purchase                                  $760,000     N/A       12       1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer                     $11,000     $23,937            $19,000                  $53,937
                                                       Home Loan
             Solon, OH
                                                       Modifications                                              3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                  ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                  ($10)      $870,310    Updated due to quarterly assessment and reallocation
                                                                                                                  9/14/2012            ($816,373)        $53,937    Termination of SPA
                                                                                                                  1/22/2010             $200,000      $4,430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010           ($1,470,000)    $2,960,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010           ($1,560,000)    $1,400,000    Updated portfolio data from servicer
                                                       Financial
             Iberiabank,                               Instrument for                                             9/30/2010            $5,852,780     $7,252,780    Updated portfolio data from servicer
12/23/2009                               Purchase                                 $4,230,000    N/A       12                                                                                                                     $—      $10,502            $15,000                  $25,502
             Sarasota, FL                              Home Loan                                                   1/6/2011                  ($11)    $7,252,769    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                  3/30/2011                  ($13)    $7,252,756    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011            ($300,000)     $6,952,756    Transfer of cap due to servicing transfer
                                                                                                                   6/3/2011           ($6,927,254)       $25,502    Termination of SPA
                                                                                                                  1/22/2010               $20,000       $360,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010            ($320,000)        $40,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010             $760,000        $800,000    Updated portfolio data from servicer
                                                       Financial
             Grafton Suburban Credit                                                                              9/30/2010              ($74,722)      $725,278    Updated portfolio data from servicer
                                                       Instrument for
12/23/2009   Union,                      Purchase                                  $340,000     N/A                                                                                                                              $—           $—                   $—                     $—
                                                       Home Loan                                                   1/6/2011                   ($1)      $725,277    Updated portfolio data from servicer
             North Grafton, MA
                                                       Modifications
                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 24, 2013




                                                                                                                  3/30/2011                   ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                  ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                  1/25/2012            ($725,265)              —    Termination of SPA
                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 345
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)                                                                                                                                                                                           346
             Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                    TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                           Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                               3/26/2010             $90,000       $150,000    Updated portfolio data from servicer
                                                    Financial
             Eaton National Bank &                                                                             7/14/2010             $50,000       $200,000    Updated portfolio data from servicer
                                                    Instrument for
12/23/2009   Trust Company,           Purchase                                    $60,000    N/A                                                                                                                            $—           $—                   $—                     $—
                                                    Home Loan                                                  9/30/2010            ($54,944)      $145,056    Updated portfolio data from servicer
             Eaton, OH
                                                    Modifications
                                                                                                               5/20/2011           ($145,056)             —    Termination of SPA
                                                                                                               3/26/2010            ($20,000)       $90,000    Updated portfolio data from servicer
                                                    Financial
             Tempe Schools Credit                   Instrument for                                             7/14/2010             $10,000       $100,000    Updated portfolio data from servicer
12/23/2009                            Purchase                                  $110,000     N/A                                                                                                                            $—           $—                   $—                     $—
             Union, Tempe, AZ                       Home Loan                                                  9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
                                                    Modifications
                                                                                                               12/8/2010           ($145,056)             —    Termination of SPA
                                                                                                               3/26/2010            $480,000       $740,000    Updated portfolio data from servicer
                                                                                                               7/14/2010           ($140,000)      $600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010            ($19,778)      $580,222    Updated portfolio data from servicer
                                                    Financial
             Fresno County Federal                                                                              1/6/2011                 ($1)      $580,221    Updated portfolio data from servicer
                                                    Instrument for
1/13/2010    Credit Union,            Purchase                                  $260,000     N/A       12                                                                                                                $3,833     $13,204              $7,917                 $24,954
                                                    Home Loan                                                  3/30/2011                 ($1)      $580,220    Updated due to quarterly assessment and reallocation
             Fresno, CA
                                                    Modifications
                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I July 24, 2013




                                                                                                               6/29/2011                 ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012                 ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                7/6/2012           ($555,252)       $24,954    Termination of SPA
                                                                                                               3/26/2010            $610,000       $850,000    Updated portfolio data from servicer

                                                    Financial                                                  7/14/2010             $50,000       $900,000    Updated portfolio data from servicer
             Roebling Bank,                         Instrument for
1/13/2010                             Purchase                                  $240,000     N/A               9/30/2010            ($29,666)      $870,334    Updated portfolio data from servicer                         $—           $—                   $—                     $—
             Roebling, NJ                           Home Loan
                                                    Modifications                                               1/6/2011                 ($1)      $870,333    Updated portfolio data from servicer
                                                                                                               3/23/2011           ($870,333)             —    Termination of SPA
                                                                                                               3/26/2010            $150,000       $290,000    Updated portfolio data from servicer
                                                    Financial
             First National Bank of                                                                            7/14/2010             $10,000       $300,000    Updated portfolio data from servicer
                                                    Instrument for
1/13/2010    Grant Park,              Purchase                                  $140,000     N/A                                                                                                                            $—           $—                   $—                     $—
                                                    Home Loan                                                  9/30/2010             ($9,889)      $290,111    Updated portfolio data from servicer
             Grant Park, IL
                                                    Modifications
                                                                                                               1/26/2011           ($290,111)             —    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                      TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                              3/26/2010       ($51,240,000)       $12,910,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due to
                                                                                                              5/14/2010            $3,000,000     $15,910,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due to
                                                                                                              6/16/2010            $4,860,000     $20,770,000
                                                                                                                                                                servicing transfer
                                                                                                              7/14/2010            $3,630,000     $24,400,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due to
                                                                                                              7/16/2010             $330,000      $24,730,000
                                                                                                                                                                servicing transfer
                                                                                                              8/13/2010             $700,000      $25,430,000   Transfer of cap due to servicing transfer
                                                                                                              9/15/2010             $200,000      $25,630,000   Transfer of cap due to servicing transfer
                                                                                                              9/30/2010           ($1,695,826)    $23,934,174   Updated portfolio data from servicer
                                                                                                             11/16/2010             $200,000      $24,134,174   Transfer of cap due to servicing transfer
                                                                                                               1/6/2011                  ($32)    $24,134,142   Updated portfolio data from servicer
                                                                                                              1/13/2011            $1,500,000     $25,634,142   Transfer of cap due to servicing transfer
                                                                                                              3/16/2011            $7,100,000     $32,734,142   Transfer of cap due to servicing transfer
                                                                                                              3/30/2011                  ($36)    $32,734,106   Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011            $1,000,000     $33,734,106   Transfer of cap due to servicing transfer
                                                                                                              5/13/2011             $100,000      $33,834,106   Transfer of cap due to servicing transfer
                                                                                                              6/16/2011             $300,000      $34,134,106   Transfer of cap due to servicing transfer
                                                                                                              6/29/2011                 ($332)    $34,133,774   Updated due to quarterly assessment and reallocation
                                                                                                              8/16/2011             $100,000      $34,233,774   Transfer of cap due to servicing transfer
                                                                                                              9/15/2011             $300,000      $34,533,774   Transfer of cap due to servicing transfer

                                                   Financial                                                 10/14/2011             $300,000      $34,833,774   Transfer of cap due to servicing transfer
            Specialized Loan
                                                   Instrument for                                            12/15/2011           ($1,700,000)    $33,133,774   Transfer of cap due to servicing transfer
1/13/2010   Servicing, LLC,          Purchase                               $64,150,000     N/A                                                                                                                        $3,567,066   $6,464,576        $5,607,422            $15,639,064
                                                   Home Loan
            Highlands Ranch, CO
                                                   Modifications                                              1/13/2012            $1,600,000     $34,733,774   Transfer of cap due to servicing transfer
                                                                                                              2/16/2012             $100,000      $34,833,774   Transfer of cap due to servicing transfer
                                                                                                              3/15/2012             $100,000      $34,933,774   Transfer of cap due to servicing transfer
                                                                                                              4/16/2012           $77,600,000    $112,533,774   Transfer of cap due to servicing transfer
                                                                                                              5/16/2012               $40,000    $112,573,774   Transfer of cap due to servicing transfer
                                                                                                              6/14/2012            ($350,000)    $112,223,774   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012               ($1,058)   $112,222,716   Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012            $4,430,000    $116,652,716   Transfer of cap due to servicing transfer
                                                                                                              8/16/2012           ($1,280,000)   $115,372,716   Transfer of cap due to servicing transfer
                                                                                                              9/27/2012               ($3,061)   $115,369,655   Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012            $5,600,000    $120,969,655   Transfer of cap due to servicing transfer
                                                                                                             11/15/2012             $880,000     $121,849,655   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012           $24,180,000    $146,029,655   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012                 ($663)   $146,028,992   Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2013            $2,410,000    $148,438,992   Transfer of cap due to servicing transfer
                                                                                                              2/14/2013            $6,650,000    $155,088,992   Transfer of cap due to servicing transfer
                                                                                                              3/14/2013           ($1,450,000)   $153,638,992   Transfer of cap due to servicing transfer
                                                                                                              3/25/2013               ($2,584)   $153,636,408   Updated due to quarterly assessment and reallocation
                                                                                                              4/16/2013            ($750,000)    $152,886,408   Transfer of cap due to servicing transfer
                                                                                                              5/16/2013           ($1,250,000)   $151,636,408   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I July 24, 2013




                                                                                                              6/14/2013            $3,670,000    $155,306,408   Transfer of cap due to servicing transfer
                                                                                                              6/27/2013                 ($985)   $155,305,423   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             347
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)                                                                                                                                                                                             348
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                3/26/2010            $8,680,000     $9,450,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($8,750,000)      $700,000    Updated portfolio data from servicer
                                                                                                                9/30/2010             $170,334        $870,334    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer

                                                     Financial                                                  3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation
            Greater Nevada Mortgage
                                                     Instrument for
1/13/2010   Services,                  Purchase                                  $770,000     N/A               6/29/2011                   ($8)      $870,324    Updated due to quarterly assessment and reallocation     $54,684    $127,709            $90,224                $272,617
                                                     Home Loan
            Carson City, NV
                                                     Modifications                                              6/28/2012                   ($4)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($10)      $870,310    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($2)      $870,308    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($7)      $870,301    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($2)      $870,299    Updated due to quarterly assessment and reallocation
                                                     Financial                                                  3/26/2010           $12,190,000    $15,240,000    Updated portfolio data from servicer
            Digital Federal Credit
                                                     Instrument for
1/15/2010   Union, Marlborough, MA     Purchase                                 $3,050,000    N/A                                                                                                                              $—           $—                   $—                     $—
                                                     Home Loan                                                  5/14/2010       ($15,240,000)                —    Termination of SPA
                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 24, 2013




                                                     Modifications
                                                                                                                3/26/2010            ($730,000)       $230,000    Updated portfolio data from servicer
                                                                                                                7/14/2010             $370,000        $600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010             $200,000        $800,000    Initial FHA-HAMP cap and initial 2MP cap
                                                                                                                9/30/2010            ($364,833)       $435,167    Updated portfolio data from servicer
                                                                                                               11/16/2010             $100,000        $535,167    Transfer of cap due to servicing transfer

                                                     Financial                                                   1/6/2011                   ($1)      $535,166    Updated portfolio data from servicer
            iServe Residential
                                                     Instrument for
1/29/2010   Lending, LLC,              Purchase                                  $960,000     N/A               3/30/2011                   ($1)      $535,165    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
                                                     Home Loan
            San Diego, CA
                                                     Modifications                                              6/29/2011                   ($7)      $535,158    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($6)      $535,152    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($15)      $535,137    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($3)      $535,134    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($10)      $535,124    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($4)      $535,120    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2010             $160,000        $700,000    Updated portfolio data from servicer
                                                                                                                9/30/2010               $25,278       $725,278    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($1)      $725,277    Updated portfolio data from servicer
                                                                                                                3/30/2011                   ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                     Financial
                                                     Instrument for                                             6/29/2011                  ($11)      $725,265    Updated due to quarterly assessment and reallocation
1/29/2010   United Bank, Griffin, GA   Purchase                                  $540,000     N/A                                                                                                                           $2,000       $1,738             $5,600                  $9,338
                                                     Home Loan                                                  6/28/2012                   ($8)      $725,257    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                9/27/2012                  ($22)      $725,235    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($4)      $725,231    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($14)      $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($5)      $725,212    Updated due to quarterly assessment and reallocation
                                                     Financial                                                  7/14/2010            $4,440,000     $5,500,000    Updated portfolio data from servicer
            Urban Trust Bank,                        Instrument for
3/3/2010                               Purchase                                 $1,060,000    N/A                                                                                                                              $—           $—                   $—                     $—
            Lake Mary, FL                            Home Loan                                                  9/24/2010           ($5,500,000)             —    Termination of SPA
                                                     Modifications
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                 (continued)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                      TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                  5/26/2010             $120,000     $28,160,000    Initial 2MP cap
                                                                                                                  7/14/2010       ($12,660,000)      $15,500,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010             $100,000     $15,600,000    Initial FHA-HAMP cap
                                                                                                                  9/30/2010           ($3,125,218)   $12,474,782    Updated portfolio data from servicer
                                                                                                                 11/16/2010             $800,000     $13,274,782    Transfer of cap due to servicing transfer

                                                       Financial                                                   1/6/2011                  ($20)   $13,274,762    Updated portfolio data from servicer
            iServe Servicing, Inc.,                    Instrument for
3/5/2010                                 Purchase                               $28,040,000     N/A               3/30/2011                  ($24)   $13,274,738    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Irving, TX                                 Home Loan
                                                       Modifications                                              6/29/2011                 ($221)   $13,274,517    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                 ($169)   $13,274,348    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                 ($465)   $13,273,883    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                  ($78)   $13,273,805    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                 ($297)   $13,273,508    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                 ($112)   $13,273,396    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2010       ($44,880,000)      $15,900,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010            $1,071,505    $16,971,505    Updated portfolio data from servicer
                                                                                                                   1/6/2011                  ($23)   $16,971,482    Updated portfolio data from servicer
                                                                                                                  3/30/2011                  ($26)   $16,971,456    Updated due to quarterly assessment and reallocation
                                                       Financial
            Navy Federal Credit Union,                 Instrument for                                             6/29/2011                 ($238)   $16,971,218    Updated due to quarterly assessment and reallocation
3/10/2010                                Purchase                               $60,780,000     N/A                                                                                                                         $449,056    $1,046,409         $868,430               $2,363,895
            Vienna, VA                                 Home Loan                                                  6/28/2012                 ($145)   $16,971,073    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  9/27/2012                 ($374)   $16,970,699    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                  ($58)   $16,970,641    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                 ($199)   $16,970,442    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                  ($68)   $16,970,374    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2010             $400,000        $700,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010               $25,278       $725,278    Updated portfolio data from servicer
                                                                                                                   1/6/2011                   ($1)      $725,277    Updated portfolio data from servicer
                                                                                                                  3/30/2011                   ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                       Financial
            VIST Financial Corp,                       Instrument for                                             6/29/2011                  ($11)      $725,265    Updated due to quarterly assessment and reallocation
3/10/2010                                Purchase                                  $300,000     N/A                                                                                                                              $—           $—                   $—                     $—
            Wyomissing, PA                             Home Loan                                                  6/28/2012                   ($8)      $725,257    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  9/27/2012                  ($22)      $725,235    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                   ($4)      $725,231    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                  ($14)      $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                   ($5)      $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2010             $300,000        $600,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010              ($19,778)      $580,222    Updated portfolio data from servicer
                                                       Financial
            Midwest Bank and Trust                     Instrument for                                              1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
4/14/2010                                Purchase                                  $300,000     N/A                                                                                                                              $—           $—                   $—                     $—
            Co., Elmwood Park, IL                      Home Loan                                                  3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  6/29/2011                   ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011            ($580,212)              —    Termination of SPA
                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                 349
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)                                                                                                                                                                                             350
            Servicer Modifying Borrowers’ Loans                                                               Adjustment Details                                                                                                      TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                               7/14/2010            ($150,000)     $6,400,000    Updated portfolio data from servicer
                                                                                                               9/15/2010            $1,600,000     $8,000,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010           ($4,352,173)    $3,647,827    Updated portfolio data from servicer
                                                                                                                1/6/2011                   ($5)    $3,647,822    Updated portfolio data from servicer
                                                                                                               3/30/2011                   ($6)    $3,647,816    Updated due to quarterly assessment and reallocation
                                                    Financial
            Wealthbridge Mortgage                   Instrument for                                             4/13/2011           ($3,000,000)      $647,816    Transfer of cap due to servicing transfer
4/14/2010                             Purchase                                 $6,550,000    N/A                                                                                                                              $—           $—                   $—                     $—
            Corp, Beaverton, OR                     Home Loan                                                  6/29/2011                   ($9)      $647,807    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                               6/28/2012                   ($7)      $647,800    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012                  ($19)      $647,781    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012                   ($3)      $647,778    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                  ($12)      $647,766    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                   ($5)      $647,761    Updated due to quarterly assessment and reallocation
                                                                                                               5/26/2010               $30,000        $40,000    Updated FHA-HAMP cap
                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 24, 2013




                                                                                                               9/30/2010             $250,111        $290,111    Updated portfolio data from servicer
                                                                                                               6/29/2011               $59,889       $350,000    Updated due to quarterly assessment and reallocation
                                                    Financial
            Aurora Financial Group,                 Instrument for                                             6/28/2012                   ($2)      $349,998    Updated due to quarterly assessment and reallocation
5/21/2010                             Purchase                                    $10,000    N/A       4, 8                                                                                                               $24,689          $—            $27,844                  $52,533
            Inc., Marlton, NJ                       Home Loan                                                  9/27/2012                   ($5)      $349,993    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                              12/27/2012                   ($1)      $349,992    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                   ($3)      $349,989    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                   ($1)      $349,988    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Transfer of cap from CitiMortgage, Inc. due to
                                                                                                               6/16/2010            $3,680,000     $3,680,000
                                                                                                                                                                 servicing transfer
                                                                                                               8/13/2010            $3,300,000     $6,980,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010            $3,043,831    $10,023,831    Updated portfolio data from servicer
                                                                                                              10/15/2010            $1,400,000    $11,423,831    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011                  ($17)   $11,423,814    Updated portfolio data from servicer
                                                                                                               3/16/2011            $2,100,000    $13,523,814    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011                  ($24)   $13,523,790    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011            $2,900,000    $16,423,790    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011            ($200,000)    $16,223,790    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011                 ($273)   $16,223,517    Updated due to quarterly assessment and reallocation
                                                                                                              10/14/2011             $100,000     $16,323,517    Transfer of cap due to servicing transfer
                                                    Financial                                                 11/16/2011            $1,100,000    $17,423,517    Transfer of cap due to servicing transfer
            Selene Finance LP,                      Instrument for
6/16/2010                             Purchase                                        $—     N/A       9                                                                                                                  $60,188    $160,931            $82,484                $303,603
            Houston, TX                             Home Loan                                                  4/16/2012             $200,000     $17,623,517    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                               5/16/2012               $10,000    $17,633,517    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012            ($300,000)    $17,333,517    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                 ($218)   $17,333,299    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012               $40,000    $17,373,299    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012             $480,000     $17,853,299    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                 ($600)   $17,852,699    Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012               $70,000    $17,922,699    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012                 ($102)   $17,922,597    Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2013               $90,000    $18,012,597    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013                 ($384)   $18,012,213    Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013              ($30,000)   $17,982,213    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                 ($146)   $17,982,067    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                  (continued)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                      TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                   9/30/2010            $1,585,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($4)    $2,465,941    Updated portfolio data from servicer
                                                        Financial
            Suburban Mortgage                                                                                      3/30/2011                   ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                        Instrument for
8/4/2010    Company of New Mexico,        Purchase                                  $880,000     N/A                                                                                                                              $—           $—                   $—                     $—
                                                        Home Loan                                                  6/29/2011                  ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
            Albuquerque, NM
                                                        Modifications
                                                                                                                   6/28/2012                  ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                                                                                   8/10/2012           ($2,465,867)             —    Termination of SPA
                                                                                                                   9/30/2010            $1,040,667     $1,740,667    Updated portfolio data from servicer

                                                        Financial                                                   1/6/2011                   ($2)    $1,740,665    Updated portfolio data from servicer
            Bramble Savings Bank,                       Instrument for
8/20/2010                                 Purchase                                  $700,000     N/A               3/30/2011                   ($3)    $1,740,662    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Cincinnati, OH                              Home Loan
                                                        Modifications                                              6/29/2011                  ($28)    $1,740,634    Updated due to quarterly assessment and reallocation
                                                                                                                   8/10/2011           ($1,740,634)             —    Termination of SPA
                                                                                                                   9/30/2010            $2,181,334     $3,481,334    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($5)    $3,481,329    Updated portfolio data from servicer
                                                                                                                   3/30/2011                   ($6)    $3,481,323    Updated due to quarterly assessment and reallocation

                                                        Financial                                                  6/29/2011                  ($58)    $3,481,265    Updated due to quarterly assessment and reallocation
            Pathfinder Bank,                            Instrument for
8/25/2010                                 Purchase                                 $1,300,000    N/A               6/28/2012                  ($43)    $3,481,222    Updated due to quarterly assessment and reallocation      $4,451       $6,144             $9,134                 $19,728
            Oswego, NY                                  Home Loan
                                                        Modifications                                              9/27/2012                 ($119)    $3,481,103    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($20)    $3,481,083    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($76)    $3,481,007    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                  ($29)    $3,480,978    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010            $7,014,337    $11,314,337    Updated portfolio data from servicer
                                                                                                                    1/6/2011                  ($17)   $11,314,320    Updated portfolio data from servicer
                                                                                                                   3/30/2011                  ($20)   $11,314,300    Updated due to quarterly assessment and reallocation

                                                        Financial                                                  6/29/2011                 ($192)   $11,314,108    Updated due to quarterly assessment and reallocation
            First Financial Bank, N.A.,                 Instrument for
8/27/2010                                 Purchase                                 $4,300,000    N/A               6/28/2012                 ($144)   $11,313,964    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Terre Haute, ID                             Home Loan
                                                        Modifications                                              9/27/2012                 ($396)   $11,313,568    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                  ($67)   $11,313,501    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                 ($253)   $11,313,248    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                  ($95)   $11,313,153    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                    1/6/2011               $34,944       $180,000    Updated portfolio data from servicer

                                                        Financial                                                  3/30/2011               $40,000       $220,000    Updated due to quarterly assessment and reallocation
            RBC Bank (USA),                             Instrument for
9/1/2010                                  Purchase                                  $100,000     N/A       4, 8    6/29/2011               $50,000       $270,000    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Raleigh, NC                                 Home Loan
                                                        Modifications                                              3/15/2012            ($200,000)        $70,000    Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012              ($10,000)       $60,000    Transfer of cap due to servicing transfer
                                                                                                                    4/9/2013              ($60,000)             —    Termination of SPA
                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                  351
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                 (continued)                                                                                                                                                                                            352
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                     TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                            Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                            Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                  9/30/2010            $5,168,169    $8,268,169    Updated portfolio data from servicer
                                                                                                                   1/6/2011                 ($12)    $8,268,157    Updated portfolio data from servicer
                                                                                                                  3/30/2011                 ($15)    $8,268,142    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011             $400,000     $8,668,142    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011                ($143)    $8,667,999    Updated due to quarterly assessment and reallocation
                                                                                                                  9/15/2011             $700,000     $9,367,999    Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011             $100,000     $9,467,999    Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011             $200,000     $9,667,999    Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011            $1,700,000   $11,367,999    Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012            $1,600,000   $12,967,999    Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012              $40,000    $13,007,999    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012            ($210,000)   $12,797,999    Transfer of cap due to servicing transfer
                                                       Financial
            Fay Servicing, LLC,                        Instrument for                                             6/28/2012                ($105)   $12,797,894    Updated due to quarterly assessment and reallocation
9/3/2010                                 Purchase                                 $3,100,000    N/A                                                                                                                        $597,866    $1,130,918         $598,485               $2,327,269
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 24, 2013




            Chicago, IL                                Home Loan                                                  7/16/2012              $50,000    $12,847,894    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                  8/16/2012              $90,000    $12,937,894    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012                ($294)   $12,937,600    Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012            $1,810,000   $14,747,600    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012                 ($61)   $14,747,539    Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2013              $30,000    $14,777,539    Transfer of cap due to servicing transfer
                                                                                                                  2/14/2013            ($590,000)   $14,187,539    Updated due to quarterly assessment and reallocation
                                                                                                                  3/14/2013             ($80,000)   $14,107,539    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013                ($214)   $14,107,325    Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2013             $200,000    $14,307,325    Transfer of cap due to servicing transfer
                                                                                                                  5/16/2013            $3,710,000   $18,017,325    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013            $1,760,000   $19,777,325    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013                 ($86)   $19,777,239    Updated due to quarterly assessment and reallocation
                                                                                                                  9/15/2010            $1,000,000    $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                  9/30/2010             $450,556     $1,450,556    Updated portfolio data from servicer
                                                                                                                   1/6/2011                  ($2)    $1,450,554    Updated portfolio data from servicer
                                                                                                                  2/16/2011            $3,000,000    $4,450,554    Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011           $10,200,000   $14,650,554    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011                 ($24)   $14,650,530    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                ($227)   $14,650,303    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011           $12,000,000   $26,650,303    Transfer of cap due to servicing transfer

                                                       Financial                                                 12/15/2011            $4,100,000   $30,750,303    Transfer of cap due to servicing transfer
            Vericrest Financial, Inc.,                 Instrument for
9/15/2010                                Purchase                                        $—     N/A       9       1/13/2012             $900,000    $31,650,303    Transfer of cap due to servicing transfer               $634,661    $1,835,853        $1,541,176              $4,011,690
            Oklahoma City, OK                          Home Loan
                                                       Modifications                                              4/16/2012             $300,000    $31,950,303    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012                ($266)   $31,950,037    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                ($689)   $31,949,348    Updated due to quarterly assessment and reallocation
                                                                                                                 11/15/2012             $720,000    $32,669,348    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012                ($114)   $32,669,234    Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2013            $8,020,000   $40,689,234    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013                ($591)   $40,688,643    Updated due to quarterly assessment and reallocation
                                                                                                                  5/16/2013             ($40,000)   $40,648,643    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013                ($223)   $40,648,420    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                 9/30/2010             $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
                                                                                                                 3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation

                                                      Financial                                                  6/29/2011                   ($8)      $580,212    Updated due to quarterly assessment and reallocation
            Midwest Community Bank,                   Instrument for
9/15/2010                               Purchase                                  $400,000     N/A               6/28/2012                   ($6)      $580,206    Updated due to quarterly assessment and reallocation      $1,000       $1,818             $2,000                  $4,818
            Freeport, IL                              Home Loan
                                                      Modifications                                              9/27/2012                  ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                      Financial                                                  9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
            American Finance House
                                                      Instrument for
9/24/2010   LARIBA,                     Purchase                                  $100,000     N/A                                                                                                                              $—           $—                   $—                     $—
                                                      Home Loan                                                   2/2/2011            ($145,056)              —    Termination of SPA
            Pasadena, CA
                                                      Modifications

                                                      Financial                                                  9/30/2010             $856,056      $2,756,056    Updated portfolio data from servicer
            Centrue Bank,                             Instrument for
9/24/2010                               Purchase                                 $1,900,000    N/A                1/6/2011                   ($4)    $2,756,052    Updated portfolio data from servicer                         $—           $—                   $—                     $—
            Ottawa, CA                                Home Loan
                                                      Modifications                                               3/9/2011           ($2,756,052)             —    Termination of SPA
                                                      Financial                                                  9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit Bank,
                                                      Instrument for
9/30/2010   Columbia, SC                Purchase                                  $100,000     N/A                                                                                                                              $—           $—                   $—                     $—
                                                      Home Loan                                                  3/23/2011            ($145,056)              —    Termination of SPA
                                                      Modifications
                                                                                                                 9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                      Financial                                                  6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Amarillo National Bank,                   Instrument for
9/30/2010                               Purchase                                  $100,000     N/A       4, 8    6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Amarillo, TX                              Home Loan
                                                      Modifications                                              9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                      Financial                                                  6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            American Financial
                                                      Instrument for
9/30/2010   Resources Inc.,             Purchase                                  $100,000     N/A       4, 8    6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
                                                      Home Loan
            Parsippany, NJ
                                                      Modifications                                              9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010             $765,945      $2,465,945    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($3)    $2,465,942    Updated portfolio data from servicer
                                                                                                                 3/30/2011                   ($4)    $2,465,938    Updated due to quarterly assessment and reallocation

                                                      Financial                                                  6/29/2011                  ($36)    $2,465,902    Updated due to quarterly assessment and reallocation
            Banco Popular de Puerto
                                                      Instrument for                                     4,
9/30/2010   Rico,                       Purchase                                 $1,700,000    N/A               6/28/2012                  ($30)    $2,465,872    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
                                                      Home Loan                                          5, 8
            San Juan, PR
                                                      Modifications                                              9/27/2012                  ($83)    $2,465,789    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                  ($14)    $2,465,775    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($53)    $2,465,722    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                  ($20)    $2,465,702    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                      Financial                                                  6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Capital International
                                                      Instrument for
9/30/2010   Financial, Inc.,            Purchase                                  $100,000     N/A       4, 8    6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
                                                      Home Loan
            Coral Gables, FL
                                                      Modifications                                              9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                      Financial                                                  9/30/2010             $360,445      $1,160,445    Updated portfolio data from servicer
            Citizens Community Bank,                  Instrument for
9/24/2010                               Purchase                                  $800,000     N/A                1/6/2011                   ($2)    $1,160,443    Updated portfolio data from servicer                         $—           $—                   $—                     $—
                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 24, 2013




            Freeburg, IL                              Home Loan
                                                      Modifications                                              3/23/2011           ($1,160,443)             —    Termination of SPA
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                353
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)                                                                                                                                                                                              354
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing           Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note          Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                 9/30/2010             $901,112      $2,901,112    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($4)    $2,901,108    Updated portfolio data from servicer
                                                     Financial
            Community Credit Union                                                                               3/30/2011                   ($5)    $2,901,103    Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/30/2010   of Florida,                Purchase                                 $2,000,000    N/A       6, 12                                                                                                                $3,000       $4,632             $5,000                 $12,632
                                                     Home Loan                                                   6/29/2011                  ($48)    $2,901,055    Updated due to quarterly assessment and reallocation
            Rockledge, FL
                                                     Modifications
                                                                                                                 6/28/2012                  ($36)    $2,901,019    Updated due to quarterly assessment and reallocation
                                                                                                                 9/14/2012           ($2,888,387)       $12,632    Termination of SPA
                                                                                                                 9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                   6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            CU Mortgage Services,                    Instrument for
9/30/2010                              Purchase                                  $100,000     N/A       4, 8     6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Inc., New Brighton, MN                   Home Loan
                                                     Modifications                                               9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                   6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 24, 2013




            First Federal Bank of                    Instrument for
9/30/2010                              Purchase                                  $100,000     N/A       4, 8     6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Florida, Lake City, FL                   Home Loan
                                                     Modifications                                               9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                   6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            First Mortgage
                                                     Instrument for
9/30/2010   Corporation,               Purchase                                  $100,000     N/A       4, 8     6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation      $2,000          $—              $2,000                  $4,000
                                                     Home Loan
            Diamond Bar, CA
                                                     Modifications                                               9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                     Financial                                                   9/30/2010             $180,222        $580,222    Updated portfolio data from servicer
            First Safety Bank,                       Instrument for
9/30/2010                              Purchase                                  $400,000     N/A                 1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer                         $—           $—                   $—                     $—
            Cincinnati, OH                           Home Loan
                                                     Modifications                                               3/23/2011            ($580,221)              —    Termination of SPA
                                                                                                                 9/30/2010             $360,445      $1,160,445    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($2)    $1,160,443    Updated portfolio data from servicer
                                                                                                                 3/30/2011                   ($2)    $1,160,441    Updated due to quarterly assessment and reallocation

                                                     Financial                                                   6/29/2011                  ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
            Flagstar Capital Markets
                                                     Instrument for
9/30/2010   Corporation,               Purchase                                  $800,000     N/A       7, 8     6/28/2012                  ($14)    $1,160,409    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
                                                     Home Loan
            Troy, MI
                                                     Modifications                                               9/27/2012                  ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010             $765,945      $2,465,945    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($4)    $2,465,941    Updated portfolio data from servicer
                                                                                                                 3/30/2011                   ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011                  ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
                                                     Financial
            Franklin Savings,                        Instrument for                                              6/28/2012                  ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $1,700,000    N/A       4                                                                                                                    $1,750       $3,865             $4,000                  $9,615
            Cincinnati, OH                           Home Loan                                                   9/27/2012                  ($83)    $2,465,784    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                12/27/2012                  ($14)    $2,465,770    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($53)    $2,465,717    Updated due to quarterly assessment and reallocation
                                                                                                                 6/14/2013              ($10,000)    $2,455,717    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                  ($20)    $2,455,697    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                    TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                           Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                 9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                      Financial                                                  6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Gateway Mortgage Group,                   Instrument for
9/30/2010                               Purchase                                  $100,000     N/A       4, 8    6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            LLC, Tulsa, OK                            Home Loan
                                                      Modifications                                              9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                      Financial                                                  9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
            GFA Federal Credit Union,                 Instrument for
9/30/2010                               Purchase                                  $100,000     N/A                                                                                                                            $—           $—                   $—                     $—
            Gardner, MA                               Home Loan                                                  3/23/2011           ($145,056)             —    Termination of SPA
                                                      Modifications
                                                                                                                 9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                      Financial                                                  6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Guaranty Bank,                            Instrument for
9/30/2010                               Purchase                                  $100,000     N/A       4, 8    6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation        $917          $—              $1,000                  $1,917
            Saint Paul, MN                            Home Loan
                                                      Modifications                                              9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010            $135,167       $435,167    Updated portfolio data from servicer
                                                                                                                  1/6/2011                 ($1)      $435,166    Updated portfolio data from servicer
                                                                                                                 3/30/2011                 ($1)      $435,165    Updated due to quarterly assessment and reallocation

                                                      Financial                                                  6/29/2011                 ($6)      $435,159    Updated due to quarterly assessment and reallocation
            James B. Nutter &
                                                      Instrument for
9/24/2010   Company,                    Purchase                                  $300,000     N/A       4, 8    6/28/2012                 ($4)      $435,155    Updated due to quarterly assessment and reallocation      $7,254          $—              $7,698                 $14,952
                                                      Home Loan
            Kansas City, MO
                                                      Modifications                                              9/27/2012                ($12)      $435,143    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                 ($2)      $435,141    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                 ($8)      $435,133    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                 ($3)      $435,130    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010            $450,556     $1,450,556    Updated portfolio data from servicer
                                                                                                                  1/6/2011                 ($2)    $1,450,554    Updated portfolio data from servicer
                                                                                                                 3/30/2011                 ($2)    $1,450,552    Updated due to quarterly assessment and reallocation

                                                      Financial                                                  6/29/2011                ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
            Liberty Bank and Trust                    Instrument for
9/30/2010                               Purchase                                 $1,000,000    N/A               6/28/2012                ($17)    $1,450,512    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Co, New Orleans, LA                       Home Loan
                                                      Modifications                                              9/27/2012                ($48)    $1,450,464    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                 ($8)    $1,450,456    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                ($30)    $1,450,426    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                ($11)    $1,450,415    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010            $315,389     $1,015,389    Updated portfolio data from servicer
                                                                                                                  1/6/2011                 ($1)    $1,015,388    Updated portfolio data from servicer
                                                                                                                 3/30/2011                 ($1)    $1,015,387    Updated due to quarterly assessment and reallocation

                                                      Financial                                                  6/29/2011                ($11)    $1,015,376    Updated due to quarterly assessment and reallocation
            M&T Bank,                                 Instrument for
9/30/2010                               Purchase                                  $700,000     N/A       4, 8    6/28/2012                ($11)    $1,015,365    Updated due to quarterly assessment and reallocation     $38,897          $—            $42,461                  $81,358
            Buffalo, NY                               Home Loan
                                                      Modifications                                              9/27/2012                ($30)    $1,015,335    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                 ($5)    $1,015,330    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                ($20)    $1,015,310    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                 ($7)    $1,015,303    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                              355
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                               (continued)                                                                                                                                                                                            356
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                            Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                            Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                9/30/2010             $630,778      $2,030,778   Updated portfolio data from servicer
                                                                                                                 1/6/2011                  ($3)     $2,030,775   Updated portfolio data from servicer
                                                                                                                3/30/2011                  ($3)     $2,030,772   Updated due to quarterly assessment and reallocation

                                                     Financial                                                  6/29/2011                 ($33)     $2,030,739   Updated due to quarterly assessment and reallocation
            Magna Bank,                              Instrument for
9/30/2010                              Purchase                                 $1,400,000    N/A       5       6/28/2012                 ($25)     $2,030,714   Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Germantown, TN                           Home Loan
                                                     Modifications                                              9/27/2012                 ($68)     $2,030,646   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                 ($11)     $2,030,635   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                 ($44)     $2,030,591   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                 ($16)     $2,030,575   Updated due to quarterly assessment and reallocation

                                                     Financial                                                  9/30/2010             $225,278       $725,278    Updated portfolio data from servicer
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                                  $500,000     N/A                1/6/2011                  ($1)      $725,277    Updated portfolio data from servicer                         $—           $—                   $—                     $—
            Lexena, KS                               Home Loan
                                                     Modifications                                               3/9/2011            ($725,277)             —    Termination of SPA
                                                                                                                9/30/2010              $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I July 24, 2013




                                                     Financial                                                  6/29/2011                  ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Marsh Associates, Inc.,                  Instrument for
9/30/2010                              Purchase                                  $100,000     N/A       4, 8    6/28/2012                  ($1)      $145,054    Updated due to quarterly assessment and reallocation      $6,901          $—              $7,378                 $14,279
            Charlotte, NC                            Home Loan
                                                     Modifications                                              9/27/2012                  ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($1)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010           $49,915,806    $93,415,806   Updated portfolio data from servicer
                                                                                                                 1/6/2011                ($125)    $93,415,681   Updated portfolio data from servicer
                                                                                                                3/30/2011                ($139)    $93,415,542   Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($1,223)    $93,414,319   Updated due to quarterly assessment and reallocation

                                                     Financial                                                  6/28/2012                ($797)    $93,413,522   Updated due to quarterly assessment and reallocation
            Midland Mortgage
                                                     Instrument for
9/30/2010   Company,                   Purchase                               $43,500,000     N/A       4, 5    7/16/2012       $294,540,000      $387,953,522   Transfer of cap due to servicing transfer              $3,728,117   $772,300          $4,566,481              $9,066,898
                                                     Home Loan
            Oklahoma City, OK
                                                     Modifications                                              7/27/2012      ($263,550,000)     $124,403,522   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($3,170)   $124,400,352   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                ($507)   $124,399,845   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($1,729)   $124,398,116   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                ($593)   $124,397,523   Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010              $45,056       $145,056    Updated portfolio data from servicer

            Mid America Mortgage,                    Financial                                                  6/29/2011                  ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Inc. (Schmidt Mortgage                   Instrument for
9/30/2010                              Purchase                                  $100,000     N/A       4, 8    6/28/2012                  ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Company),                                Home Loan
            Rocky River, OH                          Modifications                                              9/27/2012                  ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010              $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                  6/29/2011                  ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Stockman Bank of                         Instrument for
9/30/2010                              Purchase                                  $100,000     N/A       4, 8    6/28/2012                  ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Montana, Miles City, MT                  Home Loan
                                                     Modifications                                              9/27/2012                  ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                     Financial                                                  9/30/2010             $270,334       $870,334    Updated portfolio data from servicer
            University First Federal
                                                     Instrument for
9/30/2010   Credit Union,              Purchase                                  $600,000     N/A                1/6/2011                  ($1)      $870,333    Updated portfolio data from servicer                         $—           $—                   $—                     $—
                                                     Home Loan
            Salt Lake City, UT
                                                     Modifications                                              2/17/2011            ($870,333)             —    Termination of SPA
                                                                                                                9/30/2010              $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                  6/29/2011                  ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Weststar Mortgage, Inc.,                 Instrument for
9/30/2010                              Purchase                                  $100,000     N/A       4, 8    6/28/2012                  ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                   $—                     $—
            Woodbridge, VA                           Home Loan
                                                     Modifications                                              9/27/2012                  ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($1)      $145,051    Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                (continued)
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                             Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                12/15/2010            $5,000,000     $5,000,000    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($7)    $4,999,993    Updated portfolio data from servicer
                                                                                                                 2/16/2011             $500,000      $5,499,993    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011             $100,000      $5,599,993    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                   ($9)    $5,599,984    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011                  ($85)    $5,599,899    Updated due to quarterly assessment and reallocation
                                                                                                                11/16/2011           ($2,500,000)    $3,099,899    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012             $200,000      $3,299,899    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                  ($40)    $3,299,859    Updated due to quarterly assessment and reallocation
                                                      Financial
             Statebridge Company,                     Instrument for                                             9/27/2012                 ($100)    $3,299,759    Updated due to quarterly assessment and reallocation
12/15/2010                              Purchase                                        $—     N/A       9                                                                                                                   $9,536     $39,132              $9,643                 $58,310
             LLC, Denver, CO                          Home Loan                                                 10/16/2012             $170,000      $3,469,759    Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                11/15/2012              ($30,000)    $3,439,759    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012              ($80,000)    $3,359,759    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                  ($17)    $3,359,742    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013               $50,000     $3,409,742    Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013            $1,240,000     $4,649,742    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013               $90,000     $4,739,742    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                  ($90)    $4,739,652    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013              ($10,000)    $4,729,652    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                  ($34)    $4,729,618    Updated due to quarterly assessment and reallocation
                                                                                                                12/15/2010            $4,300,000     $4,300,000    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($4)    $4,299,996    Updated portfolio data from servicer
                                                                                                                 6/29/2011                   ($5)    $4,299,991    Updated due to quarterly assessment and reallocation
                                                      Financial
             Scotiabank de Puerto                     Instrument for                                             6/28/2012                  ($23)    $4,299,968    Updated due to quarterly assessment and reallocation
12/15/2010                              Purchase                                        $—     N/A       9                                                                                                                 $367,285    $547,867           $418,009               $1,333,160
             Rico, San Juan, PR                       Home Loan                                                  9/27/2012                  ($63)    $4,299,905    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                12/27/2012                  ($11)    $4,299,894    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($41)    $4,299,853    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                  ($16)    $4,299,837    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011             $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011             $100,000        $300,000    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011             $300,000        $600,000    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011                   ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                      Financial
             New York Community                                                                                  8/16/2011             $200,000        $799,991    Transfer of cap due to servicing transfer
                                                      Instrument for
4/13/2011    Bank (AmTrust Bank),       Purchase                                        $—     N/A       9                                                                                                                  $12,344     $31,779            $21,004                  $65,127
                                                      Home Loan                                                  6/28/2012                   ($7)      $799,984    Updated due to quarterly assessment and reallocation
             Cleveland, OH
                                                      Modifications
                                                                                                                 9/27/2012                  ($19)      $799,965    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($3)      $799,962    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($12)      $799,950    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($5)      $799,945    Updated due to quarterly assessment and reallocation

                                                      Financial                                                  4/13/2011             $100,000        $100,000    Transfer of cap due to servicing transfer
             SunTrust Mortgage, Inc.,                 Instrument for
4/13/2011                               Purchase                                        $—     N/A       9       6/14/2013             $120,000        $220,000    Transfer of cap due to servicing transfer                    $—           $—                   $—                     $—
             Richmond, VA                             Home Loan
                                                      Modifications                                              6/27/2013                   ($1)      $219,999    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I July 24, 2013
                                                                                                                                                                                                                                                                                                357
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                 (continued)                                                                                                                                                                                           358
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                    TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                           Borrower’s    Investors          Servicers               Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                                  4/13/2011           $1,000,000    $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011            $233,268     $1,233,268    Updated due to quarterly assessment and reallocation
                                                                                                                 11/16/2011            $100,000     $1,333,268    Transfer of cap due to servicing transfer
                                                       Financial
            Urban Partnership Bank,                    Instrument for                                             6/28/2012                 ($3)    $1,333,265    Updated due to quarterly assessment and reallocation
4/13/2011                                Purchase                                        $—     N/A       9                                                                                                               $121,438    $256,112           $131,245                $508,794
            Chicago, IL                                Home Loan                                                  9/27/2012                ($10)    $1,333,255    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                 12/27/2012                 ($2)    $1,333,253    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                 ($7)    $1,333,246    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                 ($3)    $1,333,243    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011            $200,000       $200,000    Transfer of cap due to servicing transfer
                                                       Financial
            Western Federal Credit                     Instrument for                                             6/29/2011             $17,687       $217,687    Updated due to quarterly assessment and reallocation
4/13/2011                                Purchase                                        $—     N/A       9                                                                                                                $13,417     $39,541            $16,917                  $69,874
            Union, Hawthorne, CA                       Home Loan                                                  9/27/2012                 ($1)      $217,686    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  3/25/2013                 ($1)      $217,685    Updated due to quarterly assessment and reallocation
                                                                                                                  5/13/2011            $500,000       $500,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 24, 2013




                                                                                                                  6/16/2011            $100,000       $600,000    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011                 ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011            $200,000       $799,991    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011            $100,000       $899,991    Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011           $2,500,000    $3,399,991    Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012           $1,510,000    $4,909,991    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012            $450,000     $5,359,991    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012                ($66)    $5,359,925    Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012            $250,000     $5,609,925    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012             $90,000     $5,699,925    Transfer of cap due to servicing transfer
                                                       Financial
            FCI Lender Services, Inc.,                 Instrument for                                             9/27/2012               ($191)    $5,699,734    Updated due to quarterly assessment and reallocation
5/13/2011                                Purchase                                        $—     N/A       9                                                                                                                $21,292     $40,193            $24,752                  $86,236
            Anaheim Hills, CA                          Home Loan                                                 10/16/2012            $140,000     $5,839,734    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                 11/15/2012             $70,000     $5,909,734    Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012             $40,000     $5,949,734    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012                ($34)    $5,949,700    Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2013             $40,000     $5,989,700    Transfer of cap due to servicing transfer
                                                                                                                  2/14/2013             $50,000     $6,039,700    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013            $360,000     $6,399,700    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013               ($135)    $6,399,565    Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2013            ($10,000)    $6,389,565    Transfer of cap due to servicing transfer
                                                                                                                  5/16/2013             $40,000     $6,429,565    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013            $200,000     $6,629,565    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013                ($53)    $6,629,512    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                              (continued)
             Servicer Modifying Borrowers’ Loans                                                              Adjustment Details                                                                                                    TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                           Borrower’s    Investors          Servicers               Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism Note         Date            Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives              Payments
                                                                                                               7/14/2011            $200,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011            $900,000     $1,100,000    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012            $100,000     $1,200,000    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                 ($9)    $1,199,991    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012             $20,000     $1,219,991    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                ($26)    $1,219,965    Updated due to quarterly assessment and reallocation

                                                    Financial                                                 10/16/2012             $50,000     $1,269,965    Transfer of cap due to servicing transfer
             Gregory Funding, LLC,                  Instrument for
7/14/2011                             Purchase                                        $—     N/A       9      12/14/2012             $10,000     $1,279,965    Transfer of cap due to servicing transfer                $36,743     $76,611            $40,791                $154,145
             Beaverton, OR                          Home Loan
                                                    Modifications                                             12/27/2012                 ($5)    $1,279,960    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013            $130,000     $1,409,960    Transfer of cap due to servicing transfer
                                                                                                               2/14/2013            $120,000     $1,529,960    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013                ($20)    $1,529,940    Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013             $80,000     $1,609,940    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013            $420,000     $2,029,940    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                ($10)    $2,029,930    Updated due to quarterly assessment and reallocation
                                                    Financial
             Bangor Savings Bank,                   Instrument for
9/15/2011                             Purchase                                        $—     N/A       9       9/15/2011            $100,000       $100,000    Transfer of cap due to servicing transfer                    $—           $—                   $—                     $—
             Bangor, ME                             Home Loan
                                                    Modifications
                                                                                                               9/15/2011           $1,300,000    $1,300,000    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                ($15)    $1,299,985    Updated due to quarterly assessment and reallocation

                                                    Financial                                                  9/27/2012                ($42)    $1,299,943    Updated due to quarterly assessment and reallocation
             PHH Mortgage
                                                    Instrument for
9/15/2011    Corporation,             Purchase                                        $—     N/A       9      10/16/2012            $140,000     $1,439,943    Transfer of cap due to servicing transfer                    $—           $—                   $—                     $—
                                                    Home Loan
             Mt. Laurel, NJ
                                                    Modifications                                             12/27/2012                 ($8)    $1,439,935    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                ($30)    $1,439,905    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                ($11)    $1,439,894    Updated due to quarterly assessment and reallocation
                                                                                                              12/15/2011            $200,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012            $600,000       $800,000    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                 ($3)      $799,997    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012            $110,000       $909,997    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                ($13)      $909,984    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012           $1,270,000    $2,179,984    Transfer of cap due to servicing transfer
                                                                                                              11/15/2012            $230,000     $2,409,984    Transfer of cap due to servicing transfer
                                                    Financial
             Rushmore Loan                                                                                    12/27/2012                 ($5)    $2,409,979    Updated due to quarterly assessment and reallocation
                                                    Instrument for
12/15/2011   Management Services      Purchase                                        $—     N/A       9                                                                                                               $111,511    $364,836           $140,117                $616,464
                                                    Home Loan                                                  1/16/2013            $990,000     $3,399,979    Transfer of cap due to servicing transfer
             LLC, Irvine, CA
                                                    Modifications
                                                                                                               2/14/2013            $600,000     $3,999,979    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013           $1,980,000    $5,979,979    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013                ($77)    $5,979,902    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013            $340,000     $6,319,902    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013           $1,520,000    $7,839,902    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013           $2,740,000   $10,579,902    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                ($53)   $10,579,849    Updated due to quarterly assessment and reallocation
                                                    Financial
             Sun West Mortgage
                                                    Instrument for
1/13/2012    Company, Inc,            Purchase                                        $—     N/A       9       1/13/2012            $100,000       $100,000    Transfer of cap due to servicing transfer                    $—           $—                   $—                     $—
                                                    Home Loan
             Cerritos, CA
                                                    Modifications
                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I July 24, 2013




                                                    Financial
             PrimeWest Mortgage
                                                    Instrument for
3/15/2012    Corporation,             Purchase                                        $—     N/A       9       3/15/2012            $100,000       $100,000    Transfer of cap due to servicing transfer                    $—           $—                   $—                     $—
                                                    Home Loan
             Lubbock, TX
                                                    Modifications
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            359
HAMP TRANSACTION DETAIL, AS OF 6/30/2013                                                 (continued)                                                                                                                                                                                            360
             Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                           TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                  Lenders/                            Total TARP
                                      Transaction    Investment         Servicers & Lenders/    Pricing          Adjustment     Cap Adjustment                                                                               Borrower’s       Investors          Servicers          Incentive
Date         Name of Institution      Type           Description             Investors (Cap)1   Mechanism Note         Date            Amount      Adjusted Cap   Reason for Adjustment                                      Incentives      Incentives         Incentives         Payments
                                                                                                                  6/14/2012            $940,000       $940,000    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012            $205,242     $1,145,242    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                 ($3)    $1,145,239    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                 ($1)    $1,145,238    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    1/16/2013             $10,000     $1,155,238    Transfer of cap due to servicing transfer
             Resurgent Capital
                                                     Instrument for
6/14/2012    Solutions, LP,           Purchase                                           $—     N/A       9       2/14/2013           $8,690,000    $9,845,238    Transfer of cap due to servicing transfer                    $72,515        $181,442           $90,649           $344,606
                                                     Home Loan
             Greenville, SC
                                                     Modifications                                                3/14/2013           $1,390,000   $11,235,238    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013               ($219)   $11,235,019    Updated due to quarterly assessment and reallocation
                                                                                                                  5/16/2013            $620,000    $11,855,019    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013            $990,000    $12,845,019    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013                ($96)   $12,844,923    Updated due to quarterly assessment and reallocation
                                                                                                                 11/15/2012             $30,000        $30,000    Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012             $70,000       $100,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I July 24, 2013




                                                     Financial                                                    1/16/2013            ($10,000)       $90,000    Transfer of cap due to servicing transfer
             Kondaur Capital
                                                     Instrument for
11/15/2012   Corporation,             Purchase                                           $—     N/A       9       2/14/2013            ($10,000)       $80,000    Transfer of cap due to servicing transfer                        $—              $—                $400              $400
                                                     Home Loan
             Orange, CA
                                                     Modifications                                                4/16/2013            ($10,000)       $70,000    Transfer of cap due to servicing transfer
                                                                                                                  5/16/2013            $130,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013            ($50,000)      $150,000    Transfer of cap due to servicing transfer
                                                     Financial
             Quicken Loans Inc,                      Instrument for
12/14/2012                            Purchase                                           $—     N/A       9      12/14/2012             $10,000        $10,000    Transfer of cap due to servicing transfer                        $—              $—                   $—               $—
             Detroit, MI                             Home Loan
                                                     Modifications
                                                                                                                  2/14/2013            $510,000       $510,000    Transfer of cap due to servicing transfer

                                                     Financial                                                    3/25/2013                 ($9)      $509,991    Updated due to quarterly assessment and reallocation
             Home Servicing, LLC,                    Instrument for
2/14/2013                             Purchase                                           $—     N/A       9       4/16/2013            $200,000       $709,991    Transfer of cap due to servicing transfer                     $6,534         $11,311             $6,784           $24,629
             Baton Rouge, LA                         Home Loan
                                                     Modifications                                                5/16/2013             $40,000       $749,991    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013                 ($4)      $749,987    Updated due to quarterly assessment and reallocation
                                                     Financial                                                    3/14/2013            $130,000       $130,000    Transfer of cap due to servicing transfer
             21st Mortgage
                                                     Instrument for
3/14/2013    Corporation,             Purchase                                           $—     N/A       9                                                                                                                       $250          $8,759           $11,250            $20,259
                                                     Home Loan                                                    3/25/2013                           $129,999    Updated due to quarterly assessment and reallocation
             Knoxville, TN
                                                     Modifications
                                                     Financial
             ViewPoint Bank,                         Instrument for
5/16/2013                             Purchase                                           $—     N/A               5/16/2013             $50,000        $50,000    Transfer of cap due to servicing transfer
             Plano, TX                               Home Loan
                                                     Modifications
                                                     Financial                                                    6/14/2013             $10,000        $10,000    Transfer of cap due to servicing transfer
             Cheviot Savings Bank,                   Instrument for
6/14/2013                             Purchase                                           $—     N/A                                                                                                                                $—              $62                  $—               $62
             Cheviot, OH                             Home Loan                                                    6/27/2013              $1,344        $11,344    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                    Total Initial Cap      $23,831,570,000             Total Cap Adjustments   $6,037,129,760                                                                   Totals   $1,192,789,364 $2,839,125,710    $1,809,673,996     $5,841,589,069
                                                                                                                   Total Cap   $29,868,699,760
Notes: Numbers may be affected by rounding. Data as of 6/30/2013. Numbered notes are taken verbatim from Treasury’s 6/27/2013 Transactions Report-Housing Programs.

1	
    The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the
    program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2	
    On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3	
    Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.
4	
    Initial cap amount includes FHA-HAMP.
5	
    Initial cap amount includes RD-HAMP.
6	
    Initial cap amount includes 2MP.
7	
    Initial cap amount includes FHA-2LP.
8	
    Initial cap does not include HAMP.
9	
    This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10	
    The amendment reflects a change in the legal name of the institution.
11	
    MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such
    agreement.
12	
    The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.
13	
    Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
14	
    In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.
15
  	RBC Bank (USA) was merged with PNC Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to RBC Bank (USA) prior to such merger.
16
  	On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and transferring the subservicing relationships to third-party servicers. The remaining Adjusted Cap stated above represents the amount previously paid to Saxon Mortgage Services, Inc.
    prior to ceasing servicing operations.

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program

Source: Treasury, Transactions Report-Housing Programs, 6/27/2013.


Table D.14
 HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2013
                          Seller
                                                                                                         Transaction                                                                                                                                                        Pricing
 Note     Date            Name of Institution                                                            Type             Investment Description                        Initial Investment Amount      Additional Investment Amount                Investment Amount1       Mechanism
          6/23/2010                                                                                                       Financial Instrument for HHF Program                       $102,800,000                                    —                                      N/A
 2        9/23/2010       Nevada Affordable Housing Assistance Corporation, Reno, NV                     Purchase         Financial Instrument for HHF Program                                   —                        $34,056,581                     $194,026,240      N/A
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                        $57,169,659                                       N/A
          6/23/2010                                                                                                       Financial Instrument for HHF Program                       $699,600,000                                    —                                      N/A
 2        9/23/2010       CalHFA Mortgage Assistance Corporation, Sacramento, CA                         Purchase         Financial Instrument for HHF Program                                   —                       $476,257,070                   $1,975,334,096      N/A
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                       $799,477,026                                       N/A
          6/23/2010                                                                                                       Financial Instrument for HHF Program                       $418,000,000                                    —                                      N/A
 2        9/23/2010       Florida Housing Finance Corporation, Tallahassee, FL                           Purchase         Financial Instrument for HHF Program                                   —                       $238,864,755                   $1,057,839,136      N/A
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                       $400,974,381                                       N/A
          6/23/2010                                                                                                       Financial Instrument for HHF Program                       $125,100,000                                    —                                      N/A
                          Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ         Purchase                                                                                                                                         $267,766,006
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                       $142,666,006                                       N/A
          6/23/2010                                                                                                       Financial Instrument for HHF Program                       $154,500,000                                    —                                      N/A
 2        9/23/2010       Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI       Purchase         Financial Instrument for HHF Program                                   —                       $128,461,559                     $498,605,738      N/A
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                       $215,644,179                                       N/A
          8/3/2010                                                                                                        Financial Instrument for HHF Program                       $159,000,000                                    —                                      N/A
 2        9/23/2010       North Carolina Housing Finance Agency, Raleigh, NC                             Purchase         Financial Instrument for HHF Program                                   —                       $120,874,221                     $482,781,786      N/A
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                       $202,907,565                                       N/A
          8/3/2010                                                                                                        Financial Instrument for HHF Program                       $172,000,000                                    —                                      N/A
 2        9/23/2010       Ohio Homeowner Assistance LLC, Columbus, OH                                    Purchase         Financial Instrument for HHF Program                                   —                       $148,728,864                     $570,395,099      N/A
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                       $249,666,235                                       N/A
          8/3/2010                                                                                                        Financial Instrument for HHF Program                        $88,000,000                                    —                                      N/A
 2        9/23/2010       Oregon Affordable Housing Assistance Corporation, Salem, OR                    Purchase         Financial Instrument for HHF Program                                   —                        $49,294,215                     $220,042,786      N/A
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                        $82,748,571                                       N/A
          8/3/2010                                                                                                        Financial Instrument for HHF Program                        $43,000,000                                    —                                      N/A
 2        9/23/2010       Rhode Island Housing and Mortgage Finance Corporation, Providence, RI          Purchase         Financial Instrument for HHF Program                                   —                        $13,570,770                      $79,351,573      N/A
                                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I July 24, 2013




 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                        $22,780,803                                       N/A
          8/3/2010                                                                                                        Financial Instrument for HHF Program                       $138,000,000                                    —                                      N/A
 2        9/23/2010       SC Housing Corp, Columbia, SC                                                  Purchase         Financial Instrument for HHF Program                                   —                        $58,772,347                     $295,431,547      N/A
 3        9/29/2010                                                                                                       Financial Instrument for HHF Program                                   —                        $98,659,200                                       N/A
                                                                                                                                                                                                                                                                         continued on next page
                                                                                                                                                                                                                                                                                                                   361
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2013                                                                                                  (continued)                                                                                                                362
                          Seller
                                                                                                            Transaction                                                                                                                                                            Pricing
Note     Date             Name of Institution                                                               Type              Investment Description                         Initial Investment Amount       Additional Investment Amount                     Investment Amount1   Mechanism
         9/23/2010                                                                                                            Financial Instrument for HHF Program                         $60,672,471                                       —                                     N/A
                          Alabama Housing Finance Authority, Montgomery, AL                                 Purchase                                                                                                                                               $162,521,345
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                        $101,848,874                                       N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                         $55,588,050                                       —                                     N/A
                          Kentucky Housing Corporation, Frankfort, KY                                       Purchase                                                                                                                                               $148,901,875
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                         $93,313,825                                       N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                         $38,036,950                                       —                                     N/A
                          Mississippi Home Corporation, Jackson, MS                                         Purchase                                                                                                                                               $101,888,323
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                         $63,851,373                                       N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                        $126,650,987                                       —                                     N/A
                          GHFA Affordable Housing, Inc., Atlanta, GA                                        Purchase                                                                                                                                               $339,255,819
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                        $212,604,832                                       N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                         $82,762,859                                       —                                     N/A
                          Indiana Housing and Community Development Authority, Indianapolis, IN             Purchase                                                                                                                                               $221,694,139
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                        $138,931,280                                       N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                        $166,352,726                                       —                                     N/A
                          Illinois Housing Development Authority, Chicago, IL                               Purchase                                                                                                                                               $445,603,557
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                        $279,250,831                                       N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                        $112,200,637                                       —                                     N/A
                          New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                       Purchase                                                                                                                                               $300,548,144
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                        $188,347,507                                       N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                           $7,726,678                                      —                                     N/A
                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I July 24, 2013




                          District of Columbia Housing Finance Agency, Washington, DC                       Purchase                                                                                                                                                $20,697,198
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                         $12,970,520                                       N/A
         9/23/2010                                                                                                            Financial Instrument for HHF Program                         $81,128,260                                       —                                     N/A
                          Tennessee Housing Development Agency, Nashville, TN                               Purchase                                                                                                                                               $217,315,593
3        9/29/2010                                                                                                            Financial Instrument for HHF Program                                     —                        $136,187,333                                       N/A
                                                                                                                                                                                                                   Total Investment Amount                      $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 6/30/2013. Numbered notes are taken verbatim from Treasury’s 6/27/2013 Transactions Report-Housing Programs.

1	
    The purchase will be incrementally funded up to the investment amount.
2	
    On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3	
    On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 6/27/2013.



Table D.15
FHA SHORT REFINANCE PROGRAM, AS OF 6/30/2013
                                                                                                                                                            Initial Investment             Investment
Note      Date           Seller Name                        Transaction Type      Investment Description                                                               Amount             Adjustments         Investment Amount        Pricing Mechanism
1         9/3/2010                                                                                                                                            $8,117,000,000                         —            $1,025,000,000       N/A
                         Citigroup, Inc., New York, NY      Purchase              Facility Purchase Agreement
2         3/4/2013                                                                                                                                                           —       ($7,092,000,000)                                  N/A
                                                                                                                                                                            Total Investment Amount              $1,025,000,000
Notes: Numbers may be affected by rounding. Data as of 6/30/2013. Numbered notes are taken verbatim from Treasury’s 6/27/2013 Transactions Report-Housing Programs.

1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-
   year letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the mortgages refinanced under the FHA Short Refinance program during the eligibility period. After that time, the amount of the L/C
   will be capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury could incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.
2
 	On March 4, 2013, the U.S. Department of the Treasury and Citibank, N.A. entered into Amendment No. 1 to the L/C Facility Agreement, which reduced the maximum amount of the L/C from $8 billion to $1 billion; extends by two years the
   period of time Treasury has to increase the L/C to cover new loans that are entered into the program; and modified the fee structure paid to Citibank, N.A. Based on this new fee structure and the lower L/C, Treasury expects that the fees
   incurred for the availability and usage of the L/C will not exceed $25 million.

Source: Treasury, Transactions Report-Housing Programs, 6/27/2013.
                                                             Debt Agreements, Equity Agreements, and Dividend/Interest Payments I Appendix E I JULY 24, 2013                                           363




Debt Agreements, Equity Agreements, and
Dividend/Interest Payments
Table E.1
 Debt Agreements, as of 6/30/2013
 TARP                              Date of               Cost                Description of                                                           Interest/                     Term of
 Program        Company            Agreement             Assigned            Investment                 Investment Information                        Dividends                     Agreement
                                                                                                        Each QFI may issue senior
                                                                             Senior                     securities with an aggregate                  7.7% for first 5
                                                                             Subordinated               principal amount of 1%–3% of its              years; 13.8%                  30 years
                                                                             Securities                 risk-weighted assets, but not to              thereafter
 CPP –          Originally                                                                              exceed $25 billion.
                                   1/14/2009a            $0.5 billion
 S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                             Subordinated               to purchase an amount equal
                                                                             Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                             that are exercised         purchased on the date of
                                                                             immediately                investment.
                                                                                                        Each QCU may issue CDCI
                                                                                                        Senior Securities with an
 CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                           2% for first 8 years,                    CDCI – Credit
 Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                           9% thereafter                            Unions
 Unions                                                                      Unions                     assets and not more than 50%
                                                                                                        of the capital and surplus of the
                                                                                                        QCU.
                                                                                                        Each QFI may issue CDCI Senior
                                                                                                        Securities with an aggregate
                                                                                                        principal amount equal to not
                                                                                                        more than 5% of (i), if the QFI is a
                                                                                                        Certified Entity the risk-weighted
                                                                                                        assets of the QFI, or (ii), if the            3.1% for first 8
 CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                        QFI is not a Certified Entity, the            years, 13.8%
 S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                        sum of the RWAs of each of the                thereafter
                                                                                                        Certified Entities, in each case
                                                                                                        less the aggregate capital or,
                                                                                                        as the case may be, principal
                                                                                                        amount of any outstanding TARP
                                                                                                        assistance of the QFI.
                                                                                                                                                                                    The debt
                                                                                                                                                                                    obligation for
                                                                                                                                                                                    each fund
                                                                             Debt Obligation
                                                                                                        Each of the loans will be funded                                            matures at
                                   9/30/2009                                 with Contingent
 PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                   and later                                 Interest
                                                                                                        the fund manager.                                                           of the
                                                                             Promissory Note
                                                                                                                                                                                    dissolution of
                                                                                                                                                                                    the fund or
                                                                                                                                                                                    10 years.
 Notes: Numbers may be affected due to rounding.
 a
   Announcement date of CPP S-Corporation Term Sheet.

 Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
 12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
 Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
 Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
 Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” 7/8/2009.
364              Appendix E I Debt Agreements, Equity Agreements, and Dividend/Interest Payments I JULY 24, 2013




      Table E.2
       Equity Agreements, as of 6/30/2013
       TARP                           Date of           Cost           Description                                                              Term of
       Program       Company          Agreement         Assigned       of Investment      Investment Information            Dividends           Agreement
                                                                       Senior             1–3% of risk-weighted assets,     5% for first
                                                                       Preferred          not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                       Equity             each QFI                          thereafter
       CPP –         Originally       10/14/2008a       $200.1
       Public        286 QFIs         and later         billion        Common
                                                                       Stock              15% of senior preferred
                                                                                                                            —                   Up to 10 years
                                                                       Purchase           amount
                                                                       Warrants
                                                                                          1–3% of risk-weighted assets,     5% for first
                                                                       Preferred
                                                                                          not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                       Equity
                                                                                          each QFI                          thereafter

       CPP –         Originally       11/17/2008b                      Preferred
                                                        $4 billion     Stock
       Private       369 QFIs         and later
                                                                       Purchase
                                                                                          5% of preferred amount            9%                  Perpetual
                                                                       Warrants that
                                                                       are exercised
                                                                       immediately
                                                                       Preferred
                                                                                          5% of risk-weighted assets        2% for first
                                                        $780.2         Equity for
       CDCI          All                                                                  for banks and bank holding        eight years, 9%     Perpetual
                                                        million        banks & thrift
                                                                                          companies.                        thereafter
                                                                       institutions
                                                                                                                                                8 years with the
                                                                       Membership         Each membership interest will
                                      9/30/2009                                                                                                 possibility of
       PPIP          All                                $10 billion    interest in a      be funded upon demand from        —
                                      and later                                                                                                 extension for 2
                                                                       partnership        the fund manager.
                                                                                                                                                additional years
                                                                       Mandatorily                                                              Converts to
                                                                       Convertible                                                              common equity
                                                                                          $5 billion                        9%
                                                                       Preferred                                                                interest after 7
                                                                       Stock                                                                    years
                     Ally Financial
       AIFP          Inc. (formerly   12/29/2008        $5 billion     Preferred
                     GMAC)                                             Stock                                                                    Converts to
                                                                       Purchase                                                                 common equity
                                                                                          5% of original preferred amount   9%
                                                                       Warrants that                                                            interest after 7
                                                                       are exercised                                                            years
                                                                       immediately
                                                                       Mandatorily                                                              Converts to
                                                                       Convertible                                                              common equity
                                                                                          $4.5 billion                      9%
                                                                       Preferred                                                                interest after 7
                                                                       Stockc                                                                   years
                                                                       Preferred
                     Ally Financial
                                                                       Stock                                                                    Converts to
       AIFP          Inc. (formerly   5/21/2009         $7.5 billion
                                                                       Purchase                                                                 common equity
                     GMAC)                                                                5% of original preferred amount   9%
                                                                       Warrants that                                                            interest after 7
                                                                       are exercised                                                            years
                                                                       immediately
                                                                       Common
                                                                                          $3 billion                        —                   Perpetual
                                                                       Equity Interestd
                                                                                                                                           Continued on next page
                                                             Debt Agreements, Equity Agreements, and Dividend/Interest Payments I Appendix E I JULY 24, 2013                                             365




Equity Agreements, as of 6/30/2013                                    (Continued)

TARP                                    Date of                 Cost                 Description                                                                                  Term of
Program           Company               Agreement               Assigned             of Investment          Investment Information                       Dividends                Agreement
                                                                                                            This equity interest was
                                                                                                            obtained by exchanging a
                  Ally Financial
                                                                                     Common                 prior debt obligation with
AIFP              Inc. (formerly        5/29/2009               $0.9 billion                                                                             —                        Perpetual
                                                                                     Equity Interest        General Motors. See “Debt
                  GMAC)
                                                                                                            Agreements” table for more
                                                                                                            information.
                                                                                     Trust Preferred
                                                                                                            $2.5 billion                                 8%
                                                                                     Securities
                  Ally Financial                                                     Trust Preferred                                                                              Redeemable upon
AIFP              Inc. (formerly        12/30/2009              $2.5 billion         purchase                                                                                     the repayment of
                  GMAC)                                                              warrants that          5% of trust preferred amount                 —                        the debenture
                                                                                     are exercised
                                                                                     immediately
                                                                                     Mandatorily
                                                                                     Convertible
                                                                                                            $1.3 billion                                 9%
                                                                                     Preferred
                                                                                     Stock                                                                                        Converts to
                  Ally Financial
                                                                                     Preferred                                                                                    common equity
AIFP              Inc. (formerly        12/30/2009              $1.3 billion
                                                                                     Stock                                                                                        interest after 7
                  GMAC)
                                                                                     Purchase                                                                                     years
                                                                                                            5% of preferred amount                       —
                                                                                     Warrants that
                                                                                     are exercised
                                                                                     immediately

                  Ally Financial
                                                                                     Common
AIFP              Inc. (formerly        12/30/2009              $5.5 billion                                $5.5 billion                                 —                        Perpetual
                                                                                     Equity Interestd
                  GMAC)

Notes: Numbers may be affected due to rounding.
a
  Announcement date of CPP Public Term Sheet.
b
  Announcement date of CPP Private Term Sheet.
c
  On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
d
  On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
  from 56% to 74% due to this conversion.

Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of January
15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase
Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred
Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report,
3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of
CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010;
Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts
Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement
for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC, Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy
Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009; Treasury, Transactions Report, 6/28/2013.
366               Appendix E I Debt Agreements, Equity Agreements, and Dividend/Interest Payments I JULY 24, 2013




      Table E.3
       DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 6/30/2013
                                                       Dividends                             Interest                   Distributionsa                    Other Incomeb                                    Total
      CPP   c
                                             $11,867,949,482                        $117,468,487                                      $—              $14,724,131,974                    $26,709,549,943
      CDCI                                           21,220,866                           9,454,974                                     —                                  —                     30,675,840
      SSFI  d
                                                   641,275,676                                       —                                  —                   609,367,994                      1,250,643,670
      TIP                                       3,004,444,444                                        —                                  —                 1,427,190,941                      4,431,635,385
      AGP                                          642,832,268                                       —                                  —                 3,483,197,045                      4,126,029,313
      PPIP                                                        —                   319,904,451                        922,885,028                      2,555,315,773                      3,798,105,252
      UCSB                                                        —                     13,347,352                                      —                     29,201,849                         42,549,201
      AIFPe                                     3,675,332,051                      1,665,336,675                                        —                   530,000,000                      5,870,668,726
      ASSP                                                        —                     31,949,931                                      —                     84,000,000                       115,949,931
      Total                                $19,853,054,787                      $2,157,461,870                        $922,885,028                  $23,442,405,576                    $46,375,807,261

      Notes: Numbers may not total due to rounding.
      a
        Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
      b
         Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
          Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
      c
        Includes $13 million fee received as part of the Popular exchange.
      d
        Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
         Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
      e
        Includes AWCP.
      Sources: Treasury, Transactions Report, 6/28/2013; Treasury, Section 105(a) Report, 7/10/2013; Treasury, Dividends and Interest Report, 7/10/2013; Treasury, response to SIGTARP data call,
      7/12/2013.
HAMP Modification Statistics
TABLE F.1

 ANNUAL AND CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY, AS OF 6/30/2013
                                                                                                    Trials            Trials Converted to                 Permanents
                            Trials Started                          Trials Cancelled                                                                                                     Permanents Active
                                                                                                    Active                Permanent                        Cancelleda
                               Annual       Cumulative             Annual       Cumulative           Annual            Annual      Cumulative         Annual       Cumulative            Annual         Cumulative
 TARP          2009          392,129             392,129           23,720             23,720       344,776             23,633          23,633             131                131         23,502              23,502
               2010          275,989             668,118         302,610            326,330          74,893           243,262        266,895          29,248             29,379        214,014             237,516
               2011          170,075             838,193           16,798           343,128          42,916           185,254        452,149          59,739             89,118        125,515             363,031
               2012          114,227             952,420            6,062           349,190          36,336           114,745        566,894          60,358           149,476           54,388            417,419
               2013            52,701         1,005,121             2,362           351,552          31,851            54,824        621,718          25,915           175,391           28,908            446,327
                Total      1,005,121                             351,552                                              621,718                       175,391                            446,327
 GSE           2009          510,491             510,491           24,731             24,731       442,455             43,305          43,305             342                342         42,963              42,963
               2010          287,839             798,330         383,448            408,179          77,396           269,450        312,755          28,299             28,641        241,151             284,114
               2011          138,072             936,402           10,654           418,833          36,391           168,423        481,178          52,729             81,370        115,694             399,808
               2012            81,478         1,017,880             4,814           423,647          25,775            87,280        568,458          54,500           135,870           32,780            432,588
                                                                                                                                                                                                    b
               2013            18,442         1,036,322             1,361           425,008          19,247            23,609        592,067          23,969           159,839              (360)          432,228
                Total      1,036,322                             425,008                                              592,067                       159,839                            432,228
 Total         2009          902,620             902,620           48,451             48,451       787,231             66,938          66,938             473                473         66,465              66,465
               2010          563,828          1,466,448          686,058            734,509        152,289            512,712        579,650          57,547             58,020        455,165             521,630
               2011          308,147          1,774,595            27,452           761,961          79,307           353,677        933,327        112,468            170,488         241,209             762,839
               2012          195,705          1,970,300            10,876           772,837          62,111           202,025       1,135,352       114,858            285,346           87,168            850,007
               2013            71,143         2,041,443             3,723           776,560          51,098            78,433       1,213,785         49,884           335,230           28,548            878,555
                Total     2,041,443                             776,560                                           1,213,785                         335,230                           878,555
 Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2012; and June 30, 2013.
 a
   Includes 3,911 TARP HAMP modifications paid off and 12,819 GSE HAMP modifications paid off.
 b
   This number is negative due to change in status from GSE to non-GSE TARP of some mortgages with HAMP permanent modifications.

 Sources: Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, and 7/19/2013; Fannie Mae, response to SIGTARP data call, 7/19/2013; SIGTARP Quarterly Report to Congress, 1/30/2010;
 SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
                                                                                                                                                                                                                         HAMP Modification Statistics I Appendix F I JULY 24, 2013
                                                                                                                                                                                                                         367
TABLE F.2                                                                                                                                                                                                                                                               368
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, AS THEY AGED, AS OF 4/30/2013
                           3 Months After Modification                 12 Months (1 Year) After Modification           24 Months (2 Years) After Modification           36 Months (3 Years) After Modification          42 Months (3.5 Years) After Modification

Modification       Permanent Redefaulted               Redefault Permanent Redefaulted                  Redefault Permanent Redefaulted                  Redefault Permanent Redefaulted                  Redefault Permanent Redefaulted                  Redefault
Year              Modifications Modifications              Rate Modifications Modifications                 Rate Modifications Modifications                 Rate Modifications Modifications                 Rate Modifications Modifications                 Rate

2009Q3                     3,567             112            3.1%            4,654             952          20.5%            5,101            1,698           33.3%            5,207           2,163           41.5%            5,086           2,345           46.1%

2009Q4                   44,018              632            1.4%          51,784            7,881          15.2%           56,108          15,805            28.2%           56,974          21,062           37.0%           30,126          12,489           41.5%

2010Q1                  124,541            1,167            0.9%         162,777           25,907          15.9%          170,143          49,277            29.0%         168,312           63,501           37.7%                                                 

2010Q2                  148,880            2,050            1.4%         175,409           27,947          15.9%          181,263          52,404            28.9%         129,829           49,471           38.1%                                                 

2010Q3                   86,420            1,203            1.4%         104,636           14,811          14.2%          106,999          28,619            26.7%                                                                                                  

2010Q4                   58,074              815            1.4%          65,107            9,240          14.2%           66,524          17,589            26.4%                                                                                                  

2011Q1                   71,202              573            0.8%          79,982           10,703          13.4%           81,334          20,183            24.8%                                                                                                  

2011Q2                   80,255              819            1.0%          93,167           12,227          13.1%           59,532          15,026            25.2%                                                                                                  

2011Q3                   81,207              913            1.1%          87,351           10,747          12.3%                                                                                                                                                    

2011Q4                   65,130              697            1.1%          68,025            7,705          11.3%                                                                                                                                                    

2012Q1                   49,543              367            0.7%          51,007            5,472          10.7%                                                                                                                                                    

2012Q2                   44,061              361            0.8%          28,473            3,198          11.2%                                                                                                                                                    
                                                                                                                                                                                                                                                                        Appendix F I HAMP Modification Statistics I JULY 24, 2013




2012Q3                   47,446              454            1.0%                                                                                                                                                                                                    

2012Q4                   39,524              340            0.9%                                                                                                                                                                                                    

2013Q1                   26,002              179            0.7%                                                                                                                                                                                                    

Total
Permanent
Modifications
with Valid
Records                969,870           10,682                         972,372         136,790                          727,004         200,601                           360,322         136,197                           35,212          14,834                 

Total
Permanent
Modifications
Missing/Invalid
Records                185,027                                            44,090                                           12,512                                             6,147                                              507                                

Total
Permanent
Modifications
Paid Off                    453                                            2,365                                            4,756                                             5,419                                              686                                

Total
Permanent
Modifications        1,155,350                                         1,018,827                                         744,272                                           371,888                                           36,405                                 

 Note: Treasury reports redefault data on HAMP permanent modifications that have aged at least three months, hence, this table does not include data on around 30,236 modifications made during the months of February, March, and April of 2013; Treasury calculates
 the percentage of HAMP permanant modifications that redefaulted by dividing the number of redefaulted permanent modifications by the total number of permanent modifications with valid records.

 Source: Treasury, “HAMP Redefault Tables 1-16 – May 2013,” accessed 6/27/2013.
                                                                        HAMP Modification Statistics I Appendix F I JULY 24, 2013   369



TABLE F.3
 redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
 STATISTICAL AREA, Cumulative AS OF 4/30/2013
                                              Permanent             Active    Redefaulted        Redefault
 MSA Name                                    Modifications   Modifications   Modifications           Rate
 Abilene, TX MSA                                       47              29                15            32%
 Aguadilla-Isabela-San Sebastian, PR MSA              139             113                20            14%
 Akron, OH MSA                                      1,961           1,447               484            25%
 Albany, GA MSA                                       201             122                77            38%
 Albany-Schenectady-Troy, NY MSA                    1,276             872               389            30%
 Albuquerque, NM MSA                                2,622           1,865               720            27%
 Alexandria, LA MSA                                   115              68                43            37%
 Allentown-Bethlehem-Easton, PA-NJ MSA              3,051           2,026               991            32%
 Altoona, PA MSA                                      104              66                36            35%
 Amarillo, TX MSA                                      96              60                29            30%
 Ames, IA MSA                                          42              24                15            36%
 Anchorage, AK MSA                                    445             322               106            24%
 Anderson, IN MSA                                     236             158                77            33%
 Anderson, SC MSA                                     414             271               128            31%
 Ann Arbor, MI MSA                                    990             755               216            22%
 Anniston-Oxford, AL MSA                              125              74                44            35%
 Appleton, WI MSA                                     288             199                81            28%
 Asheville, NC MSA                                  1,064             740               302            28%
 Athens-Clarke County, GA MSA                         455             328               123            27%
 Atlanta-Sandy Springs-Marietta, GA MSA            35,363          24,914           10,132             29%
 Atlantic City-Hammonton, NJ MSA                    1,883           1,217               645            34%
 Auburn-Opelika, AL MSA                               177             120                53            30%
 Augusta-Richmond County, GA-SC MSA                   710             511               186            26%
 Austin-Round Rock-San Marcos, TX MSA               2,234           1,604               581            26%
 Bakersfield-Delano, CA MSA                         6,871           5,186             1,624            24%
 Baltimore-Towson, MD MSA                          12,514           8,629             3,741            30%
 Bangor, ME MSA                                       277             169               105            38%
 Barnstable Town, MA MSA                            1,484           1,077               386            26%
 Baton Rouge, LA MSA                                1,679           1,092               569            34%
 Battle Creek, MI MSA                                 339             233               103            30%
 Bay City, MI MSA                                     220             162                55            25%
 Beaumont-Port Arthur, TX MSA                         205             140                62            30%
 Bellingham, WA MSA                                   501             379               113            23%
 Bend, OR MSA                                       1,092             789               286            26%
 Billings, MT MSA                                     119              79                33            28%
 Binghamton, NY MSA                                   167             120                45            27%
 Birmingham-Hoover, AL MSA                          2,665           1,740               875            33%
 Bismarck, ND MSA                                      41              26                12            29%
 Blacksburg-Christiansburg-Radford, VA MSA            117              80                31            26%
 Bloomington, IN MSA                                  190             143                39            21%
                                                                                   Continued on next page
370   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                           STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                              Permanent             Active    Redefaulted     Redefault
                           MSA Name                                          Modifications   Modifications   Modifications        Rate
                           Bloomington-Normal, IL MSA                                 151             106              39          26%
                           Boise City-Nampa, ID MSA                                 2,633           1,932             667          25%
                           Boston-Cambridge-Quincy, MA-NH MSA                      20,231          14,882           5,083          25%
                           Boulder, CO MSA                                            530             433              85          16%
                           Bowling Green, KY MSA                                      116              78              35          30%
                           Bremerton-Silverdale, WA MSA                               733             521             206          28%
                           Bridgeport-Stamford-Norwalk, CT MSA                      4,877           3,656           1,189          24%
                           Brownsville-Harlingen, TX MSA                              377             271             102          27%
                           Brunswick, GA MSA                                          194             137              55          28%
                           Buffalo-Niagara Falls, NY MSA                            1,045             730             298          29%
                           Burlington, NC MSA                                         312             222              80          26%
                           Burlington-South Burlington, VT MSA                        337             257              70          21%
                           Canton-Massillon, OH MSA                                   964             699             253          26%
                           Cape Coral-Fort Myers, FL MSA                            4,387           3,095           1,236          28%
                           Cape Girardeau-Jackson, MO MSA                              85              63              20          24%
                           Carson City, NV MSA                                        336             234              96          29%
                           Casper, WY MSA                                             108              80              25          23%
                           Cedar Rapids, IA MSA                                       262             158              98          37%
                           Champaign-Urbana, IL MSA                                   151              95              50          33%
                           Charleston, WV MSA                                         162             115              44          27%
                           Charleston-North Charleston-Summerville, SC MSA          2,394           1,653             699          29%
                           Charlotte-Gastonia-Rock Hill, NC-SC MSA                  6,878           4,776           2,007          29%
                           Charlottesville, VA MSA                                    482             346             128          27%
                           Chattanooga, TN-GA MSA                                   1,034             692             316          31%
                           Cheyenne, WY MSA                                           108              75              30          28%
                           Chicago-Joliet-Naperville, IL-IN-WI MSA                 60,874          43,345          17,100          28%
                           Chico, CA MSA                                              928             709             211          23%
                           Cincinnati-Middletown, OH-KY-IN MSA                      4,523           3,103           1,364          30%
                           Clarksville, TN-KY MSA                                     179             110              62          35%
                           Cleveland, TN MSA                                          183             119              57          31%
                           Cleveland-Elyria-Mentor, OH MSA                          6,492           4,627           1,797          28%
                           Coeur d’Alene, ID MSA                                      541             397             134          25%
                           College Station-Bryan, TX MSA                               98              63              28          29%
                           Colorado Springs, CO MSA                                 1,676           1,252             385          23%
                           Columbia, MO MSA                                           127              79              45          35%
                           Columbia, SC MSA                                         1,883           1,255             600          32%
                           Columbus, GA-AL MSA                                        537             369             161          30%
                           Columbus, IN MSA                                            86              52              29          34%
                           Columbus, OH MSA                                         4,049           2,823           1,170          29%
                           Corpus Christi, TX MSA                                     274             186              81          30%
                           Corvallis, OR MSA                                           82              65              15          18%
                                                                                                                  Continued on next page
                                                                        HAMP Modification Statistics I Appendix F I JULY 24, 2013   371



redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                              Permanent             Active    Redefaulted        Redefault
MSA Name                                     Modifications   Modifications   Modifications           Rate
Crestview-Fort Walton Beach-Destin, FL MSA            511             345               158            31%
Cumberland, MD-WV MSA                                 108              79                28            26%
Dallas-Fort Worth-Arlington, TX MSA                11,112           7,671             3,250            29%
Dalton, GA MSA                                        408             284               122            30%
Danville, IL MSA                                       34              17                17            50%
Danville, VA MSA                                      112              78                33            29%
Davenport-Moline-Rock Island, IA-IL MSA               419             275               133            32%
Dayton, OH MSA                                      1,609           1,114               484            30%
Decatur, AL MSA                                       137              98                37            27%
Decatur, IL MSA                                        58              37                21            36%
Deltona-Daytona Beach-Ormond Beach, FL MSA          3,911           2,658             1,222            31%
Denver-Aurora, CO MSA                               9,974           7,572             2,186            22%
Des Moines-West Des Moines, IA MSA                  1,154             768               359            31%
Detroit-Warren-Livonia, MI MSA                     21,372          15,525             5,512            26%
Dothan, AL MSA                                        132              92                39            30%
Dover, DE MSA                                         694             434               253            36%
Dubuque, IA MSA                                        83              51                26            31%
Duluth, MN-WI MSA                                     534             375               151            28%
Durham, NC MSA                                      1,002             708               282            28%
Eau Claire, WI MSA                                    196             127                61            31%
El Centro, CA MSA                                   1,218             900               307            25%
Elizabethtown, KY MSA                                  74              55                16            22%
Elkhart-Goshen, IN MSA                                499             361               130            26%
Elmira, NY MSA                                         73              47                26            36%
El Paso, TX MSA                                       964             707               240            25%
Erie, PA MSA                                          230             158                68            30%
Eugene-Springfield, OR MSA                            948             700               227            24%
Evansville, IN-KY MSA                                 343             233               100            29%
Fairbanks, AK MSA                                      47              27                15            32%
Fajardo, PR MSA                                        65              53                11            17%
Fargo, ND-MN MSA                                      137              95                35            26%
Farmington, NM MSA                                     90              62                25            28%
Fayetteville, NC MSA                                  427             284               135            32%
Fayetteville-Springdale-Rogers, AR-MO MSA           1,035             707               300            29%
Flagstaff, AZ MSA                                     282             184                93            33%
Flint, MI MSA                                       1,483           1,056               406            27%
Florence, SC MSA                                      338             214               120            36%
Florence-Muscle Shoals, AL MSA                        118              76                36            31%
Fond du Lac, WI MSA                                   124              83                38            31%
Fort Collins-Loveland, CO MSA                         681             521               139            20%
Fort Smith, AR-OK MSA                                 175             128                40            23%
                                                                                   Continued on next page
372   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                           STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                           Permanent             Active    Redefaulted     Redefault
                           MSA Name                                       Modifications   Modifications   Modifications        Rate
                           Fort Wayne, IN MSA                                      650             464             173          27%
                           Fresno, CA MSA                                        7,238           5,421           1,754          24%
                           Gadsden, AL MSA                                         125              88              35          28%
                           Gainesville, FL MSA                                     518             372             145          28%
                           Gainesville, GA MSA                                     959             711             241          25%
                           Glens Falls, NY MSA                                     251             170              73          29%
                           Goldsboro, NC MSA                                       116              72              43          37%
                           Grand Forks, ND-MN MSA                                   49              35              10          20%
                           Grand Junction, CO MSA                                  464             333             124          27%
                           Grand Rapids-Wyoming, MI MSA                          2,168           1,578             560          26%
                           Great Falls, MT MSA                                      59              41              17          29%
                           Greeley, CO MSA                                         924             700             205          22%
                           Green Bay, WI MSA                                       473             325             141          30%
                           Greensboro-High Point, NC MSA                         1,877           1,275             579          31%
                           Greenville, NC MSA                                      276             179              94          34%
                           Greenville-Mauldin-Easley, SC MSA                     1,418             982             410          29%
                           Guayama, PR MSA                                          34              28               6          18%
                           Gulfport-Biloxi, MS MSA                                 439             263             167          38%
                           Hagerstown-Martinsburg, MD-WV MSA                     1,368             910             443          32%
                           Hanford-Corcoran, CA MSA                                750             557             181          24%
                           Harrisburg-Carlisle, PA MSA                             762             520             231          30%
                           Harrisonburg, VA MSA                                    192             138              50          26%
                           Hartford-West Hartford-East Hartford, CT MSA          4,142           2,874           1,213          29%
                           Hattiesburg, MS MSA                                     180             122              54          30%
                           Hickory-Lenoir-Morganton, NC MSA                        802             556             224          28%
                           Hinesville-Fort Stewart, GA MSA                          74              49              25          34%
                           Holland-Grand Haven, MI MSA                             605             440             152          25%
                           Honolulu, HI MSA                                      2,126           1,587             482          23%
                           Hot Springs, AR MSA                                     114              76              34          30%
                           Houma-Bayou Cane-Thibodaux, LA MSA                      196             138              53          27%
                           Houston-Sugar Land-Baytown, TX MSA                   11,846           8,325           3,376          28%
                           Huntington-Ashland, WV-KY-OH MSA                        186             125              56          30%
                           Huntsville, AL MSA                                      474             302             165          35%
                           Idaho Falls, ID MSA                                     240             161              73          30%
                           Indianapolis-Carmel, IN MSA                           3,936           2,685           1,187          30%
                           Iowa City, IA MSA                                        85              62              19          22%
                           Ithaca, NY MSA                                           35              26               9          26%
                           Jackson, MI MSA                                         496             358             125          25%
                           Jackson, MS MSA                                       1,250             761             472          38%
                           Jackson, TN MSA                                         201             130              70          35%
                           Jacksonville, FL MSA                                  7,784           5,199           2,509          32%
                                                                                                               Continued on next page
                                                                          HAMP Modification Statistics I Appendix F I JULY 24, 2013   373



redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                Permanent             Active    Redefaulted        Redefault
MSA Name                                       Modifications   Modifications   Modifications           Rate
Jacksonville, NC MSA                                    121              82                37            31%
Janesville, WI MSA                                      474             301               165            35%
Jefferson City, MO MSA                                  136              87                44            32%
Johnson City, TN MSA                                    194             129                63            32%
Johnstown, PA MSA                                        67              41                25            37%
Jonesboro, AR MSA                                        56              38                15            27%
Joplin, MO MSA                                          169             103                54            32%
Kalamazoo-Portage, MI MSA                               682             481               195            29%
Kankakee-Bradley, IL MSA                                335             211               119            36%
Kansas City, MO-KS MSA                                4,439           2,998             1,357            31%
Kennewick-Pasco-Richland, WA MSA                        257             205                44            17%
Killeen-Temple-Fort Hood, TX MSA                        165             120                45            27%
Kingsport-Bristol-Bristol, TN-VA MSA                    255             189                62            24%
Kingston, NY MSA                                        692             505               182            26%
Knoxville, TN MSA                                     1,235             827               377            31%
Kokomo, IN MSA                                          184             131                48            26%
La Crosse, WI-MN MSA                                    118              73                39            33%
Lafayette, IN MSA                                       183             139                39            21%
Lafayette, LA MSA                                       337             215               112            33%
Lake Charles, LA MSA                                    191             134                56            29%
Lake Havasu City-Kingman, AZ MSA                      1,121             794               309            28%
Lakeland-Winter Haven, FL MSA                         3,511           2,371             1,110            32%
Lancaster, PA MSA                                       807             536               249            31%
Lansing-East Lansing, MI MSA                          1,202             841               350            29%
Laredo, TX MSA                                          381             271               106            28%
Las Cruces, NM MSA                                      268             198                63            24%
Las Vegas-Paradise, NV MSA                           22,760          15,451             7,102            31%
Lawrence, KS MSA                                        124              87                33            27%
Lawton, OK MSA                                           68              45                23            34%
Lebanon, PA MSA                                         181             113                61            34%
Lewiston, ID-WA MSA                                      73              53                16            22%
Lewiston-Auburn, ME MSA                                 250             172                75            30%
Lexington-Fayette, KY MSA                               587             408               168            29%
Lima, OH MSA                                            148             101                45            30%
Lincoln, NE MSA                                         289             193                86            30%
Little Rock-North Little Rock-Conway, AR MSA            785             505               264            34%
Logan, UT-ID MSA                                        169             120                43            25%
Longview, TX MSA                                         93              58                31            33%
Longview, WA MSA                                        343             242                94            27%
Los Angeles-Long Beach-Santa Ana, CA MSA             87,612          71,973           14,997             17%
Louisville/Jefferson County, KY-IN MSA                2,410           1,597               770            32%
                                                                                     Continued on next page
374   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                           STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                                 Permanent             Active    Redefaulted     Redefault
                           MSA Name                                             Modifications   Modifications   Modifications        Rate
                           Lubbock, TX MSA                                               116              79              35          30%
                           Lynchburg, VA MSA                                             320             235              81          25%
                           Macon, GA MSA                                                 605             405             194          32%
                           Madera, CA MSA                                              1,421           1,070             331          23%
                           Madison, WI MSA                                               907             619             264          29%
                           Manchester-Nashua, NH MSA                                   1,725           1,216             484          28%
                           Manhattan, KS MSA                                              60              42              13          22%
                           Mankato-North Mankato, MN MSA                                 131              87              41          31%
                           Mansfield, OH MSA                                             229             156              65          28%
                           Mayaguez, PR MSA                                               68              54              12          18%
                           McAllen-Edinburg-Mission, TX MSA                              854             615             232          27%
                           Medford, OR MSA                                             1,029             752             266          26%
                           Memphis, TN-MS-AR MSA                                       5,009           3,217           1,739          35%
                           Merced, CA MSA                                              2,109           1,597             497          24%
                           Miami-Fort Lauderdale-Pompano Beach, FL MSA                60,308          46,314          13,521          22%
                           Michigan City-La Porte, IN MSA                                261             184              73          28%
                           Midland, TX MSA                                                54              39              11          20%
                           Milwaukee-Waukesha-West Allis, WI MSA                       4,401           2,975           1,372          31%
                           Minneapolis-St. Paul-Bloomington, MN-WI MSA                15,758          11,179           4,377          28%
                           Missoula, MT MSA                                              196             149              43          22%
                           Mobile, AL MSA                                                872             558             304          35%
                           Modesto, CA MSA                                             5,771           4,359           1,362          24%
                           Monroe, LA MSA                                                165             110              53          32%
                           Monroe, MI MSA                                                643             472             158          25%
                           Montgomery, AL MSA                                            617             389             216          35%
                           Morgantown, WV MSA                                             39              29               6          15%
                           Morristown, TN MSA                                            228             162              63          28%
                           Mount Vernon-Anacortes, WA MSA                                401             283             112          28%
                           Muncie, IN MSA                                                126              88              36          29%
                           Muskegon-Norton Shores, MI MSA                                483             339             133          28%
                           Myrtle Beach-North Myrtle Beach-Conway, SC MSA              1,197             834             353          29%
                           Napa, CA MSA                                                  908             745             158          17%
                           Naples-Marco Island, FL MSA                                 2,097           1,517             549          26%
                           Nashville-Davidson-Murfreesboro-Franklin, TN MSA            3,780           2,508           1,198          32%
                           New Haven-Milford, CT MSA                                   4,018           2,729           1,259          31%
                           New Orleans-Metairie-Kenner, LA MSA                         3,167           2,117           1,003          32%
                           New York-Northern New Jersey-Long Island, NY-NJ-PA
                                                                                      76,922          57,834          18,445          24%
                           MSA
                           Niles-Benton Harbor, MI MSA                                   373             265              99          27%
                           North Port-Bradenton-Sarasota, FL MSA                       4,305           3,077           1,196          28%
                           Norwich-New London, CT MSA                                  1,064             725             333          31%
                                                                                                                     Continued on next page
                                                                             HAMP Modification Statistics I Appendix F I JULY 24, 2013   375



redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                   Permanent             Active    Redefaulted        Redefault
MSA Name                                          Modifications   Modifications   Modifications           Rate
Ocala, FL MSA                                            1,939           1,341               579            30%
Ocean City, NJ MSA                                         425             282               139            33%
Odessa, TX MSA                                              41              28                12            29%
Ogden-Clearfield, UT MSA                                 1,474           1,008               420            28%
Oklahoma City, OK MSA                                    1,297             866               397            31%
Olympia, WA MSA                                            805             564               230            29%
Omaha-Council Bluffs, NE-IA MSA                          1,316             861               412            31%
Orlando-Kissimmee-Sanford, FL MSA                       21,781          15,306             6,259            29%
Oshkosh-Neenah, WI MSA                                     214             135                72            34%
Owensboro, KY MSA                                           79              51                23            29%
Oxnard-Thousand Oaks-Ventura, CA MSA                     5,994           5,027               917            15%
Palm Bay-Melbourne-Titusville, FL MSA                    3,604           2,506             1,056            29%
Palm Coast, FL MSA                                         968             693               263            27%
Panama City-Lynn Haven, FL MSA                             477             311               158            33%
Parkersburg-Marietta-Vienna, WV-OH MSA                     111              77                30            27%
Pascagoula, MS MSA                                         281             170               104            37%
Pensacola-Ferry Pass-Brent, FL MSA                       1,256             856               386            31%
Peoria, IL MSA                                             329             212               108            33%
Philadelphia-Camden-Wilmington, PA-NJ-DE-MD MSA         20,227          13,467             6,524            32%
Phoenix-Mesa-Glendale, AZ MSA                           39,049          26,866           11,612             30%
Pine Bluff, AR MSA                                          42              31                11            26%
Pittsburgh, PA MSA                                       2,740           1,938               750            27%
Pittsfield, MA MSA                                         181             127                51            28%
Pocatello, ID MSA                                          137              91                45            33%
Ponce, PR MSA                                              122             104                17            14%
Portland-South Portland-Biddeford, ME MSA                1,991           1,349               608            31%
Portland-Vancouver-Hillsboro, OR-WA MSA                  9,163           6,923             2,119            23%
Port St. Lucie, FL MSA                                   4,215           2,966             1,200            28%
Poughkeepsie-Newburgh-Middletown, NY MSA                 3,350           2,264             1,052            31%
Prescott, AZ MSA                                         1,185             852               315            27%
Providence-New Bedford-Fall River, RI-MA MSA             8,536           6,027             2,428            28%
Provo-Orem, UT MSA                                       2,269           1,699               516            23%
Pueblo, CO MSA                                             432             314               110            25%
Punta Gorda, FL MSA                                      1,004             711               277            28%
Racine, WI MSA                                             574             398               171            30%
Raleigh-Cary, NC MSA                                     2,678           1,814               802            30%
Rapid City, SD MSA                                         110              73                34            31%
Reading, PA MSA                                            970             674               282            29%
Redding, CA MSA                                            951             728               215            23%
Reno-Sparks, NV MSA                                      3,411           2,386               980            29%
Richmond, VA MSA                                         4,533           3,190             1,293            29%
                                                                                        Continued on next page
376   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                           STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                        Permanent             Active    Redefaulted     Redefault
                           MSA Name                                    Modifications   Modifications   Modifications        Rate
                           Riverside-San Bernardino-Ontario, CA MSA          57,658          43,316          13,830          24%
                           Roanoke, VA MSA                                      535             362             161          30%
                           Rochester, MN MSA                                    329             224             102          31%
                           Rochester, NY MSA                                  1,102             745             335          30%
                           Rockford, IL MSA                                   1,110             707             392          35%
                           Rocky Mount, NC MSA                                  257             152             104          40%
                           Rome, GA MSA                                         148             106              41          28%
                           Sacramento-Arden-Arcade-Roseville, CA MSA         19,479          14,617           4,625          24%
                           Saginaw-Saginaw Township North, MI MSA               354             265              84          24%
                           St. Cloud, MN MSA                                    422             281             127          30%
                           St. George, UT MSA                                   936             691             232          25%
                           St. Joseph, MO-KS MSA                                124              82              41          33%
                           St. Louis, MO-IL MSA                               8,445           5,579           2,736          32%
                           Salem, OR MSA                                      1,290             942             337          26%
                           Salinas, CA MSA                                    2,716           2,250             451          17%
                           Salisbury, MD MSA                                    403             260             138          34%
                           Salt Lake City, UT MSA                             4,990           3,690           1,194          24%
                           San Angelo, TX MSA                                    41              26              12          29%
                           San Antonio-New Braunfels, TX MSA                  2,439           1,695             700          29%
                           San Diego-Carlsbad-San Marcos, CA MSA             20,084          16,471           3,438          17%
                           Sandusky, OH MSA                                     173             120              51          29%
                           San Francisco-Oakland-Fremont, CA MSA             24,319          20,047           4,103          17%
                           San German-Cabo Rojo, PR MSA                          63              55               8          13%
                           San Jose-Sunnyvale-Santa Clara, CA MSA             7,881           6,731           1,078          14%
                           San Juan-Caguas-Guaynabo, PR MSA                   3,180           2,617             511          16%
                           San Luis Obispo-Paso Robles, CA MSA                1,301           1,084             203          16%
                           Santa Barbara-Santa Maria-Goleta, CA MSA           2,178           1,764             398          18%
                           Santa Cruz-Watsonville, CA MSA                     1,151           1,013             133          12%
                           Santa Fe, NM MSA                                     475             362             105          22%
                           Santa Rosa-Petaluma, CA MSA                        3,411           2,831             556          16%
                           Savannah, GA MSA                                     949             637             300          32%
                           Scranton-Wilkes-Barre, PA MSA                        932             643             276          30%
                           Seattle-Tacoma-Bellevue, WA MSA                   16,203          11,861           4,177          26%
                           Sebastian-Vero Beach, FL MSA                         934             634             292          31%
                           Sheboygan, WI MSA                                    173             116              54          31%
                           Sherman-Denison, TX MSA                              126              95              29          23%
                           Shreveport-Bossier City, LA MSA                      507             317             180          36%
                           Sioux City, IA-NE-SD MSA                             120              82              34          28%
                           Sioux Falls, SD MSA                                  201             130              58          29%
                           South Bend-Mishawaka, IN-MI MSA                      733             524             200          27%
                           Spartanburg, SC MSA                                  627             422             192          31%
                                                                                                            Continued on next page
                                                                              HAMP Modification Statistics I Appendix F I JULY 24, 2013   377



redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                    Permanent             Active    Redefaulted        Redefault
MSA Name                                           Modifications   Modifications   Modifications           Rate
Spokane, WA MSA                                           1,169             838               309            26%
Springfield, IL MSA                                         143              96                43            30%
Springfield, MA MSA                                       2,081           1,372               686            33%
Springfield, MO MSA                                         614             405               193            31%
Springfield, OH MSA                                         252             186                66            26%
State College, PA MSA                                       108              80                25            23%
Steubenville-Weirton, OH-WV MSA                             101              72                29            29%
Stockton, CA MSA                                          8,196           6,114             2,016            25%
Sumter, SC MSA                                              149              81                66            44%
Syracuse, NY MSA                                            516             354               152            29%
Tallahassee, FL MSA                                         964             650               300            31%
Tampa-St. Petersburg-Clearwater, FL MSA                  17,561          12,147             5,203            30%
Terre Haute, IN MSA                                         127              88                38            30%
Texarkana, TX-Texarkana, AR MSA                              56              41                14            25%
Toledo, OH MSA                                            1,804           1,217               564            31%
Topeka, KS MSA                                              204             133                65            32%
Trenton-Ewing, NJ MSA                                     1,185             772               400            34%
Tucson, AZ MSA                                            5,149           3,602             1,492            29%
Tulsa, OK MSA                                             1,037             680               329            32%
Tuscaloosa, AL MSA                                          248             166                75            30%
Tyler, TX MSA                                               166             101                57            34%
Utica-Rome, NY MSA                                          235             147                84            36%
Valdosta, GA MSA                                            144              92                51            35%
Vallejo-Fairfield, CA MSA                                 5,332           4,087             1,207            23%
Victoria, TX MSA                                             28              21                  6           21%
Vineland-Millville-Bridgeton, NJ MSA                        502             312               188            37%
Virginia Beach-Norfolk-Newport News, VA-NC MSA            5,275           3,590             1,608            30%
Visalia-Porterville, CA MSA                               3,189           2,396               766            24%
Waco, TX MSA                                                126              79                44            35%
Warner Robins, GA MSA                                       192             132                56            29%
Washington-Arlington-Alexandria, DC-VA-MD-WV MSA         38,549          28,853             9,240            24%
Waterloo-Cedar Falls, IA MSA                                154             111                40            26%
Wausau, WI MSA                                              157             109                47            30%
Wenatchee, WA MSA                                           222             150                69            31%
Wheeling, WV-OH MSA                                          85              57                27            32%
Wichita, KS MSA                                             567             359               190            34%
Wichita Falls, TX MSA                                        43              27                15            35%
Williamsport, PA MSA                                        100              71                24            24%
Wilmington, NC MSA                                        1,094             765               317            29%
Winchester, VA-WV MSA                                       701             495               196            28%
Winston-Salem, NC MSA                                     1,073             710               345            32%
                                                                                         Continued on next page
378   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                           STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                                                     Permanent                    Active          Redefaulted    Redefault
                           MSA Name                                                                 Modifications          Modifications         Modifications       Rate
                           Worcester, MA MSA                                                                   3,926                  2,687             1,201         31%
                           Yakima, WA MSA                                                                        278                     206               70         25%
                           Yauco, PR MSA                                                                           30                      29               1          3%
                           York-Hanover, PA MSA                                                                1,275                     828              435         34%
                           Youngstown-Warren-Boardman, OH-PA MSA                                                 935                     673              247         26%
                           Yuba City, CA MSA                                                                   1,236                     900              322         26%
                           Yuma, AZ MSA                                                                          987                     709              269         27%
                           Property is determined to be in a location that is not
                                                                                                             69,559                  48,304            19,957         29%
                           in any MSA
                           No Match Found                                                                            9                       6              3         33%
                           To Be Determined                                                                        53                        0             53        100%
                           Total                                                                       1,185,586                  865,100            306,538         26%
                           Notes: Includes GSE and non-GSE modifications. Of permanent modifications started, 13,948 loans have been paid off.

                           Source: Treasury, response to SIGTARP data call, 6/13/2013.
                                                                   HAMP Modification Statistics I Appendix F I JULY 24, 2013   379



TABLE F.4
 Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
 redefault rate, cumulative AS OF 4/30/2013
                                         Permanent             Active    Redefaulted        Redefault
 MSA Name                               Modifications   Modifications   Modifications           Rate
 Danville, IL MSA                                 34              17                17            50%
 Sumter, SC MSA                                  149              81                66            44%
 Rocky Mount, NC MSA                             257             152               104            40%
 Albany, GA MSA                                  201             122                77            38%
 Gulfport-Biloxi, MS MSA                         439             263               167            38%
 Bangor, ME MSA                                  277             169               105            38%
 Jackson, MS MSA                               1,250             761               472            38%
 Vineland-Millville-Bridgeton, NJ MSA            502             312               188            37%
 Cedar Rapids, IA MSA                            262             158                98            37%
 Alexandria, LA MSA                              115              68                43            37%
 Johnstown, PA MSA                                67              41                25            37%
 Goldsboro, NC MSA                               116              72                43            37%
 Pascagoula, MS MSA                              281             170               104            37%
 Dover, DE MSA                                   694             434               253            36%
 Decatur, IL MSA                                  58              37                21            36%
 Utica-Rome, NY MSA                              235             147                84            36%
 Ames, IA MSA                                     42              24                15            36%
 Elmira, NY MSA                                   73              47                26            36%
 Kankakee-Bradley, IL MSA                        335             211               119            36%
 Florence, SC MSA                                338             214               120            36%
 Shreveport-Bossier City, LA MSA                 507             317               180            36%
 Columbia, MO MSA                                127              79                45            35%
 Valdosta, GA MSA                                144              92                51            35%
 Rockford, IL MSA                              1,110             707               392            35%
 Anniston-Oxford, AL MSA                         125              74                44            35%
 Montgomery, AL MSA                              617             389               216            35%
 Waco, TX MSA                                    126              79                44            35%
 Wichita Falls, TX MSA                            43              27                15            35%
 Mobile, AL MSA                                  872             558               304            35%
 Jackson, TN MSA                                 201             130                70            35%
 Huntsville, AL MSA                              474             302               165            35%
 Janesville, WI MSA                              474             301               165            35%
 Memphis, TN-MS-AR MSA                         5,009           3,217             1,739            35%
 Clarksville, TN-KY MSA                          179             110                62            35%
 Altoona, PA MSA                                 104              66                36            35%
 Tyler, TX MSA                                   166             101                57            34%
 Atlantic City-Hammonton, NJ MSA               1,883           1,217               645            34%
 Salisbury, MD MSA                               403             260               138            34%
 York-Hanover, PA MSA                          1,275             828               435            34%
 Greenville, NC MSA                              276             179                94            34%
                                                                              Continued on next page
380   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                           redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                              Permanent             Active    Redefaulted     Redefault
                           MSA Name                                          Modifications   Modifications   Modifications        Rate
                           Baton Rouge, LA MSA                                      1,679           1,092             569          34%
                           Lawton, OK MSA                                              68              45              23          34%
                           Hinesville-Fort Stewart, GA MSA                             74              49              25          34%
                           Trenton-Ewing, NJ MSA                                    1,185             772             400          34%
                           Columbus, IN MSA                                            86              52              29          34%
                           Lebanon, PA MSA                                            181             113              61          34%
                           Oshkosh-Neenah, WI MSA                                     214             135              72          34%
                           Little Rock-North Little Rock-Conway, AR MSA               785             505             264          34%
                           Wichita, KS MSA                                            567             359             190          34%
                           Longview, TX MSA                                            93              58              31          33%
                           Lafayette, LA MSA                                          337             215             112          33%
                           Panama City-Lynn Haven, FL MSA                             477             311             158          33%
                           Champaign-Urbana, IL MSA                                   151              95              50          33%
                           St. Joseph, MO-KS MSA                                      124              82              41          33%
                           La Crosse, WI-MN MSA                                       118              73              39          33%
                           Flagstaff, AZ MSA                                          282             184              93          33%
                           Springfield, MA MSA                                      2,081           1,372             686          33%
                           Pocatello, ID MSA                                          137              91              45          33%
                           Birmingham-Hoover, AL MSA                                2,665           1,740             875          33%
                           Peoria, IL MSA                                             329             212             108          33%
                           Ocean City, NJ MSA                                         425             282             139          33%
                           Anderson, IN MSA                                           236             158              77          33%
                           Allentown-Bethlehem-Easton, PA-NJ MSA                    3,051           2,026             991          32%
                           Johnson City, TN MSA                                       194             129              63          32%
                           St. Louis, MO-IL MSA                                     8,445           5,579           2,736          32%
                           Hagerstown-Martinsburg, MD-WV MSA                        1,368             910             443          32%
                           Jefferson City, MO MSA                                     136              87              44          32%
                           Philadelphia-Camden-Wilmington, PA-NJ-DE-MD MSA         20,227          13,467           6,524          32%
                           Jacksonville, FL MSA                                     7,784           5,199           2,509          32%
                           Winston-Salem, NC MSA                                    1,073             710             345          32%
                           Monroe, LA MSA                                             165             110              53          32%
                           Macon, GA MSA                                              605             405             194          32%
                           Joplin, MO MSA                                             169             103              54          32%
                           Louisville/Jefferson County, KY-IN MSA                   2,410           1,597             770          32%
                           Abilene, TX MSA                                             47              29              15          32%
                           Fairbanks, AK MSA                                           47              27              15          32%
                           Columbia, SC MSA                                         1,883           1,255             600          32%
                           Topeka, KS MSA                                             204             133              65          32%
                           Wheeling, WV-OH MSA                                         85              57              27          32%
                           Davenport-Moline-Rock Island, IA-IL MSA                    419             275             133          32%
                           Tulsa, OK MSA                                            1,037             680             329          32%
                                                                                                                  Continued on next page
                                                                              HAMP Modification Statistics I Appendix F I JULY 24, 2013   381



Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                    Permanent             Active    Redefaulted        Redefault
MSA Name                                           Modifications   Modifications   Modifications           Rate
Nashville-Davidson-Murfreesboro-Franklin, TN MSA          3,780           2,508             1,198            32%
New Orleans-Metairie-Kenner, LA MSA                       3,167           2,117             1,003            32%
Fayetteville, NC MSA                                        427             284               135            32%
Lakeland-Winter Haven, FL MSA                             3,511           2,371             1,110            32%
Savannah, GA MSA                                            949             637               300            32%
Springfield, MO MSA                                         614             405               193            31%
Poughkeepsie-Newburgh-Middletown, NY MSA                  3,350           2,264             1,052            31%
New Haven-Milford, CT MSA                                 4,018           2,729             1,259            31%
Dubuque, IA MSA                                              83              51                26            31%
Omaha-Council Bluffs, NE-IA MSA                           1,316             861               412            31%
Mankato-North Mankato, MN MSA                               131              87                41            31%
Norwich-New London, CT MSA                                1,064             725               333            31%
Toledo, OH MSA                                            1,804           1,217               564            31%
Sebastian-Vero Beach, FL MSA                                934             634               292            31%
Deltona-Daytona Beach-Ormond Beach, FL MSA                3,911           2,658             1,222            31%
Sheboygan, WI MSA                                           173             116                54            31%
Las Vegas-Paradise, NV MSA                               22,760          15,451             7,102            31%
Milwaukee-Waukesha-West Allis, WI MSA                     4,401           2,975             1,372            31%
Cleveland, TN MSA                                           183             119                57            31%
Eau Claire, WI MSA                                          196             127                61            31%
Tallahassee, FL MSA                                         964             650               300            31%
Des Moines-West Des Moines, IA MSA                        1,154             768               359            31%
Wenatchee, WA MSA                                           222             150                69            31%
Rochester, MN MSA                                           329             224               102            31%
Crestview-Fort Walton Beach-Destin, FL MSA                  511             345               158            31%
Anderson, SC MSA                                            414             271               128            31%
Rapid City, SD MSA                                          110              73                34            31%
Lancaster, PA MSA                                           807             536               249            31%
Greensboro-High Point, NC MSA                             1,877           1,275               579            31%
Pensacola-Ferry Pass-Brent, FL MSA                        1,256             856               386            31%
Fond du Lac, WI MSA                                         124              83                38            31%
Spartanburg, SC MSA                                         627             422               192            31%
Oklahoma City, OK MSA                                     1,297             866               397            31%
Worcester, MA MSA                                         3,926           2,687             1,201            31%
Jacksonville, NC MSA                                        121              82                37            31%
Kansas City, MO-KS MSA                                    4,439           2,998             1,357            31%
Chattanooga, TN-GA MSA                                    1,034             692               316            31%
Portland-South Portland-Biddeford, ME MSA                 1,991           1,349               608            31%
Knoxville, TN MSA                                         1,235             827               377            31%
Florence-Muscle Shoals, AL MSA                              118              76                36            31%
Albany-Schenectady-Troy, NY MSA                           1,276             872               389            30%
                                                                                         Continued on next page
382   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                           redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                             Permanent             Active    Redefaulted     Redefault
                           MSA Name                                         Modifications   Modifications   Modifications        Rate
                           Virginia Beach-Norfolk-Newport News, VA-NC MSA          5,275           3,590           1,608          30%
                           Idaho Falls, ID MSA                                       240             161              73          30%
                           Lima, OH MSA                                              148             101              45          30%
                           Rochester, NY MSA                                       1,102             745             335          30%
                           Battle Creek, MI MSA                                      339             233             103          30%
                           Harrisburg-Carlisle, PA MSA                               762             520             231          30%
                           Beaumont-Port Arthur, TX MSA                              205             140              62          30%
                           Tuscaloosa, AL MSA                                        248             166              75          30%
                           Amarillo, TX MSA                                           96              60              29          30%
                           Bowling Green, KY MSA                                     116              78              35          30%
                           Lubbock, TX MSA                                           116              79              35          30%
                           Indianapolis-Carmel, IN MSA                             3,936           2,685           1,187          30%
                           Cincinnati-Middletown, OH-KY-IN MSA                     4,523           3,103           1,364          30%
                           Huntington-Ashland, WV-KY-OH MSA                          186             125              56          30%
                           St. Cloud, MN MSA                                         422             281             127          30%
                           Roanoke, VA MSA                                           535             362             161          30%
                           Dayton, OH MSA                                          1,609           1,114             484          30%
                           Springfield, IL MSA                                       143              96              43          30%
                           Hattiesburg, MS MSA                                       180             122              54          30%
                           Lewiston-Auburn, ME MSA                                   250             172              75          30%
                           Columbus, GA-AL MSA                                       537             369             161          30%
                           Raleigh-Cary, NC MSA                                    2,678           1,814             802          30%
                           Auburn-Opelika, AL MSA                                    177             120              53          30%
                           Wausau, WI MSA                                            157             109              47          30%
                           Terre Haute, IN MSA                                       127              88              38          30%
                           Dalton, GA MSA                                            408             284             122          30%
                           Baltimore-Towson, MD MSA                               12,514           8,629           3,741          30%
                           Ocala, FL MSA                                           1,939           1,341             579          30%
                           Hot Springs, AR MSA                                       114              76              34          30%
                           Green Bay, WI MSA                                         473             325             141          30%
                           Racine, WI MSA                                            574             398             171          30%
                           Lincoln, NE MSA                                           289             193              86          30%
                           Phoenix-Mesa-Glendale, AZ MSA                          39,049          26,866          11,612          30%
                           Tampa-St. Petersburg-Clearwater, FL MSA                17,561          12,147           5,203          30%
                           Scranton-Wilkes-Barre, PA MSA                             932             643             276          30%
                           Erie, PA MSA                                              230             158              68          30%
                           Corpus Christi, TX MSA                                    274             186              81          30%
                           Dothan, AL MSA                                            132              92              39          30%
                           Myrtle Beach-North Myrtle Beach-Conway, SC MSA          1,197             834             353          29%
                           Sandusky, OH MSA                                          173             120              51          29%
                           Danville, VA MSA                                          112              78              33          29%
                                                                                                                 Continued on next page
                                                                             HAMP Modification Statistics I Appendix F I JULY 24, 2013   383



Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                   Permanent             Active    Redefaulted        Redefault
MSA Name                                          Modifications   Modifications   Modifications           Rate
Syracuse, NY MSA                                           516             354               152            29%
Lake Charles, LA MSA                                       191             134                56            29%
Palm Bay-Melbourne-Titusville, FL MSA                    3,604           2,506             1,056            29%
Hartford-West Hartford-East Hartford, CT MSA             4,142           2,874             1,213            29%
Bismarck, ND MSA                                            41              26                12            29%
Odessa, TX MSA                                              41              28                12            29%
San Angelo, TX MSA                                          41              26                12            29%
Dallas-Fort Worth-Arlington, TX MSA                     11,112           7,671             3,250            29%
Charleston-North Charleston-Summerville, SC MSA          2,394           1,653               699            29%
Charlotte-Gastonia-Rock Hill, NC-SC MSA                  6,878           4,776             2,007            29%
Warner Robins, GA MSA                                      192             132                56            29%
Evansville, IN-KY MSA                                      343             233               100            29%
Lansing-East Lansing, MI MSA                             1,202             841               350            29%
Owensboro, KY MSA                                           79              51                23            29%
Madison, WI MSA                                            907             619               264            29%
Glens Falls, NY MSA                                        251             170                73            29%
Reading, PA MSA                                            970             674               282            29%
Fayetteville-Springdale-Rogers, AR-MO MSA                1,035             707               300            29%
Tucson, AZ MSA                                           5,149           3,602             1,492            29%
Wilmington, NC MSA                                       1,094             765               317            29%
Greenville-Mauldin-Easley, SC MSA                        1,418             982               410            29%
Columbus, OH MSA                                         4,049           2,823             1,170            29%
Sioux Falls, SD MSA                                        201             130                58            29%
Great Falls, MT MSA                                         59              41                17            29%
Orlando-Kissimmee-Sanford, FL MSA                       21,781          15,306             6,259            29%
Reno-Sparks, NV MSA                                      3,411           2,386               980            29%
Steubenville-Weirton, OH-WV MSA                            101              72                29            29%
San Antonio-New Braunfels, TX MSA                        2,439           1,695               700            29%
Atlanta-Sandy Springs-Marietta, GA MSA                  35,363          24,914           10,132             29%
Lexington-Fayette, KY MSA                                  587             408               168            29%
Kalamazoo-Portage, MI MSA                                  682             481               195            29%
Carson City, NV MSA                                        336             234                96            29%
College Station-Bryan, TX MSA                               98              63                28            29%
Muncie, IN MSA                                             126              88                36            29%
Olympia, WA MSA                                            805             564               230            29%
Richmond, VA MSA                                         4,533           3,190             1,293            29%
Buffalo-Niagara Falls, NY MSA                            1,045             730               298            29%
Houston-Sugar Land-Baytown, TX MSA                      11,846           8,325             3,376            28%
Ogden-Clearfield, UT MSA                                 1,474           1,008               420            28%
Port St. Lucie, FL MSA                                   4,215           2,966             1,200            28%
Providence-New Bedford-Fall River, RI-MA MSA             8,536           6,027             2,428            28%
                                                                                        Continued on next page
384   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                           redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                          Permanent             Active    Redefaulted     Redefault
                           MSA Name                                      Modifications   Modifications   Modifications        Rate
                           Mansfield, OH MSA                                      229             156              65          28%
                           Asheville, NC MSA                                    1,064             740             302          28%
                           Brunswick, GA MSA                                      194             137              55          28%
                           Sioux City, IA-NE-SD MSA                               120              82              34          28%
                           Duluth, MN-WI MSA                                      534             375             151          28%
                           Pittsfield, MA MSA                                     181             127              51          28%
                           Cape Coral-Fort Myers, FL MSA                        4,387           3,095           1,236          28%
                           Durham, NC MSA                                       1,002             708             282          28%
                           Appleton, WI MSA                                       288             199              81          28%
                           Bremerton-Silverdale, WA MSA                           733             521             206          28%
                           Chicago-Joliet-Naperville, IL-IN-WI MSA             60,874          43,345          17,100          28%
                           Manchester-Nashua, NH MSA                            1,725           1,216             484          28%
                           Gadsden, AL MSA                                        125              88              35          28%
                           Gainesville, FL MSA                                    518             372             145          28%
                           Michigan City-La Porte, IN MSA                         261             184              73          28%
                           Winchester, VA-WV MSA                                  701             495             196          28%
                           Hickory-Lenoir-Morganton, NC MSA                       802             556             224          28%
                           Mount Vernon-Anacortes, WA MSA                         401             283             112          28%
                           Laredo, TX MSA                                         381             271             106          28%
                           North Port-Bradenton-Sarasota, FL MSA                4,305           3,077           1,196          28%
                           Cheyenne, WY MSA                                       108              75              30          28%
                           Farmington, NM MSA                                      90              62              25          28%
                           Minneapolis-St. Paul-Bloomington, MN-WI MSA         15,758          11,179           4,377          28%
                           Billings, MT MSA                                       119              79              33          28%
                           Rome, GA MSA                                           148             106              41          28%
                           Cleveland-Elyria-Mentor, OH MSA                      6,492           4,627           1,797          28%
                           Morristown, TN MSA                                     228             162              63          28%
                           Punta Gorda, FL MSA                                  1,004             711             277          28%
                           Lake Havasu City-Kingman, AZ MSA                     1,121             794             309          28%
                           Muskegon-Norton Shores, MI MSA                         483             339             133          28%
                           Albuquerque, NM MSA                                  2,622           1,865             720          27%
                           Longview, WA MSA                                       343             242              94          27%
                           Flint, MI MSA                                        1,483           1,056             406          27%
                           Pittsburgh, PA MSA                                   2,740           1,938             750          27%
                           South Bend-Mishawaka, IN-MI MSA                        733             524             200          27%
                           Killeen-Temple-Fort Hood, TX MSA                       165             120              45          27%
                           Yuma, AZ MSA                                           987             709             269          27%
                           Palm Coast, FL MSA                                     968             693             263          27%
                           McAllen-Edinburg-Mission, TX MSA                       854             615             232          27%
                           Charleston, WV MSA                                     162             115              44          27%
                           Brownsville-Harlingen, TX MSA                          377             271             102          27%
                                                                                                              Continued on next page
                                                                       HAMP Modification Statistics I Appendix F I JULY 24, 2013   385



Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                             Permanent             Active    Redefaulted        Redefault
MSA Name                                    Modifications   Modifications   Modifications           Rate
Houma-Bayou Cane-Thibodaux, LA MSA                   196             138                53            27%
Athens-Clarke County, GA MSA                         455             328               123            27%
Parkersburg-Marietta-Vienna, WV-OH MSA               111              77                30            27%
Decatur, AL MSA                                      137              98                37            27%
Binghamton, NY MSA                                   167             120                45            27%
Jonesboro, AR MSA                                     56              38                15            27%
Grand Junction, CO MSA                               464             333               124            27%
Fort Wayne, IN MSA                                   650             464               173            27%
Lawrence, KS MSA                                     124              87                33            27%
Prescott, AZ MSA                                   1,185             852               315            27%
Charlottesville, VA MSA                              482             346               128            27%
Niles-Benton Harbor, MI MSA                          373             265                99            27%
Blacksburg-Christiansburg-Radford, VA MSA            117              80                31            26%
Spokane, WA MSA                                    1,169             838               309            26%
Youngstown-Warren-Boardman, OH-PA MSA                935             673               247            26%
Kingston, NY MSA                                     692             505               182            26%
Canton-Massillon, OH MSA                             964             699               253            26%
Augusta-Richmond County, GA-SC MSA                   710             511               186            26%
Bend, OR MSA                                       1,092             789               286            26%
Pine Bluff, AR MSA                                    42              31                11            26%
Springfield, OH MSA                                  252             186                66            26%
Naples-Marco Island, FL MSA                        2,097           1,517               549            26%
Salem, OR MSA                                      1,290             942               337            26%
Kokomo, IN MSA                                       184             131                48            26%
Elkhart-Goshen, IN MSA                               499             361               130            26%
Yuba City, CA MSA                                  1,236             900               322            26%
Harrisonburg, VA MSA                                 192             138                50            26%
Barnstable Town, MA MSA                            1,484           1,077               386            26%
Austin-Round Rock-San Marcos, TX MSA               2,234           1,604               581            26%
Waterloo-Cedar Falls, IA MSA                         154             111                40            26%
Cumberland, MD-WV MSA                                108              79                28            26%
Medford, OR MSA                                    1,029             752               266            26%
Grand Rapids-Wyoming, MI MSA                       2,168           1,578               560            26%
Bloomington-Normal, IL MSA                           151             106                39            26%
Detroit-Warren-Livonia, MI MSA                    21,372          15,525             5,512            26%
Seattle-Tacoma-Bellevue, WA MSA                   16,203          11,861             4,177            26%
Ithaca, NY MSA                                        35              26                  9           26%
Burlington, NC MSA                                   312             222                80            26%
Fargo, ND-MN MSA                                     137              95                35            26%
Pueblo, CO MSA                                       432             314               110            25%
Logan, UT-ID MSA                                     169             120                43            25%
                                                                                  Continued on next page
386   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                           redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                                 Permanent             Active    Redefaulted     Redefault
                           MSA Name                                             Modifications   Modifications   Modifications        Rate
                           Boise City-Nampa, ID MSA                                    2,633           1,932             667          25%
                           Lynchburg, VA MSA                                             320             235              81          25%
                           El Centro, CA MSA                                           1,218             900             307          25%
                           Jackson, MI MSA                                               496             358             125          25%
                           Yakima, WA MSA                                                278             206              70          25%
                           Gainesville, GA MSA                                           959             711             241          25%
                           Boston-Cambridge-Quincy, MA-NH MSA                         20,231          14,882           5,083          25%
                           Holland-Grand Haven, MI MSA                                   605             440             152          25%
                           Bay City, MI MSA                                              220             162              55          25%
                           Texarkana, TX-Texarkana, AR MSA                                56              41              14          25%
                           El Paso, TX MSA                                               964             707             240          25%
                           St. George, UT MSA                                            936             691             232          25%
                           Coeur d’Alene, ID MSA                                         541             397             134          25%
                           Akron, OH MSA                                               1,961           1,447             484          25%
                           Stockton, CA MSA                                            8,196           6,114           2,016          25%
                           Monroe, MI MSA                                                643             472             158          25%
                           Bridgeport-Stamford-Norwalk, CT MSA                         4,877           3,656           1,189          24%
                           Kingsport-Bristol-Bristol, TN-VA MSA                          255             189              62          24%
                           Fresno, CA MSA                                              7,238           5,421           1,754          24%
                           Hanford-Corcoran, CA MSA                                      750             557             181          24%
                           Visalia-Porterville, CA MSA                                 3,189           2,396             766          24%
                           Williamsport, PA MSA                                          100              71              24          24%
                           Riverside-San Bernardino-Ontario, CA MSA                   57,658          43,316          13,830          24%
                           New York-Northern New Jersey-Long Island, NY-NJ-PA
                                                                                      76,922          57,834          18,445          24%
                           MSA
                           Washington-Arlington-Alexandria, DC-VA-MD-WV MSA           38,549          28,853           9,240          24%
                           Eugene-Springfield, OR MSA                                    948             700             227          24%
                           Salt Lake City, UT MSA                                      4,990           3,690           1,194          24%
                           Anchorage, AK MSA                                             445             322             106          24%
                           Sacramento-Arden-Arcade-Roseville, CA MSA                  19,479          14,617           4,625          24%
                           Saginaw-Saginaw Township North, MI MSA                        354             265              84          24%
                           Bakersfield-Delano, CA MSA                                  6,871           5,186           1,624          24%
                           Modesto, CA MSA                                             5,771           4,359           1,362          24%
                           Merced, CA MSA                                              2,109           1,597             497          24%
                           Cape Girardeau-Jackson, MO MSA                                 85              63              20          24%
                           Las Cruces, NM MSA                                            268             198              63          24%
                           Madera, CA MSA                                              1,421           1,070             331          23%
                           Casper, WY MSA                                                108              80              25          23%
                           State College, PA MSA                                         108              80              25          23%
                           Portland-Vancouver-Hillsboro, OR-WA MSA                     9,163           6,923           2,119          23%
                           Sherman-Denison, TX MSA                                       126              95              29          23%
                                                                                                                     Continued on next page
                                                                         HAMP Modification Statistics I Appendix F I JULY 24, 2013   387



Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                               Permanent             Active    Redefaulted        Redefault
MSA Name                                      Modifications   Modifications   Modifications           Rate
Colorado Springs, CO MSA                             1,676           1,252               385            23%
Fort Smith, AR-OK MSA                                  175             128                40            23%
Provo-Orem, UT MSA                                   2,269           1,699               516            23%
Chico, CA MSA                                          928             709               211            23%
Honolulu, HI MSA                                     2,126           1,587               482            23%
Vallejo-Fairfield, CA MSA                            5,332           4,087             1,207            23%
Redding, CA MSA                                        951             728               215            23%
Bellingham, WA MSA                                     501             379               113            23%
Miami-Fort Lauderdale-Pompano Beach, FL MSA         60,308          46,314           13,521             22%
Iowa City, IA MSA                                       85              62                19            22%
Greeley, CO MSA                                        924             700               205            22%
Santa Fe, NM MSA                                       475             362               105            22%
Missoula, MT MSA                                       196             149                43            22%
Lewiston, ID-WA MSA                                     73              53                16            22%
Denver-Aurora, CO MSA                                9,974           7,572             2,186            22%
Ann Arbor, MI MSA                                      990             755               216            22%
Manhattan, KS MSA                                       60              42                13            22%
Elizabethtown, KY MSA                                   74              55                16            22%
Victoria, TX MSA                                        28              21                  6           21%
Lafayette, IN MSA                                      183             139                39            21%
Burlington-South Burlington, VT MSA                    337             257                70            21%
Bloomington, IN MSA                                    190             143                39            21%
Fort Collins-Loveland, CO MSA                          681             521               139            20%
Grand Forks, ND-MN MSA                                  49              35                10            20%
Midland, TX MSA                                         54              39                11            20%
Corvallis, OR MSA                                       82              65                15            18%
Santa Barbara-Santa Maria-Goleta, CA MSA             2,178           1,764               398            18%
Guayama, PR MSA                                         34              28                  6           18%
Mayaguez, PR MSA                                        68              54                12            18%
Napa, CA MSA                                           908             745               158            17%
Kennewick-Pasco-Richland, WA MSA                       257             205                44            17%
San Diego-Carlsbad-San Marcos, CA MSA               20,084          16,471             3,438            17%
Los Angeles-Long Beach-Santa Ana, CA MSA            87,612          71,973           14,997             17%
Fajardo, PR MSA                                         65              53                11            17%
San Francisco-Oakland-Fremont, CA MSA               24,319          20,047             4,103            17%
Salinas, CA MSA                                      2,716           2,250               451            17%
Santa Rosa-Petaluma, CA MSA                          3,411           2,831               556            16%
San Juan-Caguas-Guaynabo, PR MSA                     3,180           2,617               511            16%
Boulder, CO MSA                                        530             433                85            16%
San Luis Obispo-Paso Robles, CA MSA                  1,301           1,084               203            16%
Morgantown, WV MSA                                      39              29                  6           15%
                                                                                    Continued on next page
388   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                           Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                           redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                                                     Permanent                    Active          Redefaulted    Redefault
                           MSA Name                                                                 Modifications          Modifications         Modifications       Rate
                           Oxnard-Thousand Oaks-Ventura, CA MSA                                                5,994                  5,027               917         15%
                           Aguadilla-Isabela-San Sebastian, PR MSA                                               139                     113               20         14%
                           Ponce, PR MSA                                                                         122                     104               17         14%
                           San Jose-Sunnyvale-Santa Clara, CA MSA                                              7,881                  6,731             1,078         14%
                           San German-Cabo Rojo, PR MSA                                                            63                      55               8         13%
                           Santa Cruz-Watsonville, CA MSA                                                      1,151                  1,013               133         12%
                           Yauco, PR MSA                                                                           30                      29               1          3%
                           Property is determined to be in a location that is not
                                                                                                             69,559                  48,304            19,957         29%
                           in any MSA
                           No Match Found                                                                            9                       6              3         33%
                           To Be Determined                                                                        53                        0             53        100%
                           Total                                                                       1,185,586                  865,100            306,538         26%
                           Notes: Includes GSE and non-GSE modifications. Of permanent modifications started, 13,948 loans have been paid off.

                           Source: Treasury, response to SIGTARP data call, 6/13/2013.
                                                    Cross-Reference of Report to the Inspector General Act of 1978 | Appendix G I JULY 24, 2013                  389




Cross-Reference of Report to the Inspector General Act of 1978
This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
(P.L. 95-452), as amended, 5 U.S.C. APP.

Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
5(a)(1)    deficiencies...”                                        from SIGTARP audits and investigations.     Section 5: “SIGTARP Recommendations”
           “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
Section                                                            List recommendations from SIGTARP
           action…with respect to significant problems,
5(a)(2)                                                            audits and investigations.                  Section 5: “SIGTARP Recommendations”
           abuses, or deficiencies...”
           “Identification of each significant recommendation      List all instances of incomplete
Section
           described in previous semiannual reports on which       corrective action from previous             Section 5: “SIGTARP Recommendations”
5(a)(3)
           corrective action has not been completed...”            semiannual reports.
           “A summary of matters referred to prosecutive
Section                                                            List status of SIGTARP investigations
           authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
5(a)(4)                                                            referred to prosecutive authorities.
           which have resulted...”
           “A summary of each report made to the [Treasury
Section    Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix I: “Key Oversight Reports
5(a)(5)    where information requested was refused or              GAO, and SIGTARP.                           and Testimony”
           not provided).
           “A listing, subdivided according to subject matter,
Section    of each audit report issued...” showing dollar value
                                                                   List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
5(a)(6)    of questioned costs and recommendations that
           funds be put to better use.
Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                               Section 1: “The Office of the SIGTARP”
5(a)(7)    report...”                                              SIGTARP audits.

           “Statistical tables showing the total number of         Provide statistical tables showing          Section 1: “The Office of the SIGTARP”
Section
           audit reports and the total dollar value of             dollar value of questioned costs from       Section 5: “SIGTARP Recommendations”
5(a)(8)
           questioned costs...”                                    SIGTARP audits.

                                                                                                               As detailed in Section 1: “The Office of the
           “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
Section
           reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
5(a)(9)
           that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                               to better use findings.
           “A summary of each audit report issued before
           the commencement of the reporting period for
                                                                   Provide a synopsis of significant
           which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
Section                                                            SIGTARP audit reports in which
           the end of reporting period, an explanation of the
5(a)(10)                                                           recommendations by SIGTARP are              Section 5: “SIGTARP Recommendations”
           reasons such management decision has not been
                                                                   still open.
           made, and a statement concerning the desired
           timetable for achieving a management decision...”
                                                                   Explain audit reports in which              Section 1: “The Office of the SIGTARP”
Section    “A description and explanation of the reasons for
                                                                   significant revisions have been made to
5(a)(11)   any significant revised management decision...”                                                     Section 5: “SIGTARP Recommendations”
                                                                   management decisions.
           “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
Section                                                            Provide information where management
           management decision with which the Inspector
5(a)(12)                                                           disagreed with a SIGTARP audit finding.     Section 5: “SIGTARP Recommendations”
           General is in disagreement...”
390           Appendix H I public announcements of audits I JULY 24, 2013




      Public Announcements of Audits
      This appendix provides an announcement of new and                     GAO3
      ongoing public audits by the agencies listed below, as of             Ongoing Audits
      June 30, 2013. See Appendix I: “Key Oversight Reports                 •	 For July 8, Treasury’s use of auctions to exit CPP.
      and Testimony” for a listing of published reports. Italic             •	 Currently we are planning a report on AIFP in September,
      style indicates narrative taken verbatim from the agencies’              although that could change to a later date.
      responses to SIGTARP’s data call.                                     •	 The Financial Audit will be in November, as usual.
      •	 U.S. Department of Treasury Office of Inspector General            •	 The current plan is to do another HAMP report in January.
          (“Treasury OIG”)
      •	 Federal Reserve Board Office of Inspector General                  FDIC OIG4
          (“Federal Reserve OIG”)                                           Ongoing Audits
      •	 Government Accountability Office (“GAO”)                           •	 None
      •	 Federal Deposit Insurance Corporation Office of Inspector
          General (“FDIC OIG”)                                              Endnotes
                                                                            1
                                                                              Treasury OIG, response to SIGTARP data call, 6/29/2013.
                                                                            2
                                                                              Federal Reserve OIG, response to SIGTARP data call, 7/8/2013.
      Treasury OIG1                                                         3
                                                                              GAO, response to SIGTARP data call, 7/2/2013.
      Ongoing Audits
                                                                            4
                                                                              FDIC OIG, response to SIGTARP data call 7/1/2013.

      •	 None

      Federal Reserve OIG2
      Ongoing Audits
      •	 None
                                                                                 key oversight reports and testimonY I Appendix I I JULY 24, 2013     391




Key Oversight Reports and Testimony
This list reflects TARP-related reports and testimony published in the quarter ended June 30, 2013.
See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

U.S. DEPARTMENT OF THE TREASURY (Treasury)
ROLES AND MISSION

The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
institutions.

OVERSIGHT REPORTS

Treasury, Transactions Report, 3/28/2013 – 6/28/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/7-2-13%20
Transactions%20Report%20as%20of%206-28-13_INVESTMENT.pdf, accessed 7/3/2013. (released weekly)

Treasury, Daily TARP Update, 4/1/2013 – 7/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20
Update%20-%2007.01.2013.pdf, accessed 7/3/2013.

Treasury, TARP Monthly 105(a) Report, 4/10/2013 – 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-
Congress.aspx, accessed 7/10/2013.

Treasury, Dividends and Interest Report, 4/10/2013 – 7/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Dividends-and-
Interest-Reports.aspx, accessed 7/10/2013. (released monthly)

Treasury, Making Home Affordable Program Report, 4/5/2013 – 7/12/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Making-
Home-Affordable-Program-Performance-Report.aspx, accessed 7/12/2013. (released monthly)

Treasury, HAMP Activity by Metropolitan Statistical Area, 4/5/2013 – 7/12/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/
HAMP-Report.aspx, accessed 7/12/2013. (released monthly)


GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION

GAO is tasked with performing ongoing oversight of TARP’s performance, including:

•	   evaluating the characteristics of asset purchases and the disposition of assets acquired
•	   assessing TARP’s efficiency in using the funds
•	   evaluating compliance with applicable laws and regulations
•	   assessing the efficiency of contracting procedures
•	   auditing TARP’s annual financial statements and internal controls
•	   submitting reports to Congress at least every 60 days.


OVERSIGHT REPORTS

GAO, “Capital Purchase Program: Status of the Program and Financial Health of Remaining Participants,” GAO-13-458, May 7, 2013, www.gao.gov/
assets/660/654400.pdf, accessed 7/3/2013.
392           Appendix I I key oversight reports and testimonY I JULY 24, 2013




      SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
      ROLES AND MISSION

      Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
      the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).

      SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
      coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

      OVERSIGHT REPORTS

      SIGTARP, “Banks that Used the Small Business Lending Fund to Exit TARP,” 4/9/2013, www.sigtarp.gov/Audit%20Reports/SIGTARP_SBLF_Report.pdf,
      accessed 7/3/2013.

      SIGTARP, “Quarterly Report to Congress,” 4/24/2013, www.sigtarp.gov/Quarterly%20Reports/April_24_2013_Report_to_Congress.pdf, accessed
      7/3/2013.

      RECORDED TESTIMONY
      SIGTARP, Statement of the Honorable Christy Romero, Special Inspector General for the Troubled Asset Relief Program (SIGTARP), Before the
      U.S. House Committee on Oversight and Government Reform, 4/24/2013, www.sigtarp.gov/Testimony/SIGTARP_House_Oversight_Committee_
      Testimony_Apr_24_2013.pdf, accessed 7/3/2013.
      Notes: Italic style indicates verbatim narrative taken from source documents.

      Sources: Treasury, www.treasury.gov, accessed 7/3/2013; GAO, www.gao.gov, accessed 7/3/2013; OMB, www.whitehouse.gov/omb, accessed 7/3/2013; SIGTARP, www.sigtarp.gov, accessed
      7/3/2013; GAO, response to SIGTARP data call, 7/2/2013.
                                                                                    correspondence I Appendix J I JULY 24, 2013   393




Correspondence
This appendix provides a copy of the following correspondence:

Correspondence
Date           From             To              Regarding
4/1/2013       SIGTARP          Treasury        Recommendations Regarding the Home Affordable Modification Program ("HAMP")
7/5/2013       Treasury         SIGTARP         Treasury Response to SIGTARP HAMP Default Recommendations
394   Appendix J I correspondence I JULY 24, 2013
correspondence I Appendix J I JULY 24, 2013   395
396   Appendix J I correspondence I JULY 24, 2013
correspondence I Appendix J I JULY 24, 2013   397
398   Appendix J I correspondence I JULY 24, 2013
                                                                               Peer Review Results I Appendix K I JULY 24, 2013   399




Peer Review Results
Peer Review of SIGTARP’s Audit Division                          Peer Review of SIGTARP’s Investigations Division
In September 2012, SIGTARP’s Audit Division passed               In August 2012, SIGTARP’s Investigations Division passed
its mandated external peer review with the highest rating        its mandated external peer review with the highest rating
possible, a peer review rating of pass. Government Auditing      possible, a peer review rating of compliance with the quality
Standards requires Federal Offices of Inspector General          standards established by CIGIE and the applicable Attorney
that perform audits or attestations in accordance with           General guidelines.
generally accepted government auditing standards to have an          The Department of Education Office of Inspector General
appropriate system of quality control and to undergo external    (“DE OIG”) conducted a comprehensive peer review of the
peer reviews at least once every three years. The SIGTARP        SIGTARP Investigations Division’s system of internal safe-
Audit Division began operating in early 2009, and this was its   guards and management procedures.
first peer review.                                                   On August 29, 2012, the DE OIG’s report concluded that
    The Railroad Retirement Board Office of Inspector            SIGTARP’s system of internal safeguards and management
General (“RRB OIG”) conducted a comprehensive peer               procedures for its investigative functions in effect for the
review of the SIGTARP Audit Division’s system of qual-           period ending May 2012 was in compliance with the quality
ity control in accordance with Government Auditing               standards established by CIGIE and the applicable Attorney
Standards and guidelines established by the Council of the       General guidelines. These safeguards and procedures provide
Inspectors General on Integrity and Efficiency (“CIGIE”). On     reasonable assurance of conforming with professional stan-
September 4, 2012, the RRB OIG issued its System Review          dards in the planning, execution, and reporting of SIGTARP’s
Report on the operations of SIGTARP’s Audit Division. The        investigations.
report noted that “the system of quality control for SIGTARP         The report is available on SIGTARP’s website at
in effect for the year ended March 31, 2012, has been suit-      www.SIGTARP.gov, under “Audit and Other Reports.”
ably designed and complied with to provide SIGTARP with
reasonable assurance of performing and reporting in confor-
mity with applicable professional standards in all material
respects.”
    The report is available on SIGTARP’s website at
www.SIGTARP.gov, under “Audit and Other Reports.”
                                                                                                                                                                                                                                                              400



    Organizational Chart

                                                                                                                                 Special Inspector General
                                                                                                                                     Christy Romero

                                                                                                                                                                                                 EEO Program
                                                                                                                                                                                                   Manager
                                                                                                                                                                                                Raymond Campbell
                                                                                                                                       Deputy Special
                                                                                                                                     Inspector General
                                                                                                                                         Peggy Ellen
                                                                         Senior Policy Advisor                                                                               Chief of Staff
                                                                              Brian Sano                                                                                          Vacant
                                                                                                                                                                                                                                                              Appendix L I organizational chart I JULY 24, 2013




                          Deputy SIG –                 Deputy SIG –                          Deputy SIG –                              Deputy SIG –                             Deputy                     Deputy SIG –
                         Investigations                 Reporting                             Legal and                                 Audit and                            Chief of Staff                 Operations
                         Scott Rebein                       Mia Levine                      External Affairs                           Evaluations
                                                                                                                                                                             Charles Jones                   Cathy Alix
                                                                                           Roderick Fillinger                              Vacant


 Chief Investigative         ADSIG                     Managing Editor                      Deputy General                               Assistant              Director of Policy     ADSIG − Support       ADSIG − HR     ADSIG − CIO      ADSIG − CFO
      Counsel                                                                                                                           Deputy SIG –
                                                                                               Counsel                                                         and Administration         Services
                             Vacant                   Maryann Haggerty                                                                                                                                        Sally Ruble   Sangeeta Saraf   Deborah Mathis
    Kevin Gerrity                                                                             Lori Wagner
                                                                                                                                         Audit and                 Judith Grady         Lynn Perkoski
                                                                                                                                        Evaluations

   Assistant Chief        Investigative
                                                                                                                                    Bruce Gimbel (Acting)
Investigative Counsel      Operations
     Rae Oliver                                                               Director of                 Director of
                                                                            Communications             Legislative Affairs
                                                                              Troy Gravitt             Joseph Cwiklinski
Investigative Counsel       HQ Operations



                                Hotline
                                                                                                                   Director                Director              Director
                                                                                                                Leslye Burgess           Craig Meklir           Eric Mader
                         Computer Forensics


                                                                                                             Auditors & Analysts      Auditors & Analysts   Auditors & Analysts




       Note: SIGTARP Organizational chart as of 7/8/2013.
SIGTARP
SIG-QR-13-03

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
